<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2011</title>
<body><pre>[Senate Hearing 111-999]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 111-999

                                                        Senate Hearings

                                 Before the Committee on Appropriations

_______________________________________________________________________


                                            Commerce, Justice, Science,

                                                   and Related Agencies

                                                         Appropriations

                                                            Fiscal Year
                                                                   2011


                                         111th CONGRESS, SECOND SESSION

                                                                S. 3636

DEPARTMENT OF COMMERCE

DEPARTMENT OF JUSTICE

NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

NONDEPARTMENTAL WITNESSES
    Commerce, Justice, Science, and Related Agencies, 2011 (S. 3636)




                                                        S. Hrg. 111-999

  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2011

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   on

                                S. 3636

   AN ACT MAKING APPROPRIATIONS FOR THE DEPARTMENTS OF COMMERCE AND 
 JUSTICE, AND SCIENCE, AND RELATED AGENCIES FOR THE FISCAL YEAR ENDING 
               SEPTEMBER 30, 2011, AND FOR OTHER PURPOSES

                               __________

                         Department of Commerce
                         Department of Justice
             National Aeronautics and Space Administration
                       Nondepartmental Witnesses

                               __________

         Printed for the use of the Committee on Appropriations


       Available via the World Wide Web: http://www.gpo.gov/fdsys

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
54-959                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6601160926051315120e030a164805090b48">[email&#160;protected]</a>  


                      COMMITTEE ON APPROPRIATIONS

                   DANIEL K. INOUYE, Hawaii, Chairman
ROBERT C. BYRD, West Virginia        THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            CHRISTOPHER S. BOND, Missouri
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
BARBARA A. MIKULSKI, Maryland        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 JUDD GREGG, New Hampshire
PATTY MURRAY, Washington             ROBERT F. BENNETT, Utah
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
DIANNE FEINSTEIN, California         SAM BROWNBACK, Kansas
RICHARD J. DURBIN, Illinois          LAMAR ALEXANDER, Tennessee
TIM JOHNSON, South Dakota            SUSAN COLLINS, Maine
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
FRANK R. LAUTENBERG, New Jersey
BEN NELSON, Nebraska
MARK PRYOR, Arkansas
JON TESTER, Montana
ARLEN SPECTER, Pennsylvania

                    Charles J. Houy, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

    Subcommittee on Commerce, Justice, Science, and Related Agencies

                BARBARA A. MIKULSKI, Maryland, Chairman
DANIEL K. INOUYE, Hawaii             RICHARD C. SHELBY, Alabama
PATRICK J. LEAHY, Vermont            JUDD GREGG, New Hampshire
HERB KOHL, Wisconsin                 MITCH McCONNELL, Kentucky
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
DIANNE FEINSTEIN, California         LAMAR ALEXANDER, Tennessee
JACK REED, Rhode Island              GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey      LISA MURKOWSKI, Alaska
BEN NELSON, Nebraska                 THAD COCHRAN, Mississippi (ex 
MARK PRYOR, Arkansas                     officio)

                           Professional Staff

                            Gabrielle Batkin
                            Jessica M. Berry
                             Jeremy Weirich
                            Jean Toal Eisen
                         Art Cameron (Minority)
                        Allen Cutler (Minority)
                       Goodloe Sutton (Minority)

                         Administrative Support

                              Michael Bain
                         Katie Batte (Minority)
                            C O N T E N T S

                              ----------                              

                        Thursday, March 4, 2010

                                                                   Page

Department of Commerce: Secretary of Commerce....................     1

                        Thursday, April 15, 2010

Department of Justice: Federal Bureau of Investigation...........    51

                        Thursday, April 22, 2010

National Aeronautics and Space Administration....................   105

                         Thursday, May 6, 2010

Department of Justice: Attorney General..........................   233
Nondepartmental Witnesses........................................   349

 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2011

                              ----------                              


                        THURSDAY, MARCH 4, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:59 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Barbara A. Mikulski (chairwoman) 
presiding.
    Present: Senators Mikulski, Pryor, and Shelby.

                         DEPARTMENT OF COMMERCE

                         Secretary of Commerce

STATEMENT OF HON. GARY F. LOCKE, SECRETARY
ACCOMPANIED BY APRIL BOYD, ASSISTANT SECRETARY FOR LEGISLATIVE AND 
            INTERGOVERNMENTAL AFFAIRS


            OPENING STATEMENT OF SENATOR BARBARA A. MIKULSKI


    Senator Mikulski. Good morning. The Subcommittee on 
Commerce, Justice and Science will come to order.
    This is the first hearing of the--on the President's 
appropriations, and we will be taking testimony from the 
Department of Commerce and its Secretary, The Honorable Gary 
Locke. We note that the Secretary has been asked to be with the 
President at 11:30, so we would hope to conclude his testimony 
no later than 11:15.
    And, Mr. Secretary, we'll try to work with you on that.
    My colleague, Senator Shelby, is on his way, but I wanted 
to move to some other items before we turn to the Secretary for 
his testimony.
    This subcommittee, in the spirit of reform, wants very much 
to get, really, value for the taxpayers' dollar. We will be 
availing ourselves of the excellent work done by the Inspector 
General and by our own arm, the Government Accountability 
Office, to give us advice and direction on how we can make 
wiser use of the taxpayers' dollars, stand sentry over cost 
overruns, and either clean up, or avoid, boondoggles.
    At the conclusion of Mr. Locke's testimony, we will turn to 
the Inspector General, Mr. Zinser, to give us his observations, 
insights, and recommendations on how, using the power of the 
purse, we get more value in the purse. And we will take the 
inspector general's report that he sent to the Office of the 
Secretary in January, and we will be using that as guiding 
principles.
    And I will be asking, Mr. Secretary, some of those 
questions ourselves--the issues related to the census, the 
issues related to the overruns at NPOESS, the insurance of 
cybersecurity initiatives, and also how to really deal with the 
perennial and persistent backlog at the Patent Office.
    We're excited about you being here today, and as we 
listened to the President's State of the Union, and carefully 
noted his appropriation request, we were heartened that the 
President and you share the same vision as this subcommittee, 
which is that the Commerce Department has all of the incredible 
agencies that form national assets to generate jobs in the 
United States of America, whether it's a robust effort on trade 
and export, making trade a two-way street--and not only for the 
big--not only for the big guys that are international, iconic 
brands, but small- to medium-sized businesses that are 
flourishing in my own State, be they Ellicott Machinery, which 
you visited and we appreciated, that has been dredging since 
the Panama Canal days, but how we can make sure that exports 
and the way we function--make sure that small- and medium-sized 
business know how to really participate in this dynamic new 
global market.
    The other, looking at the Economic Development 
Administration, how that can be used as engines in local 
communities, not to just recycle the thinking of the old, like, 
``Give us the money and we're going to build an industrial park 
and hope a warehouse comes.'' Been there, done that, think we 
can get more value for our dollar, and more business growth, 
more job growth, if we use it. And we look forward to your 
vision and whether it has a realistic revenue request to it.
    We're very proud of the National Institute of Standards and 
Technology, because you cannot compete in a global marketplace 
without standards. You can't--you can invent a product, but in 
order to produce the product, there must be standards.
    We want those standards invented in the United States of 
America, working with our treasured allies. We want it to be 
``The Freedom Standard,'' not ``The China Standard''--that is 
not a xenophobic reaction, but where there are democracies that 
have shown a robust desire for open and free markets, just like 
open and free speech.
    You have the EU standard, we have our standard, there's the 
great harmonization. This gives us a great trading way, where 
we're not fighting over it. But he who controls the standard 
can control production and trade. So, that's why I want a 
freedom standard, looking at those countries that believe in 
freedom.
    So, we're looking at the appropriations. We are pleased to 
be joining, again, with Senator Richard Shelby from Alabama. 
This subcommittee has always enjoyed a bipartisan effort.
    So, our goal will be, No. 1, to be able to create jobs, 
generate jobs using the tools of the Federal Government to do 
that in the private sector. At the same time, there are 
constitutional obligations in the census.
    We know that the President has provided, for the overall 
Commerce Department, an $8.9 billion request. This is less than 
last year, but it doesn't truly reflect the ongoing basic needs 
of the agency. There's a $5 billion decrease, because we will 
be in the final stages of the 10-year census, and we'll be 
scaling back from $7.3 billion to $1.2 billion.
    We'll have questions on the census, because we're really 
apprehensive about how the census will be conducted. We believe 
that every person here counts, and every person ought to be 
counted; and we've got to be able to count on the census to get 
it right.
    As I said, few other departments have all of the agencies 
in place for America to be competitive and innovative in the 
new economy. Commerce's science and research programs use tech 
transfer to help and manufacture small businesses. Funding for 
the EDA continues to create financial links for high 
unemployment communities. We want to connect business with our 
agencies to be able to move ahead.
    The new technologies and ideas deserve protection. This is 
why we support so strongly the Patent and Trademark Office. 
Last year--or this year--four--it sounds like a number in a 
lotto--four-four-four million--$444 million in fee revenue from 
this year allowed them to better protect intellectual property.
    In the area of international trade, there is going to be an 
increase of $87 million, which we will--hope will be a new 
export push. Often, in the past, the Secretary of Commerce, and 
his agency, was looked upon to be the super sales agent for 
American business. And that wasn't a bad model, in another 
century, in another economy.
    Now, we need our Secretary to be the chief executive 
officer of the Commerce Department, using every resource, and 
leveraging it, and making sure that we're in the global 
business, which is IT.
    We also want to make sure that these agencies carry out 
their mission, and we will be looking to be sure that we are 
dealing with any potential issues related to boondoggle.
    We have to keep an eye on the 2010 census operations. The 
overall census will cost $14.7 billion, making this the 
highest-cost census ever. Even though the 2011 request from the 
census has decreased, the oversight and accountability must be 
continued.
    Two years ago, we learned that the hand-held computer 
system that we bought was a techno-boondoggle, forcing the 
census takers to revert back to a paper-based system. Now we've 
learned that, without any real-time data this year, the Bureau 
of the Census may be unable to move resources quickly to 
achieve a complete count, and to ensure that that is accurate. 
I want to know what the census is--what is the issue around the 
census, to make sure we're functioning properly.
    I also want to talk about NPOESS and NOAA. And I'll ask 
more questions about NOAA. We're very concerned that NPOESS, 
under the old framework, was eating as much as 36 percent of 
the NOAA appropriations. Wow, when they have so much to do--
other weather issues, the management of our fisheries, climate 
data--that's important for policymakers to determine the nature 
of global warming. And what we understand now is that there's 
going to be a divorce between NASA, the Air Force, and NOAA. We 
would like to know what it will be and how to ensure that these 
very costly--that the overruns don't continue, that for all of 
the money that we spent, we actually get science and 
information that greater protects the planet, and that we will 
now come to the point to have increased discipline.
    The other issue is the Patent Office. And in the Patent 
Office, we've been continually concerned about cost overruns. 
We will be interested to know, in your testimony or in the Q&A, 
how you intend to reduce the backlog, which was a persistent 
problem often tied to poor morale, poor communication--gosh, we 
have lots of GAO and other internal reports that do that. 
Knowing of your strict adherence to management principles, we'd 
like to know how you've gotten a handle on this, even if you've 
gotten one at all; what would be the path forward. If we invent 
it, we want to protect it.
    So, we look forward to hearing your testimony, and I want 
to turn to Senator Richard Shelby.


             OPENING STATEMENT OF SENATOR RICHARD C. SHELBY


    Senator Shelby. Thank you, Senator Mikulski--Madam 
Chairwoman.
    This is the beginning of our fifth year working together on 
this subcommittee. We work closely together, sharing many of 
the same goals and expectations for the agencies that we 
oversee here. I'm pleased to serve beside you, once again, and 
want to thank you for your continued leadership on so many of 
these subjects.
    I also welcome you back, Mr. Secretary--Secretary Locke--
along with Inspector General Zinser, and look forward to 
learning more about your 2011 budget request for the Department 
of Commerce and what the Inspector General is doing to ensure 
that the Department's programs are being run efficiently.
    The Nation relies heavily on the Department of Commerce to 
maintain America's competitiveness within the markets around 
the world. The Department provides avenues to promote the 
products and services of U.S. businesses, and then helps level 
the playing field by expanding, strengthening, and enforcing 
our international trade agreements.
    Although, through the Department of Commerce, our country 
is able to maintain high technical standards as well as staying 
on the cutting edge of scientific research--all of which are 
fundamental to our Nation's leadership in the global 
marketplace--in particular, one area of the budget requests 
that accomplish this objective is a 7.3 percent increase in the 
National Institute of Standards and Technology's budget line. 
The $918.9 million request maintains the commitment to budget 
levels authorized by the COMPETES legislation.
    Key thrusts of this request will enable NIST to expand 
research on measurements and standards related to 
cybersecurity, health IT, the Smart Grid, and manufacturing 
applications.
    Mr. Secretary, today we will also hear about programs that 
are not nearly as successful, and some that are complete 
failures. The administration has put forth a Department of 
Commerce budget request that attempts to balance priorities 
with a freeze on discretionary spending. Yet, this budget 
proposes $1.1 billion increase, accomplished by offsetting 
reductions in the one-time cost of the decennial census and 
providing the Department of Commerce with a significant 
increase in base spending. This budget simply hides a massive 
spending increase under the guise, I believe, of fiscal 
discipline through a hidden spending reduction.
    Mr. Secretary, over the past year, we've learned of cost 
and schedule overruns within NOAA--within the NOAA Satellite 
Acquisition Programs--numerous information technology failures, 
disconcerting treatment of our fisheries, and glaring failures 
at the census. The National Oceanic and Atmospheric 
Administration, NOAA, faces many challenges in the year 2011, 
including the creation of the National Climate Service, the 
reorganization of the National Polar Orbiting Satellite 
Program, as well as addressing the system vulnerabilities of 
NOAA weather satellite data to security breaches.
    Mr. Secretary, there are some proposed improvements in the 
management of NPOESS, but these changes are only cosmetic, I 
think. This restructuring will cost the taxpayers $5 billion 
more than the original estimate. And, ``What will this 
additional funding get the American taxpayer'' is the question. 
Two satellites, which is four less than the six originally 
required.
    I wish the failure of NPOESS was the only bad news to 
report about the management of national environmental satellite 
data and information services, but I believe there's more. For 
at least 4 years, NOAA has operated high-impact systems without 
the required security controls. The inspector general's 2009 
Federal Information Security Management Act assessment of the 
Environmental Satellite Processing Center indicates that 110 of 
134--or 82 percent--of the required security controls that 
should be implemented to control access to devices and 
information at the Center are lacking or nonexistent.
    The inspector general indicates that, because of the lack 
of any security planning, the number of security 
vulnerabilities cannot ever be calculated. These failures show 
that the Department of Commerce is lacking in the competencies 
required to procure, operate, and protect the Government 
systems and the information they contain. The Department's 
total disregard for the sensitive information to which it's 
entrusted is an abomination. And if there is not a significant 
correction in the Department's direction, I will recommend that 
these programs, and any others that the IG questions, be ended.
    From this point forward, the Department should be better 
served--would be better served to focus its attention on 
addressing the shortcomings and less on providing commentary to 
the IG's findings. Mr. Secretary, as NOAA attempts to actually 
manage NPOESS adequately, I'm concerned it may be doing the 
exact opposite of our Nation's fisheries, through over-
regulation.
    The Red Snapper Fishery provides valuable commercial and 
recreational opportunities in my State of Alabama, as well as 
being an enormous contributor to the economy. Both the 
fishermen's observations in my State and NOAA's own data show a 
dramatic increase in the nature of catchable red snapper in the 
Gulf of Mexico, and that's good. And yet, catch limits remain 
low and the season is shortened every year.
    While we need to promote the health of this fishery, I 
believe we must balance environmental concerns with economic 
well-being. We cannot overburden the hardworking men and women 
in the gulf whose livelihood depends on fishing by restricting 
their catch based on faulty science and data collection.
    Today in the gulf, NOAA is continuing to put catch limits 
on fishermen when it lacks any comprehensive independent 
fisheries data that is critical to making accurate assessments 
of the health of the red snapper populations.
    Without this independent, scientific information, the 
fishery and NOAA must rely on the fishery-dependent data, which 
are inherently biased against the fishermen and do not provide 
an accurate picture of the red snapper population.
    I understand NOAA is required to end overfishing and 
rebuilt overfished stocks; we're all for that. But, fishermen 
along the gulf coast have suffered severe cutbacks in their 
catches for many years. If the science shows that stock is as 
healthy as it seems to be, I believe it's time for fisherman to 
benefit from their sacrifices.
    Mr. Secretary, I want to work with you to make certain that 
NOAA has the resources to collect the independent data to 
implement fair and adequate fisheries management, and I believe 
you do, too.
    Finally, Mr. Secretary, the Department is about to reach 
the height of, arguably, it's most important mission this year, 
the 2010 census. The census is vastly important to the 
representation in Congress and the allocation of Federal funds. 
It must proceed in as reliable and accurate manner as possible. 
This is an enormous undertaking that's already faced many 
challenges, as we both know.
    During the 2010 census, the Department intended to 
incorporate new technology to reduce cost and to improve 
accuracy. Instead, we--the U.S. taxpayer--paid $595 million for 
a technology that could not be operated and cannot be 
implemented.
    The census has now turned back to the antiquated, paper-
based accounting method. After wasting millions for the 
Department to revert back to paper and pencil counting, the 
Census Office spent $2.5 million on a Super Bowl commercial to 
advertise that the census is required by law.
    Further, the Bureau of the Census will also hire hundreds 
of thousands of temporary workers as part of their effort to 
count every single person in the Nation. There are disturbing 
news reports that 10,000 temporary hires were paid $3 million 
for doing no work, another $1.5 million was wasted on paying 
5,000 people who worked for a single day or less, while an 
additional 581 employees have submitted questionable mileage 
reimbursement requests, and so on.
    Mr. Secretary, there are many managerial failures at the 
Department of Commerce--and I realize it's big--many of which 
are highlighted today. The acquisition history of NPOESS, the 
overly restrictive management of the gulf fisheries, as well as 
the failed acquisition of the census hand-held demonstrates 
that management and acquisition oversight does not exist at the 
Department. Just these few examples show a systematic failure 
in the leadership at the Department I believe you need to 
address, and I believe you will.
    Thank you.
    Senator Mikulski. Mr. Secretary, we've got a big agenda and 
a little bit of time, so why don't you proceed?


                    STATEMENT OF HON. GARY F. LOCKE


    Secretary Locke. Thank you very much, Chairwoman Mikulski 
and Ranking Member Shelby. It's a pleasure to be here.
    All right, there we go.
    Chairwoman Mikulski and Ranking Member Shelby, thank you 
very much. We're really pleased to join you to talk about the 
Department of Commerce's fiscal year 2011 budget, as proposed 
by President Obama.
    With the 2010 census field operations ending this year, the 
President's $8.9 billion budget request decreases overall 
spending from fiscal year 2010, but funds targeted increases 
for vital economic priorities, because, in these challenging 
times, the central mission of the Department of Commerce could 
not be more straightforward: helping American businesses become 
more competitive so they put more people back to work.
    I want to highlight four areas where the Commerce 
Department's efforts, described in the fiscal year 2011, budget 
are integral to that goal of putting more people back to work.
    First, businesses use our unparalleled statistical and 
technical research to develop new products, identify new 
markets, and make long-term investments. The National Institute 
of Standards and Technology, NIST, provides metrics that enable 
development of everything from a national Smart Grid, advanced 
manufacturing processes, to airport screening devices and new 
cybersecurity measures. As well, NIST provides consulting 
services to American manufacturers to become more efficient and 
profitable so they become more viable and competitive in a 
global economy.
    Increasingly, businesses are turning to NOAA for its 
unmatched weather and climate observations, and much of NOAA's 
2011 budget increase will finance NOAA's added responsibilities 
to implement that long-called-for restructuring of the National 
Polar-orbiting Operational Environmental Satellite System, 
called NPOESS. This effort will help us better meet civil and 
military weather forecasting, storm tracking, and climate 
monitoring requirements.
    At a time where both businesses and President Obama have 
called for more accurate and readily available climate 
information, the 2011 budget assigns additional 
responsibilities to NOAA's proposed new Climate Service line 
office, which is the result of a proposed reorganization to 
bring together its observational and analytical resources, now 
scattered throughout NOAA, all under one roof.
    A second key function of the Department of Commerce is 
overseeing the patent protection that has incentivized American 
inventors and entrepreneurs to create for more than 200 years. 
When I came to the Department of Commerce, the Patent and 
Trademark Office had a backlog of almost 800,000 patent 
applications and an over-3-year waiting period for an up-or-
down determination on a patent application. We've already taken 
important steps to fix these problems, working with the 
employees and their representatives, knowing that every patent 
application waiting in line could be a new product not going to 
market and a new job not being created.
    And through its short-term fee surcharge and other fee 
provisions, as well as make critical investments and upgrades 
to outdated IT systems, the 2011 budget will, along with 
management innovations and employee-driven process 
improvements, help the Patent and Trademark Office to whittle 
down the time it takes to grant or deny many patent 
applications to within 12 months by the year 2014, except those 
innovations that are also seeking FDA approval.
    Area No. 3, Commerce provides direct consultation and 
funding to help communities develop crucial economic 
infrastructure. And through the Recovery Act's Broadband 
Technology Opportunities Program, or BTOP, by tomorrow we will 
have provided over $1 billion to lay or activate over 20,000 
miles of networked, high-speed Internet lines in underserved 
communities. The 2011 budget provides critical funding to 
ensure that all projects have rigorous oversight.
    And this is a true public/private partnership, because just 
as the Federal Government might fund construction of a highway 
across a State and then have local governments build the 
streets that branch off of it, our infrastructure grants for 
high-speed Internet funds super high-speed Internet lines, or 
highways, that local providers, private sector, will then 
connect to, or tap into, to bring high-speed Internet service 
directly to homes and businesses.
    The 2011 budget also provides $75 million to our Economic 
Development Administration for planning and infrastructure 
grants to help communities identify their unique economic 
strengths and then develop regional innovation clusters, 
similar to what we've seen in Silicon Valley or the famous 
Route 128 corridor in Boston.
    Area No. 4, in foreign countries, the Commerce Department 
serves as the lead advocate for U.S. companies looking to break 
into new markets or to grow their share in existing ones. The 
2011 budget proposal provides a 20-percent increase to the 
International Trade Administration, which, among other things, 
will allow us to hire some 328 new trade specialists, mostly 
stationed in foreign countries, to seek out new customers and 
buyers for American-made goods. When American companies export 
more, they manufacture more. When they manufacture more, they 
hire more people.
    International Trade Administration will play a key role in 
implementing the President's National Export Initiative, which 
aims to double America's exports over the next 5 years and 
support 2 million new jobs.
    As we implement all of these programs, results, cost-
effectiveness, and accountability are paramount objectives. So, 
we take to heart the Department's managerial challenges and 
operational issues, as identified by our inspector general, 
Todd Zinser, and his staff. His findings are acted upon and 
used to reevaluate other operations and serve as benchmarks or 
metrics of performance improvement. And we support the 
President's proposed 2011 budget to provide increased funding 
to the inspector general's office for increased oversight of 
our Department's acquisitions and contracts.


                           PREPARED STATEMENT


    So, I thank you for the opportunity to come before you 
today. I know you have several questions, as you've already 
indicated. We thank you for your continuing support of the 
Department of Commerce and its programs, and we look forward to 
this exchange.
    [The statement follows:]

                Prepared Statement of Hon. Gary F. Locke

    Chairwoman Mikulski, Ranking Member Shelby, and distinguished 
members of the subcommittee, I am pleased to join you today to talk 
about the Department of Commerce and the President's budget for fiscal 
year 2011. It has been my privilege to serve the American people for 
the past year, and I am grateful for President Obama's continued 
confidence in my ability to lead this great agency. We have 
accomplished a great deal since the beginning of this administration, 
and the subcommittee has played a critical role both in providing 
resources and conducting oversight to ensure that the Department 
achieves its mission.
    Having steered the economy back from the brink of a depression, the 
administration is committed to moving the Nation from recession to 
recovery by sparking job creation to get millions of Americans back to 
work and building a new foundation for the long-term prosperity for all 
American families. To do this, the fiscal year 2011 budget makes 
critical investments in the key areas that will help to reverse the 
decline in economic security that American families have experienced 
over the past decade.
    But even as we meet the challenge of the recession and work to 
build an economy that works for all American families, we must also 
change the way Washington does business--fixing programs that don't 
work, streamlining those that do, cracking down on special interest 
access, and bringing a new responsibility to how tax dollars are spent. 
I have been working hard to improve the way the Department of Commerce 
serves its customers, especially American entrepreneurs and businesses, 
the backbone of our Nation's economy. The Department is focused on 
strengthening the conditions for economic growth and opportunity by 
promoting innovation, entrepreneurship, competitiveness, and 
stewardship. The fiscal year 2011 budget reflects this ethic and will 
allow the Department of Commerce to better meet the needs of the 
American people.
    The request of $8.9 billion will enable the Department to 
effectively promote strong and equitable trade relationships critical 
to sustaining our Nation's ability to successfully compete in the 
global marketplace, improve our scientific and technological 
capabilities, upgrade our capabilities for weather and climate 
observations and forecasting, and ensure the long-term economic and 
ecological sustainability of our natural resources. This request is a 
significant decrease from our fiscal year 2010 appropriation, since 
major field operations for the decennial census will be completed in 
the current year.
    The decennial census is an enormous undertaking, and we are urging 
everyone to mail in their forms this month. An increase of just 1 
percent in the response rate will save the taxpayers roughly $80 
million. The Census Bureau is focusing extensive advertising and 
partnership activities on hard-to-reach populations, to encourage a 
high response rate and help meet our goal of achieving the most 
complete and accurate count of the Nation's population to date. We have 
expanded and accelerated those activities, with the subcommittee's 
support, using funds provided in the Recovery Act. Our partnership 
efforts have been well-received--we have already enlisted 207,000 
partners. For comparison, at the end of the census in 2000 we had 
140,000 partners. Our decision to advertise during the Super Bowl 
succeeded in reaching a massive audience--it was the most-watched TV 
event in history, with 116 million viewers. The results of these 
activities are promising: in the last 3 months, the share of people who 
have heard something about the census has increased from 35 percent to 
75 percent, and the share of people who say they definitely or most 
likely will complete the census has gone from 77 percent to 85 percent.
    Implementing all our Recovery Act programs effectively and 
efficiently remains a key priority for the Department this year and in 
the future. We have completed the Digital TV Converter Box Coupon 
program and returned unused funds to the Treasury. The pace of our 
grant and contract awards is increasing, and we remain on schedule to 
complete all awards this year. By the end of this week, we will have 
awarded 111 Broadband Technology Opportunity Program (BTOP) grants 
totaling $1.1 billion. For example, a $39.7 million broadband 
infrastructure grant to the ION Upstate New York Rural Broadband 
Initiative will serve more than 70 rural communities in upstate New 
York and parts of Pennsylvania and Vermont by constructing a 1,308 mile 
network and immediately connecting more than 100 anchor institutions, 
including libraries, State and community colleges, and health clinics. 
Our second round of grants will focus on expanding Middle Mile 
broadband infrastructure that connects critical community anchor 
institutions--such as schools, hospitals, libraries, and public safety 
agencies--and attracts end-user connections provided by the private 
sector to consumers and businesses, creating a ripple effect of 
economic development throughout communities.
    Having addressed such critical needs, the fiscal year 2011 
President's budget is designed to help put our country back on a 
fiscally sustainable path. This will require a high level of budgetary 
discipline and a number of hard choices and painful tradeoffs. 
Nonetheless, the budget includes targeted investments in Commerce 
programs that meet major national needs, like export promotion that 
supports job creation, and research and development that can spur new 
ideas, new products, and new industries.
    The budget provides $534 million, a 20-percent increase, to the 
International Trade Administration (ITA), for its role in the National 
Export Initiative, a broad Federal effort to increase American exports. 
ITA will strengthen its efforts to promote exports from small- and 
medium-size enterprises, help enforce U.S. trade law, fight to 
eliminate barriers to sales of American products and services and 
improve the competitiveness of U.S. firms. President Obama has issued a 
challenge to double U.S. exports over the next 5 years. By increasing 
the number of U.S. firms that export and enabling them to increase 
their volume of exports, new higher-wage jobs will be created, and U.S. 
companies will be better able to compete in the expanding global 
marketplace.
    The budget includes $919 million for the National Institute of 
Standards and Technology (NIST), as part of the President's Plan for 
Science and Innovation. This proposed increase reflects the critical 
role that measurement science, standards, and technology services play 
in fostering innovation and encouraging economic growth. To support and 
enhance our world leadership in the physical sciences and technology, 
the NIST laboratories would address critical challenges in 
manufacturing, advanced alternative energy sources, cyber security, the 
Smart Grid and other important areas, and ensure that its facilities 
meet its needs to continue to produce world-class research. The budget 
also includes $80 million for the Technology Innovation Program, which 
invests in game-changing new technologies that address critical 
national needs. The Hollings Manufacturing Extension Partnership will 
receive $130 million to continue expanding its services to help smaller 
manufacturers adopt technological innovations that spur economic 
growth, and develop new products, expanded markets, process 
improvements, and more green technology jobs.
    The request provides more than $5.5 billion for the National 
Oceanic and Atmospheric Administration (NOAA), including investments to 
improve fisheries and the economies and communities they support, and 
to help green and blue businesses with a solid foundation of 
environmental information and stewardship. Much of this year's increase 
is to fund a major restructuring of the National Polar-orbiting 
Operational Environmental Satellite System (NPOESS). As it stands, the 
program is years behind schedule and billions over budget; independent 
reports and an administration task force have concluded that the 
program cannot be successfully executed with the current management and 
budget structure. However, the need for a successor system of polar-
orbiting environmental satellites remains a national priority and is 
essential to meeting both civil and military weather-forecasting, 
storm-tracking, and climate-monitoring requirements. The restructured 
Joint Polar Satellite System will keep what works--common operating and 
ground systems, run by NOAA--but NOAA will separately procure the 
spacecraft for its highest priority orbit, as will the Air Force. 
NOAA's spacecraft procurement will be managed by the National 
Aeronautics and Space Administration, as has been the case with prior 
polar satellites and all geostationary satellites, and is fully funded 
in the NOAA request rather than shared with the Air Force.
    Strengthening our knowledge on climate, weather and ecosystem 
sciences, as proposed in the budget, will also increase America's 
competitiveness. For example, the requested increase for the multi-
agency Next Generation Air Transportation System would support enhanced 
weather information that, when fully integrated into the Federal 
Aviation Administration's operational decisionmaking process, could 
significantly reduce flight delays. There are also increases to 
strengthen NOAA's climate research and observation capabilities, 
including upgrades to climate science and improved modeling and 
assessments at the global, national and regional levels. In addition, 
we recently announced our plans to develop a NOAA Climate Service, and 
we look forward to working with the subcommittee toward that goal.
    The budget includes $2.3 billion for the U.S. Patent and Trademark 
Office (USPTO) to put the agency on a path to reduce first action 
pendency to 10 months and total pendency for patent applications to 20 
months, implement a new, targeted hiring model, and make critical 
investments in its information technology, to support companies and 
innovators seeking to bring new products to market. The budget also 
gives USPTO full access to its fee collections and will strengthen its 
efforts to improve the speed and quality of patent examinations through 
an interim fee increase and fee-setting authority to better reflect the 
costs of providing services. Shorter pendency times at USPTO, in 
combination with patent reform legislation and other mechanisms for 
improving patent quality, can reduce legal uncertainty over rights and 
drive commercialization of new technologies.
    In fiscal year 2011, with funding of $46 million, the National 
Telecommunications and Information Administration (NTIA) will continue 
its important policy, spectrum management, and research programs that 
support emerging technologies and affordable, alternative 
communications services that can drive economic growth and create jobs. 
The administration and NTIA have moved aggressively to create an 
economic and regulatory environment in which innovations in information 
and communications technologies can flourish. In addition, as noted 
above, NTIA will focus on administering the billions of dollars in 
broadband grants being awarded this year; broadband is a central part 
of the infrastructure necessary for the economy to create jobs and 
thrive. The budget provides $23.7 million for post-award administration 
and oversight of BTOP grants for construction and mapping, and for 
ongoing work with the FCC to maintain the national broadband map.
    The budget includes $1.3 billion for the Economics and Statistics 
Administration's (ESA) Census Bureau to process, tabulate, and release 
2010 census data, conduct extensive evaluations of the census, improve 
the data collection methods of the American Community Survey (ACS), and 
begin a continuous update process of the Census Bureau's geospatial and 
address data, which is expected to produce long-run cost savings for 
the taxpayer. Understanding the demographic profile and economic 
structure of the Nation is key to any business or policy decision 
designed to promote job creation or to improve the economic well-being 
of American families. For example, the budget proposes to expand the 
ACS sample size, which will increase the reliability of ACS data, 
especially for areas with a population of 20,000 or less. This 
increased reliability will greatly benefit entrepreneurs and businesses 
by informing their decisions about where to expand their operations and 
providing better data on the changing economic, social, and demographic 
trends of their workforce and customers. It also will lead to more 
efficient allocations of more than $400 billion in Federal funds to 
communities, ensuring that even the smallest of towns, communities, 
rural areas, and tribal lands get their fair share of funding for 
schools, transportation projects and job training.
    The request also provides $109 million for ESA's Bureau of Economic 
Analysis to develop new statistics that provide greater detail on key 
economic sectors to ensure that regulators, policymakers and businesses 
have all the necessary data at their disposal to make the most 
effective investment and economic policy decisions. This includes data 
on the American family's income, spending, savings and debt. More 
accessible data will help businesses of all sizes make better 
investment decisions that can, in turn, lead to job growth. The Bureau 
will also reinstate statistics on new direct foreign investment into 
the United States and produce data critical to analyzing the energy 
sector's contribution to U.S. economic growth, productivity, inflation, 
the trade balance, and income.
    In fiscal year 2011, with funding of $113 million, the Bureau of 
Industry and Security's (BIS) Office of Export Enforcement will step up 
its efforts to prevent illegal exports of sensitive dual-use goods and 
technologies that could endanger the Nation. Enhancements included 
within a $10 million increase will strengthen counter proliferation, 
counterterrorism, and other national security programs and 
investigations. These funds will allow BIS to expand its field presence 
and increase coordination and liaison with the intelligence community 
as well.
    The budget includes $286 million for the Economic Development 
Administration (EDA), since competitive, high-performing regional 
economies are the building blocks of sustainable growth. As part of the 
administration's place-based initiative, the budget targets $75 million 
toward planning and matching grants within EDA to support the creation 
of Regional Innovation Clusters that leverage regions' competitive 
strengths to boost job creation and economic growth. For example, EDA 
and NIST's Hollings Manufacturing Extension Partnership are currently 
partnering with the Departments of Energy, Education, and Labor, as 
well as the National Science Foundation and Small Business 
Administration on a joint Federal opportunity announcement for the 
Energy Regional Innovation Cluster. These agencies have issued a unique 
joint funding opportunity encouraging consortia from regions across the 
country to compete for a combined investment of up to $129 million to 
accelerate the development of a Regional Innovation Cluster 
specializing in energy-efficient building technologies.
    The $32 million requested for the Minority Business Development 
Agency (MBDA) will further implement the Department's responsibilities 
under the Native American Business Development, Trade Promotion, and 
Tourism Act of 2000 and the Indian Tribal Regulatory Reform and 
Business Development Act of 2000. These funds will increase the 
activities and outreach of MBDA's Office of Native American Business 
Development and support research on Native American trade promotion and 
economic disparities.
    The budget provides $84 million for Departmental Management, 
including $17.5 million toward renovation of the Herbert C. Hoover 
Building, the Department's 73-year-old headquarters in downtown 
Washington, DC. This long-term project, developed in coordination with 
the General Services Administration, addresses major deficiencies in 
the building's antiquated mechanical, electrical, plumbing, fire safety 
and security systems. The subcommittee's continued support for this 
project will yield great benefits for our working conditions. Also 
within the Departmental Management account, the budget provides small 
increases to improve cyber security by protecting sensitive information 
from increased malicious activities, and to strengthen our acquisition 
management workforce that is responsible for oversight of Department-
wide activities. We are also requesting $29 million for the Office of 
Inspector General, including additional funds to increase its oversight 
of Departmental acquisitions and contracts, and to support the Council 
of the Inspectors General on Integrity and Efficiency (established by 
the Inspector General Reform Act of 2008).
    As part of the administration's line-by-line review of the budget 
to identify programs that are outdated, ineffective, or duplicative, we 
are proposing to terminate the Public Telecommunications Facilities 
Program and consolidate support for public broadcasters in the 
Corporation for Public Broadcasting. The budget also proposes to 
eliminate a yearly subsidy to a small number of firms in the worsted 
wool manufacturing industry that have already received about $25 
million over the past 5 years. Finally, we would rescind $43 million of 
unobligated balances for the Emergency Steel Guaranteed Loan Program, 
which currently has no active loans, but leave $5 million in the 
account in case there are future guarantee requirements.
    In closing, the Department of Commerce has a broad mandate to 
advance economic growth, jobs and opportunities for the American 
people. While we are currently facing challenging economic times, this 
budget provides a blueprint for us to carry out that mandate and help 
the Nation rise to the challenge and forge ahead. Thank you for the 
opportunity to come before you today, and for your continuing support 
of the Department of Commerce and its programs. I look forward to your 
questions.

                     ADMINISTRATIVE STAFF VACANCIES

    Senator Mikulski: Thank you, Mr. Secretary.
    Well, we believe, in order to create jobs and also fulfill 
the mission of the Commerce Department and its agencies, you 
need the right resources, one of which is the money that is 
being requested in the President's budget.
    However, I have another question related to management. You 
can't do your job without the right people. You've been in 
office less than 18 months, and we've asked you to be, not only 
the chief executive, but really the turnaround specialist at 
Commerce for many of the problems you've inherited. The 
boondoggle at Census, the boondoggle at NPOESS, the backlog at 
Patents preceded you. How many vacancies do you have in your 
top administrative staff that are pending confirmation?
    Secretary Locke. We've actually made progress in the last 
few weeks, but we still have, I think, about a half a dozen 
still-pending confirmation, and notably the Under Secretary for 
the International Trade Administration. He just had his 
hearing, I believe, 2 days ago in the Senate Finance Committee, 
so we're very hopeful that that's a good sign.

               INTERNATIONAL TRADE ADMINISTRATION FUNDING

    Senator Mikulski. Well, we would hope that these 
confirmations would move ahead.
    Which then takes me to jobs, jobs, jobs, something that I 
know we share, on a bipartisan basis. Looking at the 
President's request, there have been requests for increased 
funding in the International Trade Administration. What would 
that increased funding do, and how would it help small- to 
medium-sized business be able to get into the trade arena?
    Secretary Locke. Well, as I indicated, a large amount of 
that funding will be to bring on some 328 trade specialists, 
most of them stationed in our foreign countries. It is part of 
the President's National Export Initiative whose goal is to 
double American exports over the next 5 years. And we're 
primarily focusing on small- and medium-sized companies.
    The United States, compared to other developed countries, 
does not export as much as other countries. And here's an 
interesting statistic. Of those companies in the United States 
that do export, 58 percent export to only one country. So, part 
of our program is to partner up with other organizations, 
including FedEx, UPS, the U.S. Postal Service--all of them have 
incredible databases, they know exactly who exports, what 
sectors, to what countries, volume. And if we can partner with 
them--and we've already received word from them that they do 
want to work with us--along with export/import----
    Senator Mikulski. Yes, but that's not $87 million. So, you 
want to hire more commercial officers to be in foreign 
countries.
    Secretary Locke. That's right.
    Senator Mikulski. We understand that. But, it means, then, 
if you're small- to medium sized, you've got to pick your 
country, and you've got to find your foreign commercial service 
officer. So, my small- to medium-sized business, that could 
export, won't know which country to call, who's going to need 
them. So, what, of your $87 million, or of your International 
Trade Administration, will go so that these-sized businesses 
would know where to go, how their Government would be on their 
side, so they get out there and compete on the basis of 
everyone--cost, service, product ingenuity? So, what would be 
going on--are you going to be spending money in our own 
country?
    Secretary Locke. Oh, yes. For instance, the partnership I 
announced indicated--with respect to FedEx or UPS--will 
actually be reaching out to today's exporters here in America 
and analyzing where they export to and say, ``Based on our 
information, with the contacts and the people we have in 
foreign countries, if you now export to, let's say, Europe, we 
really think that you can export to Latin America or to 
Southeast Asia.'' So, we will be intensifying our outreach 
efforts to small- and medium-sized companies that are already 
engaged in exporting and say, ``We believe, from the additional 
trade specialists stationed around the world, that we will find 
buyers and customers for you.''

                  PATENT AND TRADEMARK OFFICE FUNDING

    Senator Mikulski. Well, we want to elaborate on that more, 
because I think you shared, in our office visit, the fact that 
you actually want to be running workshops around the country to 
do that.
    But, let me get right on to the Patent Office. Maryland 
really is a State, from its innovative biotech and IT 
industries, and others, that really use the Patent Office. This 
includes our great iconic universities, Hopkins in Maryland, 
and our private sector. We hear two problems with the Patent 
Office. One is the incredible backlog. The second is that, 
while they're standing in line, they are worried that their 
ideas have been stolen, in this new cybersecurity world, and 
that, while we're working, in cybersecurity, to secure 
.military, or CyberShield, there's .gov. So, it's not like 
they're going to break into the Net of an individual company, 
they can just go cruising at the Patent Office.
    So, my question to you: What is the amount that you're 
requesting? And do you think it's sufficient to do two things: 
help you reduce the backlog at PTO so that they can get 
decisions in a timely way--time is competitiveness; and, at the 
second time, that, while they're standing in line for approval, 
their idea is not being stolen by a foreign and economic 
adversary?
    Secretary Locke. First of all, with respect to 
cybersecurity, this is an issue that the Inspector General's 
Office has identified, and I'm really pleased that the 
President's 2011 budget does call for significant increases in 
efforts on cybersecurity throughout the Department of Commerce, 
as well as with NIST, to help develop increased standards for 
all businesses, as well as government. And the Department of 
Commerce has been an integral player with the President's task 
force on identifying cybersecurity risk to our entire Nation.
    But, with respect to the issue of the backlog, the 
President's proposed budget calls for letting us take advantage 
of fee increases, other fee, temporary measures, as well as 
more staff, so that we can reduce the backlog.
    But, we just can't hire more staff. We also have to be 
smarter about how we use, and do things, within the Department 
of Commerce and the Patent and Trademark Office. You know, the 
office that patents innovations should also be using those 
innovations to help us significantly speed up our flow. We've 
worked with the labor unions already; we've changed the 
notorious count system, which was really a disincentive for 
high quality and faster processing of patents. And under the 
new evaluation system and the way of working with employees, 
employees now are encouraged to actually sit down and consult 
with those seeking a patent, so that they're not talking past 
each other and filing paperwork that doesn't address each 
others' concerns, so that we're able to resolve these issues 
and provide that guidance.

                  PATENT AND TRADEMARK OFFICE BACKLOG

    Senator Mikulski. So, what is the nature of the backlog 
now?
    Secretary Locke. The backlog is around 700,000 
applications. When we first took office, or joined the 
Department of Commerce, it was around 800,000, we've got it 
down to 700,000. And the timeframe, though, for determination 
is still over 3 years. Our goal is to get it down to 12 months, 
unless you're also seeking FDA approval, because drugs or 
medical devices oftentimes take many years to go through the 
FDA process.
    Senator Mikulski. Right. So, FDA is over here, but let's go 
to the other patents. So, your goal was to reduce it to 12 
months.
    Secretary Locke. Twelve months.
    Senator Mikulski. When do you think you'll achieve that 
goal?
    Secretary Locke. Our goal is to achieve that by the year 
2014. We've already seen significant improvements, and, as a 
result we're already beginning to see increased revenue 
collections, just by using paralegals to take care of some of 
these issues where you have stacks and stacks--thousands of 
patent applications that have been tentatively approved by the 
patent examiners, but where some of the documents don't match 
up, the exhibits aren't properly labeled, and so forth. Instead 
of having patent examiners do that work, we're having 
paralegals and other clerical staff address those issues, then 
we're able to issue the patent, we collect more fees; because 
once a patent is approved there's a fee associated with that. 
We then turn around and----
    Senator Mikulski. So, what----
    Secretary Locke [continuing]. Use those fees to hire more 
people.
    Senator Mikulski [continuing]. You're saying is that part 
of the money, then, is to be using appropriate staff, not just 
only lawyers trained in science and technology--which is not 
easy to come by, because whatever they can make in the 
Government, they could make four times as much in the private 
sector. Having said that--what you're saying, the use of other 
types of support staff will expedite this.
    Secretary Locke. As well as upgrading our IT systems.
    Senator Mikulski. Okay.
    Secretary Locke. And, as we do so, making sure that they're 
not vulnerable to cyber attacks.
    Senator Mikulski. Right. Senator Shelby.

                      RED SNAPPER STOCK DATA FLAWS

    Senator Shelby. Thank you, Senator Mikulski.
    Mr. Secretary, in the area of red snapper stocks--you're 
familiar with that, on the gulf--in the Gulf of Mexico, I 
think, you know, the management of it is troubling. NOAA 
continues to use, we've been told, flawed data methods and 
survey programs that lack any real independent data. This--the 
fishery-dependent data and the flawed survey programs NOAA is 
basing its current decisions on seems inherently biased against 
the fishermen in the gulf and fails to provide any accurate 
picture of the real health of the fish stock. NOAA, with this 
unsound data, is imposing severe restrictions on the fishermen 
in my State. When will you be--begin to require NOAA to use 
transparent surveys and real, verifiable, independent data 
before assessing the health of a fish stock in the gulf? And 
why is your Department not doing more to ensure that the 
Government obtains and uses rigorous and timely data before 
undercutting the livelihoods of the hardworking people in this 
industry?
    You know, we're all interested in fish stocks, we want them 
to flourish. It's been my information, from talking to people 
and reading stuff that the red snapper has made a tremendous 
comeback, which we all like, in the Gulf of Mexico. We don't 
ever want it to be overfished, we want it to flourish. But, if 
this is true, if it's made this comeback, and NOAA's data is, 
maybe, not up-to-date, you know, not transparent, what can we 
look forward to there? What can you do there?
    Secretary Locke. Well, first of all, Senator Shelby, I 
appreciate the concern, because, coming from the State of 
Washington, where we also have fishing issues----
    Senator Shelby. I know.
    Secretary Locke [continuing]. In the Pacific, it's a very 
delicate balance.
    Senator Shelby. It is.
    Secretary Locke. We understand that people's livelihood 
depend on, whether recreational fishing or commercial fishing--
--
    Senator Shelby. Both, sure.
    Secretary Locke. We cannot allow overfishing, because if we 
decimate the stocks, then we ruin the livelihood for----
    Senator Shelby. Oh, I agree----
    Secretary Locke [continuing]. Generations to come.
    Senator Shelby [continuing]. With you, totally. We all 
agree on that.
    Secretary Locke. So, let me just say that, with respect to 
the red snapper, we do know that the stock seems to be 
reviving, and that's perhaps due to the conservation efforts of 
the past.
    Senator Shelby. True.
    Secretary Locke. What we can say is that, I think, the--
there's a council, the Gulf of Mexico Fisheries Management 
Council, that has recommended an increased catch quota for 
2010, above the 2009 level, and it's our goal to approve and 
implement the Council's proposal. And we believe that the new 
fishing quota will be set higher than 2009 in time for the June 
start date of this recreational red snapper season.
    Senator Shelby. And you think this will happen soon, now. 
This is March, end of June, before June?
    Secretary Locke. We believe that it will be announced in 
time so that everyone knows just how much more they will be 
able to catch. But, everyone's recommendation and recognizes--
everyone recognizes the stock has recovered, and it's our 
belief, based on the Scientific Committee's recommendations, to 
increase the catch share above the 2009 level.
    Senator Shelby. Do you have any data, at your table now, 
that would tell us how much that would be? Or would that be a 
decision for the Scientific Committee?
    Secretary Locke. I don't have that----
    Senator Shelby. Okay.
    Secretary Locke. I don't have that specific information.
    Senator Shelby. But, it will be--it will be up some.
    Secretary Locke. Yes.
    Senator Shelby. Based on the stock's recovery.
    Secretary Locke. Based on the stock's recovery.
    Senator Shelby. Okay.
    Secretary Locke. That's good news.
    [The information follows:]
                        NOAA Red Snapper Update
    The health of the red snapper stock is improving. The recent 
Southeast Data, Assessment and Review (SEDAR) assessment projected that 
overfishing of Gulf of Mexico red snapper ended in 2009. Mathematical 
models indicate the stock's reproductive potential increased 
significantly in recent years. The ratio of current to target spawning 
stock biomass (biomass of spawning fish) reached a low of 6.2 percent 
in 1988, gradually increased to 13.1 percent in 2006 before rapidly 
increasing to 21.9 percent in 2009. This means the red snapper stock is 
rebuilding, but remains below target biomass levels.
    Based on this assessment, the Gulf of Mexico Fisheries Management 
Council's Scientific and Statistical Committee (SSC) recommended an 
increased catch quota from 5.0 million pounds (MP) to 6.945 MP in 2010. 
At its February meeting, the Gulf of Mexico Fisheries Management 
Council approved a regulatory amendment that would increase the Total 
Allowable Catch (TAC) from 5.0 MP to 6.945 MP and the commercial and 
recreational quotas to 3.542 MP and 3.403 MP, accordingly.
    NOAA is currently reviewing the Gulf Council's proposal to increase 
the red snapper total allowable catch (TAC) from 5.0 MP to 6.945 MP. 
NOAA expects to publish a proposed rule for public comment in the 
coming weeks and a final rule implementing the TAC increase sometime 
this month (April) if we determine the proposed increase is consistent 
with applicable law. NOAA's goal is to approve and implement the 
Council's proposed TAC (if consistent with applicable law) and quota 
increases prior to the June 1 start date of the 2010 recreational red 
snapper fishing season. These increases are believed to still allow 
NOAA to prevent overfishing and remain on schedule for rebuilding.
    In fiscal year 2011, the requested funding will target both 
fishery-dependent and fishery-independent research. Regarding fishery-
independent research activities, funds will be used to create high-
resolution habitat maps, provide needed biological and other data, 
conduct tagging and genetic studies, build new and improve existing 
ecosystem/stock assessment models, examine the effect of decreases in 
shrimp effort on red snapper populations; and develop fishery-
independent catch and effort estimates for comparisons with commercial 
and recreational data.

              NIST'S ROLE IN THE AREA OF FORENSIC SCIENCE

    Senator Shelby. In the area of forensic science, Mr. 
Secretary, in February 2009 the National Academy of Sciences 
published its investigative report, quote, ``Strengthening 
Forensic Science in the United States: A Path Forward,'' which 
was highly critical of the current status of forensic science 
in this country. The investigation found that forensic science 
testing, conducted in the 400 U.S. crime laboratories, lacks 
rigorous peer-reviewed scientific validation. That's troubling.
    Secretary Locke, of the NAS's 13 recommendations--National 
Academy of Science--7 are core to the strength and capabilities 
of NIST. NIST is identified, dozens of times in the body of the 
report, as a critical partner, as you know, in the criminal 
justice system in resolving these deficiencies. And since this 
report was published, how has NIST supported forensic science 
in the criminal justice system? Has anything changed? Do you 
have any thoughts on that?
    Secretary Locke. Well, as a former----
    Senator Shelby. And will they change?
    Secretary Locke. As a former deputy prosecutor, and having 
worked with some of these issues----
    Senator Shelby. Right.
    Secretary Locke [continuing]. About breathalyzers, 
machines----
    Senator Shelby. Sure.
    Secretary Locke [continuing]. The reliability, and then 
seeing convictions tossed out or prosecutions halted, I have a 
great interest in making sure that--whether it's DNA profiling, 
biometric measures to fingerprint analysis to measurements and 
analysis of firearms----
    Senator Shelby. That it works, in other----
    Secretary Locke. We've got to make sure they work and that 
there are national standards that everyone agrees to--very high 
standards--and that they're very clear, so that the operators 
of these machines, the police officers, the State patrolmen are 
not----
    Senator Shelby. They're well trained.
    Secretary Locke [continuing]. Responsible for--or expected 
to run and maintain these machines, and, if not properly done 
so, inadvertently, having all of these convictions tossed out.
    Senator Shelby. Sure.
    Secretary Locke. So, NIST does play a very critical role, 
and we have about $7.5 million annually that they spend to 
actually support the establishment and refinement of standards 
in the forensic science community.
    For instance, NIST, right now, is even focusing on 
standards for the airport screening devices, to determine to 
what degree of accuracy they'll be able to detect certain 
things. And so, we're very proud of the work that NIST is 
doing.
    Senator Shelby. That's good.
    Mr. Secretary, are you supportive--I assume you would be--
of NIST taking on a larger role in supporting forensic science 
disciplines, including an increase in appropriations for this 
purpose?
    Secretary Locke. Well, we very much support a greater role 
for NIST, because we think that, with its Nobel Laureate 
scientists, that it's a great resource and has really done 
great things for the country.
    Senator Shelby. Sure. I agree.
    Secretary Locke. And so, we always look forward to a 
bigger, expanded role, within available dollars. But, more work 
for NIST, I think is a good thing.

                       NATIONAL EXPORT INITIATIVE

    Senator Shelby. Moving into different subjects, but it's 
all covered by Commerce, the National Export Initiative. As you 
mentioned in your opening statement, Mr. Secretary, the 
administration has created a National Export Initiative to meet 
the President's goal of doubling exports in 5 years, which we 
all support. Commerce leads the initiative and received a $79 
million increase for the International Trade Administration, 18 
percent above 2011. ITA plans to hire 151 new Federal 
employees, but 51 will be headquarters staff of the 151--in 
other words, one-third--of which 15 employees will help with 
anti-dumping cases. This is important. But, the remaining new 
headquarters hires seem large for an initiative that was 
designed to expand markets overseas. Could you explain?
    Secretary Locke. Well, we also need to make sure that, to 
help American companies compete and create jobs----
    Senator Shelby. Sure.
    Secretary Locke [continuing]. That we have investigation, 
with the increased caseload and allegations raised, in terms of 
anti-dumping or countervailing duties, improper subsidies by 
different companies. That's equally important, because we are 
required to investigate those as quickly as possible. And by 
making sure that we have impartial and fair determinations, but 
quick determinations, we can also help U.S. companies. We want 
to make sure that they're operating on a level playing field. 
And if we can help those companies by adjudicating these cases, 
we can actually increase their competitiveness, not just here, 
but around the world. So, that's also part of an export 
strategy.
    Also, we are making sure that we focus on addressing 
barriers, trade barriers, market access issues imposed by other 
countries, to make sure that our companies can sell their 
products and services around the world. So, it's not just 
having foreign specialists around the world.
    And I want to point out that the FTEs that we talk about, 
that are contained in the President's budget, are U.S. 
citizens. A lot of people that we're hiring are not U.S. 
citizens, but they are trade specialists--let's say, Hungarians 
stationed in Hungary, Brazilians stationed in Brazil, French 
stationed in France--to find customers and buyers for U.S. 
products and services. So, that's where we get a--come up 
with----
    Senator Shelby. I think that's smart.
    Secretary Locke [continuing]. That's why we have some--
that's why I say we're hiring close to 328----
    Senator Shelby. Okay.
    Secretary Locke [continuing]. Trade specialists.

                               SATELLITES

    Senator Shelby. Okay. I want to get into the area of--and 
the chairwoman has been generous with our time, here--NOAA 
satellites, quickly.
    The inspector general, as you know, highlighted the 
mismanagement of the National Polar-orbiting Operational 
Environmental Satellite System, pronounced ``en-pose'' 
[NPOESS]. It continues to be a--what a lot of us think is a 
disaster for the Department. In 1995, this program was 
projected to be six satellites with 13 instruments for $8.5 
billion, big ticket. In December 2008, the program was adjusted 
to four satellites with nine instruments for $14 billion. This 
year, after reorganization and a name change to the Joint Polar 
Satellite System, the taxpayer gets two satellites with only 
five instruments for $12 billion and a launch date delayed 
until 2016. What's going on here, Mr. Secretary?
    Secretary Locke. Well, first of all, I believe that the two 
satellites you're talking about are the two satellites that 
would be under the control and jurisdiction and management and 
oversight of NOAA and NASA.
    Senator Shelby. That's right.
    Secretary Locke. It's my understanding that we're still 
looking at a--the original NPOESS called for six, dropped to 
four. We're now engaging in a divorce, joint custody. I think 
there will be two that will be monitored by NOAA and NASA.
    Senator Shelby. Divorce first, and then joint custody.
    Secretary Locke. Right, that's true. The program changes 
best reflect each agency's priorities.
    Senator Shelby. Okay.
    Secretary Locke. Divorce first and joint custody. But there 
will be two that will be under the purview of NOAA----
    Senator Shelby. Okay.
    Secretary Locke [continuing]. And two under the purview of 
Defense. So, it's still four.
    But, you're right, originally six----
    Senator Shelby. It's a lot of money.
    Secretary Locke [continuing]. Down to four, from $8 billion 
for the six, now $14 billion for the four. It----
    Senator Shelby. Is it going to work? I guess my bottom 
line----
    Secretary Locke. It's going the wrong direction.
    Senator Shelby. Okay.
    Secretary Locke. And that was----
    Senator Shelby. Well----
    Secretary Locke [continuing]. Highlighted by the inspector 
general, as well as blue ribbon commissions, who basically 
said, ``You've got to fix it, you've got to change it, you need 
a divorce; otherwise, you scrap the whole program.''
    Senator Shelby. Are you going to do that?
    Secretary Locke. That's why the President has supported, 
and the White House supports, this divorce. NOAA and--NOAA will 
be in charge of some of the ground and operational systems----
    Senator Shelby. Sure.
    Secretary Locke [continuing]. For Defense satellites, as 
well as our satellites, but NASA, with its capabilities, proven 
acquisition capabilities, which now really runs the GOES-R 
Program----
    Senator Shelby. Sure.
    Secretary Locke [continuing]. Which, over the last few 
years, has remained within budget; a troubled program before, 
but now pretty much on track--we're now using the GOES-R model, 
which is where NASA is responsible for the acquisition and the 
management, and we do the support.
    So, we're hopeful, confident that this is a much better 
management structure, as recommended by everyone, including 
this committee.
    Senator Shelby. Absolutely.
    Secretary Locke. And so, we're moving ahead.
    Senator Shelby. Thank you.
    Thank you, Madam Chair.
    Senator Mikulski. Senator Pryor.
    Senator Pryor. Thank you, Madam Chairman. Thank you for 
having this hearing today.
    Secretary Locke, always good to see you, thank you, and----
    Secretary Locke. Senator.
    Senator Pryor [continuing]. Welcome back to the 
subcommittee. And thanks again for coming to Arkansas last 
year; it was a great trip.

                            BROADBAND GRANTS

    I have a question about rural broadband and a bottom-line 
question on that. What steps are you all taking there to make 
sure that the grants that are being allocated are being awarded 
to areas that need the grants and don't already have sufficient 
access to the Internet?
    Secretary Locke. That is--thank you very much, Senator, 
that's a critical question. And the criteria that we use in the 
Department of Commerce for our broadband, high-speed Internet 
grants are a ``but for'' test. But for this funding, would the 
private sector jump in? Or, absent this funding, would the 
private sector jump in? And if they will, then we don't get 
engaged, because there's no need to duplicate what the private 
sector is doing. With the scarce resources, we could be 
providing these dollars in other parts of the country that 
really need it.
    As of tomorrow--or by the end of tomorrow, we will have 
announced over $1 billion in broadband grants for this first 
round, another $3 billion in the next round. We will have all 
of these completed and announced before the end of this fiscal 
year; and then, of course, the budget calls for increased 
funding for oversight.
    But, I can tell you that what we're doing under the 
Department of Commerce is what we call our ``middle-mile 
projects''; basically, highways, rings, interstates of high-
speed Internet, fiber-optic cable, or even using wireless 
systems. We're connecting major institutions, hospitals, 
clinics, government facilities, libraries, colleges, and 
universities. And from this 20,000 miles of high-speed Internet 
fiber-optic that we're deploying, private-sector providers--
whether telephone companies, cable operators, whomever--are 
then able to tap into, or connect to, this ring and then 
provide the direct service to businesses and to homes.
    Senator Pryor. All right.
    Secretary Locke. And without--and our test is, without this 
investment by the Government, the private sector does not have 
the funds to move into these communities. They don't have the 
funds to build the main highway. And so, we're making it easier 
for them.
    Senator Pryor. Are you confident that, as of tomorrow, when 
you finish your announcements, that all of the projects awarded 
will meet your ``but for'' test?
    Secretary Locke. Yes. Yes. In fact, we've had 1,000--I 
think, 1,800 applications requesting some $19 billion from this 
first-round pool of just a little over $1 billion.
    Senator Pryor. Right. And then, when you do the subsequent 
rounds, you'll still keep that ``but for'' test?
    Secretary Locke. Yes. In fact, we're clarifying it, we're 
streamlining the process. We had to rely on thousands of 
independent reviewers, the same way like the National Institute 
of Health or other scientific foundations issue grants. We had 
three independent reviewers reading all the applications. We 
didn't want to have an application rejected because of the 
quirks of one reviewer. So, we're streamlining that process. 
We're going to have at least two reviewers--outside, 
independent reviewers reading these various files and then 
submitting it. And then we still have to do a lot of due 
diligence within the Department of Commerce.

                      REGIONAL INNOVATION CLUSTERS

    Senator Pryor. Great.
    You know that I'm interested in research parks. You and I 
have talked about that before. And I know you are, as well. And 
it seems that the research park idea--and they've had a lot of 
success in Maryland and Alabama with these research parks--but 
it seems like that, that idea works very well with the 
administration's idea of regional innovation clusters. Am I 
right in that? And are we moving in the right direction on 
trying to get more of these research parks around the country 
to tap into the innovative spirit of our country?
    Secretary Locke. Very much so, and the President's budget 
does call for moving funds into the--I can't remember the 
specific--within the Economic Development Administration are--
let me see, what is that--what's that program? EAA?
    Voice. Economic Adjustment Assistance Program.
    Secretary Locke. The Economic Adjustment Assistance 
Program. And that's a more flexible program, where we can 
provide grants for communities to focus on planning and 
assessments of their strengths, and then also provide 
infrastructure grants to help them actually implement their 
ideas.
    The whole notion of the regional innovation clusters is to 
have each community, or regions of the country, focus on their 
natural strengths, their assets--whether it's colleges, 
universities, highways, some of the existing industries that 
are already there--to have them really focus on what they think 
is most viable, sustainable over the next several decades, and 
make sure that our grants are helping them further that vision 
and their goal.
    And each part of the country may have totally different 
goals. One part might be on recreation, one part might be on 
tourism, another part might be on scientific research parks. 
But, we need to help each of the regions determine what their 
natural strengths are. And they may have several different 
goals, not just one. But, make sure that the grants that 
they're applying for actually are consistent with, and in 
furtherance of, those regional innovation priorities.

    PUBLIC TELECOMMUNICATIONS FACILITIES--PLANNING AND CONSTRUCTION

    Senator Pryor. Let me ask about public television. You--
apparently the administration believes that the Public 
Telecommunications Facilities Program, the PTFP, at NTIA is no 
longer needed now that the digital transition is complete. And 
is it--am I right on this that the administration recommended 
the PTFP not be funded in 2011? I'm not sure that makes sense 
to me. Could you talk about that for a sec?
    Secretary Locke. That is the recommendation of the 
administration, to not fund that, and to have--because, I 
think, in the past, 70 percent of the grants provided under 
that program went for digital equipment. And now that all the 
stations have converted to digital television, we think that it 
makes more sense to consolidate all the requests and programs 
under funding for the Corporation for Public Broadcasting.
    Senator Pryor. I may have that wrong, but I think that that 
program has been around much, much longer than digital 
transition. I think it's been around 45 years, or something 
like that. And, I think you ought to at least look at that, to 
maybe try to continue that, because I'm sure there's public 
television stations all over the country that have benefited 
from that funding over time.

     COMMERCE'S ROLE IN THE PRESIDENT'S NATIONAL EXPORT INITIATIVE

    The last thing I wanted to ask is a little bit of a follow 
up on Senator Shelby's question about the goal of trying to 
double our exports over the next 5 years. I think that's a 
great goal; I think, like Senator Shelby says, everybody agrees 
with that. But, I would like to know what role the Department 
of Commerce is playing in there. You touched a little bit on it 
with Senator Shelby, but how does the Department of Commerce 
fit into achieving that goal?
    Secretary Locke. Well, I think the Department of Commerce 
is really going to be the lead agency on that, but, of course, 
the President's National Export Initiative also calls for 
significant expansion of our agricultural exports, which is 
why, I believe, some $50 million is allocated for the U.S. 
Department of Agriculture to help promote U.S. agricultural 
exports, reducing trade barriers that our agricultural 
communities and farmers face, as well as developing new 
overseas markets.
    The President has also called for increased activity by the 
Export-Import Bank, especially focused on medium and small 
businesses, to make their loans; to increase loans that would 
benefit small- and medium-sized companies from the current $4 
billion to $6 billion.
    And the Department of Commerce, for instance, is the lead 
agency with respect to the Trade Promotion Coordinating 
Committee, which brings all the Federal agencies together. 
We've had several meetings already, and this working group of 
all of the different agencies will be to complement and 
actually do the work, as recommended, coordinated by the 
National Export Initiative.
    What's different about the National Export Initiative from 
other efforts by other administrations--which have always 
focused on trying to increase exports--is that it is a Cabinet-
level attention, with participation and direction by the 
President himself. And this is something that the President 
cares very, very deeply about; increasing exports. Because if 
we increase our exports, we're increasing manufacturing, and if 
we increase manufacturing to fill those orders, we're providing 
more jobs for the people.
    Senator Pryor. I agree. I think it's great.
    Thank you, Madam Chair.

                              NOAA FUNDING

    Senator Mikulski. Mr. Secretary, I want to come back to 
NOAA. The reason is that, if you look at your appropriations 
request, it's $8.9 billion for the entire Commerce Department, 
which deals with everything from national standards, which we 
hope become the international freedom standards, to trade 
policy, to economic development in local areas. But, if you 
look at it, of the $8.9 billion, $5 billion is NOAA. Half of 
your total appropriation is NOAA. And if you look at NOAA, 35 
to 36 percent are in this satellite program. This is why we are 
obsessive about this. You have a big job to do to really be an 
economic engine. Of that 35 percent, we are apprehensive about 
getting our value.

                            STIMULUS FUNDING

    I'll just switch gears for a moment to the stimulus 
funding.
    Four billion dollars went into building rural broadband. We 
held a separate hearing on that. You testified, you answered 
many of the questions, some of which Senator Pryor raised.
    And, Senator, you'd find it very interesting, because they 
really did due diligence in anti-boondoggle, and yet moved it. 
But, it's going to end. Well, the need doesn't end. And over 
there, we've got NPOESS. Its apples and oranges. But, the fact 
is, is that for $2 or $3 billion, we wonder, what are we 
getting? And will what we're doing make a difference?

                            NOAA SATELLITES

    So, for--one--I'll come to management issues at NOAA--but, 
what are we getting, with these two satellites that will have 
less answers than the original plan? And, are we truly saving 
money?
    Then the other part of this is--you spoke about NOAA, which 
is under your purview, NASA, which is an independent agency but 
key to procurement, but the other partner at the table has been 
DOD, but they don't seem to be very involved in this divorce, 
and I wonder if they're picking up the money. We go from $14 
billion to $11.9--close to $12 billion. The NPOESS money, 
though there is a drop in it, jumps $650 million a year. That's 
a lot of money.
    And we wonder, are we going to see more escalating costs, 
and then you--or Dr. Lubchenco--has to go to other services, 
like the Weather Service, which we're so dependent upon, to pay 
for the increase in the satellite program.
    So, here is my question. Now you're going to have the 
divorce--we have interesting metaphors about custody and so 
on--but, the fact is, for the NOAA part, it's going to cost 
more. And are we getting less science? And do you feel that 
there's a real disciplinary effort going on now to deal with 
this cost overrun?
    There's a whole other school of thought that's advising us 
just to pull the plug on the program altogether. I don't want 
to do that, because it's been a lot of science and a lot of 
technology that's been developed here. And could you share with 
us this--can you see why--we are afraid that the vociferous 
appetite of NPOESS will eat NOAA alive. And NOAA is already 
half of your appropriations request, and it's because of this 
particular satellite program.
    Secretary Locke. I share those concerns, exactly, which is 
why the reports that I read, when I first became Commerce 
Secretary, from the expert committees, as well as the Inspector 
General's report, were very, very alarming.
    As Senator Shelby indicated, originally it was supposed to 
be $8 billion for six satellites, and then, more recently, its 
$14 billion for only four satellites. NOAA and NASA will 
operate two of those four satellites--the afternoon orbits; the 
Defense Department will be in charge of the morning orbits and 
their satellites.
    And it was a 50/50 cost-share arrangement. It was 
originally a 50/50 cost-share arrangement. So, what's really 
happening now is that, instead of the Defense Department paying 
one-half of our satellites and NOAA paying one-half of the 
Defense Department's satellites--that's why the increase in 
cost--we're now paying and responsible for, our satellites 
completely. But, it means that we will not be paying for the 
Defense Department's satellites later on, as they move forward.
    We are very, very concerned that we have to have better 
management, for the very reason that it will eat up the budget 
of NOAA and the Department of Commerce. And that's why everyone 
recommended a complete restructuring; otherwise, the current 
trajectory was untenable, unacceptable. And either we make the 
changes or we terminate the program altogether. But, 
terminating the program would have left incredible 
vulnerabilities to our Weather Service. And people rely on that 
weather, whether it's forecasting hurricanes, to storms, to 
ocean conditions, and for fishing, and for business.
    And it also impacts our defense capabilities, because even 
our NOAA satellites, in the afternoon, have military value and 
provide data to our defense forces. So, we cannot leave our 
defense forces and our men and women in armed services in 
harm's way because of a lack of data.
    If we did nothing, some of our existing satellites will 
soon lose their operational capability, will end, and even fall 
from the sky. So, we would have a gap in weather and climate 
data, with no replacement in sight. So, that was also 
untenable. And that's why we moved very aggressively, urging 
the White House to convene a task force to really study this 
issue, brought together the experts that had advised us, issued 
the reports, and brought this to the attention of the highest 
levels within the White House. And we're pleased that decisions 
were made.
    Senator Mikulski. Is this up at the Secretary's level? In 
other words, not just sitting at NOAA, is this with you?
    Secretary Locke. I was engaged in those meetings. I was the 
one who went to the White House and presented the reports and 
said, ``We have to do something. The current course is 
unacceptable.'' And we kept pushing and pushing. We got OMB, 
NASA, Defense, the Office of Science and Technology, and 
everyone else involved in the table, brought those experts in, 
and we kept pushing them. So, we're very pleased that a 
decision was made that followed the recommendations of both the 
inspector general's and the expert review panel's calling for a 
complete restructuring.
    Now, of course, I tell the folks at NOAA, ``You've gotten 
what you've asked for, the turd is in your pocket, and now we 
have to deliver.'' So, we're watching this--I am watching this 
very, very, very carefully.
    Senator Mikulski. Well, we worry about NOAA. I'm very proud 
of the fact that it is headquartered in Maryland, as is NIST 
and the Census. The previous administrator had kind of a more 
hands-off, laissez-faire. But, as Senator Shelby has raised in 
his questions about NOAA, accurate numbers for red snapper, 
it's the same with crabs, it--the whole issue of overfishing 
and the decline of species is an issue.
    We know that NOAA has very strong scientific capability, 
and we're really proud of that. But, now it needs very strong 
management capability that matches its scientific capability. 
And as it looks at creating new areas, like climate services--I 
understand the word is ``climate services,'' not a ``climate 
service.'' Am I correct in that? There's a difference that you 
provide data, but you're not standing up a new agency within an 
agency?
    Secretary Locke. No, we're not standing up a new agency. It 
is a budget-neutral reorganization pulling together--we have 
climate data----
    Senator Mikulski. I don't want to go into that, I want to 
come to the census.
    Secretary Locke. All right.
    Senator Mikulski. We need to have strong management at 
NOAA, and we'll come back to that.

                              2010 CENSUS

    Secretary Locke. All right.
    Senator Mikulski. I've got to go to the census, which is 
giving us heartburn. The last big part of it--so just know 
that, that there's a big distinction between a ``National 
Climate Service'' and providing ``national climates services,'' 
which is data.
    The last big part of the 2010 census operation, quote, 
``addressing canvassing,'' had a 25-percent cost overrun. If we 
see this now with the next big phase, the so-called 
``nonresponse followup,'' a 25-percent cost overrun would be 
another $675 million and be--have catastrophic consequences, in 
terms of really providing an accurate count in the timely 
manner, as what the founders and the constitutional mandate 
gave us. So, my question to you, how are we going to make sure 
we really have the nonresponse followup without adding a whole 
new 25-percent cost overrun, given the fact that our technology 
has failed?

                    ADDRESS CANVASSING COST OVERRUNS

    Secretary Locke. It's of great concern to us. As both of 
you indicated, Senator Mikulski and Senator Shelby, we had to 
junk the hand-held computers. We did use hand-held computers 
for the address canvassing operation but reverted to a paper 
system for the nonresponse followup operation. We now have 
issues with respect to the software in--and assigning people, 
tracking their work performance, their hours, et cetera, et 
cetera. We've had--not had sufficient time to fully test that, 
so we're--everything is behind on that. But, that is 
proceeding. We're cautiously optimistic that there will be no 
problems with respect to that.
    But, we do--we have had cost savings in other areas. We 
have had various other parts of the operation come in under 
budget, ahead of schedule, so we are amassing a reserve. We 
have also set aside a significant reserve of almost, I think, 
$500 million with respect to the nonresponsive followup, the 
people going door-to-door.
    Part of the cost overruns on that address canvassing dealt 
with the fact that we hire a lot of people, we train a lot of 
people, to have them ready to go. We always assume that some 
people, after a day or two, don't like the work and will quit, 
or that they simply don't show up. Because of this tough 
economy, we had very little attrition. We didn't have that many 
people not showing up, not many people quitting, not many 
people finding another job and saying, ``Well, I don't need 
this temporary work.''
    The sources for the address canvassing overrun about which 
the Secretary testified, the training costs cited in the 
testimony, accounted for $7 million of the cost growth in the 
operation. Other sources included the fact that the initial 
workload assumptions in the budget were too low. In fact, the 
Census Bureau increased its estimate by $41 million before the 
operation even began. The additional workload came from various 
sources including State and local governments and the post 
office. Another $33 million of costs is attributed to the 
quality control (QC) component of the operation, which took 
more hours and mileage than expected. This was in large part 
due to the number of addresses that were found to be 
duplicates, or were otherwise deleted by the production 
listers, and had to be verified by the quality control listers. 
Last, the actual results included fingerprinting costs, for 
which $7 million was budgeted separately.

                REFINED ASSUMPTIONS FOR THE 2010 CENSUS

    So, we've now built those--learned those lessons, and 
revised our estimates, in terms of how many people we need to 
actually bring on board when it's time to go knocking on the 
door. So, we're trying to incorporate all these lessons 
learned, to refine our models. In fact, based on some of the 
audits, as well as findings and our experience on the address 
canvassing, where we had to go find out--is the home still 
here? Is this building still here? Is this a new structure 
that's not listed on the Post Office rolls or the rolls of the 
local government? And that was the address canvassing.
    We have taken a lot of that work and the lessons learned to 
completely rescrub all of our assumptions with respect to the 
nonresponsive followup. So, we have taken these issues to try 
to constantly refine, we're cautiously optimistic. We'll have a 
better sense, around April 20, quite frankly, what we can 
expect by way of the workload expected for nonresponsive 
followup.
    Based on past experience, by March 22, when we see how many 
people are actually sending in--sending back their census 
forms, we'll have a good indicator.
    The Census Bureau will know the workload for the 
nonresponse followup operation around April 20. By around March 
22, an interactive map showing the 2010 census participation 
rates as compared to the census 2000 will be made available to 
the public for tracking the current response rate down to the 
census tract level.

                     2010 CENSUS DATA AVAILABILITY

    And it's--in fact, Members of Congress and the mayors and 
the Governors will all have software, or programs, they can tap 
in, to actually see what's happening in their own communities 
and compare it against what happened in the year 2000. And that 
will give us the ability to immediately read just more public 
service announcements by local public officials, more outreach, 
more--a whole host of strategies to try to get more people to 
send back.
    Senator Mikulski. That's how we'll do it, but we're--again, 
we're into the cost overrun.
    The Secretary has to leave, momentarily, for an event at 
the White House, and we want to hear from the inspector 
general.
    I'm going to say to my two colleagues, turning first to 
Senator Shelby, if we could stick to the theme of the census, 
which I know has been of great concern--did you have any 
questions on the census?
    Senator Shelby. I don't have any more. I think the 
Secretary understands my concern, and I think he shares that, 
and we just--and a lot of that happened before you came here, 
and I know that.
    Senator Pryor.
    Senator Pryor. No.
    Senator Mikulski. Well, Mr. Secretary, we know we've got a 
lot of followup to do. We want you to be able to keep your 
obligation to President Obama. And we really--we do look 
forward to staying in touch with your staff on these very vital 
issues that are affecting us.
    So, thank you, and your presence here is----
    Secretary Locke. Thank you.
    Senator Mikulski [continuing]. Excused.
    We now are going to ask Mr. Zinser to come up, our 
inspector general, to give us what he thinks are the big 
challenges and where we can--and his observations and insights 
on how we can get a better handle--using the appropriations 
process to get more value for our dollar.
    Mr. Zinser, we're glad to see you. And really, on behalf of 
the subcommittee and, I think, of the Nation, we want to thank 
you for the job that you're doing.
    I am a great believer in the inspector general process. The 
whole idea was waste, fraud, and abuse, and that we would have 
an independent force giving us this evaluation. And to the 
extent that you see, particularly, where there is waste or the 
possibility of cost overruns, where the boondoggle banging on 
our budget, banging on the mission of the agency, we welcome 
your observations about the Commerce Department, and any 
recommendations that you think we need to take in our 
appropriations process to ensure that we have smart government.
    Please proceed.

STATEMENT OF HON. TODD J. ZINSER, INSPECTOR GENERAL

    Mr. Zinser. Thank you, Madam Chairwoman, Mr. Pryor. Thank 
you for the invitation to be here today.
    As you well know, and as the Secretary just testified, the 
Department of Commerce faces many challenges. We have submitted 
a written statement that summarizes our January report on those 
issues, as we consider the top management challenges facing the 
Department.
    Trying to narrow that list to a manageable number of 
priorities is a challenge in and of itself, given the very 
diverse mission of the Department. We drafted our report based 
on a thinking that too many priorities result in no priorities, 
so we identified five specific risk areas, which I will list in 
a moment.
    But, our list does not include what is perhaps the 
overarching priority of the Secretary, which has his lead 
responsibilities in the area of economic growth and job 
creation. We recognize the importance of those 
responsibilities.
    Our A list includes the decennial census, IT security, 
departmentwide, NOAA's Environmental Satellite Program, the 
American Recovery and Reinvestment Act, and the U.S. Patent and 
Trademark Office, to include significant financial management 
and process issues.
    And if I could just make two more points, Madam Chairwoman. 
First, our list is not meant to criticize anyone or any 
program. We hope that it helps all of us focus on important 
problems.
    And second, I think the subcommittee should know that I 
have found the leadership of the Department, almost to a 
person, to be very management-minded. They have rolled up their 
sleeves and seem intent on implementing much-needed management 
reform, and I think that's good for the Department and for the 
taxpayers.

                           PREPARED STATEMENT

    With that, I'll conclude my remarks and respond to any 
questions you or other members of the subcommittee may have.
    [The statement follows:]

               Prepared Statement of Hon. Todd J. Zinser

    Chairwoman Mikulski, Ranking Member Shelby, and members of the 
subcommittee: Thank you for inviting us to testify today as you 
consider the fiscal year 2011 appropriations for the Department of 
Commerce. Today I will highlight five areas that we identify in our 
recent Top Management Challenges report and that the subcommittee may 
want to include on its short list of watch items. I will also address 
several organizational issues and other matters of importance to the 
Department.
    The challenges I will discuss focus on the following five areas:\1\
---------------------------------------------------------------------------
    \1\ A more detailed discussion of these challenges is presented in 
our January 12, 2010, report, Top Management Challenges Facing the 
Department of Commerce, Final Report No. OIG-19884 (http://
www.oig.doc.gov).
---------------------------------------------------------------------------
  --Decennial Census.--Mitigating issues with the 2010 decennial while 
        addressing future census challenges.
  --Information Technology (IT) Security.--Continuing to enhance the 
        Department's ability to defend its systems and data against 
        increasing cyber security threats.
  --National Oceanic and Atmospheric Administration (NOAA) 
        Environmental Satellites.--Effectively managing technical, 
        budgetary, and governance issues surrounding the acquisition of 
        NOAA's two environmental satellite programs.
  --American Recovery and Reinvestment Act.\2\--Meeting the challenges 
        of accountability and transparency with effective oversight of 
        program performance, compliance, spending, and reporting.
---------------------------------------------------------------------------
    \2\ American Recovery and Reinvestment Act of 2009, Pub. L. 111-5.
---------------------------------------------------------------------------
  --United States Patent and Trademark Office (USPTO).--Addressing the 
        Patent Office's resource and process issues.
    Most of our audit and evaluation efforts this fiscal year are being 
expended in these areas. In planning our work for fiscal year 2011, we 
are, for the first time, conducting a formal risk assessment of 
Commerce activities to identify those most in need of oversight. 
Specifics on our current Top Management Challenges follow.

  DECENNIAL CENSUS--CENSUS NEEDS TO ENSURE ACCURACY AND CONTAIN 2010 
       DECENNIAL COSTS WHILE ADDRESSING FUTURE CENSUS CHALLENGES

    With a life-cycle cost estimate now projected to total $14.7 
billion, the 2010 census is a massive undertaking made up of many 
moving parts. The bureau must integrate 44 separate operations (with a 
total of some 9,400 program- and project-level activities). In just 
over a week, the public will begin receiving their census forms in the 
mail. The rate at which they return their responses will be critical in 
determining the overall cost of the census. Households that do not mail 
back their forms will be visited by an enumerator during nonresponse 
follow-up (NRFU). The most expensive operation of the decennial, it is 
estimated that NRFU will cost $2.3 billion.
    The fiscal year 2010 decennial budget for carrying out the 2010 
census involving the 10 question short form was $6.9 billion, which 
included $100 million carried over from fiscal year 2009. For fiscal 
year 2011, the bureau has requested slightly more than $477 million to 
complete the 2010 census.
    The mission of the census--to count each of the over 300 million 
people in more than 130 million households in the United States once, 
only once, and in the right place--is a daunting task. For decennial 
field operations, temporary bureau management staff must run just under 
500 local offices and manage over 600,000 temporary workers--while 
recruiting substantially more.
    While much of the bureau's plan is on track, NRFU efficiency and 
accuracy are at some risk, and final decennial costs remain uncertain. 
The success of NRFU--which begins in just 8 weeks--hinges on how 
effectively Census controls the enormous NRFU workload and workforce, 
and it must do so using a Paper-based Operations Control System (PBOCS) 
which, because of system development problems, will have less 
functionality than planned and is currently experiencing performance 
problems. PBOCS is essential for efficiently making assignments to 
enumerators, tracking enumeration forms, and reporting on the status of 
the operation.

Cost Containment is Essential for Field Operations, but Requires Strong 
        Budget Estimation Capability and Effective Internal Controls
    The ability to produce valid budget estimates is essential for cost 
containment. Yet Census reported a 25-percent cost overrun for address 
canvassing and spent 41-percent less than anticipated for group 
quarters validation.\3\ Inaccuracies of this magnitude in estimated 
budgets, combined with wide variances among early local Census offices 
in address canvassing costs, indicate significant weaknesses in the 
bureau's budget estimation capabilities.
---------------------------------------------------------------------------
    \3\ The group quarters validation operation is aimed at verifying 
information from all potential group quarters--such as dormitories and 
prisons--nationwide.
---------------------------------------------------------------------------
    Also essential to cost containment is better management of Census 
fieldwork. We found inefficiencies in wages, travel, and training 
during the address canvassing operation, including workers being paid 
to attend training classes but who subsequently performed little or no 
work, workers who made excessive mileage claims, and workers who were 
reimbursed for mileage at a higher-than-authorized rate. Given the 
significantly larger scale of NRFU, it is important that Census develop 
effective internal controls and ensure that managers scrupulously 
follow them during this operation.
    The final decennial cost remains uncertain; three key factors could 
have significant cost impact. According to the bureau, the mail 
response rate could have the greatest impact, with enumerator 
productivity a second major cost driver. The third issue concerns the 
capabilities and performance of PBOCS for NRFU. This, along with the 
bureau's ability to implement effective workarounds for PBOCS 
shortfalls, will determine the ultimate schedule and degree of 
efficiency, and thus the final cost.

OIG Oversight Plan For Decennial Operations
    The Office of Inspector General (OIG) will continue to monitor the 
bureau's progress on PBOCS and other key decennial activities. In 
addition, over the next several months, about 100 members of our staff 
will be participating in what is for us an unprecedented effort in 
scope and resource commitment to go on the road and observe Census 
workers in action. Such oversight, while census activities are ongoing, 
will allow us to immediately observe successes as well as any problems 
that might arise, and notify the bureau without delay.

The Groundwork for an Improved and Cost-effective 2020 Census Should be 
        set This Year
    The cost of the decennial census has doubled every decade since 
1970 (not adjusted for inflation). On the current trajectory, the price 
of the 2020 census could total more than $30 billion. Census must find 
ways to rein in costs while maintaining or enhancing accuracy. It is 
crucial for the bureau to lay the groundwork now for the 2020 census.
    The Supplemental Appropriations Act of 2008 \4\ gave the Census 
Bureau an additional $210 million to help cover spiraling 2010 
decennial costs. As directed in the explanatory statement accompanying 
the act, OIG has been providing quarterly reports to congressional 
appropriations committees that assess the bureau's progress against its 
2010 decennial plan. In our first quarterly report, we reported that 
the bureau's ability to effectively oversee decennial progress has long 
been hampered by inherent weaknesses in its systems and information for 
tracking schedule activities, cost, and risk management actions. Our 
recommendations to address these problems for the 2020 decennial 
emphasized the need for an integrated method for planning and tracking 
of budget, schedule, and progress.
---------------------------------------------------------------------------
    \4\ Pub. L. 110-252, title II.
---------------------------------------------------------------------------
    To effectively plan and manage the next decennial, Census needs to 
significantly improve its cost estimation capabilities and provide a 
well-documented cost estimate as early as possible. Our first quarterly 
report also noted that Census needs to develop transparent decision 
documentation for the 2020 census that clearly identifies the basis for 
spending decisions and the rationale for changes to plans provided to 
Congress and other stakeholders.
    The findings of our two subsequent quarterly reviews, combined with 
other evaluations we conducted throughout the decade, demonstrate that 
Census needs to identify more cost-effective approaches to the 
decennial and should give serious consideration to the use of such 
alternatives as administrative records, the Internet, and targeted 
address canvassing. These and other possible approaches have the 
potential to contain costs while increasing accuracy and efficiency.
information technology (it) security--commerce must continue enhancing 

    THE DEPARTMENT'S ABILITY TO DEFEND ITS SYSTEMS AND DATA AGAINST 
                   INCREASING CYBER SECURITY THREATS

    Commerce's budgets for information technology have increased since 
fiscal year 2008, primarily for investments at Census and NOAA (see 
table). Despite the millions of dollars spent on cybersecurity, 
Commerce's approximately 300 computer systems, many that process and 
store sensitive mission-critical data, are not always adequately 
protected.

                                     COMMERCE BUDGET FOR IT AND IT SECURITY
                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                                                                   Percentage of
                                                                                    IT Security    Budget Spent
                           Fiscal Year                             IT Budget \1\    Budget \1\    on IT Security
                                                                                                        \1\
----------------------------------------------------------------------------------------------------------------
2008............................................................          $1,789            $116               7
2009............................................................          $2,273            $170               8
2010............................................................          $3,042            $240               8
2011............................................................          $2,631            $307             12
----------------------------------------------------------------------------------------------------------------
\1\ Rounded.
 
Source: Estimates provided by the Department of Commerce, Office of the Chief Information Officer.

    While maintaining IT security is inherently challenging, Commerce's 
decentralized management structure adds to the difficulty. Commerce 
operating units have separate management structures that preclude 
direct accountability to the Department's Chief Information Officer 
(CIO). This decentralization gives the CIO only limited authority over 
the daily management of IT security within Commerce's operating units, 
and adds complexity to Department-wide information security 
initiatives.

Commerce is Taking Steps to Strengthen its IT Security Workforce
    An audit we conducted in fiscal year 2009 found that the Department 
needed to devote more attention to the development, guidance, and 
performance management of its IT security personnel. We made 
recommendations to improve employee training, professional development, 
and performance management. Among the numerous improvements that the 
Department is now making, it plans to require professional 
certifications for employees with significant IT security 
responsibilities. This is a noteworthy step in building a highly 
competent IT security workforce--one that few, if any, civilian 
agencies are taking.

Departmental Actions to Resolve Material Weakness in IT Security Are 
        Showing Progress, but More Work Will Be Necessary
    The Federal Information Security Management Act of 2002 \5\ (FISMA) 
requires agencies to certify that their systems and data are protected 
with adequate, functional security controls before systems are 
authorized (accredited) to operate. If a management control weakness is 
sufficiently serious that the agency head determines it should be 
reported in the annual Performance and Accountability Report, it is 
termed a material weakness. IT security has been reported as a material 
weakness since fiscal year 2001 pursuant to the Federal Managers' 
Financial Integrity Act of 1982.\6\ While the Department is continuing 
to make progress, our fiscal year 2009 FISMA review identified 
vulnerabilities in technical security controls that leave Department 
systems and data at risk for internal and external malicious attacks. 
Therefore, we recommended--and the Department agreed--that the material 
weakness should stand until more improvements are made.
---------------------------------------------------------------------------
    \5\ Pub. L. 107-347, title III, Sec. Sec. 301-302, 44 U.S.C. 
Sec. Sec. 3541-3549, 40 U.S.C. Sec. 11331.
    \6\ Pub. L. 97-255 (codified as amended in scattered sections of 31 
U.S.C.).
---------------------------------------------------------------------------
    We report on USPTO separately for purposes of FISMA because, as a 
performance-based organization, it submits a separate Performance and 
Accountability Report. Although the two USPTO systems we evaluated in 
fiscal year 2009 met FISMA requirements, we did not have sufficient 
evidence to recommend removal of the material weakness. In our view, 
the bureau has not demonstrated a consistent, effective process for 
certification and accreditation, and we continued to identify problems 
that we reported on in the past. Nevertheless, USPTO management 
determined that its IT security issues have been adequately resolved 
and did not report IT security as a material weakness in its fiscal 
year 2009 Performance and Accountability Report--a position with which 
we disagree.
    In this fiscal year, the Department's CIO will begin implementing a 
3-year plan that takes a Department-wide, holistic approach to 
improving Commerce's overall security posture. The plan addresses 
continuous monitoring of security controls, situational awareness, 
incident detection and response, and other aspects of an effective IT 
security program, including improving IT workforce competencies.

 NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION (NOAA) ENVIRONMENTAL 
  SATELLITES--NOAA MUST EFFECTIVELY MANAGE TECHNICAL, BUDGETARY, AND 
  GOVERNANCE ISSUES SURROUNDING THE ACQUISITION OF TWO ENVIRONMENTAL 
                           SATELLITE SYSTEMS

    NOAA is modernizing its environmental monitoring capabilities, in 
part by spending an estimated total of nearly $20 billion on two 
critical satellite systems: the National Polar-orbiting Operational 
Environmental Satellite System (NPOESS) and the Geostationary 
Operational Environmental Satellite-R Series (GOES-R). Space 
acquisitions such as NPOESS and GOES-R are highly technical and 
complex; such programs have a history of cost overruns, schedule 
delays, and reduced performance capabilities.
    The NPOESS and GOES-R programs have already suffered significant 
cost increases and delays. Because of serious problems with NPOESS, the 
program is beginning to undergo a restructuring, as discussed below. 
These programs will continue to require close oversight to minimize 
further disruption to the programs and prevent any gaps in satellite 
coverage. Such gaps could compromise the United States' ability to 
forecast weather and monitor climate, which would have serious 
consequences for the safety and security of the Nation.

NPOESS Background
    The objective of NPOESS was to provide continuous weather and 
environmental data for longer term weather forecasting and climate 
monitoring through the coming two decades. NPOESS has been managed 
jointly by NOAA, the National Aeronautics and Space Administration 
(NASA), and the Department of Defense. NOAA and Defense shared the cost 
of the NPOESS program equally. The initial project plan called for the 
purchase of six satellites at a cost of $6.5 billion, with a first 
launch in 2008. But problems with a key sensor raised costs and delayed 
the date of the first launch, even as the number of satellites in the 
system was reduced to four.
    By December 2008, NPOESS' total estimated life-cycle cost had grown 
to $14 billion. NOAA announced in March 2009 that it would delay the 
first launch to 2014 because of continuing problems with the sensor. It 
also delayed the planned NPOESS Preparatory Project \7\ launch date 
from 2010 to 2011.
---------------------------------------------------------------------------
    \7\ The NPOESS Preparatory Project was planned as a risk-reduction 
effort to test NPOESS' new instruments in flight. NASA is taking the 
lead in this activity.
---------------------------------------------------------------------------
Restructuring of the NPOESS Program Deemed Critical to Its Success
    In the spring of 2009, an independent team was appointed to examine 
the program's status. The team, comprising satellite experts from 
industry, academia, and government, found that the NPOESS program had a 
low probability of success. In the fall of 2009, NOAA, NASA, and 
Defense worked with the White House Office of Science and Technology 
Policy and the Office of Management and Budget to select the best 
option for restructuring. The option chosen, called Divergence, was 
considered the most feasible because it would not require Defense and 
NOAA to continue to try to resolve their conflicting perspectives and 
priorities. As a result, NOAA and NASA plan to acquire a separate 
satellite, called the Joint Polar Satellite System (JPSS).
    The three agencies have formed a transition team to implement the 
Divergence plan. Although the complete details of the plan are still 
being developed, NOAA/NASA intend to use the applicable components for 
JPSS that were funded and developed under the previous NPOESS 
structure.
    Under Divergence, Defense will be responsible for the early morning 
orbit, Defense and the European Organization for the Exploitation of 
Meteorological Satellites will cover the mid-morning orbit, and a NOAA/
NASA-managed JPSS acquisition will cover the afternoon orbit. The 
orbits are based on the local time that the satellite crosses the 
equator as it circles the earth. Satellite coverage in all of these 
orbits allows the same point on the earth to be sampled frequently 
enough and at the correct time of day (under sunlight or darkness) to 
meet each agency's operational requirements, provide sufficient data 
for both severe storm prediction and detection, and provide climate 
monitoring for our Nation's safety and security.
    NOAA, NASA, and Defense will implement the transition plan from now 
into fiscal year 2011. To accomplish this, NOAA'S fiscal year 2011 
budget request for JPSS totals $1.1 billion, a $679 million increase 
over the fiscal year 2010 budget. The JPSS program will continue 
development of the instruments needed for the afternoon orbit. The JPSS 
management structure is planned to be similar to NOAA's next generation 
GOES-R, in which NOAA manages the overall program with assistance from 
NASA. NOAA will acquire two JPSS satellites and will continue climate 
sensor acquisitions under the NOAA climate program. The cost estimate 
for JPSS is $11.9 billion; this includes funding for transition of 
instrument acquisitions from Defense to NASA, NOAA's share of NPOESS 
contract termination costs, and procurement of two JPSS satellites.
    Defense is also conducting a study to evaluate the best approach 
for maintaining continuity of its polar satellites. It has two 
remaining satellites under the ongoing Defense Meteorological Satellite 
Program (DMSP). The availability of DMSP satellites through 2018 could 
significantly delay the need to acquire a replacement satellite. 
However, it is essential that Defense maintain funding to account for 
the long lead time required to build satellite capability because it 
remains responsible for data continuity in the early-morning orbit 
beyond the last DMSP satellite's life span.

GOES-R Background
    The GOES-R \8\ system is intended to offer an uninterrupted flow of 
high-quality data for short-range weather forecasting and warning, as 
well as provide climate research data through 2028. NOAA is responsible 
for managing the entire program and for acquiring the ground segment, 
which is used to control satellite operations and to generate and 
distribute instrument data products. NOAA awarded the ground segment 
contract in May 2009, which has a 10-year duration and a total 
estimated value of $736 million, if all options are exercised.
---------------------------------------------------------------------------
    \8\ Since 1975, the GOES series of satellites have provided the 
United States with critical meteorological data for weather 
observation, research, and forecasting. Satellites in production are 
given letter designations, which are changed to numbers after the 
satellites reach orbit.
---------------------------------------------------------------------------
    NASA's Goddard Space Flight Center in Greenbelt, Maryland, is 
responsible for acquiring the spacecraft and instruments for the 
program. In December 2008, NASA's award of the GOES-R spacecraft 
contract--with a total estimated value of $1.1 billion for two 
spacecraft, including the options for two additional spacecraft--was 
protested by the losing bidder. Work stopped until the protest was 
withdrawn in August 2009. As a result, launch readiness for the two 
satellites was deferred by 6 months.\9\
---------------------------------------------------------------------------
    \9\ The first satellite's launch date has been delayed from April 
to October 2015; the second from August 2016 to February 2017.
---------------------------------------------------------------------------
    According to program documentation, the overall GOES-R program 
acquisition is on track and within budget to meet the revised launch 
schedule for systems engineering and integration and both the flight 
and ground segments. The next significant program events are the system 
design reviews for the spacecraft and ground segment, scheduled for 
this month and next, respectively.
    Any further delays in the satellite's launch readiness will 
increase the risk of NOAA's not meeting its requirement to have an on-
orbit spare and two operational GOES satellites available to monitor 
the Pacific and Atlantic basins in 2015. We will monitor the program's 
cost and schedule to ensure that the bureau mitigates the risk of any 
further delays.

   AMERICAN RECOVERY AND REINVESTMENT ACT--MEETING THE RECOVERY ACT 
CHALLENGES OF ACCOUNTABILITY AND TRANSPARENCY WITH EFFECTIVE OVERSIGHT 
      OF PROGRAM PERFORMANCE, COMPLIANCE, SPENDING, AND REPORTING

    The Department of Commerce received $7.9 billion in funding under 
the American Recovery and Reinvestment Act of 2009 (see table). In 
addition to OIG, five Commerce agencies received stimulus funding. Of 
the $5.3 billion going to the National Telecommunications and 
Information Administration (NTIA), $4.7 billion was for the Broadband 
Technology Opportunities Program (BTOP). With the goal of developing 
and expanding broadband services in areas that have no service or are 
underserved, as well as improving broadband access among public safety 
agencies, BTOP is by far Commerce's most challenging stimulus program.

                      COMMERCE STIMULUS FUNDING \1\
------------------------------------------------------------------------
 
------------------------------------------------------------------------
NTIA........................................  $5 billion
Census......................................  $1 billion
NOAA........................................  $830 million
NIST \2\....................................  $610 million
EDA \3\.....................................  $150 million
OIG.........................................  $16 million
------------------------------------------------------------------------
\1\ Rounded.
\2\ National Institute of Standards and Technology.
\3\ Economic Development Administration.
 
Source.--OIG.

    We have taken several steps to implement an appropriate oversight 
framework to track the stimulus activities undertaken by Commerce. 
These steps include the assignment of dedicated Recovery Act staff; 
advisory participation in Department steering committees and working 
groups; and development of training programs to include fraud 
awareness, administration of grants and contracts, and development and 
execution of a risk-based audit plan. Some of the larger challenges 
that Commerce faces, as identified by this oversight, are summarized 
below.

Oversight Burden Will Increase in Fiscal Year 2011
    The sheer amount of Recovery Act money Commerce agencies received, 
coupled with the unique requirements of the act, makes ensuring 
appropriate spending--while also providing economic stimulus as quickly 
as possible--a particular challenge. Commerce agencies must spend funds 
appropriately with little time to prepare for the many new and expanded 
programs, grants, and contracts established under the act.
    Attached to our testimony is a table that presents Department of 
Commerce Recovery Act obligations and spending. As of February 19 of 
this year, the Department had obligated approximately $2.1 billion in 
funds and spent approximately $649 million.
    Although spending volumes are currently low, all funds must be 
obligated by fiscal year 2011. The need to distribute funds quickly to 
communities and businesses increases the risks for fraud, waste, and 
abuse in both Recovery Act-funded activities and those Commerce 
operations with more traditional funding mechanisms. Recovery Act 
agencies will need sufficient resources to ensure that programs are 
delivering as intended, while providing oversight to guard against 
misuse of funds. The Recovery Act substantially increases the 
Department's contracting and grants workload, particularly at NIST and 
NOAA, whose grants and contracts offices must manage not only the over 
$1.4 billion they received under the Recovery Act but also the $4.7 
billion BTOP program. NTIA relies on NIST and NOAA for grants 
administration because it does not have its own staff and systems for 
this purpose. Such increases place added pressure on these agencies to 
hire and retain qualified personnel.
    The Recovery Act has provided a relatively significant funding 
increase for NIST and NOAA construction projects. To complete them 
successfully, these agencies will need to dedicate construction 
managers across Recovery Act grants, contracts, and regular 
appropriation-funded projects.

Meeting Agency and Recipient Reporting Requirements
    The Recovery Act establishes specific reporting requirements for 
both agencies and fund recipients. Federal agencies must report key 
information such as awards, obligations, outlays, and major activities 
on a weekly basis. Fund recipients need to report on a quarterly basis 
the projects and activities created and their completion status, as 
well as jobs funded by stimulus money. Available to the American 
public, these data reports must accurately reflect the use and impact 
of Recovery Act funds. An effectively designed internal control 
structure that detects and prevents errors and omissions is vital to 
data integrity.
    We recently reviewed the adequacy of key information technology and 
operational controls of the primary (source) grants, contracts, and/or 
financial systems for Census, EDA, NIST, NOAA, and NTIA, to determine 
whether their controls ensure that the Commerce reports posted on 
http://www.Recovery.gov are complete, accurate, and reliable. 
Generally, the Commerce systems we reviewed had adequate data input/
edit controls. However, the lack of automated data transmission or 
interfaces from the grants systems to Commerce's financial system could 
lead to errors.
    Without additional automation, it will become more difficult for 
Commerce agencies to effectively manage their own reporting as the 
volume of grants and contracts increases; it will also be difficult to 
ensure complete and accurate recipient reporting. Additional automation 
would add efficiencies to the reporting process and decrease the risks 
of reporting errors and delays.\10\
---------------------------------------------------------------------------
    \10\ More Automated Processing by Commerce Bureaus Would Improve 
Recovery Act Reporting, Final Report No. OIG-19779, December 2009 
(http://www.oig.doc.gov/recovery/reports/ARR-19779.pdf).
---------------------------------------------------------------------------
    In fiscal year 2009, the Recovery Accountability and Transparency 
Board asked Inspectors General to audit bureaus receiving Recovery Act 
funding to assess their ability to perform reviews, identify reporting 
omissions and errors, and notify recipients who should make appropriate 
and timely changes. Our audit found that Commerce and its bureaus have 
proactively ensured that Recovery Act recipients recognize and meet 
reporting requirements and deadlines. In addition, the Department has 
provided policy, guidance, and oversight to bureau grants and contracts 
officials to facilitate department-wide standard review processes. The 
Department agreed with our recommendations to fine-tune review 
procedures.\11\
---------------------------------------------------------------------------
    \11\ Commerce Has Implemented Operations to Promote Accurate 
Recipient Reporting, but Improvements Are Needed, Final Report No. OIG-
19847, October 30, 2009 (http://www.oig.doc.gov/recovery/reports/
Final%20Audit%20Report%20ARR-19847.pdf).
---------------------------------------------------------------------------
Effectively Setting Up and Managing the New Broadband Technology 
        Opportunities Program
    A major Recovery Act initiative, NTIA's BTOP, faces significant 
application and pre-award review challenges to achieving its goals. The 
program aims to award over $4.5 billion in grants in fewer than 18 
months, a level of grants-award activity that no Commerce operating 
unit has ever undertaken.
    With BTOP, NTIA has had to staff a program office, develop grants 
program rules and regulations, coordinate activities with several other 
departments and agencies (including Agriculture and the Federal 
Communications Commission), award grants, and perform effective 
oversight activities--all while limiting expenditures to 3 percent of 
the program's appropriation ($141 million).
    In early January, we met with the Assistant Secretary for 
Communications and Information to discuss the status of our evaluation. 
We communicated program challenges that--if unaddressed--we believed 
could cause NTIA to face difficulties in meeting its statutory deadline 
of issuing broadband grants by September 30, 2010, and in monitoring 
the grants after they are awarded. We shared the following concerns:
  --NTIA faces operational challenges with its current staffing levels, 
        especially given the program's complexity and deadline.
  --Documentation is not consistently available for operational program 
        procedures, program staff roles and responsibilities, and key 
        management decisions.
  --NTIA encountered problems with the application-intake system during 
        the first round of the application process because the system 
        was unable to handle the volume of applications submitted; this 
        resulted in extending the deadline for receiving applications. 
        While system modifications were made, there was only a short 
        period of time in which to sufficiently test the system and 
        ensure that adequate functionality and capacity were delivered 
        for the second-round application cycle.
  --NTIA also encountered challenges with the application review 
        process. Volunteer peer reviewers failed to complete reviews or 
        submit review scores in a timely manner. Supplemental contract 
        reviewers were subsequently used to complete many of the 
        application reviews. The review of applications was delayed 
        nearly 3 months.
    As NTIA enters its second round of issuing broadband grants, it 
needs not only to avoid the problems with applications intake and 
recruitment of sufficient reviewers but also to enhance internal 
program management operations for grants already awarded. In our 
opinion, the program is at risk of not being able to efficiently and 
effectively issue its second round of awards by the September 30, 2010, 
statutory deadline while simultaneously providing post-award monitoring 
of first-round recipients. Continued focus on improving program 
operations in these areas is critical.

 UNITED STATES PATENT AND TRADEMARK OFFICE (USPTO)--USPTO MUST ADDRESS 
                    ITS RESOURCE AND PROCESS ISSUES

    With an enacted budget of $1.7 billion in fiscal year 2010 and an 
fiscal year 2011 budget request of $2 billion for patent operations, 
USPTO continues to struggle with increasing patent backlogs and the 
need to improve patent examination efficiency and quality.
    As shown below, since fiscal year 2000, the number of patent 
examiners has more than doubled, yet the length of time to process a 
patent has increased 40 percent. Further, the backlog of applications 
awaiting review increased 139 percent.

            COMPARISON OF ANNUAL PATENT WORKLOAD AND PENDENCY, FISCAL YEAR 2000 AND FISCAL YEAR 2009
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal Year     Fiscal Year       Change
                                                                       2000            2009          (percent)
----------------------------------------------------------------------------------------------------------------
Patent Examiners................................................           2,900           6,200             114
Total Time to Process (months)..................................              25              35              40
Applications Backlog............................................         308,000         736,000             139
Applications Filed..............................................         312,000         486,000             56
----------------------------------------------------------------------------------------------------------------
Source.--USPTO.

    Over the years, USPTO has worked to increase the number of patent 
examiners to address the growing backlog; however, simply adding to the 
workforce without improving processes and quality control will not 
suffice. The bureau must consider how to reform and reengineer the 
various components of the patent application process to ensure timely 
and high-quality application review. Further, its IT systems need to be 
updated to ensure that they are able to process increasingly complex 
applications safely and securely, and provide greater management 
oversight.

Fee Structure, Funding Mechanisms Intertwined
    USPTO must also address challenges with its funding mechanisms and 
fee structure. It is now funded entirely by application, maintenance, 
and other fees paid by patent and trademark applicants and owners. 
Congress is also involved in this process by setting many of the fees 
legislatively and establishing a ceiling, through the appropriations 
process, as to the maximum amount of fees USPTO can spend in a given 
year. For fiscal year 2011, the administration proposes a 15-percent 
increase in certain patent fees to generate additional revenue to cover 
operating expenses. It also proposes that USPTO be given fee-setting 
authority and the authority to establish an operating reserve to manage 
operations on a multiyear basis.
    In November 2008, our Top Management Challenges report suggested 
that USPTO's unique financing structure could become increasingly 
risky. Subsequent downturns in the U.S. and global economies quickly 
showed the structure's vulnerabilities. In the President's fiscal year 
2009 budget, the bureau estimated that it would collect over $1.8 
billion in patent fees. However, by the end of that year, patent fee 
collections totaled just over $1.6 billion. Multiple factors 
contributed to this difference, including a reduction in the number of 
patent applications filed and a decline in maintenance fees collected 
for existing patents. To align expenses with actual patent fee 
collections, USPTO took steps that included deferring the hiring of 
patent examiners, and curtailing or suspending overtime and training.
    These reductions increase the risk to USPTO's ability to operate 
effectively in current and future years, and its capacity to ensure 
that America's intellectual property system encourages investment in 
innovation and contributes to a strong global economy. More 
immediately, USPTO may not be able to process as many patent 
applications, which will add to the backlog instead of working toward 
reducing it. In effect, fewer maintenance fees will be available to 
collect in the future because fewer patents are being issued today.
    As a result, in our view, the Department and Congress must require 
transparency and quality with respect to USPTO's cost data. This could 
include a review of USPTO's cost accounting system and how the system 
could be used to support decisionmaking in general--and in the event of 
cost reductions in the future, such as those that were necessary in 
fiscal year 2009.
    The Under Secretary of Commerce for Intellectual Property, who is 
also the Director of USPTO, has publicly acknowledged these and other 
difficulties. A 5-year plan contained in the President's fiscal year 
2011 budget sets forth bold goals, such as reducing the time it takes 
for a patent application to be initially reviewed to 10 months (from 
the present 26 months) by fiscal year 2013. Similarly, by fiscal year 
2014, the bureau's goal for making a decision on a patent application 
is 20 months, down from the present 35.

           OTHER CHALLENGES FACING THE DEPARTMENT OF COMMERCE

    In addition to these five top management challenges, we have 
identified several organizational issues facing the Department in the 
coming year:

Centralized Management and Oversight
    The Department needs to continue its actions to centralize 
management and oversight in order to make departmental operations more 
efficient, consistent, and productive. The Department's operating units 
have long-standing and independent business models, cultures, and 
practices. This decentralized structure has created obstacles to 
Department efforts to integrate and administer internal processes such 
as financial services, human resources, grants and contracts 
management, IT, and major acquisitions. Increased centralization has 
the potential to yield cost savings.
    Commerce awarded over $2.2 billion in grants to some 4,000 
recipients and over $3.2 billion in contracts to over 7,000 contractors 
during 2009. Grants and contracts are administered by five separate 
bureaus, using three different grants systems and four different 
procurement systems. Additionally, the Department's Office of 
Acquisition Management has limited authority over the agency's grants 
and procurement offices, which further contributes to the inconsistent 
management approaches across the Department and adds to the difficulty 
in overseeing the effectiveness of operations and programs.
Contracts and Grants Management Workforce
    Sufficient staffing for the contracts and grants management 
workforce has also been a long-standing issue for the Department. Now, 
primarily as a result of the Recovery Act, the Department and its 
operating units are issuing more grants and contracts than ever. 
According to Department data, there are more than 1,500 Commerce 
employees holding certifications in various acquisition positions (see 
table). While the Department does not track the number of grants 
personnel, we recently conducted a survey of the sufficiency and 
qualifications of the Recovery Act acquisition and grants workforce. 
Based on our survey, for the five Commerce agencies receiving Recovery 
Act funding, the grants workforce totaled over 800 employees. This 
includes grant officers, grants program managers, and grants 
specialists.

      COMMERCE ACQUISITION WORKFORCE--NUMBER OF CERTIFIED PERSONNEL
------------------------------------------------------------------------
                        Position                             Personnel
------------------------------------------------------------------------
Contracting Officer/Specialist..........................             180
Contracting Officer's Representative/Contracting                   1,313
 Officer's Technical Representative \1\.................
Program/Project Manager \1\ \2\.........................              49
                                                         ---------------
      Total.............................................           1,542
------------------------------------------------------------------------
\1\ Employees in these positions may not all be currently working on
  acquisitions.
\2\ Certifications are only required if managing major acquisitions.
 
Source.--Commerce Office of Acquisition Management.

    Despite these numbers, however, the Department's ability to 
appropriately issue and oversee grants and contracts is hampered by a 
serious shortage of skilled, specially trained staff. To ensure that 
grants and contracts are issued effectively and funds properly spent, 
the Department needs to build up the size and skills of this workforce 
and improve its oversight processes.

NOAA Headquarters Leadership Structure
    NOAA continues to face the challenge of carrying out its 
multifaceted mission of understanding and predicting changes in the 
earth's environment and conserving and managing coastal and marine 
resources to meet our Nation's economic, social, and environmental 
needs. NOAA is realigning its headquarters leadership structure to 
streamline decisionmaking and provide greater policy-level attention to 
day-to day management and oversight of its programs. The realignment is 
intended to provide additional strategic guidance and leadership 
direction for the bureau's stewardship responsibilities, including 
fisheries.
    One of the key components of this mission is management, research, 
and services related to the protection and rational use of living 
marine resources. We discussed NOAA's need to balance conservation and 
commercial fishing in last year's Top Management Challenges report. 
Over the past year, we have issued two reports that demonstrate, in 
particular, the difficulty of achieving this balance. In our first 
report, we evaluated a series of issues regarding the work and 
scientific methods of the National Marine Fisheries Service's (NMFS) 
Northeast Fisheries Science Center.\12\ Our second report, which we 
recently completed, provides an assessment of the policies and 
practices of the Office for Law Enforcement within NMFS and NOAA's 
Office of General Counsel for Enforcement and Litigation.\13\
---------------------------------------------------------------------------
    \12\ Memorandum to National Marine Fisheries Service re: Northeast 
Fisheries Science Center, February 26, 2009. (http://www.oig.doc.gov/
oig/reports/correspondence/
Northeast%20Fisheries%20Science%20Center.pdf).
    \13\ Review of NOAA Fisheries Enforcement Programs and Operations, 
Final Report No. OIG-19887, January 21, 2010 (http://www.oig.doc.gov/
oig/reports/2010/OIG-19887.pdf).
---------------------------------------------------------------------------
Commerce Headquarters Renovation
    Finally, the Department's headquarters, the General Services 
Administration (GSA)-owned Herbert C. Hoover building in Washington, DC 
is undergoing an extensive renovation. The renovation will take about 
13 years and is estimated to cost almost $960 million to complete. The 
project is being funded mostly by GSA, but has the greatest potential 
to disrupt Commerce operations and affect its workforce. Accordingly, 
the Department has a primary interest in ensuring that the renovation 
is completed on time, within budget, and free of fraud. To meet this 
goal, Commerce and GSA need to provide comprehensive oversight 
throughout the project's life cycle.
    In conclusion, Madam Chairwoman, there is no doubt that the 
Commerce Department faces much important yet challenging work in fiscal 
year 2011. Accomplishing it will require continual management 
oversight, and we intend to perform our role as well in monitoring the 
progress of these essential programs. This concludes my prepared 
statement. I would be happy to respond to any questions that you or 
other members of the subcommittee may have at this time.

                                          DEPARTMENT OF COMMERCE RECOVERY ACT SPENDING, AS OF FEBRUARY 19, 2010
                                                                  [Dollars in millions]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                     Total           Total           Total       Remaining    Percentage
                    Bureau                                  Purpose              Appropriation  Obligations \1\  Disbursements    Unspent     Remaining
--------------------------------------------------------------------------------------------------------------------------------------------------------
EDA..........................................  Economic Investment--Economic             $150            $148              $6          $144           96
                                                Adjustment Assistance Program.
Census.......................................  2010 Census--Additional                 $1,000            $340            $210          $790           79
                                                personnel, training, targeted
                                                media purchases, and risk
                                                reduction.
NTIA:
    Broadband................................  Competitive grants to accelerate        $4,690            $705             $18        $4,672           99
                                                broadband deployment in
                                                unserved and underserved areas
                                                and to strategic institutions.
    Digital Television.......................  Digital-to-analog converter box           $650            $338            $332          $318           49
                                                coupon program.
NIST:
    Science/Technical Research/Services......  Research, grants, research                $220             $87             $16          $204           93
                                                fellowships, and advanced
                                                research/measurement equipment
                                                and supplies.
                                               Transfer from HHS for the Health           $20              $1              $1           $19           98
                                                Information Technology Program.
                                               Transfer from Energy for the               $10              $2              $1            $9           94
                                                Smart Grid Interoperability
                                                Framework.
    Construction of Research Facilities......  To address NIST's backlog of              $360            $186              $7          $353           98
                                                maintenance and renovation and
                                                for construction of new
                                                facilities and laboratories.
NOAA:
    Operations, Research, & Facilities.......  For backlog of research,                  $230            $212             $47          $183           80
                                                restoration, navigation,
                                                conservation, and management
                                                activities.
    Procurement, Acquisition, & Construction.  For construction and repair of            $600             $30             $10          $590           98
                                                NOAA facilities, ships, and
                                                equipment; to improve weather
                                                forecasting; and to support
                                                satellite development.
OIG..........................................  ARRA oversight..................       \2\ $16              $1              $1           $15           94
                                                                                ------------------------------------------------------------------------
      TOTALS.................................  ................................        $7,946          $2,050            $649        $7,297          92
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ The obligation amount does not include activity for contracts awarded to other Federal agencies and referred to as interagency transfers. This is to
  remain compliant with OMB reporting guidance, which requires only the receiving agencies of funds to record obligation and spending activity to avoid
  double-counting of activity across Recovery Act programs. Given this, the obligation and spending levels reported are lower than the activity tracked
  in Commerce's financial records. The Department estimates amounts not included in the reporting to total $355 million in obligations, which relate
  primarily to the NTIA Broadband Technology Opportunities Program and the NOAA Procurement, Acquisition, and Construction programs.
\2\ Includes $6 million from the Recovery Act that is available until September 30, 2013, and $10 million transferred from the $4.7 billion NTIA
  appropriation for oversight of the Broadband Technology Opportunities Program.
 
Source: Department of Commerce and OIG.

                             CYBERSECURITY

    Senator Mikulski. Well, I want to get right to the 
information technology issues and I'm going to translate that 
to the words of cybersecurity. And I would prefer that we 
continue, with staff, that conversation in a secure 
environment.
    As a member of the Intelligence Committee--I know Senator 
Pryor is a member of the Armed Services Committee--we've both 
seen it from the purview of .military. We feel we need to 
protect .gov so we can ensure the future of .com. It's a klutzy 
metaphor, but there are issues that we believe need to be 
raised. We would like you really to look at the Commerce 
Department request to ensure that we're making prudent 
building-block investments on our cybersecurity, knowing you 
can't do this in a day. But, we believe that if we look at a 
properly planned, appropriately sequenced building-block 
approach, that, over the next few years, we could really secure 
.gov, particularly in those agencies that are most ready to be 
under these phishing expeditions--``p-h,'' not the kind that we 
enjoy on the bay. And we feel that that would be better in a 
more staff-oriented and classified environment where we could 
do that.
    And I know this would be a keen interest of Senator Pryor 
and Senator Shelby, who once chaired the Intel Committee.
    So, we get it, and we want to talk about it. We want this. 
Do you think the building-block approach is the good way to do 
it?
    Mr. Zinser. Yes. We have been working with the Department. 
We think they have a--they have a 3 year plan that they have 
developed; we think that plan has a lot of merit. But, we'd be 
happy to work with the staff and get into the details.

                         NOAA SATELLITE PROGRAM

    Senator Mikulski. Well, let me, right then go to one of my 
favorite topics, which is NOAA. You heard my comments to the 
Secretary. Close to a $9 billion appropriations request, $5 
billion of that in NOAA; and of that, 35 percent, this 
satellite program that seems vociferous.
    You've heard his recommendation--and it's not a debate with 
the Secretary; it's really your professional assessment--what 
tools would you recommend that we put in the appropriation, or 
report language, to encourage the agency to follow certain 
directions to ensure that, as we move forward with the new 
path, we get scientific value for our dollar and we really end 
this cost-overrun situation. Do you have thoughts that you 
could share with us on that?
    Mr. Zinser. Yes, Senator. I think that the NPOESS program, 
or now the JPSS program, can learn some lessons from GOES-R. 
And GOES-R did learn lessons from the problems with NPOESS.

           DEPARTMENT-LEVEL OVERSIGHT BOARD FOR ACQUISITIONS

    But, one of the key things that remain for the Department 
to do is to establish a Department-level oversight board of 
some type to--and not just for JPSS or GOES-R; this really 
applies to major acquisitions, in general, but especially for 
the satellite program. Right now, the Department is still 
trying to develop a Department-level acquisition oversight 
process, and they really need to do that for the satellite 
program.
    Senator Mikulski. Mr. Zinser, are you talking about at 
Commerce or are you talking about at NOAA?
    Mr. Zinser. I'm talking about at Commerce, at the 
Secretary, Deputy Secretary level, some process for them to get 
some type of independent review of what NOAA is doing in the 
management of the program.
    Senator Mikulski. Well, NOAA--you know, Commerce and--I 
know, it's an old saw now, as the Democrats have taken over, to 
say, ``Oh, we inherited a mess from the last administration,'' 
but we did. In the census, you know, the techno-boondoggle 
there with Harris, where we gave them $600 million and don't 
even have a bag of microchips to show for it. Now--and then we 
have the NPOESS model. Commerce doesn't seem to, within its 
various departments; know how to buy big technology. Do you--is 
this what you're looking at, in terms of an overall department? 
Perhaps you could flesh that out with us and give us your 
insights. Because we're not creating departments just for the 
sake of creating it, but we just can't have this at the 
Commerce Department. Money is too scarce, the missions are too 
important for it to go into something where we don't have 
anything to show for it at the end of the day. That's why the 
taxpayers are so grouchy. And we're grouchy, too.
    My colleague, here, from Arkansas, has a reputation for, 
you know, frugality and thrift, and I feel the same way in this 
subcommittee. So----
    Mr. Zinser. Well, I think one of the big lessons from the 
hand-held computer debacle--when the committees called the 
Secretary up to answer about that issue, the Secretary--
Secretary Gutierrez--wasn't all that well informed on what the 
problems were, because his staff did not have a system in place 
to review those projects.
    When Secretary Locke came in, I recommended that the heads 
of the agencies should have, at the administrator level, some 
type of dashboard of the mission-critical contracts that their 
bureau has, and they ought to visit those contracts on a 
regular basis to see how well they're progressing. I think that 
the--that leadership of the agencies have to be that involved 
in these major acquisitions.
    Senator Mikulski. I think that's a very important lesson, 
and we would like to talk with you more about it, about the 
practicality of implementing some, working in conjunction with 
the Secretary.
    I want to come back to the census issue, but--Senator 
Pryor.

                    INTERNET SECURITY/CYBERSECURITY

    Senator Pryor. Well, thank you, Madam Chair.
    Let me just kind of follow up on one of the chairwoman's 
questions, here, about Internet security, cybersecurity. Are 
you generally confident about the Department of Commerce's 
ability to protect itself against cyberattacks?
    Mr. Zinser. We think there are a lot of risks involved. 
There are approximately 300 systems in the Department, and what 
we're trying to do is look at, departmentwide, the types of 
policies and procedures that they have in place at a 
departmental level.
    One of the issues is that the management of IT security is 
very fragmented. There are----
    Senator Pryor. Is part of that the contractor issue, where 
they contract some of this out?
    Mr. Zinser. That's part of it. The other is just the 
structure for the chief information officers. There's a chief 
information officer for every bureau, and some bureaus have 
more than one. And trying to get all of those people on the 
same page and implementing the processes and procedures 
necessary is not easy.
    And then the other part of the problem is individual 
systems and--the security of critical, individual systems--
those systems involving weather, for example, or export control 
licenses and things like that.
    Senator Pryor. And is this sort of fractured management 
system--has that just evolved over time?
    Mr. Zinser. Sir, that is the nature of the Commerce 
Department. And, to their credit, the new leadership is trying 
to get a handle on that, and one of their goals is much more 
integrated management of the Department, and we've been pushing 
that for a long time.
    Senator Pryor. Okay. So, do you have a set of 
recommendations on how they should handle this?
    Mr. Zinser. We have been working with the CIO's office. 
They do have a plan in place. Some of it involves a ``C'' word 
that is not comfortable for people, which is ``consolidation'' 
of some of these responsibilities, but we have been working 
with them on that.
    Senator Pryor. Okay. And does it sound like they are taking 
those steps?
    Mr. Zinser. We're working with them on that, sir.
    Senator Pryor. Okay.
    And I guess the last question is--back to, sort of, my 
original question--as they go through this process, is it your 
belief that the Commerce Department will become more secure 
from an Internet cybersecurity standpoint?
    Mr. Zinser. Yes, I do.
    Senator Pryor. Okay.
    Thank you, Madam Chair.
    Senator Mikulski. Senator Pryor, our next hearing will be 
with the FBI, and we will have--we'll follow the policy I 
established last year, which is, we'll have an open hearing. 
But, then, because the FBI has national security, 
counterterrorism, other counter issues, we're going to have a 
classified hearing. And I would welcome your--once again, your 
participation. But, some of these issues will also be a very 
good place to raise this with the FBI, because they're our law 
enforcement agency. And in many ways, what's happening at 
Commerce is, its cybertheft, of a grand scale, but, instead of 
stealing your money, they're stealing your intellectual 
property, coming in through .gov back to .com. Interesting, 
isn't it?
    And we'll be able to go into more on that. And we're going 
to ask the Director to elaborate on it in his testimony.
    Senator Pryor. Great. Well, thank you for doing that, 
because I think that's the right approach. Thank you.

                              2010 CENSUS

    Senator Mikulski. Census. We're going into--we've now 
landed. You know, the 10 questions that take 10 minutes that 
determine 10 years are now in mailboxes, et cetera, and there's 
this magic number of March 22. Do you have any advice and 
direction on things that we could actually be doing right now, 
working with the--working with Commerce--Census, so that we 
don't have more cost overruns? And do you have any ideas on how 
we can recoup any of the money we spent that we didn't get 
value for our dollar?
    Mr. Zinser. Yes, Madam Chairwoman. The major risks for the 
decennial at this point--it is true, they are at battle 
stations at this point, and it is, in many respects, like a 
battle. There are a lot of things that are going to happen, and 
the experience of the field staff to work through those 
problems is a key.
    Unfortunately, there are two critical systems that are 
having performance problems and functionality problems. The 
Secretary referenced them, they are aware of them. One involves 
something called a Paper-Based Operation Control System, which 
they'll use to deploy and manage all the 600,000 enumerators 
that will be doing nonresponse followup. The other is a more 
basic system, called DAPPS, which is a Decennial Applicant 
Personnel and Payroll System which is used to hire people and 
keep track of their time and pay them. Very important 
functions, both of those systems are having problems.
    On the Paper-Based Operation Control System, it's to the 
point they're--they're developing, testing, and implementing in 
stages--kind of, in time for the specific operations. And the 
key is that they have to stop developing, and, for those 
functions they've got to drop, they've got to come up with 
workarounds. And the key is to develop those workarounds and 
have those applied uniformly across the country.
    For example, one of the problems could be that not enough 
people in the regional offices can get onto this system all at 
the same time. Right now, the latest number I have is that five 
people in the local Census office can access the system at one 
time. Well, that wasn't the original criteria. There needs to 
be more people accessing that system. So, they have to come up 
with workarounds.
    Another problem, for example, is that people at a lower 
level, their passwords--they can't access the system with their 
password. Well, one way to get around that, that we've heard, 
is that a supervisor will start giving people their passwords. 
You can't do that. You have to come up with a more uniform, 
acceptable workaround.
    So, that's what we've recommended, they've got to come up 
with standard workarounds for those functionalities that they 
weren't able to sufficiently develop and implement.
    Senator Mikulski. I think those are very good observations. 
And I know Secretary Locke has asked his team to stay behind, 
and we really encourage them to work with some of the insights 
provided by the inspector general so that really--I guess it's 
really the next 100 days.

                     NONRESPONSE FOLLOWUP OPERATION

    I have a question for Secretary Locke's management team. 
When will you be hitting the streets on the nonresponses, and 
when will you come to closure on that?
    Ms. Boyd. I would love to have Dr. Groves follow up with 
you on that. I know the Secretary is doing a lot of work in 
order to lessen the----
    Mr. Zinser. Madam?
    Ms. Boyd [continuing]. Need for nonresponse followup.
    Senator Mikulski. Yes. Do you have the answer?

                   TIMEFRAME FOR NONRESPONSE FOLLOWUP

    Mr. Zinser. Yes. The nonresponse followup operation runs 
from May 1 through July 10, so it'll be about a 10-week period.
    Now, right now, as they start to ramp up and hire, 
employees go into training sometime before that, but they will 
actually hit the streets around May 1.
    Senator Mikulski. So, they have to be hired and have 
their--remember that famous background check----
    Mr. Zinser. That's correct.
    Senator Mikulski [continuing]. That gave us pause last 
year, because of access to vulnerable populations with an 
official badge from the United States of America? So that 
hiring has to be completed, and all appropriate background 
checks, by May 1. So, they have to be kind of street-ready--
which is not like shovel-ready, but street-ready----
    Mr. Zinser. That's correct.
    Senator Mikulski [continuing]. May 1.
    Mr. Zinser. That's correct.
    Senator Mikulski. So, then it'll be May, June, and July.
    Mr. Zinser. Yes.
    Senator Mikulski. Those 3 months are really the follow-up 
months.
    Mr. Zinser. Yes.
    Senator Mikulski. So, that's the time that we really are 
concerned about----
    Mr. Zinser. Yes. What----
    Senator Mikulski [continuing]. Underestimating what it's 
going to take.
    Mr. Zinser. What we have planned for our office, Senator, 
we have identified a number of operations, and our staff is 
going to go out and form observation teams. We're ramping up. 
And probably within about a month, I will have 75 percent of my 
staff out making observations about the way the enumeration is 
being conducted.
    Senator Mikulski. But, the Secretary referenced that, on 
March 22, he'll have a picture of how the returns are going. I 
presume that would be based on the rate of return, by then, and 
projections of the next phase that--there's always the ``Oh 
gosh, I forgot.'' So, we have to remind people to do the census 
when it arrives--the 10 minutes, the 10 questions, 10 years--
and then, near the end of March, a really significant public 
education campaign, ``Get your form in.''
    Mr. Zinser. That----
    Senator Mikulski. And the greater the rate of return, the 
less this--enumerators----
    Mr. Zinser. Correct.
    Senator Mikulski [continuing]. Will be needed, isn't that--
--
    Mr. Zinser. The estimate is that, for every 1 percent 
increase in the mail response rate, the cost of the decennial 
will be reduced between $80 million and $90 million. So, right 
now the response rate is estimated to be 64 to 65 percent. If 
you can get that up to 75 percent, you're going to save $800 
million to $900 million. And again, all of that is because of 
how labor-intensive and how many people have to be hired to go 
out and actually knock on doors and try to get this information 
in person.
    And what the March 22 date represents is the tracking of 
that response rate. And the Census Bureau has plans to track 
that on a daily basis and target additional outreach to areas 
with a lower-than-expected response rate, and to get their 
partnerships involved in trying to get the response rate up.
    Senator Mikulski. Well, thank you, this has been very 
insightful.
    And before we conclude, is there anything that you feel you 
wanted to tell me, that we haven't covered?
    Mr. Zinser. No. We appreciate the opportunity to be here. I 
think that the risk areas that we've identified in our written 
statement are ones that we're going to continue to work on and 
try to keep the Department's attention focused on.

                  OFFICE OF INSPECTOR GENERAL FUNDING

    Senator Mikulski. Well, thank you very much. Last year, the 
Commerce--Justice made sure that we carved out $2 million for 
your office to help with the oversight, not to do it in a 
schoolmarmish way, but we need a lot of red alerts and alarms 
and--to know where, as you say, kind of like the dash--the 
lights on a dashboard--where are we in this process? We only 
have--we have such a mandated timeframe to do it right.
    I believe we need to use all the tools of the new way of 
communicating, particularly the social networking. And when 
people hear ``10 questions''--because the old census form was 
really cumbersome--but ``10 minutes, 10 questions, determine 
Federal funds to your State for 10 years''--I think are a--very 
significant.
    So, we thank you. We need to talk to you about your 
appropriations, as well, to ensure that you have what you need 
to continue this due diligence.
    We'd like to thank you, and the people who work for you for 
giving us this kind of advice. It's really very edifying. And 
would you thank them for me?
    Mr. Zinser. Thank you, Senator.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Mikulski. At this time I would like to ask the 
subcommittee members to submit any additional questions they 
have to the witnesses for the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

           Questions Submitted by Senator Barbara A. Mikulski

                            TRADE WITH CHINA

    Question. U.S. paper manufacturers have claimed that China and 
Indonesia have two unfair trade practices for coated paper products:
  --China and Indonesian governments have directly subsidized their 
        countries' coated paper manufactures making it difficult for 
        U.S. companies to compete with cheaper paper imports from Asia. 
        The Department of Commerce's recent preliminary review showed 
        that this claim seems to have some merit and warrants further 
        investigation.
  --China has manipulated its currency, fixing the value of the Yuan 
        against the dollar, undervaluing their currency. Paper 
        companies claim this is also a form of countervailing subsidy--
        same as directly funding paper companies. This currency 
        manipulation affects many commodities than just paper products. 
        To date, the Department of Commerce has not taken any action on 
        this issue.
    What is Commerce's position on China's currency manipulations?
    Answer. President Obama underscored the need to rebalance the 
global economy in his speech at the Export-Import Bank's Annual 
Conference on March 11, 2010, by stating that for China, ``a more 
market-oriented exchange rate will make an essential contribution to 
that global rebalancing effort.''
    The authority to monitor and report on currency manipulation is 
delegated by law to the Department of the Treasury. At the same time, 
as you point out, the Department has received an allegation in an on-
going countervailing duty investigation that China's currency valuation 
represents a subsidy that should be countervailed under U.S. trade 
remedy laws. Let me assure you that the Department of Commerce is 
analyzing the currency allegation carefully and thoroughly to determine 
whether it meets the requirements under our statute for initiating a 
countervailing duty investigation. Finally, I want to reiterate that we 
are committed to vigorously enforcing our trade remedy laws to help 
ensure that U.S. producers and workers have a level playing field on 
which to compete with their foreign counterparts.
    Question. How does Commerce's new National Export Initiative 
resolve this problem of currency manipulation with China, our second 
largest trade partner?
    Answer. The National Export Initiative (NEI) is a critical new 
effort that will lead to long-term economic growth and the creation of 
new jobs. It is not intended to address directly the question of 
Chinese currency practices. However, to the extent that U.S. exporters 
may face a range of barriers to the Chinese market, the NEI is an 
enhanced and comprehensive program to help tackle such barriers and 
enable U.S. firms and workers to better position themselves to reap the 
benefits of expanded export opportunities. The NEI will help solve the 
related problems that stand in the way of our increasing exports to 
China and supporting more jobs being created in the United States.
    This is the first time the United States will have a Government-
wide export-promotion strategy with focused attention from the 
president and his cabinet. Under the NEI, $140 million in additional 
funding--across Federal agencies--will be provided to help meet the 
President's goal of doubling exports during the next 5 years to support 
2 million jobs in America.
    In the State of the Union Address, the President outlined a series 
of proposals to create jobs and put the Nation on the path to 
sustainable economic growth, focusing on help for the Nation's small 
businesses. Proposals include a new tax cut for small businesses to 
encourage them to hire new employees and increase wages for existing 
employees, and a new initiative that will transfer $30 billion from the 
Troubled Asset Relief Program (TARP) to a program that will support 
small business lending. The administration's efforts are focused on 
three key areas: (1) improving access to credit, especially for small- 
and medium-sized businesses; (2) expanding the administration's trade 
advocacy efforts; and (3) increasing the Government's focus on barriers 
that prevent U.S. companies from getting free and fair access to 
foreign markets.
    The Department of Commerce will soon unveil a comprehensive and 
significant effort aimed at ramping up and maximizing exports--and job 
creation--during the next 12 months. President Obama's fiscal year 2011 
budget called for an additional $78.5 million to implement the 
strategies developed through the NEI and ultimately empower U.S. 
exporters as they compete in the global economy. The President's budget 
will allow ITA to bring on as many as 328 trade experts to serve as 
advocates for U.S. companies to grow their export sales in 2011. ITA is 
going to put a special focus on increasing, by 50 percent, the number 
of small- and medium-sized businesses exporting to more than one 
market.
    I have made it clear that one key to the successful implementation 
of the NEI is to address unfair foreign market barriers and to 
vigorously enforce our trade laws. I am committed to promoting a level 
playing field for U.S. companies and will work with Congress to ensure 
that U.S. companies benefit from strong enforcement of U.S. trade 
remedy laws in accordance with our international rights and the 
obligations of our trading partners.

            ADVANCED IMAGING SOUNDER IN GEOSTATIONARY ORBIT

    Question. A high spectral resolution imaging sounder in 
geostationary orbit, or ``advanced imaging sounder,'' will enable 
advance warning of severe weather events, including tornadoes, an hour 
or more before they are visible from satellite cloud imagery or by 
ground-based Doppler radar. Studies also show that wind profiles 
measured by such an advanced imaging sounder in geostationary orbit 
would enable significantly improved landfall prediction for hurricanes, 
both location and time. The National Academy of Sciences has 
recommended that the U.S. develop and launch an advanced imaging 
sounder in geostationary orbit, and the UN's World Meteorological 
Organization has recommended that such advanced imaging sounders cover 
the globe as a part of the Global Observing System. The European 
advanced imaging sounder in geostationary orbit is scheduled to be 
launched in 2017. Other countries are also developing such advanced 
sounders. China has stated that they plan to launch such a sounder in 
geostationary orbit by 2015.
    What is the status of U.S. plans to deploy an advanced imaging 
sounder in geostationary orbit?
    Answer. Beginning in 2006, NOAA explored the concept for developing 
an advanced sounder and coastal imaging capability, called the 
Hyperspectral Environmental Suite (HES), for deployment on the 
Geostationary Operational Environmental Satellite-R (GOES-R) series. At 
that time and after reviewing other NOAA needs, NOAA determined that 
the concept was too technologically complex and expensive for NOAA to 
develop and implement for GOES-R. Currently, there is no on-going 
research within the United States to address the technological 
impediments we encountered on HES that would provide the needed 
foundation to allow NOAA to build and deploy the sensor on an 
operational GOES platform.
    NOAA is aware that other nations are evaluating their capabilities 
to host an advanced sounder on its operational geostationary weather 
satellites. NOAA is monitoring those efforts and may consider 
developing collaborative partnerships with those agencies in order to 
address the challenges that currently exist with this technology.
    NOAA remains open to hosting an advanced sounder on future GOES 
satellites.
    Question. Is it correct that most of the western hemisphere, 
including the continental United States, may be one of the last regions 
of the globe to have such protection?
    Answer. At this time, there are no advanced sounders in orbit on 
operational geostationary spacecraft and the capability is not 
available to cover any region of the globe. However, the Europeans and 
the Chinese are evaluating the possibility of placing this capability 
on their future operational geostationary satellites. Based on our 
assessment of these agencies plans, the Europeans would be the first to 
fly an advanced sounder capability in geostationary orbit. China has 
stated its interest in developing this capability but we do not have 
enough information to confirm their ability to implement these plans. 
Regardless, of which region gets protection first, NOAA is committed to 
keeping communications open to develop international partnerships that 
could result in benefits beyond any single region.
    Question. What agency within the U.S. Government has responsibility 
for developing and deploying an advanced imaging sounder in 
geostationary orbit?
    Answer. NASA has the responsibility to develop advanced technology, 
which when mature enough for operational use, could be made available 
to NOAA for hosting on an operational geostationary satellite. 
Following that initial technology development phase, NOAA would have 
the responsibility of deploying such new technology on its operational 
satellites. NOAA remains open to hosting an advanced sounder on future 
geostationary satellites once the technological challenges have been 
addressed.
    Question. The Geosynchronous Imaging Fourier Transform Spectrometer 
(GIFTS) was to be a U.S. demonstration of an advanced imaging sounder 
at geostationary orbit. The instrument was built, but never launched. 
Why did we spend money to build GIFTS, and then leave it sitting on the 
ground? What agency is responsible? What value would GIFTS bring to 
NOAA if it were re-furbished and launched?
    Answer. The effort to develop GIFTS is primarily a NASA-funded 
activity. At the time GIFTS was being developed, NOAA considered using 
GIFTS as a risk reduction mission for its plans to develop an advanced 
sounder for GOES-R, such as HES. However, this opportunity was no 
longer available when the GIFTS development was halted. The future of 
GIFTS remains a NASA decision.
    With respect to the value of GIFTS to NOAA, if GIFTS was re-
furbished, launched, and proven on-orbit by NASA, it could potentially 
serve as a useful demonstration as a first flight of a new capability 
for possible use by NOAA. However, since GIFTS was developed in the 
early 2000s, NASA would need to evaluate the use of the dated parts and 
also consider the possibility of more cost effective newer 
developments.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein

                   NATIONAL MARINE FISHERIES SERVICE

    Question. In California's Bay-Delta, the restrictions on pumping 
operations due to the Biological Opinions, one of which was issued by 
the National Marine Fisheries Service, are having severe ramifications 
for communities that rely on Delta exports for water supply. What is 
the Commerce Department planning to do to address the many other 
stressors in the Delta, including predator fish, toxic discharges such 
as ammonia, and pesticides such as pyrethroids?
    Answer. The Commerce Department's National Oceanic and Atmospheric 
Administration is undertaking several actions to address the many 
stressors that jeopardize the existence of several threatened and 
endangered species that occur in California's Bay-Delta and are under 
the jurisdiction of the National Marine Fisheries Service (NMFS) 
including the following:
  --NMFS' 2009 Central Valley Project and State Water Project (OCAP) 
        biological opinion Reasonable and Prudent Alternative (RPA) 
        includes a requirement to implement predation control actions 
        including; interim operational restrictions on the Red Bluff 
        Diversion Dam and the Clifton Court Forebay, as well as 
        improvements in the primary and secondary louvers at the fish 
        handling facilities (such as increasing the efficiency of the 
        louvers and decreasing predation at the release sites).
  --The RPA requires development of a salmonid life-cycle model that 
        can be used to assess the impacts of non project-related 
        stressors (other stressors) on juvenile and adult salmonids. In 
        addition, NMFS has also created a process by which it can amend 
        specific measures prescribed in the RPA based on new 
        information such as the effects of other stressors through the 
        annual science panel review required in the OCAP Biological 
        Opinion.
  --NMFS is collaborating with the Interagency Ecological Program to 
        review and fund necessary studies in the Bay-Delta region that 
        will identify impacts of other stressors.
  --NMFS is in the final stages of completing the Central Valley 
        Recovery Plan for salmon and steelhead. This plan identifies 
        and prioritizes actions needed to recover Central Valley 
        salmonids listed under the Endangered Species Act (ESA). The 
        recovery plan lays out a framework for addressing all of the 
        primary stressors that impact these species. Although the 
        recovery plan does not set regulatory requirements it does 
        guide future recovery efforts, consultations and conservation 
        plans.
  --NMFS is participating in the Federal Workplan and the newly formed 
        California Landscape Level Conservation Plan, led by the 
        Department of the Interior that will help bridge data gaps and 
        bring agencies together in developing a multi-species 
        ecosystem-wide plan for the Bay-Delta region.
  --NMFS regularly consults on construction of new waste water 
        treatment facilities, and analyzes the projected effects of 
        nutrients and toxics in wastewater through these consultations.
  --NMFS consults with the U.S. Environmental Protection Agency on 
        water quality standards for toxics and on pesticide 
        registrations.
  --The Central Valley Water Quality Control Board and State Water 
        Resources Control Board regularly request NMFS' technical 
        assistance in analyzing and prioritizing water quality issue 
        and impacts within the range of ESA-listed salmonids.
  --In conducting ESA section 7 consultations on Central Valley 
        projects involving impacts to channel margin habitat, (for 
        example, repairs to levees), NMFS requires action agencies to 
        protect or improve riparian vegetation, shaded riverine habitat 
        and sub-surface channel margin habitat conditions, so as to 
        improve sheltering/refuge habitat for juvenile salmonids and 
        reduce predation by non-native predators.
  --NMFS is participating as a lead Federal agency in the planning and 
        implementation of the Bay Delta Conservation Plan (BDCP). This 
        is a broad-based habitat conservation plan intended to address 
        the many stressors affecting the Bay Delta ecosystem while 
        protecting water supply reliability for the State and Federal 
        projects. A detailed description of NMFS' participation in the 
        BDCP is provided below in the response to the following 
        question.
    Question. California's Natural Resources Agency is developing a 
habitat conservation plan with a group of stakeholders for the Bay-
Delta with the dual goals of ensuring ecosystem restoration and water 
supply security. What resources is the Commerce Department prepared to 
commit to the Bay Delta Conservation Plan to ensure its timely 
completion and implementation?
    Answer. NMFS is fully committed to the completion and 
implementation of the Bay Delta Conservation Plan (BDCP). NMFS has 
participated since the early stages of development of this plan and has 
created an entire branch of the NMFS Sacramento Area Office dedicated 
specifically to the completion and implementation of the BDCP. NMFS 
personnel that make up the BDCP branch include a Supervisor/Branch 
Chief, four full-time fishery biologists, a full time bio-modeler 
(currently being recruited), and a part time hydrologist/hydro-modeler 
(also currently being recruited). The Sacramento Area Office Supervisor 
is also heavily involved in the executive leadership of the BDCP. The 
Area Office Supervisor sits on several executive committees and 
management groups including the BDCP Steering Committee, BDCP 
Leadership Council, and the Program Executive Team (among others). NOAA 
General Council is also fully engaged in the BDCP process, attending 
Steering Committee meetings and other program coordination meetings, 
and providing frequent input into many aspects of the BDCP process. In 
total, NMFS and NOAA General Council participate in approximately 10 
BDCP related meetings per week, often with 2 or more staff members 
attending each meeting.
    NMFS is a lead Federal agency responsible for the development of an 
Environmental Impact Statement for the BDCP. NMFS will also be writing 
an ESA section 10 take permit for this habitat conservation plan, and 
conducting a formal ESA section 7 consultation on the issuance of the 
section 10 permit and the implementation of the BDCP. NMFS intends to 
continue to provide the necessary staff and other agency resources to 
insure the timely completion of these important elements of the BDCP 
and maintain continued involvement in the implementation, monitoring 
and adaptive management of the plan over the long term.

               BROADBAND TECHNOLOGY OPPORTUNITIES PROGRAM

    Question. While broadband penetration is continually improving, and 
clearly a top priority of the broadband stimulus funds, I want to 
emphasize to you the importance of also addressing broadband adoption--
the extent to which families actually get broadband, as opposed to 
being unconnected to the ``pipe'' that passes by their home or 
apartment.
    Adoption was detailed as a priority in the legislation passed by 
Congress. And, the American Reinvestment and Recovery Act mandated that 
at least $250 million of the funds it provided be spent for grants to 
promote adoption. However, I understand that so far only $39 million 
has been awarded to adoption applicants. I am very pleased that one of 
those applicants was in my own State of California, but many adoption 
applications are still pending, and those need to be given serious 
consideration.
    Can you tell us about the NTIA's efforts on the broadband adoption 
grants and your expectations about the speed with which we can get 
these out the door and delivering?
    Answer. I wholeheartedly agree with you regarding the vital role 
that adoption programs play in fulfilling the promise of broadband for 
all Americans. As of April 15, 2010, NTIA has awarded 12 Sustainable 
Broadband Adoption (SBA) grants totaling $81 million in Federal grant 
dollars and impacting 14 States. Combined with $23 million in 
applicant-provided matching funds, there is now a total of $104 million 
dedicated to broadband adoption under the Recovery Act. The grants are 
designed to fund projects that promote broadband demand, including 
projects focused on providing education, awareness, and training, as 
well as access, equipment and support for broadband usage. To date, 
NTIA has awarded two SBA grants, totaling nearly $15 million, that 
directly impact California, including: $7.2 million to the California 
Emerging Technology Fund to increase adoption of broadband in 
vulnerable and low-income communities in Los Angeles, the Central 
Valley, Orange County, San Diego, and the Inland Empire; and $7.6 
million to the Computers for Youth Foundation, Inc. and the Los Angeles 
Unified School District, which plan to expand a successful pilot 
program to increase broadband technology awareness and usage among an 
estimated 34,000 low-income individuals and 15,000 households in Los 
Angeles.
    In the first funding round, NTIA expects to obligate approximately 
44 percent of the statutory minimum allocation for SBA projects. By 
comparison, NTIA has awarded approximately 29 percent of its 
infrastructure funding allocation and 28 percent of its Public Computer 
Center project allocation in round one. NTIA recently received 
approximately 250 SBA project applications requesting approximately 
$1.7 billion in the second round of grant funding. As required by the 
Recovery Act, NTIA is on track to award at least $250 million for SBA 
projects by September 30, 2010.
                                 ______
                                 
             Questions Submitted by Senator Robert C. Byrd

                EMERGENCY STEEL GUARANTEED LOAN PROGRAM

    Question. The economic instability that began in 2008 and continues 
today led to idled steel plants, displaced steel workers, and a very 
tight credit market. For this reason and others, the steel industry 
supported Congressional action to keep an emergency capital loan 
program in place at current levels. In 2009, the Congress agreed to 
extend the Emergency Steel Guaranteed Loan Program until fiscal year 
2011.
    The President's fiscal year 2011 budget includes a proposal to 
cancel $43 million of ESGLP unobligated funds, leaving $5 million as a 
placeholder. In January 2004, the GAO issued an opinion that the 
appropriations available in this fund are not available for rescission 
by any Department, and that only the ESGLP Board has the authority to 
incur an obligation against this appropriation.
    Mister Secretary, this leads me to ask these questions:
    Under what authority does OMB propose to cancel unobligated ESGLP 
funds?
    Answer. The administration has the authority to propose actions 
such as a cancellation of unobligated ESGLP funds, but the Congress has 
the sole authority to actually cancel the funds if you so choose.
    The GAO opinion concerns the authority of the Secretary with 
respect to ESGLP funds, not the authority of Congress. It states that 
the Secretary does not have the discretion to draw on ESGLP funds to 
satisfy a general rescission of the Department's unobligated balances 
in an appropriations act. However, the budget proposes a specific 
legislative rescission of the ESGLP funds, not a general rescission 
that the Secretary would allocate. As a result, the proposal is not in 
conflict with the GAO opinion.
    Question. What is the rationale for leaving $5 million in this 
fund?
    Answer. The Emergency Steel Loan Guarantee Board has not issued a 
loan guarantee in almost 7 years. While it is highly unlikely that 
another application for a loan guarantee will be received, in that 
event the remaining unobligated balance would be available to fund the 
credit subsidy and administrative expenses required.

                          SUBCOMMITTEE RECESS

    Senator Mikulski. This hearing is concluded and we stand in 
recess until March 25 at 10 a.m., when we take the testimony of 
the NASA Administrator.
    [Whereupon, at 11:35 a.m., Thursday, March 4, the 
subcommittee was recessed, to reconvene at 10 a.m., Thursday, 
March 25.]


  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2011

                              ----------                              


                        THURSDAY, APRIL 15, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:05 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Barbara A. Mikulski (chairwoman) 
presiding.
    Present: Senators Mikulski, Lautenberg, Pryor, and Shelby.

                         DEPARTMENT OF JUSTICE

                    Federal Bureau of Investigation

STATEMENT OF HON. ROBERT S. MUELLER, III, DIRECTOR

            OPENING STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Good morning. The Commerce, Justice, 
Science Subcommittee on Appropriations will come to order.
    And today, the subcommittee will hear the FBI Director make 
the presentation of the FBI's budget and the priorities for 
fiscal year 2011. This morning, we are going to begin with an 
unclassified hearing that will focus primarily on the FBI's 
general budget and their budget request across the entire 
agency.
    At the conclusion of that testimony and questions, we will 
move to a classified hearing to discuss specific budget issues 
related to the FBI's classified operations. We will essentially 
take a 10-minute break as we move to a secure facility.
    Why are we doing this? The FBI has an incredible job, and 
we are really proud. Director Mueller, we welcome you. We are 
incredibly proud of the FBI and the job that we ask them to do 
in our own country, and the job they are doing around the world 
to protect the country and to protect the country's interests.
    We know that we have asked the FBI, after the terrible 
events of 9/11/2001, in which you were on the job only a matter 
of days, to take on a new responsibility in terms of national 
security. We want to have a chance for you to amplify the needs 
that that unique unit has and to make sure that we are 
participating in ensuring that you have the resources to do it. 
We think the FBI has the right stuff. We want to make sure that 
we have given you the right resources.
    So, as the chairperson of the subcommittee, I will be 
having three priorities with my discussion. One is American and 
domestic security, and how are we keeping our families and our 
communities safe. The other will be national security, and how 
the FBI is working in that arena. And the other is oversight 
and accountability. We need a spirit of reform. We need a 
spirit of watchdog. Senator Shelby and I want to stand very 
close sentry over anything that could be cost overruns where 
our budget is heading in the direction of a boondoggle.
    The FBI does keep America safe. It is an agency that is on 
the job 24 hours a day, 7 days a week, and often, the men and 
women serving the FBI themselves are in grave danger as they 
protect us from everything from terrorists to organized crime. 
Fifty-six field offices, 33,000 staff, 13,000 special agents, 
those are all the numbers and support staff. Those are numbers 
and statistics, but behind them are men and women trying to 
protect us from some of the most despicable predatory behavior.
    Five highlights of this new budget are those areas which we 
think are absolutely essential in the national interest. 
Senator Shelby and I have teamed up in being very concerned 
about the issue of financial service fraud. At his chairmanship 
and now ranking membership on the Banking Committee, he has 
been a leader for calling for more action, more help to deal 
with mortgage fraud and other white collar financial services. 
This will be a request of $453 million.
    At the same time, we know that we want to protect ourselves 
against organized crime, and there is a budget request of $116 
million for dismantling organized criminal syndicates and 
shutting down money launderers. This has significance for both 
domestic and also international activity.
    Then there is the issue of child predators. What more vile 
crime in the world than to do harm to children, whether it is 
those who try to reach children on the Internet, to children 
who are kidnapped and placed in sexual servitude, to other 
aspects of the attack on children.
    I think the FBI and this Director have had a very special 
commitment to this, and we want to ensure that there is the 
$300-some million to deal with everything from children who 
have been exploited on the Internet, to those who are forced 
into prostitution.
    On issues related to the gathering of intelligence on 
cybersecurity, there is a request of $182 million; I will be 
pursuing that more in our classified hearing. And the issue of 
tracking and dismantling of weapons of mass destruction. So we 
look forward to working with you on that.
    Last year there was $135 million for the FBI's cyber 
efforts. This year, there is $182 million, a $46 million 
increase. We hope to hear about the need for new agents, 
analysts, and professional staff. We want to hear about that, 
as I said, in a more amplified, classified situation.
    The FBI has also been charged with this national security 
mission, and much of the FBI budget increase is for the FBI's 
counterterrorism and intelligence. Counterterrorism alone makes 
up now 40 percent of the FBI's budget. The FBI requested over 
$3 billion for counterterrorism activities, a $113 million 
increase from 2010.
    We want to hear how these funds are being used. I 
understand to disrupt terrorists, investigate terrorist crimes, 
and identify, track, capture, and defeat these terrorist 
sleeper cells, whether they are operating in the United States 
or overseas. I want to know if this budget request tackles 
these responsibilities.
    In the area of community and American security, which is 
the traditional crime-fighting role, we know this FBI wants to 
continue to do their work fighting traditional crime-fighting 
efforts. We in Maryland are very proud of our Baltimore field 
office, the work that they do with the task forces, with the 
U.S. attorney. It is not only that they make headlines, but 
they really are out there catching the bad guys.
    We hope this budget allows the FBI efforts to target 
sophisticated criminal organizations who threaten our 
communities. The 2011 budget lacks any substantial increases, 
however, to deal with violent crime in gangs. We are troubled 
by that, and we would like to hear your views on whether you 
think this request is appropriate or whether we should consider 
more.
    In the area of mortgage fraud, the FBI provides $453 
million to be able to do this. This is $75 million more. You 
are requesting 143 new agents, new forensic accountants, and 39 
financial assistants.
    I understand that there are over 3,000 mortgage fraud cases 
pending. That is amazing. And that is an amazing workload for 
the FBI to be handling, and again, we want to make sure you 
have the right people and the right support to do that.
    We, on this subcommittee, on a bipartisan basis, want to 
send a very clear message to the predators--no more scamming, 
no more scheming, no more preying on hard-working families--
that if you want to come after families, we are going to come 
after you.
    I have elaborated on the issue of protecting children, from 
Innocent Images to Innocence Lost. We want to make sure we are 
doing all we can to target those predators.
    A few months ago, a little girl lost her life to a sexual 
predator in Salisbury, Maryland. All of Maryland wept. The 
General Assembly has acted in increasing sentences. But you 
know what? We have got to stop the crimes before they happen, 
and there they are. They are out there on the Internet, which 
are essentially techno-playgrounds in which they are trying to 
recruit our children. We want to make sure we have the right 
resources and the right policies.
    The other area the subcommittee will be asking about is our 
concern to protect against government boondoggles. 
Unfortunately, some years ago, the FBI ran into trouble when it 
tried to create a virtual caseload. We lost out on over $117 
million and what became essentially techno-junk that we had to 
throw away.
    Now we understand that Sentinel, which should be the crown 
jewel, is running into problems. So we need to know, is this 
just a delay that comes from developing a complex technological 
product that needs to be used by a variety of people here and 
around the world? Or are we once more heading for some type of 
cost overruns where our agents don't have the tools they need 
to connect the dots?
    We place very heavy demands on them. They should at least 
have the technology that they need, and the taxpayer really 
wants value for the dollar. So that is the area where we hope 
to be able to go over. You do so much work. We could spend all 
day pursuing our questions, but those are the highlights that 
we want to pursue.
    I would like to now turn to Senator Shelby, who, through 
his work on Banking and others, has been a real reformer and a 
real crime fighter.

             OPENING STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. Thank you, Senator Mikulski.
    First of all, I want to recognize and extend my 
appreciation to the men and women of the FBI, who protect this 
country from terrorism and crime each day. We owe them a debt 
of gratitude, as well as you, the leader, Mr. Mueller.
    In a few moments, Director Mueller will tell us how 
preventing terrorism is the FBI's top priority. However, the 
budget request doesn't necessarily reflect that. While the 
White House points to a $25 million increase in the request for 
the FBI's counterterrorism efforts, the truth is that there are 
irresponsible and drastic cuts to the FBI's terrorism fighting 
capabilities.
    The cuts totaled nearly $162 million and were all made by 
presidential political appointees at the Office of Management 
and Budget, OMB. For every new dollar proposed by the White 
House to fight terrorists, six of counterterrorism dollars are 
cut. It makes no sense to me.
    This request fails to support the FBI on several fronts--to 
work in theater with U.S. troops in Iraq and Afghanistan in 
identifying insurgents and terrorists, to respond to overseas 
terrorist incidents, and to assist foreign law enforcement 
partners in defeating terrorists who target U.S. interests and 
persons. The request cuts the FBI's overseas response funding 
by $63 million. Yet I see no decrease in the terrorist threat 
or in the FBI's overseas response mission.
    The White House does not appear to believe the assessment 
of its own Department of Homeland Security that states that 
terrorists' use of improvised explosive device, IED, remains 
one of the greatest threats to the United States. The 
administration ignores the Department of Defense analysis that 
IEDs are considered weapons of strategic influence and that the 
terrorists' use of IEDs is an enduring global and transnational 
threat.
    As evidenced by the recent bombings on the U.S.-Mexican 
border, as well as the attempted bombings in Detroit and New 
York, the threat to the U.S. homeland appears to be increasing. 
Yet the administration cut the very funding I believe is 
necessary to ensure that the FBI has the tools and the 
facilities necessary to respond to this threat.
    It is clear from the request that OMB is not relying on the 
right people when it is making decisions regarding the threat 
this country faces, both domestically and abroad. If OMB had 
consulted the experts, they would not have canceled, I believe, 
funding for the Terrorist Explosive Device Analytical Center, 
TEDAC. TEDAC provides the FBI and the U.S. military with 
forensic facilities needed to exploit IEDs and terrorist bomb-
making materials evidence.
    OMB's decision to eliminate TEDAC was based on a proposal 
from Joint IED Defeat Organization personnel to perform 
forensics in theater. Since the release of the President's 
budget, the Joint IED Defeat Organization has abandoned the 
OMB-proposed approach to set up a Level 3 in-theater forensics 
capability.
    Ironically, now the Joint IED Defeat Organization is 
seeking input from the FBI and the Defense Intelligence Agency 
to develop a practical near-term solution that meets the 
critical needs of the warfighter. This subcommittee, with an 
understanding of the transnational and enduring nature of 
terrorism, provided funding for a facility to address this need 
that would be well on its way to construction, if not for the 
administration.
    Today, the Quantico TEDAC is overwhelmed. For the 56,000 
boxes of IEDs and materials received since 2004, 37,000 are 
awaiting processing. Meanwhile, the FBI receives a monthly 
average of 700 new submissions. The FBI estimates that 86 
percent of the backlog contains critical information like 
biometric intelligence, fingerprints, DNA, and so forth that 
would assist the U.S. military, the intelligence community, and 
the Federal law enforcement in identifying terrorists.
    Director Mueller, I believe the record shows that the 
proposal by OMB to cancel TEDAC funding is unwise, and I think 
it is very ill-timed. The threat from terrorist use of 
explosives is significant, real, and I believe enduring.
    The United States needs to prepare for this threat. We in 
Congress have tried to give the FBI the tools it needs to do 
so. We have that obligation. In the end, the proposed 
cancellation there would leave this Nation unprepared and 
unprotected and is an unacceptable outcome.
    On Tuesday, I sent you a letter outlining concerns 
regarding the decision by the FBI to revisit procedures 
relating to technical review of DNA data contained within the 
National DNA Index System. The Scientific Working Group on DNA 
Analysis and Methods is the official working group that advises 
the FBI on DNA analysis methods.
    In 2008, the group sent letters to the House and Senate 
Judiciary Committees strongly opposing the loosening of the 
technical review standards and private DNA vendors' labs having 
access to the Combined DNA Index System, CODIS. The group's 
initial position was requested by the FBI lab director. I find 
it hard to believe, Mr. Director, that the strong sentiments 
expressed in these letters by your designee have since changed 
so drastically.
    The State CODIS administrators, the American Society of 
Crime Lab Directors, prosecutors, and police departments from 
around the country have issued positions opposing the FBI's lab 
proposal to loosen review standards. In light of these strongly 
stated positions by these subject matter experts, the FBI 
laboratory mystifyingly ignored their concerns.
    As I have said to you in my letter, I have serious 
reservations about how this announcement came about, and I am 
deeply concerned that it was possibly influenced by private DNA 
vendors exerting pressure on the FBI lab. I believe it is an 
abomination to victims, law enforcement, and the Constitution 
when Congress, the Department of Justice, and the White House 
blindly ignore the professional opinion of the most renowned 
DNA experts in the world and begin down the path of considering 
changing laws and regulations affecting the integrity of 
evidence.
    This is an extremely complicated and technical issue. And 
while I am not necessarily against evaluating and improving the 
current policy, I do believe the decision was hastily made 
without appropriate evaluation of the potential unintended 
consequences by the FBI laboratory. This issue must be 
carefully examined by the FBI and the leadership of all the 
State and local labs it directly affects.
    I want to continue working with you, Mr. Director, to 
ensure that the FBI is provided the necessary resources to 
carry out the mission of protecting the American people, and I 
look forward to hearing your thoughts on these issues that I 
have raised and others this morning.
    Senator Mikulski. Director Mueller.

                STATEMENT OF HON. ROBERT S. MUELLER, III

    Mr. Mueller. Thank you, Chairwoman Mikulski and Senator 
Shelby, and I appreciate all the work that this subcommittee 
has done over the years to provide us with the resources we 
need to do our job.
    I also appreciate the opportunity to appear before you to 
discuss our fiscal year 2011 budget. We are requesting, as I 
believe, Chairwoman Mikulski, you pointed out, approximately 
$8.3 billion to fund more than 33,000 FBI agents, analysts, and 
staff, and to build and maintain our infrastructure. This 
funding is critical to carry out our mission of protecting the 
Nation from the ever-changing national security and criminal 
threats.
    Let me start by discussing a few of the most significant 
threats. Fighting terrorism remains our highest priority at the 
FBI. Over the past year, the threat of a terrorist attack has 
proven to be persistent and global. Al-Qaeda and its affiliates 
are still committed to striking us in the United States. We saw 
this with the plot by an Al-Qaeda operative to detonate 
explosives on the subways in New York City and the attempted 
airline bombing on Christmas Day.
    These incidents involved improvised explosive devices, or 
IEDs, and underscore the importance of our Terrorist Explosive 
Device Analytical Center, also known as TEDAC. TEDAC does more 
than support our military overseas. It also provides crucial 
intelligence in our fight against Al-Qaeda.
    Homegrown and ``lone wolf'' extremists pose an equally 
serious threat. We saw this with the Fort Hood shootings; the 
attempted bombings of an office tower in Dallas and a Federal 
building in Springfield, Illinois; and the violent plans 
hatched by the Hutaree militia in Michigan.
    We have also seen U.S.-born extremists plotting to commit 
terrorism overseas, as was the case with the heavily armed Boyd 
conspiracy in North Carolina and David Headley's involvement in 
the Mumbai attacks. These terrorist threats are diverse, far-
reaching, and ever-changing.
    And to combat these threats, the FBI must sustain our 
overseas contingency operations and engage our intelligence and 
law enforcement partners, both here at home and abroad. And 
that is why for fiscal year 2011, we are requesting funds for 
90 new national security positions and $25 million to enhance 
our national security efforts.
    Turning to white collar crime, residential and now 
commercial mortgage fraud is the most significant threat in our 
efforts to combat financial fraud. Mortgage fraud 
investigations have grown five-fold since 2003, approximating 
now 2,900 such investigations. And more than two-thirds of 
those cases involve losses of more than $1 million.
    The FBI has developed new, intelligence-driven methods for 
identifying fraud suspects and trends. We are focused on the 
most serious cases relating to real estate professionals and 
insiders, not just borrowers. Just yesterday, the FBI's San 
Francisco field office arrested 18 mortgage bankers, real 
estate brokers, and real estate agents for falsifying financial 
documents in $25 million worth of loans on 44 separate 
properties. This fraud alone resulted in over $10 million in 
losses. We anticipate many more of these types of cases in the 
coming year.
    Now, with passage of the healthcare reform legislation, the 
FBI will also be expanding and intensifying our efforts to root 
out Medicare and Medicaid fraud. Earlier this week, a Miami 
health clinic operator pleaded guilty to committing a $55 
million Medicare fraud where HIV and cancer services were never 
provided to patients. Instead, he and his partner spent 
millions on luxury cars and on thoroughbred racehorses.
    As we have in the past, the FBI will use our intelligence-
driven task forces to target those who exploit our healthcare 
programs through fraud. Given the planned expansion of these 
healthcare programs in the future, this will be among our 
highest priorities in the years to come.
    Securities fraud is also on the rise. We have 33 percent 
more securities cases open today than we did 5 years ago. The 
economic downturn exposed a series of multi-billion dollar 
Ponzi schemes, unlike any seen in history. We must continue to 
deter these offenses by seeking the most serious sentences 
possible, like the 50-year sentence for Minnesota tycoon Thomas 
Petters handed down just last week.
    We are requesting funds for 367 new positions and $75.3 
million for our white collar crime program to make sure we 
bring to justice those who commit fraud.
    Turning next to the cyber threat, cyber attacks come from a 
wide range of individuals and groups, many with different 
skills, motives, and targets. Terrorists increasingly use the 
Internet to communicate, to recruit, to plan, and to raise 
money. Foreign nations continue to launch attacks on United 
States Government computers and private industry, hoping to 
steal our most sensitive secrets or to benefit from economic 
espionage. Criminal hackers and child predators pose a 
dangerous threat as well, as they use the anonymity of the 
Internet to commit crimes across the country and around the 
world.
    These cyber threats undermine our national security, 
victimize our children, and weaken our economy. We are seeking 
163 new positions and $46 million for our cyber programs to 
strengthen our ability to defend against these cyber threats.
    The fiscal year 2011 budget also requests additional funds 
for training facilities, information technology, forensics 
services, and other enforcement programs. My written statement, 
submitted for the record, discusses these requests in greater 
detail.
    Over the past several years, we have worked to better 
integrate our strategic direction with a 5-year budget approach 
and more focused human resource management. The FBI's fiscal 
management is recognized by the Inspector General's annual 
audit as being among the top performers in the Department of 
Justice, and we are on pace to achieve our hiring and staffing 
goals this year.
    Turning for a moment to Sentinel, as you mentioned, Madam 
Chairwoman--in order to ensure the success of our new case 
management system, we divided the project into four separate 
phases. This phased approach has two principal advantages. 
First, employees can gain immediate benefits from the new 
system as it is being built, and they are. Second, we can 
carefully examine what has been delivered to make sure it meets 
our expectations and the terms of the contract, as well as 
providing a solid foundation for the future phases of 
development.
    Five weeks ago, we informed our prime contractor that the 
last segment of Phase 2 did not fully meet our expectations. 
Accordingly, we advised our prime contractor to partially stop 
work on Phase 3 and suspend work on Phase 4 until Phase 2 is 
fully delivered.
    Piloting of the remaining Phase 2 capabilities will 
commence this summer. At the conclusion of a 4-week pilot, the 
results will be evaluated, any corrective action will be made, 
and then enterprise deployment of Phase 2 will occur. We will 
be presenting a new outline for the completion of Phases 3 and 
4, along with any cost and timeline adjustments at that time.
    In the meantime, thanks to this phased approach, Sentinel 
is currently being used by thousands of agents and supervisors 
each day and will become even more functional and effective 
once Phase 2 is complete. I would be happy to discuss this in 
more detail as questions are asked.

                           PREPARED STATEMENT

    Chairman Mikulski and Ranking Member Shelby, I would like 
to conclude by thanking you and this subcommittee for your 
support of the FBI. I look forward to answering what questions 
you might have with regard to our 2011 budget or otherwise.
    [The statement follows:]

           Prepared Statement of Hon. Robert S. Mueller, III

    Good morning, Chairwoman Mikulski, Ranking Member Shelby, and 
members of the subcommittee. On behalf of the more than 30,000 men and 
women of the Federal Bureau of Investigation (FBI), I am privileged to 
appear before the subcommittee to present and discuss the FBI's fiscal 
year 2011 budget. At the outset, I would like to thank you for your 
past support of the Bureau. Your support enables the FBI to achieve its 
three-fold mission: Protecting and defending the United States against 
terrorism and foreign intelligence threats, upholding and enforcing the 
criminal laws of the United States, and providing leadership and 
criminal justice services to Federal, State, municipal, and 
international agencies and partners.
    The FBI's fiscal year 2011 budget requests a total of $8.3 billion 
in direct budget authority, including 33,810 permanent positions 
(13,057 special agents, 3,165 intelligence analysts (IAs), and 17,588 
professional staff). This funding, which consists of $8.1 billion for 
salaries and expenses and $181.2 million for construction, is critical 
to continue our progress started toward acquiring the intelligence, 
investigative, and infrastructure capabilities required to counter 
current and emerging national security threats and crime problems.
    Consistent with the Bureau's transformation toward becoming a 
threat-informed and intelligence-driven agency, the fiscal year 2011 
budget request was formulated based upon our understanding of the major 
national security threats and crime problems that the FBI must work to 
prevent, disrupt, and deter. We then identified the gaps and areas 
which required additional resources. As a result of this integrated 
process, the fiscal year 2011 budget proposes $306.6 million for new or 
expanded initiatives--$232.8 million for salaries and expenses and 
$73.9 million for construction--and 812 new positions, including 276 
special agents, 187 intelligence analysts, and 349 professional staff. 
These additional resources will allow the FBI to improve its capacities 
to address threats in the priority areas of terrorism, computer 
intrusions, weapons of mass destruction, foreign counterintelligence, 
white collar crime, violent crime and gangs, child exploitation, and 
organized crime. Also, included in this request is funding for 
necessary organizational operational support and infrastructure 
requirements; without such funding, a threat or crime problem cannot be 
comprehensively addressed.
    Let me briefly summarize the key national security threats and 
crime problems that this funding enables the FBI to address.

                       NATIONAL SECURITY THREATS

    Terrorism.--Terrorism, in general, and al-Qa'ida and its affiliates 
in particular, continue to represent the most significant threat to our 
national security. Al-Qa'ida remains committed to its goal of 
conducting attacks inside the United States and continues to leverage 
proven tactics and tradecraft with adaptations designed to address its 
losses and the enhanced security measures of the United States. Al-
Qa'ida seeks to infiltrate overseas operatives who have no known nexus 
to terrorism into the United States using both legal and illegal 
methods of entry. Further, al-Qa'ida's continued efforts to access 
chemical, biological, radiological, or nuclear material pose a serious 
threat to the United States. Finally, al-Qa'ida's choice of targets and 
attack methods will most likely continue to focus on economic targets, 
such as aviation, the energy sector, and mass transit; soft targets 
such as large public gatherings; and symbolic targets, such as 
monuments and government buildings.
    Homegrown violent extremists also pose a very serious threat. 
Homegrown violent extremists are not clustered in one geographic area, 
nor are they confined to any one type of setting--they can appear in 
cities, smaller towns, and rural parts of the country. This diffuse and 
dynamic threat--which can take the form of a lone actor--is of 
particular concern.
    While much of the national attention is focused on the substantial 
threat posed by international terrorists to the Homeland, the United 
States must also contend with an ongoing threat posed by domestic 
terrorists based and operating strictly within the United States. 
Domestic terrorists, motivated by a number of political or social 
issues, continue to use violence and criminal activity to further their 
agendas.
    Cyber.--Cyber threats come from a vast array of groups and 
individuals with different skills, motives, and targets. Terrorists 
increasingly use the Internet to communicate, conduct operational 
planning, propagandize, recruit and train operatives, and obtain 
logistical and financial support. Foreign governments have the 
technical and financial resources to support advanced network 
exploitation, and to launch attacks on the United States information 
and physical infrastructure. Criminal hackers can also pose a national 
security threat, particularly if recruited, knowingly or unknowingly, 
by foreign intelligence or terrorist organizations.
    Regardless of the group or individuals involved, a successful cyber 
attack can have devastating effects. Stealing or altering military or 
intelligence data can affect national security. Attacks against 
national infrastructure can interrupt critical emergency response 
services, government and military operations, financial services, 
transportation, and water and power supply. In addition, cyber fraud 
activities pose a growing threat to our economy, a fundamental 
underpinning of United States national security.
    Weapons of Mass Destruction.--The global Weapons of Mass 
Destruction (WMD) threat to the United States and its interests 
continues to be a significant concern. In 2008, the National 
Intelligence Council produced a National Intelligence Estimate to 
assess the threat from Chemical, Biological, Radiological, and Nuclear 
weapons and materials through 2013. The assessment concluded that it 
remains the intent of terrorist adversaries to seek the means and 
capability to use WMD against the United States at home and abroad. In 
2008, the Commission on the Prevention of WMD Proliferation and 
Terrorism concluded that ``the United States Government has yet to 
fully adapt . . . that the risks are growing faster than our multi-
layered defenses.'' The WMD Commission warned that without greater 
urgency and decisive action, it is more likely than not that a WMD will 
be used in a terrorist attack somewhere in the world by the end of 
2013.
    Osama bin Laden has said that obtaining WMD is a ``religious duty'' 
and is reported to have sought to perpetrate a ``Hiroshima'' on United 
States soil. Globalization makes it easier for terrorists, groups, and 
lone actors to gain access to and transfer WMD materials, knowledge, 
and technology throughout the world. As noted in the WMD Commission's 
report, those intent on using WMD have been active and as such ``the 
margin of safety is shrinking, not growing.''
    Foreign Intelligence.--The foreign intelligence threat to the 
United States continues to increase as foreign powers seek to establish 
economic, military, and political preeminence and to position 
themselves to compete with the United States in economic and diplomatic 
arenas. The most desirable United States targets are political and 
military plans and intentions; technology; and economic institutions, 
both governmental and non-governmental. Foreign intelligence services 
continue to target and recruit United States travelers abroad to 
acquire intelligence and information. Foreign adversaries are 
increasingly employing non-traditional collectors--e.g., students and 
visiting scientists, scholars, and businessmen--as well as cyber-based 
tools to target and penetrate United States institutions.
    To address current and emerging national security threats, the 
fiscal year 2011 budget proposes additional funding for:
  --Counterterrorism and Counterintelligence Investigations and 
        Operations.--90 new positions (27 special agents, 32 IAs, and 
        31 professional staff) and $25.2 million to enhance 
        surveillance and investigative capabilities, improve 
        intelligence collection and analysis capabilities, and enhance 
        the Bureau's Legal Attache presence in Pakistan and Ethiopia.
  --Computer Intrusions.--163 new positions (63 agents, 46 IAs, and 54 
        professional staff) and $45.9 million for the Comprehensive 
        National Cybersecurity Initiative to continue the enhancement 
        of the FBI's capacities for combating cyber attacks against the 
        U.S. information infrastructure.
  --Weapons of Mass Destruction.--35 positions (15 special agents and 
        20 professional staff) and $9.1 million to develop further the 
        FBI's capacity to implement countermeasures aimed at detecting 
        and preventing a WMD incident, improve the capacity to provide 
        a rapid response to incidents, and enhance capacities to 
        collect and analyze WMD materials, technology, and information.
  --Render Safe.--13 new positions (6 special agents and 7 professional 
        staff) and $40.0 million to acquire necessary replacement 
        aircraft critical to the timely deployment and response of 
        specialized render safe assets.

                    MAJOR CRIME PROBLEMS AND THREATS

    White Collar Crime.--The White Collar Crime (WCC) program primarily 
focuses on: Corporate fraud and securities fraud; financial institution 
fraud; public corruption; health care fraud; insurance fraud; and money 
laundering. To effectively and efficiently combat these threats, the 
FBI leverages the resources of our civil regulatory and criminal law 
enforcement partners by participating, nationally and on a local level, 
in task forces and working groups across the country. For example, the 
FBI participates in 86 corporate fraud and/or securities fraud working 
groups, 67 mortgage fraud working groups, and 23 mortgage fraud task 
forces. By working closely with our partners, to include the sharing of 
intelligence, the FBI is better able to develop strategies and deploy 
resources to target current and emerging WCC threats.
    Financial Institution Fraud.--Mortgage fraud is the most 
significant threat within the financial institution fraud program. The 
number of pending mortgage fraud investigations against real estate 
professionals, brokers and lenders has risen from 436 at the end of 
fiscal year 2003 to over 2,900 by the end of the first quarter of 
fiscal year 2010. This is more than a 500 percent increase. Over 68 
percent of the FBI's 2,979 mortgage fraud cases involved losses 
exceeding $1 million per case. Suspicious Activity Reports (SARs) 
regarding mortgage fraud increased from 6,936 in fiscal year 2003, to 
67,190 in fiscal year 2009. If first quarter trends of fiscal year 2010 
continue, the FBI will receive over 75,000 SARs by the end of fiscal 
year 2010.
    Corporate Fraud.--The majority of corporate fraud cases pursued by 
the FBI involve accounting schemes designed to deceive investors, 
auditors, and analysts about the true financial condition of a 
corporation. While the number of cases involving the falsification of 
financial information has remained relatively stable, the FBI has 
observed an upward trend in corporate fraud cases associated with 
mortgage-backed securities (MBS).
    Securities Fraud.--The FBI focuses its efforts in the securities 
fraud arena on schemes involving high yield investment fraud (to 
include Ponzi schemes), market manipulation, and commodities fraud. Due 
to the recent financial crisis, the FBI saw an unprecedented rise in 
the identification of Ponzi and other high yield investment fraud 
schemes, many of which each involve thousands of victims and staggering 
losses--some in the billions of dollars. With this trend, and the 
development of new schemes, such as stock market manipulation via cyber 
intrusion, securities fraud is on the rise. Over the last 5 years, 
securities fraud investigations have increased by 33 percent.
    Public Corruption.--The corruption of local, State, and federally 
elected, appointed, or contracted officials undermines our democratic 
institutions and sometimes threatens public safety and national 
security. Public corruption can affect everything from how well United 
States borders are secured and neighborhoods protected, to verdicts 
handed down in courts, and the quality of public infrastructure such as 
schools and roads. Many taxpayer dollars are wasted or lost as a result 
of corrupt acts by public officials.
    The FBI also created a national strategy to position itself to 
effectively address the increase in corruption and fraud resulting from 
the Federal Government's economic stimulus programs, including 
expanding our undercover capabilities and strengthening our 
relationships with the inspectors general community on a national and 
local level.
    Health Care Fraud.--Some of the most prolific and sophisticated WCC 
investigations during the past decade have involved healthcare fraud. 
It is estimated that fraud in healthcare industries costs consumers 
more than $60 billion annually. Today, the FBI seeks to infiltrate 
illicit operations and terminate scams involving staged auto accidents, 
online pharmacies, durable medical equipment, outpatient surgery 
centers, counterfeit pharmaceuticals, nursing homes, hospital chains, 
and transportation services. Besides the Federal health benefit 
programs of Medicare and Medicaid, private insurance programs lose 
billions of dollars each year to blatant fraud schemes in every sector 
of the industry.
    Insurance Fraud.--There are more than 5,000 companies with a 
combined $1.8 trillion in assets engaged in non-health insurance 
activities, making this one of the largest United States industries. 
Insurance fraud increases the premiums paid by individual consumers and 
threatens the stability of the insurance industry. Recent major natural 
disasters and corporate fraud scandals have heightened recognition of 
the threat posed to the insurance industry and its potential impact on 
the economic outlook of the United States.
    Money Laundering.--Money Laundering allows criminals to infuse 
illegal money into the stream of commerce, thus manipulating financial 
institutions to facilitate the concealing of criminal proceeds; this 
provides the criminals with unwarranted economic power. The FBI 
investigates Money Laundering cases by identifying the process by which 
criminals conceal or disguise the proceeds of their crimes or convert 
those proceeds into goods and services. The major threats in this area 
stem from emerging technologies, such as stored value devices; as well 
as shell corporations, which are used to conceal the ownership of funds 
being moved through financial institutions and international commerce. 
Recent money laundering investigations have revealed a trend on the 
part of criminals to use stored value devices, such as pre-paid gift 
cards and reloadable debit cards, in order to move criminal proceeds. 
This has created a ``shadow'' banking system, allowing criminals to 
exploit existing vulnerabilities in the reporting requirements that are 
imposed on financial institutions and international travelers. This has 
impacted our ability to gather real time financial intelligence, which 
is ordinarily available through Bank Secrecy Act filings. Law 
enforcement relies on this intelligence to identify potential money 
launderers and terrorist financiers by spotting patterns in the 
transactions conducted by them. The void caused by the largely 
unregulated stored value card industry deprives us of the means to 
collect this vital intelligence. Moreover, stored value cards are often 
used to facilitate identity theft. For example, a criminal who 
successfully infiltrates a bank account can easily purchase stored 
value cards and then spend or sell them. This readily available outlet 
makes it much more unlikely that the stolen funds will ever be 
recovered, thus costing financial institutions and their insurers 
billions of dollars each year.

Transnational and National Criminal Organizations and Enterprises
    Transnational/National Organized Crime is an immediate and 
increasing concern of the domestic and international law enforcement 
and intelligence communities. Geopolitical, economic, social, and 
technological changes within the last two decades have allowed these 
criminal enterprises to become increasingly active worldwide. 
Transnational/National Organized Crime breaks down into six distinct 
groups: (1) Eurasian Organizations that have emerged since the fall of 
the Soviet Union (including Albanian Organized Crime); (2) Asian 
Criminal Enterprises; (3) traditional organizations such as the La Cosa 
Nostra (LCN) and Italian Organized Crime; (4) Balkan Organized Crime; 
(5) Middle Eastern Criminal Enterprises; and (6) African Criminal 
Enterprises.
    Due to the wide range of criminal activity associated with these 
groups, each distinct organized criminal enterprise adversely impacts 
the United States in numerous ways. For example, international 
organized criminals control substantial portions of the global energy 
and strategic materials markets that are vital to United States 
national security interests. These activities impede access to 
strategically vital materials, which has a destabilizing effect on 
United States geopolitical interests and places United States 
businesses at a competitive disadvantage in the world marketplace. 
International organized criminals smuggle people and contraband goods 
into the United States, seriously compromising United States border 
security and at times national security. Smuggling of contraband/
counterfeit goods costs United States businesses billions of dollars 
annually, and the smuggling of people leads to exploitation that 
threatens the health and lives of human beings.
    International organized criminals provide logistical and other 
support to terrorists, foreign intelligence services, and hostile 
foreign governments. Each of these groups is either targeting the 
United States or otherwise acting in a manner adverse to United States 
interests. International organized criminals use cyberspace to target 
individuals and United States infrastructure, using an endless variety 
of schemes to steal hundreds of millions of dollars from consumers and 
the United States economy. These schemes also jeopardize the security 
of personal information, the stability of business and government 
infrastructures, and the security and solvency of financial investment 
markets. International organized criminals are manipulating securities 
exchanges and perpetrating sophisticated financial frauds, robbing 
United States consumers and government agencies of billions of dollars. 
International organized criminals corrupt and seek to corrupt public 
officials in the United States and abroad, including countries of vital 
strategic importance to the United States, in order to protect their 
illegal operations and increase their sphere of influence.
    Finally, the potential for terrorism-related activities associated 
with criminal enterprises is increasing due to the following: alien 
smuggling across the southwest border by drug and gang criminal 
enterprises; Columbian based narco-terrorism groups influencing or 
associating with traditional drug trafficking organizations; prison 
gangs being recruited by religious, political, or social extremist 
groups; and major theft criminal enterprises conducting criminal 
activities in association with terrorist related groups or to 
facilitate funding of terrorist-related groups. There also remains the 
ever present concern that criminal enterprises are, or can, facilitate 
the smuggling of chemical, biological, radioactive, or nuclear weapons 
and materials.
    Violent Crimes/Gangs and Indian Country.--Preliminary Uniform Crime 
Report statistics for 2008 indicate a 3.5 percent decrease nationally 
in violent crimes (murder and non-negligent manslaughter, forcible 
rape, robbery, and aggravated assault) for the first 6 months of the 
year compared to the same period in 2007. This follows a slight decline 
(1.4 percent) for all of 2007 compared to 2006. While this overall 
trend is encouraging, individual violent crime incidents such as serial 
killings and child abductions often paralyze entire communities and 
stretch State and local law enforcement resources to their limits. In 
addition, crimes against children, including child prostitution and 
crimes facilitated through the use of the Internet, serve as a stark 
reminder of the impact of violent crime on the most vulnerable members 
of society. Since the inception of the Innocence Lost National 
Initiative in 2003, the FBI has experienced a 239 percent increase in 
its investigations addressing the threat of children being exploited 
through organized prostitution. The FBI addresses this threat by 
focusing resources on criminal enterprises engaged in the 
transportation of children for the purpose of prostitution using 
intelligence driven investigations and employing sophisticated 
investigative techniques. These types of investigations have led to the 
recovery of 915 children, 549 offenders convicted, and the 
dismantlement of 44 criminal enterprises.
    Gang Violence.--The United States has seen a tremendous increase in 
gangs and gang membership. Gang membership has grown from 55,000 in 
1975 to approximately 960,000 nationwide in 2007. The FBI National Gang 
Intelligence Center (NGIC) has identified street gangs and gang members 
in all 50 States and the District of Columbia. Thirty-nine of these 
gangs have been identified as national threats based on criminal 
activities and interstate/international ties. NGIC estimates the direct 
economic impact of gang activity in the United States at $5 billion and 
the indirect impact as much greater. Furthermore, NGIC identified a 
trend of gang members migrating to more rural areas. NGIC has also seen 
an expansion of United States based gangs internationally, with such 
gangs currently identified in over 20 countries.
    Indian Country.--The FBI has 104 full-time dedicated special agents 
who currently address 2,406 Indian Country (IC) cases on approximately 
200 reservations. Seventy-five percent of the cases are investigated in 
the Minneapolis, Salt Lake City, Phoenix, and Albuquerque Field 
Offices. Fifty percent of the cases involve death investigations, 
sexual and physical assault of children, and felony assaults, with 
little or no support from other law enforcement agencies due to the 
jurisdictional issues in IC. As a consequence, there are only half as 
many law enforcement personnel in IC as in similar sized rural areas. 
Furthermore, tribal authorities can only prosecute misdemeanors of 
Indians, and State/local law enforcement do not have jurisdiction 
within the boundaries of the reservation, with the exception of Public 
Law 280 States and tribes.
    To address current and emerging crime problems and threats, the 
fiscal year 2011 budget requests additional funding for:
  --White Collar Crime.--367 new positions (143 special agents, 39 IAs, 
        and 185 professional staff) and $75.3 million to address 
        increasing mortgage, corporate, and securities and commodities 
        fraud schemes, including a backlog of over 800 mortgage fraud 
        cases with over $1 million in losses per case.
  --Child Exploitation.--20 new positions (4 special agents, 1 IA, and 
        15 professional staff) and $10.8 million to enhance on-going 
        Innocence Lost, child sex tourism, and Innocent Images 
        initiatives.
  --Organized Crime.--4 new positions (3 special agents and 1 
        professional staff) and $952,000 to establish, in partnership 
        with the Criminal Division of the Justice Department, a new 
        integrated international organized crime mobile investigative 
        team to focus on combating illicit money networks and 
        professional money laundering.
  --Violent Crime/Gangs and Indian Country.--2 new positions and $328 
        thousand to provide enhanced forensic services for Indian 
        Country investigations. Additionally, $19.0 million is 
        requested as a reimbursable program through the Department of 
        the Interior to hire an additional 45 special agents and 36 
        professional staff to investigate violent crimes in Indian 
        Country.
    Operational Enablers.--FBI operations and investigations to prevent 
terrorism, thwart foreign intelligence, protect civil rights, and 
investigate Federal criminal offenses require a solid and robust 
enterprise infrastructure. Our operational and investigative programs 
are vitally dependent on core information technology, forensic, 
intelligence, and training services. Growth in FBI national security 
and criminal investigative programs and capabilities require 
investments in our core infrastructure. The fiscal year 2011 budget 
proposes 118 new positions (15 agents, 69 intelligence analysts, and 34 
professional staff), and $99.0 million for key operational enablers--
intelligence training and transformation, information technology 
upgrades, improved forensic services, and facility improvements--
including construction of a new dormitory building and renovations to 
existing facilities at the FBI Academy, Quantico.
    Program Offsets.--The proposed increases for the fiscal year 2011 
budget are offset, in part, by $17.3 million in program reductions, as 
follows: $10.3 million in travel; $3.2 million in training; and a $3.8 
million reduction in vehicle fleet funding. The fiscal year 2011 budget 
also proposes an elimination of $98.9 million of balances for the 
construction of a permanent facility to house the Terrorist Explosive 
Device Analytical Center (TEDAC), but maintains current funding and 
personnel for the FBI's TEDAC program, which is responsible for 
analyzing Improvised Explosive Devices that are used in Iraq and 
Afghanistan. In addition, to provide long-term support for overseas 
operations, the fiscal year 2011 budget proposes to recur $39 million 
of the $101.6 million enacted for Overseas Contingency Operations in 
the Consolidated Appropriations Act, 2010, a non-recurral of $62.7 
million.
    Reimbursable Resources.--In addition to directly appropriated 
resources, the fiscal year 2011 budget includes resources for 
reimbursable programs, including $134.9 million and 776 full time 
equivalents (FTE) pursuant to the Health Insurance Portability and 
Accountability Act (HIPPA) of 1996; $148.5 million and 868 FTE under 
the Interagency Crime and Drug Enforcement Program; and $189.9 million 
and 1,303 FTE for the Fingerprint Identification User Fee and the 
National Name Check Programs. Additional reimbursable resources are 
used to facilitate a number of activities, including pre-employment 
background investigations, providing assistance to victims of crime, 
forensic and technical exploitation of improvised explosive devices by 
the Terrorist Explosive Device Analytical Center, and temporary 
assignment of FBI employees to other agencies.

                               CONCLUSION

    Chairman Mikulski and Ranking Member Shelby, I would like to 
conclude by thanking you and this subcommittee for your service and 
your support. Many of the accomplishments we have realized since 
September 11, 2001, are in part due to your efforts and support through 
annual and supplemental appropriations. I'm sure you will agree that 
the FBI is much more than a law enforcement organization. The American 
public expects us to be a national security organization, driven by 
intelligence and dedicated to protecting our country from all threats 
to our freedom. For 100 years, the men and women of the FBI have 
dedicated themselves to safeguarding justice, to upholding the rule of 
law, and to defending freedom.
    From addressing the growing financial crisis to mitigating cyber 
attacks and, most importantly, to protecting the American people from 
terrorist attack, you and the subcommittee have supported our efforts. 
On behalf of the men and women of the FBI, I look forward to working 
with you as we continue to develop the capabilities we need to defeat 
the threats of the future.

    Senator Mikulski. Budget or otherwise. Well, thank you very 
much, Director Mueller, for that testimony.
    Issues related to the cybersecurity initiative, as well as 
the Christmas Day bombing attempt and the reforms that were 
instituted as a result of that, I am going to bring up more in 
our closed, classified hearing. But I want the record to show 
that this subcommittee is absolutely committed to the 
cybersecurity initiative.
    The country is at war. The country is familiar with our 
wars in Iraq and Afghanistan, but we are at war right this very 
minute with cyber attacks on the United States, from cyber 
espionage, as you have said, to potential cyber terrorist 
attacks on things like critical infrastructure. And then the 
cyber activity that is coming through organized crime, in which 
they are leading some of the biggest bank heists in world 
history.
    I have noted your speeches and, in fact, have been 
following cyber crime sprees through the way you have reported 
them in various conferences you have attended. It is shocking 
the amount of money and the amount of people that are being 
bilked. So it is everything from identity theft to cyber heists 
to cyber espionage that we will focus on in another 
environment.
    But we are absolutely committed to that. I have just left a 
hearing of the Armed Services Committee, where I introduced 
General Alexander to be head of the Cyber Command to protect 
.mil. But then there is .gov, .com, and .usa. And the work of 
you and the homeland security are crucial.
    So, well, let us go to protecting our communities. First, 
we want to acknowledge the excellent work that the FBI does in 
just being the FBI. The FBI is loved. The FBI is respected and 
often is brought into some of the toughest and most brutal 
situations. But this white collar crime--insidious, virulent, 
and despicable--is really undermining our families.
    I would like to ask a question about mortgage fraud. My own 
home State in some zip codes has some of the highest mortgage 
fraud rates in the country. It is terrible to lose your home 
because of an economic downturn, but it is even worse if you 
have lost your home to some scam or scum that has bilked you 
out of it from predatory lending to others.
    So we really want to be able to send a message to those who 
want to bilk American families when they are pursuing the 
American dream that we are going to come after you. So don't 
even go there in the first place. I want them to be so scared 
that the FBI will come after them because you have exactly what 
you need to do that, that they don't even do it in the first 
place. And I want you to go after the ones who have done it.
    And I know Senator Shelby feels the same passion I do. So 
can you tell us how many agents and accountants and so on you 
need for the mortgage fraud workload? Tell us the nature of the 
workload and tell us the nature of what you think is the way 
you would allocate staff to do that. In other words, do you 
need more paralegals, or do you need more agents? What is it 
that you need?

                   MORTGAGE FRAUD/WHITE COLLAR CRIME

    Mr. Mueller. Well, let me just start by saying we quite 
clearly share your sense of prioritization of these cases. And 
since we have 2,900 cases in the mortgage fraud arena alone, we 
have to prioritize there. We use a variety of methods of doing 
so, and we are leveraging not only our capabilities, but the 
capabilities of other Federal, State, and local agencies.
    We currently have 90 task forces working around the country 
to address the mortgage fraud crisis. This year, in direct 
response to your question, we are requesting 211 personnel, and 
another $44 million to address financial fraud.
    With this level of cases, we have had to triage, without a 
doubt, and prioritize those cases. But we also are utilizing 
new methods, as I pointed out, of intelligence, and identifying 
scams through looking through a number of real estate records, 
real estate indices, and identifying a number of these schemes 
where there are quick turnovers and quick profits and the loss 
is spread around the community.
    We have been very successful in the last couple of years in 
terms of indictments. I mentioned one in San Francisco 
recently, but I can get you the full rack-up in terms of what 
we have accomplished in the last couple of years.
    [The information follows:]

    Between fiscal year 2007 and fiscal year 2009, there were 829 
arrests, 1,194 convictions, 99 dismantlement, 248 disruptions, 1,337 
indictments, and 442 information within the FBI's Mortgage Fraud 
program.

    We can always use more resources in the white collar crime 
arena. Not only do we have mortgage fraud, but you have the 
Ponzi schemes that I have alluded to. Last year, we had the 
Madoff scheme. I alluded as well to the Petters case out in 
Minneapolis, where he was recently sentenced to 50 years, and 
we have a number of those.
    And so, whether it be the mortgage fraud cases, the Ponzi 
schemes, the securities fraud cases, or corporate fraud, we 
have probably close to 2,000 agents working in our white collar 
crime programs. We could always use more, but I think we are 
doing a good job in prioritizing and going after those who are 
most responsible for taking the public's money through 
fraudulent schemes.
    Senator Mikulski. Well, am I correct in saying that in 
mortgage fraud and other areas of white collar crime, 
particularly financial services and also the Medicare/Medicaid 
fraud, that this is essentially the type of crime where those 
who are accused will bring in very high-priced lawyers because 
they often can afford it, and they are going to do incredible 
docu-dumps on the FBI and the task forces involved in this. So 
these crimes could go on for years.
    My question, in terms of your priority--is it that you are 
using technology to be able to scan documents, move these cases 
more expeditiously? And also, given the fact that this seems to 
also be tied to the economic downturn, as well as a greed 
spree, that the use of technology and so on will be able to 
help your agents? Could you tell us how you are going to set 
through those priorities?

                               TECHNOLOGY

    Mr. Mueller. It is a combination of two things. One is that 
technology enables us to utilize public records often to 
identify mortgage fraud schemes and the potential players. And 
with that information, you can identify one or more of those 
persons who should be investigated and indicted, fairly 
quickly, and then have those persons cooperate against other 
persons in the scheme.
    The one thing you do not want to have happen is to be 
bogged down with rooms and rooms of documents and going through 
them over years. These people need to be brought to justice 
swiftly, and to do that, in some sense, you have to treat it as 
a narcotics case, where you have some individual who is 
inculpated in the scheme and press that person to divulge who 
others involved were and provide evidence.
    And we push hard to do that, and by doing that, regardless 
of the quality of the lowering on the other side, the person 
will spend a substantial time in jail. Fifty years for Mr. 
Petters out of Minneapolis is an appropriate sentence.

                                SENTINEL

    Senator Mikulski. I like the tough talk. We have to ask 
some tough questions, though, about another aspect. I want to 
come back, if there is time, on the sexual predator issues, as 
well as Medicare fraud. I know Senator Shelby has.
    But I must raise a question about Sentinel. There have been 
delays in the development of Sentinel, the Bureau's new--it is 
a case management system, as I understand it. And you know we 
were all over the FBI for a number of years now--connect the 
dots, manage your cases better, communicate, collaborate, et 
cetera. And technology was to be a tool.
    The FBI has had problems in doing this in the past. I want 
to know where we are on Sentinel. Is this just a normal delay 
that is involved in the development of any significant 
technology project, or are we on the road to boondoggle, and 
what would you be doing to avoid boondoggle?
    Mr. Mueller. Well, let me put some context into the 
discussion on Sentinel. There have been criticisms of the 
Bureau before in terms of technology, legitimate criticisms.
    In many areas, we have been, I think, substantially 
successful in terms of providing the agents what they need. We 
have something like 27,000 BlackBerrys out there. There was a 
concern about access to the Internet.
    Senator Mikulski. How many BlackBerrys?
    Mr. Mueller. Twenty-seven thousand BlackBerrys. We had 
problems with all personnel having access to the Internet. We 
have 30,000 persons with access to the Internet now. In terms 
of connecting the dots, we have developed a number of databases 
that enable us to connect the dots.
    Now turning to Sentinel, which is a case management system. 
In the wake of Virtual Case File, after Phase 1 of the new 
contract, we went to what we called an incremental development 
plan. Phase 1 of that plan went very well. We implemented it in 
2007, which gives some capabilities that are currently being 
used by approximately 2,000 of our personnel.
    This is a four-phase project. When it came to the end of 
Phase 2 last fall, we saw two things happening. Development 
tasks were not closing at the planned rate, and costs were 
exceeding the planned levels. We had not seen that prior to 
last fall.
    Upon finding that we had these issues to address, we 
brought in three outside objective entities for independent 
reviews. We brought in Mitre, Aerospace, and Booz Allen to 
determine what the problem was, and to a certain extent, they 
attributed the problem to coding defects.
    With that information from the third-party independent 
reviewers, we issued a partial stop-work order in order to make 
certain that the quality of the product that we were receiving 
was up to par, and when we went to the field that it would be a 
product that would be welcomed by the users and would advance 
the users' capabilities on our systems.
    We have been in the process in the last several weeks of 
clarifying and addressing those problems. My expectation is 
that the pilots will be initiated this summer.
    I will tell you that when you have a project that goes over 
4 or 5 years, some form of delay is, I wouldn't say inevitable, 
but needs to be identified, addressed and contained. I think we 
have done it here. But when you have a program where the 
requirements were laid down in concrete 4 or 5 years ago, 
technology changes, business practices change, complexity 
requirements change, and one can expect some minor delays. For 
us, it is working with our contractor to push it through and 
make certain that Phase 2 is completed this summer.
    I will say, having been through this path before, I am 
cautiously optimistic that we are on the path to get that 
accomplished. If I do, at some point, believe that it is not 
working, I will take whatever steps are necessary on the 
contract to make certain we push through and get Sentinel on 
the desks of everyone who needs it.
    Senator Mikulski. Well, do you believe that the contractor 
has had a sufficient wake-up call and is ready and cooperating 
with you, meaning the FBI and its chief information people----
    Mr. Mueller. I do believe that is the case. Senior 
management, with whom I have been in contact over the duration 
of this contract, understands that issues related to quality 
control have to be addressed and rectified and has put not just 
the senior-level management on it, but the persons that can 
accomplish that.
    Senator Mikulski. Well, first of all, I want to acknowledge 
that you did oversight of the project, and I know--I believe 
you have been personally involved in overseeing this. Am I 
correct?
    Mr. Mueller. Yes, and we wanted oversight from all outside 
entities, including Congress. This is something that we want to 
make certain is successful. So, yes, I have had personal 
oversight of it.
    Senator Mikulski. Oh, no, I know you weren't the only one. 
But often this is delegated, and then you went to three outside 
reviews to be sure that you were keeping this on track. So you 
feel confident that you have the plan to move this forward?
    Mr. Mueller. Yes.
    Senator Mikulski. Do you have an estimate of cost?
    Mr. Mueller. Not yet.
    Senator Mikulski. Do you have a complete plan on when this 
will be fully operational?
    Mr. Mueller. No. My expectation is that Phase 2 should be 
operational by the fall.
    Senator Mikulski. So we will have this back from you before 
we mark up our bill?
    Mr. Mueller. Yes.
    Senator Mikulski. Thank you. Well, thank you very much.
    Mr. Mueller. One other thing, if I can, Madam Chairwoman? 
It was supposed to be completed in 2010. And this delay, I want 
to acknowledge, is going to push it into 2011 for completion of 
this project. But my expectation is it will be completed in 
2011.
    Senator Mikulski. Thank you.
    Senator Shelby.

                                 TEDAC

    Senator Shelby. Thank you, Senator Mikulski, Chairwoman.
    Mr. Director, as I indicated in my opening remarks, the 
administration's proposed rescission of $98 million in funding 
for the Terrorist Explosive Device Analytical Center is 
troubling, given the FBI and the Joint Improvised Explosive 
Device Defeat Organization [JIEDDO]--how do you pronounce it?
    Mr. Mueller. I think ``jay-doh.''
    Senator Shelby. The JIEDDO commander's support for this 
facility. Do you believe, Mr. Director, that the TEDAC is a 
critical element necessary for the FBI to meet its 
responsibilities to the American public?
    Mr. Mueller. I absolutely do. I am a great believer in the 
benefits of TEDAC. It has shown itself over and over again to 
be exceptionally valuable in identifying IEDs, not just in the 
United States, but IEDs throughout the world.
    Senator Shelby. Did the FBI request additional funding to 
construct a facility to support the TEDAC mission above the 
amount Congress had already provided? You know we have been 
funding this for a number of years.
    Mr. Mueller. Well, there was the $98 million I think we are 
talking about. And of course, we requested that funding and 
appealed it at the appropriate levels.
    Senator Shelby. When the FBI was informed of the proposal 
by the administration, OMB, to cancel the funding to construct 
the facility to support the mission, did the Bureau appeal that 
decision to OMB?
    Mr. Mueller. Yes, sir.
    Senator Shelby. Thank you.
    So you basically believe it is necessary we build this 
facility because it will help you do your job to protect the 
American people?
    Mr. Mueller. Yes, sir.
    Senator Shelby. It is my understanding, Director Mueller, 
that the volume of submissions to TEDAC has overwhelmed its 
capacity, resulting in a substantial backlog. The FBI estimates 
that 86 percent of the 33,000 evidence boxes within the backlog 
contain DNA or fingerprints from a still unidentified insurgent 
who was involved in an IED attack against the U.S. military 
personnel who may seek to enter the United States.
    Today, a terrorist could be stopped at a checkpoint in 
Afghanistan and go unidentified because the FBI has not yet 
analyzed the evidence against him because you don't have the 
facilities.
    Mr. Mueller. That is true, Senator. Throughout the world, 
the ability to identify persons who leave their fingerprints or 
DNA on IEDs is tremendously important, and the backlog to which 
you allude needs to be triaged. We have to take the most 
serious IEDs and prioritize. And having an additional facility 
with additional analysts, both from the military as well as 
ourselves, would quite clearly cut deeply into that backlog.
    Senator Shelby. It would help you tremendously, would it?
    Mr. Mueller. Yes, sir.

                               DNA POLICY

    Senator Shelby. I want to get into DNA policy, Director 
Mueller. Reducing the DNA backlog is one of the single most 
important issues facing all of law enforcement in this country, 
including the Bureau. But in doing so, I think we must do it 
the right way and guarantee the integrity of the process.
    As stated in the FBI press release, the FBI is performing--
and I will quote--``a review to determine what improvements can 
be made to facilitate more efficient and timely uploading of 
outsourced DNA data into the NDIS, and no changes have been 
made to any procedures or standards to date'' in the press 
release.
    Nearly every public crime lab in America, including the 
FBI's own advisory scientific working group on DNA analysis, 
are in favor of keeping the DNA technical review policy as it 
currently stands. After having seen the timing of the FBI's lab 
press release, correspondence from private DNA lab executives 
taking credit for pushing this initiative within the FBI, and 
celebratory statements praising the FBI for a position you just 
said the FBI has not changed or has indicated, I hope you share 
my concern about the origin of this decision.
    I understand the FBI has a backlog of almost 300,000 DNA 
samples for the Federal DNA database, and I guess my question 
is, what are you doing to reduce this backlog? And when do you 
plan to have it eliminated completely?
    Mr. Mueller. Well, let me start with the backlog and then, 
if I could, discuss the uploading of DNA analyses that have 
been performed by private laboratories.
    Senator Shelby. Okay.
    Mr. Mueller. With regard to the backlog, we expect to have 
that backlog reduced to almost nothing by September of this 
year. We currently do 25,000 uploads into the database per 
month. We expect to go to 90,000 by September and reduce the 
backlog to the point where we can have a 30-day turnaround.
    Now that reduction in backlog is attributable to several 
factors. The first was the 2009 budget. You gave us 29 
additional personnel who have now been hired and are reducing 
that backlog. We are making enhanced use of robotics in new and 
different ways. And last, we have realigned staff. All of which 
I will say has been done under the auspices of our laboratory 
director.
    Let me turn to the issue with regard to the role of private 
laboratories and nongovernmental entities compared to 
Governmental entities. Let me first start by saying that we 
have not, are not, and will not consider giving nongovernmental 
entities access to CODIS. That is not on the table.
    We have been pressured by police departments and others to 
look at the technical review process, whereby a review is done 
by a private laboratory, and before it is uploaded into CODIS, 
there has to be a technical review. What we are looking at is 
if there are any ways to improve the efficiency and the timely 
uploading of the DNA samples into CODIS without reducing any of 
the quality control requirements that would allow, perhaps by 
reduction, samples that we do not want ingested into that 
system.
    Senator Shelby. Do we have your assurance that all voices 
of State and local crime labs will be at the table during any 
DNA policy review discussion? I mean----
    Mr. Mueller. Absolutely. And let me also say that I have 
heard what you have said about influence from the outside. I 
had not myself heard of that at all. What I had heard, and what 
ultimately triggered that I look at it, were requests by 
particular police departments that we improve and enhance the 
efficiency and the timeliness of the uploading of DNA samples, 
for example rape kits, into CODIS.
    And in my mind, that is what triggered the review, and it 
is appropriate that we do it. It is certainly appropriate that 
we have the input of everybody involved as we go through that 
review.
    Senator Shelby. But the key to it is to protect the 
integrity of the system, is it not, and the evidence that comes 
from it?
    Mr. Mueller. Yes, sir.
    Senator Shelby. Thank you, Madam Chairwoman.
    Senator Mikulski. Senator Pryor.

                             MEXICAN BORDER

    Senator Pryor. Thank you, Madam Chairwoman.
    Director Mueller, thank you for being here today. I just 
have a few questions about your agency and some of your 
efforts.
    We had a hearing in the Homeland Security Subcommittee, one 
of the subcommittees that I chair there, not long ago, about 
how the Mexican drug cartels are trying to corrupt the Customs 
and Border Protection agency here in the U.S., and maybe 
others, in terms of trying to provide money so that they will 
look the other way when they are bringing in drugs and people 
and everything else.
    I know that you are very aware of that, but I am glad to 
see that there are a number of Federal agencies, including the 
FBI, who are trying to work on this. My question is, do you 
feel like we are making the right kind of progress there? 
Because that is a very disturbing development to me.
    Mr. Mueller. I do, Senator. And I can speak to what we are 
doing, but also allude to what is being done by other agencies, 
particularly DHS.
    We have 11 border corruption task forces now, where we have 
State, local, and other Federal agencies that are working on 
these task forces. From the perspective of the FBI, we have 
more than 100 cases of corruption that we are currently 
investigating along the border--many, if not most of them being 
investigated by these border corruption task forces.
    I will also say that with the increase in personnel for 
Border Patrol, Immigration, and the like, there has been 
enhanced capability in DHS to address that problem, as well as 
enhanced exchange of information and working together on what 
is a very serious problem on the border.
    Senator Pryor. I noticed that there has been a lot of 
violence around the border area--especially to the south of us, 
but certainly it is spilling over into the United States, and 
it is touching the United States in various ways. Is the FBI 
concentrating some resources down there to try to get that 
under control at least within our borders?
    Mr. Mueller. Yes. In addition to addressing public 
corruption, the two other areas in which we have expanded our 
capabilities are cross-border kidnappings, and intelligence.
    With regard to cross-border kidnappings, we have bilateral 
kidnapping task forces in Nuevo Laredo, just as an example. 
What one finds is that persons who have businesses in Mexico or 
family in Mexico, and live in the United States, will travel to 
either see family or their businesses, and are kidnapped. And 
so, there will be that cross-border dynamic. We have teams 
along the border that address that.
    I would say that it has been fairly stable over the last 
couple of years. We haven't seen a peak. It is still an issue, 
but we haven't seen an uptick. These particular task forces 
with specialized capabilities have been effective in 
identifying the kidnappers and, working either under the 
Mexican judicial system or ours, incarcerating them.
    One other aspect I will spend a moment on is the Southwest 
Intelligence Group. About a year ago, after visits to Mexico 
and with our Legal Attache and looking at what we were doing 
along the border, I believed that we could enhance our 
information sharing by putting together an intelligence group 
down in El Paso.
    It is a group that includes intelligence from each of our 
border offices, as well as our Legal Attache office in Mexico 
City and headquarters, so that all are looking at the same 
intelligence and driving our activities. But it is also 
integrated with the other intelligence agencies and other 
intelligence groups that operate out of EPIC, the El Paso 
Intelligence Center.

                       DRUG INTERDICTION METRICS

    Senator Pryor. Let me ask about your metrics on how you 
measure your effectiveness. You have something like a 
kidnapping or a murder, I think it is pretty easy to measure 
that, and you can see the numbers move up or down.
    But my understanding is that the Mexican drug cartels have 
a presence in, I believe, it is 180 U.S. cities. I think there 
are three in my State, where they actually have a presence 
there, and a lot of the methamphetamine, cocaine, marijuana, et 
cetera, is coming up through Mexico.
    Are you able to measure how effective your efforts are in 
preventing those drugs from coming into the United States in 
the first place, and the gang and general criminal activity 
that is almost pervasive in our country because of the Mexican 
drug cartels?
    Mr. Mueller. We traditionally have used a number of metrics 
such as the number of kilos of cocaine picked up coming across 
the border and the number of leaders who have been indicted and 
extradited. These metrics show you something, but not 
necessarily what would be most beneficial.
    What we try to look at is if you have a pocket--it can be a 
gang, it can be Mexican traffickers--where do you have an 
impact on the community? Where you have a homicide rate of 20 
percent in a particular area of the city one year, what we want 
intelligence to do is to look at, who are the shooters? Who is 
responsible for this 20 percent in this particular community? 
Then, what is the strategy for addressing it?
    At the end of the day, I don't care how many leaders are 
arrested and go away forever, but I want to see a drop in that 
homicide rate, because that is the ultimate test. And so, we 
are trying to drive toward a metric system that goes further in 
evaluating the impact on the community, as opposed to the 
traditional statistics that we ordinarily have touted.
    Senator Pryor. Madam Chairwoman, if I could just ask one 
more question as a follow-up? Given the presence of the Mexican 
drug cartels and the intensity of their activity in Mexico, and 
the United States, do we have the right laws on the books? In 
other words, do you have enough tools in the toolbox that you 
can use?
    I know years ago, the Congress passed the Rackateer 
Influenced and Corrupt Organizations Act [RICO] and other 
things. And in Arkansas, we have passed gang-type laws that, in 
effect, are like State RICO-type acts. But do you need any new 
laws on the books to help you address this very serious 
problem?
    Mr. Mueller. In terms of statutes, such as the RICO 
statute, the continuing criminal enterprise statute or gang 
statutes, not really. I do believe that along the border, as 
with the terrorism threats we face in this country, a greater 
understanding and necessity of sharing intelligence across the 
intelligence community and the law enforcement community is 
important.
    Looking at a legal structure, a structure that enables us 
to share the information, or enables the foreign intelligence 
community to more easily share information on U.S. citizens 
with law enforcement communities such as ourselves, are areas 
that we ought to be looking at down the road. Because 
historically we have grown an intelligence community that looks 
outward, a law enforcement community that looks inwards--there 
are artificial distinctions that terrorists and criminals don't 
care about at all. For us to do the kind of work that we need 
to do, there has to be the maximum possible integration and 
flow of information from the intelligence community, whether it 
is in Mexico, Afghanistan, Yemen or Pakistan, with the domestic 
community. And there are still legal impediments to that flow 
of information that we ought to be working on.

                            CHILD PREDATORS

    Senator Mikulski. Thank you very much, Senator.
    Before we wrap up this open session, I have two points that 
I want to make. One is on the issue related to predatory 
behavior related to children.
    In 1996, Innocent Images was established in Calverton, 
Maryland, because of a despicable situation with a little boy. 
As I understand it, the caseload has grown by more than 200 
percent. That the caseload of Innocent Images has gone from 113 
cases to where you have 2,500 opened right now in this 
situation.
    Do you feel that you have enough resources to be dealing 
with this magnitude of caseload and also with the fact that 
this is now involved with international activity?
    Mr. Mueller. We could very easily, tomorrow, double, 
triple, or quadruple that caseload. There are so many 
opportunities out there. We have to, again, prioritize and 
triage. Throughout the country, we work with State and local 
law enforcement and hope to better leverage our capabilities 
with them.
    As horrendous as this is, and everybody recognizes it is, 
State and local law enforcement are being cut. And so, the 
ability to leverage State and local law enforcement in this 
arena is not as great as I would like it to be.
    We also have focused on what we call ``Innocence Lost,'' 
where young children are brought into prostitution rings and 
the like. And so, we put our efforts there as well as Innocent 
Images.
    The last thing I would say where we could always use 
additional funds that would be beneficial as part of the 
Innocent Images project is to bring our counterparts from 
overseas who are doing this to Calverton to work 
internationally on child pornography rings. That has been 
tremendously beneficial.
    So, whether it is Innocence Lost or the projects we have 
with our international counterparts coming here for training 
and joint investigations, we could always use more resources. 
But I think we are doing a very good job with what we have.
    Senator Mikulski. So the key here is working with local 
partners. Is that correct?
    Mr. Mueller. It is, local and international.

                      MEDICARE AND MEDICAID FRAUD

    Senator Mikulski. And my last point is this. We just passed 
health insurance reform. And as I moved around my State, 
whether it was in diners or grocery stores or listening to 
people, they were saying read the bill, and others were saying 
expand access. One of the things that people really didn't 
believe was that we were going to help reduce costs by reducing 
waste, fraud, and abuse. When you use that phrase, they hold 
their sides and laugh. They don't think that we really mean it.
    I believe that there is a real commitment on this 
subcommittee, and people like Senator Tom Coburn had excellent 
ideas. I believe Secretary Sebelius. We really have to do 
something.
    Now I noted in your testimony how you recovered, I think, 
$10 million from somebody who was supposed to be helping AIDS 
victims, and they were indulging in very lavish lifestyles. Mr. 
Director, I believe that there hasn't been nationally, in every 
agency, the kind of vigor that we need really in pursuing 
Medicare and Medicaid fraud. This is not finger-pointing at you 
in any way.
    Does the administration now have a sense of real urgency to 
pursue this? And No. 2, do you feel in this year's fiscal 
request that you have the resources to do this?
    This budget was submitted before we passed healthcare 
reform. But if we are going to show the taxpayer we are really 
serious about helping pay the bill by making sure that we get 
value for our dollar, value medicine, and also making sure we 
come after those who engage in fraud in Medicaid and in 
Medicare, could you share that with us? And that will be my 
last question on this.
    Mr. Mueller. We have received additional resources this 
year. I can tell you that in the future, we will be asking for 
substantial additional resources, and not just for us, but also 
with HHS, because much of the record keeping is in that domain. 
In order to get ahead of the curve, identifying the schemes 
could be done at the point of contact or the point of 
reimbursement, as opposed to waiting for the field work when 
they become endemic in a particular community.
    We currently have seven task forces spread around the 
country, and we are in cities where we have identified the 
greatest threat. We will continue to do these intelligence 
reports as to where the threats are and come back for 
additional resources to address those threats once we identify 
particular pockets in the United States where it is most 
prevalent.
    Senator Mikulski. Well, I am going to back you 100 percent 
on this because I want to say promises made, promises kept. We 
are really going to go after that fraud and abuse.
    Senator Shelby?

                            INNOCENT IMAGES

    Senator Shelby. Thank you, Senator Mikulski.
    I want to follow up in the area where she has been going. 
Mr. Director, in July 2007, you testified before the House 
Judiciary Committee that, and I will quote you, ``Child 
exploitation is a substantial priority for the FBI,'' and I 
know it is. When asked why the FBI was not doing more then, you 
said, to the extent that I can obtain additional resources to 
address child pornography, you would be willing to do so, in 
other words.
    Since that time, Congress has increased annual funding for 
the FBI's Innocent Images program from $10 million to $52 
million. That is an increase of over 500 percent--perhaps not 
enough, I know. Has the FBI increased the number of child 
exploitation cases referred for prosecution here, and about how 
many? And if you don't know offhand--oh, I think you do 
offhand. You have got great staff here.
    Mr. Mueller. I can tell you in 2006, we had 918 arrests, in 
2007, 1,114 and in 2008, 1,110. They were about the same in 
2007 and 2008, and I would have to get you 2009. They have 
increased, but I hope that they would increase even more.
    [The information follows:]

    In fiscal year 2009, there were 1,062 arrests.

    I will tell you, though, that I am not certain that the 
arrests in the United States totally reflect the work that has 
been done. Many who are involved in this activity can see the 
kind of attention it gets in the United States and often go 
offshore. The customers will be in the United States, but the 
focal point, the servers, the information will be in computers 
and servers in countries that have much more lax rules and much 
less developed approaches to addressing this.
    One of the benefits that we have had from the Innocent 
Images project as we have grown it is the international 
capability. So, you will have the encrypted servers in the 
Netherlands or Romania or someplace else and will begin the 
investigation here. They will be investigated here, but the 
arrests will be made overseas. And so, it is a worldwide 
phenomenon. Borders are meaningless.
    When you look at the metrics for the success of the 
program, we have to look at not just what is happening in the 
United States--we are pretty darned good at it--but what is 
happening internationally. And we are becoming even better at 
it internationally.
    Senator Shelby. But it is a sordid problem, is it not? And 
it is billions of dollars involved worldwide, is it not?
    Mr. Mueller. It is, indeed.
    Senator Shelby. We know you are committed to fighting that. 
And some of the people in the local and State law enforcement, 
they petition us at times and say the Bureau is not doing 
enough, are you not involved. But I believe you are involved. 
It is just a heck of a problem to get your hands around, isn't 
it?
    Mr. Mueller. It is. And there is not an FBI agent, analyst 
or support staffer in the United States who doesn't, when you 
can identify and free a victim who has been abused and it goes 
on the Internet. There is nothing more rewarding than freeing a 
victim from this kind of activity.
    Senator Shelby. But a lot of that child pornography is paid 
for through the credit card system, is it not?
    Mr. Mueller. It is.
    Senator Shelby. We have had hearings on that in the Banking 
Committee, and are working with the FBI and the Justice 
Department on that. And a lot of it can be traced to 
international crime syndicates, can it not?
    Mr. Mueller. It can. Much of the credit card usage is 
traced. Being on Banking, you know, groups like this are always 
looking for the next financial capability which minimizes any 
records. And consequently, these groups, such as organized 
criminal groups and terrorist groups, are always looking for 
the next card that will leave no trail whatsoever.
    And they have been valuable tools in identifying the 
networks, and hopefully, they will continue to be valuable 
tools to identifying the networks to the extent that they leave 
some sort of trail that we can follow.
    Senator Shelby. Thank you.
    Thank you, Madam Chairman.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Mikulski. If there are no further questions, 
Senators may submit additional questions for the subcommittee's 
official hearing record. We request the FBI's response in 30 
days.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

           Questions Submitted by Senator Barbara A. Mikulski

                        CYBERSECURITY INITIATIVE

    Question. The FBI requested $182 million for the Cyber Initiative 
in fiscal year 2011. The FBI has unique authorities to collect domestic 
intelligence and investigate foreign intrusions to government and 
private networks.
    Cyber intrusions are increasing, and threaten the U.S. economy and 
security. Foreign firms are hacking into U.S. corporate networks, 
stealing trade secrets and reducing U.S. competitiveness.
    Terrorist groups and foreign nations building cyber intrusion 
abilities could shut down power grids and financial systems, and steal 
U.S. counterterrorism information, like IED jammer technology.
    Could you describe the FBI's unique role in the protecting 
cyberspace, and what can you do that other agencies can't?
    Answer. The FBI has a unique role in protecting cyberspace, as the 
FBI is the only agency within the U.S. law enforcement and Intelligence 
Community (IC) that has primary domestic law enforcement, counter-
terrorism, and counter-intelligence authorities over all domestic 
investigative aspects of computer intrusion cases. Cyberspace 
transcends national borders, and the threat actors that operate through 
cyberspace utilize computers and networks, both domestically and 
abroad, to achieve their goals. While many threat actors may physically 
reside in another country, rarely do they reach out directly to their 
target. Instead, threat actors frequently ``hop'' from one computer to 
the next to cover their tracks, include passing through both foreign 
and domestic networks.
    The FBI's ability to work with domestic victims of cybercrime and 
cyber espionage, and ferret out U.S.-based criminal and espionage 
operations has enabled U.S. Government and private sector targets alike 
to thwart attacks and help determine attribution. The FBI augments the 
rest of the USIC by providing this domestic role under a mature set of 
Constitutional, statutory, and executive branch authorities, 
established investigatory guidelines, and tightly interwoven judicial 
and congressional oversight, which helps protect the privacy and civil 
liberties of U.S. citizens. Similarly, through the federated efforts of 
the FBI's 56 Field Offices, the FBI can quickly target and collect 
information domestically and provide quick notification to potential 
victims of cyber crime, espionage, or attack.
    The FBI also provides community leadership in the form of the 
National Cyber Investigative Joint Task Force (NCIJTF) which, by 
mandate of the President, is led by the FBI as the multi-agency 
national focal point for coordinating, integrating, and sharing 
pertinent information related to cyber threat investigations. This 
shared information is then used to determine the identity, location, 
intent, motivation, capabilities, alliances, funding, and methodologies 
of cyber threat groups and individuals--all of which is necessary to 
support the U.S. Government's full range of options across all elements 
of national power.
    Question. How do we make sure that agencies communicate, coordinate 
and cooperate?
    Answer. The FBI-led National Cyber Investigative Joint Task Force 
(NCIJTF) provides a collaborative work environment that promotes 
communication, coordination, and cooperation amongst member agencies. 
In fact, the NCIJTF recently received an award from the Office of the 
Director of National Intelligence for its successful role in 
interagency collaboration.
    Question. How will you attract tech-savvy analysts and agents when 
they could make more money in the private sector?
    Answer. Fundamentally, the FBI's ability to attract individuals who 
can make more money in the private sector relies on employee 
patriotism, the FBI's proud history, and the FBI's continuing ability 
to provide its workforce with meaningful, cutting edge opportunities to 
protect the country. The FBI Cyber Division and Directorate of 
Intelligence work in conjunction with the Human Resources Division to 
recruit tech-savvy analysts and agents.
    Question. How will you keep pace with the advanced technology used 
by our adversaries?
    Answer. The FBI Cyber Division has a Cyber Education and 
Development Unit which provides continuing specialized high-tech 
training to agents and analysts to keep pace with adversary cyber 
capabilities. The FBI Science and Technology Branch seeks to enable the 
FBI's continuing ability to collect, forensically recover, and 
manipulate information lawfully acquired in cyber cases. Still, 
numerous challenges remain. The FBI implemented a ``Going Dark'' 
program in response to the need to maintain lawful electronic 
surveillance, intelligence collection, and evidence gathering 
capabilities which, if eroded, will severely impact the FBI's ability 
to keep pace with our adversaries.
    Question. Is the FBI's budget request for the cyber initiative 
adequate to meet your responsibilities?
    Answer. The terrorist, nation-state, and criminal cyber threat, 
which takes advantage of systemic vulnerabilities in our increasingly 
networked, computer driven environment, continues to outpace the 
ability of the FBI and its government and private sector partners to 
drive it down or even keep it in check. Budget increases, however, have 
helped the law enforcement and the intelligence community better 
monitor and report on the threat, and have increased tactical successes 
to include the prevention of specific acts of network and data 
compromise.
    Question. How will you expand you capabilities in future years?
    Answer. The FBI expects future capabilities to focus on improved 
capacity, agility and efficiency, particularly with regards to analysis 
and collection; enhanced community situational awareness; and expanded 
collaboration with critical infrastructure owners and operators.

                     CHRISTMAS DAY BOMBING ATTEMPT

    Question. In the aftermath of Christmas Day attempted bombing, the 
FBI was criticized for its handling of terrorist suspect Umar Farouk 
Abdulmutallab (Ab-dool-mu-tall-ab), who was immediately interrogated by 
local FBI agents, rather than specialized terrorist investigators.
    Abdulmutallab was given a Miranda warning 10 hours after arrival, 
rather than being placed in military custody.
    What is the success rate when terrorist suspects comply with the 
FBI in terms of valuable intelligence gathered and for convictions in 
Federal courts?
    Answer. The FBI has a long history of successfully collecting 
valuable intelligence from the interrogation of detained terrorism 
subjects. Through interviews of individuals held in Federal criminal 
custody in the United States, as well as detainees held in U.S. 
military or foreign service custody abroad, the FBI has collected 
information that has led to the disruption of terrorist plots and has 
saved American lives. The FBI's rapport building techniques, as well as 
the legal incentives built into the Federal criminal process, routinely 
convince terrorist subjects to cooperate and provide voluntary 
statements during interviews. The results of these interviews are 
rapidly disseminated to the United States Intelligence Community (USIC) 
through the publication of Intelligence Information Reports (IIRs) and 
other intelligence products. Terrorist subjects who cooperate with the 
FBI contribute greatly to the USIC's understanding of terrorist 
networks by exposing operational activity, identifying leadership 
structures and associates, describing training methods, locating 
facilities and exposing facilitation networks.
    Question. What value do FBI interrogations provide that outside 
terrorist interrogation unit does not?
    Answer. The FBI cannot speak for other terrorist interrogation 
units and can only stress that the FBI has had a long history of 
successfully collecting valuable intelligence, leading to the 
disruption of terrorist plots and successful prosecutions of 
terrorists.
    Question. Can you describe for us Mr. Abdulmutallab's cooperation 
pre-Miranda warning? What was his cooperation post-Miranda warning and 
is he cooperating now?
    Answer. Although during his initial pre-Miranda interview, Umar 
Farouk Abdulmutallab deliberately provided misleading information to 
investigators, he did admit to facts and readily apparent details about 
the attack, including his desire to detonate the bomb over the United 
States. The details of the story he told were fabricated and contained 
misleading information lacking intelligence and investigative value.
    Initially, post-Miranda, Umar Farouk Abdulmutallab indicated he did 
not want to answer any additional questions regarding his bombing 
attempt. Subsequent to his indictment on January 6, 2010, FBI Detroit 
was able to gain his cooperation with law enforcement. In late January, 
Abdulmutallab agreed to begin participating in a series of proffer 
sessions in exchange for the possibility of a future plea agreement. He 
remains available for interviews as needed.
    Question. Under what circumstances could Mr. Abdulmutallab have 
been turned over to the military to be held as an enemy combatant? Who 
would need to provide you that guidance--the President, the Attorney 
General?
    Answer. Pursuant to Homeland Security Presidential Directive-5, the 
Attorney General has lead responsibility for any terrorism act 
committed within the United States. Consistent with that 
responsibility, the FBI will respond to the scene of any such attempted 
terrorist attack and will conduct an appropriate investigation in 
compliance with the Attorney General's Guidelines for Domestic FBI 
Operations. The FBI has no legal authority to proceed against a 
terrorism suspect who is arrested within the United States in any venue 
other than an Article III court.
    There have been only two instances since 2001 in which civilians 
arrested within the United States were placed in military custody for 
some period of time. In both instances, the individuals were initially 
taken into custody and detained by Federal law enforcement officials. 
The transfers from law enforcement to military custody occurred by 
order of the Commander in Chief, and the civilians were later returned 
to Article III courts for disposition of their cases.
    Question. Why was Mr. Abdulmutallab not on the No-Fly List?
    Answer. The Terrorist Screening Center (TSC) did not receive a 
nomination to watchlist Umar Farouk Abdulmutallab prior to December 25, 
2009, and, as a result, he was not watchlisted in the Terrorist 
Screening Database (TSDB). The inclusion of an individual on the No Fly 
list (which is a subset of the TSDB) requires both sufficient 
biographical information and sufficient derogatory information, so the 
possession of only one of these would have been insufficient for 
inclusion on the No Fly list. It is the FBI's understanding that 
information provided by the State Department contained sufficient 
biographic information but lacked sufficient derogatory information to 
place Abdulmutallab on the watchlist. We also understand that 
additional fragmentary information that included sufficient derogatory 
information but lacked sufficient biographic information was available 
from another agency, but that information was not linked to 
Abdulmutallab until after the attempted Christmas day attack.
    Following the attempted terrorist attack on December 25, 2009, the 
President initiated a review and as a result, TSC was given two 
instructions.
  --Conduct a thorough review of the TSDB and ascertain the current 
        visa status of all known and suspected terrorists, beginning 
        with the No Fly list. That process has now been completed.
  --Develop recommendations on whether adjustments are needed to the 
        watchlisting Nominations Guidance, including biographic and 
        derogatory criteria for inclusion in Terrorist Identities 
        Datamart Environment (TIDE) and TSDB, as well as the No Fly and 
        Selectee lists. The Nominations Guidance refers to the Protocol 
        Regarding Terrorist Nominations that the TSC issued to the 
        watchlisting and screening community in February 2009, and its 
        appendices issued at various dates (collectively, ``2009 
        Protocol''). The Presidentially-directed review has been 
        completed and adjustments have been made to the 2009 Protocol. 
        The updated document has been renamed the ``Watchlisting 
        Guidance.''
      The Watchlisting Guidance was developed by an interagency working 
        group that included representation from the Department of 
        Justice, Department of Homeland Security, Central Intelligence 
        Agency, National Security Agency, Department of Defense, 
        Department of State, Department of Treasury, and the Office of 
        the Director of National Intelligence. In response to the 
        President's January 7, 2010 corrective actions memo, the 
        interagency working group thoroughly reviewed the 2009 Protocol 
        and applicable appendices to develop recommendations for the 
        National Security Council/Homeland Security Council (NSC/HSC) 
        Deputies Committee's approval.
      Based on these recommendations, the NSC/HSC Deputies Committee 
        approved the entire Watchlisting Guidance for issuance to the 
        watchlisting and screening community in July 2010.

                    OVERSEAS CONTINGENCY OPERATIONS

    Question. The fiscal year 2011 request includes funding for 
Overseas Contingency Operations (OCO) totaling $38 million, which is 
$63 million less than fiscal year 2010 omnibus of $101 million.
    OCO support FBI operations in Afghanistan and Iraq, including 
international deployment, overtime and hazard pay, other 
counterterrorism requirements. Administration says DOD is pulling out 
of Iraq. But FBI is ramping up operations in Iraq and Afghanistan, 
working side-by-side with our military forces. FBI's presence is 
expected to remain for years to come in both. The Bureau stills need 
sufficient resources to carry out its mission.
    What will the $38 million requested for OCO be used for?
    Answer. Current plans for the $38 million requested for fiscal year 
2011 Overseas Contingency Operations funding include support for 
technical collection efforts focused on terrorist targets, equipment 
and supplies for deployed personnel, language support, investigative 
operational costs, and funding for the Afghanistan mission.
    Question. What is the reason for the $63 million reduction for 
Overseas Contingency Operations support for FBI activities?
  --What strain will this reduction place on FBI personnel stationed 
        overseas?
  --Can you tell us what you would not be able to do if this funding 
        was cut?
  --Will this reduced funding level put FBI personnel in danger?
  --Would the loss of this funding make it more difficult for the 
        Bureau to work internationally to combat and prevent terrorism?
    Answer. The President must make many tough decisions as he prepares 
the annual budget request. The Overseas Contingency Operations (OCO) 
resources provided for in the President's fiscal year 2011 budget 
request will allow the FBI to continue to support its presence in Iraq 
and Afghanistan. The $38 million requested for fiscal year 2011 OCO 
funding will provide support for technical collection efforts focused 
on terrorist targets, equipment and supplies for deployed personnel, 
language support, and investigative operational costs.
    Question. How long will there be an FBI presence in Afghanistan and 
Iraq?
    Answer. Currently, the FBI plans to maintain its presence in 
Afghanistan and Iraq and keep open its Legal Attache offices in those 
countries.

                          RENDER SAFE MISSION

    Question. The FBI is now responsible for the Render Safe mission, 
which involves dismantling a radiological device on U.S. soil.
    The fiscal year 2011 budget request includes $91 million for the 
FBI's ``Render Safe''. This provides $35 million for a multi-year 
purchase of two new specially-configured aircraft to carry out the 
Render Safe mission. The FBI currently uses one leased plane to carry 
out its mission. The lease that will end in fiscal year 2013.
    Why does the FBI need two new planes when it currently conducts its 
mission with one?
    Answer. Please note that classified details are required for a 
complete understanding of these Render Safe responses. Further 
information may be provided under classified cover.
    Due to a National Security Council (NSC) imposed cost ceiling 
during the initial response development, the current lease provides a 
primary aircraft with secure and redundant communications systems and a 
backup aircraft to cover and support unexpected primary aircraft 
mechanical failure and maintenance down time. However, the current back 
up aircraft does not have the necessary communications systems to 
support the transmission and receipt of time critical data or the 
ability to communicate directly with on-site responders, FBI 
Headquarters Assets, and national leadership; facilitating the 
development of a Render Safe solution. As a result of the lack of 
communications on the backup aircraft, the U.S. Government assumes 
operational risk during maintenance down time (approximately 45 days 
per year). Outfitting both aircraft with the specialized communications 
is a critical mission component providing positive command and control 
from the responding Render Safe assets to the national leadership and 
the Department of Energy (DOE) National Laboratories. This link allows 
mandatory mission decisions to be relayed from the President and/or 
Attorney General to the response force. The in-flight communications 
also link the response force to the DOE National Laboratory, allowing 
the radiography to be simultaneously analyzed by the scientists and 
bomb technicians while en route to the incident site; thus, reducing 
the time required to assess the device once at the incident site. 
Without this capability, the response time from deployment of Render 
Safe assets to disarmament is increased, thus increasing the risk of 
mission failure.
    Based on a 15-year mission life, acquisition of new response 
aircraft is approximately $225,000 less expensive than extending the 
existing aircraft lease, if leasing were an option. Purchasing the two 
aircraft:
  --Complies with the U.S. Government capital leasing regulations and 
        OMB Circular A-11 stipulations.
  --Saves approximately $225,000 over a 15 year period versus current 
        lease of the same duration, if leasing were an option. Saves 
        approximately $94 million over a 15 year period versus a two-
        aircraft lease of the same duration.
  --Increases the FBI's ability to respond to multiple incidents; thus, 
        in times of emergency the overall USG Emergency Render Safe 
        response is increased by 100 percent.
  --Increases the range of the response aircraft by approximately 25 
        percent.
  --The new aircraft will include a modular design for the 
        communications and antennae array. The new communications and 
        antennae configuration will require a less intrusive (hull 
        penetration) process to upgrade technologies as they change; 
        thus creating a cost savings for labor.
    Question. What is the cost of the current lease and how often has 
the current plane been used?
    Answer. Please note that classified details are required for a 
complete understanding of these Render Safe responses. Further 
information may be provided under classified cover. The annual lease 
cost for the Render Safe mission aircraft is $14.48 million. As noted 
in the previous response, the identified aircraft lease cost does not 
include the secure and redundant voice and data services and 
infrastructure used to establish the communications architecture.
    Due to the deployment criteria agreed to by the National Security 
Councils Principals Committee, the Render Safe alert aircraft and 
responders maintain a stringent response requirement that renders the 
aircraft unavailable for other FBI mission taskings. Over the past year 
the alert aircraft has flown to support the following:
  --Execution of four no-notice deployment exercises.
  --Execution of four full scale, interagency field exercises, used to 
        test Render Safe operational plans, and provide all echelons of 
        the national response the experience to successfully face this 
        threat.
  --Weekly communications exercises with the interagency response 
        assets and command centers.
  --Re-location of the Render Safe alert response due to inclement 
        weather at the alert staging location.
    Question. What are the final overall costs for these new planes, 
including the special equipment and dedicated personnel?
    Answer. Acquiring two, specially-configured, refurbished aircraft 
will cost approximately $74.3 million and will require $14.1 million in 
annual Operations and Maintenance (O&M) to provide for the crew and 
ground support personnel.
    The aircraft can be purchased and refurbished within 1 year for 
$35.8 million and would require the recurral of the fiscal year 2011 
requested funding, plus an additional $2.7 million in the second year 
for specialized aircraft outfitting and mission preparation.
    Based upon the proposed schedule, one of the two aircraft will be 
operationally available by the middle of the second year, and the 
second aircraft will be operationally available by the end of the 
second year, thus both will require O&M funding in the second year.
    Question. Why is it important that you purchase these planes rather 
than renew the current lease?
    Answer. The FBI conducted a Lease-Versus-Buy analysis in accordance 
with regulations established in the OMB A-11 circular, which determined 
that the requirement for the FBI to develop and maintain this 
capability prohibited the long-term continuation of the current 
aircraft lease.
    The analysis also revealed that lease values quickly exceeded 90 
percent of the market value of the aircraft and that the FBI would 
experience a payback within approximately 5 to 6 years when aircraft 
are purchased rather than leased. With a 10-year minimum capability 
requirement, the lease term exceeds 75 percent of the estimated 
economic lifetime of the asset, which is at least 25 years. 
Additionally, the present value of the minimum lease payments over the 
life of the lease, which would be a minimum of 10 years, exceeds 90 
percent of the fair market value of the asset at the inception of the 
lease. As a consequence, the FBI cannot lease aircraft to meet the 
mission requirements.
    OMB A-11 circular rules include the following:
  --Ownership of the asset remains with the lessor during the term of 
        the lease and is not transferred to the Government at or 
        shortly after the end of the lease period.
  --The lease does not contain a bargain-price purchase option.
  --The lease term does not exceed 75 percent of the estimated economic 
        lifetime of the asset.
  --The present value of the minimum lease payments over the life of 
        the lease does not exceed 90 percent of the fair market value 
        of the asset at the inception of the lease.
  --The asset is a general purpose asset rather than being for a 
        special purpose of the Government and is not built to unique 
        specification for the Government as lessee.
  --There is a private-sector market for the asset.
    The chart below demonstrates the breakout of the Fair Market Value 
and the allowable lease years:

                   ANALYSIS OF CURRENT AIRCRAFT LEASE
------------------------------------------------------------------------
 
------------------------------------------------------------------------
Fair Market Value.........................  $90.0 million
90 percent FMV............................  $81.0 million
Annual Lease Costs........................  $14.8 million
Years Lease Allowed \1\...................  6.8
Start/End Date............................  FY2007/FY2013
------------------------------------------------------------------------
\1\ Present Value of Lease Payments  90 percent FMV.

    Question. How would you carry out your Render Safe mission without 
these aircraft?
    Answer. Please note that classified details are required for a 
complete understanding of these Render Safe responses. Further 
information may be provided under classified cover.
    During mission transition coordination, the Department of Defense 
(DOD) stipulated that they were unable to support the FBI with 
dedicated airlift and could only support the Render Safe mission with 
``in-system select'' aircraft. The aircraft support would have an 
estimated 6-12 hour arrival time from notification. This would not meet 
the mission response requirement mandated by national leadership.
    Discounting the current leased Render Safe aircraft, the FBI does 
not have any aircraft that satisfy the Render Safe mission operational 
requirements. Without the procurement of the requested aircraft, the 
FBI will be unable meet the directed domestic emergency Render Safe 
response time and would seek relief of the mission through the 
executive branch. This would require DOD to reassume the primary 
response and reduce the U.S. Government's emergency Render Safe 
response capability. The FBI would continue to maintain the primary 
response to incidents requiring Render Safe operations within the 
National Capital Region on the current response timeline.

                              FBI ACADEMY

    Question. Increased training and lodging levels at the FBI Academy 
have strained the facility infrastructure. It is operating at full 
capacity, and of the Academy's three dorms, two date back to 1972 and 
one dates back to 1988 and are not up to industry standards. In fiscal 
year 2010, Congress provided $10 million for an FBI Academy 
Architecture and Engineering study.
    The fiscal year 2011 request includes $74 million to expand 
facilities at the FBI Academy in Quantico, Virginia, which includes:
  --$67.6 million to expand training facilities and build new dorm.
  --$6.3 million to renovate existing dorms.
    What are the specific infrastructure challenges at the FBI Academy?
    Answer. The primary challenge is the aging infrastructure and the 
capacity of the infrastructure support systems, such as electrical, 
heating ventilation and air conditioning (HVAC), sewer, and water. Some 
of the oldest infrastructure components (firing ranges) were installed 
in the 1950s. The main ``Academy'' complex was constructed in 1972, and 
its infrastructure has gone 38 years without any appreciable upgrades 
or expansion. The Academy's core infrastructure was originally designed 
to support approximately 500,000 square feet of space, but the FBI's 
Quantico complex now consists of more than 2,100,000 square feet. Due 
to the age of the facilities, scheduled and unplanned repairs regularly 
eliminate 8 percent of bed and classroom space. The $6.3 million 
requested in the fiscal year 2011 President's budget for the renovation 
of existing dormitories would help address this infrastructure 
challenge at the Academy.
    The second infrastructure challenge at the FBI Academy concerns the 
classroom and dormitory capacity of the facility given increasing 
demands on the organization. With the extensive growth of the FBI's 
mission and workforce since 9/11, the Academy has been forced to use 
temporary classroom structures at Quantico and lease private sector 
space, with students being housed in local area hotels. These stop-gap 
arrangements are an inefficient use of student time on campus, and 
negatively impact the quality of education and training that FBI 
students receive. Additionally, these stop-gap arrangements consume 
significant annual resources that would be better directed to 
maintaining and expanding Academy facilities. The $67.6 million 
requested in the fiscal year 2011 Request to Congress for the 
construction of a new dormitory and training facility would help 
address this infrastructure challenge at the Academy.
    Question. How will your training requirements for the Academy 
continue to expand?
    Answer. In addition to the increased number of students requiring 
specialized training at the Academy, the length of the programs for new 
agents and intelligence analysts (IAs) has also been extended. Existing 
curriculums were restructured to focus on areas such as foreign 
counterintelligence, cyber threats, and counterterrorism, among others. 
Additional courses devoted to legal requirements, analytical and 
technological tools and tradecraft have also been added. Joint training 
between new agents and IAs has also been expanded. This has 
significantly increased the total training weeks per year--by more than 
90 percent since 1995--creating scheduling conflicts amongst the 
competing student groups at the Academy. There are also new 
requirements for specialized training; for example, with increased 
emphasis on Human Sources, additional interview rooms are required for 
practical exercises.
    From 2005 to 2008, there has been a 201 percent increase in the 
number of FBI regional training events (19,851 to 39,894). The FBI 
would be better served by hosting more of these regional training 
events at the FBI Academy campus given the fact that courses require 
access to FBI classified networks and space, which are generally 
unavailable in non-FBI facilities.
    Question. When do you expect the results of the FBI Academy 
Architecture and Engineering study?
    Answer. The FBI's Acquisition Review Board met on June 24, 2010, 
and approved a Design-Build acquisition package with the Naval 
Facilities Engineering Command (NAVFAC). A purchase order was provided 
to NAVFAC on July 29, 2010, to initiate the beginning of the design 
work. The estimated completion date for the preliminary (15 percent) 
design work is July 2011. The scope of that effort includes 
architecture and engineering design services for:
  --Site survey, campus-wide utility survey and analysis, topography 
        survey, geotechnical survey and environmental assessment.
  --Programming, site analysis and planning and conceptual design 
        options.
  --Detailed construction cost estimates and schedules.
    Question. What are the top three improvements you want to see at 
the Academy?
    Answer. Upgrade and expansion of the entire Academy exterior 
infrastructure systems, to include electrical, HVAC, sewer, water, 
data, IT, telephone, and security to bring outdated facilities up to 
code and industry standards.
    Complete renovation including interior and infrastructure upgrades 
for FBI Academy dormitories, upgrading critical life, health, and 
safety infrastructure to meet current industry standards and codes.
    Complete renovation and interior infrastructure upgrades for all 
original Academy classroom buildings, to include upgrading critical 
life, health, and safety infrastructure and modernizing classroom 
spaces to better utilize current technology and instruction practices 
and expand capacity.

                             LEGAT OFFICES

    Question. The FBI is now a global intelligence and law enforcement 
agency. The Legat offices (which stand for ``Legal Attache'') are the 
FBI's front line operations overseas. The FBI operates in over 60 
countries around the world.
    Do you plan to expand the Legat offices?
    Answer. The International Operations Division's Executive 
Management (IOD EM) periodically evaluates the distribution of our 
Legat offices in order to ensure that the FBI is best prepared to meet 
the current and emerging global threats. IOD EM has developed and 
utilized numerous tools, as well as received input from Legat and 
Headquarters personnel to better understand the gaps in our current 
infrastructure, to address emerging threats and increasing workload 
demands. As a result of this process, the FBI requested the opening of 
a new Legat office in Addis Ababa, Ethiopia and the expansion of the 
Legat Islamabad, Pakistan in the fiscal year 2011 budget. IOD is 
currently in the process of refining its 5 year expansion plan, which 
will be the basis for requesting future expansions of the Legat 
Program.
    Question. How important are these offices to fighting the global 
war on terror?
    Answer. The FBI's international presence is critical to the FBI's 
mission to protect the United States against terrorist attacks. The 
Legal Attache (Legat) Program integrates the FBI's efforts with 
international counterparts and serves as a force multiplier. The Legat 
Program leverages the expertise and information from international law 
enforcement and intelligence counterparts to coordinate global efforts 
to defeat terrorism. Effective coordination and information sharing 
requires the FBI to develop working-level partnerships and 
relationships built on trust, mutual respect, and two-way information 
sharing. This cannot be accomplished without a permanent international 
presence. As such, every agent and analyst involved in the Legal 
Attache Program exponentially increases the overall capabilities of the 
FBI's domestic workforce and provides the most effective means possible 
to combat international terrorism and criminal threats.
    Question. Do the Legat offices have the equipment (IT, 
telecommunications) they need?
    Answer. The FBI equips Legats with the same tools and technology 
available to the domestic field offices. As part of the several ongoing 
information technology initiatives, the FBI recently doubled the 
bandwidth of all the Legat offices in Fall 2009 so that Legat personnel 
could access critical intelligence databases. The Legat Program is also 
in the process of constructing Sensitive Compartmented Information 
Facilities (SCIFs) in a majority of offices, which will enable the 
deployment of higher-level classified computer systems to all Legats. 
Information technology systems at the higher-level classification level 
are required for communications with other U.S. Intelligence Community 
partners and to exploit any information obtained to identify possible 
U.S.-based connections.
    Question. How satisfied are you with the level of interagency 
cooperation in the Embassy's where the Legats operate?
    Answer. The Legats have made great strides over the years to 
enhance interagency cooperation in the Embassies. Overall, we are very 
satisfied with the level of cooperation that currently exists and 
continue to strive to enhance and maintain key relationships in the 
Embassies. These in-country relationships are critical to ensure 
sharing of information and coordination of operations related to the 
FBI's mission.

                   MORTGAGE FRAUD--PREDATORY LENDING

    Question. The collapse of the subprime mortgage market has brought 
about an explosion of mortgage fraud cases all across the United 
States. Predatory lenders destroy families and communities, and 
undermine faith in financial systems. The FBI's mortgage fraud workload 
is sure to increase as more predatory lenders are exposed.
    Last year, this subcommittee gave you $75 million to hire 50 new 
agents and 60 forensic accountants dedicated to investigating mortgage 
fraud, bringing the total number working on this problem to over 300 
agents. We need to continue this surge in mortgage fraud 
investigations.
    How many more agents, forensic accountants and analysts will you 
need to address the mortgage fraud workload?
    Answer. Congressional support in prior fiscal years has greatly 
enhanced the FBI's capability to address mortgage fraud; however, both 
the scope and available resources to address the criminal threat 
continues to require the FBI to prioritize investigations. The mortgage 
fraud workload of the FBI is escalating, and in fiscal year 2010, over 
68 percent of the FBI's 3,045 mortgage fraud cases involved losses 
exceeding $1 million per case. Moreover, the FBI anticipates it will 
receive over 75,000 Suspicious Activity Reports (SAR) in fiscal year 
2010, an increase of over 241 percent since 2005. FBI intelligence, 
industry sources such as the Mortgage Asset Research Institute (MARI), 
and recent reports by the Special Inspector General of the Troubled 
Asset Relief Program (SIGTARP) predict an increase in foreclosures, 
financial institution failures, regulatory agency/independent auditor 
fraud referrals, and governmental housing relief fraud. These risk 
based indicators of mortgage fraud indicate that even prioritized 
investigations will persist or grow in fiscal year 2011 and beyond. 
Therefore, the nature of the criminal problem, the prolonged economic 
downturn, increased foreclosures, and continued profitability of 
mortgage fraud combine to create a prognosis of increased mortgage 
fraud workload, which will require a significant increase in FBI 
resources to address the threat.
    The FBI has approximately 358 special agents, 26 intelligence 
analysts and 39 forensic accountants/financial analysts devoted to 
investigating mortgage fraud matters in fiscal year 2010. While the FBI 
has made every effort to implement new and innovative methods to detect 
and combat mortgage fraud, even if the FBI focuses on the most 
egregious cases, only a portion of cases referred can be addressed with 
the current level of available resources. Using the FBI's current 
resource level, from August 1, 2008 through September 30, 2009, the FBI 
helped obtain 494 mortgage fraud convictions. On 06/18/2010, Operation 
Stolen Dreams was concluded and, with the assistance of 7 participating 
Federal agencies, has thus far resulted in 650 indictments and 391 
convictions.
    Question. Will you be able to add agents to conduct these 
investigations, even as you lose criminal agents to counterterrorism 
work?
    Answer. While it is accurate that the FBI moved criminal 
investigative resources to counterterrorism in the months and years 
immediately following September 11, 2001, more recently the FBI has 
reallocated resources from lower priority white collar criminal 
programs to address the growing mortgage fraud problem. The FBI has 
more than 358 special agents addressing mortgage fraud, and many of 
those resources have come from other lower priority white collar crime 
investigations. For example, since fiscal year 2007, the FBI doubled 
the number of mortgage fraud investigators, leaving only 106 special 
agents available to investigate the approximately 1,900 remaining 
financial institution fraud investigations. As previously mentioned, 
congressional support for mortgage fraud in prior fiscal years has 
greatly enhanced the FBI's capability; however, both the scope and 
available resources to address the criminal threat continues to require 
a prioritization of investigations.
    Question. What new training will you need to give agents and 
analysts to investigate predatory lenders?
    Answer. Predatory lending occurs primarily during the loan 
origination process and the FBI is continuing to investigate loan 
origination fraud. Therefore, the FBI will continue to educate 
analysts, investigators, and accountants on ways to identify and 
investigate schemes where industry insiders target vulnerable 
populations, and how to address this and other loan origination 
schemes. Successfully addressing the problem will require understanding 
the ways to identify where origination fraud has occurred, what factors 
leave a community vulnerable, and which techniques can be best employed 
to mitigate the threat.
    In addition to new training that will be developed, the FBI 
continues to provide regular training to new and experienced agents and 
regularly shares information on best practices, emerging trends, and 
successful sophisticated techniques with its law enforcement partners. 
For example, the Mortgage Fraud training courses focus on proactive 
intelligence, basic mortgage fraud investigative tools and resources, 
and enforcement measures that can be used to efficiently and 
effectively combat mortgage fraud. The training also provides an 
understanding of the mortgage lending process, including the entities, 
paperwork, and regulatory agencies involved. These training classes 
include industry and law enforcement experts, such as the Housing and 
Urban Development--Office of the Inspector General and the Federal 
Deposit Insurance Corporation, to educate agents, analysts, and 
forensic accountants on the various types of mortgage fraud schemes, 
including predatory lenders.
    Question. How can you do more to help State and local officials 
investigate predatory lenders?
    Answer. As mentioned previously, addressing loan origination fraud 
where a vulnerable population is exploited by industry insiders is 
largely a matter of identifying and understanding who is vulnerable, 
how they are targeted, and the best means of mitigating that 
vulnerability. The FBI uses its 23 task forces and 67 mortgage fraud 
working groups not only to pool resources to investigate the crime 
problem, but also to share valuable intelligence. By expanding these 
partnerships and building on our current successes, the FBI can 
continue to work with State and local officials to address this crime 
problem.

                           HEALTH CARE FRAUD

    Question. Now that the historic healthcare reform legislation is 
law, we must do more to combat healthcare and insurance fraud that cost 
U.S. citizens more than $60 billion annually. We need to make sure law 
enforcement has the resources it needs to investigate these crimes and 
prosecute the scammers.
    What role is the FBI already playing in healthcare fraud 
investigations and prosecutions?
    Answer. The FBI investigates fraud committed against government 
sponsored programs and private insurance programs. The vast majority of 
FBI investigative resources within healthcare are devoted to the 
identification and prosecution of subjects involved in defrauding 
Medicare, Medicaid, and private insurers.
    The FBI also investigates healthcare industry qui tam matters that 
involve civil actions undertaken by the United States against companies 
that defraud healthcare systems or engage in activity that is 
potentially harmful to the public. These investigations involve the 
dedication of significant investigative resources, and often result in 
significant monetary judgments.
    In addition to these types of fraud, the FBI investigates threats 
to public safety in the pharmaceutical supply chain, including Internet 
pharmacy matters and related drug diversion activity. These 
investigations are often worked closely with the Drug Enforcement 
Administration, the Food and Drug Administration, Immigration and 
Customs Enforcement, and other law enforcement agencies. Additionally, 
the FBI proactively works with Health and Human Services--Office 
Inspector General (HHS-OIG), State Medicaid Fraud Control Units, and 
private insurers in the healthcare industry in an effort to curb Health 
Care Fraud (HCF).
    The FBI has approximately 400 special agents and 300 professional 
support personnel devoted to investigating HCF matters. These 
investigative resources are allocated to FBI field offices based on 
threat indicators in the field office's area of responsibility.
    In the 24 month period between 10/01/2007 through 09/30/2009, the 
FBI indicted 1,745 subjects in HCF investigations, and helped obtain 
1,332 convictions. More significantly, FBI HCF investigations resulted 
in approximately $3.7 billion in court-ordered criminal forfeiture and 
restitution obligations, representing a substantial return on the 
investment of investigative resources. This figure does not include the 
more than $4 billion in civil recoveries obtained pursuant to qui tam 
investigations, which are worked with the Civil Division of the 
Department of Justice.
    The FBI is an active participant in the Health Care Fraud Prevent 
and Enforcement Action Team (HEAT), an interagency effort announced in 
May 2009 between the Department of Justice and the Department of Health 
and Human Services to improve coordination and enforcement of 
healthcare fraud cases. HEAT's creation and ongoing collaboration has 
allowed top-level law enforcement agents, criminal prosecutors and 
civil attorneys, and staff from DOJ and HHS to examine lessons learned 
and innovative strategies in our efforts to both prevent fraud and 
enforce current anti-fraud laws around the country. As part of HEAT, 
the FBI has agents assigned to each of the Medicare Fraud Strike Force 
teams that are now in seven different cities around the country.
    Question. With passage of the historic Patient Protection and 
Affordable Care Act, what new responsibilities does the FBI have to 
combat healthcare fraud?
    Answer. Under the Patient Protection and Affordable Care Act 
(PPAC), the FBI will have new or additional responsibilities, which 
include:
  --Increased requirements for the FBI to ensure Health Care Fraud 
        (HCF) losses, particularly to the Government sponsored programs 
        Medicare and Medicaid, are properly detected and calculated so 
        court ordered restitution and/or forfeiture calculations can be 
        recorded;
  --More vigorous enforcement of the anti-kickback statute as part of 
        the False Claims Act; and
  --More investigative/enforcement responsibilities involving 
        obstruction of Government HCF investigations that utilize 
        Health Insurance Portability and Accountability Act (HIPAA) 
        subpoenas as this act elevates HIPAA subpoenas to the same 
        level as Federal grand jury subpoenas.
    Question. What is the Medicare Fraud Strike Force and what role 
does the FBI play in it?
    Answer. The FBI is the primary investigative agency assigned to the 
DOJ Medicare Strike Force. Initiated in March 2007, the Strike Force 
became part of the overall Health Care Fraud Prevention and Enforcement 
Team (HEAT) initiative in 2009, under the oversight of the Attorney 
General and the Secretary of HHS. The Strike Force is currently active 
in 7 cities (Miami, New York, Los Angeles, Detroit, Tampa, Baton Rouge, 
and Houston), with a total of 63 investigative personnel from the FBI 
assigned to Strike Force teams. In addition, 83 FBI special agents are 
assigned to non-Strike Force HCF matters in Strike Force cities. In 
each Strike Force location, multiple teams comprised of FBI and HHS-OIG 
personnel, along with USDOJ and USAO prosecutors, are responsible for 
identifying, investigating, and prosecuting HCF directly related to 
Medicare. In each Strike Force city, the FBI has dedicated special 
agents, analysts, and professional staff to Strike Force investigative 
operations that target Medicare fraud. In addition to the personnel 
dedicated directly to the Strike Force, other non-Strike Force special 
agents and analytical personnel conduct HCF investigations outside the 
Strike Force. In total, the FBI has approximately 411 special agents 
and 301 professional support personnel assigned to HCF, of which 15 
percent are devoted directly to Strike Force matters. In terms of 
accomplishments, the FBI and HHS-OIG aggressively investigate instances 
of fraud against Medicare, with over 2,500 HCF FBI investigations 
pending during fiscal year 2010. FBI initiatives under the Strike Force 
have included infusion therapy fraud, durable medical equipment, home 
health, and other schemes that resulted in significant dollars losses 
to Medicare from fraud and abuse.
    For fiscal year 2011, Dallas and Chicago have been identified as 
new Strike Force cities. Accordingly, the FBI has increased HCF 
staffing levels in these cities to support the introduction of the 
Strike Force, with 33 special agents now assigned to those locations.
    At the Headquarters level, the FBI is a member of the HEAT 
committee and multiple subcommittees at DOJ that play a key role in 
identifying future Strike Force locations and establishing policy 
regarding deployment of resources. The FBI has established a team of 
analytical personnel at the Financial Intelligence Center (FIC) to 
evaluate Medicare data, conduct trend analysis, and identify potential 
fraud and abuse within Medicare and Medicaid. The FBI is also in the 
process of gaining direct access to CMS data. With this information and 
real-time analysis capability, the FBI will be better able to identify 
fraudulent billing and claim activity related to Medicare.
    As part of the Strike Force, the FBI has established investigative 
working relationships with numerous State programs offices and private 
insurers. These partnerships allow the FBI to monitor and investigate 
HCF that crosses both public and private programs.
    Question. Do you believe we need to commit more funding to stop 
fraud in Medicare, Medicaid and other healthcare benefits programs?
    Answer. Continued funding to combat fraud in Medicare, Medicaid, 
and other healthcare benefits is needed. The resources available to the 
FBI to combat healthcare fraud (HCF) are provided to the FBI through 
Health Insurance Portability and Accountability Act (HIPAA) and other 
healthcare specific congressional appropriations. The FBI receives the 
majority of its funding for HCF via mandatory funding provided through 
HIPAA. The passage of the Affordable Care Act provided that FBI HCF 
resources received under HIPAA would be tied to inflation, and would 
increase with inflation until fiscal year 2020.
    However, inflationary adjustment calculations for FBI HCF funding 
are tied to increases in Consumer Price Index--Urban (CPI-U) which were 
zero in 2009 and 2010. The 2011 increase is estimated to be only 1.1 
percent. This has resulted in a freeze of baseline funding for the FBI 
at fiscal year 2008, 2011 will only provide $2.5 million in additional 
funding.
    In fiscal year 2010, the FBI received $3.9 million in 2-year 
supplemental funding from the Health Care Fraud Abuse and Control 
Account (HCFAC) discretionary appropriation to hire 12 additional 
special agents and 3 investigative professional staff personnel for the 
Medicare Fraud Strike Forces. The positions were allocated in fiscal 
year 2010. The fiscal year 2011 President's budget, currently pending 
before Congress, requests additional discretionary HCFAC funding to 
provide for the annualization of these positions as well as additional 
FBI healthcare fraud positions.
    In fiscal year 2011, approximately 82 percent of all FBI HCF 
funding will be used to pay employees salaries (Comp/Benefits), with 
most of the remaining 18 percent absorbed by infrastructure costs such 
as case investigative funding, office space, equipment, supplies, and 
transfers. The FBI does not receive funding to support HCF initiatives 
in the area of drug diversion, qui tams, or staged auto accidents. As a 
result, the FBI has established investigative priorities with HCF to 
ensure the FBI remains committed to combating HCF and ensuring 
investigative resources are allocated to the highest priority 
investigative matters.

                   STOPPING INTERNET CHILD PREDATORS

    Question. Sexual predators use Internet as their new weapon of 
choice to target children. More children are online and at risk. The 
Innocent Images program, located in Calverton, Maryland, allows the FBI 
to target sexual predators on the Internet. The Innocent Images 
workload has increased dramatically, from 113 cases opened in 1996 to 
2,500 cases opened in 2007--a 2,000 percent increase. FBI's budget 
request includes $53 million for the Innocent Images program. Last 
year, Congress provided $14 million more for Innocent Images, but the 
fiscal year 2011 request is only $300,000 more.
    How are you addressing the growing threat of child predators on the 
Internet, given that the request includes no new resources to 
investigate child predators who prey on children online?
    Answer. Unfortunately, the ever-growing challenges that the 
Internet poses to law enforcement in pursuit of child predators have 
greatly increased. In response, the FBI's Innocent Images National 
Initiative Program (IINIP) strives to ensure that limited resources are 
maximized and equitably leveraged against the most egregious threat of 
child predators on the Internet. Specifically, IINIP is aggressively 
targeting producers, online sex rings, and mass distributors of child 
pornography.
    Question. Can you give us an update on your Innocent Images 
International Task force? How many international officers have been 
trained in Calverton? How many countries have joined these Task Forces?
    Answer. The Innocent Images International Task Force (IIITF) has 
evolved into a cohesive task force model, which includes partnering 
with the FBI's international offices (Legats) in order to identify, 
initiate, and further long-term enterprise investigations targeting 
online child exploitation transnational enterprises. The FBI's 
partnerships strategically formed with the IIITF member agencies have 
resulted in several joint investigations and case coordination 
meetings. The Innocent Images National Initiative Program (IINIP) has 
established a communication platform, defined protocols for 
intelligence sharing, and increased operational coordination of 
transnational online child sexual exploitation investigations with our 
IIITF members. Both our domestic and international partners, as well as 
non-government organizations, have benefited from an expansion of the 
IIITF operational capabilities and liaison relationships. As of August 
2010, 90 Task Force officers have been trained in Calverton from 42 
countries.

        STATE AND LOCAL LAW ENFORCEMENT--FIGHTING VIOLENT CRIME

    Question. The Justice Department estimates there are roughly 1 
million gang members in 30,000 gangs in all 50 States and the District 
of Columbia. With gang membership rising and violent crime continuing 
to be a problem, local law enforcement needs a strong partnership with 
Federal Government.
    Currently, there are 160 Safe Streets Violent Gang Task Forces. 
These partnerships allow FBI agents and State and local law enforcement 
to work as teams to fight street crime. However, the FBI has not had 
the resources to expand this program and requests no additional funding 
in fiscal year 2011.
    How are joint Federal-State task forces effective in helping local 
law enforcement fight violent crime?
    Answer. As part of the Safe Streets Violent Crime Initiative, the 
FBI currently operates 163 Violent Gang Safe Streets Task Forces in 56 
FBI Field Offices. These Task Forces are comprised of 746 FBI agents, 
1,548 deputized State or local law enforcement officers (Task Force 
officers), and 44 other Federal law enforcement officers (Task Force 
agents). Through July 2010, the Violent Gang Safe Streets Task Forces 
have made 5,515 arrests and helped obtain 2,508 convictions.
    In another part of the Safe Streets Violent Crime Initiative, the 
FBI manages 43 Violent Crimes Safe Street Task Forces, which are 
comprised of 200 FBI agents and 317 Task Force officers, and focus on 
violent crimes such as kidnapping, extortion, bank and armored car 
robbery, Hobbs Act commercial robbery, and murder for hire. Through 
July 2010, the 43 Violent Crimes Safe Street Task Forces have made 
1,106 arrests and helped obtain 447 convictions.
    The Task Forces help local law enforcement fight violent crime and 
gangs in several ways. Task Forces avoid redundancy in the response of 
law enforcement to violent crimes that have both a Federal and a State 
or local nexus. The FBI initiates and coordinates investigative efforts 
and intelligence sharing with affected local, State, and Federal law 
enforcement agencies, thereby avoiding the duplication of investigative 
and enforcement efforts and maximizing resources. Task Forces also aid 
areas where Federal law enforcement is the only realistic option to 
combat violent crime.
    The following are examples of Task Force successes:
    Newport News, Virginia.--The Dump Squad Gang first came to the 
attention of Newport News law enforcement in 2000. Members of the Dump 
Squad, which claimed affiliation with the Bloods Street Gang, engaged 
in narcotics distribution, firearms offenses, and a host of violent 
crimes, including violent crimes targeting local law enforcement. Using 
intelligence to identify the gang's structure, and a strategy focused 
on unsolved homicides, drug-related robberies, and aggravated assaults, 
in March 2009 the Task Force obtained 39 charges of violence in aid of 
racketeering against 10 of the Dump Squad's 30 known or suspected 
members. To date, all but one of the defendants has been convicted. 
Information derived from cooperating defendants has closed several 
unsolved homicides, and the areas previously controlled by the Dump 
Squad have seen a significant reduction in major violent offenses since 
the arrests.
    Easton, Pennsylvania.--The Easton Police Department requested 
Federal assistance due to a sharp rise in gang- and drug-related 
violence attributed to gangs from local neighborhoods and from New York 
City. Through the use of controlled crack cocaine purchases, 
consensually monitored and recorded conversations, judicially 
authorized wiretaps, physical surveillance, search warrants, the 
development of confidential human sources and cooperating defendants, 
and other law enforcement techniques, in March 2008 the Task Force 
obtained Federal indictments against 40 individuals and State charges 
against an additional 10 individuals. The mayor of Easton has advised 
that, since these arrests, the city of Easton has not experienced a 
single drug or gang related homicide. According to the Easton Police 
Department, this has been the longest period of time without such an 
occurrence in over 15 years.
    Question. What additional resources would you need to expand the 
program?
    Answer. The FBI's Violent Gang Safe Streets Task Force Initiative 
and the FBI's Violent Crime Safe Streets Task Forces both work with 
State and local law enforcement to fight violent crime and gangs. Two 
key resources that are needed to continue these programs: (1) funding 
for special agents, and (2) funding for investigative techniques and 
equipment.
    The FBI requires investigative resources to maintain the number of 
Safe Streets Task Forces in operation. Funding for FBI special agents 
would enable the FBI to open additional Safe Streets Task Forces in 
areas across the United States where Federal law enforcement assistance 
for local agencies has been non-existent. The equipment resources are 
necessary due to the increase in investigative productivity that would 
come from the expansion of the number of Safe Streets Task Forces that 
the FBI would be able to operate with additional special agents.
    To assist local law enforcement in the war on gangs, the FBI would 
like to use its Violent Gang Safe Streets Task Forces. These task 
forces would give the FBI a chance to prevent violent crime through the 
proactive suppression of criminal street gangs operating in areas 
across the United States where there is little or no Federal law 
enforcement presence. Proactive suppression of the threat would 
correlate to a direct decrease in violent crime in the areas where new 
Violent Gang Safe Streets Task Forces are operated.
    To assist local law enforcement in the war on violent crime, the 
FBI would like to use its Violent Crime Safe Streets Task Forces. This 
would allow field offices to realize the benefits of working closely 
with State and local agencies to address their violent crime problem.

          STATE AND LOCAL LAW ENFORCEMENT--FIGHTING TERRORISM

    Question. Joint Terrorism Task Forces (JTTFs) are teams of Federal 
and State law enforcement working together to identify and respond to 
terrorist threats at the local level. There are now more than 100 JTTFs 
led by the FBI. Local and State police rely on the FBI for information, 
guidance, leadership and training, as well as for critical intelligence 
information about threats to our country.
    How beneficial are the Task Forces?
    Answer. The participation of State, local, and Federal law 
enforcement partners on Joint Terrorism Task Forces (JTTFs) creates a 
``force multiplier'' benefit. By having State and local officers and 
participants from other Federal agencies, the JTTFs are able to address 
many more cases than the FBI could handle alone. The utilization of the 
JTTFs is not, however, limited to local responses to terrorist threats. 
The members of the JTTFs, including Task Force officers, representing 
State, local, and other Federal agencies, are frequently deployed 
overseas to investigate terrorism cases at a global level.
    The FBI is faced with a formidable task that experience has shown 
is best achieved through the utilization of the vast resources and 
personnel dedicated to task forces. JTTFs cover thousands of leads in 
response to calls regarding counterterrorism-related issues. These 
leads address potential threats to national security and require a 
significant amount of coordination and resources. Overall, greater 
interaction and cooperation between FBI special agents and their 
counterparts exist due to the task force concept, which has led to a 
more focused, integrated, and resource conscious approach to 
counterterrorism investigations.
    At the direction of the FBI's Counterterrorism Division (CTD), 
National Joint Terrorism Task Force (NJTTF), the JTTFs have implemented 
numerous tripwires across the United States to various industries such 
as mass transportation, storage facilities, and bulk fuel distributors 
to provide indicators of potential use/targeting by terrorists. The 
JTTFs have disseminated Tripwire Indicator Cards to such industries and 
businesses in their respective areas of responsibility for awareness 
and contact information.
    The significant benefit of the JTTFs is the unique expertise, 
perspectives, and tools each agency provides, whether at the Federal, 
State, local or tribal level. For example, U.S. Immigration and Customs 
Enforcement can provide support to ongoing counterterrorism 
investigations through their databases, as well as through their 
ability to charge terrorism subjects with immigration and customs 
violations outside the FBI's jurisdiction. The participation of State 
and local law enforcement agencies provides the ability to charge 
terrorism subjects on unrelated State charges where the offenses do not 
meet the threshold for a Federal offense. The Department of Energy and 
the Nuclear Regulatory Commission's participation provides highly 
specialized expertise and capabilities that would prove invaluable upon 
receipt of legitimate terrorist threats to U.S. nuclear power plants. 
The participation of multiple Department of Defense (DOD) assets 
provides expertise across several areas including, but not limited to, 
criminal investigations, intelligence, human intelligence, and 
combatant command operations. Each participatory law enforcement agency 
offers its own statutory authorities which provide far greater latitude 
in charging terrorism subjects.
    Question. Will their role be expanded in the future?
    Answer. The FBI expanded the number of Joint Terrorism Task Forces 
(JTTFs) to ensure greater access to Federal, State, and local agencies. 
There are currently 104 JTTFs across the United States in 56 FBI field 
offices and 48 FBI resident agencies. Currently, there are 656 State 
and local agencies that participate on JTTFs nationwide. In addition, 
JTTFs include representatives from the U.S. Intelligence Community and 
the Departments of Homeland Security, Defense, Justice, Treasury, 
Transportation, Commerce, Energy, State, and Interior, among others. 
The FBI anticipates that both the level of Federal, State, and local 
participation and the number of JTTFs will grow in the future to ensure 
the mitigation of emerging threats.

                                SENTINEL

    Question. There have been delays in the development of Sentinel, 
the Bureau's new case management system. These important technological 
tools and computer upgrades are supposed to help protect our citizens. 
The FBI has a dangerous legacy of failed programs like Sentinel, and I 
want to know the facts behind these delays.
    What has caused the delays in Sentinel, and how will these problems 
be handled?
    Answer. The FBI's leadership believes it prudent to ensure that the 
Sentinel application meets the needs of its users.
    Phase 2, Segment 4 began in January 2009 with a scheduled 
completion date of October 16, 2009. In October 2009, the FBI evaluated 
Segment 4 for acceptance and determined that the segment was not ready 
for deployment. Lockheed Martin (LM) requested, and the FBI approved, 
two separate schedule extensions to provide them the opportunity to 
complete the integration, testing, and resolution of noted 
deficiencies. The FBI conditionally accepted Segment 4 in November 
2009, but identified a number of ``liens'' that were to be resolved. In 
December 2009, Program Management Office (PMO) testers and FBI 
executive management identified a significant number of deficiencies 
and system change requests. The PMO initiated the first of three 
independent assessments to evaluate the quality, usability, and 
maintainability of the code delivered. Resources were diverted from 
Phase 3 to address the corrective actions and functionality 
enhancements in Phase 2.
    In March 2010, the FBI issued a partial stop-work order to suspend 
part of Phase 3 and all of Phase 4 development to focus LM's resources 
on the successful delivery of Phase 2, Segment 4 system capabilities. 
In July, the FBI extended the stop-work order and expanded it to 
include the remainder of Phase 3.
    During the period between the partial stop work and the full stop 
work order, the FBI gathered additional information that led to the 
decision to reexamine the program's path forward. The use of an 
incremental development strategy allowed this opportunity. This was 
also an appropriate step to mitigate unwarranted program cost and 
schedule overrun. The FBI is currently examining an alternative 
approach that will bring Sentinel to a successful conclusion.
    Question. Have any capabilities actually been deployed? Is anyone 
using them, and, if so, what is the user feedback?
    Answer. Yes, capabilities have been deployed. Various capabilities 
have been deployed in the past, as well as necessary hardware and 
infrastructure upgrades that improve the operation of the system, but 
are not directly visible to the user.
  --Since the completion of Phase 1, there have been significant 
        upgrades to Sentinel's functionality, including the addition of 
        a more modern, user-friendly web-based interface, customizable 
        ``workboxes'' that summarize a user's cases, automated movement 
        of files between Sentinel and the automated case system, 
        improved online help and search functions, and hyperlinks 
        within cases.
  --Sentinel has implemented a security architecture that enforces the 
        confidentiality, integrity, and availability of all classified 
        and privacy data. The FBI has also integrated an Intelligence 
        Community standard marking tool to minimize cost and maximize 
        standardization of markings to enable security and appropriate 
        sharing.
  --Segment 4 of Phase 2 was deployed FBI-wide on July 26, 2010, 
        offering the most significant capabilities to users since Phase 
        1.
    New capabilities include:
  --Four electronic forms:
    --The Electronic Communication, a revised form used to record 
            information pertaining to a case and document 
            administrative matters. It is also used to share 
            information, similar to an inter-office memorandum.
    --The Lead Request Form, a new form used to document the request 
            for work to be performed by another individual or a group 
            within the FBI, referred to as ``setting the lead.''
    --The Import Form, another new form used to import other documents 
            and attachments into Sentinel.
    --The Interview Form (FD-302), a revised form that will continue to 
            serve as a testimonial record of investigative activity.
  --Electronic Workflow.--A series of connected steps for creating and 
        sharing documents and obtaining approval. Digital signatures 
        will be applied to the documents through the approval process. 
        Employees will be able to track the progress of the document. 
        This eliminates the need to physically move a document from one 
        place to another, increasing efficiency, saving time, and 
        routing costs.
    Question. When will the project be completed? How much over budget 
will it be?
    Answer. As indicated previously, functionality and capabilities 
have been deployed and are in use by the FBI. The cost of delivery of 
the capabilities through Phase 2 exceeded the contract value and 
schedule, but the Bureau has yet to exceed the $451 million program 
budget. There is currently $45.5 million of ceiling still available 
within the program budget.
    Utilizing the remaining available program budget authorization, the 
FBI hopes to take advantage of the technology advancements that have 
been made since the Sentinel contract was awarded in March 2006. It is 
believed all of the functionality objectives of Sentinel can be 
achieved by altering the engineering approach and leveraging the 
advancements in commercial available software, as well as other FBI IT 
projects.
    As the FBI Director stated in recent congressional testimony: 
``There was an overarching budget for this project. The FBI hopes to 
stay within that budget. There are ongoing negotiations, but I am 
mindful of the necessity of maximizing the products that we get and 
minimizing the cost to the taxpayer. Which is why . . . we're looking 
at alternative capabilities and with less reliance on contractors that 
can prove to be more expensive than if you can do it yourself in-
house.''
    Question. What are you doing to address the budget and schedule 
impacts?
    Answer. Given the delays associated with completion of Phase 2, the 
FBI is consulting with industry experts to evaluate our plan to finish 
Sentinel. The FBI is examining ways to reduce costs and limit our 
reliance on contractors. That process is underway but it is incomplete. 
Once that assessment is finished, the FBI can brief the subcommittee on 
the results.
    The FBI extended the stop-work order to allow outside experts to 
review its plan to finish this project and to ensure the LM resources 
are focused on the completion of Phase 2.
    Question. Is the system not functioning correctly? Are the problems 
small, unrelated issues, or are there signs of larger systematic 
issues?
    Answer. Yes, Sentinel is working and is currently being used by 
thousands of FBI employees every day. On July 26, 2010, the FBI 
deployed the remainder of Phase 2 across the FBI. Phase 2 has been 
tested in the field and will give all FBI users the ability to create 
investigative reports, conduct searches, and manage their daily work 
far more efficiently.
    There have been a range of problems identified with the system that 
required additional time to resolve. These problems resulted in 
schedule delays and cost impacts. Through multiple external 
assessments, the fundamental architecture and systems have been found 
to support capabilities that will enhance the FBI's mission.
    At present the FBI is consulting with industry experts on a 
potential plan to complete Sentinel. The FBI is also reviewing ways to 
reduce costs and limit our reliance on contractors. This review is 
underway, but it is not complete; the FBI anticipates this review will 
be completed by early fall 2010.

                       NATIONAL SECURITY LETTERS

    Question. National Security Letters (NSL's) are useful counter-
terrorism tools that allow the FBI to conduct searches without getting 
court orders, and allow agents to analyze telephone, computer and bank 
records without warrants.
    The PATRIOT Act made NSLs easier to obtain, but also requires the 
Inspector General (IG) to monitor the use of NSLs and report back to 
Congress.
    The IG released two reports on NSLs which found significant 
intelligence violations. The IG estimates over 6,000 NSL violations 
from 2004-2006. That's 8 percent of all NSLs issued. Violations 
include:
  --Eleven ``blanket NSLs'' without proper approval in 2006.
  --Unauthorized collection of over 4,000 billing records and phone 
        numbers.
    This subcommittee recognized a problem with NSL management, and 
provided $10 million in fiscal year 2010 to establish the Office of 
Integrity and Compliance for oversight of NSLs.
    What are you doing to improve NSL training for FBI employees?
    Answer. Following the first Office of Inspector General (OIG) 
Report on National Security Letters (NSLs), the FBI's National Security 
Law Branch (NSLB) developed a new NSL training module that incorporated 
the findings of the IG. This training addressed the common errors 
discussed in the OIG's Report, including typographical errors, 
confusion regarding 18 U.S.C. Sec. 1681v, and required legal reviews 
and approvals. In December 2007, FBI's NSLB and Training Division 
developed and launched an online training course concerning NSLs. In 
addition to live training, the online training course continues to be 
used for refresher training and for training personnel whose duties now 
require them to handle NSLs. NSLB is currently reviewing the online 
training course to ensure that this training remains up-to-date. The 
FBI also deployed a separate NSL subsystem in the Foreign Intelligence 
Surveillance Act Management System (FISAMS) in January 2008, and 
simultaneously launched a training course in FISAMS on creating NSLs. 
The training was mandatory for all employees involved in issuing NSLs, 
and the training continues to be used for refresher training and for 
training new personnel handling NSLs.
    Question. Will you make NSL training mandatory for all employees 
involved with NSLs?
    Answer. Yes, the National Security Letter (NSL) training is 
mandatory for all employees involved with NSLs.
    Question. Do you agree with the IG's recommendation that the Office 
of Integrity and Compliance needs more staff to carry out its oversight 
role?
    Answer. The Office of Integrity and Compliance's (OICs) personnel 
has increased since its inception in fiscal year 2007, from 12 
employees to 16 employees. Staffing needs are reviewed periodically on 
an enterprise-wide basis. Personnel allocations are made through a 
principled process that considers a number of factors, including 
operational needs, funding, risk, opportunity, and mandated 
congressional allocations. In that regard, it is our understanding that 
the Inspector General's recommendation was based, at least in part, on 
the assumption that audits performed as part of the compliance process 
would be conducted by OIC personnel. That is incorrect. OIC requests 
the FBI's Inspection Division to conduct such audits. OIC and the 
Inspection Division work closely to identify and prioritize auditing 
requirements and to develop audit protocols for targeted risk areas. 
OIC's personnel needs will continue to be monitored.
    Question. Do you have the right computer systems to improve the way 
you issue and track NSLs?
    Answer. Yes. In January 2008, the FBI deployed the National 
Security Letter (NSL) subsystem in the Foreign Intelligence 
Surveillance Act Management System to address reporting and other 
issues in the NSL process. The subsystem prompts the drafter to enter 
information about the subject, the predication for the NSL, type of 
NSL, recipients of the NSL, and the target of the NSL. The subsystem 
routes the NSL to various higher-ranking officials who must review and 
approve the NSL request before it can be issued. After all required 
approvals have been obtained, the subsystem generates the electronic 
communication (EC) and the NSL for signature by the special agent in 
charge, assistant director in charge, or designated FBI-Headquarters 
approving official. Thereafter, the subsystem automatically uploads the 
EC documenting the NSL and the NSL itself into the FBI Automated Case 
System. This process collects all the information required for 
congressional reporting.

                          TERRORIST WATCHLIST

    Question. The Terrorist Watchlist is the intelligence community's 
main list of terrorism suspects, and is maintained at the FBI's 
Terrorist Screening Center. It is shared with the Intel community at 
the National Counterterrorism Center.
    More than 1.1 million known or suspected ``terrorist identities'' 
are on the list, representing approximately 400,000 individuals. A 
single individual can generate numerous ``terrorist identities'' or 
records. 20,000 names are added each month.
    The Inspector General recently reported that the terrorist 
watchlist continues to have unacceptable errors, noting that the FBI is 
delayed in reporting names to the terrorist watch list by up to 4 
months. FBI also failed to remove names once determined that they do 
not pose a threat, while other information was simply inaccurate or 
outdated.
    How much time does it take the FBI to add someone to the watch 
list, and what are you doing to cut that time?
    Answer. The DOJ Inspector General Reports (issues 08-16 and 09-25) 
are based on data collected approximately 2\1/2\ years ago and many 
aspects of the FBI watchlist process and internal oversight have 
completely changed. At the time of the report, there was no formal 
policy requiring case agents to submit watchlist nominations, 
modifications, or removals in a specified timeframe. After an internal 
study of the issue, the FBI provided new guidance in January 2009 
(before the issue of 09-25) requiring agents to submit all watchlist 
nominations, modifications, or removals within 10 business days. This 
time is needed in order to take raw intelligence received from a 
variety of sources and conduct initial database checks and additional 
investigation to ensure that the reasonable suspicion standard is met. 
Specific identifying details such as name, date of birth, address, 
social security number, etc is vital to populate the watchlist and 
ensure that another person with a similar name and date of birth is not 
incorrectly encountered. The FBI's Counterterrorism Division (CTD), 
Terrorist Review Examination Unit (TREX) at FBI Headquarters, which 
reviews these submissions for accuracy and compliance with the United 
States Government (USG) watchlisting policy, then has an additional 5 
business days for nominations and 10 business days for modifications or 
removals to complete their oversight actions.
    FBI formal guidance was approved on December 7, 2009, which 
included the ability to expedite the watchlist process when a specific 
threat or urgent circumstance demands immediate action. This expedited 
process has been used and results in immediate placement on the 
watchlist and selectee/no-fly list by personnel assigned to the 
Terrorist Screening Center (TSC). The FBI's CTD TREX follows through 
with all necessary documentation submitted from the field that supports 
the immediate watchlisting action taken.
    While a remarkable achievement in less than 18 months, the FBI is 
taking additional steps to reduce the time it takes to get a person 
watchlisted. Most significant is the updating and integration of two 
manual forms into a single database which incorporates all FBI business 
workflow and tracks the submission record from the time it is created 
by a case agent all the way through export by the FBI for watchlisting. 
The FBI's CTD TREX led an interagency team of experts to update the 
forms and ensure all data fields match those used by the National 
Counter Terrorism Center (NCTC) Terrorist Identities Datamart 
Environment. Not only is the database expected to reduce the processing 
time for case agents and CTD's TREX, but also reduces the NCTC ingest 
time from over 8 minutes per record down to under 30 seconds. This 
database also incorporates compliance metrics and reports with much of 
the data automatically generated. The database has been in development 
for the past 10 months and is nearly ready for field-level testing with 
anticipated deployment to all field offices by the end of the calendar 
year.
    Question. How are you improving training for your staff to increase 
accuracy in adding names to the list and removing names from the list?
    Answer. To increase the accuracy and speed of a watchlist 
nomination or removal, the FBI's CTD TREX personnel were trained as 
Subject Matter Experts (SME) in watchlisting. In order to apply 
criteria which is consistent with the USG watchlisting guidance, SME's 
from the TSC provided baseline training to CTD's TREX personnel. This 
training included detailed review of current watchlist policy, along 
with specific examples which required students to apply the standard. 
Supplementing this training is a mandatory monthly unit training which 
focuses on new guidance, trends, and round-table problem solving. As a 
result of this training upgrade, the number of rejections from the TSC 
for FBI nominations which do not meet the watchlisting criteria has 
dropped to nearly zero. To assist new personnel and provide a detailed 
reference guide for all employees, the CTD's TREX updated and expanded 
the unit Standard Operating Procedures, which contains step-by-step 
procedures for each watchlisting task.
    An important aspect of the CTD's TREX transition is the 
reorganization of personnel into four distinct teams and conversion of 
four GS-12 positions into GS-13 supervisors, who are responsible for 
the internal workflow and resolution of problems. These supervisors 
identify topics for additional unit training.
    Question. What are the major obstacles in shortening the time it 
takes to place someone on the no-fly list?
    Answer. There are few obstacles to quickly place the subject of an 
FBI investigation on the No Fly list when intelligence indicates the 
person presents an imminent threat and meets the established No Fly 
criteria. Procedures are in place to support such action, and the 
process has been tested with real-world threats. The Counterterrorism 
Division's (CTD) Terrorist Review Examination Unit (TREX) is in direct 
contact with the Terrorist Screening Center to complete an expedited 
addition to the No Fly list. For example, when case agents identified 
the subject of the recent attempted Times Square bombing, the CTD's 
TREX used the expedited nomination process to add this individual to 
the No Fly list in less than 1 hour. The subject then attempted to fly 
later that same day and was prevented from departing the country.
    Question. Have you given your managers in field offices more 
responsibility to review nominations before they are sent to 
headquarters?
    Answer. The FBI has given field supervisors more responsibility to 
ensure all subjects of FBI investigations are properly added, modified, 
or removed from the watchlist. Quarterly file reviews now include a 
mandatory certification by the field supervisor that the watchlist 
status for the subject of the investigation has been reviewed and is 
accurate. The Counterterrorism Division's (CTD) Terrorist Review 
Examination Unit (TREX) provides each supervisor a mid-month report 
which alerts them of cases currently showing non-compliance and allows 
them to rapidly correct these deficiencies. Supervisors also receive 
best practices gleaned from field offices which show consistent 
outstanding compliance. For example, many field offices require 
submission of the watchlisting form at the same time as the case 
opening paperwork. The CTD's TREX has incorporated a detailed feedback 
system using mandatory Primary and Alternate Watchlist Coordinators in 
each field office. Not only are problems resolved through a single 
point of contact for the office, but also trends and changes in policy 
are communicated through the coordinators.
    Question. Are you working with the Director for National 
Intelligence (DNI) to make sure this problem is fixed across all 
intelligence agencies?
    Answer. As part of the President's taskings following the attempted 
terrorist attack on December 25, 2009, the FBI's Terrorist Screening 
Center (TSC) was directed to ``develop recommendations on whether 
adjustments are needed to the watchlisting Nominations Guidance, 
including biographic and derogatory criteria for inclusion in the 
Terrorist Identities Datamart Environment and Terrorist Screening 
Database, as well as the subset Selectee and No Fly lists.'' The 
Nominations Guidance referred to the TSC issued on February 25, 2009, 
and eight appendices issued at various dates (collectively, 2009 
Protocol). The Presidentially-directed adjustments to the 2009 Protocol 
and all the appendices were approved by the Deputies in July 2010 and 
have been renamed ``Watchlisting Guidance.''
    The Watchlisting Guidance was developed by TSC's Interagency Policy 
Board Working Group, which functioned as a sub-Interagency Policy 
Committee (IPC) for the White House National Security Staff's 
Information Sharing and Access (ISA) IPC. Both the IPC and the sub-IPC 
included representation from the Department of Justice, Department of 
Homeland Security, Central Intelligence Agency, National Security 
Agency, Department of Defense, Department of State, Department of 
Treasury, Office of the Director of National Intelligence, the National 
Counterterrorism Center, the FBI, and the TSC. In response to the 
President's January 7, 2010, ``corrective actions'' memo, the sub-IPC 
thoroughly reviewed the 2009 Protocol and applicable appendices to 
develop recommendations for the IPC and the Deputies Committee. The IPC 
also recommended a new appendix on the handling of terrorism 
information collected when there is a positive match to a known or 
suspected terrorist.
    Based on these recommendations, the National Security Council 
(NSC)/Homeland Security Council (HSC) Deputies Committee incrementally 
approved certain modifications to the Watchlisting Guidance for 
immediate implementation on March 5 and April 5, 2010. The NSC/HSC 
Deputies Committee approved the entire Watchlisting Guidance for 
issuance to the watchlisting and screening community on July 16, 2010.

                         FBI LONG TERM PLANNING

    Question. Every national security and defense agency releases a 5-
year budget--except the FBI. I sit on the Senate Intelligence Committee 
and the Defense Appropriations Subcommittee, where I am provided with 
DOD, NSA, the CIA budget requirements not just for this year, but for 5 
years. This long-term view helps us know what it will really take to 
keep our Nation safe. I only see the FBI's budget 1 year at a time, 
even though the FBI's intelligence and counterterrorism activities are 
a key part of the national intelligence strategy. The administration's 
exclusion of the FBI in the Intel 5-year budget implies that the FBI 
plays a secondary security role.
    Why is the FBI excluded from providing us with information on its 
counterterrorism needs in future years?
    Answer. The FBI and the Department continue to develop goals that 
include appropriate analysts, technology, and facilities to address the 
national security and intelligence community needs. While the FBI and 
the Department cannot share predecisional, deliberative budget 
information, we will continue to inform the subcommittee of our 
programs and needs and be sure the subcommittee's policy and funding 
decisions are made in the context of all appropriate information.
    Question. Do you agree that the FBI should provide Congress with 
its long term budget plans just like the rest of the intelligence 
community?
    Answer. The FBI and the Department continue to develop goals that 
include appropriate analysts, technology, and facilities to address the 
national security and intelligence community needs. While the FBI and 
the Department cannot share predecisional, deliberative budget 
information, we will continue to inform the subcommittee of our 
programs and needs and be sure the subcommittee's policy and funding 
decisions are made in the context of all appropriate information.
    Question. In spite of this OMB muzzle on budget numbers for future 
years, can you provide the subcommittee with information on your long-
term requirements? Specifically:
  --The numbers of agents and analysts
  --Technologies and equipment
  --Partnerships with State and local law enforcement
    Answer. The FBI and the Department continue to develop goals that 
include appropriate analysts, technology, and facilities to address the 
national security and intelligence community needs. While the FBI and 
the Department cannot share predecisional, deliberative budget 
information, we will continue to inform the subcommittee of our 
programs and needs and be sure the subcommittee's policy and funding 
decisions are made in the context of all appropriate information.
                                 ______
                                 
           Question Submitted by Senator Frank R. Lautenberg

    Question. In January, I asked the Department of Justice for 
information about the June 2009 shooting of two soldiers in Arkansas by 
Abdulhakim Muhammad, who claims to be a member of Al Qaeda. The 
Department has not responded. I understand that the FBI had 
investigated Mr. Muhammad prior to the shootings.
    Was Mr. Muhammad on a terrorist watch list at the time of the 
shootings?
    Answer. The Terrorist Screening Center (TSC) would be pleased to 
provide a members briefing regarding the watchlist status of the above-
referenced individual. It is the general policy of the United States 
Government to neither confirm nor deny whether an individual is in the 
TSC's Terrorist Screening Database (TSDB) because it is derived from 
sensitive law enforcement and intelligence information. The 
nondisclosure of the contents of the TSDB protects the operational 
counterterrorism and intelligence collection objectives of the U.S. 
Government, as well as the personal safety of those involved in 
counterterrorism investigations. The TSDB remains an effective tool in 
the U.S. Government's counterterrorist efforts because its contents are 
not disclosed. It is important to note that the watchlist contains only 
the identities of known or suspected terrorists which meet the 
``Reasonable Suspicion'' standard for inclusion in the TSDB. As records 
meeting this criterion are continually added to the watchlist, modified 
to be more accurate, or removed for a variety of reasons, the watchlist 
is constantly being updated to serve as a more accurate tool for the 
TSC's terrorism screening and law enforcement partners.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby

            TERRORIST EXPLOSIVE DEVICE ANALYTICAL CENTER--1

    Question. As indicated in my opening remarks the administration's 
proposed rescission of $98 million in funding for the construction of 
the Terrorist Explosive Device Analytical Center is troubling 
especially given the FBI's and the JEIDDO commanders support for this 
facility.
    Director do you believe that TEDAC is a critical element necessary 
for the FBI to meet its responsibilities to the American public?
    Answer. Yes. The forensic and technical exploitation of improvised 
explosive devices (IEDs) by the Terrorist Explosive Device Analytical 
Center (TEDAC) supports the intelligence and information requirements 
of the military, intelligence, homeland security and law enforcement 
communities. TEDAC is also recognized by coalition partners, friendly 
foreign governments, and U.S. partners as the focal point within the 
U.S. Government for exchanging information from IED attacks against 
U.S. interests abroad and at home. TEDAC receives IEDs not only from 
Iraq and Afghanistan, but also other foreign countries and areas, such 
as Pakistan, the Philippines, and the Horn of Africa. IEDs remain the 
terrorist primary weapon of choice against U.S. interests and these 
groups operate world-wide. Exploitation conducted by the TEDAC to date 
has resulted in the identification of over 400 terrorists previously 
unknown to the U.S. Government. The information derived from the 
exploitation of devices submitted to TEDAC is available to U.S. law 
enforcement as well as our coalition partners. Continued identification 
of these subjects is vital to preventing terrorist attacks and 
identifying terrorist networks operating in the United States and 
abroad.
    Question. Did the FBI request additional funding to construct a 
facility to support the TEDAC mission above the amount the Congress had 
already provided?
    Answer. Regarding budget deliberations, the nature and amounts of 
the President's decisions and the underlying materials are 
confidential. The administration's position was transmitted in the 
budget.
    Question. When the FBI was informed of the proposal to cancel the 
funding provided by Congress to construct a facility to support the 
TEDAC mission, did the Bureau appeal that decision to OMB?
    Answer. Regarding budget deliberations, the nature and amounts of 
the President's decisions and the underlying materials are 
confidential. The administration's position was transmitted in the 
budget.
    Question. Director Mueller, do you believe that TEDAC as funded by 
this subcommittee is still necessary and if you do believe it is 
necessary can you tell us why Redstone Arsenal was chosen as the 
location to build this facility?
    Answer. The administration's position was transmitted in the 
budget. However, I can describe why Redstone Arsenal was chosen as the 
location to build the facility. Upon receipt of funding in the fiscal 
year 2008 appropriation for a Terrorist Explosive Device Analytical 
Center (TEDAC) facility, the FBI acquired architectural and engineering 
services to design and plan the facility. Among the first steps was to 
conduct an independent site selection study, to identify, evaluate and 
recommend sites that would meet TEDAC's operational requirements. Due 
to the need to transport, process, and test explosives materials, site 
selection was limited to U.S. military installations. Using publicly 
available data for 17 requirements, divided into three categories--
operational (e.g., length of runways, explosives disposal capability, 
weather to support continuous year-round operations), workforce (e.g., 
science and engineering employees as percentage of workforce, proximate 
agencies and universities doing similar or related work), and quality 
of life (e.g., cost of living, 4-year colleges and university 
availability, and housing), the independent study identified and rated 
eight potential sites. Based on weighted scores of the evaluation 
requirements, the U.S. Army Redstone Arsenal, Huntsville, Alabama, was 
ranked highest among the eight sites. Once a primary site was 
identified, the FBI contracted architectural and engineering firm 
initiated preliminary geotechnical engineering, wetlands, and cultural 
surveys, as well as a preliminary surface soil screening of various 
parcels at Redstone Arsenal to confirm the suitability of the site. 
Based upon the site selection and favorable preliminary site studies, 
FBI executive management accepted the recommendation of Redstone 
Arsenal as the site for a permanent TEDAC facility.

                                TEDAC--2

    Question. Homeland Security Presidential Directive-19 (HSPD-19) 
Combating Terrorist Use of Explosives in the Homeland, states, in part, 
``Terrorists have repeatedly shown their willingness and ability to use 
explosives as weapons worldwide, and there is ample intelligence to 
support the conclusion that they will continue to use such devices to 
inflict harm. The threat of explosive attacks in the United States is 
of great concern considering terrorists ability to make, obtain, and 
use explosives''
    Is that statement describing the threat from terrorist use of 
explosives still accurate?
    Answer. Yes. Terrorists and insurgents continue to show their 
willingness to use explosives as a primary tactic against U.S. and 
coalition forces. Due to the low cost and ease of availability of 
improvised explosive devices (IED) components and precursors to 
explosives, along with the success that terrorists and insurgents have 
had with explosive attacks, they will continue to use explosives to 
inflict harm. IEDs and explosives have been the method of attack in 
recent domestic incidents as well, such as the Christmas Day attempt to 
bomb a Northwest Airlines flight, the Times Square car-bombing attempt, 
the attempt to detonate IEDs in New York City subways and other 
locations, and the attempts to blow up Federal buildings in Texas and 
Illinois.
    Question. Under HSPD-19, the Attorney General was directed to 
prepare a national strategy on how to deter, prevent, protect against, 
and respond to explosives attacks. Does the new TEDAC facility enable 
the FBI to fulfill its assigned responsibilities under the HSPD-19 
national strategy and implementation plan?
    Answer. A new Terrorist Explosive Device Analytical Center (TEDAC) 
facility would enable the FBI to continue meeting its responsibilities 
under the HSPD-19 strategy and plan, and provide an enduring capability 
to operate at increased capacities at times when long term conflicts 
and increased attacks. A new TEDAC facility would have full dedicated 
capabilities to function as a center of excellence, to analyze and 
report on evidentiary submissions from improvised explosive device 
(IED) attacks. A new facility would provide timely actionable 
intelligence on new tactics, techniques and procedures of IED activity 
against U.S. interests, and will be able to operate at a high capacity 
when needed.

                                TEDAC--3

    Question. Director Mueller, the volume of submissions to TEDAC has 
overwhelmed its capacity, resulting in a substantial backlog. The FBI 
estimates that 86 percent of the 33,000 evidence boxes within that 
backlog contain DNA or fingerprints from a still unidentified insurgent 
who was involved in an IED attack against U.S. military personnel and 
who may seek to enter the United States. Today, a terrorist could be 
stopped at a checkpoint in Afghanistan and go unidentified because the 
FBI has not analyzed the evidence against him or her.
    Are you concerned that individuals involved in IED attacks against 
our military personnel could go undetected and therefore could enter 
the United States and engage in terrorist activities?
    Answer. Yes. The potential biometric information within the 
Terrorist Explosive Device Analytical Center (TEDAC) backlog--
fingerprints and DNA--could enable the identification of an unknown 
terrorist or insurgent attempting to enter the United States. 
Processing of the backlog to harvest fingerprints and DNA, and the 
uploading of such information into national databases such as the FBI's 
Integrated Automated Fingerprint Identification System (IAFIS), which 
is used by the Department of Homeland Security and Department of State 
to screen persons at the border and applying for visas, and the 
Combined DNA Index System (CODIS), is critical to preventing persons 
associated with IED attacks from gaining entry to the United States and 
to identifying such persons who may have already gained entry.
    Question. Can you provide this subcommittee with any instances 
where this has occurred?
    Answer. Example 1: In July 2009, the Terrorist Explosive Device 
Analytical Center (TEDAC) conducted an Integrated Automated Fingerprint 
Identification System (IAFIS) search against fingerprints recovered 
from an improvised explosive device (IED) cache in 2008. These prints 
were matched to an individual admitted to the United States as a 
refugee in 2009. Although the individual had been enrolled in the 
Department of Defense biometric systems in 2008, he was not identified 
as a U.S. refugee until the TEDAC ran prints recovered from cache 
materials against IAFIS records.
    Example 2: In March 2010, the TEDAC identified fingerprints 
recovered from an item found in an IED cache in Iraq. The fingerprints 
belonged to a foreign national who had traveled to the United States on 
a valid B2 (business) visa in the past and whose visa remains valid. 
The TEDAC is assisting the law enforcement agencies of the foreign 
country with the investigation via the Legal Attache office.
    Example 3: In June 2010, the TEDAC matched fingerprints recovered 
from a document found in an IED cache in 2004 with an individual 
admitted as refugee in 2009. The match was made between the original 
print and records in the IAFIS criminal file submitted by local law 
enforcement as a result of criminal activity on the part of the 
refugee.
    Example 4: In 2009, the TEDAC identified a large number of 
unexploited documents and media which had been submitted as IED items. 
As a result of this effort, the TEDAC identified the print of an 
individual granted a visa to enter the United States on a handwritten 
document associated with the kidnapping and murder of two U.S. soldiers 
in Iraq in 2006. In addition, the TEDAC discovered other information 
which, when exploited, identified new subjects in the United States who 
had foreign contacts attempting travel to the United States.

                    OVERSEAS CONTINGENCY OPERATIONS

    Question. Last year, the administration requested and Congress 
supported $101 million for FBI overseas contingency operations. This 
funding allows the Bureau to deploy agents and analysts overseas to 
work side-by-side with U.S. military personnel to assist in identifying 
terrorists and insurgents. The bureau also uses these funds to work 
with foreign law enforcement in places such as Southwest Asia, and the 
Horn of Africa, to counter Al-Qaeda affiliates that target U.S. 
persons. Now only 1 year after requesting funding for overseas 
contingency operations, this administration is proposing to cut that 
funding by $63 million.
    Director Mueller, would the loss of this funding make it more 
difficult for the Bureau to work internationally to combat and prevent 
terrorism?
    Answer. Obviously, more funding for purchasing equipment, 
logistics, training, etc. is always better than less. That said, the 
FBI will continue to work effectively internationally to combat and 
prevent terrorism.
    Question. Why would the administration cut your funding for this 
critical mission by $63 million?
    Answer. In light of constrained resources, the President must make 
many tough decisions in developing the annual budget request.

                        SERIAL MURDERS AND RAPES

    Question. Recently, the Washington Post ran an article about a 
serial rapist who is believed responsible for as many as 17 attacks 
over the past 13 years--these attacks have occurred in Maryland, 
Virginia, Rhode Island and Connecticut. Now, it appears this serial 
rapist has returned to Virginia and is suspected of forcing three 
trick-or-treating teenage girls into a wooded ravine at gunpoint. 
Thirteen years, seventeen attacks, and still at large.
    When you have instances like this one, where the same person can 
victimize women--including teenagers--for 13 years and in multiple 
States, we need to ensure the FBI is able to assist our local police 
departments and sheriff's offices with forensic, behavioral, and other 
investigative assistance and expertise.
    Director Mueller, are you satisfied that the Bureau is doing enough 
to assist State and local law enforcement in addressing serial crimes, 
like this one? If not, what additional capabilities do you believe are 
needed?
    Answer. The FBI supports State and local law enforcement to address 
serial crimes in multiple capacities. The first is through enhancement 
and maintenance of the Combined DNA Index System (CODIS) database. DNA 
profiles generated from serial crimes are entered into the CODIS 
database system, including the National DNA Index System (NDIS), and 
compared to millions of crime scene and offender profiles. When DNA 
profiles are linked to different crimes and/or offenders, leads and/or 
perpetrators are identified and reported by FBI to the State and local 
law enforcement agencies who are investigating these crimes.
    In addition, the FBI's National Center for the Analysis of Violent 
Crime (NCAVC) provides behavioral-based operational support to Federal, 
State, local, tribal, and foreign law enforcement, as well as 
intelligence and security agencies involved in the investigation of 
unusual, high-risk, vicious, or repetitive violent crimes, communicated 
threats, terrorism, and other matters. The NCAVC is a component of the 
Critical Incident Response Group (CIRG), and consists of the Behavioral 
Analysis Unit (BAU) and the Violent Criminal Apprehension Program 
(ViCAP).
    The BAU interacts with State/local law enforcement agencies on a 
daily basis, providing support to their investigations through services 
such as crime analysis, profiles of unknown offenders, linkage 
analysis, investigative suggestions and interview/interrogation 
strategies. BAU staff members also provide training to thousands of law 
enforcement personnel every year on topics such as serial murder, 
sexual assault, behavioral analysis of violent crimes, and other 
related topics. BAU operational services are supported by their 
research program, in which BAU personnel collaborate with outside 
academic/scientific individuals and organizations to study violent 
offenders and how they commit their crimes. Insights gained through 
research are refined into innovative investigative techniques, and are 
shared with the law enforcement community through training 
presentations and publications. A book written specifically for 
criminal investigators on the topic of serial murder was published by 
the BAU. Thousands of copies have been distributed to law enforcement 
investigators nationwide, and it is available on the FBI Web site.
    ViCAP maintains a national database, which represents a 
comprehensive collection of information related to both solved and 
unsolved homicides, sexual assaults, missing persons and unidentified 
human remains. The database allows participating law enforcement 
agencies to make cross-jurisdictional matches of significant violent 
crimes, and ViCAP personnel can assist those agencies in the 
identification and linkage of similar cases based upon factors detailed 
in the ViCAP Web submissions. ViCAP can also provide analytical support 
that includes, but is not limited to: the creation of maps, matrices 
and timelines, and the use and/or coordination of other resources and 
databases.

                            INNOCENT IMAGES

    Question. Mr. Director, in July 2007, you testified before the 
House Judiciary Committee that ``child exploitation is a substantial 
priority'' of the FBI. When asked why the FBI was not doing more, you 
said, ``. . . to the extent that I can obtain additional resources to 
address child pornography'' you would ``be willing to do so.'' Since 
that time, Congress has increased annual funding for the FBI's 
``Innocent Images'' program from $10 million to $52 million. That's an 
increase of over 500 percent.
    Has the FBI increased the number of child exploitation cases 
referred for prosecution?
    Answer. The FBI does not track the number of cases referred to 
Federal, State, local, or international partners for prosecution. The 
Innocent Images program does, however, capture statistics related to 
arrests, information/indictments, and convictions.
    In fiscal year 2010, the Innocent Images National Initiative (IINI) 
Program documented the following statistical accomplishments: 954 
arrests; 933 information/indictments, and 983 convictions.
    Question. How many actual agents and analysts are assigned full-
time to child exploitation?
    Answer. The FBI measures special agents dedicated to a program by 
counting agent work years, i.e., funded staffing levels (FSL). In 
fiscal year 2010, the FBI utilized 245 FSL for Innocent Images. Also, 
there are 11 full-time Innocent Images intelligence analysts dedicated 
to the program at the national level, as well as additional field 
office intelligence analysts who work the program as assigned. Innocent 
Images also includes dedicated forensic examiners and management and 
program analysts.
    Question. Can you tell this subcommittee why--after Congress has 
increased FBI funding fivefold--we are hearing reports from law 
enforcement across the United States that the FBI's commitment of 
resources and personnel to the child exploitation crisis is decreasing?
    We know you are committed to fighting child exploitation and would 
appreciate your assistance in getting to the bottom of this.
    Answer. Time Utilization and Record Keeping (TURK) data clearly 
demonstrates the FBI's commitment of time and resources to the Innocent 
Images program. In 2001, TURK information reported the utilization of 
154 funded staffing level (FSL) for Innocent Images. In 2009, TURK 
information reported 251 special agent FSL for Innocent Images. This 
year, TURK is expected to surpass last year's numbers. In addition, the 
FBI continues to facilitate State and local prosecutions through FBI-
led Cyber Crime Task Forces and is responsible for successfully 
leveraging international support through its Innocent Images 
International Task Force (IIITF).

                               DNA POLICY

    Question. Director Mueller, reducing the DNA backlog is one of the 
single most important issues facing all of law enforcement. But in 
doing so, we must do it the right way and guarantee the integrity of 
the process.
    As stated in the FBI Lab press release, and I believe I heard in 
your statement, the FBI is performing ``a review to determine what 
improvements can be made to facilitate more efficient and timely 
uploading of outsourced DNA data into NDIS and no changes have been 
made to any procedures or standards to date''. Nearly every public 
crime lab in America, including the FBI's own advisory Scientific 
Working Group on DNA Analyses, are in favor of keeping the DNA 
technical review policy as it currently stands.
    After having seen the timing of the FBI lab's press release, 
correspondence from private DNA lab executives taking credit for 
pushing this initiative with the FBI, and celebratory statements 
praising the FBI for a position you just said the FBI has not changed, 
I hope you share my concern about the origin of this decision.
    I understand the FBI has a backlog of almost 300,000 DNA samples 
for the Federal DNA database. What are you doing to reduce this backlog 
and when do you plan to have it eliminated completely?
    Answer. The FBI received $30.6 million in the fiscal year 2009 
budget, which has enabled the FBI to hire staff, purchase high-volume, 
high-speed testing equipment, and increase automation. The robotics are 
fully implemented, a majority of the positions received are filled, and 
the new hires are either handling samples or completing their training. 
The FBI also reorganized its lab in order to maximize efficiency.
    As of July 1, 2010, the backlog for the National DNA Index System/
Combined DNA Index System database is 165,303 samples. The FBI has 
steadily reduced the backlog by over 147,000 samples from its peak of 
312,379 samples in December 2009. The FBI expects to eliminate the 
backlog in September 2010.
    Question. Did I hear you correctly in your statement that the FBI 
is not considering any policy changes regarding access to the National 
DNA Index System and access by private laboratories?
    Answer. The FBI is not considering policy changes regarding access 
by private laboratories to National DNA Index System/Combined DNA Index 
System. Administration of this system of law enforcement identification 
information is a governmental function and only government agencies 
should have direct access to the system.
    Question. Can I have your assurance that all voices of State and 
local crime labs will be at the table during any DNA policy review 
discussion?
    Answer. The FBI maintains an ongoing dialogue with the many various 
stakeholders of CODIS in an effort to better understand and represent 
the needs of the entire law enforcement and forensic communities 
regarding this valuable system. This dialogue is carried out, in part, 
through regular exchanges and meetings of the American Society of Crime 
Laboratory Directors (ASCLD) and the International Association of 
Chiefs of Police (IACP), as well as among professional and accrediting 
organizations; meetings with CODIS State administrators; an annual 
CODIS users meeting; and the Scientific Working Group on DNA Analysis 
Methods (SWGDAM). As participation in CODIS is voluntary, the FBI 
believes a cooperative approach with stakeholders ensures maximum 
participation and partnership.
                                 ______
                                 
           Questions Submitted by Senator George V. Voinovich

            INTELLECTUAL PROPERTY ENFORCEMENT PRIORITIZATION

    Question. I have been a long-time champion of increased efforts to 
enforce intellectual property (IP) rights in the United States and 
abroad. These crimes against American companies and American workers 
result in significant economic losses, and the nature of these products 
imposes serious health and welfare risks on the public. Unfortunately, 
a March 2008 GAO Report (GAO-08-157) found that among the five key 
Federal agencies that play a role in enforcing IP rights, such 
enforcement is not a top priority.
    Since this report was issued, and in light of passage of the PRO-IP 
Act and other Congressional actions to emphasize the need for an 
increased focus on IP enforcement, what specific steps or activities 
has the Federal Bureau of Investigation (the ``Bureau'') undertaken to 
increase the prioritization of intellectual property rights protection?
    Answer. The FBI's highest Intellectual Property Rights (IPR) 
priorities are theft of trade secrets and the distribution of 
counterfeit goods that pose an immediate threat to health and safety. 
The FBI's goal is to disrupt and dismantle international and domestic 
criminal organizations that manufacture, distribute, and procure 
intellectual property unlawfully.
    Through funding received in the fiscal year 2009 appropriation, and 
in accordance with the Prioritizing Resources and Organization for 
Intellectual Property (PRO-IP) Act, the FBI designated 31 special 
agents to solely work IPR investigations. Through funding received in 
the fiscal year 2010 appropriation, and in accordance with the PRO-IP 
Act, the FBI designated an additional 20 special agents to work IPR 
investigations. The disbursement of investigative resources provides 22 
of the 25 DOJ Computer Hacking and Intellectual Property (CHIP) units a 
local and highly qualified agent facilitating the surging of resources 
on the highest priority IP matters.
    In fiscal year 2010, the FBI Cyber Division conducted an extensive 
strategic review of the IPR program. This effort included a review of 
the threat information from our partners in industry associations, 
international and domestic law enforcement, and the Intelligence 
Community. In addition, the FBI reviewed and analyzed the current case 
portfolio to ensure the most significant threats were addressed. This 
analysis provided the foundation for the consolidation of certain IPR 
investigative resources into four enhanced squads in Los Angeles, New 
York, San Francisco, and Washington, DC. The enhanced squads will 
facilitate the development of Subject Matter Experts (SMEs) in priority 
IP areas and allow for the greater use of complex investigative 
techniques in penetrating, disrupting, and dismantling criminal 
organizations which thrive from the counterfeiting of goods.
    The FBI provided extensive IPR training to domestic and 
international partners, as well as significantly increased intensive 
training on Statutory Authorities; DOJ Enforcement Efforts; Major Case 
Initiatives; Case Studies; Intelligence Analysis for IPR Cases; Federal 
Partner Efforts (Department of Homeland Security--U.S. Immigration and 
Customs Enforcement, Department of Homeland Security--U.S. Customs and 
Border Protection, Food and Drug Administration, U.S. Postal Inspection 
Service); and Industry Subject Matter Expert Presentations (e.g., 
International Anti Counterfeiting Coalition). Currently, all special 
agents receive an overview of the laws governing IPR violations during 
New Agents Training (NAT) at the FBI Academy. Development is underway 
for a comprehensive core IPR curriculum that will be integrated into 
the standardized NAT and in furtherance of the Agent Career Track 
curriculum. All Cyber Career Track agents receive additional IPR 
specialized training during the 2 week, post NAT program. This training 
consists of IPR program overview, PRO-IP Act overview, case initiation/
investigative techniques, guidance regarding the importance of 
interagency partnerships, and the benefits of industry coordination 
efforts. The FBI also provides cross program training to IPR designated 
special agents in organized crime (OC) and counterintelligence matters. 
Conversely, OC and counterintelligence designated agents also receive 
IPR program training. This cross program training ensures the highest 
priority IPR investigations are developed regarding theft of trade 
secrets and those with an OC criminal enterprise nexus.
    The FBI established an Intelligence Fusion Group at the National 
Intellectual Property Rights Coordination Center (NIPRCC) with partner 
agencies to define the IPR threat picture/domain, share strategic 
intelligence, establish joint collection requirements, produce joint 
intelligence products, and develop the Intellectual Property Rights 
Committee National Strategy. In August 2010, the FBI deployed a special 
agent and an intelligence analyst team to Beijing, China, and New 
Delhi, India, to establish stronger working relationships in countries 
posing significant threats to U.S. Intellectual Property and to provide 
input to the IPR Domestic/International Domain Threat Assessment. The 
FBI is also an integral part of the Department of Justice's Task Force 
on Intellectual Property and worked closely with the administration to 
develop the Joint Strategic Plan on Intellectual Property Enforcement.
    Question. What are the next five specific steps the Bureau will 
undertake to continue to increase the priority of IP enforcement? 
Please provide a timeline to implement these steps.
    Answer. In coordination with National Intellectual Property Rights 
Coordination Center (NIPRCC) Intelligence Fusion Group, the FBI is 
leading the Domestic/International Domain Threat Assessment effort. 
This comprehensive intellectual property (IP) assessment will include 
not only information from NIPRCC partner agencies, industry, 
investigative case information, open source, and human source 
reporting, but also threat information from component teams in target 
rich international locations such as Beijing and New Delhi. Target date 
for completion is Spring 2011.
    FBI will increase case openings in the high priority investigation 
areas of theft of trade secrets and health and safety.
    The FBI intends to place an additional special agent in both 
Beijing and New Delhi for a period of 1 year to augment existing 
resources. This placement of additional resources in IP target rich 
locations overseas will support the FBI's international mission to 
defeat national security and criminal threats by building a global 
network of trusted partners and strengthening international 
capabilities. Dedicated personnel will enhance strategic partnerships 
with foreign law enforcement, intelligence and security services, and 
other government agencies by sharing knowledge, experience, 
capabilities, and exploring joint operational opportunities to increase 
international IP enforcement efforts. Target date for deployment is 
November 2011. The FBI will continue its involvement with the Joint 
Liaison Group (JLG), IP Working Group through attendance at the 
biannual meetings with the Chinese Ministry of Public Security (MPS) 
regarding joint criminal investigations. The next scheduled JLG meeting 
is November 2010. In support of this effort, the FBI will, in 
conjunction with the Computer Crimes and Intellectual Property Section, 
fund and provide approved training in selected cities in China. Target 
date is dependant upon China's MPS.
    The FBI will fund and lead the collaborative effort to design and 
establish the NIPRCC Web site. The site will support IPR enforcement, 
awareness, education, and networking through the following:
  --Incoming complaint submission
  --Facilitate inter-agency lead deconfliction
  --Provide IPR information, awareness, education, and outreach
  --Showcase upcoming enforcement training opportunities
    Full implementation is targeted for fiscal year 2011.
    The FBI is currently developing an IPR curriculum that will be 
integrated into the standardized New Agent Training (NAT) at the FBI 
Academy. Target date for completion is June 2011.
  relationship between intellectual property theft and crime/terrorism
    Question. A 2009 RAND study, as well as other analysis, concludes 
that there was clear evidence that terror groups, as well as organized 
criminal enterprises, engage in various forms of IP theft because it is 
a low-risk, high-profit enterprise. Are you aware of any specific 
Government-wide systematic review of the ties between and among terror 
groups and/or organized crime and IP theft? If not, are you aware of 
any plans within the Department of Justice or any other department or 
agency to conduct such a review?
    Answer. The FBI collaborated and produced a joint National 
Intellectual Property Rights Coordination Center (NIPRCC) intelligence 
product entitled ``Intellectual Property Crime: Threats to the United 
States'' dated 06/24/2010 in which the following information was 
presented as it relates to ties among terror groups and/or organized 
crime and IP theft:
  --The NIPRCC assesses with high confidence that intellectual property 
        crime poses a more far-reaching and serious threat than just 
        economic loss to the rights holder by putting public safety at 
        risk, funding organized crime and terrorist activity, and 
        eroding the United States' technological advantage.
  --As part of the previously described Domestic/International Domain 
        Threat Assessment effort, the FBI, in conjunction with the 
        NIPRCC, will evaluate available intelligence regarding possible 
        ties between and among terror groups and/or organized crime and 
        IP theft. This assessment will seek to identify intelligence 
        gaps and make recommendations for further actions to address 
        the existing and/or emerging threat.
     the national intellectual property rights coordination center
    Question. As noted in the 2008 GAO Report, the National 
Intellectual Property Rights Coordination Center (the ``Center'') was 
created to improve and coordinate Federal IP enforcement efforts, and 
its mission has received specific expressions of support from members 
of this subcommittee over a number of years. Despite this support, the 
GAO Report stated that for a variety of reasons the Bureau's 
participation in the Center has been spotty to non-existent.
  --Please provide a detailed description of the Bureau's role in 
        supporting the Center.
  --In late 2008, the Center relocated to a new facility. Since this 
        move, please provide a description of the Bureau's staffing 
        resident to the facility, including a description of the roles 
        being played by these employees. In addition to any resident 
        staff, please describe how other Bureau staff has worked with 
        the Center to coordinate IP enforcement initiatives and 
        investigations.
    Answer. On April 15, 2010, the FBI's IPR Unit (IPRU) collocated 
within the National Intellectual Property Rights Coordination Center 
(NIPRCC).
  --Five FBI Headquarters (HQ) special agents assigned to the 
        operational IPRU, which is embedded within the NIPRCC.
    --Three FBI-HQ agents assigned to the NIPRCC conduct investigations 
            and deconflict leads and case information with partner 
            agencies.
    --Two FBI-HQ agents assigned to the NIPRCC provide strategic 
            guidance, facilitate the development of intelligence, and 
            oversee the field office IPR programs, agents, and 
            investigations.
    The FBI established an Intelligence Fusion Group (IFG) at the 
NIPRCC with the partner agencies to define the IPR threat picture/
domain, share strategic intelligence, establish Intellectual Property 
Rights Commission joint collection requirements, produce joint 
intelligence products, and develop the IPRCC National Strategy. Members 
of the IFG include FBI, U.S. Immigration and Customs Enforcement, U.S. 
Postal Inspection Service, U.S. Patent and Trademark Office, U.S. 
Customs and Border Protection, National Crime Intelligence Service, and 
the Food and Drug Administration. Through this process, the FBI led the 
drafting of the June 2010 National Joint Product Intelligence 
Assessment entitled, ``Intellectual Property Crime: Threats to the 
United States.'' Through the IFG, the FBI continues its development of 
Threat Tasking Packages (TTPs) based on established IPR Collection 
Requirements. Once completed, the TTPs will be forwarded to field 
offices nationwide whose responses will help formulate a National 
Domain Threat picture.
    Through a coordinated effort by the partner agencies at the NIPRCC, 
the ICE Field Operations unit oversees a weekly coordination and 
investigative case deconfliction meeting. During this meeting partner 
agencies discuss recently initiated investigations and task the partner 
agencies to query their respective databases for any investigative 
overlap. This coordination streamlines the effective use of limited 
resources. This coordination meeting is also used to deconflict 
incoming leads and to investigate opportunities to initiate joint 
agency investigations.
    Question. If no staff has been resident at this new facility, 
please provide a detailed explanation of why. When do you expect such 
staffing to be completed?
    Answer. The FBI currently has personnel dedicated to this facility.
    Question. Outside the efforts of the Center, what programs has the 
Bureau created to reach out to companies, trade associations, and other 
stakeholders in terms of improving referrals and investigations related 
to IP enforcement?
    Answer. The FBI strengthened its coordination with law enforcement 
and industry point of contacts regarding Organized Crime as 
demonstrated by participation and shared training during the 7th Annual 
International Conference on Asian Organized Crime and Terrorism in St. 
Paul, Minnesota, May 16-21, 2010. This annual conference brings 
together law enforcement officers and industry from all over the world 
to strategize and learn about the latest trends in Asian Organized 
Crime. A segment of this training focused on counterfeiting activities 
of Asian Organized Crime Groups.
    The FBI provided comprehensive intellectual property rights program 
training in September 2009 for those special agents funded by the act, 
which included industry subject matter expert presentations (e.g., 
International Anti Counterfeiting Coalition). This interface with IP 
industry representatives established points of contacts for case 
referrals.
    The FBI has led a Major Case Initiative, Fractured Skies, focusing 
on counterfeit aircraft investigations since 2007 and is now 
coordinating the initiative from the National Intellectual Property 
Rights Coordination Center (NIPRCC). Members of the Fractured Skies 
Task Force (FSTF) consist of representatives from Immigration and 
Customs Enforcement, National Aeronautics and Space Administration, Air 
Force--Office of Special Investigations, Defense Criminal Investigative 
Service, Department of Transportation--Office of Inspector General, 
Federal Aviation Administration, Naval Criminal Investigative Service, 
United States Coast Guard, and the United States Patent and Trademark 
Office. The goal of the FSTF is to share intelligence, report and refer 
case information, and initiate joint investigations regarding 
counterfeit aircraft parts.
    FBI provided subject matter expert training during aircraft 
industry conferences, such as Surface Mount Technology Association 
Center for Advanced Lifecycle Engineering and Aerospace Industries 
Association. This interface with industry representatives also 
established points of contacts for case referrals.
    During the 2010 International Anti-counterfeiting Coalition spring 
conference co-sponsored by the U.S. Immigration and Customs 
Enforcement, the FBI participated in roundtable discussions regarding 
the IP threat and future usage of best practices. This event was the 
launch of the NIPRCC Informal Advisory Working Group, mirroring the FBI 
led quarterly industry meetings. Both of these working groups, at the 
management and executive level, will be coordinated and held through 
the NIPRCC.
    The FBI continues to support InfraGard public outreach efforts 
(with over 37,000 members) and partners with the National White Collar 
Crime Center to form the premier cyber crime reporting and referral 
portal at the Internet Crime Complaint Center (www.ic3.gov).
    Question. If the Bureau were to receive additional IP enforcement 
funding, for example $10 million, please describe how you could use 
such funding to increase IP enforcement activities, and how quickly 
such resources could be deployed and the effect such resources would 
have on reducing IP theft.
    Answer. Should the FBI receive an additional $10 million to 
increase intellectual property enforcement activities, the funding 
would be used to hire additional personnel and for non-personnel 
funding as delineated below:
  --Twenty-seven Special Agent positions (25 field positions, 2 Program 
        Managers assigned to the National Intellectual Property Rights 
        Coordination Center (NIRPCC);
  --Two Professional Support Employee positions (Management Program 
        Analysts) assigned to the NIPRCC;
  --Ten Field Ratio, Professional Support positions;
  --One Field Ratio, Information Technology position;
  --Six Field Ratio, Investigative Support positions; and
  --$175,000 in non-personnel funding
    The above cited personnel would be deployed within a 6 to 12 month 
period upon receipt of congressional funding. This time period allows 
for processing of Field Office intra-divisional personnel realignments 
and New Agent Training, hiring and transfers. Additional agents would 
result in increased case openings on high priority threat areas, which 
would lead to the disruption and dismantlement of more organized, 
international intellectual property rights criminal enterprises.

    Senator Mikulski. The subcommittee will temporarily recess 
and reconvene in Hart 219, the Intelligence Committee hearing 
room, to continue the discussion in a classified arena.

                          SUBCOMMITTEE RECESS

    This subcommittee stands in recess until Thursday, April 
22, at 10 a.m., when we are going to take the testimony of the 
NASA Administrator.
    Thank you very much.
    Mr. Director, we will see you over there. We will convene 
no later than 11:30 a.m.
    Mr. Mueller. Thank you.
    [Whereupon, at 11:15 a.m., Thursday, April 15, the 
subcommittee was recessed, to reconvene at 10 a.m. Thursday, 
April 22.]


  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2011

                              ----------                              


                        THURSDAY, APRIL 22, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Barbara A. Mikulski (chairwoman) 
presiding.
    Present: Senators Mikulski, Shelby, Hutchison, Voinovich, 
and Cochran.
    Also present: Senators Bennett and Hatch.

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

STATEMENT OF HON. CHARLES F. BOLDEN, JR., ADMINISTRATOR

            OPENING STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Good morning, everybody. The Commerce, 
Justice, Science Subcommittee on Appropriations will come to 
order.
    Today, we will be meeting with the Administrator and very 
interested parties, including our good Senator from Utah, 
Senator Hatch, on the NASA, the national space agency's fiscal 
year 2011 budget.
    I would like to make my opening remarks, and then turn to 
my colleague, and then, Senator Hatch, to you. Is that 
agreeable, Senator?
    Senator Hatch. Of course, it is.
    Senator Mikulski. I know the Judiciary Committee is 
meeting.
    Well, we are going to be welcoming Administrator Bolden, of 
course, our colleague Senator Hatch, and then Mr. John Frost, a 
member of the NASA Aerospace Safety Advisory Panel, who will be 
speaking to the subcommittee to ensure that no matter what we 
decide, we ensure the safety of the astronauts.
    The 2011 NASA budget is $19 billion, $276 million more than 
2010. The top highlight of this new budget includes major 
investments in science--$5 billion in 2011. This is an 
especially heartened plus-up in Earth science. We will be 
talking about that in a minute.
    The other that we think is quite heartening is extending 
the life of the International Space Station to continue its 
operation through 2020 and possibly beyond, meaning better 
value for our dollar and better value for our astronauts' 
efforts. We have spent a lot of time building the space 
station. Now we have got to spend our time using the space 
station.
    It is time to retire the space shuttle, and the President 
provides for that at the end of calendar 2010--only three more 
flights to go after 30 years of exceptional and honorable 
service. The President's budget also increases funding for 
aeronautic research, $72 million above 2010, and a must-do to 
keep America competitive.
    There are extremely dramatic changes to the Constellation 
program to be--and that will be a subject, I know, of a great 
deal of focus. And in the area of the Constellation program, we 
want to be sure and clarify, is the President talking about 
canceling the Constellation program or restructuring the 
Constellation program? It will be a major source of, I know, a 
deep Earth probe from this subcommittee.

                             SCIENCE BUDGET

    I just want to come back to the science budget which I 
think, while we are going to focus a lot on Constellation, we 
must focus on the other aspects of NASA. There is this strong 
emphasis on Earth science, and the budget also includes $1.5 
billion for planetary science, for research on asteroids, Mars, 
Saturn, beyond--all that we need to do in order to get ready to 
go there.
    There is also within the astrophysics budget request $688 
million for cosmic origins. We would note for our subcommittee 
to remember the astrophysics appropriation also supports the 
Hubble Space Telescope, celebrating its 20th anniversary in 
space, and also the building of the James Webb telescope.
    We look at the field of heliophysics and how the Sun's 
solar flares affect our lives, including the solar probe for a 
launch. We note how important that is because solar flares 
could take down our power grid, and all that we need to know 
about early warnings and information is there.

                           HUMAN SPACE FLIGHT

    As I said, the President retires the shuttle, and we want 
to work with the subcommittee and with all in Florida and 
connected to the shuttle for an honorable retirement.
    Let us go directly to the area of human space flight. The 
area of controversy is huge. NASA requests $2.4 billion for 
exploration. It is below the 2010 level by $1.4 billion. That 
is big. The budget originally said cancel the Constellation 
program. The President, in going to Florida, elaborated and 
some say clarified that we are not canceling. He is not 
recommending the cancellation of Constellation, but rather 
restructuring it. This is of very, very, very keen interest in 
this subcommittee.

                             CONSTELLATION

    Constellation was to be our way to go to the Moon and to 
Mars. A crew vehicle made up of Ares the rocket, Orion the crew 
capsule. The cargo vehicle made up of Ares V and also the Crew 
Moon Lander.
    Now, just let me say what my position is. I need to know 
more, and that is the purpose of this hearing. And if we need 
to have more, we are going to do it. Congress needs to know 
more. We owe it to the American people. We owe it to the 
taxpayers. And we owe it to the astronauts to be very clear 
about what we are going to do and how are we going to do it. I 
need to know more details.
    I want to know if this is the program that the Congress and 
the American people are going to support from one 
administration to the next. We cannot reinvent NASA every 4 
years. Every new President can't have a new NASA agenda. That 
is the purpose of today's hearings. We are here to get the 
facts. It is not about finger-pointing. It is about 
pinpointing.
    I have been in contact with the leaders in the space field, 
including our colleague, Senator Shelby, as well as Bill 
Nelson, our Commerce Committee authorizer. I outlined a basic 
set of principles that will guide me in this hearing, and it 
will guide me as I do the appropriation.

                                 SAFETY

    First of all, no matter what we do, my No. 1 priority is 
astronaut safety. We must have a reliable transportation system 
to protect our astronauts during launch, mission execution, and 
reentry.
    And I want to be sure that we are applying the same safety 
standards for deep space exploration as we will for low-orbit 
work. We want to be sure that the astronauts, when they suit 
up, know that we have cared for them and want to protect them.

                       THE NEED FOR A DESTINATION

    Second, we need a destination. NASA has been a mission-
driven agency since its creation. Having a clear direction and 
a clear destination tends to keep us focused on what we need to 
do, the budget to which we need to adhere, and the involvement 
of our international partners.
    I would hope that whatever we do, to focus on the fact that 
we do need a balanced space program that includes human 
exploration, a reliable and safe transportation system for both 
low-orbit and deep space, robust science to save our science 
and explore our universe, and aeronautics research to keep our 
country competitive. The key purpose of the space exploration 
must always include science and not only be derring-do 
missions. We also need a plan for whatever we decide for 
workforce transition.
    The retirement of the space shuttle is anticipated to 
proceed as planned. This causes job dislocation anyway. We 
don't want to be dismissive of that. We have got to be mindful 
of that. This is really a big transition. Then, if we are going 
to cancel or restructure Constellation, it causes major 
dislocation in a variety of States, all of whom I know will 
articulate their concerns.

                          CONTRACT TERMINATION

    In protecting the astronauts, we also need to protect the 
taxpayer. This new plan has significant issues with contract 
termination. We need to be sure that we are not paying for 
closing down one, or, are we going to be paying down one set of 
contracts to close them out, and then paying to start new 
contracts? It is very complex, and I am puzzled, quite frankly, 
about how we are going to do it.
    We also want to be sure that we do not lose our technology, 
no matter what the cancellation or transition is, and we do not 
lose our industrial base.
    So we look forward to hearing where we are going to go, how 
we are going to get there, how we are going to protect the 
astronauts, and how we are going to protect the taxpayer. We 
have a lot of questions as we launch this hearing.
    I would like to now turn to my colleague, Senator Shelby.

             OPENING STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. Thank you, Madam Chairwoman, for having 
this critical hearing to examine the administration's 
continually changing plans for the future of human space 
flight.
    The President's new plan, like his old one, shows that 
NASA's leadership team still does not understand the issues at 
stake. While the administration may have realized that its 
initial budget request was a failure, the new plan from the 
same team still ends this country's human space flight program.
    Mr. Administrator, your plan does nothing more than 
continue the abdication of America's leadership in space. The 
President's own Augustine Commission highlighted what we all 
believe, that our human space flight program must be worthy of 
a great nation. I have read NASA's budget, and I find it to be 
anything but great.
    The President's plan only ensures that for decades to come, 
the United States will be both subservient to and reliant on 
other countries for our access to space. Future generations 
will learn how the Chinese, the Russians, and even the Indians 
took the reins of human space exploration away from the United 
States.
    This request, I believe, abandons our Nation's only chance 
to remain the leader in space and instead chooses to set up a 
welfare program for the commercial space industry. It is a 
plan, I believe, where the taxpayer subsidizes billionaires to 
build rockets that NASA hopes one day will allow millionaires, 
and our own astronauts, to travel to space.
    The administration claims that if we build up this so-
called commercial rocket industry, the private sector market 
will magically materialize to produce more expendable launches 
at a lower cost, earlier than the schedule of Constellation. 
What NASA and this administration have failed to disclose to 
the U.S. taxpayer is that NASA has no verifiable data to 
support their claim.
    The head of the Office of Science and Technology Policy, 
Dr. Holdren, as well as you, Mr. Administrator, have testified 
that NASA did not conduct independent market research to show 
that this private launch market even exists.
    Let me repeat that. The White House adviser on science and 
technology policy testified that there was no real research or 
verification done on the viability of the administration's 
approach for the commercial market to sustain America's space 
future. Instead, this administration is relying on information 
provided by the very people who stand to receive billions in 
taxpayer subsidies to promote their unproven products.
    The primary source the administration can cite is a 2002 
Futron study that has proven to be overly optimistic. This 
study was based on a survey of affluent individuals that 
predicted 33 commercial passengers would have flown between 
2002 and 2010. To date, eight space tourists have gone beyond 
sub-orbital space.
    Former Martin Marietta chief executive Thomas Young 
testified before Congress that the Air Force, in the 1990s, 
tried to commercialize their space program. The Air Force then, 
as NASA is proposing now, ceded top-level management of the 
national security space program to industry under a contracting 
approach called Total System Performance Responsibility.
    TSPR required Air Force project managers to stand back and 
let industry have total responsibility of the space systems 
they created for the U.S. Government. Mr. Young stated, and I 
will quote, that ``the results were devastating, and the 
adverse impact is still with us today.'' Those are his words. 
This misguided program ended up costing the taxpayers billions 
to correct.
    Also in the 1990s, commercial companies made significant 
investments in evolved expenditure and launch vehicles based on 
a commercial market that never materialized to support their 
vehicles. In the end, the Government had to keep this domestic 
commercial launch provider alive with billions of taxpayers' 
dollars.
    We have made these mistakes before, Mr. Administrator. 
Albert Einstein said the definition of insanity is doing the 
same thing over and over again and expecting different results. 
I believe that is the case here.
    With this past experience in mind, where are the recent, 
truly independent market analysis of the booming commercial 
sector for delivering people to low-Earth orbit and back? We 
should make those public and let there be a real debate about 
whether taxpayers should shoulder the cost of building space 
rides for millionaires.
    The truth is when troubles mount and a commercial rocket 
market again fails to materialize, the taxpayers, I believe, 
will be called upon to bail out these companies and their 
investors, a recurring theme with this administration.

                                 SAFETY

    Other than the Augustine Commission's cursory examination 
of safety, there is no evidence that NASA has done any in-depth 
analysis related to the safety concerns of putting humans on a 
commercial rocket. I remain steadfast in insisting on safety as 
the first priority for the space program. Nothing less is 
acceptable.
    And contrary to NASA's position on commercial safety, the 
Aerospace Safety Advisory Panel, whose sole focus is to ensure 
that lives are not needlessly lost in our space program, stated 
in their 2009 report that no commercial manufacturer is 
currently human rating requirements qualified, despite some 
claims and beliefs to the contrary.
    This is after the 2008 report, written in part by you, Mr. 
Administrator, declaring that commercial vehicles, I will quote 
you, ``are not proven to be appropriate to transport NASA 
personnel.'' I will ask some questions about how you could, in 
2008, state that this industry was incapable of safely 
transporting astronauts, and yet today say just the opposite.
    Madam Chairwoman, I find this abrupt change in opinion to 
be without evidence and highly suspect. NASA's safety experts 
agree that current commercial vehicles are untested and 
unworthy of carrying our most valuable assets--our Nation's 
astronauts.
    As a resounding rebuke of the Augustine options and their 
biased and overly optimistic view of newcomers to commercial 
space, the Aerospace Safety Advisory Panel reaffirmed what has 
been known for some time, and I will quote, ``To abandon Ares I 
as a baseline vehicle for an alternative without demonstrated 
capability nor proven superiority, or even equivalence, is 
unwise and probably not cost-effective. The ability of any 
current COTS design to close the gap or even provide an 
equivalent degree of safety is speculative. Switching from a 
demonstrated, well-designed, safety-optimized system to one 
based on nothing more than unsubstantiated claims would seem a 
poor choice. Before any change is made to another architecture 
the inherent safety of that approach must be assessed to ensure 
that it offers a level of safety equal to or greater than the 
program of record.''

            COMMERCIAL ORBITAL TRANSPORTATION SYSTEM (COTS)

    A year ago, I had some very strong criticisms of the COTS 
program, and those criticisms are just as valid today as they 
were then.
    This request represents nothing more than a commercially 
led, faith-based space program. Today, the commercial providers 
that NASA has contracted with cannot even carry the trash back 
from the space station much less carry humans to or from space 
safely.
    These providers have yet to live up to the promises they 
have already made to the taxpayer. Not a single rocket or ounce 
of cargo has been launched since we met last year. Instead of 
requiring accountability from these companies, the President's 
budget proposes to reward those failed commercial providers 
with an additional bailout.
    The President's retreat from his initial proposal last week 
was rolled out in the shadow of the rocket that is the basis of 
the new commercial vision for the future of human space flight. 
Yet this visionary company's first foray into rocketry--the 
Falcon 1--was 4 years delayed in launching a successful rocket. 
After three failures and a cost escalation of 50 percent, it 
finally got its rocket off the ground.
    The Falcon 9, the very vehicle the President touted a week 
ago as the future for NASA, is 2 years behind schedule and 
counting. Yet the President's budget rewards the commercial 
space industry with an additional $312 million bailout to 
deliver on already-signed contracts in the hope that they will 
actually be able to deliver something someday. This equals a 60 
percent cost overrun for an unproven commodity.
    Given the current record of repeated failure to deliver on 
their agreements, the continued schedule delays, and now the 
cost overruns, I believe that the President canceled the wrong 
rocket program.
    Mr. Administrator, this plan lacks vision, is unrealistic, 
and jeopardizes our entire human space exploration program. I 
am astounded by the enthusiasm with which NASA leadership has 
maligned the years of hard work by your own engineers.
    Congress has a responsibility, I believe, to those whom 
your plan will put in the unemployment line, something your 
leadership team dismisses as mere collateral damage. However, 
we do not see it that way. To us, they are people who already 
have been devoting and maintaining the leadership and heritage 
of 50 years of space flight.
    The jobs that are promised to be created will hardly 
materialize before the pink slips begin to arrive. Once those 
highly skilled workers leave, they will likely never come back. 
Given the way they have been treated so far this year, I would 
hardly blame them.
    Now, you are even attempting to undermine the letter and 
the spirit of the law as it relates to the current funding of 
Constellation. Your destructive actions toward the 
Constellation program will only ensure that members cannot 
trust you. Mr. Administrator, you are creating an atmosphere 
where you and your leadership team have become a major 
impediment, I believe, to moving forward.
    Under the administration's plan, NASA, as we know it, will 
never be the same. Today, NASA is immediately associated with 
success in spite of insurmountable odds. There is a deeply 
ingrained respect for what NASA can do because of what NASA has 
done and is doing today.
    If this proposal is the best that we can do as a Nation, 
then we do not deserve, I believe, the rich heritage of human 
space flight, which previous generations sacrificed for to make 
the country's space program what it is--great.
    The proposed NASA budget abandons most of Constellation in 
favor of an unproven commercial option that will devastate any 
goal the United States has in exploring beyond low-Earth orbit. 
The President's announcement of his new plan last week merely 
replaced one visionless plan with another.
    It is clear that the administration, and more specifically 
you, Mr. Administrator, do not believe that American leadership 
in human space flight is a priority worth fighting for. No 
matter how many summits, press releases, or parades you 
conduct, hope is not a strategy. This plan would destroy 
decades of U.S. space supremacy by pinning our hopes for 
success on unproven commercial companies. This budget is not a 
proposal for space exploration worthy of this great Nation.
    Thank you.
    Senator Mikulski. Senator Hatch?

                  STATEMENT OF SENATOR ORRIN G. HATCH

    Senator Hatch. Well, thank you, Madam Chairwoman, Senator 
Shelby, Senators Cochran, Bennett, Voinovich, and Hutchison. It 
is a privilege for me to be with you. I would ask, Madam 
Chairwoman, that my full statement be placed in the record.
    Senator Mikulski. Without objection.
    [The statement follows:]

              Prepared Statement of Senator Orrin G. Hatch

    Chairwoman Mikulski, Senator Shelby, Senator Bennett, and Members 
of the Appropriations Subcommittee on Commerce, Justice, Science, and 
Related Agencies, thank you for affording me the opportunity to make 
these brief comments during the subcommittee's hearing on the National 
Aeronautics and Space Administration's (``NASA'') fiscal year 2011 
budget request.
    For more than 50 years, our Nation has made a commitment to lead 
the world in space exploration. This was never more eloquently 
expressed then by President John F. Kennedy when he said: ``. . . our 
leadership in science and industry, our hopes for peace and security, 
our obligations to ourselves as well as others, all require us to . . . 
become the world's leading space-faring nation.'' I believe NASA 
Administrator, Charlie Bolden, recently echoed this sentiment when he 
expressed his strong support for a space program that inspires the 
creation of the technological innovations which are essential to our 
Nation's future prosperity.
    Therefore, I am puzzled by the administration's fiscal year 2011 
NASA budget request.
    This proposal calls for the termination of Project Constellation, 
and its associated rocket systems, the Ares I and ``heavy-lift'' Ares 
V. As a result, if ratified by Congress, our Nation could capitulate 
its position as the world leader in space exploration as well as forgo 
the technological harvest which has historically accompanied such 
endeavors.
    Let me be clear, if Project Constellation is cancelled, our Nation 
will not, in the near-future, be able to travel beyond low-Earth orbit. 
This is ironic considering the President's and NASA Administrator 
Bolden's recent statements that the ultimate objective of our space 
program is Mars.
    To be fair, the President has spoken of choosing a new heavy-lift 
system by 2015. Yet, in a time of greatly diminished financial 
resources, we cannot afford to throw away the $10 billion our Nation 
has invested in Project Constellation and the Ares systems and then 
spend billions more to research and develop new heavy-lift 
technologies. This point is especially germane since the other heavy-
lift technologies contemplated may or may not match the capabilities of 
solid rocket motors.
    I believe Neil Armstrong, the first man on the moon, James Lovell, 
the commander of Apollo 13, and Eugene Cernan, the commander of Apollo 
17, said it best. If we follow the administration's plan ``we will have 
lost the many years required to recreate the equivalent of what will be 
discarded.''
    This conclusion was echoed by the independent Aerospace Safety 
Advisory Panel, which in 2009 stated ``to abandon Ares I as a baseline 
vehicle for an alternative without demonstrated capability nor proven 
superiority, or even equivalence, is unwise and probably not cost-
effective.''
    In other words, an alternative to Project Constellation will take 
years of additional time and cost billions more.
    Some opponents argue Project Constellation is a troubled endeavor. 
The truth is quite to the contrary. Just last fall, the world witnessed 
the launch of the Ares I-X rocket from the Kennedy Space Center in a 
stunning and successful test. In addition, the heavy-lift Ares V is 
designed to leverage the engineering and technologies used on Ares I. 
Therefore, one can surmise, in the end, there will be overall savings 
using this comprehensive approach versus the piecemeal approach 
proposed by the administration. Together, the Ares system of rockets 
provides our Nation and our astronauts with the most reliable, most 
affordable, and safest means of reaching low-Earth orbit and beyond--a 
fact which NASA itself has affirmed.
    Let me emphasize that point. Ares is the safest system. Nothing 
comes close. The 2005 NASA Exploration Systems Architecture Study, of 
which Administrator Bolden was a member of the study's independent 
review team, concluded the Ares system is 10 times safer than the 
current Space Shuttle. This was reaffirmed by the Aerospace Safety 
Advisory Panel which stated that ``the ability of any current COTS 
design to close the gap or even provide an equivalent degree of safety 
is speculative.'' The Panel also concluded that ``switching from a 
demonstrated, well-designed, safety-optimized system to one based on 
nothing more than unsubstantiated claims would seem a poor choice.''
    This only underscores the administration's proposal relies on 
utilizing unproven private businesses as the means to transport our 
astronauts to the International Space Station. It also should be noted, 
many of the companies which are expected to bid for these contracts are 
start-ups. These new start-ups do not have any experience in carrying 
humans, or even cargo, into space. In addition, even under these 
corporations' most optimistic near-term proposals, their systems will 
not be able to travel beyond low-Earth orbit.
    Some have argued, in this difficult fiscal environment, Project 
Constellation is simply too expensive and should fall victim to the 
budget ax. Again, this is not the case. The administration's proposed 
plan actually increases NASA's budget by more than $6 billion over the 
next 5 fiscal years. In addition, cancelling the Ares system, and the 
plans associated with it, will cost the taxpayer an addition $2.5 
billion because of contractual obligations. On top of these costs, 
since private businesses have never previously developed a low-Earth 
orbit system to transport humans to the International Space Station or 
a heavy-lift system to explore deeper into the cosmos, one can 
naturally hypothesize lengthy delays and expensive cost overruns for 
this novel venture. It is also not hard to imagine when the inevitable 
delays and cost overruns occur that these private enterprises will turn 
to the Government with requests for additional funds.
    Project Constellation should also be seen as an investment in our 
Nation's future economic competitiveness. In fact, studies have shown 
for every dollar invested in space exploration, seven dollars has been 
returned to our economy through the development of new technologies and 
industries. For example: the revolutionary developments in computers, 
smoke detectors, water filters, portable X-ray machines, Computer-Aided 
Topography, Magnetic Resonance Imaging technologies, and advanced 
plastics are a few of the thousands of products which were developed 
because of the space program. In addition, I learned, just this week, 
the Boeing Corporation's work on the International Space Station's 
electrical systems led to the development of the electrical systems for 
the 787 Dreamliner, which will be a major U.S. export for the 
foreseeable future.
    Congress should also consider the nexus between the Ares system and 
the ability of our Nation to maintain future strategic deterrent 
programs. Both the Ares rockets and our land-based Intercontinental 
Ballistic Missile (ICBM) force use solid-rocket motors. Our Nation will 
shortly complete the modernization of our ICBM fleet. Since the early 
1990s, NASA has served as the backbone of the solid-rocket motor 
industry, providing stability to offset the often inconsistent 
production requirements of the military and commercial sector. 
Therefore, the termination of Ares would cripple the solid-rocket motor 
industrial base and could push it beyond recovery for this and future 
generations.
    This was one of the primary reasons I authored an amendment which 
was included in the fiscal year 2008 Defense Authorization Act which 
required the Department of Defense to conduct a study on the status, 
capability, viability, and capacity of the solid-rocket industrial 
base. The report concluded maintaining the solid-rocket industrial base 
is ``essential to meeting national security objectives.'' The report 
also stated ``delays in the NASA Ares program could have significant 
negative impact on the large solid-rocket motor prime contractor 
industrial base and more significantly on the sub-tier supplier base, 
specifically material suppliers.''
    Accordingly, I arranged for the inclusion of a second amendment in 
the fiscal year 2010 Defense Authorization Act. This additional 
amendment requires the Secretary of Defense to devise a plan to 
maintain the solid-rocket industrial base in order to sustain currently 
deployed strategic and missile defense systems and preserve an 
intellectual and engineering capacity to support the development and 
production of next-generation rocket motors. I look forward to studying 
its conclusions when it is published in July of this year.
    However, I must admit my surprise upon learning, during a meeting 
between myself and Administrator Bolden last Friday, that NASA and 
Department of Defense officials have only recently begun to discuss the 
future of maintaining the solid-rocket industrial base. Frankly, I do 
not understand how NASA could have devised its budget request without 
closely coordinating its proposal with the Department of Defense, 
especially since the solid rocket industrial base is ``essential to 
meeting national security objectives.''
    Finally, cancelling Project Constellation will have a profound 
effect on the employment of thousands of jobs during a period of 
financial uncertainty. Studies indicate approximately 12,000 jobs will 
be lost when the Space Shuttle program ends next year and at least 
another 12,000 will lose their jobs if Project Constellation is 
terminated. Many of these individuals have unique skills which are not 
easily transferred to other positions.
    Therefore, based upon these facts, I can only reach one conclusion. 
If Project Constellation is cancelled, our Nation's objective of 
sending an astronaut to Mars will be replaced with the fleeting hope 
that one day, some day, we will be able to explore the cosmos again. In 
addition, our national security could be irretrievably harmed.
    Again, Chairwoman Mikulski, Senator Shelby, Senator Bennett and 
members of the subcommittee, thank you for affording me this 
opportunity to share my thoughts with the subcommittee.

    Senator Hatch. Well, thank you.
    I am puzzled. I have to admit I am puzzled by the 
administration's request. This proposal calls for the 
termination of Project Constellation and its associated rocket 
systems, the Ares I.
    Senator Mikulski. Senator Hatch, we really want to hear 
every word.
    Senator Hatch. Should I move a little closer?
    Senator Mikulski. Is the microphone on, sir?
    Senator Hatch. Yes, it is on. Senator Feinstein always 
says, ``Orrin, quit mumbling.'' I have got to speak a little 
louder, I am afraid.
    Well, like I say, this proposal calls for the termination 
of Project Constellation and the associated rocket systems, the 
Ares I and the heavy-lift Ares V. As a result, if ratified by 
Congress, our Nation could capitulate our position as the world 
leader in space exploration, as well as forego the 
technological harvest which has historically accompanied such 
endeavors.
    Let me be clear, if Project Constellation is canceled, our 
Nation will not in the near future be able to travel beyond 
low-Earth orbit. This is ironic considering the President's and 
NASA Administrator Bolden's recent statements that the ultimate 
objective of our space program is Mars.
    To be fair, the President has spoken of choosing a heavy-
lift system by 2015. Yet in a time of greatly diminished 
financial resources, we cannot afford to throw away the $10 
billion our Nation has invested in Project Constellation and 
the Ares systems and then spend billions more to research and 
develop new heavy-lift technologies. This point is especially 
germane since the other heavy-lift technologies contemplated 
may or may not match the capabilities of solid rocket motors.
    I believe Neil Armstrong, the first man on the Moon, James 
Lovell, the commander of Apollo 13, and Eugene Cernan, the 
commander of Apollo 17, said it best. If we follow the 
administration's plan, ``we will have lost the many years 
required to re-create the equivalent of what will be 
discarded.''
    This conclusion was echoed by the independent Aerospace 
Safety Advisory Panel, which in 2009 stated ``to abandon Ares I 
as a baseline vehicle for an alternative, without demonstrated 
capability nor proven superiority, or even equivalence, is 
unwise and probably not cost-effective.''
    In other words, an alternative to Project Constellation 
will take years of additional time and cost billions of dollars 
more.
    Some opponents argue Project Constellation is a troubled 
endeavor. The truth is quite to the contrary. Just last fall, 
the world witnessed the launch of the Ares I-X rocket from the 
Kennedy Space Center in a stunning and successful test. In 
addition, the heavy-lift Ares V is designed to leverage the 
engineering and technologies used in Ares I.
    Therefore, one can surmise in the end there will be overall 
savings using this comprehensive approach versus the piecemeal 
approach proposed by the administration. Together, the Ares 
system of rockets provides our Nation and our astronauts with 
the most reliable, most affordable, and safest means of 
reaching low-Earth orbit and beyond.
    Let me emphasize that point. Ares is the safest system. 
Nothing else comes close. The 2005 NASA Exploration Systems 
Architecture Study, of which Administrator Bolden was a member 
of the study's independent review team, concluded the Ares 
system is 10 times safer than the current space shuttle.
    Now, this was reaffirmed by the Aerospace Safety Advisory 
Panel, which stated, ``The ability of any current COTS design 
to close the gap or even provide an equivalent degree of safety 
is speculative.'' The panel also concluded ``switching from a 
demonstrated, well-designed, safety-optimized system to one 
based on nothing more than unsubstantiated claims would seem a 
poor choice.''
    Now this only underscores the administration's proposal 
that relies on utilizing unproven private businesses as the 
means to transport our astronauts to the International Space 
Station. It also should be noted, many of the companies which 
are expected to bid for these contracts are startups.
    These new startups do not have any experience in carrying 
humans or even cargo into space. In addition, even under these 
corporations' most optimistic near-term proposals, their 
systems will not be able to travel beyond low-Earth orbit.
    Some have argued in this difficult fiscal environment 
Project Constellation is simply too expensive and should fall 
victim to the budget ax. Again, this is not the case. The 
administration's proposed plan actually increases NASA's budget 
by more than $6 billion over the next 5 fiscal years. In 
addition, canceling the Ares system and the plans associated 
with it will cost the taxpayer an additional $2.5 billion 
because of contractual obligations.
    On top of these costs, since private businesses have never 
previously developed a low-Earth orbit system to transport 
humans to the International Space Station or a heavy-lift 
system to explore deeper into the cosmos, one can naturally 
hypothesize lengthy delays and expensive cost overruns for this 
novel venture. It is also not hard to imagine when the 
inevitable delays and cost overruns occur, that these private 
enterprises will turn to the Government with requests for 
additional funds.
    Project Constellation should also be seen as an investment 
in our Nation's future economic competitiveness. In fact, 
studies have shown for every dollar invested in space 
exploration, $7 has been returned to our economy through the 
development of new technologies and industries.
    Congress should also consider the nexus between the Ares 
system and the ability of our Nation to maintain future 
strategic deterrent programs. Both the Ares rockets and our 
land-based intercontinental ballistic missile force use solid 
rocket motors. Our Nation will shortly complete the 
modernization of our ICBM fleet.
    Now, since the early 1990s, NASA has served as the backbone 
of the solid rocket motor industry, providing stability to 
offset the often inconsistent production requirements of the 
military and commercial sector. Therefore, the termination of 
Ares would cripple the solid rocket motor industrial base and 
could push it beyond recovery for this and future generations.
    Let me just say again, Madam Chairwoman and all of the 
other Senators on this illustrious subcommittee, I just want to 
thank you for affording me the privilege. I had much more in my 
original statement, but I just wanted to get some of these 
ideas across. And I want to thank you very much for affording 
me this privilege to appear before your very important 
subcommittee.
    Senator Mikulski. Well, thank you very much, Senator Hatch.
    You know, your support of science is well known within the 
institution. We have worked well together on the FDA. We were 
happy to have you.
    Also, I am devoted to the fact that Senator Jake Garn, 
another man of Utah, once chaired this subcommittee. He was a 
good friend and a mentor to me when I got started. I have 
conveyed to Senator Garn, and I want to say to the two Senators 
from Utah, if Senator Garn would also like to submit testimony 
or so on, I would be enthusiastic about welcoming it and look 
forward to welcoming him.
    [The statement follows:]

     Prepared Statement of Hon. Jake Garn, Former Senator From Utah

    Madam Chair, and distinguished members of the subcommittee, former 
colleagues and, in the case of Senator Bennett, my successor in the 
seat previously held with such great distinction by his father, Senator 
Wallace Bennett. I consider it a privilege to be asked to submit 
testimony to the subcommittee regarding the very serious issues facing 
the Congress with regard to the fiscal year 2011 budget request for 
NASA.
    I am well aware of the challenges you face, especially when a 
requested budget and changing priorities present very real challenges 
and would bring about changes that not all members can agree to and 
represent a major departure from current direction and programs--
without a compelling case having been made for those changes.
    Your challenge is even greater, when dealing with human space 
flight issues, in the face of the current economic situation, from 
which you and the country are still struggling to emerge, because human 
space flight--or any other programs NASA undertakes, whether space 
science, earth and climate observation, or advanced aeronautics 
research and technology--are not cheap.
    Possibly more than ever before, we are being forced to decide 
whether these activities are of real and material value to the country, 
or just extravagant and exciting things that, in an era of scarce 
resources, the country is better setting aside. That, really, is the 
underlying issue that I believe the subcommittee and the Congress--and 
the American people--must come to grips with and which will decide, in 
the end, whether we stay in the business of space or not. Especially in 
the business of human space exploration.
    Even before I left the Senate in 1992, after my flight aboard the 
Space Shuttle Discovery in April of 1985, I was asked to make far more 
speeches and appearances than ever before in my Senate career. I'm sure 
it will not surprise any of the members that, in the vast majority of 
those appearances, I didn't get a lot of questions about the nuances 
and details of the appropriations process or specific issues before the 
subcommittee or the Banking Committee, but I did--and still do--get 
many questions about what it was like to go into space, and view the 
Earth from that vantage point. Especially with the younger audiences 
and students. I know first-hand the extraordinary catalyst that space 
exploration--and especially human space exploration--has for exciting 
and inspiring young people to pursue studies and careers in sciences, 
technology, engineering and mathematics. I think that is something that 
must not be forgotten as you wrestle with the challenges of 
establishing the proper levels of funding for NASA and the programs you 
will support.
    I am one who absolutely believes that our Nation would not have 
become a leader in technology and innovation without the extra catalyst 
provided by the space program. In recent years, we have, as a Nation, 
lost sight of that. As the future of the space program has seemed 
uncertain, after the Columbia accident, and we have begun to plan the 
end of space shuttle operations and even the premature, in my view, 
termination of the space station in 2015 that had been the plan up to 
this point, we have begun to lose the drawing power of space. I believe 
that has been reflected in the findings of the ``Gathering Storm'' 
report, prepared several years ago under the leadership of Norm 
Augustine.
    It is somewhat ironic that Norm was asked to chair the Human Space 
Flight Review Committee last year to examine options for moving our 
human space flight programs into a more positive direction which, if we 
are able to do so as a Nation, will enhance our competitive posture 
once again. And if we fail to do so, we will make the problems 
identified in the ``Gathering Storm'' report even deeper and even more 
damaging to our long-term economic stability.
    That is why I am so concerned about the Obama administration's 
response to the Augustine panel report. The administration seemed to 
ignore the most salient point of the report--that a space program 
``worthy of a great Nation'' was one that needed adequate and sustained 
funding levels beyond those that had been provided over the past 5 
years since the announcement of the Vision for Exploration by President 
Bush. The committee made it clear that the Constellation program was 
experiencing many of the problems that it was experiencing because the 
funding levels promised in the projections made in the 2005 budget 
request were not only not met, they were reduced by several billions of 
dollars, cumulatively.
    I know that you know those details. And I know, too, that the 
allocations made available to the subcommittees on appropriations every 
year have their genesis in the budget resolution, which is largely 
based on the budget request. And the Bush administration failed to 
request the amounts it had originally projected to support the Vision 
for Exploration. The Bush administration also failed to request a 
single dime of funding to reimburse NASA for the cost of re-certifiying 
the shuttle program for its return to flight after Columbia. As you 
know, Madame Chair, that was more than $2.5 billion that NASA had to 
absorb within an essentially flat budget. You and Senator Hutchison 
were successful in adding a down-payment of a little over $1 billion to 
reimburse NASA for those costs, and it was unanimously adopted by the 
Senate--a remarkable achievement. Only to have it taken out in 
subsequent negotiations between the House and the White House over an 
Omnibus appropriations bill--because the White House didn't support it.
    I remind you this is the Bush administration I am talking about. MY 
party was in control. But were they, in reality?
    After the President's Vision for Exploration announcement, the 
implementation of that plan was left to be managed and controlled not 
by NASA, but by the nameless, faceless, green eye-shaded bureaucrats in 
the Office of Management and Budget. The budget drove the policy after 
that, and the budget drove the program to the edge of a cliff. Not just 
Constellation, but the entire U.S. human space flight program. Because 
the budget plan included insisting on stopping the shuttle at the end 
of fiscal year 2010--whether its mission was accomplished or not. It 
didn't start out that way in the President's announcement. The 
announcement said the shuttle would retire ``after the completion of 
the space station--which was expected to be in 2010.'' But within a 
year, in the next budget cycle, that qualifier went away and fiscal 
year 2010 became a hard, unequivocal date. Why? Because the budgeteers' 
plan was to take the money from the shuttle and move it to 
Constellation which was expected, by then, to be ready to ``bend 
metal'' and move to its next phase of development. That's the reason 
for the shuttle retirement: to meet the demands of a budget plan. It's 
not about safety, which I'll refer to in more detail in a moment; it's 
about money.
    And the budgeteers weren't satisfied with just raiding the Shuttle 
pot. They chose to take the space station funding, as well. They told 
the Congress, when asked, that funding of the space station beyond 2015 
was ``beyond the budget planning horizon.'' But in reality they planned 
to use the space station operating funds to take Constellation to the 
next level of development; the manufacturing of the heavy-lift vehicle. 
That way they could still, they reasoned, ``support'' Constellation and 
the Vision, but not have to increase the top-line for NASA funding. 
They didn't care about the scientists and researchers that had planned 
to conduct research on the space station, once it was completed. They 
had already thrown most of them overboard in 2005, when they decreed 
that the station would be used only for ``exploration-related'' 
research. A group of over 900 principal investigators--and their 
associated students and universities and organizations--was reduced to 
no more than 30. It took the 2005 NASA Authorization Act to even 
provide them a life-line, by requiring that at least 15 percent of all 
ISS research would be in non-exploration-related disciplines.
    The budgeteers also didn't care about what our international 
partners thought about having only a 5 year period of full operations 
for scientific research, instead of the 10 to 15 they had anticipated 
when they signed on to the partnership. Those partners have been 
wondering for the past 2 years, at the least, what the future held for 
the ISS, because they knew that NASA was not able to make concrete 
plans about the U.S. participation without the permission of the 
budgeteers.
    National Space Policy and International Relations with our ISS 
partners have been driven by the Office of Management and Budget. Not 
by the policy process at the White House, which allowed that to happen 
by, at the very least, benign neglect. Not by the Congress, which, 
despite overwhelmingly passing authorization bills since 2005 which 
endorsed the Exploration program at funding levels needed to actually 
have a chance at succeeding, never received a budget request that 
matched those levels. The Congress could only have increased those 
funds to necessary levels by taking the money from somewhere else 
within NASA or finding an off-set elsewhere within the allocations, and 
we all know how difficult that is to accomplish.
    These are the failures of the prior administration to follow up on 
the Policy of the Vision for Exploration with the budget to make it 
happen. The question now is whether the current administration is going 
to do the same.
    The good news is that, at least for the space station, they have 
agreed with the Augustine Report observation that continuing its 
support and operations to at least 2020 is the right and smart thing to 
do. It simply makes no sense to invest something like $100 billion to 
build and operate it and then not provide the opportunity for 
scientists to finally use it as long as possible, now that is nearly 
complete.
    What does NOT make sense to me, or to many people I've spoken to, 
is to cut the ribbon on the completed space station and then 
unilaterally and arbitrarily remove--for no more than budgetary 
reasons, again--the only independent means the United States has to get 
there: the space shuttle.
    Not only that, the Obama administration proposal is to rely 
exclusively, for domestic capability to reach the space station, on a 
commercial capability that has, as yet, not been adequately defined. 
And even if commercial is broadly defined to include the larger, 
established companies, like Boeing, ATK, Lockheed Martin, United Launch 
Alliance, etc., as I think it should be, as well as the newer, more 
``entrepreneurial'' style companies like SpaceX or the longer-
established Orbital Sciences, none of them could conceivably provide a 
proven, human-rated crew launch capability within 3 or 4 years and 
likely even longer.
    In the meantime, we are left with only one means of access to the 
newly-completed space station: Russian Soyuz vehicles, for which we 
must pay an average--today--of $56 million per seat. And remember, we 
also are obligated to pay for at least two of those seats per year for 
our European, Japanese and Canadian partners, under the terms of the 
intergovernmental agreement that established the partnership.
    And there is one more major failing of the administration's plan. 
That is that there is no consideration given, anywhere that I can see, 
to taking steps to ensure the space station can actually remain a 
viable, healthy and functional spacecraft through the year 2020. In 
2005, there were 28 remaining space shuttle missions planned to the 
ISS. It was anticipated they would not only complete the assembly, but 
continue to be available to bring down equipment to be refurbished and 
returned to the space station, as well as exchange crews without 
relying on Soyuz, except for emergency crew rescue capability, and 
bring scientific samples and equipment back to earth for analysis and 
upgrades. But, once again, the masters of the budget in OMB decreed 
that NASA could only plan to fly 17 of those missions--plus one 
additional for making a Hubble servicing mission.
    The result was a scramble to make sure that the 17 authorized 
flights were loaded with essential spare and replacement parts to 
ensure the station could be maintained at full capacity. But the 
choices made in juggling the payloads to provide that assurance were 
based on an internal planning date for an end-of-life for the station 
in 2015. Now the plan is to continue it's life to at least 2020, but 
without the benefit of the servicing capabilities of the space shuttle 
which, for large and heavy items, can only be provided by the space 
shuttle.
    Senator Hutchison has seen this problem clearly, and has raised it 
in speeches and statements in hearings of the Commerce Committee, and 
here as a member of this subcommittee. I completely agree with her that 
a new assessment must be made, immediately, of what the potential 
equipment servicing and replacement and down-mass requirements are 
expected to be from 2015 to at least 2020, and determine whether the 
space shuttle must be available, in the short term, to deliver 
essential spares before it is retired. That is the only reasonable and 
responsible course, if one is truly serious about extending the ISS 
life-time. Without that analysis, there is simply no way to know if the 
promise of 2020 operations is only an empty gesture, with more risk 
than many potential researchers--or investors in commercial crew and 
even cargo launch development--will be willing to expose their time and 
resources to.
    Let me repeat the last part of that, since the administration has 
placed such extreme reliance on the commercial sector to develop new 
cargo and crew launch capabilities. Without the space station as a 
viable, fully functional destination, there is no business case for 
those companies to develop their launch and delivery systems. None. At 
least in the crucial high-risk period of actually developing those 
systems. No space station equals no NASA anchor contracts for services, 
and no basis for ensuring investors that they should ante up the 
necessary matching capital to make those efforts succeed. How the 
administration could adopt and propose a course that leaves the only 
active U.S. human spaceflight program remaining after the Shuttle, for 
the next 4 to 7 years, exposed to that sort of risk is simply 
inconceivable to me. It probably flies in the face of the painful 
lessons we are supposed to have learned in the past 2 years about 
secure and responsible management and oversight of investment 
practices.
    That, I believe, is perhaps the major Achilles Heel of the 
President's plan. They can talk all they want about plans to increase 
utilization of the space station, and project extra hundreds of 
millions over time to support that, but their failure to have a plan to 
protect those opportunities makes that talk nothing more than empty 
promises. And there appears to be no interest on the part of the 
administration to address it in the short term through the only means 
available to do so: a plan for the potential continued availability of 
the space shuttle.
    As I said before, this decision is purely budgetary, and not one--
as many have tried to portray it--a matter of safety. Because the OMB 
has been successful in creating and promoting the Big Lie that there 
simply is not, cannot, and never will be an increase in NASA funding 
levels, even those in the aerospace industrial and support communities 
who know what it necessary to provide assured sustainability for the 
space station have not protested the shuttle termination, because they 
fear their opportunities for participation in the movement beyond low-
earth orbit will be jeopardized by the lack of the ``cash cow'' 
represented by the end of the shuttle program. Even companies like 
Boeing, ATK, Lockheed-Martin, who benefit from both ongoing shuttle and 
station operations, are afraid or unwilling to support shuttle 
extension of ANY kind, for fear of having their Constellation and 
exploration contracts reduced and that program stretched out to the 
point where it makes no more sense from a cost and schedule stand-
point. You can't blame them, since no one in the White House or so far 
a majority in the Congress, is willing to step up to the plate and 
demand that this Nation provide the level of funding that is absolutely 
necessary to secure our leadership role in space--or even our role as a 
second-rate participant in the community of space faring nations.
    I don't need votes from ATK employees in Utah any more, so I am not 
advocating alternatives to the Obama plan in order to ensure their 
corporate interests. I am doing so because it is the right thing, I 
believe, for this Nation to not abandon all of the investments made in 
the Constellation program, and to fail to continue the capability to 
operate shuttles in support of the space station--even at a greatly 
reduced flight rate, and therefore at a greatly reduced annual cost.
    I have referred frequently to the space station. As you recall, 
Madam Chair, in our early days working together on the subcommittee, we 
spoke a great deal about human space flight, and the space station, 
back in the days when our colleague, Senator Dale Bumpers, was actively 
trying to stop that program. You came to have a greater appreciation 
for the scientific potential of the station. Science and research has 
always been an important value to you. We joined together in efforts to 
defeat those early attempts to kill the station, and you continued that 
in the years after I left the Senate. In 2005, under Senator 
Hutchison's leadership of the Science and Space Subcommittee of 
Commerce, the ISS was designated as a national laboratory. I know that 
you were there when the Memorandum of Understanding was signed between 
NASA and the National Institutes of Health, setting the stage for their 
active use of the unique qualities of the microgravity environment to 
do a host of research--important to the health and well-being of people 
all over the world. I know the USDA research programs have signed a 
similar MOU, and announcements of opportunity for research have been 
issued--with more to follow. If you haven't had a briefing from NIH 
lately, I encourage you to invite Dr. Stephen Katz to come in and fill 
you in on the exciting potential they see.
    I know, too, that you are deeply concerned about ensuring the 
safety of our astronauts, and that you are seeking to work closely with 
the authorizing committees, and Senators Nelson, Vitter and Hutchison, 
in making sure that safety is of the highest priority in our human 
spaceflight activities. I applaud all of that, and encourage you to 
continue those efforts.
    I believe Senator Hutchison has established a strong working 
relationship with Democrat House counterparts in developing and 
introducing a Human Spaceflight Assurance and Enhancement Act, on a 
bipartisan and bicameral basis. That kind of approach is the best way 
for this problem to be addressed. Space exploration has always been a 
bipartisan effort, and it should continue to be so. The concerns I have 
and the current debate about the Obama plan is not about political 
expediency. It is about a way to preserve American leadership, for all 
Americans to receive the benefits of space exploration in their daily 
lives, right here on Earth.
    Let me conclude by focusing for a moment on the matter of safety, 
as it relates to the shuttle, the Soyuz, and to any of the planned or 
hoped for developments in finding replacements to the shuttle for 
sending humans into space to realize the science potential of the space 
station and to prepare to move beyond low-earth orbit to new and 
exciting destinations.
    If someone tells you that the space shuttle is ``too unsafe to 
fly'' they are either very poorly informed or deliberately deceitful.
    If someone else tells you that the space shuttle is ``safe'' to 
fly, they are either very poorly informed or deliberately deceitful.
    I believe both statements to be true. And not only of the space 
shuttle, but of any human spaceflight vehicle. That creates an 
inescapable conclusion that I believe applies now--and likely will 
always apply to human space flight vehicles: they will never be 
completely safe and their ``relative'' safety will always depend on the 
question of ``compared to what?''
    In discussions about the shuttle replacement vehicle options, it is 
often argued that those vehicles will be ``safer'' than the shuttle, 
and that is based primarily on two arguments. One, that they will be 
simpler and less complex vehicles and two, that they will have a crew 
escape system for getting away from an errant or exploding launcher 
during ascent. It seems ``logical'' that that can be described as a 
``safer'' system. On the other hand, regardless of how a spacecraft 
gets into orbit, it is necessary for it to return to Earth for a 
successful mission.
    The current plan is to use the Russian Soyuz spacecraft for both 
ascent and descent for the 5 to 7 years between the last planned 
shuttle flight and the first manned TEST flight of a new vehicle, 
whether Government-developed or commercially-developed. Not only will 
we be setting the clock back to the initiation of a new and un-proven 
system we ``hope'' will work because we have paper designs and 
probabilistic risk assessments that say they ``should.'' But remember 
Norm Augustine's comment about never flying on an aircraft with a tail 
number of less than 10. New systems inevitably have a potential high 
rate of ``infant mortality'' for the vehicles in their testing stages.
    In the meantime, while waiting for those systems to be ``proven,'' 
we will be voluntarily relying on the Soyuz system, about which we have 
little insight into its production and maintenance standards or 
detailed component designs, and which has no ``escape system'' during 
re-entry. Furthermore, it has a record of having lost two crews during 
re-entry--that we know of. Not only that, two of its last six flights 
have experienced still-unexplained ``anomalies'' that caused the re-
entry profile to be ``ballistic'' and which resulted in dangerous 
gravity forces being applied to the crews and, if steeper and more 
uncontrolled, could have led to the serious injury or, more likely, 
death of the three occupants. Imagine the situation if that were to 
happen under the current plan. It would mean that we would then be in a 
position where six crew members would still be aboard the space station 
and their ONLY way back to earth, in an emergency, would be on two 
vehicles identical to the one that would have just ``crashed'' and 
injured or killed their three recently-departed crew mates.
    And again, why will this be the case? Because the budget-masters in 
the bowels of the White House decreed that the Nation simply could not 
afford to continue flying a proven system, that has been actually made 
safer than ever before as a result of the $3 billion invested in 
redesign, modifications, recertification of systems, and improved 
processing techniques after the Columbia accident. How does any of this 
make sense for the Nation that has been the leader in human spaceflight 
for the past 50-plus years?
    Let's remember, too, how we established that leadership. We began 
by launching men with names like Shepard, Grissom, Carpenter, Glenn, 
and Cooper, on vehicles that were converted ballistic missiles, and 
which in fact had seen demonstrated failure rates exceeding those of 
either Soyuz or the Shuttle. Yet we launched them and held our 
collective breath, and were lucky enough not to lose any of them on 
launch. We came close to losing some of them during flight and upon re-
entry, like John Glenn whose heat shield may or may not have been 
damaged and whose retro-rocket pack was kept aboard during re-entry to 
hopefully hold it in place, but itself created a dangerous and 
uncertain re-entry profile. We had a Gemini spacecraft careen wildly 
out of control on orbit, until Neil Armstrong managed to get it back 
under control. And of course, later we had the crew of Apollo 13 battle 
against all odds to survive a circuit of the moon and return to Earth 
long enough to make a barely successful re-entry based on the sheer 
skill--and a lot of luck--of their crew and the innovative and 
determined supporting cast on the ground.
    Human spaceflight, in reality, is no ``safer'' today than it was in 
those early days. We are just better equipped and experienced to handle 
the risks presented by the speeds and stresses needed to escape Earth's 
gravity. Today, that skill and experience is reflected wholly in the 
space shuttle program and the people who prepare the shuttles to fly, 
operate them in space, and fly them back to Earth. We have now learned 
not only how to avoid or at least reduce the kind of ascent damage that 
doomed Columbia, but we've shown we can closely inspect the thermal 
protection system and vehicle structures in flight and, if necessary 
repair them on orbit, none of which was possible before Columbia. And 
if the vehicle is structurally sound upon re-entry, nothing else in 
existence has the resiliency, maneuverability and capability to adapt 
to the sub-space flight environment that the orbiters have, to ensure a 
safe re-entry and landing.
    Despite all of that, we seem intent on pressing hard--and possibly 
dangerously hard--to meet a schedule to rapidly fly out the remaining 
five shuttle missions in as short a time as possible--precisely the 
kind of pressure that was cited as a significant contributor to both 
the Challenger and Columbia accidents. And then we can rush to shut 
them down and lose the skilled workforce that maintains, assembles and 
operates them, creating a surge in unemployment within a key sector of 
the country's technical industry, where we are already facing major 
competitive challenges from abroad, and eliminating thousands of the 
very kinds of jobs that would otherwise draw more and more students 
into the study of the critical areas of science, technology, 
engineering and mathematics! And again, why are we going down this 
path? Because we can't ``afford'' to sustain the most magnificent space 
flying system ever developed while at the same time developing its 
successor systems?
    How can anyone believe it makes sense to follow this plan for 
purely budgetary reasons--when we have just spent close to a trillion 
dollars on short-term relief on efforts that we will never really know 
whether they kept the Nation from going over an economic cliff or not? 
The Nation's space programs--led by the excitement and challenges of 
the human space flight program--are known to have been the most 
consistent and effective ``engine of excellence'' in technology, 
innovations and science for the past 50 years . . . the question should 
be: How can we afford not to fully support them and ensure that they 
remain indisputable factors in driving our Nation's technical, 
industrial and scientific excellence, securing our competitive 
position, and sustaining our global leadership?
    Despite what I believe is the compelling logic suggesting we 
reconsider the decision to terminate the space shuttle at the end of 
the current manifest, the administration has chosen to hide behind the 
Bush administration mistaken plan--driven by OMB--to terminate the 
Shuttle program on, or close to, a date certain. But let me remind you 
just why they cannot credibly pretend that an irreversible decision was 
made that they are simply implementing. In the 2008 NASA Authorization 
bill, enacted in October of that year--before the election--there was 
language written specifically to preserve the option of some degree of 
continued shuttle flights for the President--whoever it was--until at 
least the end of April 2009. NASA was directed to take no action before 
that date which might preclude continuing shuttle operations. NASA 
insisted right up until the expiration of that provision that they were 
in compliance, 4 months into the current administration.
    When the fiscal year 2010 budget was released the following week, 
it established the Augustine Panel, as mentioned above, to review 
options for the future direction of U.S. human spaceflight. Members of 
Congress encouraged NASA--and were assured by NASA that it was the 
case--that the option of continued shuttle operations would not be lost 
during the period of the Augustine review. In fact, NASA briefed the 
Augustine panel on a range of options for extended shuttle flights for 
2, 3, and 5 year periods, and raised no concerns about it being 
impossible to do. And, on the basis of that information, one of the 
options provided to the President was to continue shuttle flights until 
2015. So the option to continue shuttle operations was available to 
President Obama, and he cannot now credibly claim that it was a 
decision set in stone 5 or 6 years previously. He has chosen not to 
continue those operations, and so that decision--and the consequences 
that may follow from it, are, and will always be, his responsibility. 
That is simply a fact. And the Congress, even today, has that option 
open to them, and they, too, will own the consequences of allowing that 
decision to go unreviewed, and unmodified.
    I believe I have stated why the need to reconsider the wisdom of 
that choice is something this subcommittee and the Congress as a whole, 
must seriously address. I strongly support Senator Hutchison's efforts 
to ensure that a review of space station requirements is conducted and 
an informed decision made before the only capable and proven system of 
human spaceflight this country has is lost by default and a failure to 
accept responsibility for the results.
    That decision must not be driven by fear of another possible 
failure. That same fear could easily be the reason for backing away 
from any future crew launch system, because whatever the mathematical 
risk calculations one can apply, based as much on theory as experience, 
will be at the mercy of the incredible forces necessary to propel 
humans into space. The human errors that can creep into the most 
careful and sound engineering designs, manufacturing processes and 
launch preparations will always be there, to one degree or another.
    Those who fly aboard the shuttle, the Soyuz, or, I'm sure, the 
Shenzhou, know that reality. But every single one of them is a 
volunteer, as I was, and as Senator Bill Nelson was.
    I will never forget the experience, just under a year after I flew 
aboard the space Shuttle Discovery, when I flew down to the Kennedy 
Space Center with John Glenn and then-Vice President Bush, to meet with 
the families of the Challenger crew, just hours after that tragic loss. 
We walked into the room where the family members were gathered and the 
first thing June Scobee, the wife of Challenger's Commander Dick 
Scobee, said to us in a strong, determined voice and speaking for all 
those grieving family members, was that we must make sure the shuttle 
was not cancelled; that it would be returned to flight and that the 
dream of those brave crew members must be kept alive.
    After the Columbia accident in 2003, there was a ceremony at the 
Space Mirror Memorial located at the Visitor's Center at the Kennedy 
Space Center to enter the names of Columbia's crew members to that 
large mirror. Dr. John Clark, husband of Laurel Clark, who was lost as 
a member of Columbia's crew, spoke for the families on that occasion. 
He said that despite the risks, America must remain a space faring 
nation and not become a space fearing nation.
    Madam Chair, I know you feel strongly that safety is the number one 
priority. And no stone should be left unturned in understanding risks, 
identifying ways to mitigate them, and continuously improving our 
launch systems and spacecraft designs. But at some point, if we are to 
remain a space faring nation, and keep the dream of human spaceflight 
alive, and honor the sacrifice of those who gave their lives in its 
advancement, and for our future generations, we need to find the will 
and the commitment as a Congress, and as a nation, to ``Go for 
launch.''

    Senator Hatch. Well, thank you. He will want to do that.
    Senator Mikulski. Yes, and I would welcome that, and I 
would welcome any conversations with him.
    Senator Hatch. Well, you have been great. I really 
appreciate it, and I appreciate every one of you on this panel. 
Thank you so much.

                  INTRODUCTION OF ADMINISTRATOR BOLDEN

    Senator Mikulski. You are welcome.
    I am going to call up Administrator Bolden to present the 
administration's testimony. Administrator Bolden is really also 
General Bolden, who served in the Marine Corps with a great 
deal of distinction, a graduate of the Naval Academy like John 
McCain, a Marine helicopter pilot who went on to be an 
astronaut in the Astronaut Hall of Fame. So we look forward to 
his testimony.
    I want to remind members that we have a two-tier hearing, 
that after Administrator Bolden and questions from our 
colleagues, we will also then hear from John Frost of the 
Aerospace Advisory Committee, and I know this committee's deep 
commitment.
    Senator Bennett, I understand you have a time challenge. I 
would like for Administrator Bolden to present his testimony. 
Then let us work out how we can accommodate everyone with the 
greatest courtesy, but robust questioning.
    Administrator Bolden?

                STATEMENT OF HON. CHARLES F. BOLDEN, JR.

    Administrator Bolden. Madam Chair and members of the 
subcommittee, thank you for the opportunity to discuss the 
President's fiscal year 2011 budget request for NASA. I am 
incredibly grateful for the support and guidance of this 
subcommittee, and I look forward to working with you on 
consideration of the President's bold new direction for the 
agency.
    All of us at NASA were honored to host the President one 
week ago at the Kennedy Space Center, where he said, and I 
quote, ``I am 100 percent committed to the mission of NASA and 
its future because broadening our capabilities in space will 
continue to serve our society in ways we can scarcely imagine, 
because exploration will once more inspire wonder in a new 
generation, sparking passions, launching careers. And because, 
ultimately, if we fail to press forward in the pursuit of 
discovery, we are ceding our future.''
    Since the introduction of the budget, many have asked what 
is the destination for human space flight beyond low-Earth 
orbit under the President's plan? As the President made very 
clear last Thursday, NASA's deep space exploration efforts will 
include crude test flights early next decade of vehicles for 
human exploration beyond low-Earth orbit, a human mission to an 
asteroid by 2025, and a human mission to orbit Mars and return 
safely to Earth by the 2030s.
    We can and must identify the missing capabilities needed 
for such a mission or such a suite of missions and use them to 
help define many of the goals of our emerging technology 
development. The right investments in technology will allow us 
to map out a realistic path to this destination that will 
continue to inspire generations of school children, just as it 
inspired me many years ago growing up in Columbia, South 
Carolina, and watching Buck Rogers go to Mars with ease each 
week from my seat in the balcony of the Carolina Theater.

                    FISCAL YEAR 2011 BUDGET REQUEST

    The President's fiscal year 2011 budget request for NASA is 
$19 billion, as you have mentioned, including an increase of 
$276 million over the enacted 2010 level. Longer term, I am 
pleased that the budget commits to an increased investment of 
$6 billion in NASA science, aeronautics, and enabling 
technologies over the next 5 years compared with last year's 
plan. All of us at NASA appreciate the President making NASA 
such a high priority at a time when budget realities dictate 
reductions and freezes for other worthwhile programs.
    As we celebrate the 40th anniversary of Earth Day today, I 
want to note that the proposed budget supports an enhanced, 
robust program of Earth science research and observation. Earth 
observation from space produces the critical data sets we need 
to understand our changing planet. At the same time, we will 
continue our robust efforts to observe the rest of the universe 
through missions like the Hubble telescope and the Solar 
Dynamics Observatory, for which we released its first stunning 
images of the Sun yesterday.
    With the President's new vision, the NASA budget will 
invest much more heavily on technology, research, and 
development than recent NASA budgets. This will foster new 
technological approaches, standards, and capabilities that are 
critical to enable next-generation space flight, Earth sensing, 
and aeronautics capabilities. These investments will produce 
additional opportunities for U.S. industry and spur new 
businesses such as a recently announced partnership between 
NASA and General Motors to build an advanced dexterous humanoid 
robot, R2.

                         CONSTELLATION PROGRAM

    As the Constellation program is transitioned in an orderly 
manner, I want to thank all of the NASA employees and 
contractors who have worked so hard on the program. Their 
commitment has brought great value to the agency and to our 
Nation, and they will continue to play a pivotal role in NASA's 
future. Many of the things NASA has learned from the 
Constellation program will be critical as the agency moves 
forward, especially as we restructure the Orion project as a 
crew escape vehicle and incremental test crew vehicle for 
missions beyond low-Earth orbit.
    However, as the Augustine Committee concluded, the overall 
human space flight program is on an unsustainable trajectory. 
If we continue on our current course, we will have to make even 
deeper cuts to the other parts of NASA's budget, terminating 
support of the International Space Station early and reducing 
our science and aeronautics efforts.
    The President's proposal to transition Constellation 
enables us to present a 2011 budget that includes the flagship 
technology demonstration and development program that allows us 
with our international and commercial partners and other 
Government entities to demonstrate critical technologies; 
automated autonomous rendezvous and docking and closed-loop 
life support systems; heavy-lift research and development that 
will investigate a broad scope of R&D activities to support 
development, test, and ultimately flight of a heavy-lift launch 
vehicle sooner than projected for the Constellation program as 
assessed by the Augustine Committee.
    As the President committed, we will decide on the right 
heavy-lift vehicle no later than 2015; robotic precursor 
missions to multiple destinations in the solar system in 
support of future human exploration including missions to the 
Moon, Mars and its moons, Lagrange points, and nearby 
asteroids; significant investments for the development of 
commercial crew and further cargo capabilities; in concert with 
our international partners, extension of the utilization of the 
International Space Station to 2020 and beyond; pursuit of 
cross-cutting space technology capabilities led by the newly 
established Office of the Chief Technologist to spawn game-
changing innovations to make space travel more affordable and 
sustainable; climate change research and observations which 
will enable NASA to substantially accelerate and expand its 
Earth science capabilities, including a replacement for the 
Orbiting Carbon Observatory; aeronautics R&D, including 
critical areas of next-generation air transportation system or 
NextGen, green aviation, and safe integration of unmanned 
aircraft systems into national air space; education 
initiatives, including the Summer of Innovation pilot program 
to inspire middle school students and better equip their 
teachers for improved classroom performance in STEM-related 
courses.
    We understand that many concerns are being expressed about 
this budget, but I believe it is the right vision for NASA. I 
look forward to continued discussion with you and our 
authorizers about your concerns and how we might solve them. I 
want to acknowledge to the subcommittee the subcommittee's 
concerns that details such as our justification documents were 
slow in reaching you. I apologize and ask for your continued 
patience as we finalize the details of this historic change in 
NASA's direction.
    Americans and people worldwide have turned to NASA for 
inspiration throughout our history. Our work gives people an 
opportunity to imagine what is barely possible, and we at NASA 
get to turn their dreams into real achievements for all 
humankind through the missions we execute. This budget gives 
NASA a road map to even more historic achievements as it spurs 
innovation, employs Americans in exciting jobs, and encourages 
people around the world.

                           PREPARED STATEMENT

    Madam Chair, thank you again for your support and that of 
this subcommittee. I would be pleased to respond to any 
questions from you or other members.
    [The statement follows:]

           Prepared Statement of Hon. Charles F. Bolden, Jr.

    Madam Chair and members of the subcommittee, thank you for the 
opportunity to appear today to discuss the President's fiscal year 2011 
budget request for NASA. NASA is grateful for the support and guidance 
received from this subcommittee through the years and looks forward to 
working with you on enactment of the President's bold new direction.
    The President's fiscal year 2011 budget request for NASA is $19.0 
billion, which represents an increase of $276.0 million above the 
amount provided for the agency in the fiscal year 2010 Consolidated 
Appropriations Act (Pub. L. 111-117), and an increased investment of 
$6.0 billion in NASA science, aeronautics, human spaceflight and 
enabling space technologies over the next 5 years compared with last 
year's budget plan. Enclosure 1 displays the details of the President's 
fiscal year 2011 budget request for NASA.
    Before I discuss the details of the NASA budget request, I would 
like to talk in general about the President's new course for human 
exploration of space. With this budget, the United States has 
positioned itself to continue our space leadership for years to come.
    The President's fiscal year 2011 budget request is good for NASA 
because it sets the agency on a sustainable path that is tightly linked 
to our Nation's interests. One measure of this is that it increases the 
agency's top-line, in a time when many agencies have been flat or taken 
a cut. Even more, it reconnects NASA to the Nation's priorities--
creating new high-tech jobs, driving technological innovation, and 
advancing space and climate science research. It puts the agency back 
on track to being the big-picture innovator that carries the Nation 
forward on a tide of technological development that creates our future 
growth. We should make no mistake that these are the drivers for NASA's 
proposed budget increase of $6 billion dollars over the next 5 years.
    At the highest level, the President and his staff, as well as my 
NASA senior leadership team, closely reviewed the Augustine Committee 
report, and we came to the same conclusion as the Committee: The 
Constellation program was on an unsustainable trajectory. And if we 
continue on that course, at best we would end up flying a handful of 
astronauts to the moon sometime after 2030. But to accomplish that 
task, we would have to make even deeper cuts to the other parts of 
NASA's budget, terminating support of the International Space Station 
(ISS) early and reducing our science and aeronautics efforts. Further, 
we would have no funding to advance the state of the art in any of the 
technology areas that we need to enable us to do new things in space, 
such as lowering the cost of access to space and developing closed-loop 
life support, advanced propulsion technology, and radiation protection. 
The President recognized that what was truly needed for beyond LEO 
exploration was game-changing technologies; making the fundamental 
investments that will provide the foundation for the next half-century 
of American leadership in space exploration. In doing so, the President 
put forward what I believe to be the most authentically visionary 
policy for real human space exploration that we have ever had. At the 
same time, under the new plan, we will ensure continuous American 
presence in space on the ISS throughout this entire decade, re-
establish a robust and competitive American launch industry, start a 
major heavy lift R&D program years earlier, and build a real 
technological foundation for sustainable, beyond-LEO exploration of our 
moon, near-Earth asteroids, Lagrange points, and, ultimately, Mars.
    Now let me turn to describe the fiscal year 2011 NASA budget 
request in detail.

           HIGHLIGHTS OF THE FISCAL YEAR 2011 BUDGET REQUEST

    The President has laid out a bold new path for NASA to become an 
engine of innovation, with an ambitious new space program that includes 
and inspires people around the world. Beginning in fiscal year 2011, 
the United States will pursue a more sustainable and affordable 
approach to human space exploration through the development of 
transformative technologies and systems. As the Constellation Program 
is ended in an orderly manner, NASA will encourage the development of 
commercial human spaceflight vehicles to safely access low-Earth orbit 
and will develop new technologies that will lay the foundation for a 
more exciting, efficient and robust U.S. human exploration of the solar 
system than we are currently capable of, while further strengthening 
the skills of our workforce and our Nation in challenging technology 
areas. NASA will also invest increased resources in climate change 
research and observations; aeronautics research and development (R&D), 
including green aviation; space technology development of benefit 
across the entire space sector; and education with an emphasis on 
Science, Technology, Engineering and Mathematics (STEM) learning.
    Here is a broad outline of the fiscal year 2011 budget plan 
followed by more details. In fiscal year 2011, NASA will undertake:
  --Transformative technology development and demonstrations to pursue 
        new approaches to human spaceflight exploration with more 
        sustainable and advanced capabilities that will allow Americans 
        to explore the Moon, Mars and other destinations. This effort 
        will include a flagship demonstration program, with 
        international partners, commercial and other Government 
        entities, to demonstrate critical technologies, such as in-
        orbit propellant transfer and storage, inflatable modules, 
        automated/autonomous rendezvous and docking, closed-loop life 
        support systems, and other next-generation capabilities. It 
        will also include projects that are smaller and shorter-
        duration, which will demonstrate a broad range of key 
        technologies, including in-situ resource utilization and 
        advanced in-space propulsion.
  --Heavy-lift propulsion research and development that will 
        investigate a broad scope of R&D activities to support next-
        generation space launch propulsion technologies, with the aim 
        of reducing costs and shortening development timeframes for 
        future heavy-lift systems for human exploration.
  --Robotic precursor missions to multiple destinations in the solar 
        system in support of future human exploration, including 
        missions to the Moon, Mars and its moons, Lagrange points, and 
        nearby asteroids.
  --Significant investments for the development of commercial crew and 
        further cargo capabilities, building on the successful progress 
        in the development of commercial cargo capabilities to-date. 
        NASA will allocate these funds through competitive 
        solicitations that support a range of higher- and lower-
        programmatic risk systems and system components, such as human 
        rating of existing launch vehicles and development of new 
        spacecraft that can ride on multiple launch vehicles.
  --Extension of the lifetime of the International Space Station (ISS), 
        likely to 2020 or beyond, in concert with our international 
        partners, with investments in expanded ISS utilization through 
        upgrades to both ground support and onboard systems and use of 
        the ISS as a National Laboratory.
  --Pursuit of cross-cutting Space Technology capabilities, led by the 
        newly established Office of the Chief Technologist, which will 
        fund advancements in next-generation technologies, to help 
        improve the Nation's leadership in key research areas, enable 
        far-term capabilities, and spawn game-changing innovations that 
        can unlock new possibilities and make space activities more 
        affordable and sustainable. A NASA focus on innovation and 
        technology will enable new approaches to our current mission 
        set and allow us to pursue entirely new missions for the 
        Nation.
  --Climate change research and observations, which will enable NASA to 
        substantially accelerate and expand its Earth Science 
        capabilities, including a replacement for the Orbiting Carbon 
        Observatory, development of new satellites recommended by the 
        National Academy of Sciences Decadal Survey, and development of 
        smaller Venture class missions. This investment will ensure the 
        critically important continuity of certain key climate 
        measurements and enable new measurements to address unknowns in 
        the climate system, yielding expanded understanding of our home 
        planet and improved understanding of climate change.
  --Aeronautics research and development, including critical areas of 
        the Next Generation Air Transportation System, environmentally 
        responsible aviation, and safe integration of unmanned aircraft 
        systems into the national airspace.
  --Education initiatives, including the recently announced Summer of 
        Innovation pilot program involving NASA scientist and curricula 
        to inspire middle-school students and their teachers with 
        exciting experiences that spur those students to continue in 
        STEM careers.
    I wish to emphasize that NASA intends to work closely with the 
Congress, including this subcommittee, to make a smooth transition to 
the new Exploration program, called for in the President's request, 
working responsibly on behalf of the taxpayers. With my deepest 
gratitude, I commend the hard work and dedication that thousands of 
NASA and contractor workers have devoted to Constellation over the last 
several years. Their commitment has brought great value to the agency 
and to our Nation, and they will continue to play a pivotal role in 
NASA's future path. Many of the things NASA has learned from the 
Constellation program will be critical as the agency moves forward.
    The following contains more detail on the summary points made 
above, in the standard budget order for NASA's appropriation accounts.

                                SCIENCE

    The President's fiscal year 2011 request for NASA includes $5,005.6 
million for Science. The NASA Science Mission Directorate (SMD) 
continues to expand humanity's understanding of our Earth, our Sun, the 
solar system and the universe with 59 science missions in operation and 
30 more in various stages of development. The Science budget funds 
these missions as well as the research of over 3,000 scientists and 
their students across our Nation. The recommendations of the National 
Academies/National Research Council (NRC) decadal surveys help to guide 
SMD in setting its priorities for strategic science missions; and SMD 
selects competed missions and research proposals based on open 
competition and peer review.
    The fiscal year 2011 budget request for Science includes $1,801.7 
million for Earth Science. This request increases investment in Earth 
Science by $1.8 billion from fiscal year 2011 to fiscal year 2014 
compared to the fiscal year 2010 budget, for a more aggressive response 
to the challenge of climate change. NASA will rapidly develop an 
Orbiting Carbon Observatory-2 mission for launch early in 2013 and a 
GRACE Follow-On mission for launch in late 2015, respectively, to 
initiate and extend key global climate data sets. This request 
accelerates several high-priority Decadal Survey missions that will 
advance climate research and monitoring. The increased funding 
accelerates launch of the Soil Moisture Active/Passive (SMAP) mission 
by 6 months from its estimated date at the recent agency Key Decision 
Point (KDP)-B review, to November 2014. ICESAT-2 is advanced by 5 
months relative to the estimated date at its recent agency KDP-A 
review, to October 2015. The Climate Absolute Radiance and Refractivity 
Observatory (CLARREO) mission and the Deformation, Ecosystem Structure 
and Dynamics of Ice (DESDynI) mission are each accelerated by 2 years, 
with both launching in late 2017. Thus, the budget request allows all 
four Tier-1 Decadal Survey missions to be launched between 2014 and 
2017. In addition, NASA--working with the U.S. Global Change Research 
Program--will be able to identify and begin development for accelerated 
launch of selected Tier-2 Decadal Survey missions focused on climate 
change. The budget supports critical continuity of climate 
observations, including a Stratospheric Aerosol and Gas Experiment III 
(SAGE III) instrument to be developed for deployment on the ISS, while 
also supporting an accelerated pace of smaller ``Venture class'' 
missions. Finally, increased resources for Earth Science will allow 
NASA to expand key mission-enabling activities, including carbon 
monitoring, technology development, modeling, geodetic ground network 
observations, and applications development including the highly 
successful SERVIR program.
    At present, NASA Earth-observing satellites provide the bulk of the 
global environmental observations used for climate change research in 
the United States and abroad. This year, analyses of NASA satellite 
measurements quantified the rates of ground water depletion since 2003 
in California and in India's Indus River valley--rates that are 
unsustainable for the future. NASA conducted the first ICEBridge 
airborne campaigns in both Arctic and the Antarctic, to maintain the 
critical ice measurements during the gap in time between the ICESAT-1 
and -2 satellites.
    In fiscal year 2011, the Glory and Aquarius missions will launch; 
and fiscal year 2011 should close with the launch of the NPOESS 
Preparatory Project. The Landsat Data Continuity Mission will complete 
spacecraft integration and test, the Operational Land Imager will be 
delivered, and the Thermal Infrared Sensor will continue development. 
The Global Precipitation Mission will complete its System Integration 
Review in preparation for the beginning of assembly, integration and 
testing. During fiscal year 2011, the SMAP mission will transition from 
formulation to development, and ICESAT-2 will begin design. Also in 
fiscal year 2011, instrument development and observations initiated 
under the first Venture class solicitation for sustained airborne 
missions will reach full funding, and the next Venture class 
solicitations will be released--this time for space-based mission 
instrument, and complete mission, developments. Engineering studies and 
focused, actively-managed technology investments--instruments, 
components, and information systems--continue for the suite of future 
missions recommended by the National Research Council (NRC) Decadal 
Survey. In fiscal year 2011, the Earth Science Technology Program will 
make additional, competitively-selected, instrument technology 
investments to meet decadal survey measurement goals. Earth Science 
Research and Applied Sciences Programs will continue to employ 
satellite observations to advance the science of climate and 
environmental change, mitigation, and adaptation. NASA will demonstrate 
the use of Uninhabited Aerial Systems in field campaigns addressing 
atmospheric trace gas composition and hurricane genesis, and NASA's 
modeling and data analysis efforts will contribute to assessment 
activities of the Intergovernmental Panel in Climate Change and the 
U.S. Global Change Research Program.
    The fiscal year 2011 budget request for Science includes $1,485.8 
million for Planetary Science. The current NASA planetary missions 
continue to make new discoveries and return fascinating images, 
including a previously unknown large and askew ring of Saturn and a 
near-complete map of the surface of Mercury. Mars continues to intrigue 
with signs of water ice just below the surface at mid-latitudes. The 
Mars rover Spirit is now an in situ science prospector, while 
Opportunity continues to roll toward the crater Endeavor. The Moon 
Mineralogy Mapper instrument on India's Chandrayaan-1 mission detected 
small amounts of water and hydroxyl molecules at unexpectedly low 
latitudes on the lunar surface. NASA selected three new candidate 
mission concepts for further study under the New Frontiers program, and 
will select the winning concept in fiscal year 2011 to proceed to 
development. NASA will issue its next Discovery Announcement of 
Opportunity this year, and will select mission concepts and fund 
concept studies in fiscal year 2011. NASA will also begin Advanced 
Stirling Radioisotope Generator development in fiscal year 2011 to be 
available as an option to improve the performance of the radioisotope-
fueled power sources for use in the next Discovery mission. The Mars 
Science Laboratory will complete development in fiscal year 2011 for 
launch in fall 2011, beginning the most comprehensive astrobiology 
mission to the Red Planet to date. The MAVEN Mars aeronomy mission will 
continue development for launch in late 2013. NASA will establish a 
joint Mars Exploration Program with the European Space Agency (ESA) 
with a trace gas orbiter mission, including a European technology 
demonstration lander. In fiscal year 2011, NASA plans to select 
instruments for the mission via a joint Announcement of Opportunity. To 
advance scientific exploration of the Moon, NASA will launch the GRAIL 
mission in late 2011 and continue development of LADEE for launch in 
2013. Continuing its exploration of the outer planets, NASA will launch 
the Juno mission to Jupiter in August 2011. NASA will continue studies 
that support the possibility of a new major Outer Planets Mission 
concept pending the outcome of the NRC decadal survey now in progress, 
and will coordinate with ESA on a solicitation for science instruments. 
The new NRC Decadal Survey in Planetary Science should be complete in 
fiscal year 2011. The fiscal year 2011 budget request increases NASA's 
investment in identification and cataloging of Near Earth Objects and, 
with the Department of Energy, begins funding the capability to restart 
Plutonium-238 production here in the United States.
    The fiscal year 2011 budget request for Science includes $1,076.3 
million for Astrophysics. The golden age of Astrophysics from space 
continues, with 14 observatories in operation. Astrophysics research, 
technology investments, and missions aim to understand how the universe 
works, how galaxies, stars and planets originated and developed over 
cosmic time, and whether Earth-like planets--and possibly life--exist 
elsewhere in the cosmos. The NASA Kepler telescope has discovered five 
exoplanets, ranging in size from Neptune to larger than Jupiter, 
demonstrating that the telescope is functioning as intended; additional 
discoveries are anticipated in the coming months and years. NASA's 
newest space observatory, WISE (Wide-Field Infrared Explorer), has 
captured its first look at the starry sky and its sky survey in 
infrared light has begun. Radio astronomers have uncovered 17 
millisecond pulsars in our galaxy by studying unknown high-energy 
sources detected by the Fermi Gamma-ray Space Telescope.
    The Hubble Space Telescope is operating at its peak performance 
thanks to the very successful servicing mission last year by the STS-
125 crew. The Herschel and Planck missions, led by the European Space 
Agency with NASA as a partner, launched in 2009 and are returning 
remarkable scientific results. In fiscal year 2011, NASA will complete 
most of the development of the NuSTAR mission and prepare it for 
launch. NASA will also begin developing the Gravity and Extreme 
Magnetism (GEMS) mission recently selected in the Explorer small 
satellite program. The James Webb Space Telescope (JWST) continues to 
make good progress in development toward a 2014 launch. Flight hardware 
for the many JWST subsystems is being designed, manufactured and 
tested, including the 18 segments of its 6.5-meter primary mirror; and 
the mission-level Critical Design Review for JWST will occur this 
spring. The SOFIA airborne observatory successfully conducted its first 
open-door flight test in December 2009--a major milestone toward the 
beginning of early science operations this year. The NRC is conducting 
a new Decadal Survey in astronomy and astrophysics, which will set 
priorities among future mission concepts across the full spectrum of 
Astrophysics, including dark energy, gravity wave, and planet-finding 
missions; the ``Astro2010'' Decadal Survey is expected in September.
    The fiscal year 2011 budget request for Science includes $641.9 
million for Heliophysics. The Heliophysics operating satellites provide 
not only a steady stream of scientific data for the NASA research 
program, but also supply a significant fraction of critical space 
weather data used by other Government agencies for support of 
commercial and defense activities in space. These data are used for 
operating satellites, optimization of power transmission networks, and 
supporting communications, aviation and navigation systems. The NASA 
Aeronomy of Ice in Mesosphere (AIM) satellite has provided the first 
comprehensive, global-scale view of the complex life cycle of Earth's 
highest clouds, Polar Mesospheric Clouds, finding clues to why they 
appear to be occurring at lower latitudes than ever before. The STEREO 
B spacecraft recently observed a sunspot behind the Sun's southeastern 
limb--before it could be seen from Earth. In a few days, this sunspot 
produced five Class M solar flares of the kind that disturb radio 
signals on Earth, signaling the end of the Sun's extended quiet period 
of recent years. The Solar Dynamic Observatory (SDO), launched on 
February 11, will provide images of the Sun of unprecedented 
resolution, yielding new understanding of the causes of solar 
variability and its impact on Earth. In fiscal year 2011, the Radiation 
Belt Storm Probes mission will complete hardware manufacturing and 
begin integration and testing. The Solar Orbiter Collaboration with the 
European Space Agency will continue in formulation, and the Solar Probe 
Plus mission will undergo an initial confirmation review at the end of 
fiscal year 2011. The Magnetospheric Multi-scale mission will continue 
development toward a Critical Design Review. IRIS, a recently selected 
small Explorer mission, will hold its Critical Design Review in fiscal 
year 2011. The next Explorer Announcement of Opportunity will be 
released in 2010, with selection for Phase A studies in fiscal year 
2011. NASA is working with the NRC to arrange for the next decadal 
survey in Heliophysics.

                          AERONAUTICS RESEARCH

    The U.S. commercial aviation enterprise is vital to the Nation's 
economic well being, directly or indirectly providing nearly 1 million 
Americans with jobs. In 2008 aerospace manufacturing provided the 
Nation with a trade surplus of over $57 billion. In the United States, 
more than 60 certified domestic carriers operate more than 28,000 
flights daily, moving nearly 1 million travelers each day. We expect 
these flights to be safe, affordable, and convenient. We expect 
airlines to offer flights when and where we want to travel. In business 
and in our personal lives, the aviation industry is a key enabler to 
our way of life and the smooth functioning of our economy. However, the 
air transport system is near maximum capacity given today's procedures 
and equipment. Rising concerns about the environmental and noise 
impacts of aviation further limit future growth.
    The fiscal year 2011 budget request for Aeronautics is $579.6 
million, an increase of $72.6 million, which will strongly support our 
existing portfolio of research and development to directly address 
these most critical needs of the Nation and enable timely development 
of the Next Generation Air Transportation System (NextGen). Through a 
balanced research and development portfolio, NASA's Aeronautics 
Research Mission Directorate (ARMD) is exploring early-stage innovative 
ideas, developing new technologies and operational procedures through 
foundational research, and demonstrating the potential of promising new 
vehicles, operations, and safety technology in relevant environments. 
Our goals are to expand capacity, enable fuel-efficient flight 
planning, reduce the overall environmental footprint of airplanes today 
and, in the future, reduce delays on the ground and in the sky, and 
improve the ability to operate in all weather conditions while 
maintaining the current high safety standards we demand.
    The fiscal year 2011 budget request for Aeronautics includes $228.5 
million for the Fundamental Aeronautics Program, which seeks to 
continually improve technology that can be integrated into today's 
state-of-the-art aircraft, while enabling game-changing new concepts 
such as Hybrid Wing Body (HWB) airframes which promise reduced drag 
(thus improving fuel burn) and open-rotor engines which offer the 
promise of 20 percent fuel burn reduction compared to today's best jet 
engines. In partnership with Boeing and the Air Force, NASA has 
completed over 75 flights of the X48B sub-scale HWB aircraft at Dryden 
Flight Research Center in the last 2 years to explore handling and 
control issues. NASA is partnering with General Electric and Boeing to 
evaluate performance and integration of new open-rotor engine concepts 
in propulsion wind tunnels at the Glenn Research Center. NASA is also 
addressing key challenges to enable new rotorcraft and supersonic 
aircraft, and conducting foundational research on flight at seven times 
the speed of sound. American Recovery and Reinvestment Act funds have 
enabled NASA to recommission a full-scale airframe structural test 
facility and to improve wind tunnels at the Langley, Ames, and Glenn 
Research Centers that are needed to assess new concepts that hold the 
promise of significant reductions in aircraft weight and fuel 
consumption. In partnership with industry, NASA has just initiated the 
first new Government-funded effort on low NO<INF>X</INF> combustors in 
15 years. In fiscal year 2011, NASA will invest $20.0 million to 
design, build, and demonstrate a new generation of aircraft engine 
combustors that will lower the emission of harmful nitrogen oxides by 
50 percent compared with current combustors while ensuring 
compatibility with current and future alternative aviation fuels.
    A key research goal is to develop synthetic and bio-derived 
alternatives to the petroleum-derived fuel that all jet aircraft have 
used for the last 60 years, but little is known about the emissions 
characteristics of these alternative fuels. In 2009, NASA led a team of 
eight partners from Government agencies, industry, and academia in 
measuring emissions from an aircraft parked on the ground operating on 
various blends of synthetic and standard jet fuel. This team discovered 
that synthetic fuel blends can reduce particulate emissions by as much 
as 75 percent compared to conventional jet fuels, which would offer a 
major improvement in local air quality around airports. Using results 
from this and other research efforts, NASA has established a publicly-
available database of fuel and emissions properties for 19 different 
fuels and will perform similar tests on biofuels as they become 
available.
    The fiscal year 2011 budget request for Aeronautics includes $82.2 
million for Airspace Systems. The focus of this program is to develop 
improved air traffic management procedures, which will expand the 
capacity and reduce the environmental footprint of the air 
transportation system. Using flight data from just the top 27 airports 
in the country, NASA systems analysis results indicate that nearly 400 
million gallons of fuel could be saved each year if aircraft could 
climb to and descend from their cruising altitude without interruption. 
Another 200 million gallons could be saved from improved routing during 
the cruise phase of flight. Achievement of such operations requires 
that aircraft spacing in the air and on-time arrival and departure from 
the regions around our major airports be greatly improved. New 
satellite-based navigation aids such as the ADS-B system that the 
Federal Aviation Administration (FAA) is installing throughout the 
country can enable these improvements, but safe and efficient 
operational procedures must first be developed, validated, and 
certified for operational use. In 2009, NASA partnered with FAA, United 
Airlines, and Air Services Australia to validate pilot and controller 
procedures for a new concept originally developed by NASA that enables 
aircraft to safely conduct climbs and descents outside radar coverage 
in close proximity to nearby traffic. NASA also provided safety 
analyses needed for regulatory approval. The procedures benefit both 
airlines and the traveling public by providing long-haul oceanic flight 
with easier access to fuel-efficient, turbulence-free altitudes. United 
Airlines is expected to begin flying the oceanic in-trail procedures on 
revenue flights in May 2011.
    The fiscal year 2011 budget request for Aeronautics includes $113.1 
million for the Integrated Systems Research Program. Begun in fiscal 
year 2010, this program evaluates and selects the most promising 
``environmentally friendly'' engine and airframe concepts emerging from 
our foundational research programs for integration at the systems 
level. In fiscal year 2011, the program will test integrated systems in 
relevant environments to demonstrate that the combined benefits of 
these new concepts are in fact greater than the sum of their individual 
parts. Similarly, we are integrating and evaluating new operational 
concepts through real-world tests and virtual simulations. These 
efforts will facilitate the transition of new capabilities to 
manufacturers, airlines and the FAA, for the ultimate benefit of the 
flying public. In addition to strongly supporting our ongoing research 
portfolio, the fiscal year 2011 budget request includes increased 
funding to expand our research in new priority areas identified through 
close consultation with industry, academia and other Federal agencies. 
In fiscal year 2011, NASA will initiate a $30 million targeted effort 
to address operational and safety issues related to the integration of 
unmanned aircraft systems into the National Airspace System and augment 
research and technology development efforts by $20 million, including 
grants and cooperative agreements, to support NASA's environmentally 
responsible aviation research.
    The fiscal year 2011 budget request for Aeronautics includes $79.3 
million for the Aviation Safety Program. This program conducts research 
to insure that aircraft and operational procedures maintain the high 
level of safety which the American public has come to count on. Safety 
issues span aircraft operations, air traffic procedures, and 
environmental hazards and this program is supporting research and 
delivering results in all three areas. American carriers operate 6,500 
aircraft on more than 28,000 flights daily. For most of the day the FAA 
is controlling more than 4,000 aircraft in the sky at the same time. 
Further increases in capacity will require increased levels of 
automation for command and control functions and to analyze vast 
amounts of data, as well as increased complexity of the overall system. 
It now costs more to prove today's flight-critical systems are safe 
than it does to design and build them. The Joint Planning and 
Development Office has identified Verification and Validation (V&V) of 
aviation flight-critical hardware and software systems as one of the 
major capability gaps in NextGen. Therefore in fiscal year 2011, NASA 
is initiating a new $20 million research activity in V&V of aviation 
flight-critical systems to develop methodologies and concepts to 
effectively test, validate and certify software-based systems that will 
perform reliably, securely, and safely as intended.
    NASA will continue to tackle difficult issues that threaten the 
safety of commercial flight, ranging from human/machine interaction to 
external hazards such as weather and icing, as the aircraft industry 
has come to rely on NASA expertise in predicting the effects of icing 
on aircraft performance at low and intermediate altitudes. However, 
over the last 10 years a new form of icing problem has surfaced, 
occurring primarily in equatorial regions at high cruise altitudes and 
causing engine power loss or flameout. These conditions cannot be 
duplicated in any existing ground test facility. To study this problem, 
in 2009 NASA initiated an effort to modify the Propulsion Systems 
Laboratory at the Glenn Research Center to enable research on ways to 
mitigate the effects of high-altitude icing and development of new 
engine certification procedures.
    The fiscal year 2011 budget request for Aeronautics includes $76.4 
million for the Aeronautics Test Program (ATP), which makes strategic 
investments to ensure availability of national ground facilities and 
flight assets to meet the testing needs of NASA and the Nation. The 
program also invests in the development of new test instrumentation and 
test technologies. One such example is ATP's collaboration with the 
Aviation Safety Program to provide a new testing capability in the 
NASA-Glenn PSL facility to address the threat of high-altitude ice 
crystals to jet engine operability. The program recently demonstrated 
for the first time the ability to generate ice crystals at the very 
cold temperatures (-60 F) encountered at commercial aircraft cruise 
altitudes. The PSL high-altitude ice crystal capability will become 
operational in fiscal year 2011. The program also completed the 
development of a new Strategic Plan to provide the vision and 
leadership required to meet national goals; provide sustained support 
for workforce, capability improvements, and test technology 
development; and provide strategic planning, management, and 
coordination with NASA, Government, and industry stakeholders. This 
plan will provide informed guidance as ATP develops a critical decision 
tool for building well-coordinated national testing capabilities in 
collaboration with the Department of Defense through the National 
Partnership for Aeronautical Testing (NPAT).
    Partnerships with industry, academia, and other Federal agencies 
are critical to the success and relevance of NASA research. Through 
close collaboration, NASA ensures that it works on the right challenges 
and improving the transition of research results to users. NASA is 
using NASA/FAA Research Transition Teams (RTTs) to conduct joint 
research and field trials to speed acceptance of new air traffic 
management procedures. The agency is also coordinating management and 
operation of the Federal Government's large aeronautics ground test 
infrastructure through the NPAT. Through NASA Research Announcements 
(NRAs), NASA solicits new and innovative ideas from industry and 
academia while providing support for Science, Technology, Engineering, 
and Math departments. The agency also funds undergraduate and graduate 
scholarships, Innovation in Aeronautics Instruction grants to improve 
teaching programs at the university level, and sponsor student design 
competitions at undergraduate and graduate levels for both U.S. and 
international entrants. By directly connecting students with NASA 
researchers and our industrial partners we become a stronger research 
organization while inspiring students to choose a career in the 
aerospace industry.

                              EXPLORATION

    The fiscal year 2011 budget request for Exploration is $4,263.4 
million, an increase of $483.6 million above the fiscal year 2010 
enacted level. Included in this budget request is funding for three 
new, robust programs that will expand the capabilities of future space 
explorers far beyond those we have today. NASA will embark on these 
transformative initiatives by partnering with the best in industry, 
academia and other Government agencies, as well as with our 
international partners. These partners have been integral to much of 
NASA's previous success and are vital to our bold new vision.
    NASA will encourage active public participation in our new 
exploration missions via a new participatory exploration initiative. 
Additionally, the fiscal year 2011 budget request builds upon NASA's 
commercial cargo efforts by providing significant funding for the 
development of commercial human spaceflight vehicles, freeing NASA to 
focus on the forward-leaning work we need to accomplish for beyond-LEO 
missions. The fiscal year 2011 budget request is a 40 percent increase 
over last year's investment in the Human Research Program, to help 
prepare for future human spaceflight exploration beyond low-Earth 
orbit. Lastly, the Exploration fiscal year 2011 budget request includes 
funding for the Constellation Program close out activities spread 
across fiscal year 2011 and fiscal year 2012.
    In the near term, NASA is continuing Constellation work to ensure 
an orderly closeout of the program in fiscal year 2011 and to capture 
of all of the knowledge learned through its key efforts. The 
Constellation Program is focusing on completing its Preliminary Design 
Review (PDR), which will conclude this year. NASA believes that 
completing the Constellation PDR will support not only the close-out 
process for Constellation, but also will ensure that historical data 
from Constellation work is documented, preserved and made accessible to 
future designers of other next-generation U.S. human spaceflight 
systems.
    The Exploration fiscal year 2011 budget request includes three new 
robust research and development programs that will enable a renewed and 
reinvigorated effort for future crewed missions beyond low-Earth orbit:
  --Technology Development and Demonstration Program.--$652.4 million 
        is requested in fiscal year 2011, and a total of $7,800.0 
        million is included in the 5 year budget plan, to invent and 
        demonstrate large-scale technologies and capabilities that are 
        critical to future space exploration, including cryofluid 
        management and transfer technologies; rendezvous and docking 
        technologies; and closed-loop life support systems. These 
        technologies are essential to making future exploration 
        missions more capable, flexible, and affordable.
  --Heavy-Lift and Propulsion Research and Development Program.--$559.0 
        million is requested in fiscal year 2011, and a total of 
        $3,100.0 million is included in the 5-year budget plan, for an 
        aggressive, new heavy-lift and propulsion R&D program that will 
        focus on development of new engines, propellants, materials and 
        combustion processes that would increase our heavy-lift and 
        other space propulsion capabilities and significantly lower 
        operations costs--with the clear goal of taking us farther and 
        faster into space consistent with safety and mission success.
  --Robotic Exploration Precursor Program.--$125.0 million is requested 
        in fiscal year 2011, and $3,000.0 million is included in the 5-
        year budget plan, for robotic missions that will pave the way 
        for later human exploration of the Moon, Mars and nearby 
        asteroids. Like the highly successful Lunar Reconnaissance 
        Orbiter and Lunar Crater Observation and Sensing Satellite 
        missions that captured our attention last fall, future 
        exploration precursor missions will scout locations and 
        demonstrate technologies to locate the most interesting places 
        to explore with humans and validate potential approaches to get 
        them there safely and sustainably.
    Cross-agency teams for each of these three areas are working to 
develop plans that delineate key areas for research and development, 
specify milestones for progress and set launch dates for relevant 
missions. They will report to the Administrator over the coming months, 
and the results of their efforts will be shared with the Congress when 
they are complete.
    The Exploration fiscal year 2011 budget request for Commercial 
Spaceflight is $812.0 million, which includes $500.0 million to spur 
the development of U.S. commercial human spaceflight vehicles, and a 
total of $6 billion in the 5-year budget plan. This investment funds 
NASA to contract with industry to provide astronaut transportation to 
the International Space Station as soon as possible, reducing the risk 
of relying solely on foreign crew transports, and frees up NASA 
resources to focus on the difficult challenges in technology 
development, scientific discovery, and exploration. We also believe it 
will help to make space travel more accessible and more affordable. An 
enhanced U.S. commercial space industry will create new high-tech jobs, 
leverage private sector capabilities and energy in this area, and spawn 
other businesses and commercial opportunities, which will spur growth 
in our Nation's economy. And, a new generation of Americans will be 
inspired by these commercial ventures and the opportunities they will 
provide for additional visits to space. NASA plans to allocate this 
fiscal year 2011 funding via competitive solicitations that support a 
range of activities such as human rating existing launch vehicles and 
developing new crew spacecraft that can ride on multiple launch 
vehicles. NASA will ensure that all commercial systems meet stringent 
human-rating and safety requirements before we allow any NASA crew 
member (including NASA contractors and NASA-sponsored International 
partners) to travel aboard a commercial vehicle on a NASA mission. 
Safety is, and always will be, NASA's first core value.
    In addition to the $500 million identified for crew transportation 
development efforts, the budget also includes $312.0 million in fiscal 
year 2011 for incentivizing NASA's current commercial cargo program. 
These funds--by adding or accelerating the achievement of already-
planned milestones, and adding capabilities or tests--aim to expedite 
the pace of development of cargo flights to the ISS and improve program 
robustness.
    Today, NASA is using $50.0 million from the American Recovery and 
Reinvestment Act of 2009 to help drive the beginnings of a commercial 
crew transportation industry. Through an open competition, in early 
February, NASA awarded Space Act Agreements to five companies who 
proposed ideas and concepts intended to make commercial crew services a 
reality. While there are many vibrant companies out there that we hope 
to partner with in the future, these five companies, along with our two 
currently funded Commercial Orbital Transportation Services partners 
(Space Exploration Technologies and Orbital Sciences Corporation) are 
at the forefront of a grand new era in space exploration.
    The Exploration fiscal year 2011 budget request includes $215.0 
million for the Human Research Program, an increase of more than 40 
percent over the fiscal year 2010 enacted level, and an investment of 
$1,075 million over the 5-year budget plan. The Human Research Program 
is a critical element of the NASA human spaceflight program in that it 
develops and validates technologies that serve to reduce medical risks 
associated for crew members.
    The Exploration fiscal year 2011 budget request includes $1,900.0 
million for Constellation Closeout requirements, and a total of 
$2,500.0 million over the fiscal year 2011-2012 timeframe. These funds 
will be used for related facility and close-out costs, potentially 
including increased costs for Shuttle transition and retirement due to 
Constellation cancellation. The agency has established senior planning 
teams to outline options for Constellation close out expeditiously and 
thoughtfully and to assess workforce, procurement and other issues, 
which will report to the Administrator over the coming months, to 
ensure that people and facilities are best utilized to meet the needs 
of NASA's new missions. NASA will work closely with the Congress as 
these activities progress.
    NASA recognizes that this change will personally affect thousands 
of NASA civil servants and contractors who have worked countless hours, 
often under difficult circumstances, to make the Constellation Program 
successful. I commend the investment that these dedicated Americans 
have made and will continue to make in our Nation's human spaceflight 
program. Civil servants who support Constellation should feel secure 
that NASA has exciting and meaningful work for them to accomplish after 
Constellation, and our contractor colleagues should know that NASA is 
working expeditiously to identify new opportunities for them to partner 
with the agency on the new Exploration portfolio.

                            SPACE TECHNOLOGY

    Through the new Space Technology Program, led by the recently 
established Office of the Chief Technologist, NASA will increase its 
support for research in advanced space systems concepts and game-
changing technologies, enabling new approaches to our current mission 
set and allowing the pursuit of entirely new missions. Using a wide 
array of management, funding, and partnership mechanisms, this program 
will engage the brightest minds in private industry, across the NASA 
Centers, and throughout academia. This new program builds upon the 
success of NASA's Innovative Partnerships Program and directly responds 
to input from multiple NRC reports, as well as the Augustine Committee. 
The Space Technology program will meet NASA's needs for new 
technologies to support future NASA missions in science and 
exploration, as well as the needs of other Government agencies and the 
Nation's space industry in a manner similar to the way NACA aided the 
early aeronautics industry. Many positive outcomes are likely from a 
long-term NASA advanced space systems concepts and technology 
development program, including a more vital and productive space future 
than our country has today, a means to focus NASA intellectual capital 
on significant national challenges and needs, a spark to renew the 
Nation's technology-based economy, an international symbol of our 
country's scientific and technological leadership, and a motivation for 
many of the country's best young minds to enter into educational 
programs and careers in engineering and science.
    The fiscal year 2011 budget request for Space Technology is $572.2 
million, and $4,925.9 million is included in the 5-year budget plan. 
With this initiative, NASA will expand its Technology and Innovation 
portfolio to include: open competitions to stimulate highly innovative, 
early-stage space system concepts and ideas; development of 
technologies that can provide game-changing innovations to address NASA 
and national needs; and development and infusion of cross-cutting 
capabilities into missions that address needs from multiple NASA 
Mission Directorates, other Government agencies, and commercial 
activities in space, while fostering and stimulating a research and 
development culture at NASA Centers. Beginning in fiscal year 2011, 
activities associated with the Innovative Partnerships Program are 
transferred to Space Technology.
    The need for advanced capabilities is increasing as NASA envisions 
missions of increasing complexity to explore and understand the Earth, 
our solar system, and the universe. Technology and innovation are 
critical to successfully accomplishing these missions in an affordable 
manner. The Space Technology program will enhance NASA's efforts to 
nurture new technologies and novel ideas that can revolutionize our 
aerospace industrial base, as well as to address national and global 
challenges and enable whole new capabilities in science and exploration 
that will be of benefit to the Nation. Key focus areas include 
communications, sensors, robotics, materials, and propulsion. The Space 
Technology program will use open competitions such as NASA Research 
Announcements and Announcements of Opportunity, targeted competitions 
such as those for small business (SBIR), universities (STTR), and 
engage early career scientists and engineers. NASA will also continue 
to use challenges and prizes to stimulate innovative new approaches to 
technology development and will encourage partnerships with both 
established and emerging commercial space industries. Through the three 
major elements of this program--Early-Stage Innovation, Game-Changing 
Innovation, and Crosscutting Capabilities--a broad suite of management, 
funding and partnership mechanisms are employed to stimulate innovation 
across NASA, industry and academia.
    The Early-Stage Innovation program element sponsors a wide range of 
advanced space system concept and initial technology development 
efforts across academia, industry and the NASA Centers. This program 
element includes: (a) the Space Technology Research Grant program 
(analogous to the Fundamental Aeronautics program within NASA's 
Aeronautics Research Mission Directorate) that focuses on foundational 
research in advanced space systems and space technology; (b) re-
establishment of a NIAC-like Program to engage innovators within and 
external to the agency in accordance with the recommendations of the 
NRC's Fostering Visions of the Future report; (c) enhancement of the 
Innovative Partnership Programs Seed Fund into a Center Innovations 
Fund to stimulate aerospace creativity and innovation at the NASA field 
Centers; (d) NASA's SBIR/STTR program to engage small businesses; and 
(e) the Centennial Challenges Prize Program to address key technology 
needs with new sources of innovation outside the traditional aerospace 
community. Competitive selection is a major tenet of all the activities 
within this low technology readiness level (TRL) program element.
    The Game Changing Innovation program element focuses on maturing 
advanced technologies that may lead to entirely new approaches for the 
agency's future space missions and solutions to significant national 
needs. Responsive to the NRC report, America's Future in Space: 
Aligning the Civil Space Program with National Needs, this program 
element demonstrates the feasibility of early-stage ideas that have the 
potential to revolutionize future space missions. Fixed-duration awards 
are made to PI-led teams comprised of Government, academia and industry 
partners. These awards are evaluated annually for progress against 
baseline milestones with the objective of maturing technologies through 
ground-based testing and laboratory experimentation. NASA intends to 
draw from DARPA's experience to create and implement collaborative 
game-changing space technology initiatives. New technologies considered 
may include advanced lightweight structures and materials, advanced 
propulsion, power generation, energy storage and high bandwidth 
communications. With a focus on such potentially revolutionary 
technologies, success is not expected with each investment; however, on 
the whole, and over time, dramatic advances in space technology 
enabling entirely new NASA missions and potential solutions to a wide 
variety of our society's grand technological challenges are 
anticipated.
    A Crosscutting Capabilities program element matures a small number 
of technologies that are of benefit to multiple customers to flight 
readiness status. Technical risk, technology maturity, mission risk, 
customer interest, and proposed cost are discriminators planned for use 
in the selection process. For infusion purposes, proposing teams are 
required to have a sponsor willing to cost share a minimum of 25 
percent of the planned development effort. With objectives analogous to 
the former New Millennium program, NASA will pursue flight 
demonstrations not only as standalone missions, but also as missions of 
opportunity on planned NASA missions as well as international and 
commercial space platforms. The Commercial Reusable Suborbital Research 
Program (which provides suborbital flight opportunities for technology 
demonstrations, scientific research and education), the Facilitated 
Access to the Space environment for Technology (FAST) project (which 
focuses on testing technologies on parabolic aircraft flights that can 
simulate microgravity and reduced gravity environments) and the Edison 
Small Satellite Demonstration Missions project (which develops and 
operates small satellite missions in partnership with academia). are 
also included in this program element.
    NASA has had past success in the development of game-changing 
technologies and the transfer of its products and intellectual capital 
to industry. As an example, consider the Mars Pathfinder mission of the 
early 1990s. In addition to accomplishing its science and technology 
objectives, Mars Pathfinder established surface mobility and ground 
truth as important exploration principles, created a groundswell of 
interest and a foundational experience for a new generation of Mars 
scientists and engineers, re-engaged the public with Mars as a 
destination worthy of exploration, led to the creation of NASA's Mars 
program and establishment of a Mars program budget line, and led to a 
wide spectrum of small missions to Mars, the asteroids, comets and 
other bodies in our solar system. For NASA's robotic exploration 
program, Mars Pathfinder was clearly a game-changer. In a more recent 
example, consider NASA's recent improvements to thermal protection 
system (TPS) materials through an Advanced Capabilities development 
project. Over 3 years, a NASA-industry team raised the TRL of 8 
different TPS materials from 5 different commercial vendors, eventually 
selecting the best as the system for the Orion heat shield. In addition 
to providing a heat shield material and design for Orion on time and on 
budget, this Advanced Capabilities development project re-invigorated a 
niche space industry that was in danger of collapse, re-established a 
NASA competency able to respond to future TPS needs. For example, the 
team identified a potentially catastrophic problem with the planned MSL 
heat shield and remedied the problem by providing a viable alternate 
heat shield material and design within stringent schedule constraints. 
The mature heat shield material and designs have been successfully 
transferred to the commercial space industry, including the TPS 
solution for the SpaceX Dragon capsule. Beginning in fiscal year 2011, 
the new NASA Space Technology program aims to strengthen and broaden 
these successful innovation examples across a wide range of NASA 
enterprises and significant national needs.

                            SPACE OPERATIONS

    The fiscal year 2011 budget request includes $4,887.8 million for 
Space Operations, funding the Space Shuttle program, the International 
Space Station Program, and the Space and Flight Support program.
    The fiscal year 2011 budget request for the Space Shuttle program 
is $989.1 million. In 2009, the Space Shuttle flew five times, 
delivering to the ISS its final set of solar arrays and the equipment 
needed to support a six-person permanent crew; servicing the Hubble 
Space Telescope; completing the assembly of the three-module Japanese 
Kibo science laboratory; outfitting the Station with two external 
payload and logistics carriers, the Materials Science Research Rack-1, 
the Fluid Integrated Rack, the Minus 80-Degree Laboratory Freezer, a 
treadmill, and air revitalization equipment; and, delivering key 
supplies.
    In 2010, the Shuttle is slated to fly out its remaining four 
missions, including the recently completed STS-130 mission. In April, 
Shuttle Discovery will carry up critical supplies for the ISS using a 
Multi-Purpose Logistics Module (MPLM) and the Lightweight Multi-Purpose 
Experiment Support Structure Carrier (LMC). Atlantis will launch in May 
with the Russian Mini-Research Module-1, as well as the Integrated 
Cargo Carrier--Vertical Light Deployment (ICC-VLD). This summer, 
Endeavour will carry the Alpha Magnetic Spectrometer (AMS) and attach 
it to the Station's truss structure. The AMS is a particle physics 
experiment, which will use the unique environment of space to advance 
knowledge of the universe and contribute to understanding the 
universe's origin. AMS is presently undergoing critical thermal and 
electrical testing at the European test facilities in the Netherlands. 
If these tests are successful, AMS will ship to KSC in May for the July 
launch. The final Shuttle mission, STS-133, is targeted for September 
of this year. Discovery will carry supplies to ISS, as well as an MPLM 
that will be installed on ISS as a permanent module, expanding the 
Station's storage volume. This flight will mark the completion of ISS 
assembly.
    For almost 30 years, the Space Shuttle has carried U.S. and 
international astronauts into orbit; played a key role in the 
construction, outfitting, and resupply of the ISS; serviced the Hubble 
Space Telescope five times; served as an Earth-orbiting laboratory 
through the Spacelab and SpaceHab missions; and deployed a diverse 
array of payloads, including science probes and research experiments 
(such as the Magellan mission to Venus and Earth-orbiting tether 
experiments), communications satellites; and even student projects. 
NASA recognizes the role the Space Shuttle vehicles and personnel have 
played in the history of space activity, and looks forward to 
transitioning key workforce, technology, facilities, and operational 
experience to a new generation of human spaceflight exploration 
activities.
    Fiscal year 2011 will be the first full year of major Space Shuttle 
Program (SSP) transition and retirement (T&R) activities. T&R is 
focused on the retirement of the SSP and the efficient transition of 
assets to other uses once they are no longer needed for safe mission 
execution. These activities include identifying, processing, and safing 
hazardous materials, and the transfer or disposal of SSP assets, 
including the preparation of Orbiters and other flight hardware for 
public display. T&R also covers severance and retention costs 
associated with managing the drawdown of the SSP workforce.
    A key element of America's future in space is the International 
Space Station. The fiscal year 2011 budget request for the 
International Space Station Program is $2,779.9 million. As of May 
2009, the ISS has been able to support a 6-person permanent crew, and 
during the STS-127 mission last July, the Station hosted 13 astronauts 
representing the 5 space agencies in the ISS partnership, including 
those of the United States, Russia, Japan, Europe and Canada. The three 
major science labs aboard ISS were completed in 2009 with the delivery 
of the Exposed Facility of the Japanese Kibo module. In addition, the 
first flight of Japan's H-II Transfer Vehicle (HTV) was successfully 
carried out last fall, adding a new cargo-carrying spacecraft to the 
fleet.
    This year will mark the completion of assembly of the ISS--the 
largest crewed spacecraft ever assembled, measuring 243 by 356 feet, 
with a habitable volume of over 30,000 cubic feet and a mass of 846,000 
pounds, and powered by arrays which generate over 700,000 kilowatt-
hours per year. The ISS represents a unique research capability aboard 
which the United States and its partner nations can conduct a wide 
variety of research in biology, chemistry, physics and engineering 
fields which will help us better understand how to keep astronauts 
healthy and productive on long-duration space missions. Funding for ISS 
research is also reflected in the Exploration budget request and in the 
Space Technology budget request.
    The fiscal year 2011 budget request includes a dramatic increase in 
the Nation's investment in the research and capabilities of the ISS. 
With this investment, NASA will be able to fully utilize the ISS and 
increase those capabilities through upgrades to both ground support and 
onboard systems. Importantly, this budget extends operations of the 
ISS, likely to 2020 or beyond. This budget makes a strong commitment to 
continued and expanded operation of the ISS. The United States as 
leader in space made this first step and will now work with the other 
ISS international partners to continue International operation of the 
ISS. ISS can inspire and provide a unique research platform for people 
worldwide.
    ISS research is anticipated to have terrestrial applications in 
areas such as biotechnology, bioengineering, medicine and therapeutic 
treatment. The fiscal year 2011 budget request for ISS reflects 
increased funding to support the ISS as a National Laboratory in which 
this latter type of research can be conducted. NASA has two MOUs with 
other U.S. Government agencies, and five agreements with non-government 
organizations to conduct research aboard the ISS. NASA intends to 
continue to expand the community of National Laboratory users of the 
ISS. This budget request supports both an increase in research and 
funding for cargo transportation services to deliver experiments to the 
Station.
    ISS can also play a key role in the demonstrations and engineering 
research associated with exploration. Propellant storage and transfer, 
life support systems, and inflatable technology can all benefit by 
using the unique research capabilities of ISS.
    In addition to supporting a variety of research and development 
efforts, the ISS will serve as an incubator for the growth of the low-
Earth orbit space economy. NASA is counting on its Commercial Resupply 
Services (CRS) suppliers to carry cargo to maintain the Station. The 
first CRS cargo flights will begin as early as 2011. It is hoped that 
these capabilities, initially developed to serve the Station, may find 
other customers as well, and encourage the development of further space 
capabilities and applications. The suppliers involved will gain 
valuable experience in the development and operation of vehicles that 
can: (1) fly to the ISS orbit; (2) operate in close proximity to the 
ISS and other docked vehicles; (3) dock to ISS; and, (4) remain docked 
for extended periods of time.
    As a tool for expanding knowledge of the world around us; advancing 
technology; serving as an impetus for the development of the commercial 
space sector; demonstrating the feasibility of a complex, longterm, 
international effort; and, perhaps most importantly, inspiring the next 
generation to pursue careers in science, technology, engineering, and 
mathematics, the ISS is without equal.
    The fiscal year 2011 budget request for Space and Flight Support 
(SFS) is $1,119.0 million. The budget request provided for critical 
infrastructure indispensable to the Nation's access and use of space, 
including Space Communications and Navigation (SCaN), the Launch 
Services Program (LSP), Rocket Propulsion Testing (RPT), and Human 
Space Flight Operations (HSFO). The SFS budget also includes a new and 
significant investment in the 21st Century Space Launch Complex, 
intended to increase operational efficiency and reduce launch costs by 
modernizing the Florida launch capabilities for a variety of NASA 
missions, which will also benefit non-NASA users.
    In fiscal year 2011, the SCaN Program will begin efforts to improve 
the robustness of the Deep Space Network (DSN) by initializing the 
replacement of the aging 70m antenna capability with the procurement of 
a 34m antenna. The NASA DSN is an international network of antennas 
that supports interplanetary spacecraft missions and radio and radar 
astronomy observations for the exploration of the solar system and the 
universe. The DSN also supports selected Earth-orbiting missions. In 
the third quarter, a System Requirements Review (SRR) of the Space 
Network Ground Segment Sustainment (SGSS) Project will be conducted, 
and the Program will have begun integration and testing of the Tracking 
and Data Relay Satellites (TDRS) K&L. In the area of technology, the 
Communication Navigation and Networking Reconfigurable Testbed 
(CoNNeCT) will be installed on ISS. This test bed will become NASA's 
orbiting SCaN laboratory on the ISS and will validate new flexible 
technology to enable greater spacecraft productivity. NASA will also 
have its first optical communication system ready for integration into 
the Lunar Atmosphere and Dust Environment Explorer (LADEE) spacecraft. 
In addition, the Disruption Tolerant Networking (DTN) protocols will 
complete their development at the end of fiscal year 2011 and should be 
ready for operations throughout the solar system. The SCaN operational 
networks will continue to provide an unprecedented level of 
communications and tracking services to over 75 spacecraft and launch 
vehicles during fiscal year 2011.
    The LSP has five planned NASA launches in fiscal year 2011 
including Glory, Aquarius, Juno, NPOESS Preparatory Project (NPP) and 
the Gravity Recovery and Interior Laboratory (GRAIL) mission. In 
addition to processing, mission analysis, spacecraft integration and 
launch services, LSP will continue to provide support for the 
development and certification of emerging launch services.
    The RPT Program will continue to provide test facility management, 
and provide maintenance, sustaining engineering, operations, and 
facility modernization projects necessary to keep the test-related 
facilities in the appropriate state of operational readiness. These 
facilities will support many of the tests planned under ESMD's 
propulsion research program.
    HSFO includes Crew Health and Safety (CHS) and Space Flight Crew 
Operations (SFCO). SFCO will continue to provide trained crew for the 
manifested Space Shuttle requirements, four ISS long-duration crew 
rotation missions. CHS will identify and deliver necessary core medical 
capabilities for astronauts. In addition, CHS will gather astronaut 
medical data critical for determining medical risk as a result of space 
flight and how best to mitigate that risk.
    The 21st Century Launch Complex initiative will primarily benefit 
NASA's current and future operations at the Kennedy Space Center (KSC), 
but will also help to improve KSC launch operations for future and 
current non-NASA users of the range, with the goal of transforming KSC 
into a modern facility. This new initiative focuses on upgrades to the 
Florida launch range, expanding capabilities to support commercial 
launch providers, such as commercial cargo flights and future 
commercial crew flights in support of ISS, and expendable launch 
vehicles in support of the Science mission directorate payloads and 
robotic precursor missions. Additional areas under consideration 
include modernization activities to support safer and more efficient 
launch operations; enhancing payload processing capabilities through 
capacity increases, improvement, and modernization, in addition to 
potentially relocating the KSC perimeter where appropriate and 
feasible, to enable certain existing private sector facilities to lie 
outside the security perimeter, thus making it far more convenient to 
use those facilities; environmental remediation to reduce the impact on 
the surrounding areas; and supporting the modernization of the launch 
range capabilities. We will fully coordinate this activity with all 
users of the range.

                               EDUCATION

    The fiscal year 2011 budget request for Education is $145.8 
million. This budget request furthers NASA's commitment to inspiring 
the next generation of explorers in the STEM disciplines. In fiscal 
year 2011, NASA will continue to strongly support the administration's 
STEM priorities and will continue to capitalize on the excitement of 
NASA's mission to stimulate innovative solutions, approaches, and tools 
that inspire student and educator interest and proficiency in STEM 
disciplines. This strategy will increase the distribution and impact of 
NASA progressive opportunities for elementary and secondary teachers, 
university faculty, students of all ages, and the public.
    In fiscal year 2011, NASA will support the administration's STEM 
education teaching and learning improvement efforts, including Race to 
the Top and Educate to Innovate, while continuing efforts to 
incorporate NASA content into the STEM education initiatives of other 
Federal agencies. This summer, NASA will launch Summer of Innovation, 
an intensive STEM teaching and learning program targeted at the middle 
school level that includes follow-on activities during the school year. 
NASA content and products will be incorporated into evidence-based 
summer learning programs across participating States with the goal of 
improving student academic performance and motivating them to pursue 
further education and successful careers. The fiscal year 2011 request 
includes funding for Summer of Innovation over a 3-year period.
    NASA will also continue to partner with academic institutions, 
professional education associations, industry, and other Government 
agencies to provide K-12 teachers and university faculty with the 
experiences that capitalize on the excitement of NASA discoveries to 
spark their student's interest and involvement. Examples of such 
experiences are the NASA student launch initiatives and other hands-on 
payload development and engineering opportunities. The fiscal year 2011 
budget request also places increased emphasis on Education and cyber-
learning opportunities and expands teacher pre-service, professional 
development and training programs. Additionally, NASA seeks to prepare 
high school students for undergraduate STEM study through experiences 
that blend NASA research and engineering experiences with classroom 
study and mentoring. Another agency education goal is to broaden 
community college participation in NASA research and STEM workforce 
development.
    In fiscal year 2011, the agency aims to increase both the use of 
NASA resources and the availability of opportunities to a diverse 
audience of educators and students, including women, minorities, and 
persons with disabilities. An example is the Innovations in Global 
Climate Change Education project that will be implemented within the 
Minority University Research and Education Program. The project will 
seek innovative approaches to providing opportunities for students and 
teachers to conduct research using NASA data sets to inspire 
achievement and improve teaching and learning in the area of global 
climate change.

                          CROSS-AGENCY SUPPORT

    NASA Cross-Agency Support provides critical mission support 
activities that are necessary to ensure the efficient and effective 
operation and administration of the agency. These important functions 
align and sustain institutional and program capabilities to support 
NASA missions by leveraging resources to meet mission needs, 
establishing agency-wide capabilities, and providing institutional 
checks and balances. Cross-Agency Support includes two themes: Center 
Management and Operations and Agency Management and Operations. The 
fiscal year 2011 budget request includes $3,310.2 million for Cross 
Agency Support.
    NASA's fiscal year 2011 budget request includes $2,269.9 million 
for Center Management and Operations, which funds the critical ongoing 
management, operations, and maintenance of nine NASA Centers and major 
component facilities. NASA Centers continue to provide high-quality 
support and the technical talent for the execution of programs and 
projects.
    NASA's fiscal year 2011 budget request includes $1,040.3 million 
for Agency Management and Operations, which funds the critical 
management and oversight of agency missions, programs and functions, 
and performance of NASA-wide activities, including five programs: 
Agency Management, Safety and Mission Success, Agency Information 
Technology Services, and Strategic Capabilities Assets Program. 
Beginning in fiscal year 2011, activities associated with the 
Innovative Partnerships Program are transferred to the Space Technology 
program. The fiscal year 2011 budget request provides:
  --$428.1 million for Agency Management, which supports executive-
        based, agency-level functional and administrative management 
        requirements. Agency Management provides for the operational 
        costs of Headquarters as an installation; institutional and 
        management requirements for multiple agency functions; 
        assessment and evaluation of NASA program and mission 
        performance; strategic planning; and independent technical 
        assessments of agency programs.
  --$201.6 million for Safety and Mission Success activities required 
        to continue strengthening the workforce, training, and 
        strengthening the fundamental and robust checks and balances 
        applied on the execution of NASA's mission, and to improve the 
        likelihood for safety and mission success for NASA's programs, 
        projects, and operations. The engineering, safety and mission 
        assurance, health and medical independent oversight, and 
        technical authority components are essential to NASA's success 
        and were established or modified in direct response to many of 
        the key Challenger and Columbia accident board recommendations 
        for reducing the likelihood for future accidents. Included 
        under Safety and Mission Success is the Software Independent 
        Verification and Validation program.
  --$177.8 million for Agency Information Technology Services, which 
        encompasses cross-cutting services and initiatives in IT 
        management, applications, and infrastructure necessary to 
        enable the NASA Mission and improve security, integration and 
        efficiency of agency operations. NASA plans significant 
        emphasis on continued implementation of five major agency-wide 
        procurements to achieve the following: (1) consolidation of IT 
        networks leading to improved network management, (2) 
        consolidation of desktop/laptop computer services and mobile 
        devices to improve end-user services, (3) data center 
        consolidation to provide more cost-effective services, (4) 
        agency public Web site management to improve access to NASA 
        data and information by the public, and (5) agency business 
        systems development and maintenance to provide more efficient 
        and effective business systems. NASA will also continue to 
        improve security incident detection, response, and management 
        through the Security Operations Center.
  --$29.8 million for the Strategic Capabilities Assets Program (SCAP). 
        This program funds the costs required to sustain key agency 
        test capabilities and assets, such as an array of flight 
        simulators, thermal vacuum chambers, and arc jets, to ensure 
        mission success. SCAP ensures that assets and capabilities 
        deemed vital to NASA's current and future success are sustained 
        in order to serve agency and national needs. All assets and 
        capabilities identified for sustainment either have validated 
        mission requirements or have been identified as potentially 
        required for future missions.
       construction and environmental compliance and restoration
    NASA Construction and Environmental Compliance and Restoration 
provides for the design and execution of all facilities construction 
projects, including discrete and minor revitalization projects, 
demolition for closed facilities, and environmental compliance and 
restoration. The fiscal year 2011 budget request includes $397.4 
million for Construction and Environmental Restoration, made up of:
  --$335.3 million for the Construction of Facilities (CoF) Program, 
        which funds capital repairs and improvements to ensure that 
        facilities critical to achieving NASA's space and aeronautics 
        program are safe, secure, environmentally sound, and operate 
        efficiently. The agency continues to place emphasis on 
        achieving a sustainable and energy-efficient infrastructure by 
        replacing old, inefficient, deteriorated building with new, 
        efficient, high performance buildings that will meet NASA's 
        mission needs while reducing future operating costs.
  --$62.1 million for Environmental Compliance and Restoration (ECR) 
        Program, which supports the ongoing cleanup of current or 
        former sites where NASA operations have contributed to 
        environmental problems. The ECR Program prioritizes these 
        efforts to ensure that human health and the environment are 
        protected for future missions. This program also supports 
        strategic investments in environmental methods and practices 
        aimed at reducing NASA's environmental footprint and lowering 
        the risks of future cleanups.

                               CONCLUSION

    Americans and people worldwide have turned to NASA for inspiration 
throughout our history--our work gives people an opportunity to imagine 
what is barely possible, and we at NASA get to turn those dreams into 
real achievements for all humankind. This budget gives NASA a roadmap 
to even more historic achievements as it spurs innovation, employs 
Americans in fulfilling jobs, and engages people around the world as we 
enter an exciting new era in space. NASA looks forward to working with 
the subcommittee on implementation of the fiscal year 2011 budget 
request.
    Madam Chair, thank you for your support and that of this 
subcommittee. I would be pleased to respond to any questions you or the 
other members of the subcommittee may have.

                           NATIONAL AERONAUTICS AND SPACE ADMINISTRATION--PRESIDENT'S FISCAL YEAR 2011 BUDGET REQUEST SUMMARY
                                                       [Budget Authority, in millions of dollars]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                            Fiscal Year
                                                  Fiscal Year    Recovery       2010     Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year
                                                  2009 Actual      Act        Enacted        2011         2012         2013         2014         2015
--------------------------------------------------------------------------------------------------------------------------------------------------------
Science:
    Earth Science...............................      1,377.3        325.0      1,420.7      1,801.8      1,944.5      2,089.5      2,216.6      2,282.2
    Planetary Science...........................      1,288.1  ...........      1,341.3      1,485.7      1,547.2      1,591.2      1,630.1      1,649.4
    Astrophysics................................      1,229.9         75.0      1,103.9      1,076.3      1,109.3      1,149.1      1,158.7      1,131.6
    Heliophysics................................        607.8  ...........        627.4        641.9        647.6        679.8        704.4        750.8
                                                 -------------------------------------------------------------------------------------------------------
      Total, Science............................      4,503.0        400.0      4,493.3      5,005.6      5,248.6      5,509.6      5,709.8      5,814.0
                                                 =======================================================================================================
Aeronautics and Space Research and Technology:
    Aeronautics Research........................        500.0        150.0        507.0        579.6        584.7        590.4        595.1        600.3
    Space Technology............................  ...........  ...........  ...........        572.2      1,012.2      1,059.7      1,063.9      1,217.9
                                                 -------------------------------------------------------------------------------------------------------
      Total, Aeronautics and Space Research and         500.0        150.0        507.0      1,151.8      1,596.9      1,650.1      1,659.0      1,818.2
       Technology...............................
                                                 =======================================================================================================
Exploration:
    Exploration Research and Development........  ...........  ...........  ...........      1,551.4      2,577.4      3,318.9      3,623.3      3,979.3
    Commercial Spaceflight......................  ...........  ...........  ...........        812.0      1,400.0      1,400.0      1,300.0      1,300.0
    Constellation Transition....................  ...........  ...........  ...........      1,900.0        600.0  ...........  ...........  ...........
    Constellation Systems.......................      3,033.2        400.0      3,325.8  ...........  ...........  ...........  ...........  ...........
    Advanced Capabilities.......................        472.3  ...........        454.0  ...........  ...........  ...........  ...........  ...........
                                                 -------------------------------------------------------------------------------------------------------
      Total, Exploration........................      3,505.5        400.0      3,779.8      4,263.4      4,577.4      4,718.9      4,923.3      5,179.3
                                                 =======================================================================================================
Space Operations:
    Space Shuttle...............................      2,979.5  ...........      3,139.4        989.1         86.1  ...........  ...........  ...........
    International Space Station.................      2,060.2  ...........      2,317.0      2,779.8      2,983.6      3,129.4      3,221.9      3,182.8
    Space and Flight Support....................        725.0  ...........        724.2      1,119.0      1,220.6      1,123.9      1,140.7        947.7
                                                 -------------------------------------------------------------------------------------------------------
      Total, Space Operations...................      5,764.7  ...........      6,180.6      4,887.8      4,290.2      4,253.3      4,362.6      4,130.5
                                                 =======================================================================================================
Education.......................................        169.2  ...........        183.8        145.8        145.8        145.7        145.7        146.8
                                                 =======================================================================================================
Cross-Agency Support:
    Center Mgmt & Ops...........................      2,024.3  ...........      2,067.0      2,270.2      2,347.4      2,427.7      2,509.7      2,594.3
    Agency Mgmt & Ops...........................        921.2  ...........        941.7        841.2        842.2        849.1        856.8        867.9
    Institutional Investments...................        293.7         50.0         23.4  ...........  ...........  ...........  ...........  ...........
    Congressionally Directed Items..............         67.2  ...........         63.0  ...........  ...........  ...........  ...........  ...........
                                                 -------------------------------------------------------------------------------------------------------
      Total, Cross-Agency Support...............      3,356.4         50.0      3,095.1      3,111.4      3,189.6      3,276.8      3,366.5      3,462.2
                                                 =======================================================================================================
Construction and Environmental Compliance and
 Restoration:
    Construction of Facilities..................  ...........  ...........        381.1        335.2        316.3        319.5        344.6        349.0
    Environmental Compliance and Restoration....  ...........  ...........         67.2         62.1         47.5         47.4         48.9         49.5
                                                 -------------------------------------------------------------------------------------------------------
      Total, Construction and Environmental       ...........  ...........        448.3        397.3        363.8        366.9        393.5        398.5
       Compliance and Restoration...............
                                                 =======================================================================================================
Inspector General...............................         33.6          2.0         36.4         37.0         37.8         38.7         39.6         40.5
                                                 =======================================================================================================
      Total, NASA Fiscal Year 2011..............     17,782.4      1,002.0     18,724.3     19,000.0     19,450.0     19,960.0     20,600.0     20,990.0
                                                 =======================================================================================================
          Year to Year Change (percent).........  ...........  ...........          5.3          1.5          2.4          2.6          3.2          1.9
--------------------------------------------------------------------------------------------------------------------------------------------------------

                                 SAFETY

    Senator Mikulski. Thank you very much, Administrator 
Bolden.
    I am going to ask a few questions, and then the courtesy of 
Senator Shelby says we will turn to Senator Bennett. Then we 
will return to our regular order and go straight on down. Does 
that sound like a good way to go?
    Administrator Bolden, I have many questions. Actually, I 
have 13 pages of questions. And my original questions were 
going to focus, of course, on space science as well as human 
exploration, but I think we have got to get right to the human 
exploration aspects.
    My No. 1 concern, while we have to always look at the 
budget, is the safety of the astronauts. Many members on this 
subcommittee have been to launches, but we have also been there 
when the Challenger went down, and witnessed the terrible 
tragedy of the Columbia. We say a grateful Nation will never 
forget. Well, whatever course of action, we don't want to 
forget.
    So my question will be the safety standards. First of all, 
how will you ensure the safety of the astronauts in this new 
proposed program? And will NASA have one safety standard for 
humans in space, not one safety standard for Government 
development programs that are very tough and another for 
commercial companies?
    One commercial company said they could produce a crew 
vehicle in 3 years. Well, that sounds promising. It also sounds 
ambitious. My look at the history books showed that the shuttle 
took 12 years from when President Nixon approved it to the 
first human test, from 1969 to 1981. Again, tell me about the 
safety standards, and are we going to have one set of safety 
standards for low-orbit and commercial vehicles and so on, 
because it would be my hope that there is one safety standard.
    Administrator Bolden. Madam Chair, as has been pointed out 
already by several speakers, I was a member of the Aerospace 
Safety Advisory Panel, the NASA safety advisory panel that now 
advises me. When I was a member of that panel, as John Frost, 
who will testify after me will comment, we were concerned that 
NASA was not sharing its human rating requirements with the 
commercial vendors.
    I think and I hope Mr. Frost will attest to the fact that 
since my becoming the NASA Administrator, we share the human 
rating standards with all of the prospective vendors, whether 
they are large or small business, whether they are 
entrepreneurial or not. We are actually developing a set of 
human rating requirements for commercial vehicles that will 
take the massive numbers of engineering requirements and 
various other requirements and put them in one source document 
that will be available for all who wish to enter the commercial 
launch market.
    In terms of safety and reliability are very interesting 
factors. When I talk about safety of a vehicle and satisfying 
myself that a vehicle is safe, there are a number of criteria 
that have to be met. The No. 1 criteria are demonstrated 
reliability. I would point out that we have three candidate 
vehicles at the present time: Ares I, Falcon 9, and Taurus II. 
The demonstrated reliability of all three vehicles is zero. We 
have never flown an Ares I. We have never flown a Falcon 9. We 
have never flown a Taurus II. So while there are predictions of 
the safety of all these vehicles and their reliability, they 
are equal. They are all zero.
    I will also point out that when we flew the space shuttle, 
when I came to NASA in 1980, the predicted reliability and 
safety factors for the space shuttle, I think, was going to be 
1 in 1,000. We were going to fly 50 flights a year. I think 
most people know that we now struggle, the maximum we flew when 
I was in the astronaut office, I think we had a banner year in 
which we flew nine space shuttle missions. That was an 
incredible year for us.
    The demonstrated reliability of the space shuttle today is 
1 in 125, or somewhere in that neighborhood. So I would caution 
anyone to get carried away with predicted safety and predicted 
reliability numbers because we all know, as we say in the 
military, that no plan survives crossing the line of departure. 
So I am very comfortable that I can guarantee before I put a 
human being in any vehicle, whether it is Government-produced 
or commercially produced, it will meet the safety standards 
that have been required.
    Senator Mikulski. Do I take it to say that there will be 
one safety standard?
    Administrator Bolden. There will be one safety standard for 
any vehicle that carries human beings from this planet to 
anywhere.

                          CONTRACT TERMINATION

    Senator Mikulski. Well, thank you for that. I would like to 
ask a contract termination question. Because if this is what 
you want, if this is what the President is proposing, how do 
you intend to handle contract termination and the workforce 
dislocation? But for us, and I know others will be asking 
questions about safety----
    Administrator Bolden. Yes, ma'am.
    Senator Mikulski. But what is your plan for the contractors 
who will be forced to terminate your work if this proposal is 
accepted? And are you planning to terminate all Constellation 
contracts? The issue of saving technology is one thing, but 
this has tremendous implications for our budget.
    Administrator Bolden. Yes, ma'am. Madam Chair, we are in 
the process of transitioning the Constellation program from 
where it was when I inherited it to where it is going to be in 
the future. The term contract--termination liability, potential 
termination liability is one that has caused a lot of angst 
recently, and it is because it is a term that is used in 
procurement and it is a factor in all of NASA contracts. Every 
NASA contract has a stipulation that the contractor should 
provide for termination expenses, and every contractor knows 
that. So we are not changing requirements. We are not modifying 
requirements. Those have existed in prior NASA contracts, and 
they exist in our contracts today.
    Senator Mikulski. I am puzzled by this. How have you been 
reminding contractors of their obligation to have reserve 
funds. How does that square with the fiscal 2010 appropriations 
law that prevents you from terminating or restructuring 
contracts for this fiscal year?
    Administrator Bolden. I cannot terminate anything that has 
to do with the Constellation program, and we are doing that. If 
I can just make just one minor correction--we are not informing 
contractors that they have to maintain reserve funds. We are 
reminding them that it is their responsibility to determine--I 
guess technically for them, it is to determine what level of 
risk the company is willing to accept in terms of being able to 
handle a termination if it should come. So we are not telling 
them that they need to reserve funds. We are telling them that 
they do have to be aware of the fact that termination 
liabilities, some of them lie on them by their contract. It is 
the company's determination of what level of risk they want to 
incur, whether they put aside funds or whether they assume that 
they are not going to need them.
    Senator Mikulski. Well, I want to ask more about this.
    Administrator Bolden. Yes, ma'am.
    Senator Mikulski. I do want to make sure that other members 
have a chance.
    Senator Bennett.
    I have a great deal of questions about this.

                 STATEMENT OF SENATOR ROBERT F. BENNETT

    Senator Bennett. Thank you very much, Madam Chairwoman, and 
I very much appreciate your courtesy in allowing me to 
participate in this.
    General Bolden, I am a businessman. If I was sitting on the 
board of directors and you were making this pitch to the board 
of directors as to the direction in which you are going to take 
the company, I would tell you, you haven't made the sale. And 
let me give you four areas where I think you have failed to 
make the sale.

                           PREPARED STATEMENT

    By the way, Madam Chairwoman, I have a formal statement and 
would appreciate it put in the record.
    Senator Mikulski. Without objection.
    [The statement follows:]
            Prepared Statement of Senator Robert F. Bennett
    Madam Chairwoman, I would like to express my appreciation to you 
for allowing me to join this subcommittee hearing this morning. This 
issue is extremely important to Utah and to me personally, so I am 
sincere in my gratitude.
    Utah has a rich history in supporting NASA's human space 
exploration missions. For decades, talented workers in Utah have helped 
engineer, design, and manufacture solid rocket motors that have safely 
and efficiently launched our astronauts into outer space. We have 
launched over 100 shuttle flights, all of which have begun their 
journey on solid rocket motors made in Utah, a fact of which I am 
extremely proud. Even though there have been some setbacks along the 
way, they have made us stronger and have taught us valuable lessons 
that have made subsequent flights safer and more reliable.
    And now, at the end of this year, the Space Shuttle that has helped 
the United States maintain its role as the leader in space exploration, 
leading to life-changing technological discoveries along the way, will 
be retired. But the end of the Space Shuttle was not supposed to be the 
end of human space exploration. Rather, the Constellation program, 
which grew out of the Challenger disaster several years ago, was 
supposed to seamlessly take over for the Space Shuttle to continue to 
ferry our astronauts to the International Space Station and, 
eventually, beyond low-earth orbit by venturing back to the moon and 
eventually to mars, a plan that was approved by both Republican and 
Democratic leadership.
    And now after several years and billions of dollars of investment 
in this program, the President has decided to cancel the program. Why? 
To me, it's not clear, and neither the President nor anyone in his 
administration has made a compelling case for why we should abandon the 
Constellation program. The President made a decision to cancel the 
Constellation program and laid out his vision for space exploration 
earlier this year, and then last week he ``revised'' that vision. This 
type of ``on-the-fly'' decisionmaking has made me very concerned about 
who may actually be making these decisions.
    Regardless, I have several very serious concerns about canceling 
the Constellation program. If we are going to cancel this program and 
pursue a different path, we should only do so under the following 
conditions: (1) the President has demonstrated a clear vision for human 
space exploration and adequately explained why it is superior to the 
Constellation program; (2) the alternative provides significant 
advantages in cost, schedule, performance, and safety; (3) the 
potential consequences of changing course mid-stream do not outweigh 
the anticipated advantages of such a significant shift in policy; and 
(4) we are able to maintain our leadership in space exploration. 
Unfortunately, the President's alternative plans to replace the 
Constellation program fail these conditions miserably.
    First, since the President announced he was cancelling the 
Constellation program, he has already announced changes to his new 
plan. His new plan is short on details and expected costs, relying on 
the commercial industry to take over the role of transporting crew and 
cargo to the International Space Station, increasing the role of 
robotics for exploration, and speeding up development of a ``heavy 
lift'' vehicle by 2015. The problem is that the commercial industry has 
not proven to be able to meet any safety or budget deadlines and the 
Constellation program already has a heavy lift vehicle, the Ares V, in 
the works. So, here we have a program that is meeting all of its 
milestones and has a demonstrated capability to achieve our space 
objectives with Constellation, and we are scrubbing it for a commercial 
industry that has not proven its worth in space travel and for a heavy 
lift vehicle that we will begin working on in 5 years. And do we intend 
to go to the moon? To Mars? To an asteroid? What exactly do we hope to 
achieve with the new plan envisioned by the President? The problem is I 
can't tell.
    Second, the President's alternative plan will actually cost us more 
money and delay our ability to get ourselves into space. The Ares 
program, which is a major component of Constellation, is a prime 
example of how this program is on track. Just last year we launched a 
successful test flight of the Ares I rocket. It went perfectly. It has 
been under design and testing phases for over 4 years, with $6 billion 
already invested in perfecting the rocket. The Ares I is built off of 
the same manufacturing format as the current rockets that have been 
putting our space shuttle into space for over two decades, so we know 
we have a proven technology that takes advantage of an existing 
manufacturing base and capability. Scrapping this investment and 
starting fresh does not make sense to my business sense. The Augustine 
Panel said we'd need about $3 billion a year to keep the program on 
track. This year alone the President wants to spend $2.5 billion to 
cancel the Constellation program, with billions more in funding set 
aside to subsidize the commercial industry. This makes no sense. And 
finally, the Ares I design is proven to be the safest mode of 
transporting our astronauts. The Safety Advisory Panel that found that 
the model embraced by Ares would be the safest for our astronauts, and 
now we are going to pretend that safety doesn't matter. This has me 
very concerned. The President's alternative plan does not provide 
significant advantages in cost, schedule, performance, or safety.
    My third point of concern is regarding the consequences of 
canceling Constellation. I don't believe the administration fully 
understands the drastic impact this decision will have on our national 
security. Ending Constellation will devastate an industrial base 
critical to our national security. The Constellation Program is powered 
by the Ares I, a large scale solid rocket motor. If there are no large 
solid rocket motors in production with the cancelation of Constellation 
(other than NAVY D-5 at 12 motors a year under their ``warm line'' 
program), the current industrial base will be too large to support 
small solid motor production, requiring massive layoffs. In Utah alone, 
this means losing about 2,000 jobs. Producing only small solid motors 
would not be sufficient to keep the supplier base engaged as many of 
them would go out of business or stop producing highly specialized 
components because the economies of scale won't justify the decision to 
remain in business. This will certainly lead to price spikes at the 
Department of Defense for smaller tactical missiles (which are solids-
based), and lead to hundreds of millions of dollars in price increases 
on tactical weapons systems every year. It could also mean that DOD may 
have difficulty getting solid-based tactical missiles produced in the 
future at all, which is not good for either readiness or costs.
    And finally, I don't believe the current plan of the President will 
allow the United States, a country which has been the leader in space 
technology development for over 40 years, to continue to lead the world 
in space exploration. It's almost embarrassing that we will rely on the 
Russians to take our astronauts into space starting next year. And what 
happens if the commercial industry isn't able to deliver on time? Do we 
rely on the Russians for the next decade to meet our space needs? And 
what about other emerging nations like China and India? Will they 
surpass the United States? Of course I applaud other nations in further 
developing their technologies, but I believe if we continue down the 
path this President wants to take us, we will lose our global 
competitive advantage that space exploration has helped us develop. We 
cannot allow this to happen.

                                SCIENCE

    Senator Bennett. The four areas that I think you haven't 
made the sale are No. 1, the science; No. 2, protecting the 
industrial base; No. 3, the money; and No. 4, the law. And let 
me run through those very quickly, and then you can respond to 
them as you will.
    You made a statement just now that I find incredible when 
you say the demonstrated reliability of Ares is zero. Now, you 
probably have seen this, but let me show it to you. Time 
magazine just 6 months ago, in November 2009, published the 50 
best inventions of the year, and No. 1 of the 50 is Ares--the 
best invention of the year. Doesn't sound like shabby science 
to me. It doesn't sound like something that is obsolete.
    And they say--you can contradict this--they talk about 
this, and I am quoting from Time, ``In 2004, the U.S. committed 
itself to sending astronauts back to the Moon and later to 
Mars, and for that, you need something new and nifty for them 
to fly. The answer is the Ares I, which had its first unmanned 
flight on October 28 and dazzled even the skeptics.''
    That doesn't sound like there is no demonstration of 
reliability. I think there is a definition problem here. None 
of the other things you talked about can match the tested 
perfection of Ares with the test that has already been done. So 
I challenge that one.

                            INDUSTRIAL BASE

    No. 2, the industrial base, you said the President will 
make a decision as to what will be done by 2015. If you kill 
the industrial base of solid rocket motors now with this 
action, in 2015 you cannot get it back.
    This is not like--this is not saying, ``Well, we are going 
to stop buying this kind of car, and we will look at buying 
another kind of car or pickup truck or SUV 4 or 5 years from 
now, and there is an industrial base that will have those kinds 
of cars or trucks available to us.'' This is the only game in 
town.
    And you shut down the industrial base of rockets, solid 
rocket motors, and there will be no contractors available in 
2015 if you make the decision that is the way you want to go. 
And I think that is a very significant issue you have to 
address now.

                          PROTECTING THE MONEY

    No. 3 Money, you have not made the case that this is going 
to save money. And let me point out two particular things with 
respect to money. On the--Senator Shelby has referred to this 
already--the fiscal 2011 budget includes $2.5 billion in 
Constellation contract termination costs; $6 billion for new 
commercial providers, whom we don't really know who they are, 
who likely will suffer the normal cost and schedule growth that 
has been referred to in the opening statements already with 
their level of inexperience; an additional $312 million for 
COTS money that was never planned.
    So you have got the $2.5 billion. You have got the 
uncertainty of where you are going. And it seems to me, a much 
more responsible use of taxpayer dollars would be to use the 
combined $8.8 billion that is represented in your budget to 
finish the program that has had 5 years' worth of progress and 
accomplishments and is designed to deliver a safer and more 
reliable way to send our astronauts to orbit than something 
that we are just guessing about.
    I think the prudent financial circumstance is to stay with 
what we have got instead of plunging into the unknown. And 
looking at construction costs, I would like you to address what 
I find a significant gap in your money calculations. You stated 
in congressional testimony that the Ares program to fly would 
cost approximately $4 billion a year.
    Doug Cook, the Associate Administrator for Exploration 
Systems Mission Directorate, recently stated in testimony that 
the recurring cost for Ares is $140 million per flight, you 
have got to have a lot of flights at $140 million to get to the 
$4 billion per year. I find that to be a disturbing kind of 
thing that I think you need to explain.

                           PROTECTING THE LAW

    Finally, the law, this subcommittee--Congress in the fiscal 
2010 omnibus appropriations bill expressly prohibited using any 
2010 funds to terminate or in any way change or modify the 
Constellation program. Just yesterday, ATK received a notice 
that funds for their contract under the launch abort system 
will be limited, and no additional funds will be forthcoming 
after April 30, 2010. That is a week away.
    It seems to me this is a clear violation of the law that 
says no money will be used--no funds will be used in any way to 
change or modify the program for fiscal 2010. Fiscal 2010 has 
not run out yet.
    So, to summarize what I said in the beginning, I think your 
conclusion on science runs afoul of the experience of what we 
have found with the testing of Ares. I think the threat to the 
industrial base casts doubt upon your ability to do something 
in 2015 if the President decides, or whatever President it is 
decides they want to go back to solid rocket motors. They won't 
be able to. I think your numbers on the money don't add up, and 
I think what is being done right now is a contravention of the 
law.
    So I would very much appreciate your reaction to those four 
points.

                                SCIENCE

    Administrator Bolden. Thank you, Senator. I will try to go 
down the line.
    The first thing is the science. And with all due respect, 
we are very proud of having been recognized for the No. 1 
invention of the year by a number of different authoritative 
publications and the like.
    Perhaps we were not very good in explaining to people that 
Ares I-X is not Ares. Ares I-X was a four-segmented rocket that 
had a dummy fifth stage, fifth segment, and a dummy interstage, 
and a dummy nose cap. The Ares I vehicle is a five-segmented 
solid rocket motor that has never flown.
    So we are very proud of Ares I-X and its recognition for 
what it did because it gave us 700 pieces of data from sensors 
that were put on the vehicle, and I always told people it was 
the greatest wind tunnel test conducted by humans ever. But 
that was not an Ares I. That was an Ares I-X, an experimental 
rocket that we wanted to do a number of things just to 
demonstrate that the shape and form would work.
    So the science does----
    Senator Mikulski. In the interest of time, we are not going 
to have a debate. We appreciate the extensive data that you 
could provide, but if you could answer the question, because 
there are several other members, I would like to keep a well-
paced hearing.

                          PROTECTING THE MONEY

    Administrator Bolden. Yes, ma'am. The money--there is a big 
difference between the per-flight cost and recurring costs. 
Most of the recurring costs from shuttle and from Constellation 
would come from just maintaining the infrastructure. So that is 
the reason that the money difference is.

                           PROTECTING THE LAW

    The law--we have not terminated any contracts. We have not 
directed anyone to stop work on anything. If you were talking 
about the launch abort system test that is still scheduled for 
May--I may be misunderstanding your comment. But the launch 
abort system test is still scheduled for May 5, and we are very 
much looking forward to seeing that because, again, we will get 
a lot of data from that test.

                            INDUSTRIAL BASE

    And then the industrial base, unfortunately, the solid 
rocket industry has been overcapitalized for many, many years. 
It was far overcapitalized for the shuttle because we said we 
were going to fly 100 missions a year, or 50 missions a year. 
And that is what it was set up to service. We ended up flying 
eight missions a year.
    It would have been overcapitalized--it was overcapitalized 
for the shuttle. It would have been grossly overcapitalized for 
Constellation. And so, the business decision, and since you are 
a businessman, sir, the business decision that needs to be made 
by the only company that is legitimately in that industry right 
now is ``how do I downsize?'' if they want to be competitive.
    There is a big difference between what NASA uses in solid 
rocket motors. We use large, segmented, solid rocket motors. 
Since the cancellation of the Titan program, there is no other 
use for that type of solid rocket motor. So we are carrying 70 
percent of the industry for a capability that nobody uses but 
NASA.
    I am concerned about the industrial base, and we are doing 
everything we can to work with our counterparts in DOD, to work 
with ATK to help them in any way we can because we still need 
solid rocket motors.
    Senator Mikulski. Administrator Bolden, we need really 
shorter----
    Administrator Bolden. Those are the four questions.
    Senator Mikulski. I need good answers, and so does Senator 
Bennett, but----
    Administrator Bolden. I am done.
    Senator Mikulski. No, he asked about the law.
    Administrator Bolden. I said, ma'am, we have not violated 
the 2010 Appropriations Act and the stipulations in that. I 
have not terminated any contracts nor directed people not to go 
forward with, to my knowledge.
    Senator Mikulski. Senator Bennett, I know you had many more 
questions. I must turn to other members. I want to ask the 
Administrator and also invite my colleagues to submit other 
questions in writing, to leave them open for the record so that 
there is an extensive record of these deliberations and proceed 
that way.
    Is that satisfactory?
    Senator Bennett. Absolutely, Madam Chairwoman. I very much 
appreciate your courtesy and apologize for letting my 
enthusiasm and desire to engage get hold of me.
    Senator Mikulski. We have got a lot of people who want to 
talk and ask questions.
    Let us turn to Senator Shelby, the ranking member.
    Senator Shelby. Thank you, Madam Chairwoman.

                             SPACE PROGRAM

    Madam Chairwoman, I have two articles. One appeared in 
Tuesday's Globe and Mail in Toronto regarding the space 
program, and one appeared in Florida Today, and I would like to 
ask that they be made part of the record.
    Senator Mikulski. Without objection.
    [The information follows:]

             [From Globe and Mail, Tuesday, April 20, 2010]

    There is no doubt, given the serious deficits facing the United 
States Government, that some retrenchment at NASA was unavoidable. The 
space administration will spend $18.6 billion in 2010, an increase of 
$900 million over 2009. These are not insignificant figures, even in 
the context of vast U.S. Government expenditures. However, the plan to 
fundamentally reposition NASA to concern itself more with ``earth 
science'' goes beyond an exercise in fiscal rectitude. U.S. President 
Barack Obama has lowered the ambition of America.
    In February, Mr. Obama cancelled the Constellation program, which 
committed the United States to returning people to the moon by 2020. 
``We've been there before,'' he said, adding ``there's a lot more of 
space to explore.'' Except that most experts think a Moon mission is a 
practical and necessary first step to sending people to Mars, and the 
cancellation means that the $10 billion already spent on the mission 
has been wasted.
    Mr. Obama's own plan, announced last week, really only feigns 
interest in space exploration, and indeed, were it not for some funding 
for a new crew capsule, would have effectively ceded manned spaceflight 
entirely to Russia. Mr. Obama did announce a fuzzy commitment to land 
on an asteroid by 2025, and to land people on Mars by 2035, but these 
are more or less sops to science fiction enthusiasts. Without an 
interim step of a return to the Moon, such missions may prove 
impracticable. Contrast this with Mr. Obama's 60 percent hike over the 
next 5 years in funding for NASA's Earth sciences program, with its 
overarching emphasis on climate change research.
    That is no doubt also a priority. But somehow, investments in Earth 
science research satellites, airborne sensors and computer models, do 
not have the same capacity to inspire the popular imagination, and 
generate the potential for game-changing innovation, as NASA's 
traditional mission to ``pioneer the future in space exploration.'' As 
Neil Armstrong has written, ``Without the skill and experience that 
actual spacecraft operation provides, the United States is far too 
likely to be on a long downhill slide to mediocrity.'' Under the Obama 
plan, space is not the final frontier, Earth is.
                                 ______
                                 

                  [From Florida Today, April 16, 2010]

  A ``Devastating'' Plan--Obama Doesn't get it; Space is Last Frontier
    KENNEDY SPACE CENTER.--President Obama in effect pulled the plug on 
our space program in a speech here Thursday, although he masked it with 
some vague long-term suggestions.
    The late President John F. Kennedy must have turned over in his 
grave. JFK launched the moon-landing program in the 1960s because he 
understood that any nation that wants to remain No. 1 on Earth must 
also be No. 1 in space.
    We are now No. 2 behind Russia and soon may be No. 3 behind China. 
Even India and Brazil are developing ambitious space programs.
    Obama's proposal not only abandons our space shuttle, he also has 
no timetable or real plan for what he says ultimately will send humans 
to Mars. Obama doesn't seem to care that soon we will have to hitchhike 
rides with the Russians just to get our astronauts to the International 
Space Station.
    Unfortunately, some political and business leaders in Florida are 
buying the Obama plan because it may provide a few jobs for some of 
those thousands who will be unemployed here when the shuttle program 
ends. That should not be the most important of our Nation's concerns.
    Fortunately, some of those who pioneered our space program get it. 
Neil Armstrong, the first human to step on the moon, called the Obama 
plan ``devastating.''
    Obama's proposal is all about money priorities and our inexcusable 
war costs, not about peaceful world leadership. His proposed budget for 
2011 makes that clear:
  --Wars.--$159.3 billion.
  --Space.--$19 billion. That suggests Obama thinks that wars in places 
        like Afghanistan and Iraq are nearly 10 times more important 
        than exploring the last frontier in space. I voted for Obama 
        for president. But. Neuharth lives in Cocoa Beach. He is the 
        founder of ``USA Today'' and FLORIDA TODAY.

                         CONSTELLATION PROGRAM

    Senator Shelby. And I would like to quote just a little 
from, first, Tuesday's Globe and Mail about the Obama plan. 
This plan basically, they say, and I paraphrase, ``U.S. 
President Barack Obama has lowered the ambition of America. 
Under the Obama plan, space is not the final frontier, Earth 
is.'' That is part of the article.
    Under the Florida Today article, appeared April 16, says, 
``Obama doesn't get it. Space is last frontier. President 
Obama, in effect, pulled the plug on our space program in a 
speech here Thursday,'' talking about in Florida, ``although he 
masked it with some vague, long-term suggestions. The late 
President John F. Kennedy must have turned over in his grave. 
JFK launched the Moon landing program in the 1960s because he 
understood that any nation that wants to remain No. 1 on Earth 
must also be No. 1 in space.''
    A couple of questions, it is my understanding, Mr. 
Administrator, that there has been a lot of internal discussion 
at NASA regarding how to circumvent the fiscal year 2010 
language that limits NASA's ability to terminate or to alter 
the current Constellation program. Given the importance of this 
issue, we need to understand here in the subcommittee the 
legality of the decisions NASA is making related to the program 
of record, especially in view of legislation.
    Could you provide to this subcommittee, the Appropriations 
Committee overview, within the next week a letter and the 
decision documents from NASA's general counsel regarding NASA's 
interpretation of the 2010 appropriations language and the 
applicability of the Antideficiency Act. Could you do that?
    Administrator Bolden. I will do that, sir.
    [The information follows:]

    There are no ``decision documents from NASA's General Counsel.'' 
NASA has neither intended nor attempted to circumvent the restriction 
on terminating Constellation programs, projects, or activities. 
Instead, NASA's focus has been on ensuring compliance with the strict 
terms of the provision. The fiscal year 2010 appropriations act 
contained a general appropriation for Exploration activities without 
specifically addressing the Constellation program. The appropriations 
act then included a provision that there be no termination or 
elimination of the architecture of Constellation, and no creation or 
initiation of a new program, project, or activity without further 
authority. The fiscal year 2010 appropriations act provided as follows:

``. . . Provided, That . . . none of the funds provided herein and from 
prior years that remain available for obligation during fiscal year 
2010 shall be available for the termination or elimination of any 
program, project or activity of the architecture for the Constellation 
program nor shall such funds be available to create or initiate a new 
program, project or activity, unless such program termination, 
elimination, creation, or initiation is provided in subsequent 
appropriations acts.''

    Title III, Consolidated. Appropriations Act, 2010, Public Law No. 
111-117, 123 Stat. 3034 (2009).
    GAO defines ``program, project, or activity'' (PPA) as ``an element 
within a budget account.'' Terms and Definitions, ``A Glossary of Terms 
Used in the Federal Budget Process,'' GAO-05-734SP Budget Glossary, 
September 2005. ``Program activity'' is defined as ``[a] specific 
activity or project as listed in the program and financing schedules of 
the President's budget.'' Id.
    Thus, based on established usage, the restriction on Constellation 
termination contained in the 2010 appropriations act is limited to 
termination of a PPA, or an element within the Exploration account. 
NASA has not terminated any specific contract, although NASA could do 
so under the restrictive language of the appropriations act, which only 
prohibits termination of any program, project, or activity of the 
Constellation architecture.
    The Antideficiency Act (``ADA'') provides in relevant part that no 
officer of the United States may make or authorize an expenditure or 
obligation exceeding an amount available in an appropriation, fund, or 
formal subdivision of funds. 31 U.S. Code Sec. Sec. 1341(a)(1), 1517. 
The ADA also requires that an agency ensure it does not contract for 
work in excess of the appropriations available to fund the work. 31 
U.S.C. Sec. Sec. 1341(a)(1), 1517. Most of the Constellation contracts, 
including all of the major primes, are incrementally-funded, cost-
reimbursement contracts, which are required to have, and do contain, a 
Limitation of Funds (``LOF'') clause to ensure work is performed within 
the limits of the funding allotted to the contract. The LOF clause 
(Federal Acquisition Regulation 52.232-22), in paragraph (h), states 
``the Government is not obligated to reimburse the Contractor for any 
costs incurred in excess of the total amount allotted by the Government 
to this contract, whether incurred in the course of the contract or as 
a result of termination'' (emphasis added). Allotted funding therefore 
includes all costs under the contract, for performance and for any 
costs resulting from termination.
    NASA is acting to comply with both the ADA and the fiscal year 2010 
appropriations act. The fiscal year 2010 appropriations act, 
prohibiting use of funds for termination of Constellation PPA, does not 
require that NASA risk an ADA violation, and certainly does not create 
an exception to the ADA. Reading the fiscal year 2010 appropriations 
act with the ADA, NASA is bound to take steps to ensure that the 
Constellation contracts are managed according to their existing terms, 
including the express terms of the Limitation of Funds clause. GAO, 
Principles of Appropriations Law Vol. 11, at 7-48 (2009). As stated 
previously. NASA has not terminated any Constellation contracts; but 
NASA has issued letters to two Constellation contractors, reminding the 
companies of obligations under the LOF clause. This is prudent contract 
management, intended to avoid coercive deficiencies in violation of the 
ADA, and should not be interpreted in any other way. Most importantly, 
it does not terminate any PPA within the Exploration account.

    Senator Shelby. Okay. Has NASA sought any guidance from the 
Department of Justice on this? And if so, what was their legal 
opinion? Could you----
    Administrator Bolden. Sir, I will submit that for the 
record.
    [The information follows:]

    NASA received input from the Department on the drafting of the 
letters referenced above. However, NASA did not receive a legal opinion 
from the Department.

    Senator Shelby. And the subcommittee.
    Administrator Bolden. Just in summary, the discussion with 
the Department of Justice had to do with potential termination 
liability, as the chairwoman was, Madam Chair was talking.

                         ARES I VERSUS FALCON 9

    Senator Shelby. Thank you.
    I want to get into Ares I versus the Falcon 9. General 
Bolden, it is my understanding that you have stated to 
congressional members that you think Ares and Orion are no 
safer than the Falcon 9 and Dragon capsule. However, according 
to a July 2009 independent safety review of rocket options 
initiated by NASA, the Valador report states that the Ares I 
launch vehicle ``is clearly the safest launch vehicle option 
and that it is superior to all other options.''
    What information do you have that validates the safety of 
the Falcon 9? And if you have it, would you furnish it to the 
committee?
    Administrator Bolden. Sir, we will get what information we 
have. But my comment to people over the last week has been, 
specifically when asked by Senator Hatch earlier, my gut tells 
me that Ares would be safer than anything else, but that is not 
what the data says.
    Senator Shelby. But you will furnish this to the 
subcommittee?
    Administrator Bolden. I will furnish the data, yes, sir. 
Yes, sir.
    [The information follows:]
                       Demonstrated Safety Record
    Any current risk estimates for future launch vehicles are based on 
modeling probabilistic risk analysis (PRA). When referring to safety 
records, demonstrated safety records are far more important.
    Both NASA's Ares-I program and SpaceX have launched test flights--
NASA's Ares I-X suborbital flight and SpaceX's inaugural Falcon 9 
orbital flight. However, even SpaceX has not yet flown its Dragon 
capsule, so these flights do not equate to a demonstrated safety 
record, and thus no design has yet proven itself to be safer.

                            ACCESS TO SPACE

    Senator Shelby. The new capsule plan. The latest plan 
restructures the Orion capsule so that it will be the--as we 
understand will be nothing more than a space station escape 
pod. I fail to see how this escape pod will lessen our reliance 
on other nations for our access to space. We are still going to 
pay the Russians for a roundtrip. We are going to pay for a 
commercial rocket and capsule, and we will now pay to build our 
own return vehicle. What is the--tell me, explain this to me.
    Administrator Bolden. Sir, the restructuring of the Orion 
program is actually an--it is my desire that it be an 
incremental approach to develop a vehicle that will one day 
take us to the Moon and Mars and beyond low-Earth orbit. We 
need to have a domestically produced capability to get crews 
back and forth to the International Space Station, and the 
original version that the President talked about last week 
would be a vehicle that we could get there much quicker than 
anyone else because we don't have to human rate it for ascent. 
We would send it to space just on any launch vehicle, but it 
would be rated to comply with the visiting vehicle requirements 
and rated for human rating for entry, descent, and landing.

                        COMMERCIAL SPACE FLIGHT

    Senator Shelby. General Bolden, if the commercial route is 
truly the route that you are headed; wouldn't it be cheaper and 
wiser to just use a Dragon capsule for this purpose? If not, 
why not?
    Administrator Bolden. Senator, we hope it would be cheaper 
and wiser, and that is our long-range intent. The first use of 
a restructured Orion, is because we think we can get it there 
in 3 years. So that gives us a domestically produced return 
vehicle on the International Space Station in 3 years. It also 
relieves some of the pressure from the commercial vendors to 
try to deliver a vehicle that has the human-rated capability in 
a shorter period of time.

                             SAFETY PROGRAM

    Senator Shelby. General, you are a four-time veteran of 
space flights as an astronaut, and each time you arrived safely 
home, thank God. You have also been a member of the Aerospace 
Safety Advisory Panel, a group that was founded to help ensure 
the safety of our astronauts. Of all the possible people to 
lead NASA on its missions of human exploration, you are more 
than qualified to understand the role of safety.
    Now you appear to be deliberately choosing to ignore safety 
concerns from the very people at NASA that you entrusted your 
life with and you came home four times. Could you explain to 
the subcommittee and the people at NASA who made the United 
States such a leader in space for 50 years, why you, as the 
Administrator, are ignoring their record, basically, they 
claim, of safety and engineering excellence?
    Administrator Bolden. Are you referring to the ASAP, sir?
    Senator Shelby. I am talking about the overall safety 
program.
    Administrator Bolden. Oh, I am not ignoring the inputs of 
anyone from the safety program.
    Senator Shelby. They believe you are.
    Administrator Bolden. If you ask Bryan O'Connor, who is my 
conscience, he is my Director of Safety and Mission Assurance, 
Bryan, I think, will tell you that I listen to him every day. 
John Frost is going to come up, and I think John Frost will 
tell you that I listen to him every day. We are decidedly 
looking at everyone's concerns on safety, and that is why I can 
assure everybody that before we put a human in a vehicle and 
launch him off this planet, we are going to have the safest 
possible vehicle.
    I am a safety professional. It is my life. It is in NASA's 
core values, and there are not a lot of other companies in the 
country that can say that safety is one of their core values.
    Senator Shelby. But you benefited from it four times, did 
you not?
    Administrator Bolden. I flew four times, and I had every 
confidence in the world that I was going to return safely to 
Earth, and that is going to be the case with every astronaut 
that I launch, whether they are on a privately produced 
vehicle, a foreign-produced vehicle, or any other vehicle.
    Senator Shelby. That is not the message that is being 
received at NASA right now.
    Thank you, Madam Chair.
    Senator Mikulski. Senator Cochran.

                         ROBUST TESTING PROGRAM

    Senator Cochran. Madam Chairwoman, thank you for your 
leadership in this subcommittee.
    And Mr. Administrator, we appreciate your cooperation with 
the subcommittee. I remember our visit in my office when you 
were making the rounds of the Hill after assuming the position 
you now have, and I was very impressed with your commitment to 
moving us forward in the space exploration program, and got the 
impression that that also includes a robust testing program.
    We are very proud of the fact that in my State, the Stennis 
Space Center provides testing facilities and experience to help 
make sure that we do have demonstrated reliability, which were 
your words to describe your test for NASA safety standards.
    Do you continue to have the view that a robust testing 
program is essential to a reliable and safe and successful 
space exploration program?
    Administrator Bolden. Senator, I continue to hold that. 
There is nothing better than a robust testing program. The $312 
million that the President has proposed in the fiscal year 2011 
budget for commercial will allow us to buy down some risk by 
trying to help the commercial industries do maybe some more 
tests than they may have planned in their present portfolio. So 
I am a believer in tests.
    Senator Cochran. Well, I was worried that the budget 
request doesn't have any funds that are specifically designated 
for the testing program at Stennis Space Center.
    Administrator Bolden. Senator, the heavy-lift propulsion 
development program will contain tests that will be run at 
Stennis. I think you know we are continuing the retrofits to 
the A-3 test stand. We already have commercial entities that 
have contracted to test their engines at Stennis. Stennis is 
critical. It is vital to the future of any kind of space flight 
because we want it to be the center for testing of propulsion 
systems, whether they are for the military, commercial, or 
NASA.
    Senator Cochran. Well, that is reassuring, and I appreciate 
the clarification of that. I also want to let you know that we 
appreciate the comments that you are 100 percent committed to 
the mission of NASA and its future. Broadening our capabilities 
in space will continue to serve our society in ways we can 
scarcely imagine. I share that enthusiasm and commit to you our 
best efforts here in this subcommittee to identify how we can 
invest the public funds so that we achieve those goals.
    Administrator Bolden. Thank you, sir.
    Senator Cochran. Thank you.
    Senator Mikulski. Senator Voinovich.

               GLENN RESEARCH CENTER--PLUMBROOK FACILITY

    Senator Voinovich. Thank you, Madam Chairwoman.
    First of all, I would like to say that NASA Glenn in my 
State and the Plum Brook station are unique and a powerful 
resource for our State. More than 3,500 highly skilled civil 
service and contractor employees work at these facilities, and 
your agency's economic impact to the State exceeds $1.2 
billion.
    Further, it is a catalyst for 1,200 aerospace-related 
companies in our State, companies that employ more than 100,000 
Ohioans. And the undertow in a lot of the comments that you are 
getting today is that NASA has been very, very helpful to our 
respective States, and the Constellation program has been very 
important to NASA Glenn.
    On the other hand, last year, for every dollar this country 
spent, we borrowed 41 cents. Our debt is out of control. It is 
not sustainable. As far as we look down the road, we have 
budgets that are not balanced. And we have to come to some 
point where we start to analyze what we are doing. And I think 
that it is important that you do a better job of clarifying 
just exactly what it is that you are trying to get done.
    Administrator Bolden. Yes, sir.

                       PRIVATE SECTOR COMPETITION

    Senator Voinovich. Are you trying to get a rocket made real 
quickly so you can go up to the space station, and you think 
you can do it better by having competition from the private 
sector? Are you intending to go to Mars and the rest of it, as 
President Bush talked about? And if you are, I think you 
mentioned how far out is it and what are the things we have to 
do in order to reach it?
    But I think that you have to do a better job of clarifying 
things.
    Administrator Bolden. Yes, sir.

                     NASA AND COMMERCIAL COMPANIES

    Senator Voinovich. And the question I want to ask you is 
that the thing that you laid out in your budget represents a 
fundamental shift in the direction and fundamental shift in the 
relationship that NASA has with commercial companies. What was 
it about the way the agency has been doing business that led 
the agency and this administration to believe it is needed to 
undertake such a dramatic overhaul in the way you are doing 
business?
    Is it because of the budget? Is it because you think you 
can get there quicker by going the route you are going? Or is 
it a combination thereof?
    Administrator Bolden. Senator, if I can summarize it, the 
No. 1 thing is we are trying to meet the expectations of the 
Congress and the Nation that go back to the 2008 Space Act that 
put as a primary challenge to NASA to help develop a commercial 
space industry. We see that commercial space industry as 
allowing NASA to focus on exploration beyond low-Earth orbit, 
while the commercial industry provides access to low-Earth 
orbit. So it is a combination of things.
    But we are not trying to do anything fast. I have always 
heard it said if you want it quick and fast, you will get it 
quick and fast, and it probably won't be very good. So urgency 
is important. Speed is not something that I am asking my people 
to do with any of this, but I do want them to try to get us 
where we want to go with a sense of urgency.

                      INTERNATIONAL SPACE STATION

    Senator Voinovich. Well, there is a lot of feeling in the 
country that we are going to have to rely upon the Russians to 
get up to the International Space Station. And by the way, more 
countries should be paying for the operation of that, and I 
would like you to look into that and how we can get others to 
pick up the tab because we are not Uncle Sugar anymore. We are 
in a little different position. In fact, we are probably worse 
off than some of the people that are our partners up there.
    But the fact is people are concerned about that. How much 
are they going to charge us? How long is that going to last? 
That has got something to do with how people feel about where 
we are going. We want to get out from under them.
    Administrator Bolden. Yes, sir. Senator, that will require 
a fundamental change in the way that NASA and its partners have 
operated the International Space Station. From day one, the 
fundamental agreement was that the Russians would provide 
access for humans to and from the International Space Station. 
NASA, because we had the most remarkable vehicle ever known to 
man and the space station that could carry large cargo, would 
provide the vehicle to carry cargo to orbit. So it is not new 
that we rely on the Russians to get humans to the International 
Space Station and back. That has always been a basic, 
fundamental agreement in the partnership. So that is not new.

                    SUSTAINABLE EXPLORATION PROGRAM

    The other fundamental change is that this President, 
through his budget, has decided that he must and we must build 
a sustainable exploration program, and the way we were 
operating until now was not sustainable. That was my gut feel 
as an outside observer, in the 14 years that I was outside NASA 
after my leaving before and coming back now, and this--we are 
now going to have a sustainable program.
    Senator Voinovich. You are going to have to do a big job--
--
    Administrator Bolden. Oh, yes, sir. I understand.
    Senator Voinovich [continuing]. Convincing this 
subcommittee about it not being sustainable----
    Administrator Bolden. Yes, sir.
    Senator Voinovich [continuing]. And what you are doing with 
the money that we are going to make available to you. And many 
of us are interested in whether or not the money that we have 
already put into Orion is just going to be poured down the 
drain, or whether or not it is going to be able to stay in the 
game in terms of competition in order to go forward with this 
because of all the work that we have done.
    Administrator Bolden. Yes, sir. We intend to do that.
    Senator Mikulski. Senator Voinovich does that----
    Senator Voinovich. That is it.
    Senator Mikulski [continuing]. Complete your testimony?
    Senator Voinovich. Thank you.
    Senator Mikulski. Senator Hutchison.

                             SPACE PROGRAM

    Senator Hutchison. Well, thank you, Madam Chairwoman, and I 
do appreciate your holding this hearing, and I would say that 
as the ranking member of the Commerce Committee, I have invited 
the Administrator to come to a hearing next week where others 
have been invited, but have been told the Administrator is not 
available. And I hope, Madam Chairwoman, that changes, General 
Bolden, because I think after the incredible consequences of 
the President's decision that I would ask you to be available.
    Senator Mikulski. Senator, may I inquire the day, time and 
date of the hearing?
    Senator Hutchison. April 28 at what time? 2:30.
    Senator Mikulski. Perhaps, Senator, Administrator Bolden's 
able staff could check it while we are engaging in this 
questioning.
    Administrator Bolden. Madam Senator, I think there may be 
some confusion or lack of communications between your office 
and mine. It was my understanding that we had moved the hearing 
to May 12, and I was going to be there because I am scheduled 
to be at the Johnson Space Center on the day of the hearing 
that you originally scheduled, but we will resolve the issue.

                                SCIENCE

    Senator Hutchison. Thank you.
    General Bolden, I read your testimony. I have heard your 
testimony. I have heard the President's speech. And it just 
doesn't all come together. And I will say that I was one who 
was very supportive of your nomination for the reasons that 
others have stated because I knew that you would be committed 
to the missions of NASA and would understand it and would be a 
great leader.
    But I am concerned about a very mixed message. The 
President says that he is committed to science. I don't see how 
you can have a commitment to science, but not a commitment to 
having humans in space at the same time. Because the space 
station is right now one of the key areas of science. There are 
others--the Hubble, which I support completely, and all of the 
other scientific missions--but the space station is the future.

                      INTERNATIONAL SPACE STATION

    Congress and the President have embraced extending the 
space station until 2020, but we have not been assured that we 
can get people there. And I know you said that it isn't a 
change that the Russians were tasked with putting people in the 
space station, but it was always envisioned, in my estimation, 
that American shuttles would be going to the space station.
    For one thing, you have to make sure that you have the 
equipment. The second thing is you need to make sure that if 
there are repairs or something that you might need in the 
future, that you have the maximum capability. We were never 
going to have a gap in the beginning. Now, the gap started 
coming, of course, because, frankly, I think NASA has been 
starved throughout several administrations.
    So I think that you are going to have to work with us, I 
hope in a constructive way, toward keeping people in space and 
keeping American control over our own destiny.

                         COMMERCIAL CAPABILITY

    The emphasis, to the tune of $6 billion, into a very 
fledgling commercial capability I just think is not sound, and 
it is certainly not going to be reliable. They are very short--
I mean, it was even said that you have all of the expenses of 
closing down a contract, but then we are going to have to have 
new contracts.
    So let me just say that I am skeptical and very 
disappointed that we would have a goal of keeping science in 
the forefront, but no plan to keep people involved in that 
effort under American control and under the control of NASA.
    I think we are too heavily relying in the President's plan 
on commercial capabilities, which we had a hearing in Commerce 
Committee. We had the leaders of the commercial--the two 
commercial space operations. They are, in my opinion--I 
attended the hearing--not ready for this kind of reliance, and 
I don't think we can take that kind of chance.

                          CREW RETURN VEHICLE

    So let me just ask you the questions that I can. If the 
Russian Soyuz has an accident or something happens that the 
crew return vehicle isn't operable, what if you had the 
accident, and it grounded the Soyuz for an extended period of 
time and we don't have our own reliable efforts?
    Or I would ask you, how long would it take before the six-
person crew that would still be aboard the International Space 
Station at certain points would have to evacuate using two of 
the Soyuz vehicles that just experienced a critical failure, 
assuming the failure occurred on descent? I mean, what are your 
plans here?
    Administrator Bolden. Senator, I am going to try to 
understand the scenario you are placing. If that scenario takes 
place between now and 2015 with the existing program of record, 
Constellation, after shuttle is retired in September, or 
whenever we fly our last mission, we have no way to get 
Americans or anyone else to the station. We have two vehicles 
on station. We would be able to get the six-person crew home, 
but that would terminate all use of the International Space 
Station. The Constellation program was not going to provide 
that capability. The gap that you refer to actually began in 
2004, probably began even before then. But when the vision for 
space exploration was given and then not funded sufficiently, 
the gap began to materialize and grow and grow and grow.
    As Senator Voinovich mentioned, one of my primary drivers 
in recommending to the President what I did was I could not 
responsibly ask him to put the Nation into even more debt by 
putting the amount of money into Constellation that would have 
been required for us to try to catch it up. In fact, we still 
would not have been able to gain that gap. Money can do a lot 
of things. It would not have been able to close the gap 
appreciably. So we were looking at about 2015 before we would 
have a domestic, NASA-built, with industry, capability to get 
humans to space.
    Senator Hutchison. Well, General Bolden, the starving of 
NASA started before 2004.
    Administrator Bolden. Oh yes, ma'am. I agree. I agree.
    Senator Hutchison. I mean it has been starved for over 20 
years. And so, we don't need to place blame so much as we need 
to address the issue.
    Administrator Bolden. Yes, ma'am. I agree.

                         CONSTELLATION MISSION

    Senator Hutchison. And I am concerned. First of all, I 
think we need to go forward with the Constellation or the next 
generation. If skipping from Ares I to Ares I-X or Ares V is 
necessary, I am not committed to the Constellation, but I am 
committed to the Constellation mission.
    Administrator Bolden. Yes, ma'am.
    Senator Hutchison. Which is to transport people to and from 
the space station, and with all due respect, I think we ought 
to be looking at not adding to the number of shuttles, but 
delaying the timeframe. That would bridge a gap, and it can be 
done if all of us work together without an additional budget 
over and above what the President is asking. It is reworking 
the budget that the President has said is the budget.
    But if we had over 2 or 3 years, the same number of space 
shuttles so that you have the ability to assess and use the 
Soyuz in between to take people to and from, I think that would 
be a much more innovative approach. And it would give us more 
of the filling in of the gap for emergencies or for the 
scientific capabilities at the same time that we are developing 
our own Constellation-type operation.
    So I hope that we can work on something that would not say 
we are going to be closed down in September, and 2015 would be 
the first time. In fact, in your own testimony, you said that 
we would be able, under the President's plan which you are 
supporting, to put humans into space early in the next decade. 
Well, I am assuming that since this is 2010, you are talking 
about 2020. That is early in the next decade.
    Administrator Bolden. Perhaps I didn't make myself clear. 
Under the President's budget and his vision, we will have 
humans going beyond low-Earth orbit in 2020 or very shortly 
after that.
    I have just selected a class of astronauts in this past 
year who were brought on strictly to occupy and operate the 
International Space Station. In reference to your concern about 
science, we now have the capability with a fully occupied 
International Space Station to do incredible science. And 
thanks to the President recommending that we--and funding--
providing the funds to extend the International Space Station 
to 2020 and beyond, we now know that we are going to have 10 
more years of human occupation and science being done on-
station.

                  INTERNATIONAL SPACE STATION SURVIVAL

    Senator Hutchison. I know that my time is up. Let me finish 
with just the last direct question. And that is, the Soyuz has 
an accident, and we can't get there for 2 years or 3. How can 
the station survive? How is that possible? Even the Augustine 
report said----
    Administrator Bolden. Ma'am, the International Space 
Station use will, as I said, in the scenario that you mention 
in today's environment, with the program of record, 
unfortunately, because we allowed this gap to grow, there is no 
way to do what you and I both want to do. We will be single-
string once the shuttle stops flying.
    Senator Hutchison. I think we can----
    Administrator Bolden. We will be just like we were after 
the Columbia accident, for a couple years.
    Senator Hutchison. I think we can fix it, General Bolden.
    Administrator Bolden. Yes, ma'am.
    Senator Hutchison. And a couple years would be okay. Five, 
7, 10, is not okay, and I hope that all of the Senators that 
are interested in this will work with you, with the 
administration. I think we can do better than this.
    Thank you.
    Administrator Bolden. Thank you very much.

                        CLOSING REMARKS TO NASA

    Senator Mikulski. Thank you, Senator Hutchison.
    There are many more questions, but Mr. Frost has been quite 
patient. It is now 11:30. We anticipate a vote over the next 30 
minutes, so we want to hear from Mr. Frost and have time to 
really explore the safety issue.
    So, Ambassador you are in treaty negotiations. And what we 
will have will be a whole series of other questions we will 
submit to you and to your team for our record. I will have a 
particular set of questions related to space science and 
particularly also to green science.
    We are heartened by the fact that the President did provide 
reliable, undeniable, survivable $5 billion in the science 
appropriations request. But we just don't want to be spending 
money. We also want to be able to get results for our science.
    I am so proud of the work that is done at Goddard. You 
can't be the Senator that has the Hubble telescope kind of 
based in your State, if you will, through Goddard and the Space 
Telescope Institute at Hopkins, without being very proud of 
what we do in science. It is what the world relies on us to be 
able to do. We want to make sure we have money in the 
appropriations, but that we also have outcomes we seek. So we 
will move with that.
    So we will excuse you today. Obviously, there must be more 
conversations on this around our mission, around our workers 
and the industrial base, and look forward to further 
conversation with you.
    Administrator Bolden. Thank you very much.
    Senator Mikulski. Thank you very much.
    Administrator Bolden. I appreciate it. Thank you.
    Senator Mikulski. Thank you, Administrator Bolden.
    The chair now calls Mr. John C. Frost, who is a member of 
the NASA Aerospace Safety Advisory Panel. He comes with a 
distinguished background in safety, serving both DOD, as well 
as his work in NASA. And rather than going through a long bio, 
I am going to put your bio in the record so that, really, you 
come with extensive experience, outstanding credentials, and a 
real commitment to both safety and knowing what Government 
needs to do, that when Government asks people to do things that 
we keep them safe.
    [The information follows:]

                   Biographical Sketch of John Frost

    Mr. John C. Frost is an independent safety consultant who retired 
from Federal Service with 33 years of Safety Engineering experience. 
Mr. Frost was the Chief of Safety for the Army Aviation and Missile 
Command (AMCOM) with worldwide responsibility for missile and aircraft 
safety. Mr. Frost directed and implemented a comprehensive System 
Safety Program for all aspects of a major high technology organization 
that develops, fields and supports all of the state-of-the-art aircraft 
and missile/rocket systems for the Army worldwide and provides 
facilities and services for approximately 20,000 residents, workers, 
visitors and contractors on Redstone Arsenal. Prior to this, he served 
as the Chief of the MICOM Safety Office and held other supervisory 
positions leading various Missile Command (MICOM) System Safety, 
Radiation Protection, Explosive Safety, Test Safety and Installation 
Safety program elements. Mr. Frost began his Federal career in the 
Safety Office of the Army's Electronics Command at Fort Monmouth, New 
Jersey, where he became Chief of System Safety Engineering.
    Mr. Frost was born and raised in Birmingham, Alabama and earned a 
Bachelor of Science in Electrical Engineering from the University of 
Virginia where he was a DuPont Scholar. He completed a Master of 
Science specializing in safety engineering from Texas A&M and an 
additional year of advanced safety engineering training. Mr. Frost is a 
senior member of the International System Safety Society, a 
professional member of the American Society of Safety Engineers, and 
remains active in various system safety organizations and initiatives. 
He was previously registered in Massachusetts as a professional 
engineer in the specialty of safety engineering and as a certified 
safety professional. He and his wife Linda, of 33 years, have two sons, 
Christopher and Hampton.

    Senator Mikulski. So why don't we get right to your 
testimony, and thank you for your patience.

STATEMENT OF JOHN C. FROST, COUNCIL MEMBER, AEROSPACE 
            SAFETY ADVISORY PANEL
    Mr. Frost. Thank you, Madam Chair. I appreciate that, and I 
think that is a good path ahead.
    Good morning to you, to Ranking Member Shelby, and the rest 
of the subcommittee, if they had been here.
    I do appreciate the opportunity to approach the panel and 
explain our views on these issues. I am very comforted to see 
that you obviously have read what we have written and you are 
already very tuned in to our concerns.
    Our chairman, Admiral Dyer, could not be with us today, but 
he sends his regards to you all.
    The Aerospace Safety Advisory Panel, or the ASAP, was 
created by Congress in 1968 to provide independent safety 
assessments and recommendations to NASA after the tragic Apollo 
1 fire that took the lives of three of our astronauts. We also 
advise Congress on NASA's overall safety challenges and 
performance. We issue quarterly recommendations to the NASA 
Administrator, and we publish an annual report to Congress.
    Our role here may be somewhat unique because, as we say in 
Alabama, we don't have a dog in this fight. So maybe we can 
bring that view to the table.
    Before I begin, I want to express a heartfelt commendation 
that I believe is shared by every member of the ASAP. That 
commendation is for the quality of leadership and the 
commitment to safety that has long been demonstrated by 
Administrator, General Charlie Bolden. When it comes to the 
safety of our astronauts, I can think of no better hands for 
the agency to be in.
    Now, on to our key 2009 findings, first, the life of the 
space shuttle is nearing its end. In view of the inherent 
hazards of the shuttle design, the age of the critical 
subsystems that it contains, and the need to recertify the 
fleet, the panel believes that the life of the space shuttle 
should not be extended significantly beyond completion of its 
current manifest. To do so would require substantial efforts 
even after which the vehicle could not be considered safe by 
modern standards.
    Second, I will address the follow-on to the shuttle, which 
is really the subject today, I think. After detailed 
evaluations, we have found that because of the fundamental 
vehicle architecture choices made at its concept stage, the use 
of the heritage-based subsystems with proven track records, and 
the intense involvement of the experienced NASA safety design 
professionals, the Ares I and the Orion offer the basis for a 
high degree of inherent safety.
    In fact, they are being designed to provide a tenfold 
improvement over the safety of any existing vehicles. In our 
opinion, such inherent safety simply cannot be taken as a given 
in possible alternative launchers, as some would like to be the 
case. As we have already been quoted a couple of times today 
from our 2009 report, we believe that to abandon Ares I as a 
baseline vehicle for any alternative without demonstrated 
capability nor proven superiority, or even equivalence, is 
unwise and probably not cost-effective.
    We are aware that commercial entities hope to provide safe 
and low-cost access to orbit in the future, and we look forward 
to their innovations. We do support their work, but we must 
point out that NASA has not yet even established what the 
safety requirements for these commercial providers will be. The 
potential safety of these alternatives cannot be evaluated 
until the safety requirements, such as the acceptable risk 
level for loss of crew, are established and the proposed 
designs are evaluated against them.
    Our bottom-line safety recommendation is to not abandon the 
progress already made on the program of record before 
determining if the alternatives can provide equal or better 
safety for our astronauts.
    My third topic concerns the workforce. NASA has developed 
detailed transition plans that carefully map the skills and the 
funding streams to move from the shuttle operation to the Ares-
Orion development. If a major change in the mission of these 
workers is the path that is chosen, it is imperative that a new 
plan be developed quickly to clearly show these workers their 
place in the new vision. Otherwise, we face a risk of loss of 
the key personnel that are essential to safe space flight.
    Finally, I must report to you that we are seeing examples 
of facility degradation, which concern us, across NASA. 
Adequate funding for NASA facilities and infrastructure must be 
considered on an even ground with that of the more visible 
missions that come out of these facilities.
    In conclusion, Madam Chair, the ASAP believes that 
America's human space flight program stands at a critical 
juncture today. Choices made today will impact the safety of 
astronauts for at least a generation to come. Safety must be an 
inherent part of the vehicles that we use to launch those 
astronauts. It cannot simply be added on after the fact.
    Just as importantly, the resources provided to NASA must be 
consistent with whatever mission they are assigned, and both 
the resources and the mission must be kept stable. Asking NASA 
to attempt too much too fast with too little can only lead to 
danger and to disappointment.
    I will be happy to answer any questions that you or the 
other members may have.
    [The statement follows:]

                  Prepared Statement of John C. Frost

    Good morning Madam Chair, Ranking Member Shelby and other members 
of the subcommittee. Thank you for the opportunity to discuss the 
Aerospace Safety Advisory Panel's observations as they relate to the 
scope of your subcommittee. Because of a schedule conflict, our 
chairman, Admiral Joseph Dyer could not be with us today but sends his 
best regards.
    Let me start with a brief background of the Aerospace Safety 
Advisory Panel, or ASAP. The ASAP was established by Congress in 1968 
to provide independent safety assessment and recommendations to NASA 
after the tragic Apollo 1 fire that took the lives of three astronauts. 
By law, we now serve two functions: (1) Provide independent safety 
advice to the NASA Administrator; and, (2) Advise Congress on NASA's 
overall safety challenges and performance. We visit different NASA 
Centers and activities once a quarter where we probe and question all 
the elements of the Agency's safety program, both for spaceflight and 
for terrestrial operations. We issue quarterly recommendations to the 
NASA Administrator and publish an annual report to Congress, 
summarizing our findings and recommendations. I will attempt to very 
briefly summarize for you our key findings and observations from the 
last year as they relate to your pending budget considerations.
    First, let me express a heartfelt commendation that I believe is 
shared by every member of the ASAP. That commendation is for the 
quality of leadership and commitment to safety that has been long 
demonstrated by the new administrator General Charlie Bolden. When it 
comes to the safety of our astronauts, I can think of no better hands 
for the agency to be in.
    Now on to the key findings of our 2009 report that relate most 
directly to the issues that your subcommittee is dealing with at this 
time.
    Space Shuttle.--As you know, the life of the Space Shuttle is 
nearing its end. Because of the Herculean efforts of the managers and 
workers at NASA and its contractors, this complex flying machine has 
performed admirably during its 29 year life. Sadly, the very power and 
complexity that enable it to accomplish the wide variety of missions 
for which it was designed, have also contributed to two tragic 
accidents and the loss of 14 lives. The ASAP has closely monitored 
Shuttle operations since its inception. In view of the inherent hazards 
of the basic Shuttle multifunction design, the age of some critical 
subsystems, and the need to recertify the fleet as identified by the 
Columbia Accident Investigation Board, the Panel believes that the life 
of the Space Shuttle should not be extended significantly beyond 
completion of its current manifest. To do otherwise would require 
funding the substantial efforts required to ensure that life extension 
vulnerabilities are identified and corrected in a timely manner. 
Additionally, the inherent risk of continuing to operate this system 
would have to be accepted by the Nation's leaders.
    Follow-on to Shuttle.--The Panel has intensely monitored the 
progress of the Space Shuttle replacement program since its beginnings. 
We found that the Ares 1 vehicle has been optimized for crew safety 
since its inception. Because of fundamental vehicle architecture 
choices made at its concept stage, the widespread use of heritage-based 
subsystems with proven track records and the intense involvement of 
experienced NASA space design professionals serving as the systems 
integrators, the ASAP believes the Ares 1/Orion offer a high degree of 
inherent safety. In fact, they are being designed to provide a tenfold 
improvement over the safety of existing vehicles. In our opinion, space 
vehicle safety simply cannot be taken as ``a given'' as some would like 
to be the case. As we stated in our 2009 report to Congress, ``To 
abandon Ares 1 as a baseline vehicle for an alternative without 
demonstrated capability nor proven superiority, or even equivalence, is 
unwise and probably not cost-effective.'' We are aware of course that 
several commercial entities hope to provide safe, low-cost access to 
Low Earth Orbit in the not too distant future. We have not evaluated 
their proposals and cannot comment on their eventual safety; however we 
must point out that NASA has not yet established any safety 
requirements for these commercial providers. Even more importantly, the 
agency has not yet established a process that can provide the right mix 
of insight and oversight to ensure the safety of NASA astronauts 
traveling in these vehicles. The safety of potential commercial 
providers cannot be evaluated until key safety requirements, such as 
the acceptable risk level for Loss of Crew, are established and 
proposed designs are evaluated against them. While progress is now 
being made on establishing these requirements and processes, it is too 
early to tell if the commercial options that are contemplated can 
eventually be deemed safe enough for our astronauts. Our bottom line 
recommendation is to not abandon the well-established progress already 
made on the Program of Record in favor of an alternative, until such 
time that it is determined that the alternative provides equal or 
better safety for our astronauts.
    Workforce Transition.--The ``magic bullet'' that has allowed NASA 
to achieve the incredible feats for which they are known around the 
world is its highly dedicated and motivated workforce. At every Center 
that we visit, we see this dedication and excitement in every face. 
Maintaining this talent, momentum, and enthusiasm during a time of 
transition from a Shuttle based Manned Spaceflight Program to an 
alternative is the key to the future of the agency. In the past 4 
years, NASA has expended significant effort developing detailed 
transition plans that map skills, talent, and necessary funding streams 
from a ``Shuttle Centric'' organization to one that is Ares/Orion 
based. The Panel has found this Transition Plan paying off already in 
the form of workers' excitement and satisfaction over their role in the 
coming exploration of our solar system. If a major change in the future 
roles and missions of these NASA workers is the path chosen, it is 
imperative that a new transition plan be developed quickly, clearly 
showing these workers their place in the new vision. The turmoil 
created by uncertainty can result in loss of key personnel which 
presents obvious safety concerns.
    Infrastructure.--As the panel visits the various Centers, we 
carefully watch for facility conditions that could contribute to 
mishaps or hurt mission performance. I must report to you that we are 
seeing examples of such conditions which concern us. While, to a 
person, the employees ``can-do'' attitudes help them cope with the 
impediments of these conditions, it is inevitable that worker 
performance and safety could be impacted. Adequate funding for NASA 
facilities and infrastructure must be considered on even ground with 
that of the more visible missions that actually come out of these 
facilities.
    In conclusion, Madam Chair, in the view of the ASAP, NASA stands at 
a critical juncture. Choices made today about the future of Human 
Spaceflight will impact the safety of astronauts for a generation to 
come. Most importantly, resources and schedules provided to NASA must 
be consistent with whatever mission they are assigned. Asking NASA to 
attempt too much, too fast, with too little can only lead to danger and 
disappointment. I will be happy to answer any questions that you or the 
other members of the subcommittee may have about our observations.

    Senator Mikulski. I am going to turn to Senator Shelby to 
ask his questions. He has many duties also related to the 
Financial Services.
    Senator Shelby.
    Senator Shelby. Thank you. Thank you, Madam Chairwoman.
    Mr. Frost, welcome to the subcommittee. We are glad to have 
you here, but more than that, we appreciate your background and 
your statement.
    The future of human space flight is being proposed to be 
given, as I understand it, to companies that have never 
launched humans before. That is disturbing to me because your 
own panel for years has advised that they are not ready. If 
there is substantial risk in relying on unproven commercial 
providers to put our astronauts in orbit, do you have a 
suggestion on how to reduce that risk?
    Mr. Frost. The risk that the panel sees is principally the 
unknown nature of their abilities. If we bet our entire future 
on those as yet unproven abilities, there is risk that they may 
not pan out. A common method of handling that kind of risk is 
hedging your bet or as one member of the Augustine panel I 
believe was quoted as saying, ``If it is a horse race, bet on 
the field, and then you can pick the winner a little later.''
    So keeping redundant capabilities and not being single-
string dependent can greatly reduce that risk. There is a cost 
to that.
    Senator Shelby. A big cost, though, isn't it?
    Mr. Frost. That is right.
    Senator Shelby. Do you believe that NASA should relinquish 
its role in ensuring safety through rigorous testing during 
development and production if NASA were to allow their 
astronauts to fly on any spacecraft, commercial or otherwise?
    Mr. Frost. At the current time, for NASA to put its 
employees, its astronauts onboard something as potentially 
hazardous as a rocket ship, they are going to have to have a 
robust program to check its safety. There may come a day when 
it becomes as routine as a commercial airline. That day is far 
away, in my personal opinion.
    Senator Shelby. Thank you, Madam Chairwoman.
    Thank you, sir.
    Senator Mikulski. First of all, Mr. Frost, I would like to 
thank you for the service that you have done through the ASAP 
Committee, and also please thank the other people who 
participate, who put a lot of time into this, and we have read 
your reports. We also note that there is regularity to the 
actual visitation, that this isn't some think-tank egghead 
intellectual exercise reading memos or mathematical 
simulations. And we take to heart all of your comments, 
including the degradation of the NASA facilities and your 
caution about maintaining morale and competency among our 
workforce.
    Well, let us get right to this whole issue of going 
commercial. There is an inherent tension here between boldness 
and innovation and looking because technology moves fast in its 
development, much faster than Government contracts and 
procurement. But at the same time, we are not sending cases of 
Tang into space. We are sending our astronauts and the 
astronauts from other countries. They rely on us.
    So here goes the question. On page 3 of your testimony, you 
say, ``We have not evaluated their proposals and cannot comment 
on their eventual safety.'' Here is the key point. ``However, 
we must point out that NASA has not yet established any safety 
requirements for their commercial providers.''
    Now, as you recall, in my questions to General Bolden, I 
said is there going to be a single standard? He told me yes. 
Then he told me they have this manual that they have either 
developed or are in the process of completing. I am confused. 
Is there a standard? Is there not a standard? Is there a 
manual? Could you share with us your comments on this?
    Mr. Frost. Yes, I will be happy to. My understanding is, 
and we have been briefed and evaluated this very carefully, 
that NASA does have a human rating--NPR, it is called. It was 
recently updated in 2008. It specifically did not address and 
exempted commercial providers. It was aimed at the type of 
program where NASA manages the hardware. And that is critical 
because the way you state and explain and track the safety 
requirements depends on the kind of program it is.
    If you are buying a taxi ride, you have a different set of 
requirements than if you are developing a taxi. So that was 
exempted. The ASAP made that a primary recommendation for, I 
think, about 2 years that that section of the standard be built 
out so that the people trying to develop commercial vehicles 
knew what to aim for.
    General Bolden has taken the initiative to make that a 
priority. The current estimate is that some type of standard 
for those commercial providers will be available by the end of 
2010 setting the requirements.
    Senator Mikulski. So if, in fact, you say to these bold, 
innovative companies on which we are now betting the future of 
our astronauts going to the space station or in a low orbit 
there is going to be a safety standard, but we won't have it 
complete until 2010?
    Mr. Frost. That is the current estimate. That is correct. 
And I might point out that that is the hardware requirements. 
Then we need a process, set of processes that will take longer.
    Those processes depend on how much knowledge we have of the 
provider. If we don't have much insight into how they develop 
their rocket ship, if you will, then we will need very 
extensive testing and verifications. And that process will take 
longer, in my opinion, than 2010.
    Senator Mikulski. So then there are the processes. Now, 
there is the hope that they will be ready to go in 3 years. You 
know, that is all part of the glitz and the glory that we are 
hearing about, that they are going to be ready to go in 3 
years, when--I am looking at the development of the shuttle--we 
have followed the development of the shuttle together. Senator 
Shelby and I came to the Congress and have worked together 
since we came, and the shuttle had problems. But remember, the 
shuttle was going to go 100 flights, and it was going to be 
like the Greyhound bus to wherever we wanted to go.
    Now what I am saying, is if, in fact, the safety manual is 
not done until 2010, and those processes that are really 
mandatory, usual, and customary, then how could a commercial 
vehicle just getting what they need to know in the standards, 
be able to meet a 3-year timeframe? Do you think that is 
realistic?
    Mr. Frost. I am not privy to the development schedule of 
the COTS folks. That sounds highly optimistic to me.
    Senator Mikulski. I am not trying to pin you down. I am 
trying to get your experience.
    Mr. Frost. My experience would be that that is going to be 
a tough schedule to meet. And one safety concern that drives 
our panel is that they are designing parts of those vehicles 
today. There are engineers at tables picking safety factors and 
design features that may or may not comply with the 
requirements that will be developed later in the year. In which 
case, we will either have to accept the risk or step back and 
redesign. Both involve risk.
    Senator Mikulski. So they are designing today without 
having the firmness and definite--the definite nature of NASA 
standards.
    Mr. Frost. That is correct. They are attempting to design 
to what they think the standards will be. And if they are 
right, then we will be in good shape. And if they are wrong, 
then we will have difficulty.
    Senator Mikulski. Next question. Senator Hutchison 
presented a really doomsday scenario. When she said it, 
actually, I thought, ``Oh, my gosh, she is so right.'' I think 
you get a flare here. When it comes to the space program, we 
have really been a bipartisan group. And for those of us who 
have the centers and meet with the astronauts and so on, you 
know, we feel like we are all in this together.
    But when Senator Hutchison said she is concerned about 
bringing them back home if something happens to Soyuz, Bolden 
says it would be the end of the space station. Well, yes, it is 
also the end of those astronauts that are up there.
    What do you think? Because you talked about it in your 
testimony, you say ``end the shuttle.'' Senator Hutchison 
presents this very troubling scenario. Is there a way we can 
have it both ways, which is to have a shuttle on reserve for 
rescue, keep flying it maybe for a specific mission, but have 
it? In other words, is she on to something that we should 
explore?
    Because in both your oral and written remarks, you say it 
is time to say good-bye to the shuttle, and every scientist, 
engineer, et cetera, and NASA Administrator has said the same. 
Could you tell us what you think about extending the life of 
the shuttle? And would it be possible, or is it really would 
be--what would be your observations?
    Mr. Frost. I will be happy to. First, to the premise, I 
think she is absolutely on to something of the nightmare 
scenario, that being single-string dependent, having humans in 
orbit, and only one elevator to get there subject to 
catastrophic failure, in which case it can be shut down, as we 
have seen, is definitely a high risk, and I think needs to be 
thought of.
    There are several solutions. Minimizing the gap, in my 
view, is the best approach. You could keep flying the shuttle. 
There is no question. We see no--we call it ``knee of a 
curve.'' It won't wear out in July, but it is getting old, and 
principally, it has a very high level of risk.
    Each launch is something like 1 chance in 78 to maybe 1 
chance in 100, somewhere in that range, of losing the crew, the 
more times you fly it, the more likely that you are going to 
find that result.
    Senator Mikulski. In other words, just to be sure of the 
risk analysis, after a certain date, the longer you keep the 
shuttle flying, the more increased the risk to the astronauts.
    Mr. Frost. We don't see an increase per flight, but as you 
do more flights, it is like playing Russian roulette. The more 
times you pull the trigger, the more likely you----
    Senator Mikulski. I know you math whizzes will get into 
probabilities, but I think we got the picture. Thank you.
    Mr. Frost. But we don't see the shuttle wearing out 
immediately. It is simply that there is great risk involved, 
and the Nation could accept that risk. And the astronauts, I am 
sure, are willing to live with it. That is a very high level of 
risk, in our opinion.
    Senator Mikulski. But what do you think--you know, we all 
have these kind of now movie fantasies, the way we think the 
world works like the movies or now like video games. Could you 
literally take the shuttle and put it aside and keep it prepped 
and ready to go if there would have to be a very daring rescue 
mission?
    Mr. Frost. I think the movie was ``Space Cowboys''--great 
movie.
    In safety, there is a concept called OPTEMPO, and that is 
that if you fly too many missions too frequently, it becomes 
unsafe. You are pressing your crews too hard. But on the other 
side of that, if you fly too rarely, they lose their skills, 
their edge, and their abilities. They don't remember exactly 
how to tighten the bolts that they used to know how to tighten, 
and safety degrades greatly. And that curve is generally a 
bell-shaped curve. If you just put the shuttle in storage and 
didn't use it, I would have great concern about the reliability 
of that launch as it came out of cold storage.
    Senator Mikulski. Well, I appreciate that. This is my final 
question. Will the ASAP Committee be involved in assessing the 
safety issues of these commercial enterprises?
    Mr. Frost. Yes, we have made that a central focus of our 
committee. We are not staffed to do a technical evaluation and 
an independent review of the hardware, but we will look at the 
processes that will be used to do that.
    Senator Mikulski. Well, I think these were excellent.
    Senator Shelby, do you have----
    Mr. Frost, first of all, I would like to thank you for your 
answers here, I think they were very instructive to us. We 
would look forward possibly as this--our process of evaluation 
goes on to come back to you and other members of the committee. 
Again, thank you for excellent testimony.
    We would also welcome from the committee this issue of 
center infrastructure degradation, because no matter what we 
do, we have got to keep--we have got to make sure that they are 
fit for duty.
    So thank you very much. This subcommittee will excuse you, 
but we would ask you and your committee to be available for 
ongoing--and the staff--for ongoing conversation.
    Mr. Frost. We will be happy to do that. Thank you.
    Senator Mikulski. Senator Shelby.
    Senator Shelby. Madam Chairwoman, I just want to thank Mr. 
Frost, too, for his incisive answers and his background and his 
experience of safety.
    Thank you.
    Mr. Frost. Thank you.
    Senator Mikulski. I also want to note that for NASA's 2011 
budget, it affects many States, and I know that there is an 
interest in other Senators with this topic and that there are 
going to be follow-up questions that are budgetary, 
programmatic, mission-focused, and how we can do this within 
this budget.
    Senator Shelby. Madam Chairwoman, I hope we could reserve 
the right to hold another hearing on this matter, if warranted.
    Senator Mikulski. I absolutely agree that we will hold 
another hearing to be able to pursue any topics. I would 
suggest now that our able staff connect with NASA, really sift 
through this rather content-rich nature of what we have 
listened to.
    I would also like to thank all of the members who 
participated for their civility and for their very insightful 
questions. I believe if we all focus on where we want America 
to be in space, and how we protect Americans who we ask to do 
things we will be able to find solutions to how we work through 
these complex challenges.
    Again, Mr. Frost, thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    If there are no further questions this morning, Senators 
may submit additional questions for the subcommittee's official 
record. We are going to ask NASA's response within 30 days.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

           Questions Submitted to Hon. Charles F. Bolden, Jr.
           Questions Submitted by Senator Barbara A. Mikulski

                        COMMERCIAL SPACE FLIGHT

    Question. As part of canceling Constellation, NASA has advocated 
for the commercial space sector to support low-orbit mission, spending 
$6 billion in the next 5 years for commercial crew and cargo vehicles.
    What led the administration to put its faith in commercial space 
flight for transporting crew to low Earth orbit?
    Answer. A more robust role for the private sector in spaceflight 
has been recommended by many groups over the years, including the U.S. 
Congress in the 2005 and 2008 NASA Authorization Acts. Most recently, 
the Augustine Committee found that: ``Commercial services to deliver 
crew to low-Earth orbit are within reach.''
    NASA has a long history of partnership with the commercial space 
sector. Nearly all NASA Science payloads are launched aboard 
commercially owned and operated vehicles. And the commercial sector is 
instrumental in each space shuttle launch, as nearly 90 percent of the 
shuttle workforce are industry contractors. Additionally, the 
commercial space industrial sector has a demonstrated record of safe 
and reliable launches. For example, United Launch Alliance, a provider 
of commercial launch services, has successfully launched 25 Department 
of Defense (DOD) satellites consecutively. This impressive launch 
record underscores a continuing capability to deliver high-value 
payloads to orbit via an established U.S. commercial space industry.
    Question. What if this commercial venture fails?
    Answer. NASA is confident in the ability of our commercial cargo 
partners to develop the capability to deliver cargo to/from the 
International Space Station, and to ultimately deliver cargo under the 
Commercial Resupply Services (CRS) contracts. We also are looking 
forward to working with commercial partners on a commercial crew 
development effort in the near future.
    The development of a commercial crew transportation capability 
shares the same risks that are typical in any aggressive, challenging 
space hardware development program. NASA is in the process of 
structuring its plan to support development of a commercial crew 
transportation capability, should the fiscal year 2011 budget provide 
funding for this activity. The President's budget request provides NASA 
with resources to support the development efforts of multiple providers 
and to provide significant technical support during the development 
phase. This will maximize the likelihood that selected commercial 
providers will successfully complete development activities and will 
minimize the impact to the agency if any one commercial provider is not 
fully successful in its development activities.
    Question. Does this mean the United States won't be able to send 
astronauts into space for 10 years?
    Answer. NASA is in the process of developing a procurement 
solicitation for commercial crew, should the fiscal year 2011 
appropriation include this activity. Therefore, the timing for the 
availability of commercial crew services will not be known until NASA 
receives proposals for the development of this capability. However, the 
Augustine Committee had noted that commercial crew launch service could 
be in place by 2016. Estimates provided to the Augustine Committee by 
potential providers said commercial crew services could be in place 3 
to 5 years from the point of funding.
    Question. What is NASA's back-up plan?
    Answer. With regard to cargo, NASA plans to pre-position spares 
onboard the ISS with the final logistics flights to provide some margin 
for delay in commercial cargo services. Additionally, NASA plans to 
rely on the transportation capabilities of Russia, the European Space 
Agency and Japan to transport cargo to ISS. Russia's Progress vehicle 
has been providing cargo services to ISS through a contract with NASA. 
The ESA Automated Transfer Vehicle had a successful initial flight to 
the space station in 2008. The Japanese HII Transfer Vehicle had a 
successful first flight in 2009. ESA's and Japan's services are 
provided through barter agreements. Beyond that, there is no planned 
back-up capability for ISS commercial cargo. Timely commercial cargo 
capability is critical for effective ISS operations. Without U.S. 
commercial cargo capability, the crew size and research operations 
planned for ISS would need to be reduced.
    With regard to commercial crew transportation services, NASA hopes 
to award development funding for up to four proposals, thus increasing 
the chances that multiple partners would succeed at developing a 
commercial crew vehicle. After the commercial crew services procurement 
is released, NASA is hopeful that more than one partner will be 
selected to supply those services, thus providing redundancy of 
capabilities. Additionally, should those capabilities fail to 
materialize on time, NASA has purchased Soyuz seats through 2014 and 
has legislative authority to purchase additional seats through July 1, 
2016. If we need to purchase seats beyond July 1, 2016, NASA would need 
to extend the current exception under the Iranian North Korean Syria 
Nonproliferation Act that permits purchase of Soyuz launch services. 
Lastly, NASA intends to provide significant technical support to 
commercial providers during the development and demonstration phase, 
thereby helping to increase their chances of success both 
programmatically and with respect to safety.
    Question. Did NASA look at options other than the commercial 
sector?
    Answer. This information is pre-decisional.
    Question. What about building upon the successes of the Delta and 
Atlas rocket programs and using Evolved Expendable Launch Vehicles 
(EELV) as an interim means to reach the space station?
    Answer. Evolved Expendable Launch Vehicles (EELVs), including the 
Delta and Atlas rockets, are commercial vehicles and they are certainly 
candidates for the Commercial Crew Program. In fact, the program will 
be open to any domestic company interested in providing these services 
in accordance with existing U.S. laws and policies. Any domestic 
company that had been part of the Constellation Program can, if it 
chooses, compete with others as part of this new commercial crew 
transportation program. In addition, Boeing and United Launch Alliance 
were chosen earlier this year for NASA awards under our Commercial Crew 
Development (CCDev) initiative designed to develop and demonstrate 
technologies that enable commercial human spaceflight capabilities.
    Question. How do you balance leaving companies alone while managing 
oversight of issues like safety, cost and performance, and technical 
soundness?
    Answer. Safety is and always will be NASA's first core value, so we 
will provide significant--but not intrusive--oversight over any 
commercial venture, whether it be cargo or crew. For example, NASA has 
a Commercial Orbital Transportation Services (COTS) Advisory Team 
comprised of approximately 100 NASA technical experts from across the 
agency. These experts work with our partners and review partner 
technical and programmatic progress for each milestone and provide 
progress assessments to NASA's Commercial Crew Cargo Program Office. 
Additionally, they participate in all major design reviews providing 
technical review comments back to our partners. The advisory team 
provides another method by which NASA gains confidence that our 
partners will be able to perform their flight demonstrations.
    One of the strengths of the COTS venture is that companies are free 
to do what they do best, that is developing truly unique spaceflight 
vehicles using innovative processes that are not available within the 
Federal bureaucratic framework. NASA provides requirements that they 
must meet and we ensure that they have met those requirements, but we 
try not to dictate how they meet those requirements. For example, each 
COTS partner must successfully verify compliance with a detailed set of 
ISS interface and safety requirements prior to their planned ISS 
berthing missions. These requirements are imposed on all visiting 
vehicles wishing to visit to the International Space Station (ISS). 
Both COTS partners are currently working with the ISS program on a 
daily basis to ensure they meet the ISS visiting vehicle requirements. 
This also helps to give NASA independent insight into their progress 
and it builds confidence in their abilities.
    With regard to commercial crew, at no point in the development and 
acquisition of commercial crew transportation services will NASA 
compromise crew safety. Simply put, U.S. astronauts will not fly on any 
spaceflight vehicle until NASA is convinced it is safe to do so. NASA 
has unique expertise and history in this area, and a clearly 
demonstrated record of success in transporting crew. NASA will bring 
that experience to bear in an appropriate way to make sure that 
commercial crew transportation services are a success both 
programmatically, and with respect to safety. At no point in the 
development and acquisition of commercial crew transportation services 
will NASA compromise crew safety. For example, NASA will have in-depth 
insight of the vehicle design via NASA personnel who are embedded in 
the contractor's facility. Additionally, NASA will impose strict 
requirements and standards on all providers that will be carefully 
evaluated and reviewed at multiple stages before a vehicle system is 
certified by NASA for crewed flight.
    Question. If the program experiences cost overruns, who pays? The 
companies or the Government?
    Answer. With regard to potential cost overruns in the Commercial 
Crew Development program:
    If NASA uses SAAs, it is likely that such agreements will be 
structured similarly to NASA's COTS development SAAs. For the COTS 
SAAs, the Government provided a pre-negotiated set amount of funding to 
our two current partners. Each partner is awarded funding as they 
successfully meet pre-negotiated milestones and commercial partners are 
responsible for additional costs in excess of NASA's investment.
    If NASA uses fixed-price contracts, those contracts will similarly 
use pre-negotiated performance-based milestones. So, under this 
approach as well, the company will be responsible for any cost 
overruns. NASA's investment will be fixed.
    Question. What are commercial companies contributing to this plan?
    Answer. Although NASA is still preparing a strategy to support 
development of commercial crew, in general, we intend for NASA's 
investment to supplement private investment in developing a commercial 
crew capability, thus providing strong incentive for industry partners 
to perform and ``stay in the game.''
    It is important to remember that NASA did not specify a minimum 
level of cost sharing for COTS partners because the agency felt that it 
would be inappropriate to prejudge a potential partner's business case. 
NASA reviewed each proposal as a whole, and assessed each proposal 
based on its own merits. That included review and evaluation of the 
type of vehicle system proposed, the development process proposed, as 
well as market factors such as the potential for other non-government 
customers, the amount of investment each company plans to contribute, 
the company's experience in similar endeavors, etc. No single factor is 
necessarily more important than another.
    Question. Who are the other customers? Is there a market for 
sending humans into space?
    Answer. NASA has not conducted any market surveys. However, there 
are general indicators that such a market exists. For example:
  --From an historical perspective, Russia and the United States have 
        been providing human space transportation services to 
        astronauts from other countries since 1978. Since that time, 
        Russia and the United States have transported nearly 100 
        astronauts representing 30 nations. In addition, eight people 
        have flown to space in the past decade as spaceflight 
        participants.
  --Another strong indicator came from NASA's CCDEV solicitation. In 
        answer to NASA's CCDEV solicitation for commercial crew 
        spaceflight concepts, the agency received 36 proposals--an 
        indicator that there is robust interest from U.S. industry in 
        developing human spaceflight capabilities.
  --Helping to support an enhanced U.S. commercial space industry will 
        create new high-tech jobs, leverage private sector 
        capabilities, spawn other businesses and commercial 
        opportunities, and spur growth in our Nation's economy.
  --Most importantly, the administration's proposal to extend and fully 
        utilize the ISS provides a reliable, sustainable market for 
        commercial human space transportation services likely to 2020 
        or beyond.
    Studies in the public domain suggesting that commercial providers 
can be successful include:
  --Collins, P. and Isozaki, K. ``Recent Progress in Japanese Space 
        Tourism Research,'' IAC Italy, October 1997.
  --O'Neil, Bekey, Mankins, Rogers, Stallmer ``General Public Space 
        Travel and Tourism,'' NASA-MSFC, March 1998.
  --Aerospace Commission ``Final Report of the Commission on the Future 
        of the United States Aerospace Industry,'' November 2002.
  --Space Tourism Market Study, Futron Corporation, 2002.
  --Webber, D. and Reifert, J. ``Filling in Some Gaps'', Executive 
        Summary of the Adventurers' Survey of Public Space Travel,'' 
        September 2006.
  --Commercial Spaceflight Federation ``Commercial Spaceflight in Low 
        Earth Orbit is the Key to Affordable and Sustainable 
        Exploration Beyond,'' input to the Review of U.S. Human Space 
        Flight Plans Committee, June 29, 2009.
  --Final Report of the Review of U.S. Human Spaceflight Plans 
        Committee, 2009.
    Question. Are we subsidizing space tourism?
    Answer. NASA is not subsidizing space tourism. Rather, NASA is 
helping to develop a critical capability that is needed by the agency. 
By investing $6 billion in commercial crew efforts over the next 5 
years, NASA can focus on the forward-leaning work we need to accomplish 
for beyond-LEO missions. Additionally, this investment will:
  --Reduce the risk of relying solely on Russia to transport astronauts 
        to the ISS following the retirement of the space shuttle;
  --Free up NASA resources to focus on the difficult challenges in 
        technology development, scientific discovery, and exploration;
  --Make space travel more accessible and more affordable.
  --Build an enhanced U.S. commercial space industry that creates new 
        high-tech jobs, leverages private sector capabilities, spawns 
        other businesses and commercial opportunities, and spurs growth 
        in our Nation's economy.
  --Inspire a new generation of Americans by these commercial ventures 
        and the opportunities they will provide for additional visits 
        to space.

                        SPACE SHUTTLE RETIREMENT

    Question. The President's budget makes it clear that the space 
shuttle will retire at the end of 2010, marking the end of an era. Only 
four more launches are planned.
    Do you need any additional funding to close out the shuttle 
program?
    Answer. No. The President's fiscal year 2011 budget request 
includes $600 million to fly the space shuttle through the first 
quarter of fiscal year 2011. The last shuttle mission, STS-134/AMS, is 
now scheduled for February 2011. Because of additional savings that 
have been identified in 2010, NASA will not require funding beyond that 
requested in the President's budget to close out the space shuttle 
program.
    Question. Will we have the right people in place to safely see the 
shuttle program all the way to the end?
    Answer. While many space shuttle workers have expressed the desire 
to stay with the program until the shuttle retires, NASA and its space 
shuttle contractors have worked to ensure that the program retains the 
critical skill mix needed to fly out the remaining missions safely. As 
one example, NASA has offered retention bonuses for workers who 
continue with the program through shuttle retirement. The contractors 
are conducting incremental layoffs designed to ensure that they can 
meet shuttle manifest requirements safely, and the agency is confident 
that the program will have the personnel necessary to accomplish this.
    Question. What steps are you taking to make sure a major safety 
misstep does not occur as workers face the end of the program and the 
potential loss of their job?
    Answer. NASA and its contractors are emphasizing the criticality of 
focusing on each of the remaining missions in turn in order to ensure a 
safe flight. Each mission is processed and flown according to time-
tested procedures and safety protocols, and reporting lines of 
communication encourage employees to raise any safety concerns they may 
have. The agency and shuttle contractors are also supporting a variety 
of efforts to help transition workers after the end of the program.
    Question. What are the budgetary implications of the delay in the 
Advanced Magnetic Spectrometer (AMS) which will delay STS-134?
    Answer. The President's fiscal year 2011 budget request includes 
$600 million to fly the space shuttle through the first quarter of 
fiscal year 2011. If STS-134, which will carry the AMS experiment to 
ISS, launches in February 2011, as currently planned, NASA will not 
require further funding beyond that requested in the President's fiscal 
year 2011 budget request.

                          WORKFORCE TRANSITION

    Question. The retirement of the space shuttle program will affect 
as many as 12,000 workers. The Constellation program was supposed to 
help transition some--though not all--of this high-tech workforce over 
to good jobs. Now, with the proposed cancellation of Constellation, the 
``Jobs Gap'' grows larger and deeper. The administration has suggested 
that 1,700 new jobs over 5 years in Florida will help support 
commercial rockets.
    On April 15, President Obama pledged $40 million to help displaced 
Florida space workers transition to new, high-technology jobs.
    Where does the proposed $40 million come from?
    Answer. To ease the transition for workers dislocated while the new 
space strategy is being implemented, the President, on June 11, 2010, 
as part of a fiscal year 2011 budget amendment, proposed to dedicate up 
to $100 million of the funds requested for the Constellation transition 
in fiscal year 2011 to transform the regional economy around KSC and 
prepare the workforce for these new opportunities, as well as other 
geographic areas affected to the shuttle and Constellation transitions.
    Question. What about workers in other severely impacted States? 
What is the plan for transitioning these workers to other jobs?
    Answer. As noted in an earlier response, the administration has 
recently announced a comprehensive initiative, funded at a level up to 
$100 million, to support economic growth and job training in Florida 
and other regions affected by the shuttle retirement and other 
programmatic changes in NASA's exploration program. While the 
initiative began on April 15 when the President announced a $40 million 
initiative to aid the areas around Kennedy Space Center, the group was 
also directed to prepare a plan that ``explores future workforce and 
economic development activities that could be undertaken for affected 
aerospace communities in other States, as appropriate.''
    Several States and county officials have been applying for 
workforce-related grants through existing Federal programs. On June 2, 
2010, Secretary of Labor Solis announced the award of an additional $15 
million in workforce re-training funds for aerospace workers in Brevard 
County, Florida. In addition, on April 30, 2010, the Department of 
Labor announced a $1.2 million grant to assist approximately 200 
workers affected by layoffs at ATK Launch systems in Corinne, Utah, in 
connection with the transition of the space shuttle and Constellation 
programs. It is our understanding that the communities impacted within 
the State of Texas have also applied for assistance from the Department 
of Labor.
    In 2009, NASA established the Space Shuttle Transition Liaison 
Office (SSTLO) in response to direction in the NASA Authorization Act 
of 2008 (Public Law 110-422). The agency was directed to assist local 
communities affected by the termination of the space shuttle program by 
offering non-financial, technical assistance to the identified 
communities and to identify services available from other Federal, 
State, and local agencies to assist in such mitigation. NASA is working 
diligently to determine how best to leverage these efforts to support 
the transition resulting from the proposed cancellation of 
Constellation. Specifically, the Office:
  --Serves as a clearinghouse by gathering and disseminating 
        information to the affected communities about opportunities 
        available through other Federal, State, and local agencies; 
        and,
  --Serves as a key point of contact for the community beyond NASA for 
        information about how the agency is working with local 
        communities to provide non-financial, technical assistance 
        during transition.
    The SSTLO consists of several organizations including NASA 
Headquarters, the NASA Human Space Flight Centers, shuttle prime 
contractors, and State and local organizations in communities affected 
by shuttle retirement. To identify applicable resources and build 
partnerships with other Federal departments and agencies, members of 
the SSTLO established relationships with the Employment and Training 
Administration, Department of Labor, and the Economic Development 
Administration in the Department of Commerce. Ongoing SSTLO meetings 
are leading to communication at the State and local level among the 
workforce and economic development agencies and the affected companies 
and communities.

                         COST OF CONSTELLATION

    Question. To date, NASA has already spent roughly $9.5 billion on 
Constellation. The fiscal year 2011 budget requests an additional $1.9 
billion just to terminate the program.
    The Augustine Commission has suggested that Constellation would 
require billions more annually than what the Bush administration had 
budgeted for it. The Commission suggested that even with this 
investment, the U.S. gap in access to low earth orbit could last until 
2019.
    How much money--over and above the levels provided--would be needed 
to finish the Constellation Program?
    Answer. The Constellation Program is envisioned in two phases--the 
ISS phase and the beyond-low Earth orbit or lunar phase.
    The first key milestone for the ISS phase is the Initial 
Operational Capability (IOC) for Ares I and Orion, which is defined as 
the first crewed flight of Orion to the ISS. Based on the fiscal year 
2010 President's budget request, NASA anticipated that Constellation 
would need approximately $35.2 billion total to achieve IOC for Ares I 
and Orion in March 2015. As of May 2010, NASA had spent $10.6 billion 
on Constellation--leaving $24.6 billion--or around $23 billion if the 
$1.9 billion for Constellation termination in the fiscal year 2011 
budget request were applied to continue Constellation. (Note, at this 
time, a March 2015 IOC is not achievable due to fiscal year 2010 
funding constraints such as the Continuing Resolution, the enacted 
fiscal year 2010 appropriation, termination liability, and new 
Construction of Facility appropriations controls on the total Program.)
    For the Augustine review in the summer of 2009, NASA estimated that 
the Constellation Program of Record, using Orion, Ares I, Altair, Ares 
V, and supporting elements, could deliver a crewed lunar mission by 
2020, for $109 billion since the inception of the Constellation 
Program. Of this $109 billion since inception, $100.2 billion would be 
required in fiscal year 2010 and out (the same time period as the 
Augustine estimates), and $96.7 billion would be required in fiscal 
year 2011 and out. If the $1.9 billion of Constellation transition 
funding in the President's fiscal year 2011 budget were applied to 
continue the Program of Record, approximately $95 billion of additional 
funding would be required in fiscal year 2011 and beyond. However, 
achieving a crewed lunar mission by 2020 for this funding assumes that 
authority to proceed with lunar development occurs early in fiscal year 
2011, and sufficient funding is available in the early years of lunar 
development.
    Question. If NASA's budget were to receive no additional funds, 
where would you cut in the existing budget to come up with the annual 
amount needed to cover the cost of finishing Constellation?
    Answer. If NASA were to continue development of Ares I and Orion, 
the year-to-year rate would be approximate to the total of $5.4 billion 
per year, which would include funding for Ares and Orion development as 
well other Constellation elements (mission control, launch complex, 
ground processing facilities, program integration functions, etc.) 
However, it is unwise to fund Constellation on this year-by-year 
situation because a development program such as Constellation needs a 
steady and dedicated funding stream to succeed, and unfortunately, 
given tight budget years, that funding stream has come at the expense 
of other NASA programs and projects.
    If NASA were to take the entire amount for Exploration in the 
President's fiscal year 2011 budget request and assumed runout and 
apply it to continuing Constellation and the fiscal year 2010 Advanced 
Concepts theme that supports Constellation--assuming that NASA has a 
flat-line budget with zero growth through 2020, there would be a 
shortfall of more than $50 billion through 2020 when Constellation was 
expected to return to the Moon. Under this same zero-growth funding 
scenario through 2020, funding for the remaining agency programs--earth 
and space science, aeronautics, technology, space station, and center 
and agency operations--would need to be reduced by about one-third. 
Even if ISS were not extended through 2020, funding for the remaining 
agency programs would need to be reduced by about one-sixth through 
2020.
    Question. How expensive would Constellation be to operate annually 
compared with the space shuttle and how would those costs compare to 
what you expect to pay annually to utilize the purely commercial system 
envisioned in the 2011 budget request?
    Answer. NASA estimates the complete costs of operating two 
Constellation flights per year to the ISS as $3.6-$4 billion per year 
in the 2016-2020 timeframe. This estimate would include funding for 
sustaining engineering; production/refurbishment of flight hardware; 
all ground operations; all mission operations; EVA suits; program 
integration etc.
    This is comparable to appropriately-inflated shuttle costs, given 
that Constellation is based on shuttle hardware, infrastructure, and 
practices.
    NASA does not know what costs commercial crew vendors will be able 
to achieve, but the intent is that a commercial, less-prescriptive, 
requirements-based approach, coupled with innovative and clean-sheet 
infrastructure, will result in costs substantially lower than shuttle 
or Constellation.
    Question. Are there elements of the existing Constellation program 
that you would consider retaining as part of an overall path forward on 
human space flight?
    Answer. Following the release of the fiscal year 2011 budget 
request, NASA established six study teams within NASA's Exploration 
Systems Mission Directorate to ensure we understand the steps (and the 
implications of those steps) that would need to be taken for an orderly 
transition of the Constellation program and to plan for the 
implementation of the new Exploration program. The work undertaken by 
these teams is a necessary part of that planning. One team, the 
Constellation Transition team, has initiated a broad survey of current 
workforce, contracts, facilities, property, security, knowledge 
capture, information technology, and other Government agency interface 
issues to determine what infrastructure and hardware could be used by 
the new programs and projects.
    Despite the early nature of these planning efforts, NASA is 
optimistic that there will be many capabilities developed by the 
Constellation program that will feed forward into the new programs. For 
example, options using the Orion capsule are currently being pursued 
for autonomous rendezvous and docking; and many of the capabilities we 
are pursuing at a low level through the Exploration Technology 
Development program are directly applicable to the new programs. Other 
important areas that will enable further advancement in the new 
initiative areas are: advanced robotics, propulsion development and 
test, friction stir welding, autonomous landing and hazard avoidance, 
and entry, descent, and landing technologies.
    Given that the fiscal year 2011 budget request is still pending 
with Congress, NASA has not yet made any final decisions with regard to 
what capabilities will and will not transfer to the new programs. 
Therefore, it would be premature for NASA to provide estimates about 
how much the agency has already invested in these technologies.
    Question. If NASA employed testing and oversight functions like 
those used by the Air Force in its launch program, how much money could 
be saved in completing all or at least some of the critical parts of 
the Constellation program?
    Answer. An apples-to-apples comparison between NASA and the U.S. 
Air Force is extremely difficult for several reasons:
  --The Air Force EELV fleet is in operational mode, whereas the 
        Constellation program is currently in the design, development, 
        test and evaluation phase of the program.
  --The Air Force launch program only manages the launch vehicle and 
        ground systems required to support launch, whereas the 
        Constellation program currently includes two launch vehicles, a 
        capsule to carry astronauts to the ISS and to the Moon, as well 
        as all the ground and mission operations infrastructure to 
        operate the capability and future lunar surface capabilities.
  --Many of the costs incurred by the Ares I and early Constellation 
        elements actually support development of future Constellation 
        architectural elements, such as the Ares V and the Altair lunar 
        lander.
    Question. The $1.9 billion to terminate this program seems like a 
large amount. What exactly will these funds cover?
    Answer. The fiscal year 2011 budget request transitions away from 
the Constellation program, and in doing so, provides a total of $2.5 
billion in fiscal year 2011 and fiscal year 2012 for Constellation 
closeout and transition costs--funding that is expected to cover 
closeout activity associated with facilities, environmental 
remediation, workforce, and prime and support contracts. A portion of 
this funding will also be used to support the retraining of shuttle 
program contractors as that program is brought to a successful close. 
It should be noted, however, that at present, the breakdown of costs is 
not complete. The agency is using the current budget planning 
activities to develop the details; and an implementation plan and 
coordinated communications with NASA responsible offices and current 
Constellation contractors are required to further refine this estimate, 
which is consistent with past planning experience and cost estimation 
for the Space Shuttle Transition and Retirement. NASA's experience with 
close-out of the shuttle program will serve as a useful reference for 
the complexity of the tasks and the potential associated costs.

                    CONTRACT TERMINATION--FOLLOW-UP

    Question. Under the fiscal year 2011 budget plan, NASA will 
eventually need to terminate the Constellation program and the 
Government contracts that go with it. The fiscal year 2010 bill 
prevents NASA from canceling Constellation. It seems clear that current 
law prevents NASA from terminating or significantly restructuring 
contracts in the current fiscal year.
    At our April 22 hearing, you stated: ``We are reminding them (the 
contractors) that it is their responsibility to determine, I guess 
technically for them, it's to determine what level of risk the company 
is willing to accept in terms of being able to handle a termination if 
it should come. So, we are not telling them that they need to reserve 
funds. We're telling them that they do have to be aware of the fact 
that termination liabilities, some of them lie on them by their 
contract. And it's the company's determination of what level of risk 
they want to incur, whether they put aside funds or whether they assume 
that they are not going to need them.''
    What does this mean in practical terms? Is the ultimate impact to 
reduce the amount of work planned in 2010? Are you essentially forcing 
the contractors to self-terminate so you won't have to?
    Answer. The cited testimony is clear on this point. NASA is not 
forcing the contractors to do anything, but has simply reminded certain 
of them that the terms of their contracts limit the obligations of the 
Government for reimbursement of costs, including termination costs, to 
the amount allotted to the contract.
    Question. Is this NASA's usual practice? What has NASA done 
regarding termination liability when it has terminated contracts in the 
past?
    Answer. NASA has terminated very few contracts in the past, and we 
are not aware of a situation in which NASA waived contract terms during 
the termination of a contract.
    Question. Are you planning to terminate all Constellation 
contracts?
    Answer. NASA has no current intention of terminating any 
Constellation contracts in fiscal year 2010.
    Question. What will it cost to terminate work related to 
Constellation in fiscal year 2011, both for Government employees and 
for contractors?
    Answer. NASA recognizes that the transition away from the 
Constellation program will personally affect thousands of NASA civil 
servants and contractors. Civil servants who support Constellation 
should feel secure that NASA has exciting and meaningful work for them 
to accomplish after Constellation, and our contractor colleagues should 
know that NASA is working expeditiously to offer new opportunities for 
them to partner with the agency on our new Exploration portfolio.
    With regard to contract termination costs, NASA is working with our 
prime contractors to gather current estimates of their potential 
termination liability (PTL) costs should Constellation contracts be 
terminated. The chart below provides PTL estimates as of June 21, 2010. 
Please note that PTL costs can vary over time, depending on current 
contract activity, such as status of long-lead items, active 
subcontractors and suppliers, facility/lease costs etc.

                        [In millions of dollars]
------------------------------------------------------------------------
                                                         As of June 21,
       Current PTL required for Prime Contracts               2010
------------------------------------------------------------------------
ATK...................................................              $500
Lockheed Martin.......................................               350
PWR...................................................                48
Boeing................................................                81
Oceaneering...........................................                15
Current PTL required for non-Prime Contracts..........                66
------------------------------------------------------------------------

    With regard to program transition and termination costs, NASA is 
confident that the $2.5 billion provided in the fiscal year 2011 budget 
for Constellation closeout and transition would be sufficient to cover 
closeout activity associated with facilities, environmental 
remediation, workforce, and prime and support contracts. However, at 
present, the breakdown of costs for transitioning away from 
Constellation is not complete, for several reasons:
  --Following the release of the fiscal year 2011 budget request, NASA 
        established six study teams within ESMD to ensure we understand 
        the steps (and the implications of those steps) that would need 
        to be taken for an orderly transition of the Constellation 
        Program and to plan for the implementation of the new 
        Exploration program. One team, the Constellation Transition 
        team, has initiated a broad survey of current workforce, 
        contracts, facilities, property, security, knowledge capture, 
        information technology, and other Government agency interface 
        issues to determine what infrastructure and hardware could be 
        used by the new programs and projects--information that will be 
        key to understanding the exact costs for Constellation 
        transition. However, the work of each team is still ongoing. It 
        is expected that these teams will complete a majority of their 
        work by the end of the third quarter of fiscal year 2010, and 
        we will share those findings with Congress as they are 
        finalized.
  --Additionally, NASA is still developing mission requirements and 
        subsequent cost estimates for the development of an emergency 
        crew return vehicle, announced by the President on April 15, 
        2010. NASA hopes to be able to finalize these cost estimates in 
        the near future and provide them to Congress.
    Question. How do you propose to pay for contract termination costs?
    Answer. Except for two contracts that contain a special termination 
costs clause, the Constellation prime contract terms limit the 
Government's obligation to make payments, including payments for 
termination costs, to the amounts allotted to the contracts. 
Accordingly, termination costs would be paid with funds allotted to the 
contracts. For the two contracts containing special termination 
clauses, termination costs would be paid from funds that NASA is 
required to, and has, set aside for that purpose.

                          SATELLITE SERVICING

    Question. Building upon the important role that humans have played 
in the success of Hubble by servicing it a record five times, this 
subcommittee provided funds in fiscal year 2009 and 2010 for the 
development of a sustained aggressive satellite servicing capability.
    What is NASA doing with the $20 million provided in 2009 and the 
$50 million in 2010 to develop a full scale, world class satellite 
servicing program? What activities are involved? What are near term 
technical and schedule milestones to demonstrate critical tasks like 
``in flight'' refueling of satellites?
    Answer. The Satellite Servicing Study has two major thrusts. The 
first is an analytical study in which NASA is engaging with industry, 
academia, and other agencies to determine the extent of the potential 
satellite servicing market and the customers' capability needs. A 
Request for Information (RFI) on the Feasibility of Using Human 
Spaceflight or Robotic Missions for Servicing Existing and Future 
Spacecraft was released on December 8, 2009, and openly solicited ideas 
on satellite servicing concepts and capabilities. NASA received over 70 
responses to the RFI.
    Subsequently, NASA conducted an International Workshop on On-Orbit 
Satellite Servicing at the University of Maryland University College 
Inn and Conference Center, March 24-26, 2010. The workshop brought 
together 234 registered participants from industry, academia, other 
U.S. Government agencies and foreign entities. Others participated via 
Webex, Twitter, and Ustream (audio). The live audio stream received 280 
hits on the first day. The opening plenary addressed NASA's vision for 
satellite servicing as well as national security space and commercial 
space perspectives. The remainder of the workshop was divided into 5 
themed sessions with over 50 presentations. About one-half of the RFI 
respondents spoke at the workshop. The themes addressed Missions and 
Customers of Satellite Servicing, Business and Commercial Case for 
Satellite Servicing, Servicing with Humans, Robotic Servicing 
Technology, and more general Servicing Technology. Presentations 
clearly marked for unrestricted distribution are available on the 
servicing study Web site at http://servicingstudy.gsfc.nasa.gov/
workshop_1_presentations.htm.
    Fact finding discussions are continuing between NASA and potential 
servicing customers, technologists, systems developers and operators, 
including other Government agencies, commercial satellite operators and 
possible commercial servicing providers. NASA is also developing 
several notional satellite servicing mission concepts which will help 
identify implementation approaches, costs, and technology gaps. A 
report documenting findings from these analytic activities will be 
issued this fall. This report will provide a foundation upon which to 
determine future spacecraft servicing architectures, desired 
capabilities and future implementation plans, including cost and 
schedule.
    The second thrust involves implementing two technology 
demonstrations on the International Space Station (ISS) using the 
station's Special Purpose Dexterous Manipulator (SPDM) ``Dextre'' 
robot. The Robotic Refueling Dexterous Demonstration (R2D2) will show 
that a robotic mission can potentially refuel and repair satellites 
which were not designed for on-orbit servicing. It will include an end-
to-end refueling demonstration as well as a busy-board for 
demonstrating the ability of the robot to access and interface with 
satellite test ports. An R2D2 Systems Requirements Review (SRR)/
Preliminary Design Review (PDR) was held in March 2010. A Critical 
Design Review was conducted in June 2010. Hardware completion is 
planned for October 2010. The other demonstration is a Dextre Pointing 
Package (DPP) to enhance orientation and control of Dextre. DPP, 
positioned to view vehicles as they approach or depart ISS, will be 
used to evaluate various sensors and algorithms for future autonomous 
acquisition, rendezvous, and capture of customer spacecraft. The DPP 
SRR/PDR was conducted in June 2010. Hardware integration is scheduled 
for completion in December 2010. Additionally, robotic technology 
development capability at West Virginia University is being established 
to refine and mimic orbital robotic contact dynamics in the ground 
environment. This will assist in developing algorithms for on-orbit 
use. A 1G demonstration is planned for August 2010. These 
demonstrations will reduce risk and enable future satellite servicing 
missions.
    Question. Is NASA having any success in enlisting the interest of 
other Federal agencies in developing this capability?
    Answer. NASA is discussing satellite servicing needs and potential 
collaboration opportunities with other Federal agencies, mostly in the 
National Security community. Additionally, relevant systems, 
technologies and needs of the Department of Defense and other 
Government agencies were addressed in presentations at the 
International Workshop on On-orbit Satellite Servicing held at the 
University of Maryland University College Inn and Conference Center, 
March 24-26, 2010.
    Question. What are the five top tasks that you envision this 
satellite servicing capability having, how much funding would each task 
require, and what is the relative schedule for executing and completing 
each task or capability development?
    Answer. Please see earlier response. Fact finding discussions are 
ongoing between NASA and potential servicing customers, technologists, 
systems developers and operators, including other Government agencies, 
commercial satellite operators and possible commercial servicing 
providers. NASA is also developing several notional satellite servicing 
mission concepts which will help identify implementation approaches, 
costs, and technology gaps. A report documenting findings from these 
analytic activities will be issued this fall. This report will provide 
a foundation upon which to determine future spacecraft servicing 
architectures, desired capabilities and future implementation plans, 
including cost and schedule.

                         SATELLITE ACQUISITION

    Question. NASA serves as the procurement agent for its own large 
satellites and for complex satellite systems on behalf of other 
Government agencies. To ensure the best value for the Government, 
procurement law is very specific about the circumstances when NASA and 
other Federal agencies may pursue contracts in a manner other than by 
full and open competition.
    What are NASA's guidelines for issuing sole source contract awards 
for spacecraft above $50 million and which NASA official(s) are 
responsible for approving these awards?
    Answer. In addition to applicable Federal Acquisition Regulations, 
the guidelines for issuing sole source contract awards are set forth in 
the NASA Federal Acquisition Regulation Supplement (NFS), 1806.304-70 
(http://www.hq.nasa.gov/office/procurement/regs/nfstoc.htm) Approval of 
NASA justifications. These guidelines apply to all sole source contract 
awards regardless of the commodity or service as follows:
    For proposed contracts over $11,500,000 but not exceeding 
$78,500,000:
  --Concurring Officials.--Center Procurement Officer and Center or 
        Headquarters Competition Advocate
  --Approving Official.--Head of the contracting activity.
    For proposed contracts over $78,500,000:
  --Concurring Officials.--Center Procurement Officer, Center or 
        Headquarters Competition Advocate, Head of the contracting 
        activity and, Agency Competition Advocate
  --Approving Official.--Assistant Administrator for Procurement
    The approval authority of FAR 6.304(a)(3) may not be delegated to 
other than the installation's Deputy Director. For proposed contract 
actions requiring approval by the Assistant Administrator for 
Procurement, the original justification shall be forwarded to the 
Assistant Administrator for Procurement, Office of Procurement, Program 
Operations Division. Regardless of dollar value, class justifications 
shall be approved by the Assistant Administrator for Procurement.
    Question. Does NASA plan to acquire or procure any commercial 
spacecraft from industry under other than full and open competition, 
leading to a sole source contract, for any science missions with a 
spacecraft value of greater than $50 million?
    Answer. NASA's Science Mission Directorate is committed to full and 
open competition leading to the selection of its spacecraft and 
hardware. Missions and instruments are selected based on their 
scientific merit through peer review. However, in the wake of the loss 
of the competitively selected Orbiting Carbon Observatory (OCO) in 
February 2009 and in response to national needs for a carbon monitoring 
capability, NASA has awarded JPL authority for a near-identical OCO 
replacement, OCO-2. This unique procurement strategy minimizes the 
cost, schedule, and performance risk of the replacement mission.
    With the restructuring of the NPOESS program, NASA is now assuming 
responsibility for the procurement of the Nation's next generation 
weather and environmental monitoring satellites. Options to procure 
spacecraft to minimize any gaps in NOAA's weather and climate 
monitoring requirements will consider sole source procurements where 
appropriate.
    Question. If so, what is the justification for these sole source 
spacecraft?
    Answer. For the OCO-2 procurement, JPL concluded that any deviation 
from the original OCO mission would require substantial re-engineering/
re-testing, re-writing of existing documentation, and would infuse 
significant risk to the project. To minimize additional testing and 
mitigate risk, JPL's intent is to procure identical items wherever 
possible. For example, the Orbital spacecraft bus procurement will 
provide for an exact duplicate of the OCO spacecraft while the Northrop 
cryocooler procurement will provide for the closest-to-identical 
replacement cryocooler currently available.
    Continuity of measurements supporting accurate weather and climate 
predictions is a clear national priority. No sole-source decisions have 
been made to date for any future NPOESS/JPSS spacecraft. Any sole-
source procurements of spacecraft for the future Joint Polar Satellite 
System will be considered only if required to ensure continuity at 
reasonable risk.

                             EARTH SCIENCE

    Question. NOAA and NASA are leaders in the U.S. Climate Change 
Research Program. With an increase in severe storms and severe drought, 
accurate seasonal and yearly forecasts are becoming more of a 
necessity. The amount of Earth observation data coming from NASA's 
satellites, reinforce the concerns that our data must be handled 
properly and efficiently, and not ending up in a ``data mortuary''.
    Are there clear lines for collaboration between the NOAA and NASA, 
especially when it comes to moving research to operations?
    Answer. Yes. NASA and NOAA established a Joint Working Group (JWG) 
in response to section 306(a) of the NASA Authorization Act of 2005. 
The JWG meets at the level of the NASA Earth Science Division Director 
and the NOAA Assistant Administrator for Satellite and Information 
Services. The JWG meets approximately quarterly, with the next meeting 
planned for July 9, 2010. In this forum, NASA and NOAA coordinate plans 
for Earth observation and research, and especially the subject of 
transitions of NASA research satellite capabilities to NOAA for NOAA 
operation in support of NOAA's mission. NOAA's fiscal year 2011 budget 
request to begin development of the Jason-3 ocean altimetry mission is 
the first major outcome of this joint planning. Jason-1 (following 
TOPEX Poseidon) was a joint NASA/CNES (France) mission; Jason-2 was 
developed and launched by NASA/CNES, but is being operated by NOAA and 
EUMETSAT (NOAA's European counterpart). Jason-3 will be developed as 
NOAA/EUMETSAT partnership (with NASA/JPL's assistance under a 
reimbursable agreement).
    In the area of research, NASA and NOAA are collaborators with the 
DOD and NSF in the Joint Center for Satellite Data Assimilation, which 
works to accelerate the use of research satellite data to improve 
routine weather and climate prediction using global numerical models. 
NASA and NOAA established the Short-term Prediction Research and 
Transition (SPoRT) Center in 2002 to demonstrate the application of 
NASA satellite measurements to improve short-term weather forecasts on 
regional and local scales. NASA continues to operate 13 satellites that 
provide many of the space-based observations needed by the U.S. Global 
Change Research Program to accomplish its research goals. Data from 
several of these satellites are also used by NOAA for climate 
monitoring.
    The GOES program, begun in 1974, is another example of NOAA-NASA 
cooperation. NOAA funds and manages the program and determines the need 
for satellite replacement. NASA acts as NOAA's acquisition agent to 
design, develop, and launch GOES satellites. After a satellite is 
launched and checked out by NASA, the spacecraft is turned over to NOAA 
for its operation. The latest GOES satellite, GOES-15, was launched on 
March 4, 2010, and is presently in the final stages of on-orbit 
checkout.
    In addition to cooperation on satellite systems, NASA and NOAA also 
have a history of collaborating on research campaigns. For these 
campaigns, NASA and NOAA contribute aircraft, ships, and/or sensors to 
make complementary measurements of environmental conditions of interest 
to both agencies. For example, in 2008, NASA collaborated with NOAA on 
the Southern Ocean Gas Exchange Experiment (GasEx) to study how gases 
move between the atmosphere and oceans under high winds and seas. NASA 
funded science investigations that took place on-board NOAA's Research 
Vessel Ronald H. Brown. In April 2010, NASA concluded the Global Hawk 
Pacific mission (GloPac), the initial science mission with the Global 
Hawk Unmanned Airborne System (UAS). GloPac's purpose is to obtain 
unique observations of the lower stratosphere and upper troposphere in 
association with NASA's Aura satellite and both NASA- and NOAA-
instrument teams participated in the campaign. In the future, NASA is 
planning the Genesis and Rapid Intensification Processes (GRIP) 
airborne campaign for summer 2010 to better understand how tropical 
storms form and develop into major hurricanes. NASA plans to use the 
DC-8 aircraft and the Global Hawk UAS. NOAA will participate and deploy 
one or two low-altitude P-3 aircraft and possibly a Gulfstream IV 
aircraft for the upper troposphere measurements.
    Question. What percentage of NASA's earth science data is utilized 
by scientists? How does that utilization compare with NOAA's satellite 
data?
    Answer. In fiscal year 2009, the NASA Distributed Active Archive 
Centers (DAACs) distributed over 250 million data products to users 
around the world. In fiscal year 2009, NASA recorded over 910,000 
distinct users of EOSDIS data and services. Ninety percent of the 
distributed products and 88 percent of the distributed volume 
(Gigabytes delivered) went to science users. Data is also typically 
accessed for educational or applications purposes.
    Last year, the DAACs identified 466 papers that used data from NASA 
DAACs in various peer-reviewed science journals, such as Advances in 
Space Research and Journal of Geophysical Research. As it is not 
mandatory that researchers who use NASA data cite the source of that 
data, this number represents a low estimate of the numbers of papers 
that used NASA data.
    NASA does not monitor the use of NOAA data. However, NASA 
scientists do make broad use of the NOAA data.
    Question. Now that NASA will be heavily involved in the successor 
program to NPOESS, how will you ensure that it undertakes this task 
effectively without diverting budget or manpower resources from the key 
missions to which NASA is committed and which are presented in the 2011 
budget?
    Answer. The Joint Polar Satellite System program will actually be 
easier to manage from a budget and manpower planning standpoint for 
NASA than NPOESS was. In NPOESS, NASA did not have a direct development 
management role; NASA needed to identify manpower resources to help 
with NPOESS instrument development problems on a non-predictable basis. 
JPSS, on the other hand, will be run much the way the POES program was 
for three decades. NOAA will budget for the program and reimburse NASA 
for its satellite development work; since all JPSS work is 
reimbursable, there is no impact to NASA's budget. This more stable 
program, with stable roles, enables effective long term planning. POES 
and GOES proceeded in parallel with NASA's development of the Earth 
Observing System in the 1990s and early 2000s, and the workforce 
synergies were beneficial to both programs. We foresee the same for 
JPSS and NASA's development of its research missions.
    While JPSS will require an unusually rapid ramp-up, Goddard 
currently manages 18 flight projects and has a large and experienced 
workforce. The immediate challenge will be the need to quickly assign a 
cadre of very experienced senior level managers, and GSFC has already 
identified a strong leadership team to initiate the transition from 
NPOESS to JPSS. Many of these individuals are coming off programs that 
have launched in the past months or are about to launch, including 
Hubble Space Telescope Servicing Mission 4 and the Solar Dynamics 
Observatory. The plan is to ramp up to 150 Civil Servant and Contractor 
employees during the first year, with an ultimate program/project size 
of 300-350 people. In the short term, Goddard will manage the 
reassignment of people with the intent of minimizing impact to its 
other flight projects.
    Question. What efforts will NASA take to make its earth science 
more relevant to pressing regulatory challenges like carbon monitoring 
and other greenhouse gas issues?
    Answer. The President's fiscal year 2011 budget request includes 
funds for an Orbiting Carbon Observatory-2 mission to be developed for 
launch in February 2013. The policy and science communities look 
forward to the availability of these data, from which CO<INF>2</INF> 
sources and sinks can be inferred. Further, the OCO-2 funds are planned 
to enable generous instrument spare parts development. This will both 
reduce risk in OCO-2 schedule and, upon achievement of a successful 
OCO-2 launch, enable assembly of a second instrument copy to be flown 
as a mission of opportunity or as part of the Decadal Survey ASCENDS 
mission. The result will be extended data continuity, which is 
essential for carbon monitoring.
    The fiscal year 2011 budget request also funds the continuation of 
NASA's pilot Carbon Monitoring System activities begun in fiscal year 
2010. The goal of these activities is to generate and test an improving 
set of products on carbon storage and exchange between the surface and 
the atmosphere. These information products will be provided on a 
regular basis to policy and decisionmakers as well as to scientists and 
program managers designing the future evolution of a carbon monitoring 
capability.
    For other greenhouses gases and aerosols, the fiscal year 2011 
budget request funds the refurbishment of an existing Stratospheric 
Aerosols and Gas Experiment-III (SAGE III) to be hosted on the 
International Space Station, which operates at an ideal orbital 
inclination for this instrument. NASA continues development of the 
Ozone Mapper and Profiler Suite-Limb instrument for flight on NPP in a 
collaborative activity with NOAA on climate data continuity.
    As part of the Earth Science Research Program, NASA is investing 
over $160 million in research related to understanding the quantity of 
carbon on the Earth's surface, in the atmosphere, and the oceans, as 
well as how carbon is cycled between these reservoirs. The Carbon Cycle 
and Ecosystem Program uses six NASA satellites already in operation to 
monitor global carbon levels. The Land Cover and Land Use Change 
program, which is part of the Carbon Cycle and Ecosystems Program, 
monitors and models the interactions of land cover and land use change 
with the carbon cycle. New research opportunities through the Carbon 
Cycle and Ecosystems Program seek to better understand and model human-
ecosystem-climate interactions.
    Question. We have an annual report of Hubble's science 
accomplishments. Why have we never received anything comparable for 
NASA's earth science program even though we spend more than $1.5 
billion per annum on it? What are the five most important discoveries 
in NASA's earth science program for each of the past 5 years? (2004-
2009)
    Answer. While NASA's Earth Science program does not have an 
equivalent to Hubble's Space Telescope Institute which prepares that 
annual report, we do report annually on Earth science accomplishments 
through the Aeronautics and Space Report of the President and through 
contributions to the annual Our Changing Planet report of the U.S. 
Global Change Research Program. NASA would be pleased to provide more 
information on our accomplishments in Earth Science in any form the 
subcommittee would find useful.

                                  2009

NASA Satellite Reveals Dramatic Arctic Sea Ice Thinning
    Using the ICESat spacecraft, researchers showed that Arctic sea ice 
thinned dramatically, with thin seasonal ice replacing thick ``multi-
year'' ice as the dominant type for the first time on record. These 
measurements represent the first time that changes in ice thickness and 
volume were measured over the entire Arctic Ocean. Such information is 
used to calculate annual ice production and has shown periods of near-
zero replenishment of the multi-year ice cover and significant 
transport of ice out of the Arctic. http://www.nasa.gov/home/hqnews/
2009/jul/HQ_09-155_Thin_Sea_Ice.html

Methane, Carbon Monoxide Heat Up the Home Planet
    A team of NASA researchers at the Goddard Institute for Space 
Studies found that two greenhouse gases have a significantly more 
powerful impact on global warming than previously thought. In a paper 
published in October, the team conducted one of the first modeling 
experiments designed to rigorously quantify the impact of greenhouse 
gas-aerosol interactions on climate and air quality. The study found 
that methane's global warming impact has been underestimated, and the 
combined impact of emissions that cause both warming and air pollution 
have as much effect on warming as carbon dioxide. This improved 
knowledge of the warming effect of these greenhouse gases will help 
policymakers devise more efficient strategies to mitigate climate 
change. http://eospso.gsfc.nasa.gov/newsroom/viewStory.php?id=1585

NASA Satellites Unlock Secret to Northern India's Vanishing Water
    Using NASA satellite data, scientists found that groundwater levels 
in northern India have been declining by as much as 1 foot per year 
over the past decade. A team of hydrologists led by Matt Rodell of 
NASA's Goddard Space Flight Center found that northern India's 
underground water supply is being pumped and consumed by human 
activities, such as irrigating cropland, and is draining aquifers 
faster than natural processes can replenish them. The finding is based 
on data from NASA's Gravity Recovery and Climate Experiment (GRACE), a 
pair of satellites that sense changes in Earth's gravity field. These 
changes directly relate to changes mass distribution, including water 
masses stored above or below Earth's surface. The results were 
published in October. http://www.nasa.gov/topics/earth/features/
india_water.html

Using NASA Data to Improve Public Health Tracking
    High concentrations of 2.5 micron particulate matter (PM2.5) are 
associated with heart and lung disease. Accurately monitoring 
concentrations of PM2.5 are difficult using ground observations alone. 
Similarly, 10 micron PM (from naturally occurring dust) are associated 
with asthma and other respiratory distress in the desert Southwest. 
NASA and the CDC have been partners in linking PM2.5 and PM10 and 
health observations to enhance public health surveillance through the 
CDC Environmental Public Health Tracking Network (EPHTN). The EPHTN, a 
surveillance tool that scientists, health professionals, and--for the 
first time--members of the public can use to track environmental 
exposures and chronic health conditions, went operational in July 2009. 
NASA was an integral partner in enhancing the capabilities of this 
system as it was developed, using surfacing algorithms, modeling 
capabilities, and observations from and CALIPSO. http://
www.naphsis.org/index.asp?bid=983

NASA Researchers Evaluate Impacts of the Montreal Protocol
    A team of NASA-led scientists have simulated ``what might have 
been'' if chlorofluorocarbons (CFCs) and similar chemicals were not 
banned through the Montreal Protocol. CFCs are known to deplete ozone 
in the atmosphere, which results in an increase in ultraviolet 
radiation reaching the surface of the Earth. The simulation used a 
comprehensive model that included atmospheric chemical effects, wind 
changes, and radiation changes. The simulation has shown that, without 
regulation, by 2065, 67 percent of the overhead ozone would be 
destroyed in comparison to 1980. Large ozone depletions in the polar 
region would become year-round rather than just seasonal, as is 
currently observed in the Antarctic ozone hole. Ozone levels in the 
tropical lower stratosphere remain constant until about 2053 and then 
collapse to near zero by 2058 as a result of ``polar ozone hole'' 
chemical processes developing in the tropics. In response to ozone 
changes, ultraviolet (UV) radiation increases, tripling the ``sun-
burning'' radiation in the northern summer mid-latitudes by 2065. 
http://www.atmos-chem-phys.net/9/2113/2009/acp-9-2113-2009.html

                                  2008

Arctic Sea Ice Decline Continues
    In September, Arctic sea ice coverage reached the second-lowest 
level recorded since the dawn of the satellite era, according to 
observations from the NASA-supported National Snow and Ice Data Center 
at the University of Colorado. While slightly above the record-low set 
in September 2007, this season further reinforces the strong negative 
trend in summer sea ice coverage observed during the past 30 years. In 
March, when the Arctic reached its annual maximum sea ice coverage 
during the winter, scientists from NASA and the data center reported 
that thick, older sea ice was continuing to decline. NASA developed the 
capability to observe the extent and concentration of sea ice from 
space using passive microwave sensors. http://www.nasa.gov/home/hqnews/
2008/sep/HQ_08234_Artic_Sea_Ice.html

Linking Rainfall Amounts to Pollution
    Rainfall data from TRMM has shown the impact that human activities 
have on the environment. Researchers found that midweek storms in the 
southeastern United States tend to be stronger, larger, and wetter than 
weekend storms. They found a positive correlation between this 
precipitation data and airborne particle pollution data from the EPA, 
concluding that human activities such as driving help seed the 
atmosphere and encourage rain. http://www.nasa.gov/home/hqnews/2008/
feb/HQ_08031_pollution_rain.html
Mapping Global Carbon Dioxide
    Using data from the Aqua satellite, a NASA-led research team 
produced the first global satellite maps of carbon dioxide in the 
Earth's mid-troposphere. From the data, the team found that carbon 
dioxide concentrations are highly dependent on atmospheric circulation 
patterns and major surface sources of carbon dioxide. Concentrations 
vary by hemisphere due to the relative abundance of land in the 
Northern Hemisphere. http://www.nasa.gov/topics/earth/features/airs-
20081009.html

Understanding Microseisms
    A team led by NASA-scientists were able to pinpoint a source of 
microseisms, small Earth tremors created when ocean waves traveling in 
opposite directions merge together, solving a 50-year-old mystery. The 
researchers found that some microseisms originate in the North Atlantic 
Ocean, where ocean waves combine to form stationary waves that beat 
down on the ocean floor, causing it to vibrate. These vibrations 
generate seismic waves that propagate for thousands of miles. http://
www.jpl.nasa.gov/news/features.cfm?feature=1626
Identifying the Influence of El Nino Storms on Wintertime Storms
    A team of NASA-led scientists have found that El Nino-Southern 
Oscillation (ENSO) events can lead to more intense winter storms in 
certain regions in the United States, specifically, the west coast, 
Gulf States, and the Southeast. By comparing historical rainfall and 
snow records and computer models, the scientists found that ENSO events 
can double the probability of certain extreme winter storms. http://
eospso.gsfc.nasa.gov/newsroom/viewStory.php?id=826

                                  2007

NASA Satellites Unearth Antarctic ``Plumbing System''
    Scientists using NASA satellites discovered an extensive network of 
waterways beneath a fast-moving Antarctic ice stream that provide clues 
as to how ``leaks'' in the system affect sea level and the world's 
largest ice sheet. Data from the Moderate Resolution Imaging 
Spectroradiometer instrument aboard NASA's Aqua satellite, and data 
from the Geoscience Laser Altimeter System on NASA's Ice Cloud and Land 
Elevation Satellite, provided a multi-dimensional view of changes in 
the elevation of the icy surface above a large subglacial lake and 
surrounding areas during a 3-year period. Those changes suggest the 
lake drained to the nearby ocean. http://www.nasa.gov/vision/earth/
lookingatearth/antarctic_plumbing.html

Using NASA Satellites to Predict Tropical Cyclone Intensity
    NASA and university scientists announced in November 2007 the 
development of a promising new technique for estimating the intensity 
of tropical cyclones from space. This new method of estimating 
intensity requires cloud profiling information from over or near a 
storm's eye, including simultaneous, accurate measurements of cloud-top 
temperatures from the Aqua satellite, and cloud-top height and cloud 
profiling information from the CloudSat satellite. Both satellites fly 
in formation as part of NASA's ``A-Train'' of Earth-observing 
satellites. Initial results show the technique's estimates agreed with 
available weather data and this method could one day supplement 
existing techniques, assist in designing future tropical cyclone 
satellite observing systems, and improve disaster preparedness and 
recovery efforts. http://eospso.gsfc.nasa.gov/newsroom/
viewStory.php?id=809

Using NASA Satellites to Study Algal Blooms
    NASA satellite data helped scientists solve a decades-old puzzle 
about how vast blooms of microscopic plants can form in the middle of 
otherwise barren mid-ocean regions. The research team published 
findings in May 2007 that used the data to show that episodic, swirling 
current systems known as eddies act to pump nutrients up from the deep 
ocean to fuel such blooms. Data sets came from NASA's TOPEX/Poseidon, 
Jason, Aqua and QuikSCAT satellites. The fate of all of that biomass 
also is important, as plankton blooms can remove substantial amounts of 
carbon dioxide from surface waters and sink it to the deep ocean. The 
plants in the bloom either die and sink when the bloom runs its course 
or are consumed by animals, which then make fecal pellets that drop to 
the sea floor. http://eospso.gsfc.nasa.gov/newsroom/
viewStory.php?id=771

NASA Satellites Measure Antarctic Snow Melt
    A 2007 study led by team of NASA and university scientists found 
clear evidence that extensive areas of snow melted in west Antarctica 
in January 2005 in response to warm temperatures. This was the first 
widespread Antarctic melting ever detected with NASA's QuikScat 
satellite and the most significant melt observed using satellites 
during the past three decades. The affected regions encompass a 
combined area as big as California. Changes in the ice mass of 
Antarctica, Earth's largest freshwater reservoir, are important to 
understanding global sea level rise. Large amounts of Antarctic 
freshwater flowing into the ocean also could affect ocean salinity, 
currents and global climate. The 2005 melt was intense enough to create 
an extensive ice layer when water refroze after the melt. However, the 
melt was not prolonged enough for the melt water to flow into the sea.

Amazon Rainforest Resilient to Drought
    Using data from Terra and TRMM, researchers have found that the 
Amazon Rainforest is more drought-tolerant than originally predicted. 
Forest productivity increases and the forest canopy becomes greener 
during the dry season when more light is available due to cloudless 
conditions. Unlike plants in the pasture regions, plants in the forest 
are able to tap into deep soil water during the short dry season, 
allowing them to continue growing. http://eospso.gsfc.nasa.gov/
newsroom/viewStory.php?id=801

                                  2006

NASA Satellites and Science Ozone Studies
    NASA-funded researchers have provided new insights into the 
processes driving ozone chemistry and the impacts of ozone on pollution 
and climate change. By tracking chemicals present in the Earth's 
atmosphere using Aura, the researchers found that the burning of 
biomass in the tropics increase pollution by producing carbon monoxide 
and nitrogen oxides, two pollutants that lead to the formation of 
ozone. In a second study, researchers found that the amount of ozone in 
the tropics is dependent on the Madden-Julian Oscillation is a cyclical 
pattern of slow, eastward-moving waves of clouds, rainfall and large-
scale atmospheric circulation anomalies that can strongly influence 
long-term weather patterns around the world. Low-pressure systems 
increase the amount of subtropical total ozone. http://
eospso.gsfc.nasa.gov/newsroom/viewStory.php?id=730

NASA Satellites Show Decline of Arctic Perennial Sea Ice
    In fiscal year 2006, analysis of NASA data showed that Arctic 
perennial sea ice, which normally survives the summer melt season and 
remains year-round, shrank abruptly by 14 percent between 2004 and 
2005. According to researchers, the loss of perennial ice in the East 
Arctic Ocean neared 50 percent during that time as some of the ice 
moved from the East Arctic to the West. Researchers have long suggested 
that the icy surface of the Arctic's waters is retreating due to a 
warming climate. Sea ice functions as an indicator of changing water, 
air, and sea surface temperatures, and is important to the continued 
well-being of Arctic mammals such as polar bears. A research team that 
used NASA's QuikScat satellite to measure the extent and distribution 
of perennial and seasonal sea ice in the Arctic discovered that, while 
the total area of all the Arctic sea ice was stable in winter, the 
distribution of seasonal and perennial sea ice experienced significant 
changes. http://eospso.gsfc.nasa.gov/newsroom/viewStory.php?id=696

NASA Satellites Show Changes in Greenland and Antarctic Ice Sheets
    In the most comprehensive survey ever undertaken of the massive ice 
sheets covering both Greenland and Antarctica, NASA scientists 
confirmed that climate warming is changing how much water remains 
locked in Earth's largest storehouses of ice and snow. The survey 
showed a net loss of ice from the combined polar ice sheets between 
1992 and 2002 and a corresponding rise in sea level. The survey 
provided the first documentation of the extensive thinning of the West 
Antarctic ice shelves, an increase in snowfall in the interior of 
Greenland, and thinning at the edges. All these phenomena are 
indicators of a warming climate previously predicted by computer 
models.

NASA Scientists Uncover Lost Mayan Ruins
    Using remote sensing capabilities from satellites and NASA airborne 
instruments, researchers were able to locate Mayan architectural sites 
otherwise not visible in the dense jungle of Guatemala. Remote sensing 
instruments were able to detect changes in the local fauna indicative 
of the presence of Mayan buildings. Certain plant species were 
suppressed around building sites, while other plants were discolored 
due to changes in soil chemistry from the erosion of the buildings. 
http://eospso.gsfc.nasa.gov/newsroom/viewStory.php?id=651

Using Satellites to Predict Wildfires
    By observing plant conditions from space, researchers are able to 
predict when and where wildfires may occur. Plant moisture and the 
proportion of live to dead plant material, as measured by MODIS and 
AVIRS, provide strong indicators of the conditions favorable for 
wildfires. Such data can be assist operational agencies in their 
forecasting of fire potential across the United States. http://
www.nasa.gov/centers/goddard/news/topstory/2006/wildfire_threat.html

                                  2005

NASA Satellites Assist in Hurricane Katrina Recovery Efforts
    NASA's Earth-observing ``eyes in the sky,'' including Earth 
orbiting satellites, aircraft, and the International Space Station, 
provided detailed images of the flooding and devastation in areas 
affected by Hurricanes Katrina and Rita. NASA, along with academic 
institutions and partner agencies, worked to ensure that the Department 
of Homeland Security and the Federal Emergency Management Agency had 
the best available information to aid the rescue and recovery effort. 
The images and associated data helped characterize the extent of the 
flooding, the damage to homes, businesses, and infrastructure, and the 
potential hazards caused by the storms and their aftermath. http://
www.nasa.gov/mission_pages/hurricanes/main/index.html

NASA Satellites Assess the Impacts of the Indonesian Earthquake and 
        Tsunami
    The December 2004 Indonesian earthquake caused a massive tsunami to 
wash over 10 countries in South Asia and East Africa. NASA satellites 
were able to capture the effects of the earthquake and tsunami in this 
region. Using Earth observations from before and after the Indonesian 
earthquake, NASA scientists calculated that it slightly changed the 
planet's shape; the Earth's oblateness (flattening on the top and 
bulging at the equator) decreased by a small amount and the North Pole 
shifted by about 2.5 centimeters. The earthquake also increased the 
Earth's rotation and decreased the length of day by 2.68 microseconds. 
Physically, this is like a spinning skater drawing their arms closer to 
the body resulting in a faster spin. http://www.jpl.nasa.gov/news/
news.cfm?release=2005-009

Developing a Decision-support Capability in Central America
    Through NASA's Applied Sciences Program, scientists developed 
SERVIR, a regional visualization and monitoring system that integrates 
many different satellite data sets, forecast models, and ground-based 
observations in order to provide better information to policymakers and 
stakeholders on a range of issues including disaster management, 
agricultural development, biodiversity conservation and climate change. 
SERVIR serves communities in Central America by providing easily 
accessible customized visualization tools and services utilizing NASA 
data. Building on the success of SERVIR in Central America, NASA 
expanded SERVIR in 2008 to serve communities in East Africa. SERVIR-
Africa is primarily focused on applications related to disasters, 
health, and biodiversity. http://www.servir.net/

Measuring the Earth's Radiation Budget
    Using a combination of global climate models, ground-based 
measurements, and satellite observations, NASA researchers found that 
the Earth absorbs about 0.85 Watts of energy per square meter more than 
is radiated back to space. While some of this imbalance has led to 
increased global temperatures and snow and ice melt, a large portion of 
the energy is absorbed by the Earth's oceans making the overall effect 
to the Earth's temperature less than what would otherwise be expected. 
http://www.giss.nasa.gov/research/news/20050428/

Monitoring Sea Level
    Using a number of NASA satellites, including TOPEX/Poseidon, Jason, 
ICESat, and GRACE scientists were, for the first time, able to 
understand the rate at which the Earth's sea level is changed by 
establishing a reference sea level independent of land. Such 
information can be used not only to measure changes in sea level, but 
also can be used to identify the causes of those changes and their 
significance. For example, this information can be used to monitor the 
rate at which ice is growing or shrinking. http://www.nasa.gov/home/
hqnews/2005/jul/HQ_05175_sea_level_monitored.html

                                  2004

Black Soot and Snow--a Warmer Combination
    A NASA study found that emissions of soot, or black carbon, alter 
the way sunlight reflects off snow. A computer simulation indicated 
that soot may be responsible for as much as 25 percent of observed 
global warming over the past century. Soot on snow absorbs more of the 
Sun's energy and heat than icy, white backgrounds, which reflect the 
Sun's rays. With global warming, many snow- and ice-covered areas are 
already melting. As can be seen when glaciers and ice sheets melt, they 
tend to get dirtier as the soot becomes even more concentrated. Soot 
thereby adds to the warming effect as ice melts, making icy surfaces 
darker and absorbing more solar energy. Soot is generated from traffic, 
industrial pollution, outdoor fires, and household burning of coal and 
other fuels, and is the product of incomplete combustion. http://
www.giss.nasa.gov/research/news/20031222/

Satellites Used To Discover Chameleon Species New to Science
    NASA-supported biologists developed a modeling approach that uses 
satellite data and specimen locality data from museum collections to 
successfully predict the geographic distribution of 11 known chameleon 
species in Madagascar. The model also helped lead to the discovery of 
seven additional chameleon species new to science. The discovery shows 
that NASA satellite data and data from museum collections can help 
identify places to survey for new species of life, while locating areas 
likely to be of conservation importance. The study appeared in the 
December 2003 issue of the Nature journal and demonstrated that 
existing museum collections and satellite measurements of Earth's 
surface and climate hold great promise for the accurate prediction of 
species distributions. http://www.nasa.gov/vision/earth/livingthings/
lizards.html

Measuring the Lense-Thirring Effect
    The combined use of high-accuracy space geodetic tracking of the 
LAGEOS 1 and 2 satellites and GRACE gravity field data has validated 
the Lense-Thirring effect as predicted by Einstein's theory of General 
Relativity. As we have come to learn from Einstein, the gravity of 
massive objects warp the time and space continuum. This same theory 
also predicts that rotating massive objects drag this continuum with 
them; the Lense-Thirring effect calls this frame dragging. By carefully 
monitoring shifts in the position of the two LAGEOS spacecraft, 
researchers were able to identify anomalous motions consistent with 
those predicted by the Lense-Thirring effect. http://www.nasa.gov/
vision/earth/lookingatearth/earth_drag.html

Hurricanes Help Plants Bloom in ``Ocean Deserts''
    By measuring ocean color from the SeaWIFS instrument on the SeaStar 
satellite, scientists have found that ocean productivity increases in 
the wake of a hurricane over a 2-3 week period. The high winds 
associated with a hurricane help bring nutrients and phytoplankton to 
the ocean's surface, helping the plants to bloom. In addition, the 
scientists found that the larger the hurricane, the larger the 
resulting bloom. http://www.gsfc.nasa.gov/topstory/2004/
0602hurricanebloom.html
    Question. Isn't it true that we are relying on more and more 
satellite based assets for Earth science data? What is NASA doing to 
consider working with the commercial satellite sector for advancing 
Earth science missions?
    Answer. Space-based assets are essential for providing global, 
frequent, consistent and optimal resolution sampling to create the data 
sets that form the foundation for much Earth science research. NASA 
works with the commercial satellite sector to acquire spacecraft and 
launch services, and to some extent instruments, for these satellite 
assets. An example is our work with Orbital Sciences Corporation, a 
leading commercial satellite firm in all three areas, in the Glory 
mission.
    With respect to commercial satellite firms that develop and deploy 
their own satellite systems for communications or remote sensing, 
NASA's relationship is one of synergy. The commercial market for remote 
sensing, for example, is in imagery with a resolution of less than 2 
meters. NASA does not compete with the commercial sector in this area; 
we develop and operate remote sensing satellites with coarser 
resolution (but more frequent revisit times and tighter calibration). 
NASA and the commercial sector benefit from each other's efforts; NASA 
satellite data provides the contextual imagery that users of high-
resolution commercial satellites employ to aid in interpretation of 
higher resolution imagery.
    In limited instances, NASA is also able to purchase Earth science 
data from commercial satellite sources. The longest-running instance is 
NASA's involvement with the Sea-viewing Wide Field-of-view Sensor 
(SeaWiFS) instrument that flies aboard GeoEye's SeaStar spacecraft, 
which launched on August 1, 1997. NASA uses SeaWiFS to acquire data 
that are critical for the study of the role of the oceans in the 
Earth's biogeochemical process, especially the effect of the temporal 
and spatial variability in phytoplankton and their impact on the global 
carbon cycle. Under this arrangement, NASA provided approximately $30 
million up front to the development of the instrument, and maintained a 
close involvement with SeaWiFS since its inception, especially in the 
areas of algorithm development, calibration/validation, and archival 
and distribution of data for scientific research. Since 2005, NASA has 
had a contractual relationship with GeoEye for a large volume of space-
based multispectral imagery of the Earth from the SeaWiFS instrument.
    The future holds the prospect of more collaborative NASA/commercial 
satellite partnerships. The fiscal year 2011 budget request funds a new 
feature of the Venture class program--annual competitive solicitations 
for development of Earth observing instruments to fly on missions of 
opportunity. Coupled with the development of standard instrument-to-
spacecraft interfaces funded in the fiscal year 2011 budget, this will 
enable NASA to take advantage of rapidly-emerging opportunities for 
international and commercial partnership offers.

                             CYBER SECURITY

    Question. During fiscal years 2007 and 2008, NASA reported 1,120 
security incidents that resulted in unauthorized access to sensitive 
information. NASA has taken action to better defend against cyber 
attacks, but GAO recently concluded that NASA remains vulnerable. Basic 
IT security practices, such as using proper password protection, 
encrypting sensitive information and restricting access to privileged 
systems are not being implemented.
    Why has NASA neglected to fully implement its own information 
security program?
    Answer. In recent years, NASA has struggled with the paradox of 
using its budget to satisfy dated FISMA requirements and implementing a 
meaningful risk-based approach to securing NASA's information systems. 
An inordinate investment in compliance rather than a true understanding 
of risk fails to improve security and has placed NASA at greater risk 
of data loss, disruption to enterprise services, and disruption to 
mission operations.
    In the face of these challenges, and with limited resources, NASA 
has begun to implement the following capabilities to improve 
situational awareness and to operationalize compliance-based 
activities:
  --The Security Operation Center (SOC) centrally collects and analyzes 
        network monitoring and incident data to identify attack trends. 
        As a result of the SOC's initial operating capability, NASA has 
        discovered the great extent of network traffic that must be 
        monitored and the resources required to remediate incidents 
        across the agency.
  --The Cyber Threat Analysis Program (CTAP) identifies common and 
        advanced threats, vulnerabilities, and attack vectors in order 
        to develop risk profiles and mitigation solutions for the 
        agency. NASA is now increasingly aware of the alarmingly 
        advanced, persistent nature of the attacks against its 
        information systems, and of the resources required to detect 
        and respond to these attacks.
  --NASA's IT Security Enterprise Data Warehouse (ITSEC-EDW) will 
        provide a near-real-time inventory of all network assets, 
        including such security information as existing 
        vulnerabilities, patch status, anti-virus status, and 
        conformance to standard configurations (e.g., FDCC, USGCB). As 
        more data sources are integrated into ITSEC-EDW NASA will gain 
        a more complete view of its risk posture, and will become 
        capable of supporting automated continuous monitoring of the 
        agency's most critical security controls.
  --NASA's migration to the use of HSPD-12 compliant smart cards 
        further enhances the secure access to desktop and application 
        resources across the agency.
  --The IDMax portal ensures that secure account authorization to NASA 
        applications is established, controlled, and terminated as part 
        of the employee and contractor management processes. NASA must 
        now work to integrate additional applications into this portal.
    Additionally, NASA is working closely with the White House, the 
Federal CIO, Department of Homeland Security, Department of State, OMB, 
and public sector organizations such as the SANS Institute to further 
realize the benefits of a truly risk-based information security 
program. NASA's emphasis must clearly be to securely enable its mission 
by balancing risk with mission and business needs.
    NASA is working diligently to improve its information security 
programs and has made great strides toward a more complete approach.
    Question. How does NASA's fiscal year 2011 budget improve IT 
security when the request for ``IT Management'' drops from $28.6 
million to $16.1 million?
    Answer. In previous years, IT Security was captured under IT 
Management Project Reporting Activities (PRA) but during the budget 
formulation cycle for BY 2011, the OCIO reprogrammed its budget to 
better align functionalities and capabilities or the agency-wide IT 
service (AITS) projects to the PRA. Therefore, the IT Security programs 
originally budgeted under IT Management are being executed under 
Infrastructure to more accurately align NASA with Industry standards.
    The fiscal year 2011 IT Infrastructure budget, which includes IT 
Security, increases significantly due to the above mentioned 
realignment and also as AITS is focusing on improving IT security and 
efficiency, NASA is implementing new AITS contracts that consolidate or 
replace agency and center specific contracts. Currently, there are 
multiple approaches in place for funding for IT services across the 
NASA Centers making it difficult to efficiently execute critical IT 
services. Additionally, funding was transferred to AITS for 
transformation and renewal of the NASA IT network infrastructure at the 
NASA Centers. This IT initiative will mitigate IT security threats and 
vulnerabilities through network security zones and provide enterprise-
wide benefits of consolidated network management and monitoring, 
coupled with sufficient capacity and reliability to support increasing 
mission-related data transfer requirements.

                          FINANCIAL MANAGEMENT

    Question. Last year, Congress appropriated $18.7 billion for NASA, 
this subcommittee's largest account. GAO and the NASA inspector general 
have both recently reported that financial management at NASA continues 
to be a serious problem. Recent independent reviews by Ernst & Young 
have identified significant financial deficiencies at NASA that lead to 
delayed and inaccurate reporting.
    How has NASA met the IG's and GAO's recommendation for better 
financial management?
    Answer. As of September 30, 2009, NASA had one remaining material 
weakness related to legacy property, plant, and equipment, or PP&E, and 
two other significant, but not material, deficiencies. The first 
deficiency related to processes used to estimate NASA's Environmental 
Liability. The second deficiency related to a lack of substantial 
compliance with the Federal Financial Management Improvement Act of 
1996, resulting primarily from a lack of integration between NASA's 
real property system and its core financial system.
    NASA is working closely with the IG, GAO and the agency's auditors, 
Ernst & Young, to resolve these remaining weaknesses. NASA is working 
on three specific actions that directly address fiscal year 2009 
financial audit recommendations:
  --As encouraged by Ernst & Young, NASA is adopting a new accounting 
        standard, SFFAS No. 35, Estimating the Historical Cost of 
        General Property, Plant, & Equipment: Amending Statements of 
        Federal Financial Accounting Standards 6 and 23, that will help 
        to resolve the legacy PP&E material weakness. SFFAS No. 35 
        permits the agency to establish auditable estimates for those 
        legacy assets--particularly the International Space Station and 
        space shuttle, and real property--for which the agency does not 
        have the full historical cost records or for which it would not 
        be cost effective to recreate such records.
    NASA, in collaboration with the IG, GAO, and its auditor, is 
        working to establish the basis for reasonable estimates, the 
        approaches for implementing those bases, the information 
        required to support the resulting estimates, and the timeframe 
        within which the estimates can be generated.
  --NASA continues to utilize the agency's ongoing Continuous 
        Monitoring Program (CMP) to monitor and improve key financial 
        activities and controls. The CMP is a monthly process that 
        provides for robust and rigorous reviews to validate the 
        quality and sufficiency of information for key accounts and 
        accounting transactions. Changes in key processes are 
        accompanied by reviews and, if required, improvements in the 
        related CMP control activities.
  --NASA has integrated its real property asset financial records into 
        the core financial system's asset management module in fiscal 
        year 2010. This improves overall PP&E accounting, and addresses 
        the FFMIA weakness identified in the auditor's fiscal year 2009 
        Report on Internal Control.
    Today, using current systems and processes, NASA is able to track 
and control its funds, account for the costs related to individual 
programs and projects, and manage the agency's day-to-day operations. 
The agency is committed to resolving its remaining weakness and 
deficiencies as it continues to improve its financial management.
    Question. Please break out by program area, the 2010 and 2011 
budgets for civil servant salaries and expenses, travel and support 
service contractors, including a crosswalk by each NASA field 
installation and headquarters.
    Answer. For fiscal year 2010, we have provided budget for civil 
service salaries and expenses, travel and procurement by center at the 
mission level. The estimates are based on actual labor and travel costs 
through April 2010 with projections through the remainder of the fiscal 
year. At the agency level, NASA does not budget and account 
specifically for support contractors, but accounts for all contract and 
grant activities including support contractors, prime contractors, 
facilities and other items within the procurement line. Please note 
that the Headquarters Procurement funding estimate for 2010 includes 
approximately $500 million that has not yet been distributed to 
centers.

                                                    FISCAL YEAR 2010 APPROPRIATION FUNDING ESTIMATES
                                                                [In millions of dollars]
                                 [Projections based on costs through April 30 and budget distributions through June 23]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                               TOTAL    HQ \1\    ARC      GRC      LaRC     DFRC     GSFC     MSFC     SSC      JSC      KSC      JPL
--------------------------------------------------------------------------------------------------------------------------------------------------------
Science.....................................    4,448      388      180       39       80       65    2,173      139        3       21      266    1,094
    Labor...................................      277  .......       28       10       19       13      186       16        1        4  .......  .......
    Travel..................................       17        1        2        1        1        1        9        1  .......  .......  .......  .......
    Procurements............................    4,154      386      151       28       60       51    1,978      122        2       16      266    1,094
Aeronautics Research........................      500       43      107      128      164       56        2  .......  .......  .......  .......  .......
    Labor...................................      184  .......       38       55       75       16  .......  .......  .......  .......  .......  .......
    Travel..................................        6  .......        1        1        2  .......  .......  .......  .......  .......  .......  .......
    Procurements............................      310       43       67       72       86       40        2  .......  .......  .......  .......  .......
Exploration Systems.........................    3,757      107       98      133       92       39       31    1,279      106    1,660      169       43
    Labor...................................      445  .......       32       51       42        8        8      125        5      117       59  .......
    Travel..................................       20        2        2        2        2        1  .......        3  .......        6        1  .......
    Procurements............................    3,293      106       65       80       48       31       23    1,151      101    1,537      109       43
Space Operations............................    6,142      403       14       43        6        8      246      893       38    3,927      387      178
    Labor...................................      429  .......        3       15        2        1       21       61        8      217      101  .......
    Travel..................................       19        1  .......        1  .......  .......        1        3  .......        8        4  .......
    Procurements............................    5,694      401       11       27        4        7      224      829       30    3,701      281      178
Education...................................      180       60        7       14       16       15       49        3        1        8        5        2
    Labor...................................        3  .......  .......  .......  .......  .......  .......  .......  .......  .......  .......  .......
    Travel..................................        1  .......  .......  .......  .......  .......  .......  .......  .......  .......  .......  .......
    Procurements............................      177       60        6       14       16       15       48        3        1        8        4        2
Cross-Agency Supt...........................    3,193      415      255      277      323       72      495      433       64      453      381       25
    Labor...................................    1,204      190      100       87      116       37      242      143       21      148      120  .......
    Travel..................................       34        9        2        3        4        1        3        4        1        4        3  .......
    Procurements............................    1,954      216      153      187      202       35      250      286       42      301      259       25
CoF & ECR...................................      468       65       36       70       18       22       45       27       33       74       66       14
    Labor...................................  .......  .......  .......  .......  .......  .......  .......  .......  .......  .......  .......  .......
    Travel..................................  .......  .......  .......  .......  .......  .......  .......  .......  .......  .......  .......  .......
    Procurements............................      468       65       36       70       18       22       45       27       33       74       66       14
OIG.........................................       36       36  .......  .......  .......  .......  .......  .......  .......  .......  .......  .......
    Labor...................................       28       28  .......  .......  .......  .......  .......  .......  .......  .......  .......  .......
    Travel..................................        1        1  .......  .......  .......  .......  .......  .......  .......  .......  .......  .......
    Procurements............................        8        8  .......  .......  .......  .......  .......  .......  .......  .......  .......  .......
                                             -----------------------------------------------------------------------------------------------------------
      TOTAL.................................   18,724    1,517      697      704      697      277    3,041    2,774      245    6,143    1,273    1,356
          Labor.............................    2,570      218      201      218      254       74      458      346       35      486      280        0
          Travel............................       97       15        7        8       10        4       13       12        1       19        8        0
          Procurements......................   16,057    1,284      489      478      433      200    2,570    2,417      209    5,638      984    1,356
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ HQ Procurement funding includes approximately $500 million that has not yet been distributed to centers.

    For fiscal year 2011, we have provided a spreadsheet, attached, 
that shows how NASA civil service labor and expenses are proposed to be 
reallocated from the programs and projects for establishment of a new 
Civil Service Labor and Expenses theme. This information was submitted 
to the Committees on Appropriations by letter dated June 1, 2010. These 
estimates are based on centers' pricing analysis of total center FTE 
ceilings and their associated expenses, and inputs provided by the 
missions on the required civil service, travel and procurement 
requirements by project. Because of the competitive nature of many of 
the agency's projects across all missions and the uncertainty of which 
center may win the selection, NASA budgets these funds at NASA 
Headquarters until the completion of the selection process. These 
competitive selection processes limit the ability to provide complete 
budget data at the center by mission level for the civil service 
salaries and expenses, travel and procurement estimates that are 
requested.

----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal Year                   Updated Fiscal
                                                                   2011 Request   Labor Transfer     Year 2011
----------------------------------------------------------------------------------------------------------------
 
                             Science
 
Earth Science:
    Earth Science Research:
        Earth Science Research and Analysis.....................           324.6           -36.2           288.4
        Computing and Management................................           113.5            -7.1           106.4
                                                                 -----------------------------------------------
          Total, Earth Science Research.........................           438.1           -43.3           394.8
                                                                 ===============================================
    Earth Systematic Missions:
        Global Precipitation Measurement (GPM)..................           128.8           -17.1           111.7
        Glory Mission...........................................            21.9            -1.3            20.6
        Landsat Data Continuity Mission (LDCM)..................           156.8           -11.9           144.9
        NPOESS Preparatory Project (NPP)........................            64.4            -5.6            58.8
        Ice, Cloud, and land Elevation Satellite (ICESat-2).....            68.5           -12.2            56.3
        Soil Moisture Active and Passive (SMAP).................            82.5            -2.4            80.1
        Other Missions and Data Analysis........................           286.5           -27.8           258.7
                                                                 -----------------------------------------------
          Total, Earth Systematic Missions......................           809.3           -78.3           731.0
                                                                 ===============================================
    Earth System Science Pathfinder:
        Aquarius................................................            17.0            -0.4            16.6
        OCO-2...................................................           171.0  ..............           171.0
        Venture Class Missions..................................            79.5  ..............            79.5
        Other Missions and Data Analysis........................            36.2            -2.1            34.1
                                                                 -----------------------------------------------
          Total, Earth System Science Pathfinder................           303.8            -2.5           301.3
                                                                 ===============================================
Earth Science Multi-Mission Operations..........................           161.2            -7.3           153.9
                                                                 ===============================================
Earth Science Technology........................................            52.8            -6.3            46.5
                                                                 ===============================================
Applied Sciences: Pathways......................................            36.6            -3.5            33.1
                                                                 ===============================================
      Total, Earth Science......................................         1,801.8          -141.2         1,660.6
                                                                 ===============================================
Planetary Science:
    Planetary Science Research:
        Planetary Science Research and Analysis.................           131.0            -6.6           124.4
        Other Missions and Data Analysis........................            23.9            -2.3            21.6
        Education and Directorate Management....................             5.1            -0.3             4.8
        Near Earth Object Observations..........................            20.3  ..............            20.3
                                                                 -----------------------------------------------
          Total, Planetary Science Research.....................           180.4            -9.1           171.3
                                                                 ===============================================
    Lunar Quest Program:
        Lunar Science...........................................            74.7            -3.6            71.1
        Lunar Atmosphere and Dust Environment Explorer..........            57.9            -7.6            50.3
        International Lunar Network.............................             4.0            -1.5             2.5
                                                                 -----------------------------------------------
          Total, Lunar Quest Program............................           136.6           -12.7           123.9
                                                                 ===============================================
    Discovery:
        Gravity Recovery and Interior Laboratory (GRAIL)........           104.8            -0.1           104.7
        Other Missions and Data Analysis........................            97.2            -2.3            94.9
                                                                 -----------------------------------------------
          Total, Discovery......................................           202.0            -2.4           199.6
                                                                 ===============================================
    New Frontiers:
        Juno....................................................           184.2            -0.6           183.6
        Other Missions and Data Analysis........................            39.6            -1.5            38.1
                                                                 -----------------------------------------------
          Total, New Frontiers..................................           223.8            -2.1           221.7
                                                                 ===============================================
    Mars Exploration:
        2009 Mars Science Lab...................................           231.6            -0.5           231.1
        MAVEN...................................................           161.2            -6.5           154.7
        Other Missions and Data Analysis........................           140.0            -1.4           138.6
                                                                 -----------------------------------------------
          Total, Mars Exploration...............................           532.8            -8.3           524.5
                                                                 ===============================================
    Outer Planets...............................................           103.5            -2.1           101.4
                                                                 ===============================================
    Technology..................................................           106.5            -8.0            98.5
                                                                 -----------------------------------------------
      Total, Planetary Science..................................         1,485.7           -44.8         1,440.9
                                                                 ===============================================
Astrophysics:
    Astrophysics Research:
        Astrophysics Research and Analysis......................            60.2            -5.0            55.2
        Balloon Project.........................................            27.1            -4.0            23.1
        Other Missions and Data Analysis........................            68.7            -1.2            67.5
                                                                 -----------------------------------------------
          Total, Astrophysics Research..........................           156.1           -10.1           146.0
                                                                 ===============================================
    Cosmic Origins:
        Hubble Space Telescope (HST)............................           102.7            -3.6            99.1
        James Webb Space Telescope (JWST).......................           444.8           -23.3           421.5
        Stratospheric Observatory for Infrared Astronomy (SOFIA)            79.6           -12.6            67.0
        Other Missions and Data Analysis........................            60.6            -2.0            58.6
                                                                 -----------------------------------------------
          Total, Cosmic Origins.................................           687.7           -41.5           646.3
                                                                 ===============================================
    Physics of the Cosmos: Other Missions and Data Analysis.....           103.3            -6.0            97.3
                                                                 ===============================================
    Exoplanet Exploration: Other Missions and Data Analysis.....            42.5            -1.7            40.8
                                                                 ===============================================
    Astrophysics Explorer:
        Nuclear Spectroscopic Telescope Array (NuStar)..........            32.1            -0.4            31.7
        Gravity and Extreme Magnetism...........................            21.0            -5.3            15.7
        Other Missions and Data Analysis........................            33.6            -4.1            29.5
                                                                 -----------------------------------------------
          Total, Astrophysics Explorer..........................            86.7            -9.8            76.9
                                                                 ===============================================
          Total, Astrophysics...................................         1,076.3           -69.0         1,007.3
                                                                 ===============================================
Heliophysics:
    Heliophysics Research:
        Heliophysics Research and Analysis......................            31.7            -1.4            30.3
        Sounding Rockets........................................            48.9            -4.7            44.2
        Research Range..........................................            19.6            -1.5            18.1
        Other Missions and Data Analysis........................            66.7           -11.1            55.6
                                                                 -----------------------------------------------
          Total, Heliophysics Research..........................           166.9           -18.7           148.2
                                                                 ===============================================
    Living with a Star:
        Radiation Belt Storm Probes (RBSP)......................           140.0            -1.1           138.9
        Solar Probe Plus........................................            14.1            -0.6            13.5
        Other Missions and Data Analysis........................            60.2            -2.1            58.1
                                                                 -----------------------------------------------
          Total, Living with a Star.............................           214.3            -3.8           210.5
                                                                 ===============================================
    Solar Terrestrial Probes:
        Magnetospheric Multiscale (MMS).........................           143.8           -18.2           125.6
        Other Missions and Data Analysis........................            19.1            -1.3            17.8
                                                                 -----------------------------------------------
          Total, Solar Terrestrial Probes.......................           162.9           -19.5           143.4
                                                                 ===============================================
    Heliophysics Explorer Program:
        IRIS....................................................            69.0            -2.0            67.0
        Other Missions and Data Analysis........................            28.7            -1.8            26.9
                                                                 -----------------------------------------------
          Total, Heliophysics Explorer Program..................            97.7            -3.9            93.8
                                                                 ===============================================
    New Millennium..............................................             0.1  ..............             0.1
                                                                 ===============================================
      Total, Heliophysics.......................................           641.9           -45.8           596.1
                                                                 ===============================================
      Total, Science............................................         5,005.6          -300.8         4,704.8
                                                                 ===============================================
 
          Aeronautics and Space Research and Technology
 
Aeronautics Research:
    Aviation Safety.............................................            79.3           -33.4            45.9
    Airspace Systems............................................            82.2           -22.4            59.8
    Fundamental Aeronautics.....................................           228.5          -102.6           125.9
    Aeronautics Test............................................            76.4           -25.6            50.8
    Integrated Systems Research.................................           113.1           -20.6            92.5
                                                                 -----------------------------------------------
      Total, Aeronautics Research...............................           579.6          -204.6           375.0
                                                                 ===============================================
Space Technology:
    Early Stage Innovation:
        Space Technology Research Grants........................            70.0            -3.9            66.1
        NIAC Phase I and Phase II...............................             3.0            -0.5             2.5
        Center Innovations Fund.................................            50.0            -8.5            41.5
        SBIR/STTR...............................................           165.6            -7.3           158.3
        Centennial Challenges...................................            10.0  ..............            10.0
                                                                 -----------------------------------------------
          Total, Early Stage Innovation.........................           298.6           -20.2           278.4
                                                                 ===============================================
    Game Changing Technology:
        Game-Changing Developments..............................           123.6           -19.0           104.6
        Small Satellite Subsystem Technologies..................             6.0            -1.2             4.8
                                                                 -----------------------------------------------
          Total, Game Changing Technology.......................           129.6           -20.1           109.5
                                                                 ===============================================
    Crosscutting Capability Demonstrations:
        Technology Demonstration Missions.......................            75.0            -7.5            67.5
        Edison Small Satellite Demonstration Missions...........            10.0            -1.3             8.7
        Flight Opportunities....................................            17.0            -1.2            15.8
                                                                 -----------------------------------------------
          Total, Crosscutting Capability Demonstrations.........           102.0           -10.1            91.9
                                                                 ===============================================
    Partnership Development and Strategic Integration...........            42.0            -9.7            32.3
                                                                 ===============================================
      Total, Space Technology...................................           572.2           -60.2           512.0
                                                                 ===============================================
      Total, Aeronautics and Space Research and Technology......         1,151.8          -264.8           887.0
                                                                 ===============================================
 
                           Exploration
 
Exploration Research and Development:
    Technology Demonstration....................................           652.4          -111.1           541.3
    Heavy Lift and Propulsion Technology........................           559.0           -67.6           491.4
    Robotic Precursor Missions..................................           125.0           -31.0            94.0
    Human Research..............................................           215.0           -19.0           196.0
                                                                 -----------------------------------------------
      Total, Exploration Research and Development...............         1,551.4          -228.7         1,322.7
                                                                 ===============================================
Commercial Spaceflight:
    Commercial Cargo............................................           312.0            -5.3           306.7
    Commercial Crew.............................................           500.0           -18.5           481.5
                                                                 -----------------------------------------------
      Total, Commercial Spaceflight.............................           812.0           -23.8           788.2
                                                                 ===============================================
Constellation Transition........................................         1,900.0          -337.6         1,562.4
                                                                 ===============================================
Constellation Systems:
    Constellation Systems.......................................  ..............  ..............  ..............
    Commercial Crew and Cargo...................................  ..............  ..............  ..............
                                                                 ===============================================
Advanced Capabilities:
    Human Research Program......................................  ..............  ..............  ..............
    Exploration Technology Development..........................  ..............  ..............  ..............
    Lunar Precursor Robotic Program.............................  ..............  ..............  ..............
                                                                 ===============================================
      Total, Exploration........................................         4,263.4          -590.1         3,673.3
                                                                 ===============================================
 
                        Space Operations
 
Space Shuttle:
    Space Shuttle Program:
        Program Integration.....................................           284.8           -46.4           238.4
        Flight and Ground Operations............................           373.2           -21.8           351.4
        Flight Hardware.........................................           331.1           -15.3           315.8
                                                                 -----------------------------------------------
          Total, Space Shuttle..................................           989.1           -83.5           905.6
                                                                 ===============================================
International Space Station:
    International Space Station Program:
        ISS Operations..........................................         1,923.0          -173.2         1,749.8
        ISS Cargo Crew Services.................................           856.8  ..............           856.8
                                                                 -----------------------------------------------
          Total, International Space Station....................         2,779.8          -173.2         2,606.6
                                                                 ===============================================
Space and Flight Support (SFS):
    21st Century Space Launch Complex...........................           428.6           -13.7           414.9
                                                                 ===============================================
    Space Communications and Navigation:
        Space Communications Networks...........................           371.2           -19.4           351.8
        Space Communications Support............................            62.6            -4.9            57.7
        TDRS Replenishment......................................            19.0            -4.5            14.5
                                                                 -----------------------------------------------
          Total, Space Communications and Navigation............           452.9           -28.8           424.1
                                                                 ===============================================
    Human Space Flight Operations...............................           114.4           -28.7            85.7
                                                                 ===============================================
    Launch Services.............................................            78.9           -33.8            45.1
                                                                 ===============================================
    Rocket Propulsion Test......................................            44.3            -7.1            37.2
                                                                 ===============================================
    Crew Health and Safety......................................  ..............  ..............  ..............
                                                                 -----------------------------------------------
      Total, Space and Flight Support (SFS).....................         1,119.0          -112.1         1,006.9
                                                                 ===============================================
      Total, Space Operations...................................         4,887.8          -368.8         4,519.0
                                                                 ===============================================
 
                            Education
 
Higher Ed. STEM Education:
    STEM Opportunities (Higher Education).......................            16.9            -0.9            16.0
    NASA Space Grant............................................            27.7            -1.4            26.3
    Experimental Program to Stimulate Competetive Research......             9.3            -0.5             8.8
    Minority University Research & Education Program............            27.2            -1.4            25.8
    Global Climate Change Education.............................  ..............  ..............  ..............
                                                                 -----------------------------------------------
      Total, Higher Ed. STEM Education..........................            81.0            -4.2            76.8
                                                                 ===============================================
K-12 STEM Education:
    STEM Student Opportunities (K-12)...........................            46.1            -2.0            44.1
    STEM Teacher Development (K-12).............................            16.7            -0.7            16.0
    K-12 Competitive Educational Grant Program..................  ..............  ..............  ..............
                                                                 -----------------------------------------------
      Total, K-12 STEM Education................................            62.8            -2.7            60.1
                                                                 ===============================================
Informal STEM Education:
    Science Museums and Planetarium Grants......................  ..............  ..............  ..............
    NASA Visitor Centers........................................  ..............  ..............  ..............
    NASA Informal Education Opportunities.......................             2.0            -0.7             1.3
                                                                 -----------------------------------------------
      Total, Informal STEM Education............................             2.0            -0.7             1.3
                                                                 ===============================================
      Total, Education..........................................           145.8            -7.6           138.2
                                                                 ===============================================
 
                      Cross-Agency Support
 
Center Management and Operations:
    Center Institutional Capabilities...........................         1,776.1          -590.1         1,186.0
    Center Programmatic Capabilities............................           494.0          -346.8           147.2
                                                                 -----------------------------------------------
      Total, Center Management and Operations...................         2,270.2          -936.9         1,333.3
                                                                 ===============================================
Agency Management and Operations:
    Agency Management...........................................           432.0          -244.4           187.6
                                                                 ===============================================
    Safety and Mission Success:
        Safety and Mission Assurance............................            49.0           -11.9            37.1
        Chief Engineer..........................................           103.6           -40.6            63.0
        Chief Health and Medical Officer........................             4.1  ..............             4.1
        Independent Verification and Validation.................            45.0            -5.0            40.0
                                                                 -----------------------------------------------
          Total, Safety and Mission Success.....................           201.6           -57.5           144.1
                                                                 ===============================================
    Agency IT Services (AITS):
        IT Management...........................................            16.1            -0.5            15.6
        Applications............................................            79.1            -8.6            70.5
        Infrastructure..........................................            82.6            -3.6            79.0
                                                                 -----------------------------------------------
          Total, Agency IT Services (AITS)......................           177.8           -12.7           165.1
                                                                 ===============================================
    Strategic Capabilities Assets Program:
        Simulators..............................................            11.7            -4.8             6.9
        Thermal Vacuum Chambers.................................             8.4            -1.8             6.7
        Arc Jets................................................             9.7            -2.6             7.2
                                                                 -----------------------------------------------
          Total, Strategic Capabilities Assets Program..........            29.8            -9.1            20.7
                                                                 ===============================================
          Total, Agency Management and Operations...............           841.2          -323.7           517.5
                                                                 ===============================================
Civil Service Labor and Expenses................................  ..............         2,792.6         2,792.6
                                                                 ===============================================
Congressionally Directed Items..................................  ..............  ..............  ..............
                                                                 ===============================================
      Total, Cross-Agency Support...............................         3,111.4         1,532.0         4,643.4
                                                                 ===============================================
 
    Construction and Environmental Compliance and Restoration
 
Construction of Facilities:
    Institutional CoF...........................................           280.8  ..............           280.8
    Science CoF.................................................            40.5  ..............            40.5
    Exploration CoF.............................................  ..............  ..............  ..............
    Space Operations CoF........................................            14.0  ..............            14.0
                                                                 -----------------------------------------------
      Total, Construction of Facilities.........................           335.2  ..............           335.2
                                                                 ===============================================
Environmental Compliance and Restoration........................            62.1  ..............            62.1
                                                                 ===============================================
      Total, Construction and Environmental Compliance and                 397.3  ..............           397.3
       Restoration..............................................
                                                                 ===============================================
                        Inspector General
 
IG Program
    Inspector General...........................................            37.0  ..............            37.0
                                                                 ===============================================
      Total, NASA Fiscal Year 2011..............................        19,000.0  ..............        19,000.0
----------------------------------------------------------------------------------------------------------------

    Question. Why has NASA failed to comply with the subcommittee's 
repeated directives to provide more budget detail in the Congressional 
justifications like is submitted by the DOD and individual military 
services in their R-2 documentation as part of their budget 
justifications?
    Answer. NASA is not aware of repeated directives to provide more 
budget detail in the Congressional justifications like is submitted by 
the DOD and individual military services. NASA provides information 
that is comparable to the DOD R-2 documentation for all of NASA's 
projects in formulation and development within the Congressional 
Justification Budget book. Both the formulation and development 
sections in the Congressional Justification book provide descriptions 
of the project's purpose, parameters, deliverables, schedule 
commitments, budget trace from previous years President's budget 
submission, a description of project management, acquisition strategy 
and independent reviews which far exceed documentation requirements for 
R-2. In addition, the projects in development sections contain 
additional information for explanation of project changes, project 
commitments, development cost and schedule summary, development cost 
details and project risk management.
                       nasa-sponsored conferences
    Question. Starting in 2008, this subcommittee asked NASA's 
Inspector General (IG) to examine the costs NASA was spending on its 
conferences. In a report released on March 23, the IG found that NASA 
had failed to follow NASA and Government guidelines regarding 
conference planning, resulting in excessive travel and food and 
beverage costs.
    At one conference, the IG found that NASA spent $66 per person per 
day on coffee, fruit, cookies, and bagels. Ironically, this was the 
same conference put on for NASA procurement officials whose job is to 
spend the Government's money wisely.
    Do you think this was a reasonable and appropriate expense?
    Answer. We agree that $66 per civil servant would have been 
excessive for light refreshments alone. However, that was not the case 
with the Procurement Training Conference, since the price for food and 
beverages (F&B) was part of a package deal that included hotel meeting 
rooms at no additional charge. This bundling of facility rentals and 
services like F&B is a common practice, and hotels will regularly 
discount or omit charges for meeting rooms when a minimum level of 
services and occupancy are procured. All of the other hotels reviewed 
as potential sites for the Procurement Training Conference offered 
similar, but more expensive, bundled rates for F&B and meeting room 
charges.
    If you compare this to another meeting NASA recently held in 
Annapolis, Maryland, the per person charge for meeting rooms was almost 
as high as the per person charge for meeting rooms plus refreshments 
(bundled) at the Procurement Training Conference. A competitive 
comparison used to plan the Annapolis conference showed that rates in 
Annapolis and Baltimore hotels for facilities rental alone ranged from 
$20,570 to $45,000, for a meeting one-third the size, as compared to 
the bundled F&B/facilities charge of $62,611 for the Procurement 
Training Conference. Thus, per person charges for facilities rental 
plus F&B for the Procurement Training Conference ($65.84) were only 
slightly higher than per person charges in the Baltimore/Annapolis area 
quoted for hotel meeting room rentals alone ($61.22). The Baltimore/
Washington area is expensive, but there are advantages to holding some 
events in this area. In conclusion, the comparison shows that charges 
for the Procurement Training Conference appear to have been reasonable 
all circumstances considered.
    Question. How will NASA meet the IG's recommendation for better 
financial management in its conference planning?
    Answer. NASA's IG noted in its report that the Procurement Training 
Conference was held prior to the issuance of NASA's revised conference 
policy, NASA Interim Directive (NID) 9312.1, on January 12, 2009. In 
the past year NASA has implemented a number of process improvements and 
issued two updates to NID 9312, the most recent being issued on April 
23, 2010. With each iteration, NASA has improved its ability to track 
and report on conferences, and increased the level of detail required 
for approval of a NASA Sponsored Conference. A key focus for the 
changes in the first two versions of NID 9312 was on insuring that NASA 
did not exceed the Congressionally mandated $5 million cap on fiscal 
year 2009 conference spending and 50 person limit on foreign conference 
attendance. A new NASA Conference Tracking System was implemented to 
automate key parts of this process in conjunction with use of NASA's e-
Travel systems. With the most recent update to NID 9312 and its revised 
reports, NASA has incorporated all the further recommendations made by 
the IG in its March 23, 2010 report. Among other enhancements relating 
to NASA Sponsored Conferences, approval is now required in advance for 
any Government furnished meals or snack/refreshment service, and NASA 
now specifically requires written justification and senior level 
approval (Center Director or equivalent) for charges in excess of 33 
percent M&IE for light refreshments.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein

                                OVERVIEW

    Question. Like many of my colleagues on this subcommittee, I was 
encouraged by the administration's new vision for NASA. The bold 
decision to eliminate the Constellation program will enable NASA's to 
dedicate the necessary resources to develop the required technologies 
for manned spaceflight beyond low-earth orbit and the moon. I believe 
that this is an appropriate role for NASA, and I share the Presidents 
belief that these changes will also create jobs and benefit the 
domestic U.S. space industry as a whole.
    However, the President's budget and his justification lacked 
specificity. Specifically, the budget was lacking details in three 
critical areas: astronaut and rocket safety, preservation of strategic 
industrial capacities, and exploration timelines.

                                 SAFETY

    Proponents of the Constellation program believe that the Ares 
rocket is a proven rocket that meets higher safety standards than the 
private rockets which the President proposes to use to ferry astronauts 
and cargo to the International Space Station in the coming years.
    Is the Ares I a safer rocket than the Falcon 9 or Taurus II?
    Answer. Ares I was designed to be the safest crew vehicle ever 
flown, but that was based on modeling probabilistic risk analysis 
(PRA). When referring to safety records, it is best to speak in terms 
of demonstrated safety records. Although NASA and SpaceX have both 
launched test flights--NASA's Ares I-X suborbital flight and SpaceX's 
inaugural Falcon 9 orbital flight (a non-NASA flight), these test 
flights do not equate to a demonstrated safety record. Neither vehicle 
has entered its operational phase and hence neither vehicle has a 
demonstrated safety record. As such, NASA does not have any 
documentation about the Falcon 9's safety record or PRA that it can 
provide to the subcommittee at this time.
    Question. Will NASA safety standards be relaxed to accommodate the 
private companies who are developing rockets for NASA?
    Answer. Safety is and always will be NASA's first core value, so we 
will provide significant--but not intrusive--oversight over any 
commercial venture, whether it be cargo or commercial. NASA will have 
equivalent safety standards for commercial crew. At no point in the 
development and acquisition of commercial crew transportation services 
will NASA compromise crew safety. NASA has unique expertise and history 
in this area, and a clearly demonstrated record of success. NASA will 
bring that experience to bear in the appropriate way to make sure that 
commercial crew transportation services are a success both 
programmatically, and with respect to safety. Simply put, U.S. 
astronauts will not fly on any spaceflight vehicle until NASA is 
convinced it is safe to do so.
    Question. What oversight will NASA conduct to ensure that high 
standards are set for crew and cargo safety in privately owned NASA 
space launch vehicles?
    Answer. As noted in the above response, safety is and always will 
be NASA's first core value, so we will provide significant--but not 
intrusive--oversight over any commercial venture, whether it be cargo 
or commercial.
    For example, NASA has a Commercial Orbital Transportation Services 
(COTS) Advisory Team comprised of approximately 100 NASA technical 
experts from across the agency. These experts work with our partners 
and review partner technical and programmatic progress for each 
milestone and provide progress assessments to NASA's Commercial Crew 
and Cargo Program Office. Additionally, they participate in all major 
design reviews providing technical review comments back to our 
partners. The advisory team provides another method by which NASA gains 
confidence that our partners will be able performs their flight 
demonstrations.
    One of the strengths of the COTS venture is that companies are free 
to do what they do best, that is developing truly unique spaceflight 
vehicles using innovative processes that are not available within the 
Federal bureaucratic framework. NASA provides requirements that they 
must meet and we ensure that they have met those requirements, but we 
try not to dictate how they meet those requirements. For example, each 
COTS partner must successfully verify compliance with a detailed set of 
ISS interface and safety requirements prior to their planned ISS 
berthing missions. These requirements are imposed on all visiting 
vehicles wishing to visit to the ISS. Both COTS partners are currently 
working with the ISS program on a daily basis to ensure they meet the 
ISS visiting vehicle requirements. This also helps to give NASA 
independent insight into their progress and it builds confidence in 
their abilities.
    With regard to commercial crew, at no point in the development and 
acquisition of commercial crew transportation services will NASA 
compromise crew safety. Simply put, U.S. astronauts will not fly on any 
spaceflight vehicle until NASA is convinced it is safe to do so. NASA 
has unique expertise and history in this area, and a clearly 
demonstrated record of success in transporting crew. NASA will bring 
that experience to bear in an appropriate way to make sure that 
commercial crew transportation services are a success both 
programmatically, and with respect to safety. At no point in the 
development and acquisition of commercial crew transportation services 
will NASA compromise crew safety. For example, NASA will have in-depth 
insight of the vehicle design via NASA personnel who are embedded in 
the contractor's facility. Additionally, NASA will impose strict 
requirements and standards on all providers that will be carefully 
evaluated and reviewed at multiple stages before a vehicle system is 
certified by NASA for crewed flight.
    Question. Will the Aerospace Safety Advisory Committee have the 
access and authority it needs to review/suggest modifications to new 
launch vehicles prior to NASA missions?
    Answer. The Aerospace Safety Advisory Panel will be provided access 
to review new launch vehicles development to the same level that NASA 
has access and the Aerospace Safety Advisory Panel will continue to 
have the authority to make recommendations or suggestions to NASA 
concerning the launch vehicles.

            PRESERVATION OF STRATEGIC SOLID ROCKET CAPACITY

    Question. In an interview with Deputy Undersecretary of the Air 
Force for Space Programs Gary Payton, published in Space News on April 
19, 2010, Deputy Undersecretary Payton concluded that the President's 
new direction for NASA would have a small, but manageable, impact on 
Navy and Air Force ballistic missiles, and only a ``trivial impact'' on 
DOD space launch capacity. Do you share Deputy Undersecretary Payton's 
conclusions? Will the President's new direction for NASA undermine the 
ability for the Department of Defense to conduct meaningful space and 
missile programs?
    Answer. I share the view that the President's direction will not 
undermine DOD's ability to conduct meaningful space programs. I believe 
that we have to rely upon the assessment of DOD's leadership on this 
matter, and I do. I also recall General Kehler, Commander of Air Force 
Space Command, stating in a recent hearing that, while he saw the 
potential for some challenges regarding solid rocket motors, those 
challenges would be manageable. At the same time, my colleagues in DOD 
have stated that the investment that NASA plans in terms of research 
and development for a new liquid engine is a good opportunity in which 
DOD would very much like to collaborate. They see that as a good 
opportunity for the country going forward. DOD also sees our plans to 
improve launch infrastructure as a mutually beneficial one. We 
similarly see potential benefits to national security from some of our 
COTS and technology investments. NASA and DOD work closely on the 
management of the National government space enterprise, and discussions 
are under way at all levels about ensuring we carefully consider and 
maintain the space industrial base that supports both our civil and 
national security needs.
    Question. With the wind-down of the space shuttle program already 
disrupting the job market in the aerospace industry, what additional 
disruption do you expect to occur in the aerospace job market as a 
result of the termination of the Constellation program?
    Answer. The President's fiscal year 2011 budget request for NASA is 
$19.0 billion, which represents an increase of $276.0 million above the 
amount provided for the agency in the fiscal year 2010 Consolidated 
Appropriations Act (Public Law 111-117), and an increased investment of 
$6.0 billion in NASA science, aeronautics, human spaceflight and 
enabling space technologies over the next 5-years compared with last 
year's budget plan. The President's strategy and accompanying funding 
increase means more jobs for the country, more astronaut time in space, 
and more investments in innovation. NASA has initiated planning 
activities to be able to effectively and efficiently implement these 
new activities in a timely manner upon enactment of the fiscal year 
2011 budget.
    The proposed changes to the human spaceflight program in the fiscal 
year 2011 budget request will have an impact on civil service and 
contractor workforce planning. While NASA is not planning reductions to 
the civil service workforce, the nature of the work done by the civil 
service workforce would change under the President's fiscal year 2011 
budget plan. NASA has also made preliminary program assignments across 
the Centers for new or extended activities proposed in the fiscal year 
2011 budget, helping to clarify the work opportunities for contractors 
under the proposed portfolio and preparing NASA to execute the work 
content.
    Also in fiscal year 2011, NASA will provide up to $100 million from 
within the funds requested for the National Aeronautics and Space 
Administration's Exploration account to develop a plan to spur regional 
economic growth and job creation along the Florida Space Coast and 
other affected areas. This workforce plan furthers the administration's 
bold new course for human space flight, which revitalizes NASA and 
transitions to new opportunities in the space industry and beyond.
    In 2009, NASA established the Space Shuttle Transition Liaison 
Office (SSTLO) in response to direction in the NASA Authorization Act 
of 2008 (Public Law 110-422). The agency was directed to assist local 
communities affected by the termination of the space shuttle program by 
offering non-financial, technical assistance to the identified 
communities and to identify services available from other Federal, 
State, and local agencies to assist in such mitigation. NASA is working 
diligently to determine how best to leverage these efforts to support 
the transition resulting from the proposed cancellation of 
Constellation. Specifically, the Office:
  --Serves as a clearinghouse by gathering and disseminating 
        information to the affected communities about opportunities 
        available through other Federal, State, and local agencies; and
  --Serves as a key point of contact for the community beyond NASA for 
        information about how the agency is working with local 
        communities to provide non-financial, technical assistance 
        during transition.
    Question. What steps will NASA take to ensure that the job market 
disruptions caused by the termination of both the space shuttle and 
Constellation programs in fiscal year 2011 do not cause a long term 
brain-drain in the United States or hurt the long term viability of the 
domestic space industry?
    Answer. The President's fiscal year 2011 budget request and plans 
articulate a strong commitment to NASA's mission and future U.S. human 
space exploration. NASA will ensure continuous American presence in 
space on the International Space Station (ISS) throughout this entire 
decade and likely beyond, re-establish a robust and competitive 
American launch industry, launch more robotic probes into our solar 
system as precursors for human activity, invest in a new heavy lift 
research and development (R&D) program, and build a technological 
foundation for sustainable, beyond-LEO exploration, with more capable 
expeditions in lunar space, and human missions to near-Earth asteroids, 
the Moon, Lagrange points, and, ultimately, Mars. NASA will embark on 
these transformative initiatives by partnering with the best in 
industry, academia and other government agencies, as well as with our 
international partners.
    Many positive outcomes are likely from a long-term NASA advanced 
space systems concepts and technology development program, including a 
more vital and productive space future than our country has today, a 
means to focus NASA intellectual capital on significant national 
challenges and needs, a spark to renew the Nation's technology-based 
economy, an international symbol of our country's scientific and 
technological leadership, and a motivation for many of the country's 
best young minds to enter into educational programs and careers in 
engineering and science.
    NASA has initiated planning activities to be able to effectively 
and efficiently implement these new activities in a timely manner upon 
Congressional enactment of the fiscal year 2011 budget. On April 7, 
NASA outlined the agency's planned major program assignments across the 
agency's centers for new or extended activities proposed as part of the 
President's fiscal year 2011 budget request. These planned assignments 
build on the deep knowledge and expertise that NASA has built up over 
five decades, recognize the wealth of experience, commitment, and 
expertise resident at the NASA Centers, and expand upon the strengths 
at each center. The establishment of program offices and initiation of 
effort in support of new or extended activities for this proposed new 
work is contingent upon congressional approval of the President's 
fiscal year 2011 request for these activities. These planned program 
assignments will enable NASA to engage workforce at the agency's 
centers in formulation activities and planning activities to minimize 
disruption in the job markets.

                         EXPLORATION TIMELINES

    Question. The President's budget and justification do not include a 
timeline with set benchmarks and destinations. I believe that these 
goals are necessary, and that they will help drive the important work 
being done at NASA. Will you please elaborate on when NASA will be able 
to accomplish the following tasks under the President's proposal, and 
under the program of record?
    After the shuttle retires, when will NASA be able to re-supply the 
Space Station with cargo? If the Constellation program is continued, 
when would the United States be able to resupply cargo to the ISS?
    Answer. Whether or not the Constellation program is continued, NASA 
plans to rely on U.S. industry to re-supply the International Space 
Station (ISS) with cargo after the space shuttle retires. NASA 
anticipates that the first two such flights under the Commercial 
Resupply Services (CRS) contracts will be in July and October 2011. The 
agency can also continue its use of Russian Progress cargo spacecraft 
through the end of calendar year 2011, in the event the CRS vehicles 
are delayed.
    Under Constellation--the Program of Record--the Orion Crew 
Exploration vehicle was not designed to carry cargo to the ISS. Rather, 
NASA was planning to depend on commercial cargo providers to resupply 
the ISS, along with international partners.
    Question. After the shuttle retires, when will NASA be able to 
carry astronauts to the space station? If the Constellation program is 
continued, when would the United States be able to transport astronauts 
to the ISS?
    Answer. After the retirement of the space shuttle, NASA will 
continue its use of the Russian Soyuz spacecraft for crew 
transportation and rescue services for U.S., European, Japanese, and 
Canadian ISS astronauts until a U.S. commercial crew transportation 
system becomes available, possibly as early as 2015.
    The Augustine Committee noted that commercial crew launch service 
could be in place by 2016. Estimates provided to the Augustine 
Committee by potential providers said commercial crew services could be 
in place 3 to 5 years from the point of funding.
    Under the Program of Record and based on fiscal year 2010 funding 
constraints, NASA can no longer achieve an Initial Operational 
Capability (IOC) for Ares I and Orion--the first crewed flight to the 
ISS--in March 2015. The Augustine Committee concluded that, were the 
ISS to be deorbited in 2015, IOC could take place in the mid-late 
2010s.
    Under the proposed fiscal year 2011 budget request, NASA is 
targeting 2015 as the start of commercial-crew transportation services, 
with development efforts beginning in 2011.
    Question. When will NASA be able to carry astronauts beyond low 
earth orbit under the President's plan? If the Constellation program is 
continued, when will U.S. astronauts be able to leave low earth orbit?
    Answer. Under the proposed fiscal year 2011 budget, NASA plans to 
develop the technologies that would allow NASA to support manned 
beyond-LEO missions in the mid-2020 timeframe, if funding was later 
provided for such missions as part of later budget cycles.
    The Augustine Committee concluded that the Program of Record, 
constrained to the fiscal year 2010 budget profile, would be capable of 
crewed missions beyond low Earth orbit in the late 2020s and a lunar 
landing well into the 2030s. In support of that committee, NASA 
estimated that the Constellation Program of Record, could deliver a 
crewed lunar mission by 2020 using Orion, Ares I, Altair, Ares V, and 
supporting elements, for $109 billion since the inception of the 
Constellation Program. Of this $109 billion since inception, $96.7 
billion would be required in fiscal year 2011 and out.
    Question. When will NASA astronauts reach the Moon under the 
President's proposal? When would astronauts be able to reach the Moon 
under the program of record?
    Answer. Please see the above response for an answer to the human 
lunar return date under the current program of record.
    Under the President's fiscal year 2011 budget request, NASA would 
build technologies with the goal of supporting a sequence of deep-space 
destinations matched to growing capabilities, progressing step-by-step, 
beginning with crewed flight tests--perhaps a circumlunar mission--
early next decade of vehicles for human exploration beyond LEO, a human 
mission to an asteroid by 2025, and a human mission to orbit Mars and 
return safely to Earth by the 2030s. A date for a manned lunar mission, 
however, has not been established.
    NASA also plans to send precursor robotic missions to candidate 
destinations such as the Moon, thus paving the way for later human 
exploration of the Moon, Mars and its moons, and nearby asteroids. Like 
the highly successful Lunar Reconnaissance Orbiter and Lunar Crater 
Observation and Sensing Satellite missions that captured the Nation's 
attention last fall, future exploration precursor missions will scout 
locations, gather key knowledge and demonstrate technologies to 
identify the most compelling and accessible places to explore with 
humans and validate potential approaches to get them there and back 
safely. These missions will provide vital information--from soil 
chemistry to radiation dose levels to landing site scouting to resource 
identification--necessary to plan, design and operate future human 
missions. These missions will help us determine the next step for crews 
beyond LEO, answering such questions as: Is a particular asteroid a 
viable target for crewed mission? Do the resources at the lunar poles 
have the potential for crew utilization? Is Mars dust toxic? NASA plans 
to begin funding at least two dedicated precursor missions in fiscal 
year 2011, and to identify potential future missions to begin in fiscal 
year 2012 and/or 2013.
    Additionally, a new portfolio of explorer scouts will execute 
small, rapid turn-around, highly competitive missions to exploration 
destinations. Generally budgeted at between $100-$200 million lifecycle 
cost, these missions will allow NASA to test new and innovative ways of 
doing robotic exploration of destinations of interest to future human 
exploration. Selected projects may provide multiple small scouting 
spacecraft to investigate multiple possible landing sites, or provide 
means of rapid-prototyping new spacecraft approaches.
    Question. When will NASA astronauts reach Mars under the 
President's proposal? When would astronauts be able to reach Mars under 
the program of record?
    Answer. Based on the information provided to the Augustine 
Committee, as outlined in the above response, NASA estimated that the 
Program of Record could achieve a manned Mars mission in the 2030s. 
While the Augustine Committee noted that Mars should be the ultimate 
destination for human exploration, it did not provide a specific date 
for when such a mission could be achieved by the Program of Record or 
under any of the options the committee developed. Under the proposed 
fiscal year 2011 budget, NASA plans to develop the technologies that 
would allow NASA to support a manned Mars mission in the 2030s, as part 
of a sustainable beyond-LEO human exploration program.
    Question. The President stated in his April 13, 2010 speech at 
Kennedy Space Center that the plan to utilize the commercial space 
industry for low earth orbit missions has the potential to save the 
American taxpayer money. How much do you expect the shift toward 
private industry handling low earth orbit services to save American 
taxpayers?
    Answer. NASA anticipates that industry, through increased 
efficiencies will be able to provide human space transportation to low-
Earth orbit (LEO) at a lower cost than would be possible through the 
use of Government-operated transportation systems, though the magnitude 
of the savings is not known at this time. In addition to making space 
travel more accessible and more affordable, the agency believes that an 
enhanced U.S. commercial space industry will create new high-tech jobs, 
leverage private sector capabilities and energy in this area, and spawn 
other businesses and commercial opportunities, which will spur growth 
in our Nation's economy.
                                 ______
                                 
          Questions Submitted by Senator Kay Bailey Hutchison

      COMMERCIAL SPACE FLIGHT INITIATIVE AND ISS ACCESS AND SAFETY

    Question. In your response to my question at the hearing, you said 
that you agree that if there were an accident with the Soyuz, either 
with the launch vehicle on ascent or the crew module on descent, which 
were serious enough to ground the Soyuz for an extended period of time 
while an accident investigation were completed and any necessary 
changes made, that same Soyuz vehicle would be the only vehicle 
astronauts could use to evacuate the ISS.
    How long would it be before the six-person crew still aboard the 
ISS would have to evacuate?
    Answer. In addition to providing crew rotation capabilities, the 
Soyuz vehicle also plays a critical role as the crew rescue vehicle. 
The Soyuz is currently the only vehicle that can provide this function 
for ISS expeditions, as it is the only vehicle that remains on-orbit 
for extended periods of time and provides emergency crew return 
capability. As explained in detail below, should there be a stand-down 
on Soyuz launches, NASA and its International Partners would have 2-4 
months to understand the Soyuz issue and to resolve it before the ISS 
would need to be de-crewed.
    Should there be an incident which results in Soyuz vehicles being 
grounded, there are several factors involved in determining the 
timeframe in which to downsize the ISS crew or de-crew the ISS. For 
this scenario, these factors include Soyuz spacecraft life and the 
length of time the on-orbit crew has been on board ISS.
    The Soyuz spacecraft maximum mission duration is 200 days (vehicle 
launch to vehicle landing), due to systems certification. Mission 
duration beyond 200 days exceeds the certified lifetime of the vehicle 
and is not recommended.
    Based on a myriad of health factors, including radiation exposure 
and other biomedical factors, a continuous on-orbit limit of 220 days 
for crewmembers has been established. Crew rotations are planned so 
that no crewmember is on-orbit longer than 220 days at a time. Should a 
reduction in crew size or de-crewing of the ISS be necessary, NASA and 
the ISS International Partners have developed guidelines and a timeline 
for an orderly de-crewing of the ISS. In general, the procedures for 
the reduction in crew size or de-crewing of ISS begin 15 days prior to 
the departure of the Soyuz and involve configuring the ISS for an 
extended period of unmanned operations.
    Indirect handovers are planned to most effectively utilize the ISS 
resources and ground support operations. ISS docking port availability 
and utilization requires that a Soyuz vehicle depart prior to its 
replacement arriving at ISS. Russian assets are utilized to support 
both a Soyuz landing and a Soyuz launch, including the contingency 
support should an abort occur during launch. The availability of these 
resources and time required to support both events dictate a 2-week 
interval between a Soyuz landing and the subsequent launch of its 
replacement vehicle.
    Moreover, typical spacing between Soyuz launches is a minimum of 2 
and a maximum of 4 months. If a problem arose with a Soyuz launch, the 
on-orbit Soyuz would have 2-4 months of life remaining. Therefore, NASA 
and its International Partners would have 60-120 days to understand the 
Soyuz issue and to resolve it before the ISS would need to be de-
crewed.
    Question. Under this scenario, how will NASA determine if it is 
safe for astronauts escaping or otherwise departing the station to use 
versions of the same vehicle that just suffered an accident or failure 
significant enough to ground the entire Soyuz fleet?
    Answer. NASA and Roscosmos (and its major contractors) have 
developed over the years a close working relationship in regard to 
safety and flight worthiness. As demonstrated by the Soyuz separation 
anomaly resolution, Roscosmos shared with NASA in-depth information 
about the design and safety of the Soyuz in a timely manner in order to 
assess the re-entry risk to the crew. In the event of a grounding of 
the Soyuz launch vehicle and spacecraft, NASA fully expects that 
Roscosmos will again share vital data that are necessary to ensure the 
safety of our crew.
    Question. If, in this scenario, the ISS crew had to abandon the 
station, how long could the untended ISS remain viable in a minimal 
state of ground-controlled automated activity, before its orbit might 
deteriorate or systems might begin to fail without crew maintenance, to 
the point it would be irretrievable or impossible to reactivate once 
the Soyuz were able to fly again?
    Answer. NASA has plans and procedures in place for the crew to take 
necessary measures to configure the ISS platform in order to maintain 
safe untended operations for an extended period. Among the tasks the 
crew would perform would be to configure the ISS for a minimum power 
usage and close all hatches. The ISS systems that are needed to 
maintain a stable and viable vehicle are robust in their ability to 
perform even after failures and anomalies. Key systems such as the 
electrical power system; guidance, navigation and control; 
communications; and active propulsion have multiple layers of 
redundancy. The ISS could also be boosted to a higher orbit to maintain 
sufficient altitude without a risk of re-entry for several years.
    Question. Given the seriousness of this very plausible and possible 
scenario, it is of great concern to me that answers to these questions 
are not clearly available and have not been fully addressed before the 
decision was made to launch the country on this path for human space 
flight, with only a single life-line to and from to the International 
Space Station for any period of time.
    Please explain why these contingencies have not been fully--and 
satisfactorily--addressed before the fiscal year 2011 budget and the 
new plan for human space flight was adopted by the administration?
    Answer. The reliance of the ISS partners on a single crew 
transportation system (Soyuz) for a period of time between the 
retirement of the space shuttle and the development of a follow-on 
system was established years ago when it was determined to retire the 
shuttle at the completion of ISS assembly. NASA cannot simultaneously 
fund continuing shuttle operations while developing the next generation 
U.S. human space flight program, so a period of ``single-string'' 
reliance on Soyuz was unavoidable. The new direction for the agency 
aims to minimize this period by encouraging a robust commercial space 
industry that can provide crew transportation services to the United 
States and its European, Japanese, and Canadian ISS partners.
    Question. From the standpoint of relatively near-term human 
spaceflight, the President's proposed budget and associated plan seem 
focused on: (a) The development of a commercial, as opposed to 
Government-owned human space flight launch capability and (b) The 
continuation--and expansion--of support to the International Space 
Station to at least 2020.
    Would you agree with me that, in actual fact, the two initiatives 
are directly interwoven, in that the real driver behind the business 
case for commercial space launch capability--for both cargo, as under 
the COTS program now underway, and for human space flight, at least in 
its early stages--is the existence of a viable, healthy, safe and 
functioning International Space Station?
    Answer. NASA considers the ISS a key component in the agency's 
attempt to encourage and promote a robust commercial space industry, 
both in terms of the scientific and engineering research that can be 
conducted aboard this National Laboratory in orbit and as a destination 
that requires the transportation of personnel and cargo to and from 
low-Earth orbit (LEO). The continuing viability of ISS as both a 
spacecraft and research facility bolsters the business case for 
commercial space launch capability.
    Question. As you begin to develop the requirements for a 
competition for a commercial crew development contract, what would be 
the target date for full operational capability, and how would you 
define that? If a target date has not been set, what is your best 
estimate for when a commercial crew launch system might be fully 
operational?
    Answer. NASA is targeting 2015 as the start of operations for 
commercial crew services. However, NASA may adjust this date as we 
receive proposals from industry.

             SUSTAINABILITY OF INTERNATIONAL SPACE STATION

    Question. In 2005, the OMB mandated that of the 28 remaining 
flights then planned in support of ISS; NASA could only plan on 
performing 17 of them (plus an option for 1 for Hubble Telescope 
servicing). NASA was forced to reconfigure the payloads from the 10 
cancelled missions to ensure that necessary spares and replacement 
parts could be delivered to the ISS on the 17 remaining flights. 
However, the decisions made regarding critical spares and equipment was 
based on what was at that time an internal planning date for end-of-
life for ISS as 2015.
    Given the near-certain extension of ISS--pressed by the Congress in 
the 2008 NASA Authorization Act, and now agreed to by the 
administration, what steps are you taking to understand the 
requirements for sustaining the ISS vehicle and systems through 2020?
    Answer. As part of NASA's yearly budgetary planning cycle, the ISS 
Program has defined the necessary spares, logistics, operations, 
training and transportation services necessary to extend the operations 
of the ISS to at least 2020. NASA along with its International Partners 
is also in the process of certifying the ISS platform to 2028.
    Question. The 2008 NASA Authorization Act (Public Law 110-422) 
required a report, within 9 months of enactment (Due July 15, 2009) of 
what would be necessary to sustain the ISS vehicle and systems through 
at least 2020. That report was received on August 9, 2009. It provided 
information that was not particularly helpful and contained 
contradictory information--such as descriptions of critical systems for 
which analysis would be done in 2011--after the planned end of shuttle 
operations. For many of these systems it appears transport to the ISS 
appears unlikely on any vehicle other than the shuttle. In most cases, 
reliance for delivery was placed on ``planned'' availability of COTS 
cargo capability, because the additional cargo-delivery systems, the 
Russian Progress vehicle, the Japanese HTV and the European ATV, would 
still leave a short-fall of 40 metric tons of required supplies. There 
was no analysis of the potential impact of a failure of either the COTS 
cargo capability or the ATV and HTV systems, neither of which had flown 
to the ISS at that stage. Most importantly, there was no analysis of 
potential spare part requirements that might need the space shuttle 
payload bay in order to deliver them to the station.
    What, if anything, has been done since August of last year, when 
the report was filed, to ensure us that NASA has a complete 
understanding of what is needed to sustain the space station through at 
least 2020? If that has in fact been studied, please detail extensively 
the results and knowledge gained.
    Answer. The planning and analysis required to keep ISS flying is a 
continuous process. There is a real-time component that monitors on-
board failures and spares. The goal is to keep adequate spares on ISS 
to cover all failures. With the retirement of the shuttle, NASA is 
prepositioning almost all available spares on orbit, so the agency is 
protecting against multiple component failures. There is also a 
strategic component for manifest planning. NASA runs models with 
reliability and maintenance estimates. These models are used to set the 
basic yearly launch upmass estimates. The models are continually 
updated with real failure rate data. In summary, the ISS storage space 
is almost fully utilized. The agency has a process in place that has 
been demonstrated to keep ISS flying. This process has been updated, 
and NASA has adequate margin to maintain ISS with the remaining shuttle 
flights, the European Automated Transfer Vehicle (ATV), the Japanese H-
II Transfer Vehicle (HTV), and commercial cargo coming on line in late 
2011.
    Question. Since the decision to extend the space station was 
announced as part of the fiscal year 2011 budget request, what 
additional work has been done--or started--that would provide the 
Congress the confidence that the needs of ISS sustainability are fully 
understood and considered? If that has in fact been studied, please 
detail extensively the results and knowledge gained.
    Answer. As part of NASA's yearly budgetary planning cycle, the ISS 
Program has defined the necessary spares, logistics, operations, 
training and transportation services necessary to extend the operations 
of the ISS to at least 2020. NASA along with its International Partners 
is also in the process of certifying the ISS platform to 2028.
    Question. It seems clear that there is no way of knowing, with any 
degree of assurance, whether or not there are requirements for spares, 
replacements, or refurbishment of parts that would require shuttle 
flights beyond the end of this year in order to protect our investment 
in the space station and maximize its research potential. That suggests 
an inability to guarantee the ``destination'' of the space station with 
a low risk profile sufficient to allow commercial transportation 
systems, for either cargo or crew, to be able to convince investors 
that they should put venture capital into those projects.
    Given that situation, would NASA and the administration consider 
the option of stretching out the remaining manifest (remaining shuttle 
flights) into the end of next year, combined with the activation of the 
contingency mission as a full mission capable of taking payloads to the 
space station, while immediately conducting the assessment necessary to 
determine whether there are requirements that could be met by using 
that added mission?
    Answer. In formulating the payloads to be carried to ISS under the 
current space shuttle manifest, NASA carefully reviewed the station's 
likely requirements for spares, replacements, and refurbishment of 
parts in order to ensure the continued viability of ISS after the 
retirement of the shuttle. By the time the manifest has been completed, 
ISS will have been fully assembled (this is essentially the case now) 
and outfitted for long-term operations and utilization. After this 
point, the cargo capacity of the shuttle will no longer be required, 
and future components will be compatible with existing and anticipated 
cargo vehicles. Even such critical large items as Control Moment Gyros 
(CMGs) can be redesigned and/or repackaged to fly aboard smaller 
vehicles (in the case of CMGs, several smaller gyros can take the place 
of a single large unit).
    Stretching out the shuttle manifest would be disruptive to our 
workforce, and potentially increase risk, since the operating tempo 
would be reduced to a point where personnel proficiency might suffer. 
In addition, the Aerospace Safety Advisory Panel recommended against an 
extension of the shuttle past the current manifest for these reasons. 
At this time, STS-335 is slated as the Launch On Need (LON) mission for 
STS-133, should that flight encounter an emergency.
    Question. Regarding the new plan announced by the President to 
revive the Orion Crew Exploration Vehicle, but in a design modification 
that would allow it to be launched unmanned on an expendable launch 
vehicle, to serve as a life-boat for the ISS: How is that development 
going to be paid for, and what is your estimate for the cost and the 
schedule for delivery to the ISS?
    Answer. NASA is currently assessing cost and schedule to develop an 
emergency crew return derivative of the Orion spacecraft, per this new 
direction from the President's April 15, 2010 address. The goal is to 
be as cost effective as possible, taking maximum advantage of the work 
performed to date on Orion design, development, and testing while 
deferring further work on systems that would provide capabilities not 
needed for emergency crew return.
    It is not yet determined precisely where the funding will come 
from. The sources will be dependent on the magnitude of the estimated 
cost, which is still in work. The total proposed budget for NASA did 
not change with this new direction to develop an Orion emergency crew 
return module. Therefore, its costs will need to be offset by 
reductions to other line-items.
    Question. How many such vehicles would be required? Would they be 
cycled every 6 months, like the Soyuz vehicles, or would they have a 
longer on-orbit stay-time?
    Answer. NASA is just beginning to assess what the specific 
requirements for an emergency crew return derivative of the Orion 
spacecraft should be. Very likely, the four-person capability currently 
in work under the Constellation program of record will be preserved for 
this emergency return variant. The specifics of an Orion-derived crew 
return spacecraft are in development.
    Question. How many seats would they provide? Would they enable the 
four seats per year that the United States is still obligated to 
provide under the Memoranda of Understanding and Intergovernmental 
Agreements for ISS signed in 1998?
    Answer. NASA is just beginning to assess what the specific 
requirements for an emergency crew return derivative of the Orion 
spacecraft should be. Very likely, the four-person capability currently 
in work under the Constellation program of record will be preserved for 
this emergency return variant.
    Question. Would that mean that the total station crew size could be 
expanded to seven, as originally planned, thus enabling greater 
potential for crew time being applied to research, as opposed to ISS 
maintenance?
    Answer. The ISS today is capable of supporting a crew of seven as 
originally designed.
    Question. If so, how would that impact the cargo and supply 
requirements?
    Answer. This has not been factored into the extension assessment.
    Question. Given the three-seat limitations on Soyuz, would that 
make it impossible to expand the station crew size because of no way to 
deliver the sufficient number of crews to ISS?
    Answer. If Soyuz were the only vehicle to service ISS, the crew 
size could not be increased to seven permanent crew.
    Question. If so, what is the advantage of developing and using the 
Orion as a crew-rescue vehicle only?
    Answer. It will enable a cost-effective American crew escape 
capability that will increase the safety of our crews on the space 
station, reduce our dependence on foreign providers, and simplify 
requirements for commercial crew providers.
    This effort will also help establish a technological foundation for 
future exploration spacecraft needed for human missions beyond low 
Earth orbit and will preserve some high-tech contractor jobs in 
Colorado, Texas, and Florida.
    Continuing Orion as a rescue vehicle only will reduce costs by 
simplifying the design and eliminating development, testing, and 
production costs for systems associated with launching humans such as 
the Orion launch abort system and human rating the expendable launch 
vehicle. Continuing work associated with launching humans to the ISS 
aboard Orion would be duplicative of the commercial crew development 
efforts.
    Question. How would the cost of development and launch of the Orion 
CRV compare to the cost of simply continuing to pay for Russian Soyuz 
to serve the crew escape function?
    Answer. NASA procures services from Roscosmos that cover all 
aspects of transportation and rescue using Soyuz. This includes crew 
training, launch, landing, and having the spacecraft available at ISS 
for a 6-month ``increment'' as a rescue vehicle, should an emergency 
arise. The cost of using the Soyuz uniquely as a rescue vehicle has not 
been broken out, and would need to be negotiated, in any case.
 continuous u.s. human spaceflight capability--compliance with the law
    Question. In the 2005 NASA Authorization Act, signed into law as 
Public law 109-155, the Congress stated that it was ``the policy of the 
United States to possess the capability for human access to space on a 
continuous basis.'' The law went on to make it clear that such 
capability for human access to space on a continuous basis was to be 
provided by U.S. transportation systems, not by other nations' 
capabilities that we would ``rent'' or purchase access from. It is also 
a matter of international agreement, within the ISS implementing 
agreements, that the U.S. would be responsible for providing access to 
the ISS for European, Japanese, and Canadian crew members. The decision 
to terminate space shuttle operations in 2010, at least 4 years before 
any replacement U.S. capability was then planned to be available, was a 
direct violation of both the spirit and the letter of that law. When 
you and your Deputy Administrator each took the oath of office as 
Administrator, after confirmation by the Senate, you both swore to 
uphold the laws of the United States.
    What have you done, since assuming your positions, to ensure that 
the law of the United States, establishing a policy of continuous U.S. 
capability for human space flight, is upheld?
    Answer. As noted in the above response the ``gap'' in U.S. human 
spaceflight capability was the result of NASA not having sufficient 
resources to simultaneously fund continuing shuttle operations while 
developing the next generation U.S. human space flight program. The 
fact of the gap has been long established; the questions have been how 
long the gap would last, and what domestic system(s) the United States 
would use in the future. The new direction for the agency aims to 
minimize this period by encouraging a robust commercial space industry 
in LEO that can provide crew transportation services to the U.S. and 
its European, Japanese, and Canadian ISS partners.
    Question. If a proposal by the administration--whether the Obama 
administration or the Bush administration, created and imposed on NASA 
by the Office of Management and Budget, or by the Office of Science and 
Technology Policy--represents a direct circumvention of the law, what 
is your responsibility, as the Administrator of the agency empowered to 
implement that law, to take steps to inform the authors of that 
proposal that their actions are in violation of the law, and to insist 
that they adhere to the law and policy established by the Congress?
    Answer. It is the responsibility of everyone in public service to 
uphold the laws of the United States, and to ensure that proposals they 
advocate adhere to the law. In April 2009, NASA submitted to the 
Congress its Human Space Flight Capabilities report, which responded to 
language in section 611(a) of the NASA Authorization Act of 2008 
(Public Law 110-422) directing NASA to report on the lack of a U.S. 
human space flight system to replace the space shuttle upon its planned 
retirement. This requirement was an amendment to a reporting 
requirement in section 501 of the NASA Authorization Act of 2005 
(Public Law 109-115), referenced above. This report was required by law 
in case it was determined that the United States would not be able to 
maintain the capability for human access to space on a continuous 
basis.
                                 ______
                                 
            Questions Submitted by Senator Robert F. Bennett

                             BUDGET PROCESS

    Question. The decision to shut down the Ares I and V programs have 
significant impact to the Aerospace Industrial base, especially to the 
Solid Rocket Motor industry. In lieu of this, did you coordinate or 
consult with the Department of Defense when making this decision to 
shut down Constellation which will have immediate and far-reaching 
impacts to our national defense?
    If so, when was this done and with whom?
    Answer. NASA, the Department of Defense (DOD), and the National 
Reconnaissance Office (NRO) have worked closely on the management of 
the Nation's space enterprise for many years. In the context of the 
President's budget proposal and subsequent Congressional action, 
discussions have been underway at all levels about ensuring that we 
carefully consider and maintain the Nation's space industrial base. I 
have been working with Secretary of the Air Force Michael Donley, 
General Robert Kehler, the Commander of Air Force Space Command, and 
General Bruce Carlson, the NRO Director, throughout my tenure as NASA 
Administrator on these crucial subjects. While the President has 
proposed a restructuring of the Constellation program, he is also 
seeking to invest significant funding to develop technologies and 
infrastructure to enable human exploration both to low-Earth orbit and 
beyond. These provide to benefits to both DOD and NASA, as evidenced by 
statements by senior DOD representatives on the subject over the past 
months.
    I have held several discussions with Secretary Donley, General 
Kehler, and General Carlson on this topic and met most recently with 
them on June 24, 2010. A key objective of these discussions has been to 
help ensure that we remain aware of launch options from a strategic 
perspective. I am committed to continuing to work closely with the DOD 
and the NRO as we move forward. As one example among many, the Office 
of the Undersecretary of Defense for Industrial Policy is leading a 
Solid Rocket Motor Industrial Base assessment in order to plan for the 
impact of changes in NASA's program, and NASA is a key participant in 
this assessment. We are additionally working with the national security 
space community on several other reviews and assessments to ensure that 
our civil and national security space objectives are met, while 
ensuring a robust national space industrial base.
    Question. When did you learn of the cancellation of the entire 
Constellation program?
  --Were you directly part of this decision?
  --Considering this was the largest program eliminated in the Federal 
        budget for fiscal year 2011, did you discuss cancellation of 
        the entire program with the President directly?
  --If not, who told you of the cancellation of Constellation?
    Answer. I can tell you that I participated in the construction of 
the fiscal year 2011 budget request. That's part of my responsibility 
as the NASA Administrator, and I represent the inputs that NASA made to 
the budget formulation process.
    Question. Were NASA's top technical and program folks engaged in 
crafting the budget? If so, who was involved with crafting the 
technical details of this new plan?
    Answer. Key NASA personnel were involved in the preparation of the 
fiscal year 2011 budget request.

                          CONSTELLATION COSTS

    Question. The administration seems to be throwing out different 
cost figures about how expensive it would be to simply continue the 
Ares program. General Bolden testified in front of the House Science 
Committee on March 23 by asserting that Ares would cost $4-$4.5 billion 
a year, and $1.6 billion per flight, which seems awfully inflated. 
However, in a subsequent House Science Subcommittee hearing on March 
25, NASA Associate Administrator for Exploration Systems Doug Cooke, 
testified that an earlier NASA written cost estimate provided to 
Representative Suzanne Kosmas (D-FLA) in 2009, citing a ``marginal'' 
cost of $176 million per launch was still a ``reasonable estimate.'' 
(his words). This NASA estimate further clarifies that if there were 
only one Ares I/Orion flight in a given year, the cost would be $919 
million. (It explains that the $919 million figure represents both 
fixed costs of $781 million, and marginal costs of $138 million). This 
$919 million figure for one flight is roughly the same as the $1 
billion cited by the Augustine report. However, and this is key . . . 
the document goes on to explain that most of the fixed costs are in the 
first flight. And that subsequent flights of the Ares/Orion are much 
cheaper. In fact, this NASA document states that a second flight would 
cost $138 million, and a third flight would cost another $138 million, 
and a fourth flight another $138 million, and so-on. So, given both 
NASA written and oral testimony in this regard, it is entirely possible 
to fly the Ares 1 with Orion capsule for continuing U.S. space flight 
to low earth orbit, and the International Space Station (ISS) and stay 
within NASA's constrained budgets. For example, for approximately $1.5 
billion, it seems that NASA could fund 4 launches of the Ares and Orion 
in a given year, continuing a robust manned space program and not 
having to rely on the Russians for transportation. This is well within 
NASA's budget. Do you disagree with previous NASA testimony on Ares 
costs? What are the correct cost figures, and what specifically do you 
include in those cost figures?
    Answer. To understand the cost of the Ares I project, it is 
important to understand the full cost of the Constellation Program. 
Based on the fiscal year 2010 budget request, NASA estimates it would 
cost approximately $5.4 billion in fiscal year 2011 to continue the 
full Constellation Program, including Ares I and Orion development and 
testing, and all supporting elements (ground processing facilities, 
mission control, program integration etc.), which together would lead 
to an Initial Operational Capability for two crewed flights to the 
International Space Station per year. Of the $5.4 billion figure, the 
Ares I project was estimated to cost $2.1 billion, with Orion costing 
$1.8 billion, and other Constellation supporting elements equating to 
about $1.5 billion.
    The fiscal year 2011 budget request transitions away from the 
Constellation Program. Therefore, under this assumption, if NASA were 
required to continue only the Ares I project, the cost to do so would 
be about approximately $4-$4.5 billion in fiscal year 2011--which would 
pay for the project elements and also include the full cost of all 
supporting elements outlined in the fiscal year 2010 budget request, 
such as ground processing facilities, mission control, program 
integration etc. Without these supporting elements, the Ares I could 
not fly. This scenario also assumes that Orion would be cancelled, so 
close-out costs for Orion were factored into this estimate. (Note: 
Without an Orion, this scenario would not provide an IOC capability.) 
Additionally, it is important to remember that under the fiscal year 
2010 budget request and its 5-year runout, the Constellation Program as 
a whole was expected to begin ramping up work in fiscal year 2011, and 
in doing so, was expected to also begin assuming additional Shuttle 
infrastructure and workforce costs in addition to increased development 
costs, currently estimated to be $600-700 million. Therefore, those 
costs are factored into the continuation cost estimate.
    With regard to marginal costs for Ares I, NASA recognizes that 
there is often confusion with regard to publicized flight cost 
estimates associated with the Ares projects, largely because those 
estimates often include different assumptions. One key point of 
confusion, for example, comes from the fact that the Ares I and Ares V 
share significant fixed costs for vendor production base and sustaining 
engineering, since both vehicles would use similar solid rocket 
boosters, upper stage engines and avionics. Therefore, there are two 
ways to consider the cost of an Ares I flight--one, where the Ares I 
fixed costs are lower because it is assumed that certain fixed 
operational costs would be shared with the Ares V, and another, where 
the Ares I fixed costs are higher because the current shared-cost 
scenario is not assumed.
    In general, NASA does not budget by flight, but rather by fixed and 
marginal costs expected on an annual basis. The fixed cost (i.e. prime 
and non-prime support labor, costs of facilities) would be the cost 
that must be incurred whether one rocket or multiple rockets are built. 
In other words, the fixed cost is absorbed by the first annual flight 
and is not counted again that year. The marginal costs, on the other 
hand, are those costs that can be cleanly attributed to the production 
of one unit, and that cost is generally the same, unit by unit. So for 
each subsequent annual flight, NASA adds on only the marginal cost, 
given that the fixed cost has already been absorbed into the first. It 
is important to note, however, that NASA's formula of calculating the 
cost of an Ares I flight (or subsequent annual flights) does not 
include the project costs for the associated support elements, such as 
ground operations, mission operations, EVA and program integration. 
Those costs would be book kept under their respective project lines.
    With regard to the cost per flight, NASA currently estimates that 
both Ares I and Orion account for $69 million each in marginal costs 
for a flight unit, thus totaling $138 million in marginal costs for 
each flight since each flight would be assumed to have a capsule and a 
rocket. However, the fixed cost per flight would vary based on whether 
Ares I and Ares V shared operational costs were assumed.
    For example, the fiscal year 2010 budget request assumed that Ares 
I and Ares V would share some operational costs--approximately $700 
million per year, which would, in turn, equate to lower fixed costs for 
the Ares I. Therefore, under that scenario--which was provided to 
Congressman Aderholt's staff in November 2009--the total cost for the 
first flight would be $919 million ($781 million in fixed cost plus 
$138 million in marginal costs) with each subsequent flight costing 
$138 million extra in marginal costs, as outlined in the chart below:

   ESTIMATED ANNUAL OPERATIONS FIXED AND MARGINAL COSTS FOR ARES I AND
         ORION WITH ARES I AND ARES V SHARING OPERATIONAL COSTS
                        [In millions of dollars]
------------------------------------------------------------------------
                                                            Fiscal Year
                                                               2008
------------------------------------------------------------------------
Fixed Costs (Ares I and Orion)..........................             781
Marginal Cost for 1st flight............................             138
                                                         ---------------
      Total Cost for 1st flight.........................             919
Marginal Cost for 2nd flight............................             138
                                                         ---------------
      Total Cost for 2 flights per year.................           1,057
Marginal Cost for 3rd flight............................             138
                                                         ---------------
      Total Cost for 3 flights per year.................           1,195
------------------------------------------------------------------------
Note.--This assumes Ares I fixed costs are shared with Ares V. It also
  excludes fixed costs for supporting elements.

    However, if the assumption is that Ares I and Ares V would not 
share operational costs, it is equally true to say that the cost of an 
Ares I flight is nearly $1.6 billion. Under this scenario, all 
operational costs would be carried by Ares I--which would account for 
an approximate $700 million increase in the fixed cost for Ares I. 
Thus, under this scenario, the total cost for the first flight would be 
$1.461 billion in fixed cost plus $138 million in marginal costs, with 
each subsequent flight costing $138 million extra in marginal costs, as 
outlined in the chart below:

   ESTIMATED ANNUAL OPERATIONS FIXED AND MARGINAL COSTS FOR ARES I AND
         ORION WITH ARES I CARRYING ALL OF THE OPERATIONAL COSTS
                        [In millions of dollars]
------------------------------------------------------------------------
                                                            Fiscal Year
                                                               2008
------------------------------------------------------------------------
Fixed Costs (Ares I and Orion)..........................           1,461
Marginal Cost for 1st flight............................             138
                                                         ---------------
      Total Cost for 1st flight.........................           1,599
Marginal Cost for 2nd flight............................             138
                                                         ---------------
      Total cost for 2 flights per year.................           1,737
Marginal Cost for 3rd flight............................             138
                                                         ---------------
      Total Cost for 3 flights per year.................           1,875
------------------------------------------------------------------------
Note.--This assumes Ares I fixed costs are not shared with Ares V. It
  also excludes fixed costs for supporting elements.

    Question. What, in your opinion, is a higher priority--the safety 
of our astronauts or potential cost savings? With that in mind, I'd 
like to quote from the Aerospace Safety Advisory Panel's 2009 annual 
report which states, ``the Ares I vehicle has been designed from the 
beginning with a clear emphasis on safety. Its architecture was 
selected by NASA's Exploration System Architecture Study (ESAS) team 
because of its potential to deliver at least 10 times the level of crew 
safety as the current shuttle. The launch vehicle configuration has 
been developed to provide the best possible allowances for crew escape 
in the event of a launch failure.'' In your opinion, what are safer, 
solid rocket motors or a propulsion system based on liquid fuel? I'd 
like to know what are NASA's plans to ensure that any manned system 
designed and developed by private industry will be as safe as the 
system which is being developed under Project Constellation, the 
current program of record.
    Answer. One measure of launch vehicle safety is identifying the 
approximate probability of failure for the launch vehicle which can 
then be determined by summing up the chances of failure of all of its 
subsystems. For launches of U.S.-built vehicles in the last 20 years, 
problems with the propulsion system represented a significant portion 
of all failures therefore addressing reliability during the design of a 
launch vehicle is paramount to ensuring a safe vehicle. The type of 
propulsion system (solids versus liquids) is not a discriminator; 
rather simplicity and redundancy are the keys to high design 
reliability for any system and launch vehicles are no exception.
    With regard to commercial crew, at no point in the development and 
acquisition of commercial crew transportation services will NASA 
compromise crew safety. Simply put, U.S. astronauts will not fly on any 
spaceflight vehicle until NASA is convinced it is safe to do so. NASA 
has unique expertise and history in this area, and a clearly 
demonstrated record of success in transporting crew. NASA will bring 
that experience to bear in the appropriate way to make sure that 
commercial crew transportation services are a success both 
programmatically, and with respect to safety. At no point in the 
development and acquisition of commercial crew transportation services 
will NASA compromise crew safety. For example, NASA will have in-depth 
insight of the vehicle design via NASA personnel who are embedded in 
the contractor's facility. Additionally, NASA will impose strict 
requirements and standards on all providers that will be carefully 
evaluated and reviewed at multiple stages before a vehicle system is 
certified by NASA for crewed flight.

  COTS AND RESUPPLYING THE INTERNATIONAL SPACE STATION WITH CARGO AND 
                                  CREW

    Question. Please explain the line in the fiscal year 2011 budget 
proposal for commercial cargo of $312 million. The COTS program was 
established under a Space Act Agreement which has a fixed cost attached 
to it. If so, why a few years later is there a need to throw additional 
money at the Space Act Agreement holders? Could this be seen as a 
funding stream for the COTS providers because they are behind schedule 
and costs?
    Answer. The fiscal year 2011 budget request includes $312 million 
for commercial cargo development efforts, which NASA intends to 
allocate as follows:
  --$288 million would be an augmentation to the current Commercial 
        Orbital Transportation Services (COTS) funded agreements for 
        additional milestones that would add additional capabilities or 
        tests that would reduce risks and expedite the pace of cargo 
        delivery for the ISS. The funding would be equally split 
        between SpaceX and Orbital.
  --$14 million would be for currently negotiated milestones expected 
        to be completed in fiscal year 2011--part of the original $500 
        million COTS investment.
  --$10 million would be for program operations for the Commercial Crew 
        and Cargo Office at Johnson Space Center in fiscal year 2011.
    Question. Administrator Bolden I would like to understand what NASA 
and the taxpayers have received for this total COTS expenditures to 
date of approximately $618 million? What hardware has been delivered? 
What services have been provided? What does NASA own, IP rights?
    Answer. The dollar amount cited in the question includes payments 
made as part of the COTS cargo development effort and the Commercial 
Resupply Services (CRS) contract.
    With regard to COTS, expenditures as of mid June 2010 for our two 
funded Space Act Agreement (SpaceX and Orbital Sciences) total $393 
million. To date, our partners have completed all major design reviews, 
including Preliminary and Critical Design Reviews. Both partners have 
begun testing programs designed to qualify their respective cargo 
transportation systems for launch and spaceflight environments. 
Additionally, both partners are progressing through the ISS visiting 
vehicle integration.
    SpaceX has recently completed its Falcon 9 maiden flight, including 
the Dragon capsule qualification unit. Although this was a non-NASA 
milestone, this flight provided data for the company to verify launch-
vehicle operations for the new vehicle, and NASA expects data gathered 
from this test flight will be instrumental to our first COTS 
demonstration. NASA's COTS Demo flight 1 hardware is progressing. The 
COTS Demo 1 flight first stage has completed integration and is being 
readied for the integrated stage testing in Texas. Likewise, the COTS 
Demo 1, second stage integration, has been completed and is being 
readied for its integrated stage testing in Texas. Once integrated 
stage testing is complete, both stages will be shipped to Cape 
Canaveral for flight. The COTS Demo 1 Dragon Capsule integration is 
finishing up. The integrated spacecraft has been powered up and is 
currently flowing data to mission control. Currently, the launch is 
scheduled for August.
    Orbital continues to make progress as well. Its first stage static 
test article has been completed and initial static tests have been 
completed. The first stage engine, AJ-26, is currently planned to begin 
testing at the NASA Stennis Space Center in August this year.
    Regarding intellectual property (IP) rights for the COTS 
agreements, since 1980, with the passage of the Bayh-Dole Act (with 
regard to small businesses, universities and non-profits) and 1983, 
under Executive Order 12591 (with regard to large business), it has 
been the policy of the Federal Government to permit contractors and 
others who receive Federal funds to develop technology to retain the 
commercial rights to that technology, including the right to make a 
profit from technology developed with funds received from the Federal 
Government. Consistent with Bayh-Dole and EO 12591, NASA will not own 
any IP rights under the COTS SAAs. NASA will receive a Government 
purpose license to use inventions developed under the SAAs that 
commences 5 years after the completion of the SAAs. Consistent with the 
law and Federal policy, NASA encourages, and will continue to 
encourage, its contractors and partners to make commercial use of 
technology development funded by NASA. NASA retains ``march in rights'' 
for data and inventions if the COTS partners do not achieve practical 
application of IP developed under the COTS SAAs.
    With regard to NASA's CRS contracts, on December 23, 2008, NASA 
awarded contracts to SpaceX and Orbital for the delivery of cargo to 
the ISS after the retirement of the space shuttle. The scope of the CRS 
effort includes: delivery of pressurized and/or unpressurized cargo to 
the ISS; disposal or return of cargo from the ISS; and, non-standard 
services and special task assignments and studies that can be ordered 
to support the primary standard resupply service. The first two CRS 
flights to ISS are scheduled for July and October of 2011.
    Under these contracts, NASA does not purchase hardware; NASA 
purchases services. Payment for services is made upon completion of 
milestones. SpaceX has completed through the third milestone, Mission 
Integration Review, for delivery flights 1 and 2, and through the 
second milestone, Vehicle Baseline Review, for delivery flight 3. OSC 
has completed through the third milestone, Vehicle Baseline Review, for 
its delivery flight 1, and through the second milestone, Long Lead 
Order Placement for delivery flight 2. As of late April 2010, SpaceX 
and Orbital had received $101 million and $127 million, respectively, 
for their CRS work.
    Question. What is the schedule performance since COTS was started? 
Can you explain where the two current COTS providers are in terms of 
their original schedule milestones?
    Answer. Please see milestone charts below which shows milestones 
accomplished to date, payments made and projected dates for future 
milestones. The chart also includes the original milestone dates for 
each COTS funded partner.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Question. The COTS program was designed to create lower cost cargo 
access to the ISS. With the current Resupply Service Contracts for 
SpaceX costing $135 million per flight and Orbital costing $235 million 
per flight, and with Doug Cooke's recent testimony that the much more 
robust Ares vehicle recurring flight cost of $178 million per flight, 
are we really finding dramatic cost savings through COTS, doesn't seem 
like it from these numbers?
    Answer. The aforementioned CRS and Ares I costs cannot be compared 
in the manner cited because the missions are different. While Ares I 
was designed to go to the ISS, it was designed to carry crew and not 
cargo. The CRS missions, on the other hand, are designed to carry only 
cargo, so comparing costs between the two missions is not appropriate.
    Under CRS, NASA is purchasing cargo delivery services via a fixed-
price contract. Thus, NASA is paying a pre-set cost per delivery, and 
therefore, the company is responsible for paying for its own 
infrastructure and personnel costs, for example. However, NASA will 
have additional costs for its own infrastructure and workforce 
associated with commercial crew.
    In comparison, and as noted in an earlier response, NASA's estimate 
for Ares I marginal costs reflects only the costs that can be cleanly 
attributed to the production of one unit. However, that number does not 
include the fixed development costs for the Ares I program, nor does it 
include the project costs for the associated support elements, such as 
ground operations, mission operations, EVA and program integration. 
Therefore, to understand the cost of the Ares I project, it is 
important to understand the full cost of the Constellation Program.
    Question. The original plan for commercial transportation to space 
was to have the COTS providers demonstrate cargo capability before 
moving to crew, a logical progression in spaceflight capabilities. What 
has changed that pushes us to begin commercial crew investment before 
even a single cargo demonstration has occurred?
    Answer. Nothing has changed. NASA is still pursuing an incremental 
strategy by establishing commercial cargo resupply services prior to 
establishing the provision of commercial crew services. NASA has always 
planned for the eventual provision of commercial crew services and 
Congress authorized NASA to pursue those activities in the NASA 2008 
Authorization Act. Congressional authorization, coupled with the 
endorsement of the Augustine Committee which stated in its final report 
that ``Commercial services to deliver crew to low-Earth orbit are 
within reach,'' and the decision to extend the life of the ISS likely 
to 2020 or beyond, enabled the administration and NASA to fund the 
development and demonstration of commercial crew transportation as part 
of the President's fiscal year 2011 budget request.
    Question. Is this putting too great of pressure on these companies, 
helping to ensure their failure?
    Answer. NASA has not yet selected the companies that will provide 
commercial crew services. However, NASA will evaluate the capability of 
all bidders during the proposal evaluation process and select those 
companies that have the necessary capabilities and plans for providing 
commercial crew services.
    Question. Current projections for new entrants into national human 
spaceflight, like India, project 10-12 years before ready for first 
human launch, and China has demonstrated that it took them 11 years 
after they had a certified launch vehicle to be ready. Why do we 
believe a commercial crew capability could occur in less than 5 years? 
On what do we base that projection besides claims of companies that 
have not placed a single human into space?
    Answer. During previous COTS announcements, multiple commercial 
companies proposed a crew transportation capability that could be 
developed in 36-48 months. These inputs were from established, low-risk 
companies who have placed humans into space, as well as smaller 
entrepreneurial companies.
    Question. Given NASA has not yet delivered human rating 
requirements for commercially provided vehicles, coupled with the fact 
that the COTS providers are running about 2 years behind on their cargo 
capability, how can you expect crew capability by 2015 and have 
confidence in this schedule?
    Answer. NASA has recently released a draft set of commercial human 
rating requirements for industry to review and provide comments. 
Comments were due back to NASA by June 18. These comments will be used 
to mature the requirements set in time to support a commercial crew 
announcement that meets the program's timeline.
    During previous COTS announcements multiple commercial companies 
proposed a crew transportation capability that could be developed in 
36-48 months. These inputs were from established, low-risk companies 
who have placed humans into space, as well as smaller entrepreneurial 
companies.
    Both SpaceX and Orbital have encountered technical challenges and 
schedule delays normally attributed to complicated endeavors such as 
fielding new launch vehicles and spacecraft. SpaceX, however, proceeded 
from signing the NASA SAA to launching its Falcon 9 launch vehicle in 
less than 48 months. Orbital Sciences is on target to fly its Taurus II 
in approximately 40 months from SAA signature.
    It is important to note that both of these COTS efforts include not 
only the launch vehicle but also spacecraft and all needed ground and 
mission support capabilities as well.
    Question. General Bolden, as we all know, the acquisition process, 
especially one of the magnitude of designing, and developing a manned 
space capability, is full of milestones, testing, reviews and much, 
much more. I'm curious to know, what are the acquisition-related steps 
that would need to be followed by the Government in the development and 
procurement of commercial crew transport services, e.g., development of 
a COTS-like demonstration program; COTS RFP preparation and release; 
competition for COTS awards; negotiation of COTS agreements; DDT&E 
phase; demonstration phase; RFP preparation and release for commercial 
crew transport contracts; contract competition, award, negotiation, 
potential protest resolution, etc.; and certification for operations 
involving U.S. astronauts before commencing commercial crew transport 
services to the International Space Station? Historically, how long has 
it taken to complete such acquisition steps in the development of new 
aerospace systems to be used by the Government?
    Answer. NASA released a Request for Information (RFI) in May 2010, 
which represented a critical element in the agency's overall proposed 
strategy for commercial crew. This RFI requested industry feedback to 
the NASA plans for certifying commercial crew vehicles for NASA 
services, including the Draft Commercial Human Rating Plan. In 
addition, the RFI sought input on the general acquisition strategy and 
philosophy. A second RFI is planned in the late summer timeframe for 
industry feedback on the ISS Service Requirements Document (SRD) and 
Interface Requirements Document (IRD). With this feedback, NASA will 
finalize the remaining requirements, reference documents, and 
acquisition strategy.
    Information from these RFIs will be used to finalize NASA's 
proposed commercial crew acquisition strategy. Upon strategy approval, 
the draft announcement (including ISS SRD and IRD) will be completed 
and released for further comment, clarification, and questions from 
industry.
    Historically, it has taken 6-9 months from instrument release 
(Request for Proposal (RFP), Announcement of Opportunity (AO), NASA 
Research Announcement (NRA), Cooperative Agreement Notice (CAN), Space 
Act Agreement ( SAA)) to award.

                             CONSTELLATION

    Question. Was there any consideration of taking more of a 
``Commercial'' approach to Constellation? Allowing for the cost and 
schedule savings that could be accomplished by taking this type of 
approach, but keeping the workforce transition plans in place and 
leveraging the investment in the program and benefiting from the safety 
regime incorporated, couldn't this be a prudent way to consider moving 
forward? Was this even considered and if so, what were the reasons that 
this approach was not selected, what concerns do you have to this 
approach?
    Answer. Budget formulation discussions are pre-decisional 
information and cannot be provided for the public record. However, in 
general, as part of normal fiscal year 2010 operations, the 
Constellation Program has been in discussions with the prime contractor 
about ways to reduce costs and improve schedule. Additionally, the 
commercial crew competition will be fully open, so the Ares I and Orion 
contractors can compete for those development awards as well.
    Question. Can you explain what the White House has done with the 
human spaceflight budget? While NASA's top line increases by $6 billion 
over the next 5 years, the Exploration account contains significant 
reductions over that same period. Over the next 4 years, the budget 
run-out for Exploration is almost $6 billion below last year's run-out. 
In just this year's request alone the Exploration budget has a $1.8 
billion cut from last year's projected number, how is that a commitment 
to Human Space Exploration? This also includes the $1.9 billion of 
close out costs for fiscal year 2011 also, so the actual budget for 
Exploration is that much lower even. Doesn't this go completely against 
the funding recommendation by the Augustine panel your boss 
commissioned?
    Answer. In the fiscal year 2011 President's budget request, the 
requested budget for Exploration is almost $500 million more than the 
fiscal year 2010 enacted level, and the projected budget for 
Exploration in fiscal year 2015 is $1.4 billion higher than the fiscal 
year 2010 enacted level--an increase of 37 percent in 5 years. While 
the fiscal year 2011 budget request, reflects less funding for 
Exploration than anticipated in the fiscal year 2010 request, funding 
for NASA as a whole increases $6 billion over 5 years despite a tough 
budget environment.
    Although funding for Exploration decreases when compared to the 
fiscal year 2010 budget runout, funding was increased for other 
spaceflight priorities that were either critical to enable a safe and 
effective near-term human spaceflight program--such as allowing the 
shuttle to safely complete its manifest, extending the International 
Space Station to 2020 and enhancing its utilization--or that were key 
to supporting human spaceflight activities in the long-term, such as 
cross-cutting technology; and developing commercial crew transport 
capabilities.
    Extending the spatial and temporal boundaries of human spaceflight 
is an important goal for the Nation and for NASA. However, human 
spaceflight remains an endeavor with substantial risks, and these risks 
must be identified, managed and mitigated appropriately to achieve the 
Nation's goals in space. Thus, as highlighted in the Review of U.S. 
Human Spaceflight Plans Committee report and as supported by the fiscal 
year 2011 budget request, investment in a well-designed and adequately 
funded space technology program is critical to enable progress in 
exploration. Exploration strategies can proceed more readily and 
economically if the requisite technology has been developed in advance. 
That is why the fiscal year 2011 budget request is so critical for 
NASA.
    Question. NASA's Safety Advisory Panel, which you were a member of 
prior to becoming Administrator, strongly advised you against the new 
approach you are defending today. Can you explain why this path was 
chosen from a safety perspective? And how as a former member of this 
panel that worked on the recently released report, can you argue with 
its findings? Have their findings drastically changed since you were on 
the ASAP?
    Answer. I was a member of the NASA Aerospace Advisory Panel (ASAP) 
from August 2006 to July 2009 and did not work on the development of 
their 2009 Annual Report. The administration's decision to undertake a 
new plan for human exploration was based in large measure on the 
findings and recommendations provided by independent Review of U.S. 
Human Spaceflight Plans Committee, chaired by Norm Augustine, which 
delivered its final report to NASA and the White House in October 2009. 
The new plan for NASA's exploration activities outlined in NASA's 
fiscal year 2011 budget request was not considered during my tenure on 
the ASAP. As we move forward to implement our new plan for human 
exploration, however, I can assure you that NASA remains committed to 
safety in all aspects of our activities. I frequently meet with the 
members of the ASAP in my capacity as the NASA Administrator and I have 
asked the ASAP to continue to independently review and assess our 
proposed activities and to provide specific recommendations on how NASA 
should be proceed to ensure the safety of our people and our programs.
    Question. Part of the Ares/Orion plan was to enable a smooth 
workforce transition of the space shuttle program. With thousands of 
Aerospace critical skills at stake, announcing the cancellation of 
Constellation has created quite a high level of unrest across the 
industry. What plan do you have now to address this?
    Answer. The President's fiscal year 2011 budget request for NASA is 
$19.0 billion, which represents an increase of $276.0 million above the 
amount provided for the agency in the fiscal year 2010 Consolidated 
Appropriations Act (Public Law 111-117), and an increased investment of 
$6.0 billion in NASA science, aeronautics, human spaceflight and 
enabling space technologies over the next 5-years compared with last 
year's budget plan. The President's strategy and accompanying funding 
increase means more jobs for the Nation, more astronaut time in space, 
and more investments in innovation. NASA has initiated planning 
activities to be able to effectively and efficiently implement these 
new activities in a timely manner upon enactment of the fiscal year 
2011 budget.
    The proposed changes to the human spaceflight program in the fiscal 
year 2011 budget request will have an impact on civil service and 
contractor workforce planning. While NASA is not planning reductions in 
the civil service workforce, the nature of the work done by the civil 
service workforce would change under the President's fiscal year 2011 
budget plan. NASA has also made preliminary program assignments across 
the centers for new or extended activities proposed in the fiscal year 
2011 budget request, helping to clarify the work opportunities for 
contractors under the proposed portfolio and preparing NASA to execute 
the work content.
    In 2009, NASA established the Space Shuttle Transition Liaison 
Office (SSTLO) in response to direction in the NASA Authorization Act 
of 2008 (Public Law 110-422). The agency was directed to assist local 
communities affected by the termination of the space shuttle program by 
offering non-financial, technical assistance to the identified 
communities and to identify services available from other Federal, 
State, and local agencies to assist in such mitigation. NASA is working 
diligently to determine how best to leverage these efforts to support 
the transition resulting from the proposed cancellation of 
Constellation. Specifically, the Office:
  --Serves as a clearinghouse by gathering and disseminating 
        information to the affected communities about opportunities 
        available through other Federal, State, and local agencies; and
  --Serves as a key point of contact for the community beyond NASA for 
        information about how the agency is working with local 
        communities to provide non-financial, technical assistance 
        during transition.
    The NASA workforce amendment would provide up to $100 million from 
within the funds requested for the National Aeronautics and Space 
Administration's Exploration account to develop a plan to spur regional 
economic growth and job creation along the Florida Space Coast and 
other affected areas. This workforce plan furthers the administration's 
bold new course for human space flight, which revitalizes NASA and 
transitions to new opportunities in the space industry and beyond.
    Question. The fiscal year 2011 budget includes $2.5 billion in 
Constellation contract termination costs, and $6 billion for new 
``commercial providers'' who likely will suffer the normal cost and 
schedule growth especially with their level of inexperience and $312 
million for additional COTS money that was never planned. It would seem 
to be a much more responsible use of taxpayer dollars to use this 
combined $8.812 billion to finish the program that has had 5 years 
worth of progress and accomplishments that is designed to deliver a 
safer, more reliable, way to send our astronauts to orbit then to hope 
that the ``commercial'' providers might come through? Can you please 
explain how this is not a waste of taxpayer dollars.
    Answer. At the highest level, the President and his staff, as well 
as NASA senior leadership, closely reviewed the Augustine Committee 
report, and came to the same conclusion as the committee: The human 
spaceflight program was on an unsustainable trajectory.
    To continue on the previous path we had to decide to either 
continue the ISS, support a program to get humans beyond LEO, or to 
make even deeper cuts to the other parts of NASA's budget. Further, we 
would have insufficient funding to advance the state of the art in any 
of the technology areas that we need to enable us to do new things in 
space, such as lowering the cost of access to space and developing 
closed-loop life support, advanced propulsion technology, and radiation 
protection.
    The President determined that what was truly needed for beyond LEO 
exploration was game-changing technologies; making the fundamental 
investments that will provide the foundation for the next half-century 
of American leadership in space exploration.
    Following the release of the fiscal year 2011 budget request, NASA 
established six study teams within Exploration Systems Mission 
Directorate (ESMD) to ensure we understand the steps (and the 
implications of those steps) that would need to be taken for an orderly 
transition of the Constellation Program and to plan for the 
implementation of the new Exploration program. Despite the early nature 
of these planning efforts, NASA is optimistic that there will be many 
capabilities developed by the Constellation Program that will feed 
forward into the new programs. For example, options using the Orion 
capsule are currently being pursued for autonomous rendezvous and 
docking; and many of the capabilities we are pursuing at a low level 
through our Exploration Technology Development Program are directly 
applicable to the new programs. Other important areas that will enable 
further advancement in the new initiative areas are: advanced robotics, 
propulsion development and test, friction stir welding, autonomous 
landing and hazard avoidance, and entry, descent, and landing 
technologies.

              SOLID ROCKET MOTORS AND THE INDUSTRIAL BASE

    Question. In the Solid Rocket Motor Capabilities report to Congress 
that was released in June 2009, in the executive summary on page 47 it 
says, ``Delays in the NASA Ares program could have significant negative 
impact on the large solid rocket motor prime contractors industrial 
base, and on some of the SRM sub-tier base, specifically material 
suppliers.'' So the key phrase was ``significant negative impact.'' So 
if a delay in NASA's Ares program would have a significant negative 
impact, what would the cancellation of the Ares program have if the 
administration recommendation goes through as part of the NASA budget 
in fiscal year 2011? If a delay is a significant negative impact on 
solid rocket motor industrial base, what's an outright cancellation 
going to do to the solid rocket industrial base?
    Answer. NASA is currently the only customer for large segmented 
PBAN solid rocket motors and a major user of Ammonium Perchlorate (AP) 
used to make solid rocket motors (SRMs). As such, cancellation of 
Constellation would have a major impact on these two industries. 
However, NASA and DOD are continuing to jointly assess the impacts in 
the joint study lead by the Office of the Undersecretary of Defense for 
Industrial Policy on the SRM industrial base. The DOD does not use PBAN 
large segmented SRMs, but rather smaller monolithic SRMs for strategic 
missiles, interceptors, and launch vehicle strap-on booster, so they 
are currently studying the impacts and options as part of the SRM 
industrial base study. NASA and DOD are also jointly studying heavy 
lift launch and propulsion related options in a different study, so 
NASA's future demand for SRBs is not yet clear. Constellation 
cancellation would require the DOD to fully carry the costs of the 
necessary SRM industrial base for National security needs and AP costs 
would likely increase given the lower demand and associate reduced 
economies of scale.
    Question. Please explain why the new Space Exploration plan seeks 
to stop using solid rocket motors which are the most reliable and 
capable first stage booster in NASA's inventory with over 100+ 
successful missions and decades of continuous design and manufacturing 
process improvements to rely upon a new, unproven system that could put 
the lives of our Nation's astronauts in jeopardy?
    Answer. One measure of launch vehicle safety is identifying the 
approximate probability of failure for the launch vehicle which can 
then be determined by summing up the chances of failure of all of its 
subsystems. For launches of U.S.-built vehicles in the last 20 years, 
problems with the propulsion system represented a significant portion 
of all failures therefore addressing reliability during the design of a 
launch vehicle is paramount to ensuring a safe vehicle. The type of 
propulsion system (solids versus liquids) is not a discriminator; 
rather simplicity and redundancy are the keys to high design 
reliability for any system and launch vehicles are no exception.
    With regard to commercial crew, at no point in the development and 
acquisition of commercial crew transportation services will NASA 
compromise crew safety. Simply put, U.S. astronauts will not fly on any 
spaceflight vehicle until NASA is convinced it is safe to do so. NASA 
has unique expertise and history in this area, and a clearly 
demonstrated record of success in transporting crew. NASA will bring 
that experience to bear in the appropriate way to make sure that 
commercial crew transportation services are a success both 
programmatically, and with respect to safety. At no point in the 
development and acquisition of commercial crew transportation services 
will NASA compromise crew safety. For example, NASA will have in-depth 
insight of the vehicle design via NASA personnel who are embedded in 
the contractor's facility. Additionally, NASA will impose strict 
requirements and standards on all providers that will be carefully 
evaluated and reviewed at multiple stages before a vehicle system is 
certified by NASA for crewed flight.
    At the highest level, the President and his staff, as well as NASA 
senior leadership, closely reviewed the Augustine Committee report, and 
came to the same conclusion as the committee: the human spaceflight 
program was on an unsustainable trajectory. To continue on the previous 
path we had to decide to either continue the ISS, support a program to 
get humans beyond LEO, or make even deeper cuts to other parts of 
NASA's budget. One key area that is a contributor to the unsustainable 
nature of the human spaceflight program is the size of the propulsion 
industrial base. Additionally, we would have had insufficient funding 
to advance the state of the art in any of the technology areas that we 
need to enable us to do new things in space, such as lowering the cost 
of access to space and developing close-loop life support, advanced 
propulsion technology, and radiation protection. The President 
recognized that what was truly needed for beyond LEO exploration was 
game-changing technologies; making the fundamental investments that 
will provide the foundation for the next half-century of American 
leadership in space exploration.
    With regard to commercial crew, as has been stated earlier, safety 
is and always will be NASA's first core value. Simply put, U.S. 
astronauts will not fly on any spaceflight vehicle until NASA is 
convinced it is safe to do so.
    Question. What will happen to the unique workforce that our 
Nation's defense programs rely upon for the future needs in the Solid 
Rocket Motor industry if this cancellation of the Ares program is 
preserved?
    Answer. NASA, a discretionary funding-based civil space agency, is 
not responsible for primary support to the Nation's defense programs. 
If the Ares projects are cancelled, the DOD will have to fund an 
appropriately-sized SRM industrial capacity commensurate with its 
current and future requirements. NASA and DOD are jointly assessing the 
impacts and solution options. The Office of the Undersecretary of 
Defense for Industrial Policy is leading a SRM Industrial Base 
assessment in order to plan for this impact and adequately meet 
national security needs.
    Question. What role do you see the Solid Rocket Motor industry 
playing in the President's requested plan? What timeframe would solid 
rocket work be available in the new plan so as to not have to layoff 
the entire workforce and shutter needed facilities?
    Answer. Although NASA has almost 30-years of extensive experience 
with solid rocket motors on the space shuttle, if humans are to explore 
destinations beyond low-Earth orbit in the 2020-2025 timeframe, the 
Nation needs to aggressively bring about an affordable launch 
capability. The fiscal year 2011 budget request focuses on investing in 
technologies to improve the costs of liquid propulsion systems in an 
effort to reduce the overall cost of launch, as well as maintain the 
propulsion industrial base. NASA will begin heavy-lift vehicle system 
analyses on all launch vehicle concepts to determine the best 
affordable and reliable approach.
    The fiscal year 2011 budget request does not provide specific 
funding for SRM development or direct production. However, NASA and DOD 
are jointly studying heavy lift launch and propulsion-related options 
in a different study, so NASA's future demand for SRBs is not yet 
clear. Additionally, any domestic company, including those who have 
been part of the Constellation program, can, if they choose, compete to 
be part of NASA's proposed commercial crew development program.
    Question. In the technology development program account being 
created, there is funding for a new 1st stage liquid motor. Who is 
intended to be the customer using the new liquid first stage motor? How 
does the research on a new Liquid first stage engine impact the future 
of the solid rocket industry for NASA and DOD?
    Answer. The fiscal year 2011 budget request funds NASA to develop 
affordable engines for use by multiple customers (NASA, other 
Government agencies, and commercial) with associated technologies to 
support those engine development activities. NASA plans to work closely 
with DOD and commercial entities to develop an affordable, highly 
reliable hydrocarbon engine that will have multiple users. While there 
are significant synergies for propulsion system development between 
NASA and DOD, negotiations are currently underway to formalize a 
mutually-beneficial development effort to meet the National needs.
    As a part of normal program formulation activities, NASA will 
continue to examine the trade space with regard to heavy-lift vehicles 
for the next-generation human spaceflight system. The most recent NASA 
heavy lift study was conducted in November 2009, which resulted from 
recommendations of the Augustine Committee for NASA to move toward a 
``flexible path'' human exploration. This study included variations of 
LOX/LH2 heavy lift vehicle architectures with solid rocket boosters and 
as well as LOX/Hydrocarbon heavy lift launch vehicle architectures. The 
LOX/Hydrocarbon vehicle concepts were less mature than the LOX/LH2 
concepts at the time of the November study.
    NASA plans to continue studying heavy-lift issues in partnership 
with the DOD to continue to mature the LOX/Hydrocarbon concepts and to 
assess potential commonality between NASA, DOD, and potential 
commercial needs with the primary figure of merit of as ``affordability 
and operability.'' As part of this ongoing review, NASA and DOD plan to 
perform an assessment of the industrial base, as required by Congress.

                 PRESIDENT'S APRIL 15 SPEECH IN FLORIDA

    Question. When the President rolled out his plan for the future of 
NASA and the manned space program last week, he stated that one of the 
advantages in re-directing NASA and cancelling the program of record 
was that his new strategy ``begins major work on building a new heavy 
lift rocket sooner, with a commitment to decide in 2015 on the specific 
heavy-lift rocket that will take us deeper into space. Can you please 
explain to me how waiting another 5 years to decide on what technology 
to use to get us beyond Low Earth Orbit will allow us to develop a 
heavy-lift capability sooner than what is currently planned with the 
Ares V? Can you provide a timeline that lays out the specific details 
how this new plan will be faster?
    Answer. NASA's goal is to reduce costs and shorten development 
timeframes for future heavy-lift systems for human exploration. The 
Nation needs to aggressively bring about an affordable launch 
capability if humans are to explore destinations beyond low earth orbit 
in the 2020-2025 timeframe.
    The fiscal year 2011 budget request includes funds for NASA to 
conduct the important research and development and analysis necessary 
to make an informed decision on a heavy-lift vehicle no later than 
2015. A primary focus of this effort will be to conduct research and 
development on a U.S. first-stage hydrocarbon engine for potential use 
in heavy lift and other launch systems, as well as basic research in 
areas such as new propellants, advanced propulsion materials 
manufacturing techniques, combustion processes, propellant storage and 
control, and engine health monitoring. Additionally, NASA will initiate 
development and testing of in-space engines. Areas of focus could 
include a liquid oxygen/methane engine and lower-cost liquid oxygen/
liquid hydrogen engines. This work will build on NASA's recent R&D 
experience in this area, and the test articles will be viewed as a 
potential prototype for a subsequent operational engine that would be 
re-startable and capable of high acceleration and reliability. These 
technologies will increase our heavy-lift and other space propulsion 
capabilities and is intended to significantly lower costs--with the 
clear goal of taking us farther and faster into space consistent with 
safety and mission success criteria. In support of this initiative, 
NASA will explore cooperative efforts with the DOD and also develop a 
competitive process for allocating a small portion of these funds to 
universities and other non-governmental organizations. This research 
effort along with many of our new technology initiatives will be 
coordinated with the broader agency technology initiative led by NASA's 
new Chief Technologist.
    In addition to investing in transformative heavy-lift technologies, 
on April 15, 2010, the President called upon NASA to select a rocket 
design no later than 2015 and then begin to build it; a decision no 
later than 2015 means that major work on building a new heavy-lift 
rocket will likely begin 2 years sooner than in the previous plan.
    NASA is in the process of assessing the best approach for 
implementing this new direction. The initial strategy employs a 
rigorous systems analysis effort starting at the overall launch vehicle 
system level to define the top-level requirements for the heavy lift 
launch system that can support multiple end users. This includes 
setting performance goals, identifying lift capability, propellant 
suite for each launch vehicle stage as examples of top-level 
requirements.
    On May 3, 2010, NASA issued a Request for Information (RFI) seeking 
general information regarding potential launch or space transportation 
architectures (expendable, reusable, or a hybrid system) that could be 
utilized by multiple customers (e.g., NASA, commercial and other 
Government agencies). The RFI solicits information regarding propulsion 
system characteristics; technology challenges for propulsion systems; 
as well as innovative methods to manage a heavy-lift development 
program to include effective and affordable business practices. The RFI 
is open to the broad space community, including commercial, other 
Government agencies and academia. Information obtained from the RFI 
will be used for planning and acquisition-strategy development for 
current heavy-lift planning activities, funded in the fiscal year 2010 
Consolidated Appropriations Act (Public Law 111-117).
    Related to the RFI, on May 19, 2010, NASA posted a draft Broad Area 
Announcement (BAA). This draft BAA is soliciting proposals for a Heavy 
Lift and Propulsion Technology Trade study and seeks industry input on 
technical solutions in support of heavy lift system concepts studies. 
This draft BAA requests offerors to expand upon the previous NASA 
technical assessments. The final BAA solicitation, issued on June 30, 
2010, incorporates information obtained via the RFI as well as inputs 
from an Exploration industry workshop held in May 2010. These concept 
studies will include architecture assessments of a variety of potential 
heavy lift launch vehicles and in-space vehicle architectures employing 
various propulsion combinations and how they can be deployed to meet 
multiple mission objectives. All possible launch vehicle concepts will 
be evaluated to identify the best configuration to meet the Nation's 
needs. In addition, the studies performed during the execution of the 
BAA will identify technology gaps for heavy lift and propulsion systems 
to influence the suite of space launch propulsion technologies that 
need to be addressed as part of a development program. (Please note, 
the BAA is addressing fiscal year 2010 planned activities which may 
also contribute to future plans and activities.)
    The first major decision point for a heavy lift launch vehicle is 
anticipated to be in March 2011, at the completion of the BAA study 
effort, where NASA will have defined the optimum lift capability to 
meet multiple end users (NASA, DOD, and commercial) propellant suite 
for the launch vehicle stages, engine thrust level as well as other 
launch vehicle performance goals. At this point, without additional 
study funding, NASA will have the necessary information to make an 
informed decision to start the development of a heavy lift launch 
vehicle, pending adequate funding is available for the follow on heavy-
lift vehicle development effort.
    Question. When the President submitted his budget in February, it 
was thought by many that he was proposing cancelling the entire Project 
Constellation Program to include the Orion crew capsule? Can you 
provide insight as to why the change? In other words, what happened 
between February and April of this year that made him change his mind? 
Was the decision based on a cost analysis or some new requirement? To 
that end, did NASA program managers and cost analysts review the 
program at that time to compare the pros and cons of a full Orion crew 
capsule versus one that will only be used as an emergency escape 
vehicle?
    Answer. The President clarified our position on Orion during his 
April 15 speech at Kennedy Space Center, Florida. NASA's efforts to 
develop an emergency rescue vehicle would be based on the good work 
already completed on the Orion crew capsule and would focus the effort 
to provide a simpler and more efficient design that would provide crew 
emergency escape from the ISS and serve as part of the technical 
foundation for advanced spacecraft to be used in future deep space 
missions. This approach also would preserve a number of critical high-
tech industry jobs in key disciplines needed for our future deep space 
exploration program. NASA has put together a formulation team including 
Headquarters and Center personnel to develop a baseline approach that 
meets these requirements, balanced with the other priorities proposed 
in the President's fiscal year 2011 budget request. NASA will provide 
this information to Congress, including estimated costs, as soon as 
they are finalized.
    Question. Since the President is proposing an increase in the NASA 
budget of $6 billion over the next 5 years, the change in NASA emphasis 
is clearly not about trying to reduce deficit, correct? With the 
overall budget increasing, how much does the exploration portion for 
the budget change? If the previous exploration budget did not result in 
a sustainable program, how does a major reduction of $2 billion this 
year for exploration and $6 billion over the next 4 years alleviate 
that problem? Doesn't such a major reduction in exploration budget 
substantiate the public concern that we are on a path to nowhere?
    Answer. In the fiscal year 2011 President's budget request, the 
requested budget for exploration is almost $500 million more than the 
fiscal year 2010 enacted level, and the projected budget for 
exploration in fiscal year 2015 is $1.4 billion higher than the fiscal 
year 2010 enacted level--an increase of 37 percent in 5 years. While 
the fiscal year 2011 budget request, reflects less funding for 
exploration than anticipated in the fiscal year 2010 request, funding 
for NASA as a whole increases $6 billion over 5 years despite a tough 
budget environment.
    The fiscal year 2011 budget request outlines an innovative course 
for human space exploration, but does not change our goal--extending 
human presence throughout our solar system. NASA will lead the Nation 
on this new course of discovery and innovation, providing the 
technologies, capabilities and infrastructure required for sustainable, 
affordable human presence in space. NASA's investment in gaining 
critical knowledge about future destinations for human exploration, as 
well as transformational technology development and demonstration will 
serve as the foundation of NASA's ongoing space exploration effort, 
broadening opportunities for crewed missions to explore destinations in 
our solar system that we have not been to before.
    The President stated in his speech at KSC on April 15, 2010, that, 
``Early in the next decade, a set of crewed flights will test and prove 
the systems required for exploration beyond low Earth orbit. And by 
2025, we expect new spacecraft designed for long journeys to allow us 
to begin the first-ever crewed missions beyond the Moon into deep 
space. So we'll start--we'll start by sending astronauts to an asteroid 
for the first time in history. By the mid-2030s, I believe we can send 
humans to orbit Mars and return them safely to Earth. And a landing on 
Mars will follow. And I expect to be around to see it.''
    With a NEO and Mars as the key long-term destinations for NASA, we 
must begin to identify missing capabilities needed for such a mission. 
Mass is a huge barrier for a Mars mission because higher mass drives up 
cost, and it slows down progress. More mass without advanced 
technologies, such as advanced propulsion techniques or ways to prevent 
fuel boil-off in space, means that it will take more trips to lift 
resources into LEO for Mars missions and substantially more flights 
required to transport required resources to Mars. The same sort of 
scenarios also apply to missions for other beyond-LEO missions--more 
mass without advanced technologies will only serve to drive up costs 
and extend schedule, pushing our chances of breaking free of LEO even 
further into the future.
    In summary, while a timeline and budget plan for a manned Mars and 
other beyond-LEO missions is still in work, NASA believes that the 
benefits of the aforementioned technology development efforts along 
with anticipated infrastructure efficiencies will lead to sustainable 
manned missions to beyond-LEO destinations sooner and at less cost than 
missions currently envisioned under the Constellation Program.
    Question. Please quantify how the new plan creates 2,500 more jobs 
than Constellation would have by 2012? Since the new plan is advertised 
to be so good at creating new jobs in general and in Florida in 
particular, why is a $40 million transition program needed to retrain 
the displaced aerospace workers at Kennedy Space Center? Is this also 
going to be available in other States impacted by this decision?
    Answer. The fiscal year 2010 plan, which included retirement of the 
space shuttle and little need for build-up of workforce for 
Constellation launches, shows a drop of nearly 7,000 in total workforce 
demand in Florida, from just over 14,000 total contractors needed in 
2010 to approximately 8,500 needed in 2012. These estimates include 
direct labor and support labor in Florida, both contractor and civil 
servant, for both fiscal year 2010 and fiscal year 2011 President's 
budget request (PBR) plans.
    The fiscal year 2011 PBR plan extends the space shuttle 3 months, 
and locates a large amount of work in Florida, including but not 
limited to the 21st Century Space Complex construction and the program 
office for the Commercial Crew Program. Additionally, NASA's proposed 
plan identifies Kennedy Space Center as the deputy program office for 
the new Flagship Technology Demo program, which will bring some 
additional workforce demand. The estimates are that workforce demand 
for the fiscal year 2011 PBR plan will begin and remain higher than the 
fiscal year 2010 plan, starting at nearly 15,000 needed and falling to 
approximately 12,000 needed in 2012. This is an increase of as much as 
3,500 over the fiscal year 2010 plan, depending on assumptions of how 
much design and manufacturing work the commercial crew providers locate 
in Florida.
    NASA will continue to refine these estimates as program definition 
matures in preparation for the August 2010 Workforce Transition 
Strategy report submitted to Congress.
    The space shuttle program employs thousands of people in the 
Kennedy Space Center area. While the proposed fiscal year 2011 programs 
and funding planned for the Kennedy Space Center will create more jobs 
than the previous plans, NASA anticipates job losses in the community 
by the end of space shuttle program. The transition funding mentioned 
is intended to mitigate the impact of this loss.
    The administration has recently announced a comprehensive 
initiative, funded at a level up to $100 million, to support economic 
growth and job training in Florida and other regions affected the 
shuttle retirement and other programmatic changes in NASA's exploration 
program. While the initiative began on April 15, 2010, when the 
President announced a $40 million initiative to aid the areas around 
Kennedy Space Center, the Task Force established pursuant to the 
President's direction was also directed to prepare a plan that 
``explores future workforce and economic development activities that 
could be undertaken for affected aerospace communities in other States, 
as appropriate.''
    Several States and county officials have been applying for 
workforce-related grants through existing Federal programs. On June 2, 
2010, Secretary of Labor Solis announced the award of an additional $15 
million in workforce re-training funds for aerospace workers in Brevard 
County, Florida. In addition, on April 30, 2010, the Department of 
Labor announced a $1.2 million grant to assist approximately 200 
workers affected by layoffs at ATK Launch systems in Corinne, Utah, in 
connection with the transition of the space shuttle and Constellation 
programs. It is our understanding that the communities impacted within 
the State of Texas have also applied for assistance from the Department 
of Labor.
    Question. The latest proposal by the President changes the Orion 
crew capsule development effort to provide stand-by emergency escape 
capabilities for the space station--thereby reducing our reliance on 
foreign providers. Does this in any way impact our ability to send U.S. 
Astronauts into space? If not, how much are we planning on spending on 
this ``empty-shell'' capsule? Isn't the net result an expensive crew 
escape vehicle that duplicates what Soyuz already does and eliminates 
capability of using Orion for beyond Low Earth Orbit (LEO) missions? 
Does this change in Orion mission change the potential termination 
liability to Lockheed-Martin if Orion were to have been cancelled as 
proposed in original budget submittal from the President?
    Answer. NASA will provide details of this plan, including estimated 
costs, as soon as they are finalized.
    In addition to developing a U.S. commercial crew capability, 
creating an American-made crew escape capability will improve our 
ability of sending astronauts into space because it will lessen our 
dependence on foreign providers. Currently, NASA has purchased Soyuz 
seats through 2014 and it has legislative authority to purchase 
additional seats through 2016. However, if we need to purchase seats 
beyond July 1, 2016, NASA would need to secure legislative relief from 
the Iranian North Korean and Syria Nonproliferation Act.
    While it is likely that the President's proposed change to the 
Orion crew capsule would change Lockheed Martin's current estimate of 
potential termination liability, it is too early in the process to 
estimate the difference.
    Question. In late 1990s and early 2000s NASA embarked on game 
changing technology developments and spiral development of launch 
vehicles to significantly reduce cost of access to space, as part of 
Next Generation Launch Technology (NGLT) and 2nd Generation Launch 
Vehicle (2ndGen) programs. These initiatives resulted in the spending 
of billions of dollars on X-33 and X-34 single stage to orbit (SSTO) 
vehicles, RS-84 LOX/RP engine, and Orbital Space Plane (OSP), to 
mention a few, all of which were canceled. How is the current plan 
going to be successful when the same approach failed a decade ago? Why 
do we want to spend $3 billion on heavy lift technology development of 
a LOX/RP engine that is the same technology that flew on Saturn V 40 
years ago? How is LOX/RP engine development considered game changing 
technology development?
    Answer. Several recently released reports have described the 
agency's current plans for development of vehicles to access to LEO as 
being unsustainable for various reasons. The Office of Science 
Technology and Policy (OSTP) also performed an assessment of the 
current U.S. space launch industry (published in a report dated 
December 22, 2009) and came to a key conclusion: that although ``. . . 
the U.S. space launch propulsion industrial base provides a diverse 
range of technologies and more than adequate production capacity . . 
.'' the current U.S. industrial base ``. . . is under significant 
stress, due largely to low demand.'' The OSTP report further identifies 
a key driver in the loss of U.S. space launch services to foreign 
providers is due to development costs and overall performance. This 
situation has numerous serious consequences for the Nation, including 
loss of the global space launch market to foreign providers to the 
atrophy of the propulsion systems supply chain and associated loss of 
workforce skills and sub-tier providers. This imbalance between supply 
and demand could lead to the erosion of the Nation's technical 
leadership should this overcapacity and low demand scenario be allowed 
to continue.
    An approach to solving this imbalance is to direct the U.S. 
Government to invest in space launch propulsion-related activities that 
will ``identify potential breakthrough cost savings or performance 
opportunities in launch vehicle propulsion.'' (OSTP December 22, 2009 
report.)
    Question. Orion is part of Project Constellation. As such, it is 
being designed and developed concurrently with other major components 
of the program. I assume it is being designed to fly on an Ares rocket. 
Since the proposed plan appears to cancel Ares, are there any concerns 
that designing the capsule independently of the booster will create 
mating problems or interoperability problems at some point in the 
future?
    Answer. The Orion Crew Exploration Vehicle is being designed--and 
will continue to be designed until a change is authorized by Congress--
to fly on an Ares I launch vehicle. In the President's proposed plan, 
the emergency return vehicle (ERV) variant of Orion would be launched 
on an existing expendable launch vehicle system. Integration of the ERV 
with its launch vehicle (including factors such as physical mating 
interfaces, interoperability, induced loads environments, and rocket 
lift capability) will be extremely important to assess in detail as the 
design and implementation moves forward, assuming Congress approves the 
President's budget recommendation. Preliminary, low-fidelity 
assessments to date suggest that there are feasible options for 
launching an ERV on an existing rocket. Design-driving loads and 
environments induced by Ares I, for which Orion is currently designed, 
are expected to envelope those for existing rockets. Thus, major 
problems with launch vehicle integration are not expected.
    Question. Specifically related to cost, I would also like to know 
NASA's plans for operating the Orion crew capsule. Can you tell me how 
expensive it will be to launch the escape capsule? Would an Orion 
escape capsule be redundant seeing the Russian Soyuz capsule that our 
American astronauts would still need to use to get to the ISS would be 
docked and capable of being used as an emergency capsule?
    Answer. NASA has put together a formulation team including 
Headquarters and Center personnel to develop a baseline approach for 
the ERV. NASA will provide details of this plan, including estimated 
costs, as soon as they are finalized. However, in general, the 
objective is to create an American crew escape capability that will 
increase the safety of our crews on the space station, reduce our 
dependence on foreign providers, and simplify requirements for other 
commercial crew providers. This effort will also help establish a 
technological foundation for future exploration spacecraft needed for 
human missions beyond low-Earth orbit and will preserve some critical 
high-tech contractor jobs in Colorado, Texas, and Florida.
    Question. I imagine the escape vehicle would need to be 
periodically inspected and replaced to ensure it is operational in the 
critical time of need. How often would the Orion emergency escape 
capsule need to be replaced once docked to the ISS? To go beyond Low 
Earth Orbit, will another crew capsule need to be developed, i.e. will 
Orion have the capability of being used for anything other than an 
emergency vehicle for the ISS? How much money is saved by restricting 
the Orion crew capsule vice the current program of record? Does the 
analysis for any potential cost savings take into account the money 
NASA would provide private industry to develop a different manned crew 
capsule?
    Answer. The ERV would have to be maintained in a safe and ready 
state during its entire stay at the ISS. Indeed, periodic inspections 
and checkouts by the ground and/or ISS crew will likely be required, 
but details for such will not be established until design work 
commences. The current Orion Crew Exploration Vehicle is being designed 
to stay docked to ISS for up to 210 days. In contrast, the ERV would be 
designed to at least equal this life, but a longer docked life is being 
assessed as a goal for the ERV requirements. Initially, the ERV would 
be designed only for the ISS emergency return mission. However, per the 
President's proposed plan, it will also serve as a technical foundation 
for a future crew exploration vehicle. The specific extensibility of 
ERV technologies to the future vehicle(s) is currently being assessed. 
A bottoms-up cost estimate for the ERV is in work, along with the 
program requirements, acquisition plan, and implementation strategy. 
Results are expected to be completed over the next couple of months, 
and cost comparisons with the existing Orion project will be available 
at that time.

                        FUTURE OF CONSTELLATION

    Question. General Bolden, in a meeting with two of my colleagues in 
the Utah Congressional Delegation on Friday April 16, you reportedly 
clarified that, as far as you are concerned, the Constellation program 
was not dead under the administration's new plan. You reportedly said 
that you wished that the term ``cancelled'' could be removed from the 
current debate. What do you mean, exactly, by stating that you don't 
think Constellation is dead? It's clear that you would kill the Ares 
solid rockets, would you not? You would kill everything except a 
scaled-down Orion space capsule? Is that one piece of hardware from 
Constellation--the Orion capsule, sufficient for you to consider that 
Constellation lives? Please define what you mean by Constellation is 
still alive?
    Answer. Following the release of the fiscal year 2011 budget 
request, NASA established six study teams within ESMD to ensure we 
understand the steps (and the implications of those steps) that would 
need to be taken for an orderly transition of the Constellation program 
and to plan for the implementation of the new Exploration program. The 
work undertaken by these teams is a necessary part of that planning. 
One team, the Constellation Transition team, has initiated a broad 
survey of current workforce, contracts, facilities, property, security, 
knowledge capture, information technology, and other Government agency 
interface issues to determine what infrastructure and hardware could be 
used by the new programs and projects.
    Despite the early nature of these planning efforts, NASA is 
optimistic that there will be many capabilities developed by the 
Constellation program that will feed forward into the new programs. For 
example, options using the Orion capsule are currently being pursued 
for autonomous rendezvous and docking; and many of the capabilities we 
are pursuing at a low level through our Exploration Technology 
Development program are directly applicable to the new programs. Other 
important areas that will enable further advancement in the new 
initiative areas are: advanced robotics, propulsion development and 
test, friction stir welding, autonomous landing and hazard avoidance, 
and entry, descent, and landing technologies.
    Additionally, on April 15, 2010, President Obama laid out the goals 
and strategies for his new vision for NASA. In doing so, he directed 
NASA to build on the good work already completed on the Orion crew 
capsule and focus the effort to provide a simpler and more efficient 
design that would provide crew emergency escape from the ISS and serve 
as part of the technical foundation for advanced spacecraft to be used 
in future deep space missions. NASA plans to be able to launch this 
vehicle within the next few years, creating an American crew escape 
capability that will increase the safety of our crews on the space 
station, reduce our dependence on foreign providers, and simplify 
requirements for other commercial crew providers. This approach also 
will preserve a number of critical high-tech industry jobs in key 
disciplines needed for our future deep space exploration program.

                              NASA'S GOALS

    Question. General Bolden, one of the biggest criticisms of the 
administration's and NASA's old and new plan is the lack of a clear 
goal for all of this new science and technology that you purport to 
develop and fund on the carcass of Constellation. The President said he 
hopes to live to see the day when the United States has a mission to 
mars, or to an asteroid. That's all well and good, but that's so vague 
without a specific roadmap on how to get there. At least Constellation 
had a clear goal; back to the moon as a stepping stone for perfecting 
long-term basing in space, and then on to Mars. Does this new, revised 
plan have a specific goal, with specific timelines or milestones we can 
look to in judging its effectiveness?
    Answer. Under the fiscal year 2011 budget proposal, NASA would 
build technologies to support a sequence of deep-space destinations 
matched to growing capabilities, progressing step-by-step, beginning 
with crewed flight tests--perhaps a circumlunar mission--early next 
decade of vehicles for human exploration beyond LEO, a human mission to 
an asteroid by 2025, and a human mission to orbit Mars and return 
safety to Earth by the 2030s. A date for a manned lunar mission, 
however, has not been established.
    NASA's ESMD would lead the Nation on this new course of discovery 
and innovation, providing the technologies, capabilities and 
infrastructure required for sustainable, affordable human presence in 
space. Many of these capabilities have been recommended consistently 
for at least 24 years in national level reports of committees and 
commissions addressing future human space exploration. ESMD's 
investment in gaining critical knowledge about future destinations for 
human exploration, as well as transformational technology development 
and demonstration will serve as the foundation of NASA's ongoing space 
exploration effort, broadening opportunities for crewed missions to 
explore destinations in our solar system that we have not been to 
before. We have not sent people beyond low-Earth orbit in 38 years, and 
this budget gives us the great opportunity to focus on scouting and 
learning more about destinations to further explore our solar system 
and to develop the game-changing technologies that will take us there. 
It is important that we pursue these objectives to continue leading the 
world in human space exploration.
    Pursuant to the President's proposed new course, NASA has initiated 
planning activities to be able to effectively and efficiently implement 
these new activities in a timely manner upon Congressional enactment of 
the fiscal year 2011 budget. In April, NASA outlined for the 
subcommittee the agency's planned major program assignments across the 
agency's centers for new or extended activities proposed as part of the 
President's fiscal year 2011 budget request. These planned assignments 
build on the deep knowledge and expertise that NASA has built up over 
five decades, recognize the wealth of experience, commitment, and 
expertise resident at the NASA centers, and expand upon the strengths 
at each center. Additionally, following the release of the fiscal year 
2011 budget request, NASA established study teams within ESMD to ensure 
we understand the steps (and the implications of those steps) that 
would need to be taken for an orderly transition of the Constellation 
Program and to plan for the implementation of the new initiatives in 
the Exploration program. The work undertaken by these teams is a 
necessary part of that planning.
    NASA is taking prudent steps to plan for the new initiatives 
included in the fiscal year 2011 budget request, including Requests for 
Information (RFI), workshops, and preliminary studies. NASA is eager to 
seek external input from industry, academia, and other partners, and 
plans to accomplish this via a series of RFIs and industry workshops 
conducted this spring and into the summer. Doing so will ensure that 
NASA receives important feedback from our space partners before it 
begins to finalize its implementation plans for the proposed technology 
demonstrations and human spaceflight systems development activities 
that will be supported by the fiscal year 2011 budget, once approved by 
Congress. During CY 2010, NASA plans to issue a series of program 
formulation documents seeking input from the broader space community.
    Finally, NASA also has established the Human Exploration Framework 
Team (HEFT) to serve as a cross-agency planning activity. The team is 
being led by the ESMD and staffed with technical leaders from across 
NASA centers. The team is focused on developing and reviewing the 
integrated set of requirements and technologies required for future 
human spaceflight missions to many destinations, including Mars. As 
part of its broad integration charter, HEFT will develop implementation 
recommendations on the performance and pacing requirements for the 
technologies needed for future human exploration missions using 
``design reference missions,'' or DRMs. These DRMs will be the basis 
for validating capabilities and missions for 5-, 10-, and 15-year 
horizons, with milestones including crewed missions beyond the Moon 
into deep space by 2025, sending astronauts to an asteroid, and 
eventually landing on Mars. NASA expects to have initial products from 
the HEFT team this summer.

              FUTURE OF SOLID ROCKETS AND ARES TECHNOLOGY

    Question. General Bolden: Do you foresee any opportunity for NASA 
to avail itself of the Ares solid rocket technology under the new 
revised announcement by the President? Will Ares be considered eligible 
to compete for any of the $3.1 billion he announced for research and 
development into a heavy-lift vehicle?
    Answer. NASA will begin heavy lift vehicle system analyses on 
various launch vehicle concepts to determine the best approach that 
meets the affordability and reliability figures of merit. The 
administration is not opposed to using solid rocket motors. Concept 
heavy-lift launch vehicles could include solid rocket motors as well as 
liquid strap-ons and all concepts will be evaluated during a rigorous 
systems analysis effort to identify the best heavy-lift configuration 
to meet the Nation's needs.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran

                         ROCKET TESTING COMPLEX

    Question. Administrator Bolden, the budget includes more than $2 
billion over the next 5 years for development of a 21st Century Launch 
Complex at Kennedy Space Center. I am concerned that we are building a 
21st Century Launch Complex, but will be stuck with a 20th century 
engine testing complex. No rocket will be launched from Kennedy without 
first undergoing extensive testing at Stennis. Yet there are no funds 
in the budget request for facility upgrades at Stennis. Given NASA's 
interest in safety, shouldn't we invest a proportional level of 
resources into NASA's premier engine testing complex? What upgrades 
would you propose to make Stennis a 21st century rocket testing 
complex?
    Answer. NASA is providing $13.8 million in American Recovery and 
Reinvestment Act appropriations for the following activities at Stennis 
Space Center (SSC): (1) test stand upgrades to support commercial AJ26 
engine testing; (2) modernization of the high pressure gas facilities 
that support the test stands; (3) completion of test complex 
communication systems; and (4) repair of the Test A2 liquid oxygen/
hydrogen delivery system. These activities can support both NASA and 
commercial engine development activities. In the initial fiscal year 
2010 Operating Plan, NASA added $3.0 million for the A-3 test stand, 
increasing the budget from $16.9 million to $19.8 million in fiscal 
year 2010. The additional funds have enabled work to continue on this 
project.
    Beyond these efforts, NASA is working to determine what further 
investments are to be made at SSC to support launch vehicle testing. 
The Exploration Systems Mission Directorate has identified preliminary 
estimates for Stennis facility requirements in support of Heavy Lift 
and Propulsion Technology, which involve test stand investments that 
are expected to be needed for all heavy-lift options being addressed. 
While preliminary assessments are still being refined, NASA currently 
expects to conduct fiscal year 2011 effort in the following areas:
  --Continued Construction of A-3 Rocket Propulsion Test Facility.
  --E-Complex (RP component testing); funding will support test stand 
        design activities and long lead item ordering.
  --B2 Test Facility (RP engine testing); funding will support design 
        activities, refurbishment, long-lead ordering.
  --LOX/LH2 engine testing; Exploration Systems will likely recommend 
        LH2 testing of an existing engine but it will not require 
        facility mods.

                           HEAVY LIFT VEHICLE

    Question. Mr. Administrator, when we met in October, I was very 
pleased to hear your enthusiasm for NASA's role in development of a 
Heavy Lift Vehicle and for the unique capabilities the A-3 test stand 
at Stennis is going to provide for the engine testing of these 
vehicles. As NASA moves forward with research, development and testing 
of a Heavy Lift Vehicle, what will be the role of this unique national 
asset, the A-3 test stand, and is completion of its construction 
critical to the development of a Heavy Lift Vehicle?
    Answer. NASA made a determination in June to complete the A-3 test 
stand. NASA is in the early planning stages of identifying the 
preliminary engine testing that will be required within the heavy lift 
program, and specific test facilities have not been identified to date.

                 TESTING OF COMMERCIAL LAUNCH VEHICLES

    Question. Given the proposed focus of allowing the private sector 
to develop and operate Low Earth Orbit launch vehicles and your 
commitment to safety, it seems NASA's testing facilities would take on 
an increased significance. What are your plans to ensure testing 
capabilities and facilities are adequately funded for the future, and 
what role could you see Stennis Space Center playing in the testing of 
commercial launch vehicles?
    Answer. NASA is providing $13.8 million in American Recovery and 
Reinvestment Act appropriations for the following activities at Stennis 
Space Center (SSC): (1) test stand upgrades to support commercial AJ26 
engine testing; (2) modernization of the high pressure gas facilities 
that support the test stands; (3) completion of test complex 
communication systems; and (4) repair of the Test A2 liquid oxygen/
hydrogen delivery system. These activities can support both NASA and 
commercial engine development activities.
    In the initial fiscal year 2010 Operating Plan, NASA added $3.0 
million for the A-3 test stand, increasing the budget from $16.9 
million to $19.8 million in fiscal year 2010. The additional funds have 
enabled work to continue on this project.
    Beyond these efforts, NASA is working to determine what further 
investments are to be made at SSC to support launch vehicle testing. 
The Exploration Systems Mission Directorate has identified preliminary 
estimates for Stennis facility requirements, which involve test stand 
investments that are expected to be needed for all heavy-lift options 
being addressed. While preliminary assessments are still being refined, 
NASA currently expects to conduct fiscal year 2011 effort in the 
following areas:
  --Continued Construction of A-3 Rocket Propulsion Test Facility.
  --E-Complex (RP component testing); funding will support test stand 
        design activities and long lead item ordering.
  --B2 Test Facility (RP engine testing); funding will support design 
        activities, refurbishment, long-lead ordering.
  --LOX/LH2 engine testing; Exploration Systems will likely recommend 
        LH2 testing of an existing engine but it will not require 
        facility mods.
    NASA's upgrades at SSC can support both Government and commercial 
launch vehicle testing, and the agency will make the facility available 
as an option for commercial vendors.

                           HEAVY LIFT VEHICLE

    Question. Administrator Bolden, President Obama said in his speech 
last week that he is committed to choosing a final design for the new 
Heavy Lift Vehicle no later than 2015. You and I agreed in our October 
meeting that development of a Heavy Lift Vehicle is one of the most 
critical initiatives NASA will take on in the coming years. Would 
choosing a Heavy Lift Vehicle design earlier than 2015, say in 2011 or 
2012, accelerate the President's proposals and fill some of the Space 
Center mission gaps that have members of this body so concerned? This 
seems like it could be a major part of a fairly reasonable compromise 
between the President's goals and the wishes of those in Congress who 
are concerned about the cancellation of Constellation.
    Answer. NASA's goal is to reduce costs and shorten development 
timeframes for future heavy-lift systems for human exploration. The 
Nation needs to aggressively bring about an affordable launch 
capability if humans are to explore destinations beyond low-Earth orbit 
in the 2020-2025 timeframe. Thus, as noted in the question, on April 
15, 2010, the President called upon NASA to select a rocket design no 
later than 2015 and then begin to build it; a decision no later than 
2015 means that major work on building a new heavy-lift rocket will 
likely begin 2 years sooner than in the previous plan. NASA is in the 
process of assessing the best approach for implementing this new 
direction. The initial strategy employs a rigorous systems analysis 
effort starting at the overall launch vehicle system level to define 
the top-level requirements for the heavy lift launch system that can 
support multiple end users. This includes setting performance goals, 
identifying lift capability, propellant suite for each launch vehicle 
stage as examples of top-level requirements.
    On May 3, 2010, NASA issued a Request for Information (RFI) seeking 
general information regarding potential launch or space transportation 
architectures (expendable, reusable, or a hybrid system) that could be 
utilized by multiple customers (e.g., NASA, commercial and other 
Government agencies). The RFI solicits information regarding propulsion 
system characteristics; technology challenges for propulsion systems; 
as well as innovative methods to manage a heavy-lift development 
program to include effective and affordable business practices. The RFI 
is open to the broad space community, including commercial, other 
Government agencies and academia. Information obtained from the RFI 
will be used for planning and acquisition-strategy development for 
current heavy-lift planning activities, funded in the fiscal year 2010 
Consolidated Appropriations Act (Public Law 111-117).
    Related to the RFI, on June 30, 2010 NASA posted a Broad Area 
Announcement (BAA). This BAA is soliciting proposals for a Heavy Lift 
and Propulsion Technology Trade study and seeks industry input on 
technical solutions in support of heavy lift system concepts studies. 
It requests that offerors expand upon previous NASA technical 
assessments and incorporates information obtained via the RFI as well 
as inputs from an Exploration industry workshop held in May 2010. These 
concept studies will include architecture assessments of a variety of 
potential heavy lift launch vehicles and in-space vehicle architectures 
employing various propulsion combinations and how they can be deployed 
to meet multiple mission objectives. All possible launch vehicle 
concepts will be evaluated to identify the best configuration to meet 
the Nation's needs. In addition, the studies performed during the 
execution of the BAA will identify technology gaps for heavy lift and 
propulsion systems to influence the suite of space launch propulsion 
technologies that need to be addressed as part of a development 
program. (Please note, the BAA is addressing fiscal year 2010 planned 
activities which may also contribute to future plans and activities.)
    The first major milestone for a heavy lift launch vehicle is 
anticipated to be in March 2011, at the completion of the BAA study 
effort, where NASA will have defined the optimum lift capability to 
meet multiple end users (NASA, DOD, and commercial) propellant suite 
for the launch vehicle stages, engine thrust level as well as other 
launch vehicle performance goals.

            SAFETY AND MISSION ASSURANCE TECHNICAL AUTHORITY

    Question. The Center Management and Operations Program, Safety and 
Mission Assurance (SMA) Technical Authority fiscal year 2011 budget has 
an increase of $4 million over the fiscal year 2010 enacted level 
($51.6 million fiscal year 2010 enacted to $55.5 million fiscal year 
2011), however, Stennis Space Center, who received funding in fiscal 
year 2010 is not included in this portion of the President's fiscal 
year 2011 budget. Stennis is the only center to receive funding in 
fiscal year 2010 and not be included in the fiscal year 2011 budget. 
Your fiscal year 2010 budget projected continued funding for SMA 
Technical Authority at Stennis Space Center? What has changed to cause 
that funding to no longer be necessary?
    Answer. The table included on Page CROSS--12 of the fiscal year 
2011 budget estimates are incorrect. The total shown for SMA Technical 
Authority is correct, but the Stennis Space Center line was 
inadvertently omitted from the table. The correct table is shown below:

                                                  [In millions]
----------------------------------------------------------------------------------------------------------------
                                                   2010      Fiscal     Fiscal     Fiscal     Fiscal     Fiscal
            SMA Technical Authority              Enacted   Year 2011  Year 2012  Year 2013  Year 2014  Year 2015
----------------------------------------------------------------------------------------------------------------
Ames Research Center..........................       $3.4       $3.8       $3.9       $4.1       $4.2       $4.4
Dryden Flight Research Center.................       $4.6       $4.9       $5.0       $5.2       $5.4       $5.6
Glenn Research Center.........................       $2.1       $2.2       $2.3       $2.4       $2.5       $2.6
Goddard Space Flight Center...................      $12.6      $14.5      $15.1      $15.8      $16.4      $17.1
Johnson Space Center..........................       $6.8       $6.6       $6.8       $7.1       $7.3       $7.6
Kennedy Space Center..........................       $9.3      $10.7      $11.0      $11.3      $11.6      $11.9
Langley Research Center.......................       $3.1       $3.2       $3.3       $3.4       $3.6       $3.7
Marshall Space Flight Center..................       $8.2       $8.5       $8.8       $9.2       $9.4       $9.8
Stennis Space Center..........................       $1.3       $1.4       $1.4       $1.5       $1.5       $1.5
                                               -----------------------------------------------------------------
      Total...................................      $51.6      $55.6      $57.6      $59.9      $62.0      $64.2
----------------------------------------------------------------------------------------------------------------
Note.--Totals may not sum precisely due to rounding.

                                 ______
                                 
                  Questions Submitted to John C. Frost
          Questions Submitted by Senator Kay Bailey Hutchison

                SPACE STATION SAFETY AND SUSTAINABILITY

    Question. On page two of your Annual Report for 2009, it is stated: 
``While many threats impact the safety of the astronauts and the ISS, 
one of the biggest challenges is resupply and sustainability. A 
combination of shuttle, Soyuz and Progress flights has performed this 
mission admirably over the past 6 years.'' It went on to describe NASA 
plans to develop commercial Cargo Resupply Services, as well as 
developments of resupply capabilities by the European and Japanese 
space agencies, and express ``satisfaction'' at the progress being made 
in developing those capabilities. Beyond that, there is not much said 
about space station safety and sustainability in your report. Elsewhere 
in your report, and in the previous year's report, your panel states 
its view that continued shuttle flights beyond the planned termination 
date of 2010 is ``unwise.'' You don't say it is ``unsafe,'' as many 
media reports and others have claimed.
    I presume that, if the Panel felt the space shuttle was ``unsafe'' 
you would have recommended it stop flying immediately. Is that a 
correct assumption?
    Answer. Safety is a concept that only has meaning in a comparative 
sense. No significant activity, especially one in space, is free of 
risk. The question to be asked is whether the anticipated risk exceeds 
that which the program has found as acceptable. If the ASAP felt that 
the risk involved in continuing to fly the shuttle to complete its 
manifest was inconsistent with the level NASA had judged as acceptable, 
or if the risks were unnecessary or inconsistent with policies and 
procedures that NASA had described as applicable, the ASAP would have 
certainly informed NASA and Congress of that fact. Our reports to 
Congress have consistently provided the assessment that while the 
shuttle does not, and cannot, offer the degree of safety that a modern, 
safety optimized vehicle can provide, given the scrupulous attention to 
detail and extraordinary care NASA has been applying to its support, it 
is capable of completing its assigned missions with a risk that NASA 
has long accepted.
    Question. During questioning following your verbal testimony, you 
claimed the shuttle was unsafe simply because each flight increases the 
odds of an accident on the next flight, not because each shuttle 
deteriorates in an unsafe manner from one flight to the next. This 
analysis is not included in any ASAP report. Please detail extensively 
any reasons or rationale ASAP considers shuttle flights beyond the 
planned termination date of 2010 to be ``unsafe'' or ``unwise.''
    Answer. The ASAP does not believe that ``each flight increases the 
odds of an accident on the next flight''. As I stated in my testimony, 
because the shuttle's systems have not exhibited signs of an imminent 
``wear out'', its short term risk is thought to be relatively steady. 
The increasing risk that I referred to in my testimony was the 
accumulation of risk over time with each launch as the shuttle's safety 
systems are challenged more and more times. Statistically, this can be 
equated to rolling dice. The probability of eventually rolling snake 
eyes is proportional to the number of times you roll the dice. That 
being said, the Shuttle certainly is an aging system which, over the 
years, has had desirable safety improvements tabled or only partially 
implemented because of its limited remaining service life. The risk 
decisions behind those choices would need to be reexamined were the 
shuttle to continue to fly for any significant extended period. 
Additionally, many Shuttle components are gradually reaching the end of 
their safe use life. These components would also require evaluation, 
test and potential replacement. The Columbia Accident Investigation 
Board recognized that this process was both natural and inevitable and 
therefore recommended that if the shuttle were to be extended that it 
go through a rigorous recertification program. We agree.
    Question. It is clear that no thorough and complete analysis has 
been done by NASA to ensure that the basic space station systems, 
including life support systems, aboard the ISS will be able to function 
through 2020 without additional spares, replacements, or refurbishment. 
It is also unclear whether any such items that might be needed are of a 
size and weight that can only be delivered by the space shuttle (things 
like spare radiators or solar arrays, which are essential for power and 
thermal control of the station.)
    Shouldn't this be an issue of concern to the Aerospace Safety 
Advisory Panel?
    Answer. We agree and have begun a more detailed look at these 
issues. The ISS life extension is significant and could have broad 
safety implications.
    Question. Have you begun any review of this issue or requested 
information from NASA, in view of the decision to extend the station 
through at least 2020?
    Answer. While the Panel has not performed a detailed assessment of 
an ISS life extension, the Panel did provide one member of a 
congressionally mandated cross functional review in 2007 of the space 
station survivability given the various risks to which it is exposed. 
That review concluded that the largest threat to ISS survivability was 
Micrometeorite/Orbital Debris impact. Recommendations were made to 
minimize that risk. The ASAP has now begun to look at the various 
issues that are involved in the ISS life extension.
    Question. In your report for 2009, you mention the Safety and 
Mission Assurance Technical Excellence Program (STEP) and state ``One 
STEP goal is to transition the Safety and Mission Assurance 
professionals' focus from an operating focus for shuttle and space 
station to a design focus for building the next generation of manned 
space vehicles.''
    Given a decision to extend the station through 2020, shouldn't 
there remain a focus by the STEP program on space station safety 
issues?
    Answer. Yes, recent programmatic changes, including the ISS life 
extension, will require adjustments in the focus of the STEP Program.
    Question. Which safety issues in particular should be assessed?
    Answer. Significant changes are being proposed in the role that 
NASA personnel play in the research and development, acquisition, and 
operation of space programs. The proposed use of commercial providers 
for crew transport in particular would require a very different 
approach to verification, validation, and certification than NASA has 
traditionally used. Once policies to address these requirements are 
solidified, significant changes in the training, allocation, and 
organization of NASA personnel may be required. STEP will need to be 
adjusted accordingly.

            HUMAN RATING REQUIREMENTS--COMMERCIAL AND SOYUZ

    Question. The ASAP Report addressed the issue of Human Rating 
Requirements for commercial crew capabilities, which had been raised as 
an option during the Augustine panel review--a review of which the 
report was rather critical. While a focus by the panel on the 
development of those requirements is appropriate, a statement made in 
that section of the report regarding potential international crew 
transportation services raises significant concern. The report (on page 
6) states: ``International transportation service that would extend 
beyond that currently in use (Russia) should be evaluated against the 
same performance standard as COTS human transportation services from 
U.S. Vendors.'' Obviously, without actually saying it, the reference is 
to the Russian Soyuz crew transportation system.
    A reading of that language suggests that the Soyuz is exempt from 
``the same performance standard as COTS human transportation 
services.'' What would the basis be for that exemption?
    Answer. The Soyuz has already passed through the ``gate'' of NASA 
human rating by virtue of assessments done prior to its utilization by 
NASA crews and its long history of providing safe transport to Russian 
Cosmonauts. This history, and a close working relationship between the 
agencies of the two countries, has provided NASA with significant 
insight into the design and operation of the Soyuz and given them 
confidence in its abilities.
    Question. Has the Panel conducted any sort of review of safety and 
reliability measures for the Soyuz vehicle? If so, have you reported on 
that review? If not, can you explain why not?
    Answer. The Panel has had regular discussions with senior NASA 
experts on their processes for gaining confidence in the Soyuz system. 
Particular attention was focused on resolution of re-entry anomalies 
that were experienced in recent years. While the Panel itself is not 
privy to the details of the Soyuz vehicles, we have gained confidence 
that NASA officials are taking reasonable steps to gain the required 
insight.
    Question. Are you suggesting that the Aerospace Safety Advisory 
Panel is completely satisfied, whether by any independent analysis or 
direct assessment, that the crew vehicle on which the United States 
will rely for its only human access to space for the next 5 to 7 years 
is ``safe enough'' for us to be comfortable in accepting that reliance?
    Answer. As explained above, the Panel's assessment has been of the 
NASA processes used to gain confidence in the Soyuz system. While we 
cannot independently validate the safety of the Soyuz, we are aware of 
no issues that lead to significant concern at this time.
    Question. A full one-third of the last six Soyuz flights returning 
to Earth, have experienced ``unexplained anomalies.'' In two cases, the 
vehicles returned in a steeper-than-normal trajectory and experienced 
erratic movement during re-entry, caused by an improper separation of 
the descent module from the rest of the spacecraft. The crews were 
subjected to much higher gravity loads--if not dangerously high, at 
least uncomfortably high, from all reports. In another previous case, 
there was minor disturbance caused by what was reportedly the uneven 
packing and mounting of waste materials in the upper module, before it 
separated from the descent module. In none of these cases do we know 
for sure what took place. Steps have been taken to try to avoid what is 
thought to be the problem, but it has not been verified.
    If this were to happen with the space shuttle, what would be the 
result? Wouldn't it be necessary to ground the fleet until the cause 
was determined and repairs or adjustments made? Why is this acceptable 
for continued U.S. reliance on the Soyuz?
    Answer. Both the shuttle and the Soyuz flight teams examine each 
and every anomaly that occurs on their system on each flight. Just as 
they do for shuttle anomaly assessments, senior NASA officials sat with 
their Russian counterparts during the assessments for the problems 
described above. They reported to us that similar rigorous assessment 
techniques were used in both countries. Most probable causes have been 
identified and steps taken to prevent recurrence. It is worth noting 
that these anomalies demonstrated one of the unique safety features of 
the Soyuz design: its inherent reentry aerodynamic stability that does 
not rely on complex guidance components to maintain alignment during 
reentry.
    Question. If at any time in the next 5 to 7 years something more 
serious were to happen during a Soyuz descent, and if it were serious 
enough to force the grounding of the Soyuz fleet for an extended period 
of time (a year or more), it might be necessary, due to the on-orbit 
limits of the Soyuz, for the six crew members still on board the space 
station to have to abandon the space station--using the same kind of 
vehicle which had experienced the problem which forced the grounding of 
the fleet.
    Has your panel considered such a possibility? Could that possibly 
be considered a ``wise'' or ``safe'' choice for this Nation to make, to 
have placed our astronauts--and our partners' astronauts--in that 
position?
    Answer. This is one of the risks that the Panel will be evaluating 
in the coming months. As I stated in my testimony, there is an 
increased risk of forced station abandonment once we are limited to a 
single means of ISS crew access. The steps being taken to minimize this 
risk will be examined, as will the impact of such a potential 
abandonment, both on the crew and the danger an abandoned ISS might 
pose to those on the ground.

                              ASAP CHARTER

    Question. I have expressed some concerns I have about the 
thoroughness and appropriateness of some of the statements made in 
previous reports by your Panel. The Aerospace Safety Advisory Panel 
(ASAP) operates under the Federal Advisory Committee Act (FACA). That 
act imposes a requirement on the Committees of Jurisdiction to make a 
continuing review of the activities of each advisory committee under 
its jurisdiction to determine whether such advisory committee should be 
``abolished or merged with any other advisory committee, or whether the 
responsibilities of such advisory committee should be revised.'' In 
addition, the Charter of the ASAP states that it is to advise the NASA 
Administrator and the Congress.''
    Based on your experience on the Panel, do you believe there is any 
sense that there should be greater interaction between the appropriate 
congressional committees and the Panel, beyond simply briefing the 
Congress on its annual reports?
    Answer. The Panel, as currently constituted, is a strategic 
resource for Congress and NASA focused on processes, plans, and 
policies that are necessary to maximize safety rather than the detail 
design assessments of hardware. While the results of our deliberations 
are shared freely with both NASA and Congress, it must be remembered 
that since we only meet formally four times a year, the availability of 
material that would be of interest to the committees is somewhat 
limited. We have quickly responded to all requests for support from 
both NASA and Congress and will happily do so for any in the future.
    Question. Would that include a practice of briefing the Congress 
before publicly releasing the annual report, which the panel failed to 
do in releasing the Report for 2009?
    Answer. Our annual report is based directly on the results of our 
quarterly reviews which are specific and readily available. Due to the 
time sensitivity of many of these subjects, I suggest that an ongoing 
dialog concerning questions members may have about these reports may be 
of more value.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran

    Question. I think our memories of the Challenger and the Columbia 
remind us of the risks our Astronauts willingly accept, just as 
Administrator Bolden did when he piloted the Discovery to deliver the 
Hubble telescope to space exactly 20 years ago this Saturday, April 24. 
I know NASA continues to look for ways to reduce the frequency of 
accidents. In your role as a NASA safety expert, could you help me 
understand to what degree and in what ways does robust engine testing 
minimize the risk of future accidents and ensure that our brave 
Astronauts come home safely?
    Answer. The propulsion component of any space transportation system 
is one of the most critical pieces of hardware for a safe and 
successful mission. It is the source of the most significant risks of 
catastrophic failure during launch. In the case of either solid or 
liquid rockets, testing is one of the most basic validation techniques 
to show that the systems analysis and safety studies are accurate and 
correct. For the case of solids, no test of the actual rocket that will 
be on the vehicle can be accomplished (it has only a one-time use), 
however testing must be done on a statistically significant sample to 
prove that our safety analysis is valid. On liquid or multi-use 
propulsion, we have the advantage of actually firing the engine which 
will be on the vehicle and then examining its condition after such a 
trial firing. This provides an extra margin of safety for engines of 
this type. There is no question, in either case, that testing both in 
development and in production/operations where possible provides a 
fundamental mechanism to validate safety assessments and performance 
analysis. Vigorous and extensive testing of rocket motors was one of 
the touchstones of Dr. Wernher von Braun's approach to development of 
human rated rockets like the Saturn V.
    Question. President Obama's new plan calls for the use of 
contractor owned and operated launches for the first time ever. His 
critics have said that the private sector cannot provide the level of 
safety that has been provided by NASA. The first time a commercial 
launch company experiences a significant accident, scrutiny of NASA for 
releasing direct control of launch activities and the President's plan 
will be jeopardized. Understanding that NASA already places great value 
on safety do you believe that NASA will need to place an even greater 
emphasis on commercial engine testing and safety to ensure the chances 
of such an accident are minimized.
    Answer. While the already high degree of emphasis on safety may not 
change under the proposed new acquisition strategy, the techniques for 
ensuring the safety of the vehicles carrying our astronauts certainly 
will. The classical acquisition strategy of direct and detailed NASA 
involvement in every step of space vehicle design provides NASA with 
deep insight into the design features, potential failure modes, 
robustness, and reliability of the systems and their components. This 
deep insight may not be available with commercial providers who 
independently develop systems using their own procedures, approaches, 
and experience base. The current NASA work process will have to be 
replaced with a different approach that has not yet been developed. 
This approach may well include significantly more test and 
demonstration of safety critical components such as engines.

                          SUBCOMMITTEE RECESS

    Senator Mikulski. This subcommittee stands in recess until 
Thursday, April 29 at 10 a.m., when we will take the testimony 
of Attorney General Eric Holder.
    The subcommittee stands in recess.
    [Whereupon, at 11:50 a.m., Thursday, April 22, the 
subcommittee was recessed, to reconvene at 10 a.m., Thursday, 
April 29.]


  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2011

                              ----------                              


                         THURSDAY, MAY 6, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:17 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Barbara A. Mikulski (chairwoman) 
presiding.
    Present: Senators Mikulski, Leahy, Feinstein, Lautenberg, 
and Murkowski.

                         DEPARTMENT OF JUSTICE

                            Attorney General

STATEMENT OF HON. ERIC H. HOLDER, JR., ATTORNEY GENERAL

            OPENING STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Good morning, everybody.
    This is the Commerce, Justice and Science Subcommittee on 
Appropriations and we will come to order. Today, we review the 
budget for the Department of Justice and take testimony from 
the very able Attorney General Eric Holder. After Mr. Holder 
completes his remarks and we have our questioning, we will also 
hear from the Inspector General Glenn Fine. As everyone knows, 
it is the practice now of this subcommittee at every hearing to 
listen to the Inspector General.
    I want to note the fact that though Senator Shelby is not 
here, it is because the Banking Committee is deliberating the 
financial service reform on the floor. Because he is the 
ranking member, he is required to be there. With unanimous 
consent, we will put the Shelby statement into the record.
    [The statement follows:]

            Prepared Statement of Senator Richard C. Shelby

    Thank you, Madam Chairwoman. And thank you, Attorney General 
Holder, for joining us to discuss the Department of Justice and its 
fiscal year 2011 budget request.
    First, I want to recognize and extend my appreciation and support 
to the men and women of the Department of Justice who protect this 
country from crime and terrorism. We owe them all a debt of gratitude.
    The fiscal year 2011 budget request for the Department of Justice 
is $29 billion. This is a $1.5 billion, or 5 percent increase, over the 
fiscal year 2010 request. Via the Second Chance Act, the Department of 
Justice is requesting $140 million to educate and mentor terrorists, 
pedophiles and career criminals--while requesting minimal funds for 
reducing the DNA backlog and tracking the monsters that abducted and 
sexually assaulted Adam Walsh, Elizabeth Smart, Dru Sjodin, Polly 
Klaas, Jessica Lunsford, and others like them.
    Minimal progress has been made in funding and implementing the Adam 
Walsh Act and a long term and efficient plan for reducing the DNA 
backlog by increasing public crime lab capacity is nonexistent.
    How can we look into the eyes of the parents of these children and 
tell them DOJ and the administration are prioritizing criminals' re-
entry into society over funding the Adam Walsh Act?
    In a perfect world flush with resources I would be supportive of 
funding the Second Chance Act, but the very idea of taking money from 
victims and law enforcement officers to educate and comfort terrorists, 
pedophiles, and career criminals is once again, an abomination.
    General Holder, on March 6 of this year, President Obama appeared 
on the 1,000th episode of America's Most Wanted and told John Walsh, 
``We're going to do everything in our power, as long as I'm in the 
White House and as long as I'm the father of two girls, to make sure 
that we're providing the States the support they need to make this 
happen.''
    The President went on to tell Mr. Walsh that the White House had 
increased the number of Deputy U.S. Marshals dedicated to Adam Walsh 
cases from 300 to 400, increased AWA funding by 23 percent, and how 
important it is for the administration to build up the Marshals Service 
as it was something we want to do in our Federal budget.
    I regret to say that the President misinformed John Walsh. In 
reality, the Marshals Service will have a total of 177 operational and 
support personnel solely dedicated to Adam Walsh Act enforcement in 
fiscal year 2010, which is the most they've ever had. This 
subcommittee, not the White House, added the 105 dedicated personnel 
that the president credited himself with.
    In addition to the 177 personnel, 237 Marshals Service 
investigators support Walsh Act implementation on a collateral basis. 
This means Walsh activities are only a portion of their many duties as 
they are also responsible for protecting judges, tracking down non-sex 
crime fugitives, and transporting prisoners. In my 6 years of being on 
this subcommittee, the administration has never requested an increase 
for the Marshals Service purely dedicated to this mission.
    In 2008, Senator Mikulski and I included the first ever funding of 
$17 million for Adam Walsh enforcement in a war supplemental funding 
bill. In 2009, we increased this funding by another $5 million. In 
2010, the President simply requested funding to keep Deputy Marshals on 
board, with no increase. We said that is not good enough, and provided 
a $27.5 million increase above the President's extremely modest request 
of $15 million in 2010. The President has not requested an increase for 
Adam Walsh Act enforcement, but instead is taking credit where the 
Congress saw the need and provided the resources. I would hope that the 
White House would correct the record and take the initiative to provide 
more funding for the Marshals Service to protect children from 
predators, instead of taking credit for the job Congress has done. I 
would suspect Mr. Walsh hasn't heard a word from anyone in the 
administration since the President used him for lip service and 
airtime.
    One issue it seems that both the Department and the subcommittee 
agree on is the importance of the National Center for Missing and 
Exploited Children (NCMEC) and their continuing leadership in combating 
the exploitation of children. DOJ continues to support NCMEC thru the 
Missing Children grants we have appropriated and, by all accounts, 
there continues to be a strong and unique partnership serving the 
interests of our most innocent victims of crime. I am concerned, 
however, that the administration's budget reduces the Missing 
Children's account--the pool from which NCMEC and other child safety 
nonprofits must compete--by $10 million. I hope we can work together to 
increase that level of funding to insure that NCMEC receives the 
continued support it needs and that we are able to also help others in 
this area. We should be growing the pie for helping organizations that 
combat missing and exploited children rather than shrinking it.
    The President also told John Walsh he wanted to provide support to 
State and local officials for DNA testing because they are strapped for 
some of the basic resources. Saying, ``that we're going to get support, 
bipartisan support from Congress on this issue, because it's so 
important to every family across America and there are just too many 
horror stories reminding us that we're not doing enough.''
    Mr. Attorney General, I would first start this initiative by having 
senior program managers at the National Institute of Justice who are 
responsible for DNA solicitations and being accessible to State and 
local crime labs to show up for work more than 3 days a week. I would 
also direct NIJ to stop writing grant solicitations catering to their 
for-profit DNA vendor friends that have had carte blanche access to NIJ 
for too long. DOJ should be more diligent in ensuring that components 
serving State and local law enforcement agencies have representatives 
that are accessible and accountable to the State and local labs they 
are entrusted to support.
    Our Government forensic labs need to continue to build their 
capacity to adequately serve the justice system, and have used NIJ 
funding to make great strides in decreasing backlogs. I know that in my 
State, the Alabama Department of Forensic Sciences has continued to 
make it a focus of theirs to build capacity in an effort to ensure 
backlogs don't recur once they're addressed--and they have been very 
successful. They have erased the backlogs in drug chemistry and 
toxicology analyses, and consistently reduced the DNA backlog, even as 
they have expanded their services. By building their capacity, 
Government labs can process cases efficiently, expand their services, 
and start to test evidence from unsolved petty and property crimes, as 
ours has in Alabama.
    Recently in my hometown of Tuscaloosa, a cold case violent sexual 
predator was identified almost 20 years later as a rapist of a 
University of Alabama graduate student. This case would never have been 
solved without DNA and a dedicated lab which focused on building their 
capacity to efficiently analyze unsolved cold cases. The long term 
solution to forensic backlogs is building capacity for Government labs 
and not in the continual outsourcing to private companies who incite 
victims and victims groups and mislead law enforcement agencies, for 
the sake of a profit.
    The perceived atmosphere of cronyism with private vender labs at 
NIJ is retaliatory and do as I say. If State and local crime labs 
disagree with NIJ on DNA policy, they should not be fearful of 
retaliatory actions by NIJ because they expressed their expert 
opinions. I have expressed this sentiment before to you and the 
previous administration about this unethical behavior yet no concrete 
actions to address this injustice have occurred. The culture of NIJ 
succumbing to influence and policy suggestions by for-profit labs began 
almost a decade ago with NIJ employees wanting to graduate into the 
private sector to double and triple their salaries. Evidence quality is 
paramount in forensics and the highest quality work is done in 
Government labs.
    Continual outsourcing to private labs creates a residual holding 
pattern. While the seemingly quick fixes of loosening DNA technical 
review standards and private labs having access to the DNA database 
sounds like a quick fix to the backlog solution, the long term results 
could be detrimental to the integrity of cases, the database and the 
welfare of victims and law enforcement. NIJ funding should be focused 
on building the capacity of Government labs to address the current 
backlogs, and more importantly, to provide the Government lab with the 
infrastructure to insure these backlogs don't recur. NIJ should not be 
focused on providing a bailout or setting up a welfare system for the 
private DNA labs at the taxpayer's expense.
    Lastly about DNA, I wrote a letter to the FBI director expressing 
concern about undue pressure being put on the FBI to change existing 
DNA policy, citing correspondence from private vendor labs. I am told 
that as recently as this week, a Member of Congress mentioned multiple 
times by the DNA vendor in that correspondence, threatened to change 
the FBI's DNA policy by legislation if the FBI didn't do so on their 
own.
    Mr. Attorney General, for the sake of the integrity of the criminal 
justice system and the Department of Justice, it would behoove you to 
heed the concerns and needs State and local crime lab directors who are 
actual DNA experts--not Members of Congress, their staff, for-profit 
DNA company sales executives, lobbyists, former NIJ employees, movies 
stars, and group advocates who have no DNA training or experience. The 
President's fiscal year 2011 budget fails to fund the critical needs 
that the Attorney General identified and requested funding for in his 
request to the Office of Management and Budget during the budget 
process.
    For example, the budget proposes over $300 million in enhancements 
for national security--but that amount is substantially less than the 
$478 million the Department requested from OMB. In fact, OMB initially 
recommended only $173 million for national security, a mere 36 percent 
of the Department's request.
    When Director Mueller of the Federal Bureau of Investigation 
testified 3 weeks ago, he verified that the President's fiscal year 
2011 budget would cut their terrorism fighting capabilities. For every 
new dollar proposed by the White House for the FBI to fight terrorists, 
$6 of current counterterrorism fighting capability are cut.
    Additionally, the White House does not believe the assessment of 
its own Department of Homeland Security that terrorist use of 
improvised explosive devices--IEDs--remains the greatest threat to the 
United States. If the White House believed that assessment, it would 
not have proposed to cancel $99 million Congress appropriated to the 
FBI for the construction of necessary facilities to forensically and 
technically exploit IEDs and terrorist bomb-making materials.
    Terrorist use of explosive devices continues to be a key threat to 
the United States. In just the past few months, we have seen an attempt 
to blow up a Northwest Airlines flight, a plot to blow up bombs in New 
York City subways, and plots to blow up Federal buildings in Texas and 
Illinois. This past weekend alone in New York's Time Square 
demonstrates terrorists' abilities to use explosive devices in major 
metropolitan U.S. cities. On an almost daily basis, we read about 
terrorists and insurgents using improvised explosive devices to injure 
and kill U.S. and coalition troops in Afghanistan and Iraq. Our 
embassies and consulates in Pakistan, Yemen, and other countries have 
been targeted by terrorist bombers.
    As Director Mueller stated in a letter to you Mr. Attorney General, 
dated December 2, 2009:

    ``The OMB recommendation does not recognize the value of biometric 
information gleaned from recovered and seized IEDs and related 
materials to the intelligence and homeland security communities. In one 
recent instance, a TEDAC latent print examiner enhanced and then 
searched a latent fingerprint initially developed by DOD examiners in 
theater from an IED/weapons cache and determined the individual had 
since been legally admitted to the United States. Previous searches of 
the latent print image by DOD examiners failed to associate the print 
with any individual. TEDAC is responsible for and uniquely positioned 
to provide both tactical support to the war fighter and strategic 
support to homeland security. Given the President's renewed commitment 
to Afghanistan, it makes more sense to act to quickly establish a 
permanent TEDAC facility that can serve as the hub for tactical in 
theater forensic and technical exploitation capacity in support of the 
war fighter and as a strategic homeland security resource to protect 
against terrorist use of explosives at home''.

    I believe the administration is putting you, Mr. Attorney General, 
in a no-win situation, by having you defend their inept decision--a 
decision made by non-accountable bureaucrats at OMB. I know that 
cancelling TEDAC funding was not your decision. I also know that both 
you, and Director Mueller, appealed that decision, yet the 
administration cut the very funding that the FBI Director said he 
believed was necessary to ensure that the FBI has the tools and the 
facilities necessary to respond to the terrorist threat this Nation 
faces. It is clear from the request that OMB is not relying on the 
people who actually have to fight terrorism when it is making decisions 
regarding the threat this country faces.
    Today, the Quantico TEDAC is overwhelmed. For the 56,000 boxes of 
IEDs and materials received since 2004, 37,000 are awaiting processing. 
The FBI estimates that 86 percent of the backlog contains critical 
information like biometric intelligence, fingerprints, DNA, and so 
forth that would assist the U.S. military, the intelligence community, 
and the Federal law enforcement in identifying terrorists.
    The United States needs to prepare for this threat and the proposed 
rescission of these funds only tells me--and this subcommittee--about 
the lack of understanding by the administration of the terrorist 
threat. While the administration may choose to look the other way 
combating the terrorist explosives threat, we will not.
    TEDAC would ensure that the tactical information and intelligence 
gained from analysis of improvised explosive devices and the biometric 
identification data obtained from fingerprints and DNA is shared with 
U.S. intelligence, homeland security, and law enforcement agencies.
    This funding would have mitigated the impacts of the TEDAC workload 
on the FBI laboratory--both the workload of today and for future 
conflicts. What we do know is that there is not enough capacity at the 
current laboratory facility to support both the criminal functions of 
the FBI lab and the TEDAC mission. As a result, turnaround times for 
completing examinations have grown and more and more FBI field offices 
are submitting evidence to State and local labs for processing.
    The FBI laboratory should have the capacity needed to support its 
traditional forensic mission in support of law enforcement and support 
TEDAC. This is not a choice of doing one or the other; both must be 
done.
    The TEDAC forensic capability will satisfy the needs for an 
enduring U.S. Government capability, as well as provide a ``surge'' 
capacity for the FBI laboratory in the event of a major domestic 
incident or crime problem.
    Finally, the TEDAC facility will also provide the FBI with a back-
up forensic capability in the event the Quantico facility is ever 
rendered inoperable. The current FBI laboratory at Quantico is a single 
point of failure within the FBI; there is no current back up location 
to perform that critical work.
    I believe the record shows that the proposal by OMB to cancel TEDAC 
funding is unwise, and I think it is very ill-timed. The threat from 
terrorist use of explosives is significant, real, and I believe 
enduring.
    Unfortunately national security and terrorism are not the only 
areas where the President's budget fails the Department of Justice. The 
Bureau of Prisons, through the Department, sought $875 million in 
additional funding for prisons and incarceration. The President's 
budget proposes $422 million but $237 million, not requested by the 
Department but included in the OMB passback, was added to the 
Department's budget to buy and renovate a prison in Illinois to 
potentially house the terrorists currently incarcerated at the 
perfectly functioning Guantanamo Bay Detention Facility.
    Apparently, OMB believes over-paying the State of Illinois for a 
vacant, decade-old, facility is a higher priority than providing the 
FBI with the forensic and technical capabilities necessary to combat 
terrorist use of explosives. If ever we needed an example of misguided 
priorities, this ranks near the top of the list.
    The administration would like communities to believe it is 
committed to eliminating gangs and gang violence, yet OMB proposed 
eliminating the FBI's National Gang Intelligence Center and reducing 
the number of FBI Safe Streets task forces, DEA mobile enforcement 
teams, ATF violent crime impact teams, and U.S. Marshals task forces 
focusing on arresting fugitives.
    At a time when drug cartels infiltrate the ranks of foreign law 
enforcement--thus risking joint U.S. and foreign efforts to stem the 
flow of drugs into our country--OMB even proposed reducing DEA's 
program to vet and train foreign police officers so we have trusted 
partners to work with overseas. I find this unconscionable, given the 
current border violence in Mexico.
    Thankfully, many of these misguided OMB proposals and suggestions 
were successfully appealed by you Mr. Attorney General, and for that we 
are all grateful, but, those proposals should never have been on the 
table in the first place. OMB should rightfully be embarrassed to have 
even put them forward.
    Basically, the President's budget request for the Department of 
Justice is lacking all of the critical needs that the Department 
identified and proposed to OMB. I believe it is important and necessary 
for the subcommittee to bring those unfilled needs from out of the 
shadows and into the light. If we are to enact a budget that meets the 
Department's critical requirements, we must be able to consider their 
needs outside the President's budget. To do less would be a disservice 
to our constituents and to the Department.
    I will close with a further quote from the FBI Director that I 
believe sums up this request accurately, ``At a time when the Nation 
remains engaged in a long-term conflict with those who advocate the use 
of terror against the United States, the OMB policy guidance and 
funding recommendations for fiscal year 2011 simply do not make sense. 
Even in a constrained budgetary environment, the administration must 
ensure adequate funding for one of its most basic responsibilities--
that of protecting the country and its citizens from hostile attack.''
    Our role is not to rubber stamp the President's budget--we did not 
do that for President Bush and we will not do that for President Obama. 
Given the tight budget situation we face, these budgets decisions will 
not be an easy task. But, I believe the subcommittee is up to meeting 
that challenge and I look forward to working with you Madam Chairwoman 
to undo the damage done to the Department's budget by the bureaucrats 
at OMB.

    Senator Mikulski. We will ensure that Senator Shelby's 
questions will be forwarded to you, Mr. Holder, and we will 
protect all the rights that Senator Shelby has as the ranking 
member.
    This morning, we are going to discuss the Justice 
Department's 2011 budget request, and we will be examining how 
we strengthen national security, counterterrorism, and also 
protect the safety and security of U.S. citizens and prudent 
use of the taxpayers' dollars.
    We welcome Mr. Holder, who brings the experience of a 
career prosecutor, experience in the private sector, but also 
he, himself, has worked diligently on the protection of the 
public from terrorism and violent crime as an Assistant U.S. 
Attorney.
    I have three priorities that I will be examining with the 
Justice Department today. No. 1, national security, which is 
how the Department of Justice is keeping America safe; also, 
community security, or what the Department of Justice is doing 
to keep our communities safe from violent crime, gangs, and 
drug dealers, and what the Department of Justice is doing to 
keep our families safe, whether it is against mortgage fraud or 
the despicable stalking of sexual predators.
    As the Chair of the Commerce, Justice, and Science 
Subcommittee, I want to make sure the Department of Justice has 
what it needs to carry out its mission and its mandate to 
protect the country from predatory attacks, whether they occur 
by terrorists in Times Square or in our neighborhoods. And hey, 
in Times Square, it was in both. We have worked to put dollars 
in the Federal checkbook to be able to do that.
    As we review President Obama's request, we note that the 
request is for $29.2 billion, a $1.5 billion increase over the 
2010 omnibus level. The five highlights of the budget include 
safeguarding our Southwest border for $584 million. That is 
pursuing and dismantling the drug cartels and the smuggling of 
illegal narcotics, guns, and human beings.
    The other is the funding for State and local law 
enforcement, where we worry that the blue line is getting 
thinner and needs all the help it can get in the local 
communities, because all crime fighting begins with the locals.
    And I must say, as we will be hearing about the Times 
Square incident this morning, the fact that local vendors 
cooperated--``see something, say something.'' Also, the New 
York Police Department [NYPD] was right there on the job, 
moving as swiftly as they could because they were there and 
they had the right training and the right equipment and then 
were backed up by Federal agents. It worked, I think, the way 
it should, and we look forward to hearing about that.
    But also there is the rise of white collar crime, and this 
subcommittee believes that that crime, too, needs to be 
followed through with investigation and prosecution and jail, 
if necessary, particularly in the area of mortgage fraud and 
the financial scheming and scams that goes on.
    Last, but not at all least, we are here to also look out 
for the civil rights of our people and that enforcement. 
Previous administrations have cut funding for local law 
enforcement by 50 percent. We don't want to do that. We want to 
make sure that the crime rates don't rise. We want to get crime 
rates down. We want to get unemployment rates down, and this 
subcommittee wants to do its part.
    This budget invests $3.4 billion in State and local and 
tribal partners and looks forward to working with our local 
communities. Last month, we heard about the partnership with 
the FBI, and we reviewed this extensively with the FBI 
Director. We believe those joint task forces, whether it is on 
violent crime, terrorism, or mortgage fraud, are the way to go. 
We look forward to your budget on that.
    I know we have started late, and I just want to make one 
other emphasis, which is on protecting women and children. We 
really salute the Obama administration for increasing funds in 
the Violence Against Women programs. We know that when the 
hotline was created in the Judiciary Committee, and Senator 
Leahy played such an important part in that, along with our 
Vice President--we now know over 1 million women have called 
that hotline, and they have either been saved from death or 
danger. That is as important as standing sentry against any 
other attack.
    And the protection of children--as a former child abuse 
social worker, there is nothing as vile as a crime against a 
child. So we want to make sure we have the right resources for 
you to be able to do the job.
    There are other issues related to Guantanamo Bay, the 
purchase of the Illinois prison, the detention of prisoners. 
But we are fortunate this morning to also have the Chair of the 
Judiciary Committee, and I know he will have his own particular 
questions--he is someone who has been very vigorous in the area 
of the Justice Department--Senator Leahy.
    I am going to ask unanimous consent that my full statement 
go into the record.
    [The statement follows:]

           Prepared Statement of Senator Barbara A. Mikulski

    Good morning and welcome the fifth hearing of 2010 of the Commerce, 
Justice and Science (CJS) Subcommittee. Today, the CJS Subcommittee 
will continue our fiscal year 2011 oversight hearings by welcoming 
Attorney General Eric Holder and Justice Inspector General Glenn Fine, 
who will be speaking to the subcommittee a little later. Thank you both 
for joining us today.
    We have a very positive relationship with Attorney General Holder. 
He brings to the Department the experience of a career prosecutor and 
is dedicated to protecting the American public from terrorism and 
violent crime.
    Today, we will discuss how the Justice Department's fiscal year 
2011 budget request strengthens national security and counterterrorism; 
protects the safety, security and rights of U.S. citizens; and how the 
Department ensures that it uses taxpayer dollars wisely.
    As chairwoman, I have three priorities when examining the Justice 
Department. The first is community security. What is the Department of 
Justice doing to keep our families and communities safe? The second is 
national security. How is the Justice Department keeping America safe? 
And third are oversight and accountability. How is the Department of 
Justice ensuring our tax dollars are spent wisely?
    As chairwoman of CJS, I want to make sure that the Department of 
Justice has what it needs to carry out its mission and mandate to 
uphold the rule of law, and to protect this country from predatory 
attacks by terrorists and in our neighborhoods. I have fought to put 
dollars in the Federal checkbook to support the Department's efforts to 
combat terrorism and violent crime. I also want to make sure that the 
hard working, dedicated individuals who are responsible for carrying 
out this mission have the resources and support they need.
    The President's budget request for the Department of Justice in 
fiscal year 2011 is $29.2 billion, a $1.5 billion, or 4.6 percent, 
increase above the 2010 omnibus level. Highlights of this new budget 
request include: $535 million to fight mortgage fraud and white collar 
crime by targeting the scammers and schemers who prey on hard working, 
middle class families; $3.4 billion to make sure State and local law 
enforcement are not walking a thin blue line and have a full force to 
fight violent crime and drug trafficking; $584 million to safeguard our 
Southwest border by pursuing and dismantling drug cartels that smuggle 
illegal narcotics, guns and humans along the border; $387 million to 
tackle civil rights abuses and discrimination, and go after criminals 
who are motivated by hatred and bigotry; and $1.7 billion to strengthen 
national security and counter terrorism threats, which includes 
stopping cyber crooks from hacking into U.S. networks and identifying, 
tracking and defeating terrorist sleeper cells operating in the United 
States and overseas.
    We can't have strong, economically vibrant communities unless they 
are safe. So I want to know how the Justice Department is protecting 
Americans at home. The previous administration cut funding for local 
law enforcement by 50 percent. Local communities were left scrambling 
to fill public safety funding gaps, and crime rates began to rise for 
the first time in 12 years.
    This subcommittee and the current Justice Department have locked 
arms to reinvest resources in our State, local and tribal partners, and 
are committed to making sure violent crime rates drop. This budget 
request invests $3.4 billion in our State, local and tribal partners. 
It supports both proven and innovative crime prevention strategies that 
help communities with police recruiting, hiring and training; task 
forces to target drugs, gangs and violent crime; and to combat sexual 
assault and violence against women. We need to make sure our police 
have a full team to combat increased violence in communities so they 
can target crime hot spots and focus on gangs, gun violence, assault 
and drug rings.
    I want to know if the fiscal year 2011 request is enough to protect 
hard-working families and their homes against the outrageous predatory 
practices and deceptive lending schemes that have swept across the 
country. Last month we heard from FBI Director Robert Mueller, who 
testified that during 2009 over 60,000 cases of mortgage fraud were 
reported in the United States, nearly 10 times as many in 2002. During 
that same period, financial institutions wrote off $500 billion in 
losses because of fraud in the sub-prime mortgage industry. But the FBI 
is not the only agency at Justice tackling these cases.
    The Justice Department's fiscal year 2011 request has $535 million 
to combat financial fraud, which is $97 million above the fiscal year 
2010 level of $438 million. It provides funding to hire 143 new FBI 
agents, 157 new attorneys and 45 new specialized staff to bring the 
total number to over 2,000 agents, 2,600 attorneys and 150 specialized 
support staff at the Justice Department dedicated to investigating and 
prosecuting complex financial cases. I want to know how this funding 
and coordination will better help law enforcement catch the scammers 
who have caused Americans to lose their homes, life savings and 
dignity.
    Attorney General Holder, I know you are committed to keep children 
safe from abuse, sexual predators and cyber stalkers. The Justice 
Department's request of $336 million focuses resources of the Federal 
Government on child predators like a laser to catch sexual deviants who 
use the Internet to stalk children, break up child pornography and 
prostitution rings, and track down, arrest and prosecute child 
molesters.
    However, the U.S. Marshals Service plays a critical part of the 
Adam Walsh Act but received no additional funding in the fiscal year 
2011 request for this purpose. The Marshals arrest the worst of the 
worst sexual predators and track down over 100,000 unregistered 
fugitive sex offenders. Last year, our subcommittee provided $72 
million for the Marshals, which included $27.5 million to hire 150 new 
Deputy U.S. Marshals to track down and arrest fugitive sex offenders. I 
want to learn why the Department's fiscal year 2011 request does not 
include additional funds for the Marshals Service to hire more deputies 
for this work.
    We are waging a global war on narcotics and violence on four 
fronts: the U.S.-Mexico border, Afghanistan, Colombia and our own 
neighborhoods. The most immediate danger is the drug gangs operating 
along the U.S.-Mexico border. These gangs are fighting for control of 
drug trafficking routes into the United States and now maintain drug 
distribution networks in more than 230 cities in 45 States. Every day 
we hear reports of deaths and violence seeping across the U.S. border 
and spreading outward to the rest of the country. Last year, over 7,000 
drug-related homicides occurred along the Southwest border.
    The Justice Department's fiscal year 2011 request includes $584 
million, a $122 million increase over fiscal year 2010 level of $462 
million, to hire 29 new agents and 58 attorneys. These resources will 
be used to target and dismantle drug cartels that smuggle illegal 
narcotics, guns and humans along the border, and terrorize citizens and 
neighborhoods with fear and intimidation. I want to know if the funds 
requested are sufficient to support tough work of the DEA, ATF, 
Marshals, FBI and Federal prosecutors in shutting down the flow of 
firearms into Mexico and stop drugs coming into the United States from 
Columbia and Mexico.
    The major area of controversy in this budget request is how the 
Department implements President Obama's plan to close down the 
Guantanamo Bay detention facility and determine the fate of roughly 200 
detainees currently held in U.S. military custody there. The fiscal 
year 2011 budget includes two major requests for post-Guantanamo 
activities: $73 million for security costs to hold civilian trials on 
U.S. soil for the five detainees who are proposed to be tried in 
Federal courts; and $237 million to buy, renovate and open a prison 
facility in Thomson, Illinois, which President Obama has designated as 
the preferred location to house detainees. It is worth noting, however, 
that Congress will first have to change restrictions to allow detainees 
to be transferred for detention.
    I want to know how the Justice Department will address the 
additional risk for these high threat trials on U.S. soil and what 
unique costs are associated. Are these costs sufficient to keep 
communities safe wherever trials are held? And I want to know more 
about the Department's plans for the Thomson prison, even if Congress 
does not make changes to allow detainees to be housed there.
    Finally, I want to know how the Justice Department is improving 
accountability of taxpayer dollars so that every dollar spent to secure 
our communities is a dollar well spent. Both Senator Shelby and I have 
required that the Justice Department have internal checks to combat 
waste, fraud and abuse by prohibiting funds for lavish banquets, 
controlling cost overruns and requiring the Inspector General to do 
random audits of grantees. I want to know what steps you have taken to 
put these guidelines into practice to restore fiscal responsibility and 
accountability. As chairwoman of CJS, it is my responsibility to act as 
a good steward of taxpayer dollars. Spending excesses will not be 
tolerated.
    Given all of the Justice Department's important roles and 
responsibilities, we must ensure that it has the resources it needs to 
protect the lives of 300 million Americans. But we also want to make 
sure that the Justice Department is a good steward of taxpayer dollars 
and that every dollar we spend to keep our Nation safe is a dollar well 
spent.
    Attorney General Holder, I thank you for your leadership and I look 
forward to continuing our work together to make a safer, stronger 
America.

    Senator Mikulski. And I would like to turn to the Attorney 
General.

                 STATEMENT OF HON. ERIC H. HOLDER, JR.

    Attorney General Holder. Well, good morning, Chairwoman 
Mikulski, Senator Leahy, Senator Lautenberg.
    Thank you for this opportunity to discuss the President's 
fiscal year 2011 budget for the Department of Justice and to 
provide an update on the Department's progress, its key 
priorities, and also our future plans. I appreciate your 
recognition of the Department's critical mission, and I look 
forward to your continued partnership and support.
    When I appeared before this subcommittee last May, I set 
forth several goals for the Department--to protect our Nation's 
security, to reinvigorate the Department's traditional 
missions, and to restore integrity and transparency at every 
level of the Department's work. I also pledged that under my 
leadership, all decisions and policies would be based on the 
facts, the law, and the best interests of the American people, 
regardless of political pressures or political consequences.
    Almost 1 year later, I am pleased to report that the 
Department has made, I believe, historic progress in meeting 
these goals. Although new challenges and demands have emerged, 
the thousands of men and women who serve the Department have 
advanced efforts to protect our country, to enforce our laws in 
a nonpartisan manner, to defend our interests in court, and to 
ensure the strength and the fairness of our justice system.
    The President's fiscal year 2011 budget request for the 
Department of Justice, which totals, as you said, $29 billion 
and includes $2 billion in program enhancements, will enable 
the Department to build on the progress that has been achieved 
over the last 15 months.
    Now during this time, we have enhanced our national 
security programs and capabilities. We have strengthened 
efforts to support our most vulnerable communities, safeguard 
civil rights in our workplaces, housing markets, voting booths, 
our border areas, and also to protect our environment.
    In light of last week's oil spill in the Gulf of Mexico, I 
want to note that the Justice Department stands ready to 
vigorously enforce the laws that protect the people who work 
and reside near the gulf, the local wildlife, the environment, 
and the American taxpayers. I recently dispatched a team of 
attorneys to New Orleans to monitor the oil spill, and the 
Department will continue to provide critical legal advice and 
support for the agencies that are involved in the Federal 
response.
    As part of our focus on securing our economy and combating 
mortgage and financial fraud, the Department is now 
spearheading the Financial Fraud Enforcement Task Force that 
President Obama launched last year. And in collaboration with 
the Department of Health and Human Services, we have made 
meaningful progress in combating and deterring healthcare fraud 
through the Healthcare Fraud Prevention and Enforcement Action 
Teams, also called the HEAT teams.
    Through this initiative, we have brought the full resources 
of our agencies to bear against individuals and corporations 
who illegally divert taxpayer resources for their own profits. 
Just last week, this work resulted in a $520 million 
settlement, the largest-ever amount paid by a company in a 
civil-only settlement of off-label pharmaceutical marketing 
claims. And over the past 15 months, the Justice Department has 
recouped more than $2.8 billion in healthcare fraud cases 
through the use of the False Claims Act, money that will be fed 
back into the Federal coffers.
    Now, the President's budget request will enable the 
Department to build on these achievements and to continue 
making progress in meeting its responsibilities. Let me assure 
you that in distributing and using these funds, we will think 
carefully and we will think strategically. And we will act to 
ensure accountability and transparency, just as we have in 
managing the billions of dollars that have recently been 
recovered.
    The investments requested in the President's budget would 
allow us to continue aggressively pursuing and prosecuting 
financial and healthcare fraud; to expand the Community 
Oriented Policing Services hiring program, the COPS program; to 
reduce violent crime and drug trafficking; to assist our State 
and local and tribal law enforcement partners; to ensure that 
detention programs are adequately funded and that effective 
prison and jail reentry programs are available; to protect 
civil rights; to combat international organized crime; and to 
enforce immigration laws.
    Now, as you all know, the Department is currently working 
with agencies across the Federal Government and with Congress 
to support comprehensive immigration reform in a way that keeps 
faith, as President Obama has said, with our heritage as both a 
Nation of immigrants and a Nation of laws.
    The budget would also allow the Department to strengthen 
its critical national security work. As you have seen, $300 
million in program increases have been requested to help 
strengthen national security and to counter the threat of 
terrorism. These resources will enable us to expand on the 
progress that we have made in the last year.
    Due to the vigilance of our law enforcement and 
intelligence agencies, we have succeeded repeatedly in 
identifying and averting nascent plots. On Monday, Faisal 
Shahzad, a naturalized United States citizen born in Pakistan, 
was arrested in connection with his alleged role in last 
Saturday's attempted car bombing in Times Square. On Tuesday, 
he was charged with acts of terrorism transcending national 
boundaries, attempted use of a weapon of mass destruction, and 
other Federal crimes. If convicted, he faces a potential life 
sentence in prison.
    During ongoing questioning by Federal agents, Shahzad has 
provided useful information, and we will continue to pursue a 
number of leads as we gather intelligence relating to this 
attempted attack. Although this car bomb failed to properly 
detonate, this plot was yet another reminder that terrorists 
are still plotting to kill Americans.
    In February, Najibullah Zazi, a key participant in the plot 
to bomb New York City's subway system, pleaded guilty to 
terrorism violations. Less than 2 weeks ago, we secured another 
guilty plea from one of Zazi's co-conspirators and revealed the 
role of senior Al-Qaeda leaders in ordering the plot. Three 
others have also been charged as a result of our investigation.
    These attempted attacks are stark reminders of the threats 
that we face as a Nation and that we must confront. For the 
Department of Justice and our partners in the national security 
community, there is simply no higher priority than disrupting 
potential attacks and bringing those who plot them to justice.
    In the Shahzad and Zazi cases, that is exactly what the 
dedicated Federal agents, law enforcement officers, and Justice 
Department prosecutors, along with their State and local 
partners, and particularly the NYPD, what we achieved through 
exemplary investigative efforts. It is in America's best 
interest to ensure that these public servants have the 
resources necessary to continue their outstanding work.
    In this time of unprecedented challenges and new threats 
and ongoing war, your support will be critical in helping the 
Department meet its goals and our obligations. As we move 
forward, I look forward to working with all of you as well.
    Once again, I thank you for inviting me here today, and I 
am now happy to answer any questions that you might have.
    [The statement follows:]

             Prepared Statement of Hon. Eric H. Holder, Jr.

    Good morning Chairwoman Mikulski, Ranking Member Shelby, and 
members of the subcommittee. Thank you for the opportunity to meet with 
you today to discuss the President's fiscal year 2011 budget for the 
U.S. Department of Justice (Department) and the Department's key 
priorities. I appreciate your recognition of the Department's mission, 
and I look forward to your continued support of the important work that 
we do.
    When I appeared before this subcommittee last May, I set forth 
several goals for the Department: to protect the security of the 
American people, restore the integrity of the Department of Justice, 
and reinvigorate the Department's traditional missions. Most 
importantly, I made a commitment to make decisions based on the facts 
and the law, regardless of politics.
    Almost 1 year later, I'm pleased to report that we are on the right 
path to achieving these goals. Although unprecedented challenges and 
new demands have emerged, the Department remains committed to the 
promises that I made to this subcommittee and to the American people.
    The President's fiscal year 2011 budget request for the Department 
of Justice, which totals $29.2 billion and includes $2 billion in 
program enhancements, will enable the Department to continue its 
progress in fulfilling our key objectives. The budget provides the 
Department with the resources necessary to protect our national 
security, bolster our traditional missions, and prevent and reduce 
crime in tandem with our State, local, tribal and community partners. 
These investments would support and enhance the Department's essential 
national security and counterintelligence programs, our vigorous 
efforts to prevent, investigate and prosecute financial, mortgage and 
healthcare fraud, and our prosecutor-led, intelligence-driven strategy 
to protect our Southwest border.
    The budget would also provide funding for an expansion of the 
Community Oriented Policing Services (COPS) hiring program and 
resources for the Department's efforts to ensure that prison and 
detention programs are adequately funded and effective prisoner re-
entry programs are available.

                      STRENGTHEN NATIONAL SECURITY

    The budget requests $300.6 million in program increases to help 
strengthen national security and counter the threat of terrorism. The 
request includes $219.3 million in increases for the FBI and $7.8 
million in increases for the National Security Division (NSD).
    We are working day and night to protect the American people. Due to 
the vigilance of Department of Justice professionals, working in 
partnership with other law enforcement and intelligence agencies, we 
have uncovered and averted a number of serious threats to domestic and 
international security. Recent arrests in New York, Chicago, 
Springfield, Dallas and Philadelphia are evidence of our success in 
identifying nascent plots and stopping would-be attackers before they 
strike.
    One of the most serious terrorist threats to our Nation since 
September 11, 2001, was the attempted attack by Najibullah Zazi, who 
recently pled guilty to three criminal charges in connection with a 
plan to bomb New York City's subway system in September 2009. In 
addition to Zazi, four others have been charged in connection with this 
plot. This attempted attack on our homeland was real, it was in motion, 
and it would have been deadly. Because of careful analysis by our 
intelligence agents and prompt actions by law enforcement, we were able 
to thwart this potentially devastating plot.

                 AGGRESSIVE PURSUIT OF FINANCIAL FRAUD

    As we reinvigorate our traditional law enforcement mission, the 
Department has placed a distinct focus on financial crimes. The Justice 
Department is engaged in an aggressive effort to combat financial fraud 
and market manipulation. The President's fiscal year 2011 budget 
requests an increase of $234.6 million to restore confidence in our 
markets, protect the Federal treasury and defend the interests of the 
U.S. Government.
    In addition, the Department of Health and Human Services (HHS) 
requests an increase of $60.2 million specifically for DOJ components 
involved in the investigation and litigation of healthcare fraud cases. 
This increase will further the efforts of the Health Care Fraud 
Prevention and Enforcement Action Team (HEAT) initiative.
    The budget request would improve the Department's ability to 
collect debts, enforce tax laws and prosecute fraud and will maximize 
the benefits of the Federal Government's investment of resources 
through the American Recovery and Reinvestment Act of 2009. It would 
also continue to enhance the Department's efforts to help protect 
American savers and investors, the national financial market, and the 
U.S. Treasury.

               REDUCE VIOLENT CRIME AND DRUG TRAFFICKING

    Violent crime and drug trafficking continue to demand a significant 
Federal response. Although violent crime has not increased in recent 
years, the share of crimes that require Federal resources continues to 
grow as regional street gangs increase their involvement with national 
and international gangs and drug trafficking organizations. The 
Department requires significant resources to meet these challenges 
through its prosecutor-led, intelligence-driven strategy to address the 
interrelated threats of violent crime and drug trafficking. This budget 
requests an increase of $121.9 million to reduce the threat, incidence 
and prevalence of violent crime and drug trafficking. For fiscal year 
2011, a total of approximately $5 billion is dedicated to target these 
problems, including $1 billion for Federal law enforcement to help 
address violent crime and $4 billion for Federal drug enforcement and 
prosecution efforts.
    We remain committed to eliminating the threat posed by Mexican drug 
cartels plaguing our Southwest border and will continue to coordinate 
with the Department of Homeland Security and international, Federal, 
State and local agencies to ensure that we effectively and efficiently 
reduce the influence and violence of these cartels.
    In addition, this budget supports several programs in place to 
protect the Southwest border, including a significant expansion of and 
investment in the Organized Crime Drug Enforcement Task Force program, 
which is a centerpiece of the Department's drug enforcement and 
counternarcotics efforts. The budget includes resources for Project 
Gunrunner, the Bureau of Alcohol, Tobacco, Firearms and Explosives' 
(ATF) Southwest Border Firearms Trafficking Enforcement program, as 
well as forensic support for law enforcement activities in tribal 
communities. Further, the budget will expand operational capabilities 
at the Drug Enforcement Administration's (DEA) multi-agency El Paso 
Intelligence Center (EPIC) by enlarging the facility to accommodate 
additional participating agency personnel and by improving intelligence 
exploitation abilities along the Southwest border.
    In addition, resources to assist DOJ's State, local and tribal law 
enforcement partners combat violent crime and drugs are requested 
within the Department's grant programs.

             ASSIST STATE, LOCAL AND TRIBAL LAW ENFORCEMENT

    The budget requests a $722.5 million increase for State, local and 
tribal law enforcement assistance programs, bringing total grant 
program funding to $3.4 billion. The Department continues to maintain 
key partnerships with State, local and tribal officials and community 
members. These partnerships include the COPS hiring grant program, 
which enables State, local and tribal police agencies to increase the 
number of officers available to advance community policing, with a goal 
to prevent and reduce crime. In addition, many grant programs are 
provided through the Office on Violence Against Women (OVW), such as 
the Sexual Assault Services program and the Legal Assistance for 
Victims program, which provide communities with the opportunity to 
combat sexual assault and other forms of violence against women.
    Several new programs are requested in fiscal year 2011 for the 
Office of Justice Programs (OJP), including the new Byrne Criminal 
Justice Innovation program, smart policing, and smart probation 
initiatives. The budget includes funding to continue the implementation 
of the Adam Walsh Act of 2006, which established national standards for 
sex offender registration and notification. Resources are also 
requested to assist children exposed to violence, as well as 
enhancements to expand criminal justice research and statistical data 
gathering efforts.

                          PROTECT CIVIL RIGHTS

    Throughout its history, the Department of Justice has helped 
safeguard the civil rights of all Americans by targeting discrimination 
through investigation, litigation, outreach, technical assistance and 
training efforts, and by providing guidance to Federal, State, local 
and tribal agencies. The President and I have recommitted the 
Department to performing this historic role. In fiscal year 2011, we 
will build on the progress made in fiscal year 2010 to restore the 
Department's unparalleled role in protecting civil and constitutional 
rights.
    The fiscal year 2011 budget requests an increase of $19.8 million 
to protect civil rights and vulnerable populations. This increase will 
allow the Department to strengthen its focus on enforcing fair lending 
and housing laws, preventing employment discrimination, protecting 
voting rights, and prosecuting hate crimes. It will also expand 
resources for protecting children from exploitation, tracking convicted 
sex offenders, recovering missing and abducted children, and combating 
human trafficking and sex tourism.

                  COMBAT INTERNATIONAL ORGANIZED CRIME

    International organized crime poses unprecedented threats to our 
country's national and economic security. These threats include 
attempts by organized criminals to exploit our energy and other 
strategic sectors, support for terrorists and hostile governments, 
orchestration of cyber and intellectual property crimes, and efforts to 
manipulate our financial, securities, and commodities markets.
    The budget includes $15 million in program increases that will 
allow the Department of Justice to continue implementing the Law 
Enforcement Strategy to Combat International Organized Crime (``IOC 
Strategy''), which the Attorney General's Organized Crime Council 
adopted in April 2008 to modernize law enforcement's approach to 
international organized crime. This funding will support a unified 
strategy to dismantle international crime organizations that have 
become exponentially more sophisticated and provide for expansion of 
the OCDETF Fusion Center to accommodate the International Organized 
Crime Intelligence and Operations Center (IOC-2).

    MAINTAIN PRISONS, DETENTION, PAROLE AND JUDICIAL AND COURTHOUSE 
                                SECURITY

    As a result of successful law enforcement policies, the number of 
criminal suspects appearing in Federal court continues to grow, as does 
the number of individuals ordered detained and ultimately incarcerated. 
The budget requests $527.5 million in program increases that will allow 
the Bureau of Prisons (BOP), Office of the Federal Detention Trustee 
(OFDT), U.S. Parole Commission (USPC) and U.S. Marshals Service (USMS) 
to continue to protect society by confining offenders in the controlled 
environments of prisons and contract- or community-based facilities as 
well as by offering self-improvement opportunities to offenders that 
will assist them in becoming law-abiding citizens and reduce the 
likelihood of recidivism. Additional resources are also requested to 
acquire and activate high- and medium-security beds to manage the most 
challenging inmates in our custody.
    The BOP operates 115 Federal prisons and contracts for low security 
prison beds to confine more than 215,000 inmates in fiscal year 2010; 
BOP projects that the Federal prison population will increase by 
approximately 7,000 inmates in fiscal year 2011. Therefore, program 
enhancements included in the fiscal year 2011 budget provide $523.2 
million in new program funding to support increases in BOP and OFDT 
operations. These additional funds will allow OFDT in particular to 
support an average daily detention population of approximately 62,100, 
to increase detention bed space in the Southwest border region, and for 
increased prisoner transportation and medical costs associated with the 
rise in average daily detention population.
    In addition, these program enhancements increase funding to support 
Second Chance Act initiatives and re-entry programs, including expanded 
re-entry transitional housing, BOP inmate correctional programs, and 
the District of Columbia Recidivism Reduction and Re-entry Enhancement, 
a new program that will be implemented by the USPC in fiscal year 2011.
    Finally, resources are requested to enhance the law enforcement 
efforts of the USMS, primarily its Special Operations Group (SOG), 
which supports USMS and other agencies with a rapidly deployable force 
of tactically trained officers. SOG provides tactical support for any 
incident involving the judiciary, district operations and witness 
security operations. The President's budget also annualizes into the 
USMS base additional positions approved in fiscal year 2009 (201 
positions) and fiscal year 2010 (700 positions) to support immigration 
enforcement, particularly along the Southwest border. The positions 
will also be used to expand Adam Walsh Act enforcement.

                        ENFORCE IMMIGRATION LAWS

    The Department maintains substantial responsibilities with respect 
to immigration, including enforcement, detention, judicial functions, 
administrative hearings and litigation, among others. The Department's 
Executive Office for Immigration Review (EOIR) serves as the front-line 
presence nationwide in immigration matters overseeing the immigration 
court and appeals process.
    In recent years, however, the Department's resource enhancements 
have not kept pace with those received by the various immigration 
components of DHS. EOIR's immigration court caseload continues to 
increase to unsustainable levels as a result of DHS' heightened 
enforcement efforts. The caseload grew 30 percent between fiscal year 
2004 and fiscal year 2009--from 300,000 to 390,000 new matters coming 
to EOIR for resolution each year. The number of new cases is expected 
to exceed 400,000 annually by 2011.
    An additional $11 million requested in 2011 is therefore needed to 
address the caseload increases emanating from DHS programs, including 
the Secure Communities Initiative and the Criminal Alien Program. These 
resources are necessary to improve the current immigration system and 
to ensure that the Nation's approach to immigration enforcement is 
balanced, reasonable, effective, and humane.
    Similarly, the Civil Division's Office of Immigration Litigation 
(OIL) also plays a crucial role in upholding the enforcement actions of 
DHS and EOIR. OIL provides the Government with the best possible 
defense in district court cases and challenges to removal orders filed 
in circuit courts by illegal aliens, many of whom are criminals. As DHS 
enforcement activities expand with the implementation of the Secure 
Communities Initiative, OIL can expect aliens to continue to petition 
their removal decisions in circuit courts. The fiscal year 2011 budget 
maintains the current staffing levels for OIL.

               ENSURE PUBLIC SAFETY IN TRIBAL COMMUNITIES

    The Department of Justice is deeply committed to working with 
tribal governments to improve public safety in tribal communities.
    We are working to put resources in place quickly and efficiently to 
help American Indian and Alaska Native communities help themselves. The 
budget requests $448.8 million in total resources to assist tribal 
communities. It maintains the increased number of Assistant U.S. 
Attorneys in Indian Country that the Department is adding in 2010 as a 
result of the support of members of this subcommittee. In addition, the 
President's fiscal year 2011 budget includes funds (provided by the 
Department of the Interior) for 45 new FBI agents to support law 
enforcement efforts in Indian Country. The President's fiscal year 2011 
budget provides $67 million under the COPS Office, $140.7 million under 
the Office of Justice Programs, and $47.9 million under OVW for tribal 
initiatives. Within this amount, the President's budget includes a 7 
percent set-aside--$42 million--from the COPS hiring program to support 
the hiring of tribal law enforcement personnel; a 7 percent set-aside--
$139.5 million--from OJP for Indian Country efforts; and statutory set-
asides totaling $42.9 million for certain OVW programs. These set-
asides, combined with numerous Department of Justice programs designed 
exclusively for tribal communities result in a total request of $255.6 
million for Department of Justice grant programs in tribal communities.
    There are over 56 million acres of Indian Country and more than 560 
Federally-recognized Indian tribes. The Major Crimes Act provides 
Federal criminal jurisdiction over certain specified major crimes if 
the offender is Indian, while tribal courts retain jurisdiction for 
conduct that might constitute a lesser offense. Federal investigation 
and prosecution of felonies in Indian Country cannot be deferred to a 
local jurisdiction and therefore Federal law enforcement is both the 
first and only avenue of protection for the victims of these crimes.

                               CONCLUSION

    Chairwoman Mikulski, Ranking Member Shelby, and members of the 
subcommittee, I want to thank you for this opportunity to discuss the 
Department's priorities and detail new investments sought for fiscal 
year 2011.
    Today I have highlighted critical areas that require attention and 
resources so that the Department can fulfill its mission to enforce the 
Nation's laws and protect our national security. I hope you will 
support me in the execution of these worthy efforts. As always, we are 
aware that there are tough decisions and challenges ahead, and I look 
forward to working with you as we move forward.
    Once again, thank you for inviting me here today. I am pleased to 
answer any questions you might have.

    Senator Mikulski. Thank you very much, Mr. Attorney 
General.
    We are going to proceed this morning in terms of arrival. 
We also note the chair of the Judiciary Committee. I am going 
to ask some questions and reserve my right for a second round 
to be sure that members who have really demanding schedules 
have their opportunity.
    Obviously, the Times Square bombing attempt is in the news. 
There are those who will raise issues related to the reading of 
Miranda rights and so on. That is not my focus. My focus is the 
questions to you related to the way it worked and the way you 
feel you have the resources for it to continue to work.
    As press accounts report, vendors saw a smoking car. They 
said something. NYPD arrived. They took the actions they were 
supposed to. Then Federal officials came in. You can relay that 
story.
    My question to you is, is that the correct way? You can't 
have an FBI agent on every corner, but you can have police 
officers on many corners. First of all, I think it is amazing 
that this man was apprehended in 53 hours and 24 minutes.
    Attorney General Holder. Yes, that was.
    Senator Mikulski. I think we really have to congratulate 
law enforcement for that. The watch list is a different bag. 
Talking to me about the watch list is like fingernails on a 
blackboard. But let us talk about what our law enforcement did, 
both State and local, up the chain, and then, what did it take 
to do that? And do you have the resources to make sure, whether 
it is in Los Angeles or Baltimore, et cetera, that we have 
these security mechanisms and people?
    Attorney General Holder. I think that the success of that 
effort is a direct result of the joint efforts that we have 
between the Federal Government and our State and local 
partners. The work that the FBI did in New York with the New 
York Police Department, as well as our counterparts at the 
Department of Homeland Security--I think all of that combined 
for making our attempts to disrupt that plan successful.
    And that is why the budget focuses on getting money to 
these joint terrorism task forces and getting money to our 
State and local partners. I think what you said is exactly 
right. We have to use our State and local counterparts as force 
multipliers. They are the people who are going to be most 
familiar with the communities in which they operate. There are 
far more of them than there are Federal law enforcement 
officials. And without their assistance, without their 
partnership, we will not be as successful as we were in foiling 
this plot.

                              COPS PROGRAM

    Senator Mikulski. So what is it then, do you feel--do you 
want to elaborate on your Community Oriented Policing Services 
[COPS] program, your Edward Byrne Memorial State and Local Law 
Enforcement Assistance Grant Program [Byrne grants]? Do you 
feel that it is because of this? Or do you feel that police 
departments, where there is high risk of threat, New York 
obviously being one, L.A.--we know the list--Washington, DC, 
that there needs to be specialized training? What do we need to 
do, to put in the budget, so that we can deploy people in 
communities and ensure that they have the right training and 
the right equipment?
    Attorney General Holder. Well, I think we have to----
    Senator Mikulski. Because it is just not putting somebody 
in a uniform on the street. It is like boots on the ground in 
urban neighborhoods. They have to be trained and equipped.
    Attorney General Holder. Right. There are a number of 
steps. We have to certainly first support the hiring of State 
and local law enforcement officials. For the COPS hiring 
program, we have a fiscal year 2011 request for $600 million. 
That is up $297 million from this year. So that is the first 
step, to get these people on the force.
    But the point you make is an excellent one--that simply 
having them there is not sufficient. They have to be adequately 
trained. They are interacting with their Federal counterparts 
in these joint terrorism task forces. The training 
opportunities that we can make available, and the knowledge 
that we can glean from them in the interaction that we have 
during training, are invaluable.
    We have built upon the $1 billion that was in the Recovery 
Act that was dedicated to the COPS program to try to make sure 
that we have a constant level of support for our State and 
local partners, both in terms of hiring, and with regard to the 
specialized training that is needed in dealing with these 
terrorism cases.
    Senator Mikulski. Aren't you cutting the COPS program by 
$100 million in the President's request?
    Attorney General Holder. I am not----
    Senator Mikulski. The fiscal 2011 budget request provides 
for $690 million. In 2010, there were $792 million. Mr. Holder, 
why don't you check that out with your team?
    Because I know this subcommittee--on a bipartisan effort, 
if there is one thing we really do support it is the COPS 
program and the Byrne grants. I think, as we look at the 
Justice Department, that is where everyone is on either side of 
the aisle, because every community needs it. Why don't we take 
a look at that and see and come back to it?
    Attorney General Holder. Yes. The numbers that I have show 
us increasing the amount pretty substantially from about $298 
million to $600 million in terms of COPS money, COPS hiring. 
Again, as I said, that is built on top of the $1 billion in 
money that was dedicated from the Recovery Act.
    But we will certainly work through those numbers and share 
them with you.
    [The information follows:]

    The COPS fiscal year 2010 enacted budget includes four programs 
(Sex Offender Management Assistance, the National Sex Offender 
Registry, the Bulletproof Vest Program, and the DNA Backlog Program) 
administered by the Office of Justice Programs (OJP) that are being 
requested under OJP's appropriation in fiscal year 2011. If the amounts 
requested for these four programs totaling $186 million are added to 
the $690 million requested for COPS in the fiscal year 2011 President's 
budget, it results in an adjusted total of $876 million, or an increase 
of $84 million above the fiscal year 2010 COPS enacted level. It is 
important to make this comparison for the same array of programs to 
appropriately evaluate the COPS fiscal year 2010 enacted budget versus 
the fiscal year 2011 request.

    Senator Mikulski. Right. Because I think the point that I 
am making is, let us make certain that there is no reduction of 
support for the COPS program and also for the Byrne grants, 
which allows them to get what they need, depending on the needs 
of the local communities.
    But I want to be sure that we accommodate as many people as 
we can. I will come back to my questions.
    Senator Leahy, we are so glad to have the chair of the 
Judiciary Committee here.

                          TIMES SQUARE BOMBING

    Senator Leahy. Thank you. Thank you and I apologize that I 
am going to have to leave because the committee is going to be 
having a mark-up.
    Attorney General, I called Commissioner Ray Kelly to 
applaud the New York Police Department for their work on the 
Times Square bombing, and I have spoken to you. I applaud you 
and the Department of Justice and the FBI for what they have 
done. It is one of those things where it is nice to see 
everybody working together.
    I should also applaud the citizens who--in this case, the 
vendor--who saw something suspicious and reported it to the 
police. The police reacted immediately, and we won't go into 
all the things you were able to do in tracking phones and 
everything else in this hearing. It was pretty remarkable to 
see all the pieces come together.
    I was rather surprised to hear Members of Congress 
criticize law enforcement for doing what law enforcement has 
always done since the Miranda decision came down in giving 
Miranda warning to the suspect. Now the fact that you had to 
give Miranda warnings, which is required, did that, in any way, 
hinder your investigation?
    Attorney General Holder. No, it did not. As we have seen in 
prior investigations, the giving of Miranda warnings has not 
deterred people from talking to us. And Mr. Shahzad is, in 
fact, continuing to cooperate with us.
    Senator Leahy. In fact, wouldn't it be safe to say--and you 
can rely on your own experience as a prosecutor even before you 
were Attorney General. Certainly, I rely on mine. Isn't it safe 
to say that there are many, many, many cases where a person has 
given a great deal of information about a crime they have 
committed after they have been given the Miranda warning?
    Attorney General Holder. That is absolutely correct. It is 
not conferring a right on somebody or treating them in a 
special way. It is allowing us to make sure that statements 
that they give to us are going to be admissible in court.
    If you look at what we have done in the recent past, the 
following people have been given their Miranda warnings and 
have, after that, continued to cooperate--David Headley, 
Colleen LaRose, Jamie Paulin-Ramirez, Bryant Neal Vinas, Daniel 
Boyd, Dylan Boyd, and Zakariya Boyd. Even after getting Miranda 
warnings, Mr. Zazi and his co-conspirator, Umar Farouk 
Abdulmutallab, ultimately cooperated. All of these people 
received Miranda warnings and still ultimately decided to speak 
with the Government.
    Senator Leahy. Again, I can think back even to murder cases 
where I prosecuted, and now you are dealing with far more 
serious cases where, again, people are given a Miranda warning, 
and they went ahead and gave the information. But you also have 
then, as you said, the ability to use the statements in court.
    Now since taking office, I believe, and Madam Chair, 
wearing my hat as chair of the Judiciary Committee, I have seen 
you use all the options available to try terrorist suspects, 
including Federal criminal courts, military commissions. Since 
September 11, there have been over 400 terrorism-related 
convictions in Federal court. There are hundreds of terrorists 
locked up in our prisons, over 400.
    Now there have been three people convicted in military 
commissions. I think the new manual for military commissions 
was issued last week. Without putting words in your mouth, is 
it safe to say that Federal courts know what they are doing 
when they are handling these kinds of cases?
    Attorney General Holder. I will use those words. We want to 
make sure that we use all the tools that we have available to 
us in trying to prosecute this war. If you were to take from us 
the ability to use the Federal courts, you will weaken our 
ability to win this war. You will weaken the strength of this 
Nation.
    We have to have the ability to use the Article III courts, 
the reformed military commissions, our military power, and our 
diplomatic power. We need to have all of these tools so that we 
are successful in this fight against Al-Qaeda and others who 
would do this Nation harm.

                              BP OIL SPILL

    Senator Leahy. In an entirely different thing, in the wake 
of the recent disastrous oil spill in the Gulf of Mexico, there 
are reports that BP was requiring that fishermen who 
volunteered to help clean up the spill to waive their right to 
sue BP. These fishermen are out of work because of the BP 
spill.
    There are also reports that BP was offering settlements 
capped at $5,000 to residents facing damage from the spill if 
they give up their right to sue. These are people facing 
financial ruin, a lifetime of building up their fishing 
operations being wiped out. Are there ways the Government might 
make the fishermen, the small business owners, the residents, 
and other victims of the oil spill whole immediately, while 
still holding those responsible for the spill, like BP and 
Halliburton and what not, holding them ultimately liable?
    Attorney General Holder. Well, that is one of the reasons 
why I dispatched a task force of lawyers--the head of our Civil 
Division, the head of our Environmental and Natural Resources 
Division, along with other lawyers--to get down there to make 
sure that we protect the Federal Government's rights with 
regard to the costs that will potentially be incurred in this 
cleanup and to make sure those costs are borne by BP. But also 
to ensure that the residents in that area, the business people 
in that area, maximize their opportunities for recovering 
whatever monies they can. It is my understanding that BP has 
backed off on that effort to get people to sign waivers, and I 
think that is the appropriate thing to do. Trying to get people 
to sign away their rights for a mere $5,000 when the damage 
that they might have would far exceed that is clearly the wrong 
thing to do.
    Senator Leahy. Thank you very much.
    Thank you, Madam Chair. And I apologize for having to 
leave.
    Senator Mikulski. I think we are very fortunate to have the 
chair of the authorizing committee of Judiciary and the Intel 
Committee here because of the work of the FBI, so much now 
because of the anti-terrorism issues. And we are going to 
really ask our two authorizing chairs to look at this budget, 
and we welcome their advice and their insight as we put this 
together.
    Senator Lautenberg, you were the second to arrive.
    Senator Lautenberg. Thank you, Madam Chairwoman.
    Senator Mikulski. And then we will go to Senators Murkowski 
and Feinstein.
    Senator Lautenberg. Thank you, Madam Chairwoman.
    And welcome, Attorney General Holder. I say thank you for 
the leadership that you have provided to the AG's operation. 
Everyone knows how energetic and positive your leadership has 
been, and we are grateful to you.
    One of the things that have happened in the world that we 
live in now is with the internationalization of everything, 
with the instant communications, electronic access to data has 
changed the world. We are ever more threatened, in my view, by 
terrorist attack, and confirmed by, though a bumbling one last 
week, the fact of the matter is that--and it is posed as a 
question as well as a statement. And that is, you know, the 
State of New Jersey. You know it very well; it has a 2-mile 
stretch from the airport to the harbor deemed to be the most 
dangerous 2-mile stretch in the country as a target for 
terrorist attacks.
    And yet we are so lean. I wish we could be mean. But we are 
lacking in resources. And the fact that we have an expansion of 
the COPS program, Attorney General, is terrific. It is very 
helpful to us. My State, like so many, is without--almost 
without resources. In Atlantic City, New Jersey, a prominent 
place, we dropped, terminated 59 cops, 59 cops out of the 
police force, a huge number. And some part of that can be 
redeemed by the COPS program that we have here, have seen here 
today.
    Mr. Holder, this suspect spent around 5 months recently in 
Pakistan, came back, and talked about bomb making, training in 
Waziristan. Were DOJ and FBI looking at this fellow at all 
times prior to the attempted bombing?

                          TIMES SQUARE BOMBER

    Attorney General Holder. This is an ongoing investigation 
and we are in the process of looking at indices and files to 
see exactly what we knew about this gentleman and when we knew 
it. I am a little at a disadvantage, because this is an ongoing 
investigation, and there are leads that we are still pursuing, 
so I'm constrained from getting into too much detail about what 
we know at this point. Some of that serves as the basis for 
things that are in the process and that are ongoing.
    But, in answer to your question, we are in the process of 
trying to determine exactly what we knew about him and when.
    Senator Lautenberg. Well, I want to get to a key issue as 
far as my agenda is concerned, and I ask this. It was reported 
that the Times Square bomber left a loaded handgun in his car 
at JFK as he tried to make his escape. The State of Georgia, 
the State legislature recently passed a bill that would allow 
people to carry a loaded gun into an airport.
    Do you support allowing people to carry loaded guns into an 
American airport, this one happening to be the largest in the 
world?
    Attorney General Holder. We certainly have the Supreme 
Court's decision in Heller that says that the Second Amendment 
is an individual right. We have to respect the Supreme Court's 
decision in that regard.
    That doesn't mean, however, that that right is one that is 
absolute, and we have to balance that individual right against 
our collective security. And there has to be a way in which if 
there is a tension, we try to resolve that tension.
    The notion that people could bring guns to airports, 
especially given the Al-Qaeda focus on the use of airplanes as 
terrorist tools, is one that, to me, is very worrisome. I would 
hope that we would try to keep guns away from the very 
instruments that Al-Qaeda and other organizations successfully 
used on September 11 and continue to try to use in the present, 
and I suspect will seek to use in the future as well.
    Senator Lautenberg. Mr. Holder, last month, John Bedell 
wounded two Pentagon police officers before he was shot and 
killed. At least one of the handguns was linked to a private 
gun show sale.
    I brought the legislation to the Senate when Vice President 
Gore was in that position, and he broke a tie, 51-50, for us to 
close the gun show loophole, to shut down these dealers that 
don't have to ask your name, who you are, where you are, 
anything. Would you recommend Congress acting to close the gun 
show loophole once and for all?

                       FIREARM BACKGROUND CHECKS

    Attorney General Holder. We are committed to keeping guns 
out of the hands of people who should not have them. We know 
that people who have access to these guns have committed any 
manner of crimes. We have certainly seen a disproportionate 
number of gun crimes in our inner cities and in other places, 
the incident that you described being among them.
    We want to make sure that we take advantage of the tools 
and make sure that, as I said, we are keeping guns out of the 
hands of people who should not have them.
    Senator Lautenberg. Thank you for that ``yes'' answer.
    I authored the juvenile mentoring program. It created one-
on-one mentoring for a modest cost for at-risk youth. During a 
brief hiatus that I had away from the Senate, the program was 
de-authorized. Now I plan to reintroduce that legislation for 
authorization of this program in coming weeks.
    Do you see any value to that program, to the mentoring? I 
don't know how familiar you are with the results that we had in 
terms of crime prevention and giving our youth an alternative 
to gangs.

                           JUVENILE MENTORING

    Attorney General Holder. That is exactly the approach that 
we have to take. We have to understand that crime fighting 
happens not only by police officers and by prosecutors. Crime 
fighting happens in schools. It happens through mentoring. 
There is a direct correlation between schools that work, 
between mentoring efforts and between high levels of 
employment. All those things counter crime and are good crime 
fighting measures.
    We have to get beyond the notion that crime fighting only 
happens through people in uniform or through people who are 
lawyers who act as prosecutors. We have look at the social 
conditions that tend to breed crime, and if we want to keep the 
crime rate down, we have to deal with those underlying social 
conditions. Mentoring is one of the key ways in which you do 
that.
    I saw this when I was a judge here in the D.C. Superior 
Court. There were too many young people, especially young men, 
who came before me who had no man in their life. Women did a 
great job in trying to raise these young guys, but I think that 
mentoring, especially of young men, is a critical thing in our 
successful crime fighting efforts.
    Senator Lautenberg. Thank you.
    Thank you, Madam Chairwoman.
    Senator Mikulski. Thank you, Senator.
    Next I will call on Senator Murkowski, and then Senator 
Feinstein.
    Senator Murkowski. Thank you, Madam Chairwoman. Thank you.
    And welcome, Attorney General Holder.
    Attorney General Holder. Good morning.

                          9TH CIRCUIT VACANCY

    Senator Murkowski. Good morning to you. I have a question 
for you about a vacancy that we are looking at in the 9th 
Circuit. Andrew Kleinfeld, who has been Alaska's sole judge on 
the 9th Circuit, has notified the President that he is going to 
be retiring from active service in mid June, June 12.
    Now, by my reading, that will place the 9th Circuit out of 
compliance with the U.S. Code, 28 U.S.C. 44(c), which requires 
that there shall be one circuit judge in regular active service 
appointed from the residents of each State in a circuit. So my 
question to you is whether or not you understand, as I do, that 
this requirement under 28 U.S.C., that Judge Kleinfeld's seat 
must, in fact, be filled by another resident of the State of 
Alaska.
    And if you agree with that, can you tell me how the process 
to fill that vacancy is moving ahead?
    Attorney General Holder. We are trying to fill vacancies 
that exist in all of the circuit courts, as well as the 
district courts, as quickly as we can, working with elected 
officials in all of those States, including reaching across the 
aisle to our Republican colleagues to get names of qualified 
people. This President is committed to appointing and putting 
on the bench qualified people who are non-ideological in their 
views.
    One of the things I will certainly look at, having just had 
it brought to my attention, is that vacancy. We will interact 
with you if there are suggestions that you have. The White 
House counsel is chiefly responsible for the organization of 
our effort on judicial nominations. The Justice Department 
works with the White House counsel's office in vetting and 
identifying possible candidates. We will do that as quickly as 
we can to ensure we fill that seat as quickly as we can.
    Senator Murkowski. Well, we appreciate the expediency. But 
again, I just will remind you that that is the only seat that 
is occupied by an Alaskan, and as I read the U.S. Code, it does 
require that there be an appointment from the resident of each 
State. So we would like to work with you on that not only 
ensuring that it is filled quickly, but in consultation with 
members of the Alaska delegation. We appreciate that.
    We also have a U.S. district judge who has announced that 
he is going to be taking senior status next year, and I will 
assume, but I guess I should ask it by way of a question that 
the administration's plan to consult with the Alaska delegation 
will be very similar to what we are talking about with the 9th 
Circuit vacancy?
    Attorney General Holder. Yes. That is the way in which we 
have operated. We have talked to the Senators in the States 
where those vacancies have occurred. As I said, we have reached 
across the aisle. We are always open to suggestions that 
Senators have, be they Republican or Democrat, and we try to 
get the best people that we can for these vacancies.
    I am troubled that, in at least some of our district courts 
and some of our circuit courts, the number of vacancies is 
getting alarmingly high. We need to move as quickly as we can 
both in nominating people and getting them confirmed in the 
Senate. There are a number of judges, I think, who have kind of 
lingered in the Senate, either in the Judiciary Committee or on 
the floor--I think mainly on the floor--awaiting votes.
    And so, I would hope that, in a spirit of bipartisanship, 
we can get those people votes and get them on the bench so they 
can serve the American people.
    Senator Murkowski. We appreciate that. I want to talk just 
a little bit more about the 9th Circuit. I have long been of 
the opinion that the 9th Circuit covers far too much territory. 
Its caseload is too heavy. It is understaffed. The judges of 
the 9th Circuit are being asked to spend a lot of time away 
from their families to hear cases in far-flung States that make 
up the circuit, and I have long supported a split of the 9th 
Circuit into two circuits.
    The question to you this morning is whether or not you see 
any justification in maintaining the 9th Circuit in its present 
form, and what is the administration's view on the legislation 
to split the 9th Circuit. Senator Ensign had legislation 
introduced this year. We have worked with him in the past. If 
you could just address the workload and the situation as to how 
the 9th Circuit could best and most efficiently operate?
    Attorney General Holder. I think the 9th Circuit does 
present unique problems, both in its geographic size and the 
workload that it has. I think we want to look at those two 
issues, and make a determination about whether there is any 
need for some reconstruction or some reconfiguring.
    This is something that I have not really focused on in the 
recent past, but I know I have certainly read articles and had 
conversations about that possibility. We will certainly want to 
work with Congress in looking at the workload and the 
geographic dispersion of the 9th Circuit in making the 
appropriate determination.
    Senator Murkowski. Appreciate that.
    Thank you, Madam Chair.
    Senator Mikulski. Senator Feinstein. Senator Feinstein is 
the chair of the Intelligence Committee and also is an 
outspoken person on the funding for the Office of the Federal 
Detention Trustee fund [detainee trust fund] that is often 
skimpy and spartan. We ask local jurisdictions to hold the 
prisoners that are Federal and then don't pay the bill. So I 
hope you ask some of those questions.
    Senator Feinstein. Well, thank you very much, Madam 
Chairwoman. I appreciate it.

                           NARCOTICS CONTROL

    I want to ask a question in my capacity of Chairman of the 
Senate Caucus on International Narcotics Control, and we have 
been spending some time looking at both Afghanistan and Mexico 
and the cartels. And you could say that there is eruption in 
Mexico in the cartels, and you could say that there is major 
eruption in Afghanistan with the Taliban increasingly taking 
over drug lab activities, transportation of narcotics, and in 
effect, transforming themselves into a narco-cartel, which I 
happen to believe will be the result.
    We have found that as much as $169 million comes from a 
single heroin trafficker in a 10-month period in Afghanistan. 
At present, the Drug Enforcement Administration [DEA], which 
has units to address this type of narco-terrorism, does not 
have the manpower to stand up or devote full-time operations in 
Afghanistan.
    I think they have been very effective. I have talked with 
former agents, Mr. Braun, others, about operations in southern 
Afghanistan and believe that for a fraction of our national 
investment in that country, a DEA unit could, in fact, be 
dedicated to removing narco-terrorists from the battlefield in 
direct support of the administration's top priority.
    So I am asking the distinguished chairman to add money 
either in this bill or to try to put it in a 2010 supplemental 
to stand up a new terrorism investigations unit at DEA's 
Special Operations Division to focus on Afghanistan. Would you 
support such an effort?
    Attorney General Holder. Yes, the DEA has been particularly 
effective in Afghanistan. At the end of fiscal year 2010, we 
expect to have a permanent staff of about 81 DEA positions in 
Afghanistan.
    The reality is that, given the nature of the problem that 
you accurately describe, additional DEA agents, prosecutors, 
and people from the Marshals Service could all help with regard 
to the fight against the narcotics trade--which helps fuel the 
Taliban--and also help that nation in its efforts to adhere to 
the rule of law.
    We have to view this comprehensively. The point that you 
make about the need for expanded DEA resources in Afghanistan 
is exactly right.
    Senator Feinstein. Second question. Yesterday, at the 
request of Senator Cornyn, I chaired a hearing of the Caucus on 
International Narcotics Control, particularly on drug violence 
in Mexico and the implications for the United States. And what 
appears to me is that kidnappings in the last 3 years are up 
substantially. They are in southern California. They are in 
Arizona. Stash houses are up, and home invasions are up.
    And I think that has really fueled the Arizona law, which I 
think is an unfortunate law, but nonetheless, I understand the 
fear that people have. The question becomes, have you looked at 
beefing up even more the law enforcement effort in these 
particular areas, and if so, what is Justice prepared to do?
    Attorney General Holder. We have deployed Justice 
Department resources from the Bureau of Alcohol, Tobacco, 
Firearms and Explosives [ATF], from the DEA, from the FBI along 
the border. I am concerned about the level of violence that we 
have seen increase pretty dramatically, even in the last 3 to 4 
weeks. We are going to make sure that we keep a sufficient 
presence both in Mexico and along the border and that we work 
with our State and local partners in those affected areas along 
the border to keep the violence level as low as we can.
    The efforts that our Mexican colleagues and President 
Calderon have taken are heroic. We have to make sure that we 
are supportive of those efforts. We have to, as I said, make 
sure that we maintain and increase our presence within Mexico, 
but also maintain that presence along the border.
    We have deployed ATF agents there on a rotating basis. And 
I think one of the things we are going to have to consider, 
given the violence level that we see in Mexico and a concern 
about that spilling over, is to perhaps make that presence 
permanent.
    Senator Feinstein. Just one of the things that came up 
yesterday, a captain by the name of Martinez, 24 years 
experience, Chula Vista Police Department. They got a grant, 
and what they began to do is really develop intelligence. A lot 
of these kidnappings in Mexico related to somebody in the 
United States, the person in the United States won't call up 
and say, ``My relative has been kidnapped,'' but they will talk 
about it.
    They pick up this talk, so they are able to go in and make 
an arrest in concert with Mexican police or prevent something 
from happening, and I think that is a very good effort.
    Additionally, the El Paso Intelligence Center [EPIC], my 
understanding is that DEA has requested funding for an 
expansion and renovation project to enlarge the existing EPIC 
facility since 22 of the agencies are planning on adding 
personnel. Is that something that is critical, in your view?
    Attorney General Holder. Yes, I think it is. For us to be 
successful in this effort, we need to gather as much 
intelligence as we can. We need to be able to process that 
intelligence. We need to have the enforcement agencies co-
located so that they can all make use of that intelligence and 
then efficiently deploy the resources that they have.
    The Department's request for fiscal year 2011 seeks really 
significant resources to combat violence along the Southwest 
border, and one of the ways in which we can do that is by 
supporting EPIC, which is a critical part in our efforts.
    Senator Feinstein. Would you allow me one more question, 
Madam Chairwoman?
    Senator Mikulski. Absolutely. I think this is absolutely 
critical and was going to be part of my second round. Please.
    Senator Feinstein. Thank you. You are a good sport. I 
appreciate it.
    Let me ask a couple of Miranda questions because I am 
seeing and reading----
    Senator Mikulski. Oh.
    Senator Feinstein [continuing]. Everything that is going 
on.
    Senator Mikulski. We'll, wait a minute.

                             MIRANDA RIGHTS

    Senator Feinstein. Is it true that every American has the 
right under the Fifth Amendment to a Miranda warning?
    Attorney General Holder. Yes. The Supreme Court in the 
Dickerson case, Dickerson v. United States, when Chief Judge 
Rehnquist was alive, in a 7-2 decision, said that the Miranda 
warnings were of constitutional dimension and struck down a 
Federal statute that tried to get around the earlier Miranda 
ruling that was first established by the Warren court. The 
Rehnquist court said that the Miranda warnings were of 
constitutional dimension.
    Senator Feinstein. So this is now well established, that 
every American, under the Fifth Amendment, has this right?
    Attorney General Holder. That is the way in which the 
Supreme Court has interpreted it.
    Senator Feinstein. Is there any exception?
    Attorney General Holder. Yes. There are exceptions to 
Miranda, and that is one of the ways in which we conduct our 
interrogations of terrorism suspects. It is what we did with 
Abdulmutallab, and it is what we did with Shahzad.
    Senator Feinstein. Could you concentrate on the national 
security exception?
    Attorney General Holder. Yes. It is called the public 
safety exception. It comes from the Quarles case, New York v. 
Quarles and allows a police officer or a Federal agent to 
question a suspect, a potential defendant, or a terrorist, in 
order to protect the public safety, and ask questions such as, 
``Are you acting alone? Are there other bombs that we need to 
be worried about? Are there other people flying in who are 
going to be helping you?''
    To ensure the public safety, we are allowed to ask those 
questions without giving Miranda warnings. With Abdulmutallab 
and Shahzad, we made extensive use of the public safety 
exception before a decision was made to give them the Miranda 
warnings.
    Senator Feinstein. Now, a difficult question. According to 
process and precedent, about what is the vicinity of time that 
that--you call it the public safety, I call it a national 
security--exception can last?
    Attorney General Holder. That has not really been defined 
by the courts. It is not a prolonged period of time. I will 
say, without getting into too much detail, that it has been 
publicly reported that with Abdulmutallab, there was a 1 hour 
interrogation period under the public safety exception. Useful, 
valuable intelligence was gained in that 1 hour.
    A lot of people have said you only spoke to him for about 
an hour, they say 50 minutes, without recognizing that in that 
period of time, qualified, experienced FBI agents can elicit 
really substantial amounts of information. Again, without 
getting into too much detail, with regard to Shahzad, the 
questioning under the public safety exception far exceeded the 
amount of time that we had with Abdulmutallab.
    Senator Feinstein. Is it fair to say that process and 
precedent take that to around 3 to 6 hours?
    Attorney General Holder. The courts have never said 
exactly.
    Senator Feinstein. The courts have not said.
    Attorney General Holder. They have not said how far you can 
go.
    Senator Feinstein. Prior use?
    Attorney General Holder. I think that as long as you are 
asking questions, appropriate questions, probing about public 
safety issues, I think the courts are generally going to be 
supportive. And we have asked those questions, I think, 
appropriately, minding the dictates of the Supreme Court in the 
Quarles case. And as I said, with regard to Shahzad, we really 
made use of that exception to elicit a very substantial amount 
of information from him before the decision was made to give 
him his Miranda warnings.

                         SHAHZAD INTERROGATION

    Senator Feinstein. Could Shahzad be declared an enemy 
combatant, and if that were to be the case, could he retain 
counsel and overturn the decision?
    Attorney General Holder. He could certainly retain counsel 
in whatever forum he was in to try to challenge the decision to 
not give him his Miranda warnings.
    Senator Feinstein. What would be the likelihood of his 
succeeding?
    Attorney General Holder. I am obviously an advocate here, 
but on the basis of the way in which the interrogation was done 
here and the care with which it was done, I don't think he 
would be very successful.
    Senator Feinstein. You do not?
    Attorney General Holder. No.
    Senator Feinstein. Everything I have seen says he would 
have a high chance at being successful in--because he is an 
American, and that seems to me to be a heavier prior right.
    Attorney General Holder. Oh, I am sorry. I didn't hear the 
question. No, what I was saying is that he would not be 
successful in trying to say that the interrogation that was 
done was done inappropriately. That is what I was saying. He 
would not be successful in that.
    Senator Feinstein. Oh, all right. But in other words, 
declaring him an enemy combatant would not void his basic 
rights?
    Attorney General Holder. Again, the courts have not totally 
weighed in on all of these areas, but the courts have indicated 
that there are certain basic rights that are going to apply no 
matter what forum you are in. There was a very big 
misconception that somehow or other terrorists have far greater 
rights in the Article III courts than they would in the 
military commissions.
    Under the reformed Military Commissions Act, there are 
substantial procedural rights that defendants have. It is one 
of the reasons why this administration feels comfortable using 
either military commissions or the Article III courts. There is 
not a distinct advantage that people get if they are in the 
Article III courts. We have successfully prosecuted close to 
400 people who were charged with terrorist offenses in the 
Article III venue.
    Senator Feinstein. All right. Thank you, General.
    Thank you, Madam Chairwoman.
    Senator Mikulski. Absolutely. We could pursue this line of 
questioning, but we have another witness, and I have one other 
substantive question and then something related to Maryland. 
Then we will go to the inspector general.
    Mr. Attorney General, one of the issues that we are deeply 
involved in, whether it is the Judiciary Committee, the Intel 
Committee, or Appropriations, is cybersecurity. And we regard 
this as one of the greatest threats facing the United States of 
America. And as we examine it, for example, in the task force 
that I am on, we are looking at governance, technology 
development to maintain the cyber shield, the development of a 
workforce to be able to be involved in this, and the issue of 
civil liberties.
    My question goes to the Justice Department. In the area of 
governance and civil liberties, there are new definitions that 
are going to have to be developed because, essentially, the 
mother ship of most knowledge on protection lies with the 
National Security Agency whose job is to protect .mil and our 
military assets. But there is .gov. There is .com. There are 
the financial services. There is the power grid.
    I am not going to go into the policies today. That will be 
a subject of other hearings in other fora. But has the Justice 
Department been tasked by the White House to begin to look at 
what are some of the laws pertaining to governance and also the 
laws of civil liberties, where we have defined Foreign 
Intelligence Surveillance Act [FISA] rules, we have defined 
firewalls, which the military can't. What about the role of the 
private sector seeking help from Government? Do they go to 
Homeland Security, which doesn't have a lot to offer right this 
minute? If they do, are they getting it, really, from the .mil. 
So could you share with us what you have been tasked to do?

                             CYBERSECURITY

    Attorney General Holder. Well, we certainly are tasked with 
the responsibility of making sure that the Internet, which is a 
great tool, is used in appropriate ways. One of the things that 
we are tasked with is making sure that it is not used in a 
criminal way by people who would perpetrate frauds, or by 
terrorists who would use it to spread their ideology and 
potentially radicalize people, or in an operational way.
    We are also tasked with the responsibility of making sure 
that we do this in such a way that people who are on the 
Internet are protected.
    Senator Mikulski. Mr. Attorney General, I am not asking 
that. I am asking about the law and the fact that every report 
that has been issued says the law is now either gray, dated, or 
nonexistent on this. We have Mr. Schmidt, a very capable 
professional, the White House czar. We don't know who in the 
hell is in charge. That is No. 1.
    No. 2, there are these issues where the private sector is 
really apprehensive about the ongoing attacks on them. Google 
comes to the National Security Agency. That is really new 
ground. So we want to, as we look at this, protect. We have to 
have a kind of legal framework, also, to be able to define what 
the parameters are for various sectors in our Government, how 
do we maintain the current structure? Do we look at it? Have 
you been tasked to examine this in a comprehensive way?
    Attorney General Holder. We are working with our 
counterparts in various parts of the executive branch and with 
the White House to deal with the issues that you have raised. 
We are concerned about intrusions. We are concerned about 
privacy, for corporations, as well as individuals. We also want 
to make sure that the laws that we have on the books are up to 
date to deal with this new reality that we confront.
    Senator Mikulski. That is right.
    Attorney General Holder. Many of these laws that we try to 
apply in this cyber age are not necessarily consistent with the 
threats that we face in a variety of contexts. What we have 
tried to do is to look at the laws as they exist. We have 
people within the Justice Department, in our Criminal Division 
and in other parts of the Department, who are always coming up 
with suggestions that we take to the White House. We would 
obviously work with Congress.
    Senator Mikulski. I will be honest, Mr. Holder. I am not 
looking for suggestions. I am looking for a comprehensive 
effort tasked by the White House to the Attorney General's 
office that says you have got to put a team together and look 
at this and give the White House a report and give the Congress 
a report to see if we have to move in a direction. I don't want 
to get lost in semantics.
    Or is it kind of, we look at it in one area and we look at 
it in another, because that has been the problem.
    Attorney General Holder. Well, again, I would say that 
there is a comprehensive effort, run through the White House 
and in conjunction with the other branches.
    Senator Mikulski. But you are the President's lawyer. You 
are America's lawyer. Any new legal framework must come from 
the advice, counsel, legal memos, et cetera, from the Attorney 
General's office, or am I wrong?
    Attorney General Holder. No. We certainly play a 
substantial role in that. Bills that go through, suggestions 
that are made, all have to be vetted in the Justice Department 
to make sure that they are legal, and our Office of Legal 
Counsel looks at proposed legislation in that regard.
    Senator Mikulski. Well, I would like your team to talk more 
extensively to Senator Feinstein and me and about something we 
might ask of the President. I don't want a line item and an 
appropriations committee directing it. But there needs to be 
clarification of governance, and there has to be clarification 
and perhaps a new law in this new world that we have to protect 
the American people.
    You did a great job. When I say ``you,'' I mean everyone 
that got the Times Square bomber. There could be somebody out 
there right now that has got their eyes on the grid or any 
number of other things. We have to have our legal framework.
    Meeting with entrepreneurs, they are stealing our secrets 
from the Patent Office. They are raiding our ideas. I mean, the 
private sector needs all the help that it can get, and we have 
certain constrictions that have served us well in the past. So 
we want to maintain privacy. We want to maintain civil 
liberties, but we also don't want to be operating in an area 
where, in our desire to protect the people, we have 
inadvertently made them or our entrepreneurial enterprises 
vulnerable.
    So why don't we talk more about that, involving the Intel 
and Judiciary Committee on this?
    Attorney General Holder. That is fine.
    Senator Mikulski. Senator Murkowski, I understand you have 
another question?
    Senator Murkowski. I do, Madam Chairwoman, just one 
question. And this follows up on some of the comments that have 
been made about the Times Square bomber, the recognition that 
in conjunction with the Federal, the State, and the local law 
enforcement individuals on the scene. It was an effort that we 
recognize and kind of in view of the fact that we have got 
National Police Week beginning next week, I think that it is a 
testament to the work and the coordinated efforts that go on. 
We appreciate that.
    But as good as that was, I think there is a lot of concern 
out there about why the suspect was not apprehended until the 
jet has pulled away from the gate. I come from a State where we 
all fly, and we have got a level of scrutiny at our little 
airports in some pretty remote and out of the way places where 
people feel like the level of scrutiny and surveillance is just 
over the top, and they look then at an individual that has 
all--has triggered all the flags.
    You know, you have purchased the ticket with cash. You 
purchased it just immediately before the flight, international 
flight, all of the indicators. One really has to wonder, where 
was the failing here? What happened with this watch list? And 
Senator Mikulski has used the terminology the watch list is 
like nails on a blackboard. I think that gets all of us charged 
up as we talk about that.
    But we really do have to wonder, okay, why was he not taken 
into custody at the screening point, at the gate, or in the 
jetway? It makes you wonder whether or not there is a lapse in 
communication then between the FBI and the Transportation 
Security Administration [TSA] or perhaps between the FBI and 
other law enforcement agencies that are working at the airport.
    So the question to you this morning is whether or not you 
are satisfied with the way that this take-down went or whether 
there are ways that we can improve on this? And then, secondly, 
whether the take-down of a fugitive onboard an aircraft 
presented safety risk to the other passengers on the airplane? 
So if you can just speak to that end of this issue.

                       TIMES SQUARE BOMBER ARREST

    Attorney General Holder. In direct response to your 
question, I am never satisfied, even with an operation like 
this one, which I think we all have to understand was 
successful. The person who was responsible for placing that 
bomb in Times Square was apprehended in a relatively short 
period of time.
    Now I don't take too much from that. We were successful 
here. That does not mean that we don't have to continue to be 
vigilant. There are going to be other attempts, and we are 
going to have to make sure that we are up to the task.
    We were successful here, but am I satisfied? No. We have to 
always look at our failures, our successes, and figure out ways 
in which we can, in the next occasion, be even better. The TSA 
has already announced that it is going to make changes with 
regard to how often airlines are required to look at changes 
that are made on the no fly list. It was 12 hours. They are 
going to move it down to 2 hours. If that change had been in 
effect, it is possible that he would have been caught before he 
got on the plane.
    Senator Murkowski. Can I ask you about that, though? 
Because I have been one, you know, you purchase a ticket at the 
last minute to go home. I purchase it on my credit card. It is 
not cash, and yet I am subjected, even as a United States 
Senator, I am subjected to the full-on screening because I have 
purchased a one-way ticket at the last minute.
    Tell me why, given all of the red flags again, in this 
particular instance, why we were relying only on that watch 
list, on that no fly list? Was there not sufficient information 
to cause further questioning?
    I mean, I think people are really concerned about how he 
was able to board that aircraft and have that aircraft actually 
leave the jetway before we were successful in apprehending him. 
And we are pleased that he was stopped, but we all have to 
wonder, how did he get on that airplane?
    Attorney General Holder. As I said, we have to look at this 
successful operation and determine how we can do it better the 
next time. But again, I go back to the fact that the foundation 
here is the effort to determine who was responsible for the 
placement of that bomb and his apprehension. We were successful 
in doing that in a relatively short period of time.
    With the screening that people go through, he was not 
necessarily a danger while on the plane. He went through all of 
the metal detectors. The information that was passed to TSA was 
done under a system that is now in the process of being 
changed, in recognition of the fact that as we look, even 
preliminarily, back on what happened with regard to him, we 
already have noticed that there are things that we need to 
calibrate in a different way. Those changes have already been 
announced and are being instituted.
    Senator Mikulski. I would like to help the Senator from 
Alaska out. We are really grouchy about the watch list and what 
happened. We are really proud of law enforcement because they 
knew where to go. But when you have a bomber that we know is 
loose in America, we often presume they want to get out of 
America. So there should have been a significant kind of red 
alert for the methods for leaving the United States of America, 
particularly when you are in New York. You either go north or 
you get on an airplane.
    So the northern border should have gone on red alert. TSA 
should have gone on red alert. Some of these questions, 
Senator, I think are also appropriate for the Secretary of 
Homeland Security. That is the TSA part.
    But the President of the United States was volcanic after 
the Christmas Day bomber and ordered significant reforms. Once 
again, the watch lists seem to be dysfunctional. Are you in 
charge--who is in charge of the watch--who is in charge of 
watching the watch lists, that they really do watch? And who is 
in charge of the watch list, making sure we use the watch list?
    Attorney General Holder. The information that we were 
concerned about him was shared many hours before he actually 
got to the airport. What I would say is this. As I indicated to 
Senator Murkowski, we learned from the experiences that we have 
had. Changes have already been instituted with regard to the 
watch list. If we were faced with a similar situation again, I 
suspect that we would detect him earlier than we did.
    But as I said at the press conference, I was never worried 
about whether or not we were going to apprehend him, given all 
that had been done, the surveillance we had of him, and the 
advance notice we gave to the airports to look out for him. As 
a result of that notification, or those notifications, he 
ultimately was apprehended before he left the country.
    Senator Murkowski. Madam Chair, can I just ask?
    Senator Mikulski. Yes, because I do have to move on to the 
inspector general.
    Senator Murkowski. And this is just very quickly, and it is 
promptly from something that you have said. We have instituted 
in this country this AMBER Alert when a child goes missing, and 
there is a network around the Nation----
    Senator Mikulski. Right, and it has worked well.
    Senator Murkowski. And it has worked very successfully 
well. It would seem to me that if we can have a system like 
that when a child is missing, that when an incident happens in 
New York, that instantaneously there is an alert that goes out 
again to all of the exits, whether it is the border exits or 
the airports, and it just seems to me that we can be doing 
more.
    So I look forward to working with you, Attorney General, 
and certainly you, Chairwoman.
    Senator Mikulski. First of all, I want to thank you for the 
question. Second, the President has got to give us a TSA 
nominee that we can confirm, and then we have to stop screwing 
around with holds so that we can confirm them. I think it would 
go a long way. TSA needs permanent, vigorous leadership. You 
are not the head of TSA.
    But I bet the President is pretty proud of one group of 
Government, but after the Christmas Day bomber, he did order 
significant reforms. And the watch list issue and the TSA issue 
do not seem to have been one of the areas that have quite 
clicked in. But that is not for today.
    We are going to excuse you. We have so much to talk about, 
from the ``third war'' border on our Southwest border to the 
war that is going on against our children. We have a terrible 
situation in Maryland with another violent death on a college 
campus. All these things we could talk about. But your Justice 
Department is working hard with locals on so many fronts, and 
we want to say thank you.
    I do want to raise an issue specific to Baltimore and to 
Maryland. You might recall, Mr. Attorney General, that a young 
police city fire cadet, Rachael Wilson, died tragically in a 
training exercise 2\1/2\ years ago. They have filed for the 
appropriate Federal benefit, and the Public Safety Officers 
Benefit Program, it took a long time to even get a hearing and 
to get the AG's attention.
    Now, there was a hearing on January 20. There was 
additional information. It has now been 90 days since the 
hearing. The family has had no contact. They are really 
frustrated. It is one thing to lose someone you love in a 
training accident. The government failed her then, and we 
cannot let government fail her now.
    I am not commenting on the outcome of the decision, but I 
would like a well-paced decisionmaking process and contact with 
the family. Could I have your assurances that you will look 
into that?

                             RACHAEL WILSON

    Attorney General Holder. You have my personal assurance 
that I will look into that. The concerns that you have raised 
are ones that worry me as well. People who put their life on 
the line in order to protect the rest of us are owed a special 
obligation, and the families, the survivors of those people, 
are deserving of special attention.
    I will make sure that I examine where that case is, and, to 
the extent that I can speed it along, I will do so, or work 
with you if there are legislative ways in which this matter 
might be ultimately resolved. However we can do it, I pledge to 
work with you.
    Senator Mikulski. Thank you. And I appreciate that. I know 
you will bring sensitivity and expedition to this.
    Thank you very much. And you are excused.
    Attorney General Holder. Thank you.
    Senator Mikulski. And we look forward to working with your 
team.
    We are now going to call up Mr. Glenn Fine. As Mr. Fine 
comes to the table, we want to note he is the inspector general 
of the Department of Justice. He was confirmed in December 15, 
the year 2000. He has worked there and has an extensive 
history.
    He has worked in the Office of the Inspector General [OIG] 
ever since 1995. So we just want to thank him, first of all, 
for his service, and as you could see, there was so much we had 
to go over, and the vote also delayed it.
    But Mr. Fine, it is the hope of this subcommittee that we 
function in a very fiscally prudent way. And we look forward to 
your testimony in terms of what you think are things the 
subcommittee needs to be aware of in the area of management 
that we could encourage management reforms, if appropriate, and 
then also where you think we could have better spending.
STATEMENT OF HON. GLENN A. FINE, INSPECTOR GENERAL
    Mr. Fine. Thank you, Chairwoman Mikulski and members of the 
subcommittee.
    I appreciate your inviting me to testify about the Office 
of the Inspector General's oversight work related to the 
Department of Justice. In my testimony today, I will focus on 
significant challenges facing the Department as you consider 
its fiscal year 201l budget request.
    Overall, I believe the Department has made progress in 
addressing many of its top challenges, but improvement is 
needed in important areas. First, the Department has made 
progress in its highest priority--counterterrorism. But the 
Department continues to face challenges in this area.
    For example, last year, the OIG issued an audit report 
examining the FBI's practices for making nominations to the 
consolidated terrorist watch list. A failure to place 
appropriate individuals on the watch list or a failure to place 
them on the watch list in a timely manner increases the risk 
that these individuals are able to enter or move freely within 
the United States.
    Our review assessed the accuracy of the watch list and the 
timeliness of entries made to the watch list. We found that the 
FBI did not consistently nominate known or suspected terrorists 
to the consolidated terrorist watch list and did not update or 
remove watch list records, as required by FBI policy. In 
response, the FBI has made progress in addressing our 
recommendations, including the development of a training course 
to ensure that all FBI counterterrorism personnel are familiar 
with current FBI watch list procedures, improving internal 
controls to ensure that known or suspected terrorists are 
nominated to the watch list, and also ensuring that watch list 
records are modified or removed as required.
    While the Department's highest priority is 
counterterrorism, it must also focus attention on its 
traditional law enforcement functions, including the 
investigation and prosecution of financial crimes, cyber 
crimes, and violent crimes. One critical issue for the 
department is how to allocate its resources among these 
competing demands.
    For example, the OIG has regularly reviewed how the FBI 
allocates and utilizes its personnel resources. An audit we 
issued last month determined that in 2009, the FBI had used 26 
percent of its field agents on counterterrorism matters while 
it used 51 percent on criminal matters.
    Our review determined that the FBI actually used its field 
agents in line with the allocations it had made to its highest 
national priority, including counterterrorism. However, we 
found that the FBI used fewer field agents than it had 
allocated to some other national priorities, including gangs 
and criminal enterprises, white collar crime, and violent 
crime.
    In order to maximize the effect of its resources in 
counterterrorism and in other areas, it is important that the 
Department components coordinate effectively with each other. 
One of our recent reviews found that jurisdictional disputes 
occurred between the FBI and ATF in explosives investigations 
and that both maintained separate and uncoordinated explosives-
related databases and training programs.
    In pursuing its counterterrorism and law enforcement 
missions, the Department must also balance its responsibility 
to protect individual civil rights and civil liberties. This 
issue was highlighted by several reviews we conducted regarding 
the FBI's widespread misuse of national security letters. In 
response to our recommendations, the FBI and the Department 
have taken action to seek to ensure that such misuse does not 
recur.
    Restoring confidence in the Department is also an ongoing 
challenge. In the past several years, the Department of Justice 
has faced significant criticism for alleged misconduct in 
prosecutions, the dismissal of certain U.S. attorneys, and 
politicization in the hiring of career attorneys. While these 
issues involve a small number of the many important 
responsibilities the Department handles, they can affect public 
confidence in the objectivity of the Department.
    The Department also faces challenges each year in managing 
the award of more than $3 billion in grant funds. This 
challenge was heightened when the Recovery Act provided the 
Department an additional $4 billion in grant funding. The 
Department must distribute this large amount of grant funding 
quickly and effectively monitor the use of these grant funds 
while continuing to manage its other grant programs.
    The Department also has ongoing challenges in managing 
information technology systems and in ensuring that its IT 
planning, development, and security measures maximize the 
effectiveness of these expenditures. A major challenge in this 
area has been the FBI's development of its Sentinel case 
management project.
    The OIG has issued a series of reports examining the FBI's 
ongoing development of Sentinel. In our latest report, we 
identified significant concerns about the progress of Sentinel. 
The cost of the project is rising, and the completion of 
Sentinel has been delayed. While we believe that Sentinel can 
succeed, it will take close scrutiny and careful oversight by 
the FBI to minimize any further schedule delays and budget 
increases and to ensure that the final product meets users' 
needs.
    My testimony also discusses other challenges for the 
Department, such as safely and economically managing the Bureau 
of Prisons' rising Federal inmate population.
    In conclusion, the Department has made progress in 
addressing many of its top management challenges, but further 
improvements are needed in important areas. The Department must 
maintain its focus on counterterrorism while effectively 
pursuing its traditional law enforcement duties, protecting 
civil rights and civil liberties, restoring public confidence 
in the Department, providing effective oversight of the 
billions of dollars in grant awards each year, ensuring safe 
and economic detention facilities, and effectively managing 
information technology and financial management systems.

                           PREPARED STATEMENT

    These are difficult tasks which require constant attention 
and strong leadership by the Department. To aid in this effort, 
the OIG will continue to conduct vigorous oversight of 
Department programs and provide recommendations for 
improvement.
    That concludes my prepared statement, and I would be 
pleased to answer any questions.
    [The statement follows:]

                Prepared Statement of Hon. Glenn A. Fine

    Madame Chairwoman, Senator Shelby, and members of the subcommittee: 
Thank you for inviting me to testify about the Office of the Inspector 
General's (OIG) oversight work related to the Department of Justice 
(Department). In my testimony today, I will discuss some of the top 
challenges facing the Department as you consider its fiscal year 2011 
budget request. My comments are based on the many reviews the OIG has 
conducted during recent years and on the general insight we have gained 
through our work in the Department.
    Overall, I believe the Department has made progress in addressing 
many of its top challenges, but improvement is needed in some areas.

                            COUNTERTERRORISM

    Over the years, the Department has made progress in addressing its 
highest priority--counterterrorism. The Department underwent a 
transformation following the September 11 terrorist attacks, when its 
highest priority shifted from traditional law enforcement concerns to 
counterterrorism. While the Department has been effective at 
reorienting its priorities to focus on counterterrorism, the Department 
continues to face challenges in this area.
    For example, last year the OIG issued an audit report examining the 
FBI's practices for making nominations to the consolidated terrorist 
watchlist. This watchlist is used by frontline Government screening 
personnel to determine how to respond when a known or suspected 
terrorist requests entry into the United States. A failure either to 
place appropriate individuals on the watchlist or to place them on the 
watchlist in a timely manner increases the risk that they are able to 
enter and move freely within the United States. Our review of the 
consolidated watchlist was the third in a series of audits assessing 
the accuracy of the watchlist and the timeliness of entries made to the 
watchlist. Our audit concluded that the FBI did not consistently 
nominate known or suspected terrorists to the consolidated terrorist 
watchlist and did not update or remove watchlist records, as required 
by FBI policy.
    In our audit report, we made 16 recommendations to the FBI to 
improve its administration of the watchlist, and the FBI concurred with 
all of the recommendations. The FBI has made progress in addressing the 
recommendations, fully implementing 9 of the 16, including the 
development of a web-based refresher training course to ensure all FBI 
counterterrorism personnel are familiar with current FBI watchlist 
procedures and the establishment of additional internal controls within 
the watchlist process to ensure that known or suspected terrorists are 
nominated to the watchlist and that existing records are modified or 
removed as required. The FBI is in the process of implementing the 
other recommendations.
    Another issue we have reviewed regularly is the FBI's allocation 
and utilization of its personnel resources. In past reviews, we found 
that the FBI was using significantly more field agent resources than it 
had allocated for counterterrorism matters, and was using significantly 
fewer field agent resources than it had allocated for non-terrorism 
matters.
    In a follow-up review we released this month, we again assessed the 
FBI's allocation and management of its personnel resources. Our audit 
determined that in fiscal year 2009, the FBI had used 26 percent of its 
field agents on counterterrorism matters, while it used 51 percent on 
criminal matters. This is a significant change from fiscal year 2001 
when the FBI used 13 percent of its field agents on counterterrorism 
matters and 72 percent on criminal matters.
    Our review determined that between fiscal years 2005 and 2009, the 
FBI used field agents in line with the allocations it made to its 
highest national priorities, including counterterrorism, 
counterintelligence, cyber crime, and civil rights. However, we found 
that the FBI used fewer field agents than it had allocated to some 
other national priorities, including gangs and criminal enterprises, 
white collar crime, and violent crime.
    We also determined that the FBI continued to experience substantial 
gaps between the number of intelligence analyst positions allocated and 
utilized between fiscal years 2005 and 2009. FBI officials stated the 
rate of attrition and time it takes to hire applicants affected the 
FBI's ability to fill vacant intelligence analyst positions.
    In addition, our audit determined that the FBI had improved in how 
it managed its personnel resources. For example, the FBI established a 
Resource Planning Office to oversee the allocation and utilization of 
personnel resources and established other initiatives to manage its 
resources. However, the FBI had not formalized all of the policies and 
procedures related to its resource management initiatives and did not 
fully integrate them into FBI operational practices. This contributed 
to inconsistent execution of some initiatives by FBI operational 
divisions and field offices.
    The OIG report provided 10 recommendations to assist the FBI in its 
resource planning and allocation decisions, including recommendations 
that the FBI require operational divisions to regularly examine 
resource utilization and that the FBI establish policies, procedures, 
and guidelines that formalize resource management initiatives. The FBI 
agreed to implement these recommendations.
    Another area that affects national security is the FBI's ability to 
timely translate the large amount of foreign language materials it 
regularly collects. In previous audit reports on the FBI's foreign 
language translation program, we found that large amounts of audio 
material collected for FBI counterterrorism and counterintelligence 
operations were awaiting translation. In a follow-up audit issued in 
October 2009, we concluded that the FBI continued to have significant 
amounts of unreviewed foreign language materials in counterterrorism 
and counterintelligence matters. However, data on the exact quantity of 
unreviewed material is imprecise, partly because the FBI still does not 
have an automated means for accurately assessing the amount of material 
it collects for translation. In addition, we found that the FBI 
continues to fall short in meeting its linguist hiring goals, resulting 
in a decrease in the number of FBI linguists since 2005, at the same 
time there has been an increase in the amount of material collected for 
translation.
    The OIG made 24 recommendations to assist the FBI in improving the 
management of its foreign language translation program. The FBI agreed 
with our recommendations and is taking steps to implement them, and the 
OIG will continue to monitor the FBI's performance in this important 
area.
    Counterterrorism efforts can also be affected by coordination 
issues between Department components. We conducted a review of 
coordination between the FBI and the Bureau of Alcohol, Tobacco, 
Firearms and Explosives (ATF) in responding to explosive incidents. In 
our October 2009 audit, we found that jurisdictional disputes continued 
to occur between the FBI and ATF in explosives investigations. Despite 
an Attorney General memorandum in August 2004 and a 2008 Memorandum of 
Understanding between the FBI and ATF, the allocation of investigative 
authority between the two agencies remains unclear, and disputes 
between the agencies have continued regarding which agency should be 
the lead agency on explosives investigations.
    For example, our audit found that FBI and ATF investigators 
sometimes raced to be the first Federal agency on the scene of an 
explosives incident, and disputes have occurred when one agency arrived 
first and the other agency believed the explosives incident fell within 
its lead agency authority. These disputes can delay investigations, 
interviews, and crime scene processing; confuse local first responders 
about which Federal agency is the Federal lead on explosives matters; 
and undermine Federal and local relationships.
    We also found that the FBI and ATF still maintain separate 
explosives-related databases to manage laboratory forensic reports, 
incident reporting, and technical explosives-related information and 
intelligence, and the FBI and ATF separately operate their explosives-
training facilities and programs. In addition, ATF does not participate 
in the majority of Joint Terrorism Task Forces led by the FBI. 
Likewise, the FBI does not fully participate in ATF-led Arson and 
Explosives Task Forces.
    Our audit made 15 recommendations to the Department, FBI, and ATF 
to improve explosives-related coordination. The Department appears 
committed to implementing these recommendations, and has established 
four working groups, composed of representatives from the Deputy 
Attorney General's Office, the FBI, and ATF, to address the 
recommendations and to resolve jurisdictional disputes.
    We are currently conducting several reviews that involve other 
aspects of the Department's efforts to address counterterrorism 
challenges. For example, we are assessing whether the Department is 
prepared to fulfill its responsibilities in response to a weapons of 
mass destruction attack, including whether Department field offices are 
prepared to carry out a coordinated response if such an attack occurs 
in the Washington, DC area.

              PROTECTING CIVIL RIGHTS AND CIVIL LIBERTIES

    Meeting the Department's counterterrorism responsibilities is a 
difficult task, but in this mission the Department must also balance 
its responsibility to protect individual civil rights and civil 
liberties.
    The need for the Department to pursue the appropriate balance was 
highlighted by several reviews we conducted on the FBI's use of 
national security letters. We first reported on the FBI's widespread 
misuse of national security letters in 2007 and issued a second review 
in March 2008. Our third report, issued in January 2010, examined in 
detail the FBI's use of so called ``exigent letters'' and other 
informal requests to obtain telephone records without legal process. We 
found widespread misuse of these exigent letters and other informal 
requests for telephone records.
    For example, contrary to the statements in the exigent letters, 
many of the FBI investigations for which the letters were used did not 
involve emergency circumstances and subpoenas had not been sought for 
the records. In addition, the FBI engaged in widespread use of other 
more informal requests for telephone records from communication service 
providers, in lieu of appropriate legal process or a qualifying 
emergency. The FBI asked for and obtained telephone records through 
requests made by e-mail, face-to-face, on post-it notes, and by 
telephone. The FBI also obtained telephone records using a practice 
referred to by the FBI and the providers as ``sneak peeks.'' Our report 
described other troubling practices regarding FBI requests for 
telephone records, including improper requests for reporters' telephone 
records, inaccurate statements made by the FBI to the Foreign 
Intelligence Surveillance Act (FISA) Court, and improper use of 
administrative subpoenas.
    In addition, our report analyzed the various attempts made by the 
FBI to address the misuse of exigent letters. We concluded that from 
2003 to March 2007 when we issued our first report, the FBI repeatedly 
failed to ensure that it complied with the law, Attorney General 
Guidelines, and FBI policy when obtaining telephone records from the 
on-site communications service providers.
    By contrast, we found that after we issued our first report in 
March 2007 the FBI took appropriate steps to address the difficult 
problems that its exigent letters practice had created. For example, 
the FBI ended the use of exigent letters, issued clear guidance on the 
use of national security letters and on the proper procedures for 
requesting such records, and provided training on this guidance.
    Our report also assessed the accountability of FBI employees for 
these improper practices and made 13 recommendations to ensure that 
past abuses do not recur. We believe that the FBI is taking the 
recommendations seriously, but additional work remains in this area. 
For example, the FBI's Office of Integrity and Compliance was 
established after issuance of the OIG's March 2007 national security 
letters report to detect and correct non-compliance with the rules 
governing FBI investigative authorities. The OIG intends to review the 
work of this office to determine whether it is operating effectively. 
In addition, the Department has yet to issue final minimization 
procedures concerning the retention of information obtained through 
national security letters. While a Department Working Group has 
developed recommendations for minimization procedures, the procedures 
have not yet been issued in final form.
    In short, while the Department's counterterrorism responsibilities 
are its highest priority, the Department faces the ongoing challenge of 
balancing individual civil rights and civil liberties as it seeks to 
protect national security.

                 RESTORING CONFIDENCE IN THE DEPARTMENT

    In the past several years, the Department of Justice has faced 
significant criticism for alleged misconduct in prosecutions, the 
dismissal of certain U.S. Attorneys, and politicization in the hiring 
of career officials. While these issues involve a small number of the 
many important responsibilities the Department handles and involve only 
a small percentage of the Department's dedicated workforce, they can 
affect confidence in the objectivity and non-partisanship of the 
Department as a whole. Restoring confidence in the Department is an 
important and ongoing challenge.
    In 2008 and 2009, the OIG and the Department's Office of 
Professional Responsibility (OPR) issued three joint reports which 
substantiated serious allegations of improper politicization in the 
hiring processes for career attorney positions in the Department's 
Honors Program and Summer Law Intern Program, in hiring for career 
positions by staff in the Office of the Attorney General, and in hiring 
lawyers for career positions and making other personnel decisions in 
the Civil Rights Division. Another joint OIG/OPR report issued in 2008 
concluded that the process used to remove certain U.S. Attorneys in 
2006 was fundamentally flawed, and the oversight and implementation of 
the removal process by the Department's most senior leaders was 
significantly lacking.
    In response, the Department has taken steps to address the problems 
we found in these reviews. For example, the Department returned the 
responsibility for hiring career attorneys from politically appointed 
officials to the Department's career management officials, and the 
Department has provided training to these selecting officials on 
inappropriate considerations in hiring. The Department also developed 
new briefing and training materials for Department political appointees 
which emphasized that the process for hiring career attorneys must be 
merit based.
    In addition, the Department has faced criticism about the conduct 
of its prosecutors in several recent prosecutions, including the 
prosecution of former Alaska Senator Ted Stevens. After a jury trial, 
the Department moved to dismiss the indictment of Senator Stevens 
because the Department had concluded that certain information should 
have been disclosed to the defense for use at trial. The Department's 
handling of this case created concern about the prosecutors' conduct, 
and Federal judges in other districts also have questioned whether the 
Department is adequately adhering to professional standards of conduct 
and addressing concerns of prosecutorial misconduct.
    In response to the concerns about attorney conduct, the Department 
has taken a variety of actions. In June 2009, a Department working 
group appointed by the Deputy Attorney General produced a report 
reviewing the Department's discovery and case management policies, 
procedures, and training, and made recommendations for improvement. In 
response to that report, the Department conducted a training conference 
at the National Advocacy Center in October 2009 on criminal case 
management and discovery for newly designated ``discovery trainers'' 
from all United States Attorneys' Offices. The discovery trainers were 
required to present mandatory training to all Assistant U.S. Attorneys 
in their districts on discovery issues. In January 2010, the Department 
provided guidance to prosecutors concerning best practices on discovery 
in criminal cases. The guidance set forth an approach for prosecutors 
to follow in gathering, reviewing, and producing discoverable 
information in a timely manner. In addition, the Department created the 
position of National Criminal Discovery Coordinator to oversee the 
ongoing training process for prosecutors on discovery issues, to assess 
the need for additional improvements, and to ensure continued 
implementation of the reforms.
    In short, we believe that restoring confidence is a continuing 
challenge for the Department. The Department needs to ensure that the 
diligence, hard work, and sound ethics of the overwhelming majority of 
Department employees are not undermined by the few but highly visible 
incidents of potential misconduct. While the Department's leadership, 
both at the end of the past administration and during this 
administration, has taken important steps to confront this challenge, 
the Department must remain focused on this important issue.

            FINANCIAL CRIMES, VIOLENT CRIME AND CYBER CRIME

    While the Department's highest priority is counterterrorism, it 
must also focus attention on its traditional law enforcement functions, 
including the investigation and prosecution of financial crimes, cyber 
crimes, and violent crimes.
    The investigation of financial crimes, including mortgage fraud, 
white collar crimes, healthcare fraud, and grant and procurement fraud, 
is an important priority. The Department recently created the Financial 
Fraud Enforcement Task Force, an inter-agency initiative aimed at 
implementing a coordinated and proactive approach to investigating and 
prosecuting financial crimes. The Task Force is composed of 
representatives from a broad range of Federal agencies, regulatory 
authorities, Inspectors General, and State and local law enforcement. 
For the Task Force to be effective, the Department needs to ensure 
effective collaboration with these partners, with private industry, and 
with consumers.
    In addition to the growing problem of financial crimes, the 
Department faces significant new challenges in combating cyber crime. 
Rapid technological advances and the widespread use of the Internet 
make cyber crime more challenging to detect and deter. For example, 
recent estimates suggest that identity theft is one of the fastest 
growing crimes in the United States and that it affects an estimated 10 
million Americans annually. In addition to financial losses, identity 
theft victims suffer tremendous inconvenience and emotional trauma when 
attempting to repair damage to their names or credit histories.
    The OIG recently assessed the Department's efforts to combat 
identity theft. Our audit found that the Department had not adequately 
coordinated its efforts to combat identity theft, and that to some 
extent identity theft initiatives had faded as a Department priority. 
We determined that the Department did not have its own internal 
strategy to combat identity theft and had not appointed any individual 
or office to have responsibility for coordinating the Department's 
overall identity theft efforts. We also identified problems with the 
Department's data collection efforts on identity theft investigations 
and with the notification of victims of identity theft. Our audit 
concluded that additional leadership is needed to ensure that the 
Department's efforts to combat identity theft are coordinated and given 
greater priority.
    The Department must also ensure that it places appropriate emphasis 
on combating violent crime, and that it coordinates its efforts in this 
area. For example, as noted previously in my testimony, we found that 
the FBI and ATF are not adequately coordinating their explosives-
related investigations and operations.
    Similarly, a review we issued in November 2009 concluded that two 
Department gang intelligence and coordination centers have not 
significantly improved the coordination and execution of the 
Department's anti-gang initiatives. Administered by the FBI, the 
National Gang Intelligence Center (NGIC) is a multi-agency center that 
develops and shares gang-related information. However, NGIC has not 
established a centralized gang information database as directed by 
statute due to technological limitations and operational problems, and 
has not shared gang intelligence and information effectively with other 
law enforcement organizations. The National Gang Targeting, 
Enforcement, and Coordination Center (GangTECC), administered by the 
Criminal Division, is a coordination center for multi-jurisdictional 
gang investigations, but we found that the lack of an operating budget 
prevents GangTECC from providing essential coordination and outreach. 
We recommended that the Department consider merging the two centers or 
ensure that their activities are better integrated. Because of the 
prevalence of gang violence, it is critical that the Department of 
Justice take swift action to improve the coordination of its anti-gang 
initiatives. The Department has recently informed us that it is 
progressing toward establishing a formal working agreement to collocate 
NGIC at the Organized Crime Drug Task Force fusion center and GangTECC 
at the Special Operations Division, and may begin moving personnel in 
early summer. We will continue to monitor the Department's actions to 
improve the coordination and effectiveness of its anti-gang operations.
    Another area of increasing concern is violent crime along the 
Southwest border. The OIG is reviewing ATF's implementation of Project 
Gunrunner, ATF's initiative to reduce firearms trafficking to Mexico 
and associated violence along the Southwest border. Our review follows 
another OIG review, completed in September 2009, which examined ATF's 
planning, hiring, staffing, and allocation of resources for Project 
Gunrunner.
    Apprehending violent fugitives is critical in the effort to address 
violent crime. The United States Marshals Service (USMS) is the Federal 
Government's primary agency for apprehending violent fugitives. In July 
2005, the OIG reported that the USMS had increased its apprehension of 
violent fugitives by 51 percent from fiscal year 2001 to fiscal year 
2004 and also increased the efficiency of its apprehension efforts. 
However, the increase in violent Federal fugitives at large outpaced 
the USMS's progress, rising 3 percent from fiscal year 2001 through 
fiscal year 2004. In response to recommendations in the OIG report, the 
USMS increased the number of regional fugitive task forces (there are 
now seven); established performance measures and goals related to the 
apprehension of violent fugitives; and established requirements to 
ensure that warrants for violent offenders are entered into the Warrant 
Information Network within one business day.
    Another aspect of the challenge of addressing violent crimes 
relates to the Department's efforts to implement the requirements of 
the Sex Offender Registration and Notification Act to help identify, 
arrest, and prosecute sex offenders who violate registration laws, and 
to help improve the quality of information available to law enforcement 
and the public about registered, non-compliant, and fugitive sex 
offenders. In a report issued in December 2008, we found that the 
Department's efforts have led to more investigations and arrests of 
fugitive sex offenders. However, the registries that make up the 
national sex offender registration system were missing records; 
existing records often failed to identify known fugitives; and the 
records often did not contain sufficient information to enable law 
enforcement or the public to accurately identify registered, non-
compliant, or fugitive sex offenders. Since our report, the FBI has 
modified the National Sex Offender Registry so that it now reflects the 
fugitive status of registered sex offenders, initiated quality control 
audits of the State sex offender registries that contribute records to 
the registry, and started providing the USMS with data from the 
registry for use in USMS fugitive sex offender investigations.
    It is also important that the Department ensures that it is taking 
full advantage of forensics tools available for the investigation and 
prosecution of violent crime. To that end, the OIG is examining the 
FBI's efforts to reduce its backlog in the forensic analysis of DNA 
samples. We are finding a continuing backlog that can affect the 
investigation of violent crimes.

               RECOVERY ACT FUNDING AND GRANT MANAGEMENT

    The Department faces challenges each year in managing the award of 
more than $3 billion in grant funds. In addition to these grants, the 
American Recovery and Reinvestment Act of 2009 (the Recovery Act) 
provided the Department an additional $4 billion in grant funds to 
award. The management and oversight of these Recovery Act funds is a 
significant challenge for the Department which must distribute this 
large amount of grant funding quickly, monitor the use of these funds, 
and continue to manage its annual grant programs at the same time. 
Moreover, despite the significant influx of Recovery Act money and the 
expansion of the Department's grant programs, the number of grant 
administrators who award and oversee grant programs has not 
significantly increased.
    Effective monitoring by each of the Department's grant-making 
agencies is crucial to the early identification and correction of 
problems among the Recovery Act grant recipients.
    The OIG is conducting a series of audits of the Department's 
Recovery Act grant award programs. For example, we reviewed the Office 
of Justice Program's (OJP) selection of grants in the Edward Byrne 
Memorial Justice Assistance Grant Program, and found that the 
Department generally awarded these grants in a timely and transparent 
manner. In addition, the OIG is completing reviews of the 
administration of Recovery awards for the Office of Community Oriented 
Policing Services (COPS) Hiring Recovery Program, Office of Violence 
Against Women (OVW) programs, the Office for Victims of Crime programs, 
and Bureau of Justice Assistance Grants for Correctional Facilities on 
tribal lands. These programs represent $3.8 billion of the Department's 
approximately $4 billion in Recovery Act grant funding. As each of 
these audits progressed, we issued interim reports and informed the 
Department of any concerns related to transparency of the grant 
process, allocation of grant funds, interagency coordination, and 
improving grant management. We intend to continue to monitor and issue 
reports on these grant programs.
    At the same time the Department faces the challenge of overseeing 
the infusion of Recovery Act funding, it must continue to focus on 
making timely awards of its regularly appropriated grant funds and in 
maintaining proper oversight over grantees to ensure the funds are used 
as intended. Several recent OIG reviews demonstrate the difficulties 
the Department has faced in the past in ensuring proper management of 
its grant funds. In September 2009 the OIG issued a report that raised 
concerns about the fairness and openness of OJP's National Institute of 
Justice's (NIJ) practices for awarding tens of millions of dollars in 
grants and contracts from fiscal year 2005 through fiscal year 2007. 
Our audit, which was requested by this subcommittee, found that the 
NIJ's process for reviewing grant applications--including initial 
program office reviews, peer reviews, documentation of program office 
recommendations, and documentation of NIJ Director selections--raised 
concerns about the fairness and openness of the competition process.
    In addition, we found that several NIJ staff involved in the grant 
award process had potential conflicts of interest when participating in 
the approval process for certain grants. We also determined that the 
NIJ did not adequately justify the sole-source basis for some non-
competitively awarded contracts and could not demonstrate that these 
contracts were exempt from the competitive process. We made nine 
recommendations in this report to improve NIJ's grant process, and the 
Department agreed to implement them.
    We believe that the Department has taken some significant steps 
toward improving its grant management process during the past 2 years. 
For example, in May 2008 the Department issued a memorandum directing 
OJP, COPS, and OVW to document all discretionary funding 
recommendations and decisions. In addition, OJP has made progress in 
staffing its Office of Audit, Assessment, and Management (OAAM), a unit 
intended to improve internal controls and streamline and standardize 
grant management policies and procedures. However, we believe that OJP 
needs to ensure that our audit recommendations regarding a particular 
grant program will be implemented throughout all applicable Department 
programs, rather than only in the specific program the OIG audited.
    To help the Department meet its grant management challenges, the 
OIG drafted a guide entitled, ``Improving the Grant Management 
Process.'' This document, which was based on our prior work regarding 
grant management issues throughout the Department, provides 43 
recommendations and examples of best practices that granting agencies 
should consider adopting to minimize opportunities for fraud, waste, 
and abuse in awarding and overseeing both Recovery Act and non-Recovery 
Act grant funds. The Department has taken positive steps in response to 
the recommendations in this document. For example, OJP is more 
aggressively identifying and working to mitigate risks among individual 
grantees by assessing each potential grantee's risk during the grant-
award process and imposing on high-risk grantees special conditions 
that provide a range of potential sanctions, including the withholding 
of funds. OJP also is working more closely with the OIG and now meets 
with the OIG on a quarterly basis to discuss grant issues.
    We believe that the Department is demonstrating a commitment to 
improving the grant management process, and we have seen significant 
signs of improvement. However, considerable work remains in ensuring 
effective grant management of the Recovery Act funds and the billions 
of dollars awarded annually in Department grants.

 INFORMATION TECHNOLOGY SYSTEMS PLANNING, IMPLEMENTATION, AND SECURITY 
                         UPGRADES AND SECURITY

    The Department faces ongoing challenges in managing the more than 
$2 billion it annually spends on information technology (IT) systems 
and in ensuring that its IT planning, development, and security 
measures maximize the effectiveness of these expenditures.
    One of the major challenges in this area has been the FBI's ongoing 
development of its Sentinel case management project. This project is 
intended to upgrade the FBI's electronic case management system and 
provide the FBI with automated workflow processes. The OIG has issued a 
series of reports examining the FBI's ongoing development of Sentinel. 
In March 2010, we issued our sixth report in this series.
    In this latest report, we identified significant concerns about the 
progress of the FBI's Sentinel project. Specifically, because of 
continuing issues regarding the usability, performance, and quality of 
Phase 2 of the Sentinel project that was delivered by Lockheed Martin 
to the FBI, on March 3, 2010, the FBI issued a partial stop work order 
to Lockheed Martin for portions of Phase 3 and all of Phase 4. In 
addition, the stop work order returned Phase 2 of the project from an 
operations and maintenance phase to a development phase.
    As a result, the cost of the Sentinel project is rising and the 
completion of Sentinel has been delayed. In a previous report, we had 
noted that Sentinel's overall completion date had already been 
postponed to September 2010, which was 9 months later than originally 
planned, and the total projected cost was $451 million, $26 million 
more than originally planned. Because of the recent problems with Phase 
2 of Sentinel and the stop work order, the FBI currently does not have 
official cost or schedule estimates for completing Sentinel. But the 
FBI has now acknowledged that Sentinel will cost more than $451 million 
and that Sentinel will likely not be completed until 2011.
    Our report noted that the FBI has taken several steps to improve 
Sentinel's chances for success, including the use of independent 
assessments, performed by other contractors of the primary contractor's 
deliverables. However, our report identified major issues that the FBI 
needs to address. For example, the FBI does not have a documented 
strategic plan outlining how it will transfer remaining case file data 
from its Automated Case Support system to Sentinel. We also noted our 
concern that the FBI has either discontinued or delayed some of the 
internal assessments of Sentinel's progress that it previously was 
performing on a routine basis, which could compromise the FBI's ability 
to perform real-time evaluations of the project's development and apply 
appropriate risk management strategies.
    Given the importance of Sentinel to the future of FBI operations, 
our recent report concluded that the FBI must ensure that its revisions 
to Sentinel's budget, schedule, and requirements are realistic, 
achievable, and satisfactory to its users. The FBI must also ensure 
that users' concerns and perspectives are integrated into all phases of 
the remaining development of Sentinel. While we believe that Sentinel 
can succeed, it will take close scrutiny and careful oversight by the 
FBI to minimize any further schedule delays and budget increases and to 
ensure that the final product meets users needs.
    We believe that the Department has made some progress in planning 
for other new IT systems, but it still faces challenges of delayed 
implementation, deficient functionality, and cost overruns in IT 
systems. Historically, the Department's components have resisted 
centralized control or oversight of major IT projects, and the 
Department's Chief Information Officer (CIO) does not have direct 
operational control of Department components' IT management. We believe 
the Department should enhance the CIO's oversight of the development of 
high-risk IT systems throughout the Department.
    Several of our audits identified concerns about the development of 
critical Department IT systems. For example, last year an OIG audit 
report examined the Department's progress toward developing the 
Litigation Case Management System (LCMS). The LCMS project was intended 
to develop an IT infrastructure for storing case information, managing 
it centrally, and making it available to the approximately 14,500 
authorized users in the Department's 7 litigating divisions. Our audit 
found that the LCMS project, which the Department began in 2004, was 
more than 2 years behind schedule, approximately $20 million over 
budget, and at significant risk of not meeting the Department's 
requirements for litigation case management.
    Our audit concluded that both the Department and its contractor 
shared responsibility for the significant delays and budget overruns in 
this project. We urged better oversight of this project to minimize or 
avoid further schedule and cost overruns. In response to our report, 
the Department has expressed a strong commitment to implementing the 
LCMS and to fully adopting our recommendations. However, the 
implementation of LCMS is still struggling.
    Another example of delays in implementing a new IT system involves 
the FBI's efforts to implement a Laboratory Information Management 
System for the FBI Laboratory, which the FBI has been working on since 
1998.
    As the Department develops its new IT systems, it also must ensure 
the security of those systems and the information they contain. The 
Department must balance the need to share intelligence and law 
enforcement information with the need to ensure that such information 
sharing meets appropriate security standards.
    A December 2008 OIG audit found that the Department lacked 
effective methodologies for tracking the remediation of identified IT 
vulnerabilities. Our report made four recommendations to assist the 
Department in its efforts to address such vulnerabilities. Since the 
issuance of our report, the Justice Security Operations Center (JSOC), 
which provides real-time monitoring of the Department's networks to 
detect vulnerabilities and threats, became fully functional, and now 
covers all of the Department's components. The JSOC mitigates threats 
and vulnerabilities by blocking known threats from accessing the 
Department's systems and creating real-time alerts to components for 
immediate remediation as issues arise. In addition, the Department has 
developed an inventory of all IT devices on the Department's networks, 
updated annually, to ensure that monthly scans adequately cover the 
Department's entire IT environment. As part of our follow-up efforts, 
we intend to initiate an audit of the JSOC that will review its 
capabilities to detect and respond to intrusion incidents and 
communicate computer-intrusion efforts.
    Portable IT media continues to pose IT security risks in the 
Department and across Government. In an effort to assess the 
Department's efforts to safeguard information stored on portable 
devices, the OIG recently conducted audits of both the Civil Division's 
and the Criminal Division's laptop computer encryption program and 
practices. These audits found that a significant percentage of the 
laptop computers owned by contractors working with the Civil Division 
and the Criminal Division were not encrypted, and the contractors were 
not notified of Department laptop encryption requirements. In addition, 
we found that 25 percent of the Criminal Division laptops that we 
tested had sensitive data but did not have encryption software 
installed and did not have operating system passwords enabled. We asked 
the Department to ensure that all components are aware of the findings 
of our reports and also ensure that laptops are properly encrypted, 
even though our audit findings were directed at the Civil and Criminal 
Divisions.
    In sum, the Department must closely manage its IT projects to 
ensure the systems are cost-effective, well-run, secure, and able to 
achieve their objectives.

                      DETENTION AND INCARCERATION

    The Department's responsibility to safely and economically manage 
its rising Federal inmate and detainee populations is a challenge that 
has significant budget implications. The Federal inmate population has 
dramatically increased over the past 30 years, from fewer than 25,000 
inmates in the Federal Bureau of Prisons' (BOP) custody in 1980 to more 
than 210,000 inmates in 2010. Approximately 83 percent of these inmates 
are confined in BOP-operated facilities, with the balance housed in 
privately managed or community-based facilities and local jails. 
Overcrowding continues to be a serious concern in BOP facilities.
    In addition to issues presented by overcrowding, the BOP must 
address other safety threats, including staff sexual abuse of 
prisoners. Staff sexual abuse has severe consequences for victims, 
undermines the safety and security of prisons, and in some cases leads 
to other crimes. For example, Federal correctional workers who are 
sexually involved with prisoners have been subject to extortion demands 
and may be more easily pressured to violate other prison rules and 
Federal laws. Compromised personnel who have sexually abused prisoners 
also have been found to have provided contraband to prisoners, accepted 
bribes, and committed other serious crimes in an effort to conceal 
their sexual involvement with Federal prisoners.
    In a September 2009 review, we concluded that the Department and 
the BOP both need to take additional steps to effectively deter, 
detect, investigate, and prosecute staff sexual abuse of Federal 
prisoners. Allegations of criminal sexual abuse and non-criminal sexual 
misconduct at BOP institutions more than doubled from fiscal year 2001 
through fiscal year 2008. Yet, our review found that deterrence and 
detection of staff sexual abuse are hampered by the practice at some 
BOP prisons of automatically isolating, segregating, or transferring 
victims, which inmates often regard as punitive. We also concluded the 
BOP needs to improve staff training, inmate education, and program 
oversight on sexual abuse of inmates. In addition, we found that some 
Department prosecutors have a general reluctance to prosecute certain 
staff sexual abuse cases, and we concluded that training Federal 
prosecutors on the detrimental impact of staff sexual abuse on inmates, 
other prison staff, and prison security would improve the Department's 
effectiveness in prosecuting these cases.
    The Prison Rape Elimination Act of 2003 requires the Department to 
promulgate national standards for the detection, prevention, reduction, 
and punishment of sexual abuse in detention facilities by June 2010. 
The Department is now engaged in creating these standards.
    The OIG is also reviewing other aspects of the BOP's efforts to 
handle its difficult mission of housing inmates in safe, secure, and 
cost-efficient facilities. For example, the OIG is currently examining 
the BOP's strategies and procedures for hiring correctional officers. 
In another review, we are investigating allegations that the BOP failed 
to adequately address concerns that staff and inmates at several BOP 
institutions were exposed to unsafe levels of lead, cadmium, and other 
hazardous materials in computer recycling operations. We also are 
conducting a follow-up audit of the BOP's efforts to manage inmate 
healthcare.
    In addition to the BOP's challenges, the Department must also 
provide adequate and economical housing for the increasing number of 
Federal detainees taken into custody by the USMS. Over 50,000 Federal 
detainees awaiting trial or sentencing are housed each day by the USMS, 
primarily in jails under contract with the USMS. The Department's 
Office of the Federal Detention Trustee (OFDT) oversees the USMS's 
detention activities and manages the budget for housing USMS detainees. 
For fiscal year 2011, the OFDT is requesting over $1.5 billion to pay 
for housing, transporting, and providing medical care for detainees.
    The USMS places the majority of its Federal detainees in space 
leased from State and local governments, with the remaining detainees 
housed in BOP facilities or in private correctional facilities. The 
USMS maintains contracts, known as Intergovernmental Agreements (IGA), 
with about 1,800 State and local facilities to house its detainees. 
Over the years we have found problems with the manner in which the per 
diem charges that the Department pays for each detainee (also known as 
a jail-day rate) are determined and with the Department's monitoring of 
the charges. Increases in these charges can have an enormous affect on 
the OFDT's budget. We are now conducting another audit of OFDT's 
process for identifying and negotiating fair and reasonable per diem 
rates.
    In addition, the Department plays an important role in integrating 
released inmates back into society and attempting to reduce recidivism 
by providing grants to State and local agencies, law enforcement, and 
community groups for prisoner re-entry programs. We currently are 
auditing the Department's design and management of its prisoner re-
entry initiative grant programs. This audit will assess whether the 
Department has an effective system for monitoring grantees and for 
determining whether the grantees are meeting program goals.

                          FINANCIAL MANAGEMENT

    Our audits have found that the Department has made significant 
improvements in its financial reporting. At the same time, there is an 
increasing demand for financial accountability and transparency 
throughout the Federal Government, and the need for accurate, near 
real-time financial information continues to present a significant 
management challenge for the Department.
    In fiscal year 2009, the Department again earned an unqualified 
opinion and improved its financial reporting. For the 3rd straight 
year, the financial statement audit did not identify any material 
weaknesses in the Department's consolidated financial statements. 
Additionally, Department components reduced significant deficiencies in 
their financial statements from 14 in fiscal year 2008 to 8 in fiscal 
year 2009. The Department deserves significant credit for these 
efforts.
    Similar to past years, however, much of this success was achieved 
through heavy reliance on contractor assistance, manual processes, and 
protracted reconciliations done for quarterly and year-end statements. 
We remain concerned about the sustainability of these ad hoc and costly 
manual efforts.
    The decentralized structure of the Department also presents a major 
challenge to obtaining current, detailed, and accurate financial 
information about the Department as a whole because there is no one 
single source for the financial data. The Department currently uses six 
major accounting systems that are not integrated with each other. In 
some cases, the Department components' outdated financial management 
systems are not integrated with all of their own subsidiary systems and 
therefore do not provide automated information necessary to support the 
need for timely and accurate financial information throughout the year. 
As a result, many financial tasks must be performed manually at interim 
periods and at year end. These costly and time-intensive efforts will 
continue to be necessary to produce financial statements and to satisfy 
other financial requirements until automated, integrated systems are 
implemented that readily produce financial information throughout the 
year.
    The Department has placed great reliance on the implementation of 
the Unified Financial Management System (UFMS), which is intended to 
replace the six major accounting systems currently used throughout the 
Department. This unified system is expected to address many of the 
Department's financial management automation issues. The UFMS is 
intended to standardize and integrate financial processes and systems 
to more efficiently support accounting operations, facilitate 
preparation of financial statements, and streamline audit processes. It 
also will enable the Department to exercise real-time, centralized 
financial management oversight. We support the Department's 
implementation of the UFMS and believe the system can help eliminate 
the weaknesses in the Department's current disparate financial 
management systems.

                               CONCLUSION

    In sum, the Department has made progress in addressing many of its 
top management challenges, but improvements are needed in important 
areas. The Department must maintain its focus on counterterrorism while 
effectively pursuing its traditional law enforcement duties, protecting 
civil rights and civil liberties, restoring public confidence in the 
Department, providing effective oversight of the billions of dollars in 
grant awards each year, ensuring safe and economic detention 
facilities, and effectively managing information technology and 
financial management systems.
    These are difficult tasks which require constant attention and 
strong leadership by the Department. To aid in this effort, the OIG 
will continue to conduct vigorous oversight of Department programs and 
provide recommendations for improvement.
    This concludes my prepared statement, and I would be pleased to 
answer any questions.

    Senator Mikulski. Well, thank you very much, Mr. Fine. And 
as I said earlier when we welcomed you to the table, you have 
been at Justice since 1995. Am I correct, sir?
    Mr. Fine. That is correct, yes.
    Senator Mikulski. So we really want to thank you for your 
service, and we would like to thank the entire staff of the 
inspector general's office for the work that they do. As you 
can see, I intend to be a watchdog and a reformer in terms of 
the administration.
    You know, it is not whether you are for big government or 
small government, but are you for smart government? And I think 
we are in alignment here.
    I am not going to ask questions about Sentinel, but I am 
going to thank you for bringing that forward as an issue. Well 
before this hearing, this Chair and staff have been actively 
involved with both the Director of the FBI, the contractor, and 
so on to make sure that the original purpose--that Sentinel 
does happen and happens the way it is supposed to happen, 
within appropriate budget parameters. We are not going to go 
back to the boondoggle that we had with the previous attempt.
    Now you heard today from the exchange by Senator Murkowski, 
and even me, with the Attorney General, about this watch list 
issue. In your testimony, you say that the FBI needs to do 
more. You talk about in your audit report that you had made 16 
recommendations to the FBI, and they have improved 9. But we 
are all deeply troubled by this watch list, and the watch lists 
don't seem to be working the way they were intended.
    And you know the story. In this case, this man got on this 
plane when there was actually active hot pursuit going on. At 
the same time, I know in my own State, there is a prominent 
business man who travels to the west coast every single week at 
the same time, getting on the same plane. Everybody knows him 
because of the regularity of his habits. Because of his last 
name, he is on a list, and he has to go through it like he just 
arrived in the country and is paying cash for every single 
thing in the world.
    So those are two sides of the coin. Do you have any further 
thoughts on how we could make this more effective, or, in light 
of what has happened over the last couple of days, where some 
things work well in a spectacular way and others really raise 
some flashing yellow lights, like the watch list?

                           WATCH LIST REFORM

    Mr. Fine. We have done a series of reviews on the watch 
list, and we have had concerns about it. Both areas that you 
talk about, making sure that people, appropriately, are put on 
the watch list in a timely fashion, in an accurate way, and 
also that people who shouldn't be on the watch lists are taken 
off.
    We found problems with the FBI getting people on quickly 
and also accurately putting them on. In fact, our review found 
that 15 percent of the FBI terrorism investigations we reviewed 
had failed to nominate terrorism suspects to the consolidated 
watch list. That is unacceptable because it increases the risk 
that these people can move about freely. So we think that needs 
to be done more quickly.
    We think, also, the information needs to get to the front-
line screeners who need it in a quicker fashion, both the 
Customs and Border Patrol people and the individuals at the 
airport. And one of the things that we looked at a long time 
ago was the issue of secure flight and who was going to 
actually be doing the screening of the people on the manifest 
of the airplanes.
    And now it is with the airlines. My understanding, it is 
moving toward the TSA who will take over that responsibility. 
And hopefully, with that, there will be more expeditious, 
quicker, and effective screening of those passengers before 
they get on a plane.

                           GRANT DISBURSEMENT

    Senator Mikulski. Well, in light of what has happened, I 
think there are going to be a lot of recommendations, and we 
would welcome your views on that.
    Let us go to the issue of grant disbursement. We want it to 
be fair, meet criteria, and be done in a timely way. We have 
asked them to do, what--I think you said $3 billion?
    Mr. Fine. It is $3 billion each year for the Department.
    Senator Mikulski. That is like 10 percent of the 
Government's funding. And I know at another hearing, our 
colleague Senator McCaskill raised issues about how, in the 
previous administration, the Byrne grants were handled and so 
on. So I am not here to finger point. I am here to pinpoint.
    Are there things that we need to encourage through the 
appropriation process, a way that to improve the grant 
disbursal, the grant management process?
    Mr. Fine. I think there are some things that the Department 
can do to improve and that this subcommittee can spur the 
Department to do. I think it is important to get that money 
out, but it has to be used effectively, and there has to be 
monitoring of where that money goes.
    So we need to have a fair and open process. There has to be 
documentation about why we are giving it to one person or the 
other, not simply discretionary, subjective views, and that 
when it goes out there, there has to be training to how it is 
to be used. There also has to be an assessment of whether there 
are high-risk grantees that need extra monitoring and extra 
training to ensure that that money is used appropriately.
    OJP, the Office of Justice Programs, has an office audit 
assessment management. That should be an internal screening 
mechanism to go out and do monitoring to make sure the 
financial reports are in, to make sure that the money is used 
for its intended purposes and it is being effective, and I 
believe OJP has made progress in beefing up that office. But it 
ought to do more of that.
    It shouldn't wait for the OIG to come in and find problems. 
It ought to prevent the problems in the first place, find 
problems on their own, and not wait for an outside entity like 
the OIG to find problems. So I think that is a critical area--
--
    Senator Mikulski. Could I chime in? Do you think it is an 
issue related to staffing, training, or culture?
    Mr. Fine. I think it is all of the above, all of those. It 
has not been staffed up adequately, I don't think. I think the 
culture has been, in the past, to get that money out quickly, 
but not to ensure that it is being used appropriately. I think 
that is changing with the new head of OJP. But I also think 
that there needs to be training on that money as well, to not 
simply expect that it will be used appropriately.
    Senator Mikulski. You know what I have found, and you heard 
me raise some of the issues with making sure we have law 
enforcement that is not only putting ``boots on the ground.'' 
We often in Congress will provide money for staff, but then not 
for training or for technology that maximizes the efficacy of 
what they are doing. Would you say that this is an area we 
should focus on, which is not only the adequacy of people, but 
that we really look at training and the--well, of course, the 
technology issues in the Government are a whole other one. But 
would you concur with that?

                         TRAINING AND OVERSIGHT

    Mr. Fine. Yes. I think there does need to be adequate 
training, and I think that is a core function of what these 
grant-making entities need to do. Not simply to get that money 
out there, but to train people on how it is to be used and how 
it is to be used effectively.
    It only takes a small percentage of that $3 billion to be 
held back for adequate management and oversight to have 
effective use of it, and I think there ought to be a small 
percentage of that to go for effective management, to go for 
training, to go for adequate oversight internally by the 
Department of Justice and also by the Office of the Inspector 
General. So I think that is an important thing that should be 
considered in the appropriations and makeup of those grant 
programs.
    Senator Mikulski. Well, thank you. There are other issues 
that we want to talk about as well with you, particularly in 
the area of the detention of prisoners. And you very rightfully 
brought forward that when we have the responsibility of holding 
people in an incarcerated situation, the issue of violence 
against prisoners, and then concurrently also violence against 
prison officers is deeply troubling. I am going to ask my staff 
to talk with you in more detail about that.
    But you know, I want to ask a question where it sounds like 
Senator Barb Mikulski meets Senator Tom Coburn. One of the 
areas where we absolutely agree is where the Federal Government 
provides funds, but we end up in conferences where it is 66 
bucks per person to provide bagels. And I was at a community 
fair, and there was something that someone gave me a little 
plastic shopping bag with the name of an agency, not a Federal 
agency head, and said, ``Here, enjoy it. You paid for it.''
    Well, that is not what I go to my taxpayers to ask them to 
do. There are a lot of--and that is where we get a bad rep. You 
know, that is where, quite frankly, some of the folks who are 
cranky with government have every right to be cranky.
    You know the famous $4 Swedish meatball? I think there was 
some extravagant spending at conferences and so on. How does 
the inspector general see getting a grip on that?
    I mean, I do believe in conferences. Gosh, you go to the 
gang conference that we have in Maryland with the support of 
the U.S. Attorney and all of us at the local level, and they 
really do share information and further those important 
relationships that are so critical in law enforcement for rapid 
response and so on. But you know, 66 bucks for a bagel 
breakfast is a little high.
    Mr. Fine. You are absolutely right, and I think at the 
request of this subcommittee, I believe, we did a review of 
conference expenditures of the Department and found those 
abuses. And you don't need lavish spreads to have an effective 
conference, and we were very concerned by that.
    We found, as you point out, a cost of $4 meatballs. We 
found cost of sodas; a can of soda would cost $4.55 that they 
would charge for one can of Coke. And it was just over the top.
    As a result of our review, the Department has implemented 
oversight procedures. They make sure that the funding for meals 
is at a reasonable level. They make sure that there are 
alternative locations sought to see that it is done in an 
economic fashion. They look at the per diem cost. You have to 
get Department approval for non-Federal facilities.
    So I think there have been reforms made as a result of the 
issues that were brought to the table. But you are absolutely 
right. You don't need that kind of funding or that kind of 
excess to have an effective conference, and I think the 
Department of Justice understands that and has gotten a handle 
on that. We are actually continuing to--we are doing a follow-
up review, actually about to initiate one right now to see what 
reforms have been made. Have they been effective, and do they 
have a handle on this?
    Senator Mikulski. Well, we estimate that we won't be 
marking up our bill, of course, until June, waiting for the 
House. But we will look forward to your report, if it comes 
again, and that is all part of our smart government 
initiatives, and again, I am for conferences or the kinds of 
meetings that occur. I think that is the only way you can do 
training, and--I think you would concur in your many years at 
Justice--where law enforcement, particularly at the State and 
local level, can come together and forge those relationships 
that work so well.
    After the terrible events of 9/11, our local law 
enforcement around the Beltway, meaning Maryland, Virginia, and 
the District, I think developed much closer relationships. And 
then, along comes something like the terrible sniper case. 
Remember that?
    Mr. Fine. Absolutely.
    Senator Mikulski. You are a local guy. But because they 
knew each other, talked with each other, trusted each other, we 
didn't have to Federalize our response. Because they had been 
trained, equipped, and trusted, we were able to bring that 
sniper to justice.
    And so, I believe in the training and the camaraderie that 
comes from collaboration and training, but we have to be 
prudent.
    So I am going to say thank you, and we want to have ongoing 
other conversations with you, and please, you have to know we 
really do appreciate the work of the Attorney General, and if 
you could convey that to your staff, I, and speaking for 
Senator Shelby, who himself is a watchdog on these issues, we 
would very much appreciate it.
    Thank you.
    Mr. Fine. Thank you very much.
    Senator Mikulski. Before I conclude, I want to reiterate 
the fact that Senator Shelby wanted very much to be here, and 
he, too, sir, might have additional questions for you. And we 
invite his staff, if there are any others.

                     ADDITIONAL COMMITTEE QUESTIONS

    If there are no further questions, the Senators may submit 
additional questions to the subcommittee. We request the 
Department of Justice's response within 30 days. Now because of 
so many controversial issues in the subcommittee pertaining to 
both the administration of justice, the space committee, we 
reserve the right to hold ongoing hearings as we do our due 
diligence on this year's appropriation.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

            Questions Submitted to Hon. Eric H. Holder, Jr.
           Questions Submitted by Senator Barbara A. Mikulski

                   FINANCIAL FRAUD--PREDATORY LENDING

    Question. The collapse of the subprime mortgage market has brought 
about an explosion of mortgage fraud cases all across the United 
States. Predatory lenders destroy families and communities, and 
undermine faith in financial systems. The Justice Dept's financial 
fraud workload is sure to increase as more predatory lenders are 
exposed.
    Last year, this subcommittee gave you $438 million to hire 54 new 
agents, 165 new attorneys and 142 new professional support staff 
dedicated to investigating financial fraud, bringing the total number 
working on this problem to over 4,000 Federal personnel. We need to 
continue this surge in financial fraud investigations.
    How many more agents, forensic accountants and analysts will you 
need to address the mortgage fraud workload?
    Answer. Congressional support in prior fiscal years has greatly 
enhanced the FBI's ability and capacity to address mortgage fraud. In 
the 12 month period between October 1, 2008 and September 30, 2009, the 
FBI obtained 494 mortgage fraud convictions. On June 18, 2010, 
Operation Stolen Dreams, a 3\1/2\ month sweep was concluded which, with 
the assistance of 7 participating Federal agencies, has thus far 
resulted in 863 indictments and information and 391 convictions.
    However, the scope of the criminal threat, as well as the resources 
available to address it, continues to require the prioritization of 
investigations. In fiscal year 2010, over 68 percent of the FBI's 3,045 
mortgage fraud cases involved losses exceeding $1 million per case. In 
addition, the FBI anticipates it will receive over 75,000 Suspicious 
Activity Reports (SARS) in fiscal year 2010, an increase of over 241 
percent since 2005. FBI intelligence, industry sources such as the 
Mortgage Asset Research Institute (MARI), and recent reports by the 
special inspector general of the Troubled Asset Relief Program 
(SIGTARP) predict an increase in foreclosures, financial institution 
failures, regulatory agency/independent auditor fraud referrals, and 
governmental housing relief fraud. These risk-based indicators of 
mortgage fraud indicate that even prioritized investigations will 
persist or grow in fiscal year 2011 and beyond. Therefore, the nature 
of the criminal problem, the prolonged economic downturn, increased 
foreclosures, and continued profitability of mortgage fraud may 
increase mortgage fraud workload, which may, in turn, require the 
investment of FBI resources to address the threat.
    The FBI has approximately 358 Special Agents, 26 Intelligence 
Analysts and 39 Forensic Accountants/Financial Analysts devoted to 
investigating mortgage fraud matters in fiscal year 2010. The 
administration's fiscal year 2011 request includes another $75 million 
for 367 positions (143 agents) to combat white collar crime and 
mortgage fraud. Like all criminal matters, the FBI makes every effort 
to implement new and innovative methods to detect and combat mortgage 
fraud, and focuses on the most egregious cases to address mortgage 
fraud crimes.
    Question. Will you be able to add agents to conduct these 
investigations, even as you lose criminal agents to counterterrorism 
work?
    Answer. While it is accurate that the FBI moved criminal 
investigative resources to counterterrorism in the months and years 
immediately following September 11, 2001, more recently the FBI has 
reallocated resources from lower priority white collar criminal 
programs to address the growing mortgage fraud problem. The FBI has 
more than 358 Special Agents addressing mortgage fraud, and many of 
those resources have come from other lower priority white collar crime 
investigations. For example, since fiscal year 2007, the FBI has 
doubled the number of mortgage fraud investigators, leaving only 106 
Special Agents available to investigate the approximately 1,900 
remaining financial institution fraud cases. As previously mentioned, 
congressional support, specifically for mortgage fraud, in prior fiscal 
years has greatly enhanced our capability; however, the scope of the 
criminal threat, as well as the resources available to address it, 
continues to require the prioritization of investigations.
    Question. What new training will you need to give agents and 
analysts to investigate predatory lenders?
    Answer. Predatory lending occurs primarily during the loan 
origination process, and the FBI is continuing to investigate loan 
origination fraud. Therefore, the FBI will continue to educate 
analysts, investigators, and accountants on ways to identify and 
investigate schemes where industry insiders target vulnerable 
populations, and how to address this and other loan origination 
schemes. Successfully addressing the problem will require understanding 
the ways to identify where origination fraud has occurred, what factors 
leave a community vulnerable, and which techniques can be best employed 
to mitigate the threat. In addition to new training that will be 
developed, the FBI continues to provide regular training to new and 
experienced agents and regularly shares information on best practices, 
emerging trends, and successful sophisticated techniques with its law 
enforcement partners. For example, the mortgage fraud training courses 
focus on proactive intelligence, basic mortgage fraud investigative 
tools and resources, and enforcement measures that can be used to 
efficiently and effectively combat mortgage fraud. The training also 
provides an understanding of the mortgage lending process, including 
the entities, paperwork, and regulatory agencies involved. These 
training classes include industry and law enforcement experts, such as 
the Department of Housing and Urban Development--Office of the 
Inspector General and the Federal Deposit Insurance Corporation, to 
educate agents, analysts, and forensic accountants on the various types 
of mortgage fraud schemes, including predatory lenders.
    Question. How can you better help State and local officials 
investigate predatory lenders?
    Answer. As mentioned previously, addressing loan origination fraud 
where a vulnerable population is exploited by industry insiders is 
largely a matter of identifying and understanding who is vulnerable, 
how they are targeted, and the best means of mitigating that 
vulnerability. The FBI uses its 23 mortgage fraud task forces and 67 
mortgage fraud working groups not only to pool resources to investigate 
the crime problem, but also to share valuable intelligence. By 
expanding these partnerships and building on our current successes, the 
FBI can continue to work with state and local officials to address this 
crime problem.

                           HEALTH CARE FRAUD

    Question. Now that the historic healthcare reform legislation is 
law, we must do more to combat healthcare and insurance fraud that cost 
U.S. citizens more than $60 billion annually.
    We need to make sure law enforcement has the resources it needs to 
investigate these crimes and prosecute the scammers.
    What roles is the Justice Department already playing in healthcare 
fraud investigations and prosecutions?
    Answer. The Department of Justice (DOJ) has been both investigating 
and prosecuting healthcare fraud for many years, working with the 
Department of Health and Human Services (HHS) to root out waste, fraud, 
and abuse from the Federal healthcare system.
    While the FBI does the majority of the criminal investigative work, 
the Department's Civil Division investigates qui tam relator cases and 
the Civil Rights Division investigates violations of the Civil Rights 
of Institutionalized Persons Act (CRIPA), 42 U.S.C. Sec. 1997. In 
addition to these investigatory roles, the Civil Division, Criminal 
Division, Civil Rights Division, and U.S. Attorneys Offices all 
prosecute healthcare fraud.
    Specifically, the Department's efforts to combat healthcare fraud 
are as follows:

United States Attorneys
    The 93 United States Attorneys and their assistants, or AUSAs, are 
the Nation's principal prosecutors of Federal crimes, including 
healthcare fraud, and each district has a designated Criminal Health 
Care Fraud Coordinator and a Civil Health Care Fraud Coordinator. Civil 
and criminal healthcare fraud referrals are often made to United States 
Attorney's Offices (USAOs) through the law enforcement network 
described herein, and these cases are usually handled primarily by the 
USAOs, although civil cases are sometimes handled jointly with the 
Civil Division. The other principal source of referrals of civil cases 
for USAOs is through the filing of qui tam (or whistleblower) 
complaints. These cases are often handled jointly with trial attorneys 
within the Civil Division, but may be handled solely by the USAO. USAOs 
also handle most criminal and civil Federal appeals.
    The Executive Office for United States Attorneys' Office of Legal 
Education (OLE) trains AUSAs and other Department attorneys, as well as 
paralegals, investigators, and auditors in the investigation and 
prosecution of healthcare fraud. For example, in 2009, OLE offered a 
Health Car Fraud Seminar for AUSAs and Department attorneys, which was 
attended by over 100 attorneys, as well as a Medicare Fraud Strike 
Force Seminar and an Affirmative Civil Enforcement Conference, 
including healthcare fraud issues, for paralegals, auditors and 
investigators.
    USAOs play a major role in healthcare fraud enforcement by bringing 
affirmative civil cases to recover funds wrongfully taken from the 
Medicare Trust Funds and other taxpayer-funded healthcare systems as a 
result of fraud, waste, an abuse. Civil AUSAs, similar to their 
criminal counterparts, litigate a wide variety of healthcare fraud 
matters including false billings by doctors and other providers of 
medical services, overcharges by hospitals, Medicaid fraud, and 
kickbacks to induce referrals of Medicare or Medicaid patients, fraud 
by pharmaceutical companies, and failure of care allegations against 
nursing home owners.

Civil Division
    Civil Division attorneys pursue civil remedies in healthcare fraud 
matters, working closely with the USAOs, the HHS/Office of Inspector 
General (OIG), the FBI, the Department of Defense, and other Federal 
and State law enforcement agencies. Civil Division attorneys 
investigate and litigate a wide range of healthcare fraud matters, 
including allegations that Medicare and Medicaid providers and 
suppliers (e.g., hospitals, doctors, skilled nursing facilities, 
pharmaceutical and device manufacturers) overcharged the Government for 
healthcare services or goods, or, that they billed for goods and 
services that were not provided or not medically necessary. Oftentimes, 
these allegations are linked to allegations that the doctors and others 
were paid kickbacks or other remuneration to induce referrals of 
Medicare or Medicaid patients in violation of the Anti-Kickback Act and 
Physician Self-Referral laws. The Civil Division also investigates a 
wide range of pharmaceutical and device fraud, including allegations of 
drug price manipulation and illegal marketing activity that caused the 
Medicare and Medicaid programs to pay for drug uses that were not 
medically accepted indications (i.e., they were neither approved by the 
FDA nor supported by applicable drug compendia, medical literature, or 
accepted standards of medical practice).
    In addition to its recovery efforts, the Civil Division provides 
training and guidance in connection with pharmaceutical and device 
fraud matters. Given the nationwide scope of the defendants' conduct, 
as well as the complex legal and factual issues in these cases, the 
Civil Division plays a critical role in coordinating both investigative 
efforts and the legal positions taken by the Department.
    Lastly, the Elder Justice and Nursing Home Initiative coordinates 
and supports law enforcement efforts to combat elder abuse, neglect, 
and financial exploitation. The Initiative supports law enforcement 
efforts by maintaining an information bank of Elder Justice related 
materials (including briefs, opinions, indictments, plea agreements, 
subpoenas templates); funding medical reviewers, auditors, and other 
consultants to assist Department attorneys and AUSAs in their nursing 
home and/or long term care facility cases; hosting quarterly 
teleconferences with Department attorneys and AUSAs across the country 
to discuss issues or developments in connection with our nursing home 
and failure of care cases; and coordinating nationwide investigations 
of skilled nursing facilities.

Criminal Division
    The Criminal Division supports criminal healthcare fraud litigation 
and interagency coordination, which is carried out primarily by two of 
its sections: the Fraud Section and the Organized Crime and 
Racketeering Section (OCRS).
    The Fraud Section initiates and coordinates complex healthcare 
fraud prosecutions and supports the USAOs with legal and investigative 
guidance and training, and trial attorneys to prosecute healthcare 
fraud cases. Beginning in March 2007, the Criminal Division's Fraud 
Section working with the local USAOs, the FBI, law enforcement partners 
in HHS, and State and local law enforcement agencies launched the 
Medicare Fraud Strike Force in Miami-Dade County, Florida to prosecute 
individuals and entities that do not provide legitimate healthcare 
services, but exist solely to defraud Medicare and other Government 
healthcare programs. Since 2007, the Department and HHS have expanded 
the Strike Force to seven locations.
    In addition to healthcare fraud litigation, the Fraud Section also 
provided legal guidance to FBI and HHS agents, health program agency 
staff, AUSAs and other Criminal Division attorneys on criminal, civil 
and administrative tools to combat healthcare fraud; provided advice 
and written materials on patient medical record confidentiality and 
disclosure issues, and coordinated referrals of possible criminal HIPAA 
privacy violations from the HHS Office for Civil Rights; monitored and 
coordinated Department responses to legislative proposals, major 
regulatory initiatives, and enforcement policy matters; reviewed and 
commented on healthcare provider requests to the HHS/OIG for advisory 
opinions, and consulted with the HHS/OIG on draft advisory opinions; 
worked with CMS to improve Medicare contractors' fraud detection, 
referrals to law enforcement for investigation, and case development 
work; and prepared and distributed to all USAOs and FBI field offices 
periodic summaries of recent and significant healthcare fraud cases.
    The Criminal Division's Organized Crime and Racketeering Section 
(OCRS) supports investigations and prosecutions of fraud and abuse 
targeting the 2.8 million private sector health plans sponsored by 
employers and/or unions, including schemes by corrupt entities that 
sell insurance products. Such private sector group health plans are the 
leading source of healthcare coverage for individuals not covered by 
Medicare or Medicaid. OCRS also provides strategic coordination in the 
identification and prosecution of domestic and international organized 
crime groups engaged in sophisticated fraud posing a threat to the 
healthcare industry.

Civil Rights Division
    The Civil Rights Division pursues relief affecting public, 
residential healthcare facilities, and has established an initiative to 
eliminate abuse and grossly substandard care in public, Medicare and 
Medicaid funded nursing homes and other long-term care facilities.
    The Special Litigation Section of the Civil Rights Division is the 
sole Department of Justice component responsible for enforcing the 
Civil Rights of Institutionalized Persons Act (CRIPA). CRIPA authorizes 
the investigation of conditions of confinement at State an local 
residential institutions (including facilities for persons with 
developmental disabilities or mental illness, and nursing homes) and 
initiation of a civil action for injunctive relief to remedy a pattern 
or practice of violations of the Constitution or Federal statutory 
rights. The review of conditions in facilities for persons who have 
mental illness, facilities for persons with developmental disabilities, 
and nursing homes comprises a significant portion of the program. The 
Special Litigation Section works collaboratively with the USAOs and 
HHS.

Federal Bureau of Investigation
    The FBI is the primary investigative agency involved in the fight 
against healthcare fraud that has jurisdiction over both the Federal 
and private insurance programs. With healthcare expenditures rising at 
three times the rate of inflation, it is especially important to 
coordinate all investigative efforts to combat fraud within the 
healthcare system. More than $1 trillion is spent in the private sector 
on healthcare and its related services and the FBI's efforts are 
crucial to the overall success of the program. The FBI leverages its 
resources in both the private and public arenas through investigative 
partnerships with the HHS/OIG, the FDA, the DEA, the Defense Criminal 
Investigative Service, the Office of Personnel Management, the Internal 
Revenue Service and various State and local agencies.
    On the private side, the FBI is actively involved with national 
groups, such a the National Health Care Anti Fraud Association (NHCAA), 
the Blue Cross and Blue Shield Association and the National Insurance 
Crime Bureau, as well as many other professional and fundamental 
efforts to expose and investigate fraud within the system.
    Healthcare fraud investigations are a priority within the White 
Collar Crime Program Plan. FBI field offices throughout the United 
States have proactively addressed significant healthcare fraud through 
coordinated initiatives, task forces, and undercover operations to 
identify and pursue investigations against the most egregious 
offenders, which may include organized criminal activity and criminal 
enterprises. Organized criminal activity has been identified in the 
operation of medical clinics, independent diagnostic testing 
facilities, durable medical equipment companies and other healthcare 
facilities. The FBI is committed to addressing this criminal activity 
through disruption, dismantlement and prosecution of criminal 
organizations.
    Question. What new responsibilities does the historic Patient 
Protection and Affordable Care Act place on the Justice Department when 
it comes to healthcare fraud?
    Answer. The Affordable Care Act did not place additional 
responsibilities on the Department of Justice as it relates to 
enforcement. However, the act did provide additional tools for the 
Department of Justice and made the following changes to existing 
Federal law which will assist the Department's efforts to prosecute 
healthcare fraud:
  --Directs the Sentencing Commission to increase the Federal 
        sentencing guidelines for healthcare fraud offenses, by 20-50 
        percent for crimes that involve more than $1,000,000 in losses;
  --Updates the definition of ``healthcare fraud offense'' in the 
        Federal criminal code (18 U.S.C. Sec. 24(a)) to include 
        violations of the anti-kickback statute, the Food, Drug and 
        Cosmetic Act, and certain provisions of the Employee Retirement 
        Income Security Act, allowing these important healthcare 
        offenses to be more vigorously enforced. These changes will:
    --Make the proceeds of these offenses subject to criminal 
            forfeiture,
    --Render obstruction of an investigation of these offenses a crime,
    --Include these offenses as specified unlawful activity for 
            purposes of money laundering, and
    --Authorize the use of administrative subpoenas for the production 
            of documents;
  --Clarifies that a violation of the anti-kickback statute constitutes 
        a violation of the False Claims Act. This will ensure that all 
        false claims resulting from illegal kickbacks are themselves 
        illegal, even if the claims are submitted by an innocent third-
        party and not directly by the wrongdoers themselves;
  --Revises the False Claims Act public disclosure bar narrowing the 
        categories of public disclosures, revising the definition of an 
        original source, and eliminating the jurisdictional nature of 
        the bar;
  --Clarifies that the term ``willful'' under the healthcare fraud 
        statute (18 U.S.C. Sec. 1347) does not require proof that 
        defendants either had knowledge of that particular statute or 
        had specific intent to violate that law. The act clarifies that 
        ``willful conduct'' in this context does not require proof that 
        the defendant had actual knowledge of the law in question or 
        specific intent to violate that law;
  --Provides the Department of Justice with subpoena authority for 
        investigations conducted pursuant to the Civil Rights of 
        Institutionalized Persons Act, allowing the Government to 
        better protect the health and civil rights of individuals 
        living in institutional facilities;
  --Amends a key obstruction statute (18 U.S.C. Sec. 1510) so that 
        obstruction of criminal investigations involving administrative 
        subpoenas under the Health Insurance Portability and 
        Accountability Act of 1996 is treated in the same manner as 
        obstruction of criminal investigations involving grand jury 
        subpoenas;
  --Directs the Attorney General or designee to participate in the 
        Elder Justice Coordinating Council, Chaired by the Secretary of 
        HHS;
  --And appropriates additional HCFAC mandatory funds.
    Question. What is the Health Care Fraud Prevention and Enforcement 
Action Team (HEAT) initiative and what role does the Department of 
Justice play in it?
    Answer. On May 20, 2009, Attorney General Holder and Secretary 
Sebelius announced the Health Care Fraud Prevention and Enforcement 
Action Team (HEAT), a new effort with increased tools and resources, 
and a sustained focus by senior level leadership to enhance the 
collaboration levels between the Departments of Justice and Health and 
Human Services. With the creation of the new HEAT effort, the 
Department of Justice and HHS enhanced our commitment to fighting 
Medicare Fraud as a Cabinet-level priority for both this Department and 
HHS. HEAT, which is jointly led by the Deputy Attorney General and HHS 
Deputy Secretary, is comprised of top level law enforcement agents, 
prosecutors and staff from the Justice Department and HHS and their 
operating divisions, and is dedicated to joint efforts across 
Government to both prevent healthcare fraud and enforce current anti-
fraud laws around the country.
    The mission of HEAT is:
  --To marshal significant resources across Government to prevent 
        waste, fraud and abuse in the Medicare and Medicaid programs 
        and crack down on the fraud perpetrators who are abusing the 
        system and costing us all billions of dollars.
  --To reduce skyrocketing healthcare costs and improve the quality of 
        care by ridding the system of perpetrators who are preying on 
        Medicare and Medicaid beneficiaries.
  --To highlight best practices by providers and public sector 
        employees who are dedicated to ending waste, fraud and abuse in 
        Medicare.
  --To build upon existing partnerships that already exist between DOJ 
        and HHS like our Medicare Fraud Strike Forces to reduce fraud 
        and recover taxpayer dollars.
    Another key HEAT objective is to improve and expand information and 
data sharing procedures between HHS and the Justice Department so that 
law enforcement has access to critical data and information on a near 
``real-time'' basis in order to identify patterns of fraud and abuse 
more rapidly, increase efficiency in investigating and prosecuting 
complex healthcare fraud cases, and turn off funding and profits to 
those who may be defrauding the system.
    The Attorney General and HHS Secretary have instigated several HEAT 
initiatives.
    Significantly, the Medicare Fraud Strike Force has been expanded to 
a total of seven cities. The HHS/OIG implemented cutting-edge 
electronic discovery tools to maximize investigative efficiency in the 
processing and review of voluminous electronic evidence obtained during 
the course of our healthcare fraud investigations. The Centers for 
Medicare and Medicaid Services (CMS) launched several projects designed 
to improve the Durable Medical Equipment (DME) provider enrollment 
process, Medicare Parts C and D compliance and enforcement activities, 
and compliance training for providers to prevent honest mistakes and 
help stop potential fraud before it happens. Finally, the CMS has 
several new authorities to help State Medicaid officials conduct 
audits, monitor activities and detect fraud. One example is the 
authority to establish a Medicaid Recovery Audit Contractor (RAC) 
program.
    In addition, CMS and law enforcement agency representatives, such 
as members of the Civil and Criminal Divisions, the United States 
Attorneys' Offices (USAOs) and Executive Office for the United States 
Attorneys (EOUSA), the FBI and HHS/OIG, meet on a periodic basis 
through numerous local or regional healthcare fraud working groups and 
task forces. EOUSA and CMS also sponsor a monthly national conference 
call during which Assistant United States Attorneys from all districts 
have the opportunity to interact directly with CMS representatives, 
receive timely reports on CMS operations, and obtain answers to 
questions related to specific issues regarding current investigations. 
The Departments also convene interagency staff-level working groups as 
needed to develop mutual proposals for improving our healthcare fraud 
fighting capabilities.
    Each Department routinely enlists senior staff from the other to 
participate in staff training programs, thereby encouraging the free-
flow of shared expertise and accessibility. Since 2007, the Department 
of Justice's Criminal Division and HHS/OIG have provided an opportunity 
for HHS/OIG counsel to serve 6 month details to gain experience 
managing criminal healthcare fraud investigations and trial experience 
in Federal court with Criminal Division colleagues. In addition, 
attorneys from HHS/OIG have been detailed to U.S. Attorneys' Offices as 
Special Assistant U.S. Attorneys to provide USAOs with additional 
prosecutorial resources.
    Question. The Department's efforts to combat healthcare fraud are 
funded by the Health Care Fraud and Abuse Control account, administered 
by HHS. The fiscal year 2011 request is $272 million for these 
activities.
    Do you believe more funding is needed to stop fraud in Medicare, 
Medicaid and other healthcare benefits programs?
    Answer. As it relates to healthcare fraud enforcement, the 
Department has received sufficient increases in recent years to allow 
it to adequately investigate and prosecute healthcare fraud.
    The fiscal year 2011 President's budget request includes a 
discretionary increase of $250 million for the Health Care Fraud Abuse 
and Control account. The Department of Justices portion of this 
increase is $60 million, which will provide a total of $90 million in 
discretionary resources for the Department in fiscal year 2011. In 
addition to the fiscal year 2011 discretionary increase, the Department 
will also receive $61.9 million in mandatory funding, provided through 
the Health Care Fraud Abuse and Control Account. This amount includes 
$6.7 million in additional funding provided through the recently 
enacted healthcare legislation.
    In fiscal year 2011, the FBI will receive $128.8 million in 
mandatory funding made available through the Health Insurance 
Portability and Accountability Act of 1996.
    In sum, the Department will receive $280.7 million in fiscal year 
2011 in reimbursable funding to support healthcare fraud investigations 
and prosecution, if Congress funds the discretionary HCFAC request. 
This represents a 33 percent increase over the Department's fiscal year 
2010 efforts, and will allow the Department to deploy additional 
Medicare Strike Force Task Forces, fund additional pharmaceutical and 
False Claims Act litigation, and address civil rights violations as 
they relate to healthcare fraud.

              TASK FORCES--STATE AND LOCAL LAW ENFORCEMENT

    Question. Joint Terrorism Task Forces (JTTFs) are teams of Federal, 
State and local law enforcement and intelligence agencies working 
together to identify and respond to terrorist threats at the local 
level. There are now more than 100 JTTFs led by the FBI, with over 
4,500 task force participants.
    The crucial work done by these teams has been front and center this 
week to investigate this past weekend's failed bombing attempt in Times 
Square. Their efforts, along with the New York Police Department and 
other Federal law enforcement and intelligence agencies, led to the 
swift capture of the suspect responsible for what could have been a 
deadly attack on Americans.
    How beneficial are the Task Forces in responding to terrorist 
threats? What unique role do they play in terrorism investigations?
    Answer. The participation of State, local, and Federal law 
enforcement partners on JTTFs creates a ``force multiplier'' benefit. 
By having State and local officers and participants from other Federal, 
State, and local agencies, the JTTFs are able to address many more 
cases than the FBI could handle alone.
    The FBI is faced with a formidable task that experience has shown 
is best achieved through the utilization of the vast resources and 
personnel dedicated to task forces. The JTTFs cover thousands of leads 
in response to calls regarding counterterrorism-related issues. These 
leads address potential threats to national security and require a 
significant amount of coordination and resources.
    Overall, greater interaction and cooperation between FBI Special 
Agents and their counterparts exist due to the task force concept, 
which has led to a more focused, integrated and resource-conscious 
approach to counterterrorism investigations.
    Question. Will their role be expanded in the future?
    Answer. In recent years, the FBI has expanded the number of JTTFs 
within the United States to promote interoperability and better 
leverage Federal, State, and local agencies and their resources. There 
are currently 104 JTTFs across the United States in 56 FBI field 
offices and 48 FBI Resident Agencies. The total national staffing level 
of Federal, State and local officers, including FBI personnel, is 
4,492. Currently, there are 656 State and local agencies that 
participate on JTTFs nationwide. In addition, JTTFs include 
representatives from the U.S. Intelligence Community, Departments of 
Homeland Security, Defense, Justice, Treasury, Transportation, 
Commerce, Energy, State, Interior, and others. The FBI anticipates that 
the level of Federal, State, and local participation on the JTTFs will 
grow in the future to more effectively and efficiently address emerging 
threats.
    Question. What additional resources would you need to expand the 
program?
    Answer. The FBI anticipates that the level of Federal, State, and 
local participation in the JTTFs will continue to grow in the future. 
This growth will result in the need for an increased allocation of 
funding to reimburse Federal agencies for their participation on the 
JTTFs, as well as to State and local agencies for overtime costs, 
funding for equipment, funding to lease additional vehicles, and rent 
and renovation funding required in connection with the assignment of 
additional personnel to the FBI JTTF locations.

                        STOPPING CHILD PREDATORS

    Question. The Adam Walsh Act gives the U.S. Marshals Service the 
authority to treat convicted sex offenders as fugitives if they fail to 
register. It also directs the Marshals to assist jurisdictions locate 
and apprehend these individuals. There are roughly 135,000 non-
compliant offenders in the United States. The Marshals Service 
estimates they need a dedicated force of 500 deputies to fully 
implement the Adam Walsh Act.
    In March, President Obama appeared on ``America's Most Wanted'' to 
pledge increased funding and personnel for enforcement of the Adam 
Walsh Act. The President highlighted that ``it is very important for us 
to build up U.S. Marshals' capacity. That is something we want to do in 
the Federal budget . . . my expectation is that we will get support, 
bipartisan support, from Congress on this issue because it is so 
important to every family across America.''
    How many Deputy U.S. Marshals are currently dedicated full-time to 
Adam Walsh Act enforcement?
    Answer. In fiscal year 2010, the USMS had 177 positions dedicated 
full-time to Adam Walsh Act (AWA) enforcement (132 of the positions are 
Deputy U.S. Marshals (DUSM). When USMS received the fiscal year 2010 
appropriation, USMS revaluated the current Adam Walsh Act positions and 
increased the number of DUSMs for AWA enforcement. Of the 177 
positions, the USMS placed 66 new and reassigned 20 existing Senior 
Deputy U.S. Marshals to districts throughout the United States to 
coordinate AWA enforcement activities.
    Question. Why didn't DOJ seek additional resources in the fiscal 
year 2011 budget request for the Marshals Service to hire more deputies 
for this work?
    Answer. The Adam Walsh Child Protection and Safety Act is landmark 
legislation that considerably enhances the Department's ability to 
respond to crimes against children and vulnerable adults and prevent 
sex offenders who have been released back into the community from 
victimizing other people. In fiscal year 2011, the administration is 
requesting $336 million for Adam Walsh Act related activities, an 
increase of $20 million (6.3 percent) to support implementation of the 
act. The fiscal year 2011 funding will enable the Department to 
continue existing base operations; manage expanding program workloads; 
provide grants to States to offset costs associated with implementing 
the act; and provide administrative, policy, and technical assistance 
for State and local government.
    The Department appreciates the recent statement by the President on 
``America's Most Wanted'' pledging increased funding and personnel for 
enforcement of the Adam Walsh Act. President Obama highlighted that 
``it is very important for us to build up U.S. Marshals' capacity. That 
is something we want to do in the Federal budget . . . my expectation 
is that we will get support, bipartisan support, from Congress on this 
issue because it is so important to every family across America.''
    Question. Do you plan to stand behind President Obama's commitment 
for more resources for Adam Walsh Act enforcement in the upcoming 
fiscal year? If so, will the fiscal year 2011 budget request be amended 
to include this support?
    Answer. The Department and the USMS fully support the mandates of 
the Adam Walsh Act and appreciate its importance to this subcommittee. 
We stand ready to use the resources, both monetary and nonmonetary, to 
ensure the safety of the public.
    The fiscal year 2011 President's budget requests $336 million for 
the Department to implement Adam Walsh Act related activities, an 
increase of 6.3 percent over the prior year. The Department is not 
aware of any pending supplemental requests or budget amendments that 
would direct additional resources to the Department specifically to 
enforce the Adam Walsh Act. However, most of the activities authorized 
by the act are already performed as part of the Justice Department's 
traditional mission. In most instances, for programs where the act 
authorized specific funding levels, the Department is spending at or 
above those levels.

                           SECOND CHANCE ACT

    Question. We have to look at the whole crime problem in a holistic 
way. We need to look at what ways can we prevent people from becoming 
criminals and we need to figure out how to make prisoner re-entry into 
regular society more successful than it has been in the past.
    The Second Chance Act became law in 2008. Since then, our 
subcommittee has provided $125 million for State and local offender re-
entry programs with the goal of reducing criminal recidivism. President 
Obama's fiscal year 2011 request includes another $100 million for 
Second Chance Act programs, but does not specify which of those 
programs it intends to fund.
    Last year, this subcommittee specified funding for several 
different Second Chance Act areas, like adult and juvenile offender 
reentry, family-based substance abuse treatment, and grants for 
mentoring and transitional services. What specific programs authorized 
by that law do you propose to fund in fiscal year 2011?
    Answer. The President's fiscal year 2011 budget request includes 
$100 million for the Second Chance Act, which is the same amount 
appropriated in fiscal year 2010. The fiscal year 2011 request 
specifies three allocations from the $100 million:
  --$9.0 million to implement section 111, Reentry Courts, which 
        authorizes the creation of State, local, and tribal reentry 
        courts to oversee the reentry process--including monitoring, 
        supervision, case management, service provision, and community 
        involvement.
  --$10.0 million under section 112, Prosecution Drug Treatment 
        Alternatives to Prison (DTAP), to provide grants to State and 
        local prosecutors to develop, implement, or expand qualified 
        drug treatment programs that are alternatives to imprisonment.
  --$1.7 million under section 245, Reentry Research, to develop and 
        implement an ongoing reentry and recidivism statistics program.
    Of the remaining $79.3 million from the fiscal year 2011 
President's budget request, OJP plans to continue support for 
priorities such as adult and juvenile demonstration programming, pre- 
and post-release mentoring programs, and targeting risk factors for 
recidivism through treatment strategies such as family treatment and 
treatment of offenders with co-occurring disorders. Funding will also 
provide ongoing support for the National Reentry Resource Center. OJP 
will continue to seek input from stakeholder groups and to consider 
guidance from Congress to determine the allocation of the funds.
    Question. What benefits do you as a law enforcement officer see in 
providing robust funding for re-entry programs?
    Answer. The Department sees tremendous benefit in providing funding 
for reentry programs because the aim is to ensure that those returning 
to our communities have an opportunity to contribute to the success of 
society and do not commit additional crimes. The challenges associated 
with offenders' reentry from jails and prisons are daunting; a 
significant number experience substance addiction, job and housing 
instability, mental illness, health problems, and a host of other 
problems. The Department's approach to reentry is a research-driven 
process which has shown that providing offenders a broad range of 
services when they leave incarceration helps ensure their successful 
transition to the community. Successful reintegration strategies 
translate into public safety gains in the form of reduced recidivism 
and victimization, improved community safety, and the long-term 
reintegration of formerly incarcerated individuals as productive 
members of their families and their communities.

                      TIMES SQUARE BOMBING ATTEMPT

    Question. Just 53 hours passed from the time Faisal Shahzad's 
(pronounced Fi-zel Sha-zod) car was smoking in Times Square until he 
was arrested. Press reports indicate Mr. Shahzad was cooperating both 
before and after he was read his Miranda rights.
    First, is he still cooperating with investigators and what new 
information are we learning?
    Answer. Faisal Shahzad is no longer cooperating with investigators. 
He pled guilty and has been sentenced to life in prison.
    Question. How were the FBI, DOJ, and NYPD able to turn this around 
in such a remarkably short period of time? In other words, why was this 
investigation and arrest so successful?
    Answer. The investigation of the Times Square bombing attempt was 
able to come to a swift conclusion due to the dedication and 
professionalism of all agencies involved. Specifically, the New York 
Police Department and FBI's New York Field Division were able to 
quickly obtain the Vehicle Identification Number of the SUV, despite 
efforts by Shahzad to obscure the number.
    Investigative leads were sent to various divisions to identify the 
last known owner of the vehicle. The results of these efforts provided 
a series of additional leads which ultimately led to the identification 
of the last owner of the vehicle used in the Times Square attack. Using 
information provided by this individual, FBI's New Haven Field Division 
was able to conduct toll analysis to ultimately identify Faisal Shahzad 
from Department of Homeland Security's Customs and Border Protection 
(CBP) records.
    In addition to this effort, a canvass of New York fireworks 
distributors linked Shahzad to a location where he purchased fireworks 
used to construct the vehicle-borne improvised explosive device. 
Investigators obtained computerized records from this location, which 
showed that Shahzad made the purchase of several large fireworks and 
used his Connecticut driver's license to verify his age. This driver's 
license photograph was subsequently shown to the previous owner of the 
SUV used in the attack, and she verified that Shahzad had purchased the 
vehicle.
    Based on this timely information, the FBI's investigators were able 
to quickly refine their search and focus on Shahzad as the perpetrator 
of the attempted attack in Times Square.
    Question. Press reports also indicate that Mr. Shahzad was 
nominated for the ``No-Fly'' list on Sunday, yet he was still able to 
board a flight to Dubai on Monday. What caused this to happen? Has the 
U.S. Government still not learned its watch-listing lessons from the 
failed Christmas Day bombing attempt?
    Answer. Faisal Shahzad was nominated for placement on the 
Transportation Security Administration's ``No-Fly'' list mid-day on 
Monday, May 3, 2010, and was placed on the ``No-Fly'' list shortly 
thereafter. At the time Shahzad was nominated, airlines were required 
to update their databases with U.S. Intelligence Community watchlisting 
information every 24 hours. This update was typically performed by the 
airlines at the end of each day. Emirates Airlines had not yet updated 
their system with the latest watchlisting information when Shahzad 
purchased his ticket and boarded the plane the evening of May 3, 2010. 
An additional review of the flight manifest by the Customs and Border 
Protection National Targeting Center (NTC) identified the presence of a 
No-Fly subject on the plane. The NTC immediately contacted Customs and 
Border Protection Officers located at JFK, and directed them to contact 
the airline immediately to ensure that the aircraft did not depart 
prior to their arrival at the gate. Upon arrival, CBP Officers removed 
the passenger from the aircraft. As a result of this investigation, 
foreign airlines are now required to update their watchlisting 
information within 30 minutes of receiving a new or revised ``No-Fly'' 
list from TSA. Additionally, TSA anticipates that all airlines required 
to implement Secure Flight will do so by the end of this calendar year.
    Question. Press reports state Mr. Shahzad received some training in 
Pakistan. Is there a terrorist group responsible for his training? If 
so, who? When was the training provided? What cooperation have we 
received from Pakistan on this investigation?
    Answer. Shahzad received training from the terrorist group Tehrik-
e-Taliban Pakistan (TTP). He attended a TTP training camp in North 
Waziristan from December 2009 to January 2010, where he obtained 4 to 5 
days of explosives training.
    The Pakistan authorities have been very helpful in this 
investigation and have taken the attempted attack on the United States 
very seriously.

                      FUNDING FOR TERRORIST TRIALS

    Question. One of the major obstacles facing our bill this year is 
the debate over the transfer of Guantanamo Bay detainees to the United 
States to stand trial. The fiscal year 2010 CJS conference agreement 
included language to restrict Guantanamo Bay detainees from coming into 
the United States except for prosecution. In November 2009, you 
announced your intentions to bring five 9/11 terrorist suspects to New 
York City for trial. As we all know, that plan is now in limbo.
    The President's fiscal year 2011 request for the Justice Department 
includes what I consider now to be placeholders. The request includes 
$73 million for security-related or associated with civilian trials, 
but the location of the trials is now unknown.
    How does the Justice Department plan to address the additional risk 
for these high threat trials on U.S. soil?
    Answer. The development of the funding request in the fiscal year 
2011 President's budget took into account the additional security 
requirements associated with these high threat trials. The request 
reflects the additional law enforcement officers and infrastructure 
requirements needed to manage the risk associated with these trials. 
Specifically, the funding will be used to harden cell blocks, 
courthouse facilities, and housing facilities, to increase electronic 
surveillance capability, and to provide protection for judges and 
prosecutors.
    Question. What unique costs are associated with these trials 
compared to other trials held in Federal courts?
    Answer. The category of costs for these trials would be similar to 
other trials held in Federal courts. These categories include prisoner 
housing and transportation, courthouse security and litigation costs. 
However, the security requirements associated with trying these 
suspects are higher than most other trials, increasing the cost. For 
example, for these trials, the Department anticipates needing 
additional funding to harden cell blocks, courthouse facilities, and 
housing facilities, to increase its electronic surveillance capability, 
and to provide increased protection for judges and prosecutors.
    Question. Are these costs sufficient to keep a community safe 
wherever trials are held?
    Answer. The funding requested in fiscal year 2011 reflects the 
resources needed to address the additional security requirements 
associated with these trials. The additional security requirements take 
into consideration the safety of the communities.
    Question. The only 9/11 terrorism case tried in U.S. courts was 
that of Zacarias Moussaoui. It cost taxpayers millions of dollars and 
took over 4 years to convict him. The $73 million in the budget would 
only cover trial-related costs in fiscal year 2011. What costs have you 
estimated for the following years? What factors would make costs 
increase over the first year estimate?
    Answer. As reflected in the President's budget request, the 
Department anticipates the costs for future years to be similar to 
fiscal year 2011, with adjustments for pay raises and other 
annualization costs. In developing the fiscal year 2011 budget request, 
many assumptions were made, including the location of the trials.
    Question. If you decide to prosecute more Guantanamo Bay detainees 
in U.S. Courts, there will an additional strain on U.S. Marshals whose 
mission is to protect judges, transfer detainees and secure courtrooms. 
Will this strain on resources compromise U.S. Marshal's mission? How 
will this new mandate affect other Marshal priorities, such as tracking 
down and arresting fugitive sex offenders?
    Answer. No, these prosecutions will not compromise the USMS's 
mission to protect judges, transfer detainees, and secure courtrooms. 
However, resources will be needed to cover the anticipated 
extraordinary costs associated with these trials, including: additional 
security measures for the judiciary, the courtroom, the courthouse, and 
the assistance of local law enforcement in assisting with the large 
crowds and high media interest.
    The Department does not anticipate that these prosecutions will 
affect other USMS priorities. The fiscal year 2011 President's budget 
includes $72.8 million for the Department's anticipated increases in 
security and prosecutorial costs associated with high security threat 
trials. The requested resources would finance a variety of functions, 
including transportation and prisoner production, prisoner housing, 
security, litigation, and other costs associated with high threat 
trials.

                          COURTHOUSE SECURITY

    Question. A recent inspector general's report found ``critical 
deficiencies'' in the Justice Department's ability to protect Federal 
judges and prosecutors as threats against them escalate. The number of 
threats against court officials has more than doubled since 2003, 
rising to 1,400 in the last year, but the number may be significantly 
higher.
    The U.S. Marshals Service has primary responsibility for ensuring 
the safety and security of more than 2,000 Federal judges and 5,000 
court personnel. The Executive Office for U.S. Attorneys, U.S. 
Attorneys' Offices and the FBI are also involved in responding to 
threats.
    Are Federal judges and prosecutors counseled before a threat occurs 
about the security options provided by the Marshals Service and the 
Executive Office for U.S. Attorneys?
    Answer. Yes, the U.S. Marshals Service (USMS) provides security 
presentations for members of the Judiciary in a variety of official 
forums, including Judicial Nominee Briefings, New Chief Judge 
Orientations, judicial conferences, and annual judicial security 
training in each district. The judiciary has also been provided with a 
judicial security DVD, entitled Project 365--Security Starts with You. 
This DVD clearly presents the importance of reporting of threats and 
inappropriate communications on a timely basis to USMS, as well as the 
ramifications of not doing so.
    U.S. Attorney's Office employees are provided security information 
during the annual judicial security training provided to the court 
family agencies in each of the districts. The USMS also provides 
security briefings at U.S. Attorney and District Office Security 
Manager conferences. At these conferences, the USMS explains that 
threats are not limited to judges and that any member of the court 
family is susceptible to receiving a threat. In addition, the USMS 
participates in interactive ``webinars'' regarding security that are 
coordinated by the Executive Office for U.S. Attorneys.
    Question. What is the Justice Department doing to address the 
inspector general's recommendations for improved threat responses to 
ensure the safety of judges, court officials and their families?
    Answer. USMS has updated the training materials provided to the 
Judiciary and U.S. Attorneys to further emphasize the importance of 
quickly reporting threats and inappropriate communications, as well as 
the ramifications of not doing so. USMS is upgrading its Threat 
Management Information System (TMIS) to allow for faster searches and 
searches on larger data sets.
    In addition, the USMS has directed all of its district offices to 
send notification letters to local law enforcement agencies informing 
them if a Federal judge resides within their jurisdiction. These 
notification letters request that the judges' information be added to 
the local 911 system and that the local USMS office be contacted 
immediately for any emergencies reported at a judge's residence.
    Question. The Department requests $42 million, a $4 million 
increase over last year, to hire 12 new Deputy Marshals and support 
courthouse security. Are more resources needed to ensure the safety of 
all employees of the Federal judiciary and U.S. Attorneys? What gaps in 
security measures are still present?
    Answer. In the fiscal year 2011 President's budget, the USMS 
requests $42 million for Tactical Operations, a $5 million or 14 
percent increase over the fiscal year 2010 appropriation. This increase 
will support 14 additional positions (including 12 Deputy U.S. 
Marshals) for the Special Operations Group, which supports USMS and 
other agencies with rapidly deployable, highly trained law enforcement 
officers. These resources will strengthen the USMS's ability to prevent 
and respond to terrorist and other attacks against the Federal 
judiciary and protected witness.
    Question. Is there a central location for the Federal judiciary and 
U.S. Attorneys to report threats? What formal protocols have you put in 
place to ensure that the Executive Office for U.S. Attorneys, U.S. 
Attorneys' Offices and the FBI properly coordinate investigations with 
the Marshals Service? What funds are requested in their respective 
budgets to carry out their roles in protecting judges and prosecutors?
    Answer. The local USMS district office should receive information 
on all threats. This information is then forwarded to the USMS Threat 
Management Center within the Judicial Security Division at Marshals 
Service headquarters. In addition, the USMS, the FBI, and EOUSA work 
well together and will continue to seek ways to improve the security of 
Federal judges and prosecutors. The USMS, FBI and EOUSA are in the 
process of formalizing Memoranda of Understanding that will define the 
roles and responsibilities of each organization in protecting Federal 
judges, U.S. Attorneys, and Assistant U.S. Attorneys. The USMS fiscal 
year 2011 President's budget requests $440 million for Judicial and 
Courthouse Security. The request is a 3.2 percent increase over the 
fiscal year 2010 enacted budget.

                     SOUTHWEST BORDER VIOLENCE--DEA

    Question. I continue to have concerns that the current resources 
for the Department of Justice to combat violence along the border are 
inadequate. If the current wave of violence in the border States cannot 
be contained, cartel-related crime will most likely expand to major 
metropolitan areas, including areas like Atlanta, Chicago and even 
Baltimore.
    The explosion of violence in Mexico and along the southern border 
is caused by a limited number of large, sophisticated and vicious 
criminal organizations--not by isolated individual drug traffickers. 
The Department's fiscal year 2011 request includes $584 million to 
support investigations and prosecutions relating to border violence.
    How concerned should communities along the border--and throughout 
the United States as a whole--be about cartel-related violence?
    Answer. To date, the cartel-related violence in Mexico has not 
spilled over into the U.S. border communities. In fact, by and large, 
violent crime in many of the U.S. border cities is lower now than it 
has been in recent years. (See the Federal Bureau of Investigation 
Uniform Crime Report).
    Despite the relative safety and security in the U.S. communities, 
however, the Department of Justice is acutely aware of the escalation 
of violence by drug cartels, gangs, and other criminal organizations 
just over our border with Mexico. This violent activity is not solely 
an international threat; it is a national security issue for the United 
States. The Department of Justice is firmly committed to preventing and 
responding to spill-over violence as aggressively as possible.
    The root cause of the explosion of violence just south of our 
border is the conflicts within and among a limited number of 
sophisticated, transnational criminal organizations. These 
hierarchical, Mexico-based cartels are responsible for smuggling into 
the United States most of our Nation's illegal drug supply. While the 
cartels' primary business is drug trafficking, they also sponsor a 
panoply of other crimes that support their illegal operations. These 
other crimes include extortion, torture, murder, corruption of public 
officials, sheltering of wanted fugitives, kidnapping and human 
smuggling, laundering of illicit criminal proceeds through the existing 
financial system and through bulk cash smuggling, and the illegal 
acquisition, trafficking, and use of firearms and explosives.
    The Merida Initiative is the administration's four-pillar strategy 
to help bring security to Mexico. It focuses on: (1) Disrupting the 
capacity of organized crime to operate; (2) institutionalizing capacity 
to sustain rule of law; (3) creating a 21st century border structure; 
and (4) building strong and resilient communities. The Department of 
Justice plays a key role in implementing pillars one and two.
    The Department of Justice plays a primary role and brings to bear 
its special expertise in taking down Mexico's organized, multi-faceted 
criminal enterprises. The Department's view--based on decades of 
experience in investigating, prosecuting, and dismantling organized 
criminal groups, such as the Mafia, international terrorist groups, and 
domestic and transnational gangs--is that the best way to fight large 
scale criminal organizations is through prosecutor-led, intelligence-
driven, multi-agency task forces that blend the strengths, resources, 
and expertise of the complete spectrum of Federal, State, local, and 
international investigative and prosecutorial agencies. Through their 
participation in such task forces, the Department's prosecutors, 
together with its component law enforcement agencies--the DEA, ATF, the 
FBI, and the USMS--give the Department the capacity to carry out the 
full range of activities necessary to succeed against these 
organizations.
    The Department has embraced a proactive model to achieve these 
comprehensive goals, in which we develop priority targets through the 
extensive use of intelligence. Sharing information, we build cases, 
coordinating long-term, extensive investigations to identify all the 
tentacles of a particular organization. Through sustained coordination 
of these operations, we are able to execute a coordinated enforcement 
action, arresting as many high-level members of the organization as 
possible, disrupting and dismantling the domestic transportation and 
distribution cells of the organization, and seizing as many of the 
organization's assets as possible, whether those assets be in the form 
of bank accounts, real property, cash, drugs, or weapons. Finally, we 
prosecute the leaders of the cartels and their principal facilitators, 
locating, arresting, and extraditing them from abroad as necessary. In 
this effort, we coordinate closely with our Mexican counterparts to 
achieve the goal: destruction or weakening of the drug cartels to the 
point that they no longer pose a viable threat to U.S. interests and 
can be dealt with by Mexican law enforcement in conjunction with a 
strengthened judicial system and an improved legal framework for 
fighting organized crime.
    In most places, along the border and throughout the country, the 
Department of Justice-led, multi-agency Organized Crime Drug 
Enforcement Task Force (OCDETF) provides an effective mechanism for law 
enforcement agencies from within the Department of Justice, from 
elsewhere in the Federal Government (including the Departments of 
Homeland Security and Treasury), and State and local law enforcement, 
to combine with Federal prosecutors to form a ``virtual task force'' 
for the purpose of investigating and prosecuting a particular high-
value drug trafficking organization. In certain key locales, OCDETF has 
established actual, brick-and-mortar co-located Strike Forces, for the 
pursuit of the highest level traffickers of drugs, guns, and money. For 
instance, the Department uses the OCDETF Strike Force concept to target 
all the organized crime activities of the drug cartels--not just those 
crimes directly related to the drug trade. By further leveraging and 
coordinating the investigative expertise and jurisdiction of law 
enforcement agencies outside the drug enforcement area, the Department 
tasks the Strike Forces to disrupt and dismantle every area of the 
cartels' infrastructures and undermine their ability to operate 
successfully in any illegal activity.
    On a local level, each Strike Force co-locates law enforcement 
resources that are supplemented by one or more on-site Assistant United 
States Attorneys. Working through the Strike Force structure, 
specifically the co-location and intensive and early prosecutorial 
involvement, ensures that the Department capitalizes upon the proven 
synergy of these Strike Forces to maximize the effectiveness of long-
term investigations of these organizations. The synergy created by co-
locating the diverse expertise of Federal, State, local, and tribal law 
enforcement agencies with prosecutors from the U.S. Attorney's Office, 
has had demonstrable success against major criminal organizations 
operating throughout the country. It is for this reason that the 
Attorney General and Deputy Attorney General make use of the 
flexibility to call upon and leverage the resources of the already 
successful multi-agency task forces around the country, including the 
OCDETF Strike Forces, High Intensity Drug Trafficking Area (HIDTA) Task 
Forces, DEA task force groups, FBI Safe Streets Task Forces, FBI Border 
Corruption Task Forces, FBI Hybrid Task Forces, ATF Violent Crime 
Impact Teams (VCITs) and ATF Gunrunner Impact (GRIT) Teams, drawing 
upon the expertise of all of the agencies that contribute to them.
    It is for this reason that the Obama administration secured an 
additional $600 million in supplemental funding for Southwest border 
enforcement, including $196 million for the Department of Justice. This 
money will be used to fund the most-effective, intelligence-driven law 
enforcement and prosecutorial initiatives focused specifically on the 
violence created by the cartels. For example, the supplemental funding 
allows ATF to deploy seven new Gunrunner Impact Teams--community 
focused initiatives that target and disrupt the illegal flow of 
firearms across the border into Mexico; it supports the creation of 
five new FBI hybrid teams--which target kidnapping and violent crime; 
as well as additional DEA analysts, U.S. Marshals deputies, and 
prosecutors.
    These additional resources will bolster a number of enhancements to 
U.S. civilian law enforcement efforts in the Southwest border region to 
ensure that the United States is doing all that it can to safeguard the 
population there and deter illegal flows in both directions across that 
border. The Department of Justice's key recent enhancement efforts 
include:
  --Two new DEA Southwest Border Enforcement Groups created in El Paso 
        and Phoenix and 25 new DEA intelligence analyst positions added 
        to key cities;
  --The deployment of two FBI Border Corruption Task Forces in Del Rio 
        and Houston;
  --A surge of ATF agents to Arizona to target gun trafficking to 
        Mexico;
  --Increased funding through the OCDETF Program to support targeted 
        Southwest border investigations and prosecutions through its 
        co-located Strike Forces, increasing the presence of ATF, FBI, 
        USMS, and Assistant U.S. Attorneys in those Strike Forces as 
        well as providing needed operational funding, and, 
        additionally, to hire 41 new OCDETF prosecutors to implement 
        the U.S. Attorneys' Offices' Southwest border Prosecutorial 
        Initiative;
  --Two hundred new U.S. Marshal Service positions, including Deputy 
        U.S. Marshals and Asset Forfeiture Criminal Investigators at 
        the Southwest border to increase fugitive apprehension and 
        cross border violent crime response; to identify and seize the 
        financial assets of the cartels; to increase court security and 
        prisoner operations; and to investigate and mitigate security 
        threats and improve security awareness for judiciary and other 
        court personnel;
  --The hiring of nearly 50 additional Department of Justice attorneys 
        to prosecute drug and arms trafficking and bulk cash smuggling 
        by the Mexican cartels, as well as the addition of five 
        Department of Justice attorneys to focus solely on extradition 
        requests from Mexico;
  --Planned expansion of the El Paso Intelligence Center (EPIC) to 
        include additional staffing to collect, analyze and disseminate 
        intelligence and support law enforcement operations against a 
        broad array of transnational threats.
  --Increased cooperation with United States and Mexican law 
        enforcement to target money laundering and bulk cash smuggling, 
        including $50 million in Department of Justice grants to 
        Federal, State, and local law enforcement and the hiring of a 
        Department prosecutor dedicated exclusively to targeting money 
        laundering cases in and to Mexico;
  --The resumption of the Department's asset-sharing of forfeited 
        proceeds with the Mexican Government as a result of successful 
        bi-lateral criminal investigations; and
  --Enhanced U.S. forensic analysis and support for Mexican 
        prosecutions of drug traffickers.
    The safety of these border communities--and indeed, the impact on 
cities throughout the United States--remains of paramount importance to 
the Department of Justice. We look forward to partnering with Congress 
to ensure that we can best contain and curtail the wave of violence 
spreading throughout the border communities in Mexico.
    Question. How is the Department working with the Mexican Government 
to dismantle these violent cartels?
    Answer. The Department of Justice is working aggressively in 
partnership with the Government of Mexico on a number of fronts to 
dismantle violent Mexican drug cartels through a two-prong strategy 
that focuses on advancing the rule of law in Mexico, as well as 
criminal investigations and prosecutions. The two sides of our work are 
vital to disrupting and dismantling the cartels.

                CRIMINAL INVESTIGATIONS AND PROSECUTIONS

    The Department of Justice's focus on criminal investigations and 
prosecutions includes U.S. based efforts targeting the cartels; work in 
partnership with our Mexican counterparts; as well as extradition of 
many of the worst criminals who have fled to Mexico to avoid 
prosecution in the United States.
    The Department's Strategy for Combating the Mexican Cartels, issued 
by the Attorney General in January 2010, is premised on the notion that 
a large share of the violence, drug trafficking, and other criminal 
activity occurring along the Southwest border is perpetrated by a 
relatively small number of hierarchical criminal organizations. The 
Department believes that the most effective mechanism to attack those 
organizations is the use of intelligence-driven, prosecutor-led, multi-
agency task forces, that simultaneously attack all levels of, and all 
criminal activities of, the operations of the organizations. The 
Department's Strategy is executed through such task forces, with the 
Organized Crime Drug Enforcement Task Forces (OCDETF) Program and the 
Special Operations Division (SOD) serving the primary coordinating 
functions.
    The key objectives of the Department's Strategy are to:
  --Increase the safety and security of U.S. citizens throughout the 
        United States by enforcing violations of Federal law that have 
        a particular nexus to the threats posed by the Mexican Cartels, 
        i.e. drug trafficking, money laundering and bulk cash 
        smuggling, firearms trafficking, and corruption.
  --Reduce the flow of narcotics and other contraband entering the 
        United States.
  --Reduce the flow of illegal weapons, ammunition, explosives, and 
        currency exiting the United States and entering Mexico.
  --Strengthen Mexico's operational capacities and enhance its law 
        enforcement institutions.
  --Increase bilateral cooperation between Mexico and the United States 
        on fugitive capture and extradition activities.
  --Increase intelligence and information sharing to achieve focused 
        targeting of the most significant criminal organizations.
  --Improve case building through interagency coordination, leveraging 
        the expertise and authority of each investigative and 
        prosecutorial agency.
  --Maximize the effectiveness of prosecution by locating, arresting, 
        extraditing, and trying all levels, including most importantly 
        the leadership, of these criminal organizations, and disrupting 
        and dismantling the organizations' domestic transportation and 
        distribution cells.
  --Coordinate enhanced enforcement initiatives to address 
        ``downstream'' impacts on judicial security, court and 
        detention operations, prison management and fugitive 
        apprehension.
    The DEA-led, multi-agency Special Operations Division (SOD) targets 
the communications devices the criminal organizations' leaders use to 
communicate with each other. SOD actively supports multi-
jurisdictional, multi-national, and multi-agency electronic 
surveillance investigations, coordinating overlapping investigations 
and ensuring that tactical and operational intelligence is shared 
between law enforcement agencies. In addition, the OCDETF task force 
model, including in particular its co-located Strike Forces, is the 
Department's model platform for law enforcement agencies from within 
the Department of Justice, from elsewhere in the Federal Government, 
and State and local law enforcement to combine with Federal prosecutors 
to investigate and prosecute the largest and most dangerous Mexico-
based criminal organizations.
    For example, OCDETF Strike Forces have been key participants in 
some of the most successful SOD-coordinated operations responsible for 
striking some of the hardest blows against the major Mexican CPOTs, 
such as Operation Xcellerator, a multi-agency, multi-national effort 
beginning in May 2007 that targeted the Mexican drug trafficking 
organization known as the Sinaloa Cartel. This Cartel is responsible 
for bringing tons of cocaine into the United States through an 
extensive network of distribution cells in the United States and 
Canada. Through Operation Xcellerator, Federal law enforcement--along 
with law enforcement officials from the Governments of Mexico and 
Canada and State and local authorities in the United States--delivered 
a significant blow to the Sinaloa Cartel. In addition to the arrests of 
781 persons, authorities seized more than $61 million in U.S. currency, 
12,000 kilograms of cocaine, 1,200 pounds of methamphetamine, 17,000 
pounds of marijuana, 1.5 million Ecstasy pills, and other illegal 
drugs. Also significant was the seizure of 191 firearms, 156 vehicles, 
4 aircraft, and 3 maritime vessels.
    Similarly, Project Reckoning, announced in September 2008, was a 
15-month, SOD-coordinated OCDETF Strike Force operation that severely 
damaged the Gulf Cartel. It was one of the largest and most successful 
joint law enforcement efforts ever between the United States and 
Mexico. Project Reckoning resulted in 869 arrests in the United States 
and Mexico, plus the seizure of more than 17,000 kilograms of cocaine, 
82,000 pounds of marijuana, 1,000 pounds of methamphetamine, 960 
weapons, 324 vehicles, 6 maritime vessels, and $139 million in U.S. 
currency and other assets. Perhaps most importantly, Project Reckoning 
led to the indictment against the three top leaders of the Gulf Cartel.
    Project Coronado, announced in October 2009, was a 44-month SOD-
coordinated investigation involving multiple OCDETF Strike Forces that 
targeted the violent Mexican drug trafficking organization known as La 
Familia. Through Project Coronado, 1,254 persons were arrested in at 
least 19 States in the United States, and law enforcement authorities 
seized more than 2,000 kilograms of cocaine, 19,000 pounds of 
marijuana, 3,900 pounds of methamphetamine, 269 vehicles, 5 maritime 
vessels, 389 weapons, 5 clandestine drug labs, and more than $73 
million in U.S. currency and other assets.
    Finally, in the largest single strike to date against Mexican drug 
cartels, on June 9, 2010, 429 persons were arrested in 16 States as 
part of Project Deliverance, a 22-month, SOD-coordinated multi-agency 
investigation involving eight OCDETF Strike Forces that targeted the 
transportation infrastructure of Mexican drug trafficking organizations 
in the United States, especially along the Southwest border. More than 
3,000 agents and officers operated across the United States to make the 
arrests, seizing $5.8 million, 17 pounds of methamphetamine, 112 
kilograms of cocaine, 2,951 pounds of marijuana, 141 weapons and 85 
vehicles. During the entire course of the operation, Project 
Deliverance has led to the seizure of more than 74.1 tons of illegal 
drugs and has inflicted a debilitating blow to the network of shadow 
facilitators and transportation cells controlled by the major Mexican 
drug cartels. In addition to 2,266 arrests overall, Project Deliverance 
operations have resulted in the seizure of $154 million in currency and 
other financial assets, and 1,262 pounds of methamphetamine, 2.5 tons 
of cocaine, 1,410 pounds of heroin, 69 tons of marijuana, 501 weapons, 
and 527 vehicles.
    In addition to our U.S. based efforts, the Department participates 
actively in the broader U.S. Government effort to provide assistance to 
Mexican authorities to further their efforts to investigate, capture, 
and prosecute, or extradite to the United States for prosecution, 
leaders and other key members of Mexico's most dangerous and powerful 
drug cartels. The Department continues to conduct bilateral 
investigations with the Mexican Government, to coordinate the sharing 
of intelligence information that is beneficial to both Mexico and the 
United States and to provide training in investigations to Mexican law 
enforcement and prosecutors. We also are assisting the Mexican 
Government to establish drug enforcement institutions, such as a 
nationwide intelligence center focused on organized crime, including 
drug trafficking, and we are conducting training programs in a variety 
of subject areas that are discussed further below. These efforts 
include the establishment of a dedicated unit within our Office of 
International Affairs to handle evidence requests from Mexico, 
including requests pertaining to drug trafficking cases, as well as a 
unit assigned to work with Mexican officials on their requests for 
extradition from the United States.
    Finally, the Department of Justice is aggressively seeking 
extraditions of significant targets from Mexico for prosecution in the 
United States. Beginning only weeks after his inauguration in December 
2006, President Calderon began extraditing high-profile criminals to 
face criminal prosecution here, beginning with the notorious head of 
the Gulf Cartel, Osiel Cardenas-Guillen. The Calderon administration 
has since extradited several other significant drug traffickers, 
including large-scale marijuana trafficker Miguel Caro-Quintero (whose 
brother Rafael Caro-Quintero was prosecuted in Mexico for his role in 
the 1985 kidnapping, torture, and murder of DEA Special Agent Enrique 
Camarena), and Vicente Zambada-Niebla. In 2009, the United States saw a 
record number of extraditions from Mexico, culminating in 107 in 2009, 
up from 12 in 2000.

                       ADVANCING THE RULE OF LAW

    The Department is now also deeply involved in the rule of law work 
that Mexico has undertaken under the Merida Initiative, a multi-year 
program that aims to improve law enforcement capabilities to identify, 
disrupt, and dismantle transnational drug trafficking organizations and 
organized crime. We currently have a number of senior Federal 
prosecutors stationed in Mexico City to work on rule of law issues with 
their Mexican counterparts. Our work in Mexico runs the gamut from 
high-level advice on criminal code reform--as Mexico moves forward on 
its own decision to create a more adversarial system--to practical 
training on investigations and prosecutions. To date, working with U.S. 
Federal law enforcement agencies and the Department of State, we have 
trained over 5,500 individuals at all ranks--at the State and Federal 
level--and in the executive and judicial branches and are on target to 
train over 9,000 by the end of 2010.
    Mexican prosecutors, in turn, are working with our Department of 
Justice prosecutors on case development, evidence collection, trial 
advocacy, money laundering, and asset forfeiture. The Department of 
Justice and the U.S. Agency for International Development are training 
judges, prosecutors, and law schools on oral trials. We also have 
engaged in specialized training, such as offering a symposium on 
prosecuting complex crimes, training Mexican prosecutors and 
investigators on how to meet extradition challenges in the United 
States, and facilitating meetings between U.S. and Mexican prosecutors 
to more efficiently and effectively prosecute sex trafficking cases 
involving both countries. We are also partnering with law enforcement 
and prosecutors in Colombia and have sent Mexican prosecutors and law 
enforcement officers to train in tandem with their Colombian 
counterparts on code reform, strengthening internal affairs and 
corruption investigations, and creating effective witness protection 
programs. Through this work, our primary goal is to ensure that Mexico 
is a true partner in this fight.
    Question. What additional resources would you need to expand 
investigations and prosecutions along the Southwest border given the 
escalating violence?
    Answer. Funding provided in the 2010 Emergency Border Security 
Supplemental Appropriations bill will allow us to increase the level of 
investigations and prosecutions. With the $196 million provided, the 
Department will be able to surge Federal law enforcement officers to 
high crime areas in the Southwest border region by funding more than 
400 new positions and temporarily deploying up to 220 personnel. 
Specifically, Justice funding would increase the presence of Federal 
law enforcement in the Southwest border districts by adding seven ATF 
Gunrunner Teams, five FBI Hybrid Task Forces, additional DEA agents and 
Deputy U.S. Marshals, equipment, operational support, and additional 
attorneys and immigration judges. Justice funding also would support 
additional detention and incarceration costs for criminal aliens in 
coordination with DHS enforcement activities. In addition, the 
supplemental provides funding to support Mexican law enforcement 
operations with ballistic analysis, DNA analysis, information sharing, 
technical capabilities, and technical assistance.

              DHS-DOJ DISPARITY ALONG THE SOUTHWEST BORDER

    Question. On April 19, Senators McCain and Kyl released a 10-point 
plan to increase security along the Southwest border. The plan proposes 
adding resources to the Department of Homeland Security, particularly 
Border Patrol, but not for Justice Department components that share 
many of the border protection responsibilities.
    Many Southwest border districts are already operating at capacity, 
particularly the Marshals Service and Office of Detention Trustee, in 
terms of space to hold detainees. Adding more resources without 
balancing the request to include DOJ agencies could lead Southwest 
border districts to the breaking point.
    Does the administration believe there is parity between DHS and DOJ 
along the Southwest border?
    Answer. The administration is working to ensure that there is 
parity between DHS and DOJ on the Southwest border. Any increase in 
Department of Homeland Security (DHS) enforcement activity has a 
``downstream'' impact on workload and resource requirements that affect 
the rest of the criminal justice system, including both DOJ and the 
Judiciary. A principal area of concern along the Southwest border is 
the existing capacity of the prosecutorial, judicial, detention and 
incarceration components to respond to increased efforts by law 
enforcement. Currently, the annual number of apprehensions outpace: 
prosecutorial capacity for criminal cases involving illegal 
immigration, drug trafficking, border violence and gangs; litigation 
and adjudication capacity for immigration cases moving through the 
Federal courts; detention capacity for the criminally accused as they 
move through the criminal justice system; and incarceration capacity 
for the criminally convicted after they are sentenced.
    Additional funding directed at certain critical chokepoints could 
make matters worse if it is provided without considering the entire 
scope of Southwest border requirements. These chokepoints include: 
limits in human capital, training and facilities for new personnel 
(both operational and administrative); and infrastructure and other 
physical constraints along the Southwest border, particularly USMS 
cellblock/courthouse space, detention/incarceration beds, and tactical 
support resources. Outside of the DOJ, the limited number of 
courtrooms, judges, magistrates, and other members of the judiciary 
further restrict the Federal Government's ability to increase 
prosecutorial caseload and process larger numbers of offenders in the 
justice system, despite increases in the scope and scale of criminal 
threats along the Southwest border.
    Question. How would DOJ component agencies (Marshals Service, 
Office of Detention Trustee, U.S. Attorneys' office, etc.) be affected 
if Operation Streamline is expanded to all districts along the 
Southwest border?
    Answer. The capacity of the criminal justice system in the 
Southwest border region presents a very real impediment that needs to 
be addressed before Operation Streamline can be expanded beyond its 
present scope. These impediments include the physical constraints of 
courthouses along the border, including the number of defendants that 
can be housed and processed in a given day; the number of judges, 
magistrates, and other judicial personnel; and the number of detention 
beds where defendants can be housed in reasonable proximity to a given 
courthouse. Presently, courthouse structures in the region are 
inadequate to process large numbers of additional defendants. Moreover, 
USMS and USAO would need additional resources in order to process an 
increase in defendants. Even increasing the number of Deputy U.S. 
Marshals and Assistant U.S. Attorneys at courthouses (particularly in 
Tucson, Arizona and San Diego, California), would be insufficient to 
process the increase in defendants likely to arise from expanding 
Operation Streamline.
    Increased Department of Homeland Security (DHS) enforcement 
activity in the Southwest border region would have a ``downstream 
impact'' on workload and resource requirements in other ways as well, 
affecting the rest of the criminal justice system, including DOJ and 
the Administrative Offices of the U.S. Courts (AOUSC). For example, 
felony drug arrests and subsequent additional investigations would 
likely increase, resulting in the need for additional DEA agents and 
support staff, and the need for additional attorney and intelligence 
analyst personnel deployed as part of the Organized Crime Drug 
Enforcement Task Forces Program. Further, additional ATF personnel 
would be needed to address gun trafficking arrests and investigations. 
In addition, Operation Streamline would increase the fugitive warrant 
workload, which in turn further impacts the USMS. The workload of other 
parts of the system, including the Executive Office for Immigration 
Review and the Civil Division's Office of Immigration Litigation, would 
also increase. As stated previously, AOUSC would likely require 
additional courthouse space, judges, magistrates, and other judicial 
personnel to accommodate pressures resulting from the increased DOJ 
investigative and prosecutorial workload.
    Question. Can DOJ provide this subcommittee with a detailed report 
about the resources needed if Operation Streamline was expanded to all 
Southwest border districts?
    Answer. Operation Streamline has been viewed as a consequence-based 
prosecution initiative in which many U.S. Customs and Border Protection 
(CBP) apprehensions are criminally prosecuted. Operation Streamline is 
currently in place in some form in several sectors in the Southwest 
border region. However, even in those sectors where Operation 
Streamline is in place, many of the programs have a ``daily cap'' in 
terms of prosecutions based on resource limitations of Department 
components and Federal courts. For example, although CBP arrests 
several hundred individuals each day in the Tucson, Arizona Sector, 
only 70 cases per day are prosecuted under the auspices of Operation 
Streamline. This number is capped at 70 cases due to resource 
limitations of the U.S. Marshals Service cellblock and personnel, 
courtroom space, availability of court personnel, and detention bed 
space.
    In order to implement Operation Streamline across the entire 
Southwest border region in a true zero-tolerance form, Department 
components and the Federal court system would need additional 
resources, such as:
  --Additional personnel would be needed by the U.S. Marshals Service, 
        the U.S. Attorneys Offices, and the courts.
  --Additional resources for the Federal Prisoner Detention Fund would 
        also be required.
  --Additional construction funding would be needed to exponentially 
        enlarge cellblock space in all Southwest border U.S. 
        Courthouses.
    At this time, the Department cannot provide a detailed report about 
the resources needed Government-wide if Operation Streamline was 
expanded to all Southwest border districts. Many of the Department cost 
inputs fluctuate. For example, detention costs are dependent on both 
detainee population levels and per diem jail rates. These levels and 
the average per diem jail rate would fluctuate as the immigration 
workload shifted to other border zones with less stringent immigration 
enforcement policies. Other factors impacting costs, also unknown, 
include time in detention (which is at the discretion of the courts; 
average sentence terms from Operation Streamline cases have not been 
uniform across Operation Streamline locations) availability of bed 
space, as well as courthouse and cellblock space limitations.
    Funding provided in the 2010 Emergency Border Security Supplemental 
Appropriations bill will allow us to expand our investigations and 
prosecutions. With the $196 million provided, the Department will be 
able to increase the presence of Federal law enforcement in the 
Southwest border districts by adding seven ATF Gunrunner Teams, five 
FBI Hybrid Task Forces, additional DEA agents and Deputy U.S. Marshals, 
equipment, operational support, and additional attorneys and 
immigration judges and to support additional detention and 
incarceration costs for criminal aliens in coordination with DHS 
enforcement activities.

               AFGHANISTAN--FIGHTING NARCO-TERRORISM--DEA

    Question. The Drug Enforcement Administration plays a critical role 
in combating narco-terrorism in Afghanistan. It is helping the Afghan 
Government establish drug enforcement institutions and capabilities 
needed to enforce the rule of law. This means successfully identifying, 
disrupting, and dismantling major drug trafficking organizations that 
fuel the insurgency and profit from the narco-economy.
    Afghanistan's heroin production is a world-wide threat, accounting 
for 93 percent of global supply. As DEA expands operations in 
Afghanistan, the focus will be on high value targets, including members 
of the Taliban, who use the heroin trade to fund insurgents' attacks on 
U.S. and coalition military forces.
    What is DEA's current role in Afghanistan? How do you expect those 
operations to be expanded in the future?
    Answer. DEA supports U.S. national security policy goals in 
Afghanistan through close partnership with the Office of National Drug 
Control Policy, the Departments of State and Defense and other elements 
of the interagency to carry out the U.S. Counternarcotics Strategy for 
Afghanistan. DEA works directly, bilaterally, and multilaterally with 
host nation and regional counterparts to identify, investigate, and 
bring to justice the most significant drug traffickers in Afghanistan 
and the region.
    The Taliban and other insurgent groups continue to receive 
substantial funding from the Afghan and regional drug trade. Their 
monies fuel attacks on U.S. and coalition military personnel and 
interests. The drug trade is also the major driver of corruption in 
Afghanistan, and distorts the legal economy. DEA directly supports 
Afghan counternarcotics efforts in the following ways:
  --Advisory support for host nation counterparts through enforcement 
        groups in Country and Resident offices;
  --Intelligence Support;
  --Financial Investigations--DEA leads the interagency Afghan Threat 
        Finance Cell (ATFC);
  --Sponsorship of a Sensitive Investigative Unit (SIU);
  --Communications Intercept Program--Technical Investigative Unit 
        (TIU);
  --Advice on legislation needed to enforce drug laws; and
  --DEA's Foreign-deployed Advisory Support Team (FAST) partners with 
        Afghan Counternarcotics Police (CNP-A) and U.S. Special Forces 
        to conduct high-risk missions in southern Afghanistan to 
        disrupt narco-insurgent networks, deny revenue and implement 
        the Rule of Law.
    As DEA completes its expansion in Afghanistan to nearly 100 
personnel, our investigations will extend outward from Kabul to key 
provinces of Afghanistan. DEA's five enforcement groups will operate 
jointly with their counterparts in the CNPA's vetted units from forward 
operating bases and will continue to pursue investigative and 
interdiction activities in support of the U.S. Counternarcotics 
Strategy.
    Question. How are DEA's activities coordinated with those of the 
U.S. and Afghan military?
    Answer. DEA coordinates with the Departments of State and Defense 
as a member of the Ambassador's Country Team, through close cooperation 
with the Department of State Bureau for International Narcotics and Law 
Enforcement Affairs (INL) and representation in the Interagency 
Operations Coordination Center (IOCC), and by direct liaison with U.S. 
Forces--Afghanistan (USFOR-A). A key point of coordination is the list 
that the interagency (with DEA participation) has compiled of Afghan 
High Value Targets (HVTs)--the most significant traffickers in 
Afghanistan. HVT designations focus DEA's investigations and alert U.S. 
military personnel to the value of such individuals. At present DEA has 
identified 13 HVTs, all of whom have ties to, or are members of, the 
Taliban. The HVT list is constantly reviewed and updated by DEA in 
coordination with other U.S. and Coalition elements. DEA plans and 
executes civilian-military operations supporting the USFOR-A's campaign 
strategy together with subordinate military units under this command. 
DEA does this in Kabul through the IOCC and in southern and western 
Afghanistan through direct liaison at Regional Command South, the I 
Marine Expeditionary Force (Forward)(I MEF (Fwd)) in Helmand, the 
Combined Joint Special Operations Task Force Afghanistan (CJSOTF-A), 
and through the Combined Joint Inter-Agency Task Force Nexus (CJIATF-N) 
in Kandahar, Afghanistan.
    Question. DEA plays the lead role in investigating and alerting 
U.S. military about High Value Targets and has already identified 13 
such individuals who are members of the Taliban or have close ties to 
the Taliban. Does DEA have the resources it needs to continue to track 
down these high value targets?
    Answer. DEA's counter-narcotics activities in Afghanistan remain 
closely linked to the overall Afghan security situation and capacity of 
the Counternarcotics Police of Afghanistan. As these improve, so will 
DEA's ability to impact high value drug traffickers.
    DEA's Afghanistan expansion established the staffing and resources 
needed to track down HVTs. DEA fully obligated the fiscal year 2009 
supplemental expansion funding transferred from the Department of State 
prior to its expiration on September 30, 2010. In September 2010, the 
State Department transferred $8.5 million to DEA to support Afghanistan 
operations during the first quarter of fiscal year 2011. Continued 
funding of DEA's operations in Afghanistan in fiscal year 2011 will 
ensure that this effort continues without interruption.

         RACHAEL WILSON CASE--PUBLIC SAFETY OFFICERS' BENEFITS

    Question. In February 2007, Baltimore City Fire Cadet Rachael 
Wilson died tragically in a live-burn training exercise. Two and a half 
years later, her children were denied compensation under DOJ's Public 
Safety Officers' Benefits program. Since then, the family filed a 
timely appeal, which I asked be heard and decided expeditiously. The 
appeal was heard on January 20, 2010, and the independent hearing 
officer asked for significant additional information, which was 
provided by February 5. Now, more than 60 days after providing that 
information and 90 days after the appeal hearing, the family has yet to 
receive any communications from the hearing examiner, despite repeated 
requests by the family's attorney and my office.
    This family has already suffered so much and endured too many 
delays. They deserve a timely response from the Justice Department--
something that they have never received at any point throughout this 
process. It is appalling and unacceptable to treat a family in such a 
cavalier and unresponsive manner. Tragic incidents like Ms. Wilson's 
death should not be met with endless delays and outright bureaucratic 
hostility.
    What is the status of this claim? What is the Justice Department 
doing to get a determination on this appeal for Ms. Wilson's family?
    Answer. On October 22, 2010, the Public Safety Officers' Benefits 
(PSOB) Office provided the family of fallen Fire Cadet Rachael Wilson 
with notice that the claim had been approved.
    Question. What are you doing to address the Office of Justice 
Programs' (OJP) ability to promptly and efficiently process claims that 
are on appeal?
    What problems does OJP face when determining whether or not to 
award benefits on appeal, and how do those add to delays?
    Are the difficulties in processing claims and making determinations 
for awards in the appeals process small, unrelated issues that come up 
on a case by case basis, or are there signs of larger systematic 
issues?
    Answer. We are fully committed to finding new ways to increase the 
efficiency and effectiveness of the PSOB appeals process. In fiscal 
year 2010, the PSOB Office brought on-board two new paralegals to 
increase the administrative support for PSOB appeals; retained a cadre 
of medical reviewers to conduct medical reviews nationwide; and have 
plans underway to add additional hearing officers, to prevent any wait 
time for the assignment of hearing officers to new appeals.
    A hearing officer's consideration of a PSOB claim is de novo, 
allowing survivors the opportunity to have a hearing and submit new 
information that may not have been available when the claim was 
determined by the PSOB Office. Delays often arise due to claimants' 
difficulty in obtaining additional information from agencies and 
medical entities; in many cases, limits on claimants' availability for 
hearings and their challenges encountered in obtaining counsel also 
cause delays in the process. For these reasons, the hearing officers 
work together with the claimants to try to move the claim forward as 
expeditiously as possible, using subpoena power where necessary to help 
obtain information that will assist in determining the claim. When a 
hearing officer determines that the claim should be approved, the BJA 
Director reviews the approval determination and, if finding no cause to 
decide it differently, approves it without delay.
    Difficulties in making determinations for PSOB benefits in the 
appeals process arise on a case-by-case basis, based on the unique 
facts and complexities of each case, and are not inherent to the 
process. Many cases move very quickly, while others take longer to 
resolve.
    Question. Independent contractors are routinely hired by the 
Department of Justice as Hearing Officers to review claims that were 
initially denied and the claimant chooses to appeal, such as the Wilson 
case.
    What criteria does OJP use in hiring those contractors?
    What oversight and review do independent hearing officers receive 
from the Justice Department?
    Answer. By regulation, hearing officers ``may be appointed from 
time to time by the [BJA] Director, to remain on the roster of such 
Officers at his pleasure.'' The BJA Director appoints qualified 
individuals who have the requisite skills to fact-find and analyze 
relevant information and to apply the law faithfully and fairly; 
understands the PSOB program and the public safety field; and who have 
the capacity to work sensitively and compassionately with survivors and 
injured disability claimants.
    All PSOB hearing officers are assigned an attorney from OJP's 
Office of the General Counsel who serves as a legal advisor to provide 
advice on all questions of law relating to the appeal. The PSOB Office 
and the Office of the General Counsel together monitor the progress and 
track the workflow of the appeals, reassigning cases as necessary and 
providing additional administrative support, to help ensure timely 
processing of the appeals. The hearing officers submit draft 
determinations for review to the legal advisors to check for legal 
accuracy. The hearing officers then submit their final determinations 
to the BJA Director, the PSOB Office, and OJP's General Counsel. If the 
hearing officer denies the claim, not only may the claimant appeal to 
the BJA Director, but the BJA Director, on his own initiative, may 
review the entire claim and issue a final agency decision. If the 
hearing officer approves the claim, this triggers a mandatory review of 
the determination by the BJA Director, who may leave the hearing 
officer's determination undisturbed, or issue his own decision.

                        CURBING LAVISH SPENDING

    Question. Under the previous administration, we were shocked and 
outraged to learn of lavish spending at the Justice Department. There 
was one instance when the Department spent $1.4 million to host a 
single conference, and another report of spending $4 on Swedish 
meatballs.
    In the wake of such extravagant spending, Senator Shelby and I 
required the Justice Department to create uniform guidelines on 
conference spending to prevent further debacles at the Justice 
Department. This requirement was right in line with the inspector 
general's recommendation that internal checks were needed at the 
Department to avoid such irresponsible spending.
    Attorney General Holder, under your leadership, what steps have you 
taken to ensure that the Justice Department is following those new 
requirements to avoid lavish spending and cost overruns so that the 
American people's tax dollars are not being squandered?
    Answer. The Justice Management Division issued policy guidance in 
April 2008 on Conference Planning, Conference Cost Reporting, and 
Approvals to Use Non-Federal Facilities. The Assistant Attorney General 
for Administration issued a memorandum to the Department's Component 
Heads in June 2008 and the Deputy Attorney General issued a similar 
memo in May 2009 highlighting the importance of fiscal responsibilities 
with respect to conferences sponsored by the Department. The following 
bullets were included in the Deputy Attorney General's memorandum.
  --Conference locations are to be selected based on business need and 
        minimization of travel and other costs.
  --Locations and accommodations should not be selected based on their 
        lavish or resort qualities. Component Heads are required to 
        submit written justification if the facility gives the 
        appearance of being lavish or is a resort location. The 
        Component Head approval cannot be re-delegated.
  --Components must restrict the number of people traveling to 
        conferences to the minimum necessary to accomplish the official 
        purpose.
  --Ensure the selected lodging location is within per diem rates.
  --Meals should be provided on an infrequent basis and only as a 
        working meal when necessary to accomplish the purpose of the 
        event. Refreshments should be kept to an absolute minimum. 
        Grant making organizations should instruct grant recipients 
        that Department grant funding is not to be used for lavish 
        food, refreshments, or entertainment purposes.
  --Ensure that travelers are aware of their responsibility to reduce 
        per diem when meals are provided at the conference.
  --Ensure that reporting of costs for all non-Federal facility events 
        and conferences are submitted by Component Heads no later than 
        45 days following the close of each fiscal quarter.
    In addition, the Attorney General is required to submit a report of 
conferences held by the Department to the inspector general. The report 
is submitted on a quarterly basis. The Office of the Inspector General 
recently initiated an audit of the Department's fiscal year 2008 and 
2009 Conference Reports.
    Question. American families are tightening their belts in this 
tough economy. What are other ways that the Department of Justice can 
tighten its belt and clean up waste, fraud and abuse?
    Answer. The Attorney General, in June 2009, issued a call for ideas 
to reduce Department costs and improve efficiency, and operations. 
Sixteen savings and efficiency initiatives were identified, 12 
initiatives for immediate implementation and 4 initiatives that 
required additional review and are in the process of being phased in 
over time. The 16 initiatives address a range of efficiencies such as 
contract consolidation, leveraging purchasing power, reduction of 
travel, and centralizing IT functions. The identified initiatives 
resulted in saving $4.7 million in fiscal year 2009. Through the third 
quarter of fiscal year 2010, 13 initiatives have been implemented and 
the Department recorded a savings of approximately $20.5 million for a 
total to-date of $25.2 million (for fiscal year 2009 and fiscal year 
2010 combined), and we are on track to meet our fiscal year 2010 
savings targets. Most importantly, these savings ideas have given us a 
basis for implementing a broader, more formal savings program across 
the Department.
    In July 2010 the Attorney General's Advisory Council for Savings 
and Efficiencies (SAVE Council) was created. The SAVE Council will 
institutionalize the Department's early savings efforts and pave the 
way for the development of future on-going initiatives that will be 
incorporated into departmental budgets and strategic plans. The SAVE 
Council will be responsible for developing and reviewing Department-
wide savings and efficiency initiatives and monitoring component 
progress to ensure positive results for cost savings, cost avoidance 
and efficiencies. The goals of the SAVE Council are to achieve real and 
sustainable Justice-wide savings and efficiencies.

                    PRISONS--THOMSON PRISON FACILITY

    Question. The President's fiscal year 2011 budget request for the 
Federal Prison System includes $170 million for the BOP to acquire and 
renovate the Thomson Correctional Center in Illinois. An additional $67 
million is requested for activation costs to get the facility up and 
running. I have visited BOP facilities and I know firsthand the 
terrible crowding situation in U.S. prisons.
    I appreciate and support our Federal investigators and prosecutors 
who are so very successful. However, the end result is that the U.S. 
Federal prison inmate population continues to grow exponentially. In 
fact, growth in that population has far outpaced growth in prison 
capacity and reached grave proportions.
    What are your plans for the immediate future--to relieve dangerous 
overcrowding now--and in fiscal year 2011 and beyond?
    Answer. The fiscal year 2010 appropriation provided funds for the 
BOP to begin activating two medium security institutions, Federal 
Correctional Institution (FCI) Mendota and FCI McDowell, which will 
expand rated capacity by 2,432 beds. The fiscal year 2011 President's 
budget requests new resources to acquire, renovate and begin activating 
the Thomson facility (1,600 high security cells) and begin activating 
FCI Berlin (1,280 beds).
    I also convened a Sentencing and Corrections Working Group 
comprised of multiple bureaus and offices to identify alternatives to 
incarceration and reduce recidivism. The working group recommendations 
are being discussed within the Department. I look forward to sharing 
these ideas with Members of Congress and working together to reduce 
crowding over rated capacity in the Federal Prison System.
    Question. How will purchasing the Thomson facility address BOP 
crowding?
    Answer. The number of administrative maximum (ADX or ``super max'') 
beds available in the Federal prison system has not increased since ADX 
Florence was activated in 1994. Acquisition of the Thomson facility, 
which is significantly larger than ADX Florence, will expand BOP's 
capacity by up to 1,600 high security cells. The acquisition will allow 
BOP to confine ADX and Special Management Unit (SMU) inmates at a lower 
cost and within a shorter timeframe than building a new facility. High 
security facilities are currently 53 percent crowded over rated 
capacity. The Thomson facility is projected to reduce high security 
crowding to 46 percent over rated capacity. Without this acquisition, 
crowding in high security facilities is projected to rise to 57 
percent.
    Question. What role--if any--will the Defense Department and 
Guantanamo detainees have if the BOP acquires and activates this high 
security facility?
    Answer. The fiscal year 2011 President's budget includes $170 
million for the BOP to acquire and modify the Thompson Correctional 
Center (Thomson, Illinois) for high security Federal prison use. The 
priority is to reduce crowding over rated capacity in BOP facilities by 
acquiring and renovating the Thomson facility, independent of the 
Defense Department's (DOD) interests or goals. Thomson expands BOP's 
capacity by 1,600 high security cells and would reduce crowding over 
rated capacity in high security facilities from 53 percent (as of 
August 12, 2010) to 46 percent. BOP will be responsible for all inmates 
designated to the Bureau.
    Acquisition and activation of the Thomson facility will reduce the 
BOP's shortage of high security, maximum custody cell space. If it is 
determined that a portion of the facility is required for detainee 
management purposes, then the BOP would operate the Thomson facility as 
a high-security administrative maximum prison with Federal inmates and 
make a portion available to the Department of Defense (DOD) to house a 
limited number of detainees. DOD would also be solely responsible for 
the detainees housed in its separate portion of the facility and DOD 
would be responsible for any additional security upgrades to the 
institution that it deemed necessary. However, the facility would be 
owned by the BOP, and the Department would intend to pay the 
acquisition costs.

                         PRISONS--OVERCROWDING

    Question. I understand that you would intend to house at Thomson 
general population high security inmates, some supermax inmates, and 
inmates designated for special management units. I am also concerned 
about the current crowding rate at high security institutions. By the 
end of 2011, it is expected there will be 228,000 inmates incarcerated 
in BOP institutions nationwide.
    What is the current crowding rate in Federal prisons?
    Answer. As of August, 12, 2010, system-wide crowding over rated 
capacity was 37 percent in facilities operated by BOP. By security 
level, BOP facilities are crowded over rated capacity by 53 percent at 
the high security level, 46 percent at the medium security level, and 
37 percent at the low security level.
    Question. What does it mean for staff and inmate safety?
    Answer. As of August 12, 2010, crowding in BOP high security 
institutions was 53 percent over rated capacity. High security 
institutions confine the most violent offenders and crowded conditions 
increase safety and security risks for staff, inmates, and the 
community. If the BOP acquires the Thomson facility and begins the 
activation process during fiscal year 2011, the crowding rate for high 
security institutions is projected to decrease to 46 percent over rated 
capacity. Without Thomson or a facility of similar capacity, crowding 
in BOP high security institutions is projected to increase to 57 
percent.
    Question. Can you help the subcommittee to understand the impact 
that would be made on this problem by having the additional bed space 
at Thomson or elsewhere?
    Answer. The number of administrative maximum (ADX or ``super max'') 
beds available in the Federal prison system has not increased since ADX 
Florence was activated in 1994. Acquisition of the Thomson facility, 
which is significantly larger than ADX Florence, will expand the BOP's 
capacity by up to 1,600 high security cells. The acquisition will allow 
BOP to confine ADX and Special Management Unit (SMU) inmates at a lower 
cost and within a shorter timeframe than building a new facility. High 
security facilities are currently 53 percent crowded over rated 
capacity. The Thomson facility is projected to reduce high security 
crowding to 46 percent over rated capacity. Without this acquisition, 
crowding in high security facilities is projected to rise to 57 
percent.

                         PRISONS--UNDERSTAFFING

    Question. The administration and the Department continued efforts 
to address the operating needs of the Federal prison system. The fiscal 
year 2011 President's budget's request resources for the Bureau of 
Prisons (BOP) to fill 1,200 vacant base positions, addressing BOP 
staffing needs. Increasing the number of staff in Federal prisons will 
improve the inmate to staff ratio, which will result in better 
supervision, safety, and programming of the inmates. Further, the 
fiscal year 2011 President's budget also requests an additional 1,316 
new positions (including 652 correctional officers). For context, 
during fiscal year 2009, BOP achieved a net increase of 775 staff 
across the agency. The fiscal year 2010 operating plan will allow BOP 
to increase the total number of staff on-board this year by about 925, 
including staffing for new institutions.
    The President's fiscal year 2011 request for BOP provides funding 
to hire an additional 1,200 correctional staff, including 652 
correctional officers, in BOP facilities. Does this increase addressing 
the shortfall in staffing?
    Answer. The President's budget request contains half year funding 
for an additional 1,200 correctional workers at existing institutions. 
Yes, these positions are meant to increase staffing in the BOP 
facilities.
    Question. Understaffing of prisons has put prison guards and 
inmates at great risk and the Bureau of Prisons needs to hire 
additional prison guards. The number of Federal correctional officers 
who work in BOP prisons, however, is failing to keep pace with this 
tremendous growth in the prison inmate population.
    The BOP system is currently staffed at an 86.6 percent level, as 
contrasted with the 95 percent staffing levels in the mid-1990s. BOP 
believes to be the minimum staffing level for maintaining safety and 
security should not be less than 90 percent. The current BOP inmate-to-
staff ratio is 5 inmates to 1 staff member, versus the 1997 inmate-to-
staff ratio of 3.6 to 1.
    In the last year, there have been numerous assaults on prison 
guards, including an incident at a BOP facility when an inmate stabbed 
an officer 7 times. What steps are you taking to protect officers in 
BOP facilities?
    Answer. BOP has taken a number of steps to improve security at BOP 
facilities, including: (1) increased staffing on evenings and weekends; 
(2) enhanced emergency response procedures and training of all staff to 
ensure more rapid responses to emergencies; (3) quicker access to less-
lethal munitions; and (4) improved internal controls for inmate 
movement.
    High security institutions were authorized two additional staff for 
evening watch and day watch shifts on weekends and Federal holidays at 
penitentiaries. The staff members assigned to these posts function as 
rovers and provide additional assistance to housing unit staff. 
Therefore, two additional evening positions were incorporated into the 
roster as well as two positions on the weekends and holidays.
    Question. The Department of Justice must award billions of dollars 
in State and local law enforcement grants each year. This year, we 
expect it to administer $3.5 billion in grants alone. We must make sure 
the Office of Justice Programs, the COPS Office, and the Office on 
Violence Against Women have sufficient resources to get grants out the 
door and monitor how those funds are spent.
    Given the dramatic increase in grant applications and funding 
available for State and local law enforcement activities in recent 
years, what steps has the Justice Department taken to improve 
accountability of taxpayer dollars when processing and awarding grants?
    Answer. The Department is committed to improving the grant 
management process. Each of the Department's grant-making components 
began implementing the OIG's recommendations with their fiscal year 
2009 and Recovery Act grants. As the inspector general noted in his 
November 13, 2009 report of the Department's Top Management and 
Performance Challenges, ``[t]he Department has taken positive steps,'' 
and ``is demonstrating a commitment to improving the grant management 
process.''
    Fairness, transparency, and accountability in the review, selection 
and administration of the OJP grant programs are among the Department's 
highest priorities. OJP is committed to ensuring that grant award 
decisions are transparent and that it is accountable for effective 
grant management.
    Prior to making new grant awards, OJP considers whether grantees 
have appropriately managed past grant award funding. OJP's Office of 
Audit, Assessment, and Management (OAAM) administers a DOJ-wide high-
risk grantee program, working collaboratively with OJP bureaus and 
program offices, the Office on Violence Against Women (OVW), and the 
Community Oriented Policing Services (COPS). Prior to making new grant 
awards to high-risk grantees, OJP determines whether additional special 
conditions and oversight may be needed based on the grantees' 
designated level of risk, including whether the grantee used the funds 
appropriately in the past.
    OJP has taken several actions to establish uniform peer review 
policies and procedures, which apply across all OJP program offices and 
bureaus. In July 2008, OJP issued peer review policies providing for a 
sound and consistent methodology for scoring applications. OJP also 
created a common peer review form for all program offices. These 
policies were implemented to ensure that peer reviews are rigorous, 
cost-effective, and transparent across all OJP program offices and that 
funding decisions are clearly documented and justified. These policies 
also ensure that peer review panels include subject matter experts.
    Also in 2008, OJP implemented a policy issued by the Associate 
Attorney General requiring DOJ grant-making components to maintain 
documentation to support all discretionary funding recommendations and 
decisions. On March 10, 2009, the OJP Assistant Attorney General issued 
a memorandum to all OJP bureaus and program offices, which continues 
the requirement that all discretionary grant recommendations must 
include clear explanations of the funding choices made, the reasons for 
the choices, and the policy considerations on which the decisions were 
based. The OJP bureaus and offices now maintain records detailing and 
supporting their grant recommendation decisions.
    Beginning in fiscal year 2009, OJP award decisions are posted on 
the OJP Web site, including the type of award, the recipient, and the 
award amount.
    For its fiscal year 2010 hiring program, the COPS Office conducted 
a thorough internal review process where applications are scored based 
on local economic indicators, crime rates and the applicant's local 
community policing plan--the same factors that were used for grading 
applications under the Recovery Act. In order to measure and compare 
the necessary factors, the COPS Office worked in consultation with 
experts in the fields of policing, criminology, and public finance to 
develop the appropriate questions. COPS asked applicants to submit 
information about:
  --Reported crimes for the previous calendar year;
  --Planned community policing activities;
  --Changes in budgets for law enforcement agencies and local 
        governments; and
  --Poverty, unemployment and foreclosure rates.
    In asking a variety of fiscal health questions, the COPS Office 
tried to get as complete a view as possible of the fiscal distress 
being experienced by applicants through objective and verifiable 
indicators that all agencies, from rural communities to large cities, 
could accurately report. The grant selection methodology, final 
rankings and applicant scores were all posted online, a process that 
the COPS Office will replicate for its future hiring programs.
    The COPS Office has an external vetting process as well, including 
all United States Attorneys' Offices and the Justice Department's Civil 
Rights Division, Criminal Division, OJP's Office for Civil Rights, and 
Office of the Inspector General Investigations Division. These 
components are asked to identify any ongoing investigations or other 
matters that could make it inappropriate or inadvisable for the COPS 
Office to make a grant award to a particular agency.
    The COPS Office also uses Sex Offender Registration and 
Notification Act (SORNA) expert peer reviewers to review the Project 
Narrative and Budget Narrative for its Child Sexual Predator Program. 
Each application was reviewed and scored three times by three separate 
peer reviewers. OVW is also committed to ensuring the fair and 
transparent awarding of grants. One critical component in the OVW 
grant-making year is the peer review process. Through this process, 
professionals with expertise in addressing violence against women 
participate in evaluating grant proposals. OVW conducts peer reviews in 
accordance with its Peer Review Guidelines. Applicants are scored based 
on criteria established in program solicitations. Peer review is well 
documented and ensures consistency and fairness in the process.
    OVW's Technical Assistance Program provides OVW grantees and sub-
grantees with the expertise and support they need to develop and 
implement successful State, local, tribal, U.S. territories and campus 
projects; increase victim safety; and bolster accountability. OVW 
supports education initiatives, conferences, peer-to-peer 
consultations, and targeted assistance for OVW grantees to learn from 
experts and one another about how to overcome obstacles and incorporate 
promising practices in their efforts to address violence against women. 
The primary purpose of the OVW Technical Assistance Program is to 
provide direct assistance to grantees and sub-grantees to enhance the 
success of local projects they are implementing with VAWA grant funds. 
OVW conducts on-site monitoring of grantees to ensure that the millions 
of dollars in OVW awards each year to States, tribes, units of local 
governments, and nonprofit organizations are being used in accordance 
with the intended purpose of OVW programs. On-site monitoring allows 
OVW program specialists to offer guidance regarding grant compliance, 
gather information on grantees implementing innovative best practices, 
support implementation of practices that enhance victim safety and 
promote offender accountability, and identify professionals who can 
serve as peer reviewers and expert consultants. Also, early on-site 
monitoring can prevent long-term challenges, including fraud, waste, 
and abuse.
    In an effort to improve accountability and increase efficiency for 
its award making processes, the Justice Department's grant-making 
components created a streamlined approach for American Indian and 
Alaska Native tribal communities to apply for fiscal year 2010 funding 
opportunities. The Coordinated Tribal Assistance Solicitation (CTAS) 
will serve as a single solicitation for existing tribal government-
specific grant programs administered by OVW, COPS, and OJP. This move 
comes after consultation with tribal leaders, including sessions at the 
Department's Tribal Nations Listening Session last year.
    Question. Does the Department have the necessary resources, 
equipment and staff to process applications for programs funded in the 
fiscal year 2010 Omnibus?
    Answer. While the fiscal year 2010 appropriations for OJP's 
Salaries and Expenses (S&E) account did not provide sufficient funds to 
support the programs funded in the fiscal year 2010 Omnibus, the 
Department of Justice subsequently submitted Congressional 
reprogramming notifications to the Subcommittees on Appropriations for 
Commerce, Justice, Science, and Related Agencies (``the 
subcommittees'') to address DOJ grant components' critical fiscal year 
2010 shortfalls. The Department appreciates the support received from 
the subcommittees for these reprogramming notifications.
    The Omnibus Appropriations Act of 2009 (Public Law 111-8) 
established a new (S&E) account for OJP, OVW, and the COPS Office. 
Staff of the subcommittees advised OJP of their understanding that 
certain costs previously distributed to OJP programs (i.e., as 
programmatic costs) should now be considered S&E. Because these costs 
were previously distributed to programs, they were not taken into 
consideration when the fiscal year 2010 appropriation level for the S&E 
account was established. The Department submitted a reprogramming 
notification for $8.5 million to the subcommittees to address these 
requirements, and the subcommittees responded on April 29 to the 
notification, without objection.
    In addition, the Department submitted two reprogramming 
notifications to the subcommittees to address critical contractual 
services requirements. The subcommittees responded on July 29 to one 
notification totaling $14.3 million, without objection. The 
subcommittees responded on September 21 to the second reprogramming 
notification totaling $8.0 million, without objection.
    Similarly, for OVW, since the change in methodology occurred after 
the President's budget had already been submitted, the peer review and 
previously distributed costs were not taken into consideration in the 
fiscal year 2010 budget request. Therefore, OVW submitted a $7.6 
million Congressional reprogramming notification to reclassify funds 
from OVW programs to S&E in order to cover costs that were previously 
distributed to programs, but that are now considered S&E. It should be 
noted that $600,000 of these reprogrammed funds were for a one-time 
purpose to move OVW offices from its current location to Two 
Constitution Square. The subcommittees responded on March 3 to this 
notification, without objection.
    In fiscal year 2011 OVW anticipates receiving an additional 40 
positions and 25 full-time equivalents (FTE). Additionally, the 
President's fiscal year 2011 budget requests $22.7 million for OVW's 
S&E account, which includes adjustments to base as well as a program 
increase. These FTEs and funds are critical to OVW's ability to carry 
out its grant-making function, accomplish administration and 
congressional priorities and mandates, and ensure sound stewardship of 
OVW's mandate to improve the Nation's response to domestic violence, 
sexual assault, dating violence, and stalking--largely through 
administration of the Violence Against Women Act's grant programs.
    OVW and the Department, as a whole, are committed to ensuring the 
fair and transparent awarding of grants. One critical component in the 
OVW grant making year is the peer review process. Through this process, 
professionals with expertise in addressing violence against women 
participate in evaluating grant proposals. Applicants for OVW grant 
funds have confidence in the fairness of the selection process largely 
because of the OVW peer review. In fiscal year 2010 for the first time, 
however, OVW was not able to use grant program dollars to support peer 
review of our grant applications. Peer review expenses were moved to 
OVW's Management & Administration account without a commensurate 
increase in that account to adequately support peer review. The Office 
on Violence Against Women submitted a reprogramming of $7.6 million to 
Congress on February 24, 2010 for costs which were previously 
distributed to programs, including peer review, that were not taken 
into consideration when the fiscal year 2010 appropriation level for 
the S&E account was established. The subcommittees responded on March 3 
to the notification, without objection. Supporting peer review will 
continue to present a challenge in fiscal year 2011.
    The Department's inspector general identified grant management as 
one of the Department's Top Ten Management Challenges. The inspector 
general noted the importance of making timely awards as well as the 
necessity of maintaining proper oversight over grantees to ensure funds 
are used as intended. The inspector general has stated that, while it 
is important to efficiently award the billions of dollars in grant 
funds appropriated by Congress annually, it is equally important to 
maintain proper oversight over the grantees' use of these funds to 
ensure accountability and to ensure that funds are effectively used as 
intended. In addition, although the inspector general noted that the 
Department is demonstrating a commitment to improving the grant 
management process, and there have been significant signs of 
improvement, ``considerable work remains before grant management of the 
billions of dollars awarded annually in Department grants is no longer 
considered a top Department challenge.'' We take the inspector 
general's observation seriously and are working to meet this challenge. 
Doing so requires funding for additional personnel to carry out 
critical functions such as programmatic and financial monitoring and 
grantee outreach and training. This ``post award'' work is fundamental 
to preventing fraudulent, wasteful, or inappropriate use of the 
billions of taxpayers' dollars that the Department awards in grants 
each fiscal year.
    Question. Do you anticipate needing additional resources for grants 
management and administration, either this year or next?
    Answer. In the fiscal year 2011 President's budget request, OJP 
identified a total requirement of an additional 63 full-time 
equivalents (FTE) and $56 million for the S&E account, which includes 
adjustments to base as well as a program increase. These funds are 
critical to OJP's ability to carry out its grant-making mission, 
accomplish administration and congressional priorities and mandates, 
and ensure sound stewardship of OJP's annual multi-billion grant 
programs and the $2.765 billion appropriated pursuant to the Recovery 
Act.
    Similarly, the fiscal year 2011 budget request for the COPS Office 
includes a total of $40.3 million for management and administration 
expenses. The COPS request supports the administrative and oversight 
costs of the $690 million in grant program funding requested in the 
budget, as well as for management and administration of programs 
appropriated in prior fiscal years, including the $1 billion COPS 
Hiring Recovery Program (CHRP) funded by the Recovery Act in 2009. The 
fiscal year 2011 request is $2.5 million above the current services 
level, and includes an increase in COPS staffing levels of 22 positions 
and 11 FTEs. With enhanced grant funding, it is vital for COPS to have 
the staff and the systems in place to handle the thousands of new grant 
awards to be made as well as continue to efficiently monitor, maintain 
and close grants awarded in previous fiscal years. Additional resources 
and staff in fiscal year 2011 and fiscal year 2012 will further promote 
transparency and accountability for both the COPS Office and COPS 
grantees and will assist to ensure the worthwhile investment of 
taxpayer dollars.
    In fiscal year 2011 OVW anticipates receiving an additional 40 
positions and 25 full-time equivalents (FTE). Additionally, the 
President's fiscal year 2011 budget requests $22.7 million for OVW's 
S&E account, which includes adjustments to base as well as a program 
increase. These FTEs and funds are critical to OVW's ability to carry 
out its grant-making function, accomplish administration and 
congressional priorities and mandates, and ensure sound stewardship of 
OVW's mandate to improve the Nation's response to domestic violence, 
sexual assault, dating violence, and stalking--largely through 
administration of the Violence Against Women Act's grant programs.
    As noted above, both OVW and the Department as a whole are 
committed to ensuring the fair and transparent awarding of grants. One 
critical component in the OVW grant-making year is the peer review 
process. Through this process, professionals with expertise in 
addressing violence against women participate in evaluating grant 
proposals. Applicants for OVW grant funds have confidence in the 
fairness of the selection process largely because of the OVW peer 
review. In fiscal year 2010 for the first time, however, OVW was not 
able to use grant program dollars to support peer review of our grant 
applications. Peer review expenses were moved to OVW's Management & 
Administration account without a commensurate increase in that account 
to adequately support peer review. OVW did receive Congressional 
approval to reprogram fiscal year 2010 grant funds to OVW's Management 
& Administration account to support peer review. Supporting peer review 
will continue to present a challenge in fiscal year 2011.
    The Department's inspector general identified grant management as 
one of the Department's Top Ten Management Challenges. The inspector 
general noted the importance of making timely awards as well as the 
necessity of maintaining proper oversight over grantees to ensure funds 
are used as intended. The inspector general has stated that, while it 
is important to efficiently award the billions of dollars in grant 
funds appropriated by Congress annually, it is equally important to 
maintain proper oversight over the grantees' use of these funds to 
ensure accountability and to ensure that funds are effectively used as 
intended. In addition, although the inspector general noted that the 
Department is demonstrating a commitment to improving the grant 
management process, and there have been significant signs of 
improvement, ``considerable work remains before grant management of the 
billions of dollars awarded annually in Department grants is not longer 
considered a top Department challenge.'' We take the inspector 
general's observation seriously and are working to meet this challenge. 
Doing so requires funding for additional personnel to carry out 
critical functions such as programmatic and financial monitoring and 
grantee outreach and training. This ``post award'' work is fundamental 
to preventing fraudulent, wasteful, or inappropriate use of the 
billions of taxpayers' dollars that the Department awards in grants 
each fiscal year.
    Question. What assurances do the American people have that DOJ is 
awarding grants without waste, fraud or abuse?
    Answer. The Department is committed to performing quality and 
complete grant monitoring across OJP to detect and prevent waste, 
fraud, or abuse. OJP has established common procedures and guidance and 
provides training and effective tools to its grants managers to 
properly conduct and document desk reviews and on-site monitoring, 
formally communicate with grantees through the Grants Management System 
(GMS), and track the resolution of open issues.
    OJP's Office of Audit, Assessment, and Management (OAAM) is 
dedicated to the oversight of OJP and COPS Office monitoring activities 
and the assessment of grant program performance. OAAM reviews the 
procedures and internal controls of OJP's grant management processes, 
provides recommendations for improvement, and monitors actions to 
ensure improvements are implemented. OAAM conducts program assessments 
of OJP and COPS Office grants and grant programs to measure performance 
against intended outcomes and assess compliance with applicable 
regulations and statutes. Assessment reports will include targeted 
recommendations for making program improvements and enhancing grant 
oversight practices, as well as program accomplishments and best 
practices.
    OJP has embraced and implemented many of the recommendations from 
the Department's Office of the Inspector General's February 2009 report 
entitled ``Improving the Grant Management Process.'' OJP has 
implemented the inspector general's recommendations relating to grant 
program development and its grant application and award processes. OJP 
has an action plan in place to implement the OIG's recommendations 
relating to grant monitoring, program performance, and training to 
grantees and staff. At every possible opportunity, OJP is implementing 
OJP-wide corrective actions to respond to the inspector general's 
grant-related and program-specific audit recommendations.
    In 2009, over 500 OJP staff attended OIG-led training on detecting 
and preventing fraud. OJP works with OIG staff to coordinate grant 
fraud training at OJP sponsored conferences and meetings. Additionally, 
a grant fraud component has been included in the Office of the Chief 
Financial Officers' Regional Financial Management training seminars.
    Both OJP and COPS worked closely with the OIG throughout the 
Recovery Act grant pre-award phase and have taken proactive measures to 
reduce the risk of waste, fraud, and abuse as it relates specifically 
to Recovery Act funds. The COPS Office, working in conjunction with the 
OIG, has uploaded Post-Award Grant Record-Keeping Tips to ensure 
grantees are maintaining proper documentation for the CHRP grants and 
COPS intends to replicate this for its future grant-making processes.
    In addition to audits by the Office of the Inspector General, COPS 
has a comprehensive grant monitoring process which provides serious 
consequences for misuse of grant funds. This is particularly important 
for Recovery Act funds. COPS barred 26 agencies across the country from 
receiving CHRP funding because of previous violations. Eighteen of 
these agencies were audited by the Office of Inspector General. Each 
agency went through an audit resolution process, all had various 
compliance violations, and most were found to owe money to the 
Government. When these agencies demonstrated that they could not pay 
back the funds, COPS and the OIG resolved these audits by barring these 
agencies from receiving future COPS funding for a set period of time 
based on the amount of funding owed or the type of violation. The 
typical bar period is a maximum of 3 years.
    In addition to the sanctions imposed by OIG, agencies found to be 
in violation of the COPS retention requirement may be barred from 
receiving future grant awards. Those agencies that did not qualify for 
a retention exemption based on severe fiscal distress were barred for 3 
years in accordance with the COPS retention policy. Eight of the 
agencies had violations that were identified after going through COPS 
comprehensive grant monitoring processes.
    Grant monitoring and evaluation are also critical aspects of all 
COPS grant programs. The COPS Office has a progress reporting system 
that is being used to document grantees' use of funds. Recipients of 
CHRP grant awards are required to use grant funds for the specific 
hiring categories awarded and maintain documentation pertinent to the 
officers hired/rehired with CHRP grant funding.
    The Recovery Act requires grantees to report their financial and 
programmatic progress within 10 days after the end of each calendar 
quarter. The COPS Office requests information from grantees consistent 
with section 1512 of the Recovery Act, including collecting information 
on the number of new jobs created and the number of jobs preserved 
using CHRP funding. The COPS Office is currently updating its grant 
monitoring strategy for CHRP, and is also working with the OJP's Office 
of Assessment, Audit, and Management to ensure implementation of a 
consistent grants monitoring approach across the Department.
    In addition, the COPS Office will use the following measures to 
track the program's progress against achievement of Recovery Act and 
program-specific objectives. The COPS Director will be accountable for 
each of these measures.
  --Number of New Jobs Created (Number of Newly Hired Sworn Officer 
        Positions).--A newly hired sworn officer is an additional 
        career law enforcement officer hired using Recovery Act funds. 
        This officer is over and above the number of officer positions 
        that a grantee would otherwise fund or redeploy in the absence 
        of the CHRP grant award. This outcome will be measured 
        quarterly.
  --Number of Jobs Preserved (Number of Rehired Sworn Officer 
        Positions).--A rehired sworn officer is either an already laid-
        off career law enforcement officer that is being rehired with 
        Recovery Act funds or an officer that is scheduled to be laid 
        off, but will not be, due to a CHRP grant award. This outcome 
        will be measured quarterly.
  --Average Community Policing Capacity Implementation Rating (0 to 
        100) of CHRP Grantees.--One of the key measures COPS Office 
        management will use to evaluate the program is the average 
        community policing capacity implementation rating of CHRP 
        grantees. COPS management has asked an independent research 
        firm to conduct a survey to determine how COPS grants have 
        increased grantee agencies' capacity to implement community 
        policing strategies. Each survey will produce a rating, which 
        will be on a scale of 0 to 100 points, with 100 being the most 
        favorable rating. Grantees will be asked to answer questions 
        related to how CHRP grants have increased their agency's 
        capacity to implement community policing strategies with regard 
        to the three primary elements of community policing: (1) 
        developing community/law enforcement partnerships; (2) problem-
        solving; and (3) organizational change. This outcome will be 
        measured on an annual basis.
    OVW has identified detailed performance measures for each of its 
grant programs. These measures are included in OVW grant program 
solicitations and are collected through grantee progress reports. All 
OVW grant program solicitations include Government Performance and 
Results Act (GPRA) measures. Program solicitations also include a link 
for applicants to access samples of the progress report forms that 
grantees must complete during the life of the grant. These semi-annual 
progress reports (for OVW discretionary grantees) and annual progress 
reports (for OVW formula grantees and subgrantees) collect data 
regarding program measures for each of OVW grant programs. Although 
there are some similarities across progress report forms, OVW spends a 
significant amount of time developing these forms based on the goals 
and objectives of the individual grant programs.
    The Department is committed to performing quality and complete 
grant monitoring across OVW to detect and prevent waste, fraud, or 
abuse. OVW has established common procedures and guidance and provides 
training and effective tools to its grants managers to properly conduct 
and document desk reviews and on-site monitoring, formally communicate 
with grantees through the Grants Management System (GMS), and track the 
resolution of open issues.
    The objectives of OVW grant monitoring are to ensure that the 
grantee complies with the programmatic, administrative, and financial 
requirements of relevant statutes, regulations, policies, and 
guidelines and/or special conditions applied to a specific award; to 
verify that programs/projects initiated by grantees are carried out in 
a manner consistent with the grantee's approved project goals and 
objectives; to promote responsible stewardship of awarded funds by 
reporting fraud, waste, and abuse, as well as suspected violations, 
serious irregularities, and sensitive issues; and to provide guidance 
or technical assistance to grantees on OVW policies and procedures, 
grant program requirements, general Federal regulations, and basic 
programmatic, administrative, and financial reporting requirements.
    OVW imposes a special condition on all awards requiring grantees 
to: ``. . . promptly refer to the DOJ OIG any credible evidence that a 
principal, employee, agent, contractor, subgrantee, subcontractor, or 
other person has either (1) submitted a false claim for grant funds 
under the False Claims Act; or (2) committed a criminal or civil 
violation of laws pertaining to fraud, conflict of interest, bribery, 
gratuity, or similar misconduct involving grant funds.'' This condition 
also applies to any subrecipients.
    OIG staff makes presentations regarding fraud awareness, waste, and 
abuse at all of OVW's new grantee orientations, which are mandatory for 
new grantees to attend. OVW also has similar OIG presentations at its 
annual STOP Administrators meetings, which are attended by officials 
from the 56 States and territories that administer funding under the 
STOP Formula Program. OVW will include OIG presentations at all 
conferences directed at grantees and will require that current grantees 
attend OIG grantee orientations on an annual basis or when there is a 
key staff change on their grant. OVW is also currently drafting a Grant 
Program Development Manual to provide guidance to OVW staff on 
developing new grant programs. Several sections are in final draft, and 
we hope to have the entire manual completed in fiscal year 2011.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy

                          RISS PROGRAM FUNDING

    Question. I believe that information sharing among law enforcement 
agencies plays a critical role in the fight against crime and 
terrorism. I have long supported the Regional Information Sharing 
System (RISS) program, which enhances the ability of local, State, 
Federal, and tribal criminal justice agencies to keep our communities 
safe by improving law enforcement technology and information sharing. 
The Department's fiscal year 2011 budget requests $9 million for the 
RISS program, a reduction of $36 million from last year's enacted 
level. I am concerned that this severe reduction could result in the 
dismantling of the RISS program and hamper our ability to share law 
enforcement information and technology across jurisdictions.
    Information and intelligence sharing are critical to fighting 
increasingly expansive criminal networks, and RISS has proven to be 
successful in identifying and targeting criminal conspiracies and 
terrorist cells.
    Do you agree that information sharing among law enforcement 
agencies is critical for the safety and security of our country?
    Answer. Without question, the Department of Justice agrees that 
information sharing among Federal, State, local and tribal law 
enforcement is critical for national security and public safety. It is 
for this reason that the Department joined with more than 30 national 
organizations representing State, local, and tribal law enforcement; 
the Department of Homeland Security; and the FBI in signing the 
National Criminal Intelligence Sharing Plan (NCISP). The NCISP still 
serves as a blueprint document, along with the National Information 
Sharing Strategy issued by the White House, in protecting the safety 
and security of America.
    The Department promotes greater sharing of national security and 
criminal justice information among Federal, State, and local law 
enforcement partners through a number of programs, including the FBI's 
Law Enforcement Online, which provides access to the National Data 
Exchange system. Additionally, the Department has demonstrated its 
support for information sharing by providing over $335 million to the 
Regional Information Sharing System (RISS) Program since fiscal year 
2000.
    Question. Why did the Department of Justice request only $9 million 
for the RISS program in fiscal year 2011?
    Answer. RISS provides a very important resource for sharing law 
enforcement information through a secure network by Federal, State, 
local, and tribal law enforcement agencies, while maintaining local 
control over the data to be shared. Since 2000, the Department of 
Justice has provided more than $335 million for the RISS Program, in 
addition to millions in discretionary funding through various 
competitive and non-competitive programs.
    While the Department proposed a reduction to dedicated funding for 
the RISS program in the fiscal year 2011 budget, it remains committed 
to ensuring that the vital functions of law enforcement information-
sharing continue without interruption. We will continue to work with 
our partners to maintain and expand current capabilities through 
discretionary funding requested in the fiscal year 2011 budget by 
considering options such as:
  --Engaging RISS through the Byrne Justice Assistance Grants (JAG) 
        Program or Byrne Competitive Program to provide competitive 
        grant-funded training and technical assistance to law 
        enforcement around the United States.
  --Seeking support for State-maintained RISS Centers through the Byrne 
        JAG Program.
  --Re-evaluating user fees charged to member agencies to determine if 
        such fees, with moderate increases or restructuring, can better 
        support RISS.

                      POST CONVICTION DNA TESTING

    Question. One of the key programs created in the Innocence 
Protection Act was the Kirk Bloodsworth Post Conviction DNA Testing 
Grant Program. Kirk Bloodsworth was a young man just out of the Marines 
when he was arrested, convicted, and sentenced to death for a heinous 
crime that he did not commit. He was the first person in the United 
States to be exonerated from a death row crime through the use of DNA 
evidence.
    This program provides grants to States for testing in cases like 
Kirk's where someone has been convicted, but where significant DNA 
evidence was not tested. The last administration resisted implementing 
the program for several years, but we worked hard to see the program 
put into place. This year however the Department's budget did not 
include a request for the Kirk Bloodsworth grant program. Can you 
explain why the Department did not specifically request any funds for 
post conviction DNA testing?
    Answer. In fiscal year 2008, the Office of Justice Programs (OJP) 
awarded $7.8 million under the Post-Conviction DNA Testing Assistance 
program, and in fiscal year 2009, awarded an additional $9.8 million.
    The program has been very successful and based on initial reports 
from the fiscal year 2009 grantees, significant progress has been made. 
However, in response to the fiscal year 2010 solicitation, the 
Department's National Institute of Justice (NIJ) received only four 
applications requesting a total of $1.6 million. Of these four 
applications, only one was a new applicant. The remainder was current 
grantees requesting continuation funds. Given this demand history in 
fiscal year 2010, the Department did not request funding for this 
initiative in fiscal year 2011. However, funds within the fiscal year 
2011 request for the DNA Initiative, which includes ``$150 million for 
DNA-related and forensic programs and activities (including related 
research and development, training and education, and technical 
assistance),'' can be made available to meet the needs in this area.

                         MENTALLY ILL OFFENDERS

    Question. The Mentally Ill Offender Treatment and Crime Reduction 
Act (MIOTCRA) was signed into law in 2004 and authorizes a $50 million 
grant program to be administered by the Department of Justice. The bill 
received unanimous, bipartisan support in both chambers of Congress and 
is supported by a broad spectrum of leaders representing the diverse 
fields of law enforcement, corrections, the courts and mental health. 
The Mentally Ill Offender program provides assistance to States and 
communities to mount new programs or expand existing programs that can 
both reduce costs and help these offenders return to productive lives.
    The MIOTCRA program received $12 million in fiscal year 2010 and is 
in high demand. Of the 250 grant applications submitted in 2006, only 
11 percent were funded, awarding only 28 jurisdictions in 19 States 
with additional resources to design and implement or improve upon their 
mental health programs. Despite this need, the Department's fiscal year 
2011 budget request did not include funds for the MIOTCRA program.
    I appreciate the Department's request for increased funding of 
Drug, Mental Health and Problem-Solving Courts, but unfortunately that 
funding would not encompass many of the key elements of the Justice and 
Mental Health Collaboration Program, which was established by MIOTCRA. 
Court-based grantees constitute only 40 percent of the current MIOTCRA 
grantees, and MIOTCRA program dollars also go toward many other types 
of initiatives, including mental health and substance abuse treatment 
for incarcerated mentally ill offenders, community reentry services, 
and cross-training of criminal justice, law enforcement and mental 
health personnel. How does the Department plan to address this gap in 
services?
    Answer. The Department agrees that the Mentally Ill Offender 
Treatment Crime Reduction Act (MIOTCRA) Program has produced very 
promising results and is committed to furthering these efforts to 
promote the use of evidence-based and innovative strategies to address 
mental health issues. It is important to note, however, that the 
proposed Problem-Solving Courts Program funding, while required to be 
awarded to a court or court agency initially, could be sub-awarded to 
other types of agencies in the community to address mental health needs 
in order to form a more effective response to mental health issues. 
Additionally, OJP has consistently made Byrne JAG funds and Byrne 
Competitive Program funds available for the MIOTCRA Program, in 
addition to new resources recently made available to address mental 
health issues within the justice system, such as Second Chance Act 
funding.

                   INTELLECTUAL PROPERTY ENFORCEMENT

    Question. Intellectual property is critical to our Nation's 
economy. It is the engine that drives our contemporary economy and will 
fuel our future. Industries that rely on intellectual property 
protection accounted for roughly one-half of all U.S. exports and 
represented an estimated 40 percent of U.S. economic growth in 2006, 
the last year in which our economy grew in all four quarters.
    I authored the Prioritizing Resources and Organization for 
Intellectual Property Act of 2008 (PRO-IP Act) (Public Law 110-403), 
which authorized programs to strengthen the protection of our 
intellectual property. I am pleased that the Department's fiscal year 
2011 budget request includes funds for economic, high technology and 
Internet crime prevention grants, including grants authorized by the 
PRO-IP Act. I believe there is a critical need for the Federal 
Government to take a leading role in protecting intellectual property 
rights in order to prevent billions of dollars in losses due to piracy 
and mitigate health and safety risks from trade in counterfeit goods. 
Will you work with Congress to ensure that a significant portion of 
funds provided for economic, high technology and Internet crime 
prevention are devoted to intellectual property enforcement?
    Answer. Yes, the Department of Justice and the Department of 
Homeland Security will work with Congress to ensure that an appropriate 
level of funds is devoted to intellectual property enforcement.

        NEW BLACK PANTHER PARTY VOTER INTIMIDATION INVESTIGATION

    Question. Some constituents have expressed a continuing interest in 
the Justice Department's decisions with regard to its resolution last 
year of a civil suit against members of the New Black Panther Party for 
voter intimidation. I know that you have explained the basis of these 
decisions in the past, but in order to ensure clarity on the subject, 
please set out why the Department decided to resolve the New Black 
Panther Party case in the way that it did, how the decision was made, 
what steps were taken if any to ensure that the decision was made on 
the merits and not based on political motivations, and what the results 
were in the case.
    Answer. Please see the Department's response to this question set 
forth in its letter to Senator Leahy of August 10, 2010. See Attachment 
1.

                        U.S. Department of Justice,
                             Office of Legislative Affairs,
                             Washington, DC 20530, August 10, 2010.
The Honorable Patrick J. Leahy,
United States Senate,
Washington, DC 20510.
    Dear Mr. Chairman: This responds to your letter, dated August 2, 
2010, regarding United States v. New Black Panther Party for Self-
Defense, a case arising out of events in Philadelphia, Pennsylvania in 
2008, and filed under section 11(b) of the Voting Rights Act, 42 U.S.C. 
Sec. 1973i(b).
    On January 7, 2009, the Department filed a complaint seeking 
injunctive and declaratory relief under section 11(b) of the Voting 
Rights Act against four defendants: two individuals who appeared at the 
Philadelphia polling place on November 4, 2008, Minister King Samir 
Shabazz and Jerry Jackson; the New Black Panther Party for Self-
Defense; and its leader, Malik Zulu Shabazz, who is not alleged to have 
been present at the Philadelphia polling place. The complaint alleged 
that the defendants violated section 11(b) because they attempted to 
engage in, and engaged in, both voter intimidation and intimidation of 
individuals aiding voters.
    None of the defendants responded to the complaint in the case. That 
did not, however, absolve the Department of its legal and ethical 
obligations to ensure that any relief sought was consistent with the 
law and supported by the evidence. The entry of a default judgment is 
not automatic, and the Pennsylvania Bar Rules impart a clear duty of 
candor and honesty in any legal proceeding; those duties are heightened 
in the type of ex parte hearing that occurred in this matter. See Pa. 
RPC 3.3(d). At the remedial stage, as with the liability stage, the 
Department remains obliged to ensure that the request for relief is 
supported by the evidence and the law. In discharging its obligations 
in that regard, the Department considered not only the allegations in 
the complaint, but also the evidence collected by the Department both 
before and after the filing of the complaint.
    For the reasons explained below, based on that review, the 
Department sought and obtained an injunction against defendant Minister 
King Samir Shabazz, the only individual known to the Department to have 
brought a nightstick to a Philadelphia polling place in November 2008. 
Following its review, the Department concluded, however, that the 
evidence did not warrant seeking an injunction against the other 
defendants named in the complaint, and dismissed the claims against 
those defendants.

LEGAL ANALYSIS RELEVANT TO LIABILITY UNDER SECTION 11(B) OF THE VOTING 
                               RIGHTS ACT

    Section 11(b) of the Voting Rights Act prohibits anyone, whether or 
not acting under color of law, from intimidating, threatening, or 
coercing, or attempting to intimidate, threaten, or coerce, any person 
for voting or attempting to vote or for aiding any person to vote or 
attempt to vote or for exercising any powers or duties under certain 
sections of the Voting Rights Act. Section 12(d) of the Voting Rights 
Act, 42 U.S.C. Sec. 1973j(d), provides for the filing of a civil action 
by the Attorney General to secure preventive relief for a violation of 
such statute. In 1968, Congress repealed the criminal penalties for 
violations of section 11(b) that were part of the original 1965 Voting 
Rights Act. Public Law 90-284, Sec. 103, 82 Stat. 73, 75 (1968).
    There have been very few cases brought under section 11(b). 
Possible explanations include the limited remedies available under 
section 11(b) of the Voting Rights Act and the challenging legal 
standard of proof. As a result, the Department can find records of only 
three civil actions filed under this provision since its enactment in 
1965, prior to the case of United States v. New Black Panther Party for 
Self-Defense. One of these cases settled before trial, and in both of 
the others, the court ruled that the Department had failed to establish 
a section 11(b) claim. Those cases are: (1) United States v. Harvey, 
250 F. Supp. 219 (E.D. La. 1966) (Threats of eviction and other 
economic penalties against black sharecroppers who had recently 
registered to vote found not to be form of intimidation, threat or 
coercion prohibited by section 11(b)); (2) United States v. North 
Carolina Republican Party, Civil Action No. 91-161-CIV-5-F (E.D.N.C.) 
(section 11(b) claim regarding pre-election mailing resolved by consent 
decree dated Feb. 27, 1992); and (3) United States v. Brown, 494 F. 
Supp. 2d 440, 477 n. 56 (S.D. Miss. 2007) (Publication by county 
political party chairman of list of voters to be challenged if they 
attempted to vote in party primary election found not to be form of 
intimidation, threat or coercion prohibited by section 11(b)). Indeed, 
as demonstrated in the Brown case, section 11(b) cases can be extremely 
difficult to prove. In that case, the most recent Federal district 
court to reject a section 11(b) claim noted that the United States had 
``found no case in which plaintiffs have prevailed under this 
section.'' Id.
    The events that led to the Philadelphia section 11(b) case 
referenced in your letter occurred at a predominantly African American 
polling place, on the day of the most recent Federal general election, 
November 4, 2008. The Department concluded that the evidence collected 
established that Minister King Samir Shabazz violated section 11(b) by 
his conduct at the polling place on that election day. This evidence 
included his display of a nightstick at the polling place during voting 
hours, an act which supported the allegation of voter intimidation. The 
Department therefore decided to seek an injunction against defendant 
Minister King Samir Shabazz. In approving the injunction, the district 
court found that the United States had alleged that Minister King Samir 
Shabazz ``stood in front of the polling location at 1221 Fairmont 
Street in Philadelphia, wearing a military style uniform, wielding a 
nightstick, and making intimidating statements and gestures to various 
individuals, all in violation of 42 U.S.C. Sec. 1973i(b).'' (Order of 
May 18, 2009, at 1). The court entered judgment ``in favor of the 
United States of America and against Minister King Samir Shabazz, 
enjoining Minister King Samir Shabazz from displaying a weapon within 
100 feet of any open polling location in the city of Philadelphia, or 
from otherwise violating 42 U.S.C. Sec. 1973i(b),'' Judgment (May 18, 
2009). The Federal court retains jurisdiction over enforcement of the 
injunction until 2012.
    After reviewing the evidence, the Department concluded that there 
was insufficient evidence to establish that the New Black Panther Party 
or Malik Zulu Shabazz, who was not at the polling place when the 
relevant events occurred, violated section 11(b). Prior to the 
election, the New Black Panther Party for Self-Defense made statements 
and posted notice that over 300 members of the New Black Panther Party 
for Self-Defense would be deployed at polling locations during voting 
on November 4, 2008, throughout the United States. To the Department's 
knowledge, the single polling place in Philadelphia is the only 
location where an incident occurred. This apparent fact is inconsistent 
with the notion that the Party or Malik Zulu Shabazz directed a 
campaign of intimidation. The Department also considered the statement 
posted by the Party on its Web site regarding the incident. The 
statement posted on the Party Web site provided: ``Specifically, in the 
case of Philadelphia, the New Black Panther Party wishes to express 
that the actions of people purported to be members do not represent the 
official views of the New Black Panther Party and are not connected nor 
in keeping with our official position as a party. The publicly 
expressed sentiments and actions of purported members do not speak for 
either the party's leadership or its membership.'' As of May 2009, the 
Department had information indicating that this statement was posted 
prior to the filing of the civil action. A separate statement posted on 
the Party Web site, dated January 7, 2009 (the same date that the 
complaint in this case was filed), reported the suspension of the 
Philadelphia chapter because of these activities.
    Absent sufficient proof that the New Black Panther Party or Malik 
Zulu Shabazz directed or controlled unlawful activities at the polls, 
or made speeches directed to immediately inciting or producing lawless 
action on election day, claims against those parties based merely upon 
their alleged ``approval'' or ``endorsement'' of Minister King Samir 
Shabazz's activities were, in our view, insufficient to establish legal 
liability. See NAACP v. Claiborne Hardware Co., 458 U.S. 886, 927 
(1982). The Department therefore decided, based on its review of 
applicable legal precedent and the totality of the evidence, to dismiss 
the claims against the New Black Panther Party and Malik Zulu Shabazz.
    Finally, the Department also concluded that the allegations in the 
complaint against Jerry Jackson, the unarmed defendant present at the 
Philadelphia polling place, did not have sufficient evidentiary 
support. The Department's determination was based on the totality of 
the evidence. In reaching this conclusion, the Department placed 
significant weight on the response of the law enforcement first 
responder to the Philadelphia polling place on election day. A report 
of interview of the local police officer who responded to the scene, 
which is included in the Department's extensive production to the U.S. 
Commission on Civil Rights indicates that the officer interviewed Mr. 
Jackson, confirmed that he in fact was a certified poll watcher, and 
permitted Jackson to remain at the polling place.

LEGAL ANALYSIS APPLICABLE TO THE SCOPE OF THE INJUNCTION UNDER SECTION 
                                 11(B)

    After the clerk of court filed an administrative entry of default 
against defendant Minister King Samir Shabazz, the Department was 
required to file a motion with the court, setting forth its view of the 
legally appropriate scope of injunctive relief. Based on the facts in 
the case and the relevant legal precedent, the Department concluded 
that a nationwide injunction was not legally supportable in the case 
against Minister King Samir Shabazz. The Supreme Court has emphasized 
that an injunction must be ``no broader than necessary to achieve its 
desired goals.'' Madsen v. Women's Health Ctr., 512 U.S. 753, 765 
(1994). To that end, a reviewing court must pay ``close attention to 
the fit between the objectives of an injunction and the restrictions it 
imposes on speech'' in keeping with the ``general rule . . . that 
injunctive relief should be no more burdensome to the defendant than 
necessary to provide complete relief to the plaintiffs.'' See ibid. 
(citation omitted).
    Because injunctive relief is tailored to its objectives, a focus 
upon the facts alleged by the Department was critical to determining 
the scope of the injunction that could have been obtained. The 
Department alleged that Minister King Samir Shabazz is a resident of 
Philadelphia and is the leader of the Philadelphia chapter of the NBPP. 
Complaint  5. The complaint alleged that on November 4, 2008, Minister 
King Samir Shabazz brandished a weapon and made racially threatening 
and insulting remarks while standing in front of the entrance of a 
polling place in Philadelphia. Complaint  8-10. The complaint further 
alleged that on this specific occasion Minister King Samir Shabazz 
pointed the weapon at individuals, tapped it in his hand and elsewhere, 
and made menacing and intimidating gestures, statements and movements 
toward individuals who were present to aid voters. Complaint  9-10.
    The evidence was insufficient to show that Minister King Samir 
Shabazz had engaged or planned to engage in a nationwide pattern of the 
kind of conduct he exhibited at the polling place in Philadelphia, or 
that he was inclined to disregard the injunction. Cf. United States v. 
Dinwiddie, 76 F.3d 913, 929 (8th Cir. 1996) (finding the scope of a 
nationwide injunction in a Freedom of Access to Clinic Entrance Act 
(FACE) case appropriate because of a protestor's ``consistent, 
repetitious, and flagrant unwillingness or inability to comply'' with 
the proscriptions of the law, his ``serious intent to do bodily harm to 
the providers and recipients of reproductive health services,'' and the 
possibility, if the injunction were geographically limited, that he 
``could easily frustrate the purpose and spirit of the permanent 
injunction simply by stepping over State lines and engaging in similar 
activity at another reproductive health facility'' (quotation and 
citation omitted)). Absent such facts, in other FACE cases, the 
geographic scope of injunctions the Department has obtained has been 
quite narrow, generally limited to a certain number of feet from a 
given clinic, see United States v. Scott, No. 3:95cv1216, 1998 U.S. 
Dist. LEXIS 10420 (D. Conn. June 25, 1998), or simply preventing 
protestors from impeding ingress and egress to a particular clinic. See 
United States v. Burke, 15 F. Supp. 2d 1090 (D. Kan. 1998); United 
States v. Brock, 2 F. Supp. 2d 1172 (E.D. Wis. 1998).
    Given the facts presented, the injunction sought by the Department 
prohibited Minister King Samir Shabazz from displaying a weapon within 
100 feet of any open polling location on any election day in the city 
of Philadelphia, or from otherwise violating 42 U.S.C. 1973i(b), (see 
Order of May 18, 2009, at 4). The Department considers this injunction 
tailored appropriately to the scope of the violation and the 
requirements of the First Amendment, and will fully enforce the 
injunction's terms. Section 11(b) does not authorize criminal 
penalties, monetary damages, or other kinds of relief.
    In sum, we believe that the decision of the then Acting Assistant 
Attorney General for Civil Rights to proceed with the claims against 
Minister King Samir Shabazz and to dismiss the claims against the three 
other defendants was based on the merits and reflects the kind of good 
faith, case-based assessment of the strengths and weaknesses of claims 
that the Department makes every day.
    We hope this information is helpful. Please do not hesitate to 
contact this office if we may provide additional assistance regarding 
this, or any other matter.
            Sincerely,
                                              Ronald Weich,
                                        Assistant Attorney General.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein

                       MAY 2010 TIMES SQUARE PLOT

    Question. I believe the HIG should be used where we can obtain the 
most valuable intelligence possible, but I also understand that the HIG 
cannot be everywhere and that intelligence officials from CIA and other 
agencies make up the Joint Terrorism Task Force (JTTF) in each field 
office.
    Was the HIG deployed in this case? If not, what does the HIG have 
that the Joint Terrorism Task Force personnel could not provide as far 
as expertise for interrogations?
    Answer. The High-Value Detainee Interrogation Group (HIG) deployed 
in the Shahzad case to assist the New York Joint Terrorism Task Force 
(JTTF) with interrogators, subject matter experts, and reports 
officers. During the deployment, the HIG brought counterterrorism 
subject matter experts from FBI, the Central Intelligence Agency, the 
National Geospatial-Intelligence Agency, the Department of Defense, the 
National Counterterrorism Center, and others to observe the 
interrogation, and to provide advice, counsel, and intelligence 
requirements to the interrogators. In addition, HIG reports officers 
ensured that the results of the interrogation were disseminated to the 
Intelligence Community (IC) within hours after each session. This 
detailed level of expertise in areas as diverse as geospatial mapping, 
behavioral analysis, and foreign terrorist network associations does 
not typically reside in the JTTF. The interagency composition of the 
HIG, and its full-time focus on coordinating interrogation resources 
across the IC, enables the HIG to rapidly identify and deploy the right 
resources and IC counterterrorism assets to augment a JTTF as needed.
    Question. Does the New York JTTF have the lead for this case? 
Please describe what kind of experience the New York JTTF has 
interrogating terrorist suspects.
    Answer. Yes, the New York JTTF has the lead for this case. 
Currently, the New York JTTF has more than 400 personnel from 50 
different law enforcement, public safety, intelligence, military, and 
critical infrastructure agencies. The New York JTTF has handled some of 
the most high-profile, high-threat terrorism investigations, including 
the first bombing of the World Trade Center in 1993, the bombing of the 
USS Cole in 2000, the second attack on the World Trade Center in 2001, 
and the most recent attempted bombing in New York's Times Square.

                      SHAHZAD ARREST ALTERNATIVES

    Question. It is my understanding that Mr. Shahzad is cooperating 
and has waived his Miranda warnings as well as his right to be 
presented before a magistrate judge.
    Please tell us what other options the FBI had other than arresting 
Shahzad and reading him his rights. As an American citizen could he be 
detained without formal charges against him? For how long?
    Answer. Regardless of nationality, any person arrested in the 
United States is entitled to certain Constitutional rights. There are a 
number of laws and rules that govern what must occur when a suspect is 
arrested. First and foremost, the U.S. Supreme Court has held that the 
Fourth Amendment requires that the facts justifying the arrest be 
presented to a court ``promptly.'' Moreover, Rule 5 of the Federal 
Rules of Criminal Procedure requires that the defendant be taken before 
a judicial officer ``without unnecessary delay,'' at which time the 
court will advise the defendant of his rights. With the exception of 
questions designed to ensure the immediate public safety and the safety 
of the arresting officers (the so-called Quarles exception), Miranda 
warnings are generally required in order for responses to questions 
posed while the defendant is in custody to be admissible in court 
against the defendant.
    The FBI has no legal authority to proceed against a terrorism 
suspect who is arrested within the United States in any venue other 
than an Article III court. There have been only two instances since 
2001 in which civilians arrested within the United States were placed 
in military custody for some period of time. In both instances, the 
individuals were initially taken into custody and detained by Federal 
law enforcement officials. The transfers from law enforcement to 
military custody occurred by order of the President, and the civilians 
were later returned to Article III courts for disposition of their 
cases.
    Question. Please explain how reading someone their Miranda rights 
can facilitate their cooperation in a criminal case. Is reading a 
suspect their rights sometimes part of a plan to get them to waive 
their rights to allow more intelligence gathering than not reading 
someone their Miranda rights would produce?
    Answer. Many criminal defendants, including those arrested for 
crimes related to terrorism, waive their Miranda rights and talk 
voluntarily to investigators. In many other cases, defendants decide to 
cooperate after consulting with counsel. Indeed, where defense 
attorneys conclude that the Government has strong evidence to support a 
conviction and lengthy sentence, they often encourage their clients to 
cooperate. Miranda warnings are far less determinative of the prospects 
for obtaining long-term cooperation in the criminal justice system than 
other factors, such as the strength of the Government's case against a 
defendant, the skill and expertise of the interrogator, and the 
interrogator's background knowledge about the target and the subject 
matter.

                       FBI SURVEILLANCE RESOURCES

    Question. Chairwoman Mikulski and I are very intent on getting the 
FBI the surveillance resources it needs. I believe we could use more 
FBI teams--especially in our major cities.
    Is it true that the FBI surveillance team lost Shahzad?
    Answer. In May 2010, Faisal Shahzad attempted to detonate a car 
bomb in Times Square. Attempts by the FBI New Haven Division's armed 
Mobile Surveillance Team to keep him under surveillance failed when he 
slipped away and eluded surveillance until his capture aboard a 
commercial flight preparing to depart the country. Bad weather 
precluded the use of aviation to track Shahzad. Had a surveillance 
aircraft been available, it is likely that Shahzad would not have been 
able to break contact with the squad covering him.
    Question. I think we should spend more money to give the FBI the 
resources it needs, so how much more money can you spend in fiscal year 
2011 to hire and train more FBI surveillance teams?
    Answer. The FBI's fiscal year 2011 Request to Congress includes an 
additional 30 Mobile Surveillance Team--Armed (MST-A), positions (18 
agents) and $6,100,000.\1\ The fiscal year 2011 cost per new Mobile 
Surveillance Team (MST) \2\ position is $174,000; the cost per new MST-
A position is $217,000.
---------------------------------------------------------------------------
    \1\ MST-A was formerly known as the Special Operations Group (SOG).
    \2\ MST was formerly known as the Special Surveillance Group (SSG).
---------------------------------------------------------------------------
    The MST-A program does not directly hire new agents; MST-A Agents 
work FBI investigative cases for 11 years, on average, prior to their 
assignment to a MST-A squad. Upon assignment to a MST-A squad, the MST-
A program provides surveillance training, photography training, and 
Tactical Emergency Vehicle Operations Course (TEVOC) training, which 
totals 3 weeks. The MST-A program can train 63 agents per year, which 
equates to 7 MST-A teams.
    Question. How long will it take to get more teams hired and trained 
to deploy?
    Answer. The FBI has a large applicant pool for the MST positions, 
which traditionally can be hired and trained within the fiscal year. 
The MST-A positions, which are filled by experienced FBI Agents, are 
also traditionally filled and trained within the fiscal year.

                     DEPARTMENT OF JUSTICE FUNDING

Border Law Enforcement Grants
    Question. Through the American Recovery and Reinvestment Act in 
2009, the Chula Vista Police Department, on behalf of the local HIDTA, 
the California Border Alliance Group, was awarded $2.86 million from 
the Justice Department's Bureau of Justice Assistance to support 
existing HIDTA-supported task forces with local representation from 
five agencies along the southern border.
    With only 6 months into the grant project, the task force thwarted 
seven kidnappings and two murders in the United States and prevented 
two murders in Mexico.
    As the United States continues to combat narcotics trafficking and 
related violence, this grant permitted more local participation in 
Federal task forces ultimately allowing for better intelligence 
gathering.
    This grant model has proven successful in San Diego. Have other 
grant recipients experienced similar success? If so, do you plan to ask 
for a continuation of this grant opportunity in the fiscal year 2012 
budget?
    Answer. The progress you have described in Chula Vista is 
impressive. While other grantees have reported strong progress in 
creating and retaining jobs as well as in enhanced criminal 
enforcement, they are early in the process of implementation and 
progress will continue to be monitored.
    Regarding future budget requests, the President has included in the 
fiscal year 2011 budget request a program called Smart Policing, which 
allows local law enforcement agencies such as Chula Vista to apply for 
funding to implement evidence-based and innovative enforcement efforts, 
which could include involvement in task forces. In addition, the Byrne 
Justice Assistance Grants (JAG) Program was proposed at $519 million, 
and the Byrne Competitive Program was proposed at $30 million. Each of 
these programs could fund initiatives such as that implemented in Chula 
Vista. In addition, we are working closely with the Office of National 
Drug Control Policy (ONDCP) to coordinate our funding efforts with 
those under the High Intensity Drug Trafficking Area (HIDTA) Program.
    Question. Would it be worthwhile to extend these grants for longer 
terms to allow better planning and sustainability by law enforcement?
    Answer. The Department's Bureau of Justice Assistance (BJA), which 
administers the Chula Vista grant, takes a proactive stance on this 
issue. Typically, grantees that submit a 12-month budget are given as 
much as 18 months to plan and implement the project. Additionally, BJA 
is flexible with grant extensions, allowing local agencies to expend 
funding for additional time, when needed and when the law permits, to 
accommodate planning and sustainability concerns.

                   EL PASO INTELLIGENCE CENTER (EPIC)

    Question. As Chair of the Senate Caucus on International Narcotics 
Control, I hosted a hearing entitled ``Drug Trafficking Violence in 
Mexico: Implications for the United States''. Several witnessed 
discussed the importance of intelligence sharing and the great benefit 
that the El Paso Intelligence Center (EPIC) is to the administration's 
National Southwest Border Counternarcotics Strategy, which was released 
in June 2009. DEA has requested funding for an expansion and renovation 
project to enlarge the existing EPIC facility since 22 of the agencies 
participating at EPIC, 8 are planning add personnel in the next year.
    Is this expansion at EPIC critical for the intelligence sharing 
process?
    Answer. In order to facilitate information sharing with the various 
El Paso Intelligence Center (EPIC) partners, a DOJ-DHS Leadership 
Meeting was held at EPIC on June 8, 2010. Attending the meeting were 
Drug Enforcement Administration Administrator M. Leonhart; DEA Chief of 
Intelligence A. Placido; DHS Under Secretary C. Wagner; Customs and 
Border Protection (CBP) Commissioner A. Bersin; United States Border 
Patrol (USBP) Chief M. Fisher; U.S. Immigration and Customs Enforcement 
(ICE) Deputy Assistant Secretary Pena; FBI Deputy Assistant Director D. 
Cardona, USMS Assistant Director M. Earp; Bureau of Alcohol, Tobacco, 
Firearms and Explosives (ATF) Deputy Director K. Melson; and several 
other high-ranking officials. Various topics regarding the information 
sharing process were discussed and ultimately decided upon at this 
meeting. A few examples are detailed below:
  --EPIC shall provide enhanced tactical cueing, analysis and analytic 
        products designed to assist field investigators and 
        interdictors perform their official duties.
  --ATF will stand-up a joint interagency Firearms and Explosives 
        Trafficking Unit. (Note: This unit became operational in July 
        2010 with 3 ATF staff.)
  --The EPIC sharing model will be expanded to provide interdictors 
        access to sensitive information via inclusion of CBP personnel 
        in SOD and the OCDETF Fusion Center;
  --DOJ/DEA would seek funds to develop a backup of the OCDETF Fusion 
        Center's database at EPIC;
  --EPIC will work with the Intelligence Community to acquire 
        additional information to assist law enforcement operations;
  --EPIC and its members will explore ways to expand technical 
        collection along the entire length of the SWB;
  --EPIC should expand training opportunities to State and local law 
        enforcement officers which will forge/enhance the bond between 
        interdictors at the border and the interior of the United 
        States. Increasing the flow of information between these two 
        groups will enhance the quality of intelligence and the 
        efficiency of interdiction operations and criminal 
        investigations; and
  --Rather than creating another center, the focus should be on the 
        formation of a new EPIC Section (Border Intelligence Fusion 
        Section) to address border centric intelligence needs. The 
        number of personnel for this new EPIC Section has not yet been 
        determined.
    To allow space for the various agencies relocating to EPIC, 
expansion is necessary to provide for plans discussed/agreed upon at 
the IS Conference. In December 2008, the Army Corps of Engineers (ACE) 
conducted a study at EPIC regarding current space versus growth 
potential in the existing facility. At that time, the study showed that 
the facility consisted of a total of 324 available work spaces and that 
it housed 340 personnel from the various participating agencies. Since 
the ACE study, EPIC has grown to its current staffing level of 460. 
Conversion and reallocation of other-than-workspace areas has provided 
an additional 65 workstations for a total of 389 existing work spaces. 
The recently converted gym and mail room to office space has provided 
the facility an additional 17 work areas.
    During fiscal year 2011, 8 agencies (listed below) plan to add a 
total of 47 positions to the current EPIC staff of 460 and during 
fiscal year 2012-2015, 7 agencies (listed below) plan to add an 
additional 83 positions.

------------------------------------------------------------------------
                         Agency                              Increase
------------------------------------------------------------------------
Current EPIC Staff......................................             460
                                                         ===============
Fiscal Year 2011:
    ATF.................................................              +6
    FBI (Southwest Intel Group).........................              +1
    USMS................................................              +7
    National Guard Bureau...............................             +17
    Texas Counterdrug...................................              +3
    JTF-North J-2.......................................              +9
    USCG................................................              +2
    DEA.................................................              +2
                                                         ---------------
      Total Fiscal Year 2011............................             +47
                                                         ===============
New EPIC Section........................................         ( \1\ )
                                                         ===============
Fiscal Year 2012-Fiscal Year 2015:
    ATF.................................................              +2
    USMS................................................              +4
    National Guard Bureau...............................             +47
    JTF-North J-2.......................................             +14
    CBP.................................................              +9
    USCG................................................              +3
    DEA.................................................              +2
                                                         ---------------
      Total Fiscal Year 2012-Fiscal Year 2015...........             +83
------------------------------------------------------------------------
\1\ TBD.
 
The above increases would bring the EPIC staffing level to 590 by fiscal
  year 2014-2015.

                            NARCO-TERRORISM

    Question. I believe that unless we address the drug problem in 
Afghanistan with the same level of resolve as the insurgency we will 
fail to stabilize the country. The Drug Caucus has found that the 
Taliban's terrorist operations are increasingly propelled by its huge 
narcotics profits, with as much as $169 million coming from a single 
heroin trafficker in a 10-month period. At present, the DEA, which has 
units to address this type of narco-terrorism, does not have the 
manpower to devote to fulltime operations in Afghanistan, but has 
already been effective in combating major drug violators who are 
providing weapons to the Taliban. For a fraction of our national 
investment in Afghanistan, a DEA unit could be dedicated to removing 
narco-terrorists from the battlefield in direct support of the 
administration's top national security priorities.
    I am asking for funding in the fiscal year 2010 supplemental or in 
fiscal year 2011 appropriations to stand up a new Terrorism 
Investigations Unit at DEA's Special Operations Division to focus on 
Afghanistan.
    Have the existing Terrorism Investigations Unit been effective and 
do you agree that more resources are needed to address threat of narco-
terrorism?
    Answer. DEA has two enforcement groups within its Special 
Operations Divisions (SOD) with the mission of investigating high-level 
foreign-based drug traffickers and narco-terrorists organizations--the 
Bilateral Investigations Unit and the Terrorism Investigations Unit. 
Both units have been able to disrupt and dismantle some of the world's 
most dangerous drug trafficking organizations, as well as organizations 
that have supplied funding and arms to terrorists. The investigative 
success of these units has strengthened DEA's international 
partnerships and proven to be an invaluable prosecutorial tool for the 
U.S. Government.
    The groups primarily conduct joint investigations with DEA Foreign 
Offices working toward U.S.-based prosecutions in coordination with 
SOD's Counter-Narcoterrorism Operations Center (CNTOC), DEA's central 
hub for addressing the increase in narco-terrorism related issues and 
investigations. The CNTOC's primary mission is to coordinate all DEA 
investigations and intelligence linked to counter-terrorism and narco-
terrorism; targeting, investigating, and extraditing individuals who 
are involved with drug proceeds that finance terror; and coordinating 
terrorism-related information with the FBI and other U.S. Government 
agencies.
    The Bilateral Investigations Unit primarily pursues cases of drugs 
being exported to the United States under 21 U.S.C. Sec. 959, and has 
actively investigated major Mexican and Colombian drug traffickers. 
Since its formation in 2002, the Bilateral Investigations Unit has 
realized numerous successes including the indictments of Ismael 
Zambada-Garcia and two key lieutenants; Ignacio Coronel Villarreal; and 
the late Arturo Beltran Leyva and Hector Beltran Leyva. Additionally, 
the Bilateral Investigations Unit indicted 17 Gulf Cartel members under 
Operation Dos Equis.
    In 2007, the DEA established the Terrorism Investigations Unit, a 
second enforcement group that works within SOD. Under the authority of 
21 U.S.C. Sec. 960a, this Unit investigates international criminal 
organizations that use illicit drug proceeds to promote and finance 
foreign terrorist organizations and acts of terror. These DEA agents 
have also produced impressive case results such as the arrest of 
notorious arms trafficker Viktor Bout and his associate Andrei Smulian; 
the arrest of arms trafficker and terrorist Monzer Al Kassar; the 
capture of Haji Bashir Noorzai, reputedly Afghanistan's biggest drug 
kingpin with ties to the Taliban and Al Qaeda and the leader of one of 
the largest drug trafficking organizations in the Central Asia region; 
and the capture of Haji Baz Mohammad, an Afghan heroin kingpin who was 
the first defendant ever extradited to the United States from 
Afghanistan.
    During December 2009, the investigative efforts of the Terrorism 
Investigations Unit resulted in Federal prosecutors charging three West 
Africans with plotting to transport tons of cocaine across Africa in 
concert with Al Qaeda, using 21 U.S.C. Sec. 960a for the first time 
against that group. This investigation highlights the growing trend of 
ties between drug traffickers and Al Qaeda as the terrorist group seeks 
to finance its operations in Africa and elsewhere.
    While the nexus between drugs and terrorism is not a new 
phenomenon, the speed of its growth in the recent past has been 
dramatic. Based on the overwhelming success of these two investigative 
units and the potential to further expand the Government's 
prosecutorial reach beyond our traditional borders, DEA believes that a 
third enforcement group would generate immediate results on a global 
scale; specifically in Afghanistan. Senate Report 111-229, that 
accompanies the Senate's fiscal year 2011 appropriations bill for 
Commerce, Justice, Science, and related agencies, directs DEA to use 
existing resources to create an additional Terrorism Investigations 
Unit.

                               GUN SHOWS

    Question. This April marked the 11th anniversary of the Columbine 
High School massacre. All four of the guns used by the killers were 
purchased through private sellers at gun shows. No background checks 
were required for these sales due to a gap in Federal law known as the 
Gun Show Loophole. Moreover, according to ATF data, gun shows are a 
major source of firearms trafficked into Mexico by drug cartels. Mayors 
Against Illegal Guns--a bipartisan coalition of over 500 mayors from 
across the country--has written a memorandum to the administration, 
called the Blueprint for Federal Action on Illegal Guns, that lays out 
specific administrative reforms that the Justice Department and ATF 
could undertake to improve enforcement at gun shows.
    What is the Justice Department's overall strategy to address 
illegal sales at gun shows?
    Answer. In support of efforts to reduce violent crime and protect 
the public, ATF has a comprehensive strategy for addressing illegal 
firearms trafficking at gun shows. While gun shows and flea markets 
provide an outlet for firearms collectors, dealers and sportsmen to 
engage in the lawful commerce of firearms, they can also provide 
opportunities for prohibited persons, including violent offenders, to 
illegally obtain firearms. The unregulated sale of personal firearms at 
gun shows can increase the likelihood of criminal activity such as 
trafficking and straw purchases. Frequently at these events, criminals 
are able to obtain firearms with no background check and crime guns may 
be transferred with no records kept of the transactions.
    ATF's National Firearms Trafficking Enforcement Strategy went into 
effect in June 2009, guided by a detailed implementation plan to 
identify, investigate, disrupt, and refer for prosecution illicit 
firearms traffickers, including proactive strategies to identify and 
target illegal firearms traffickers at gun shows and flea markets in 
their jurisdictions. There are two main elements to this strategy:
    Element 1 (Pursue Investigations Where There is Reasonable Cause to 
Believe Violations Have Occurred).--ATF Special Agents conduct 
investigations when there is reasonable cause to believe a violation of 
the Federal firearms laws has occurred. As with all investigations, ATF 
bases its decisions to conduct investigative operations at gun shows on 
significant law enforcement intelligence and information from sources 
that indicate illegal activity is occurring at a specific gun show. ATF 
often conducts these operations with the support of and in cooperation 
with State and local law enforcement agencies. These joint law 
enforcement efforts have proven to be successful in ensuring the 
lawfulness of firearms transactions at gun shows.
    In addition to investigating Federal firearms licensees (FFL) 
believed to be violating Federal law, ATF also investigates private 
sellers who appear to be engaged in the business of dealing firearms 
without a license. Some individuals may do so without criminal intent 
and in ignorance of the law. Others engage in firearms trafficking 
purposefully. In both cases, through coordinated investigative and 
outreach efforts, ATF seeks to identify such persons, whether they 
operate out of gun shows or other venues, and deter this illegal 
activity.
    Element 2 (Conduct Proactive Outreach Activities That Educate Gun 
Show Participants and Attendees).--ATF industry operations 
investigators (IOIs) provide outreach at gun shows by proactively 
educating attendees and preventing the illegal diversion of firearms. 
ATF IOIs have held pre-gun show seminars for sellers to educate them on 
Gun Control Act requirements and assist them in detecting and 
preventing straw sales. ATF IOIs have also staffed booths at numerous 
gun shows to provide information and assist with questions from sellers 
and purchasers. In addition, ATF IOIs have displayed posters and 
distributed flyers to gun show attendees on the ``Don't Lie for the 
Other Guy'' program. These flyers explain the legal requirements 
applicable to gun show participants, which vary as among FFL from 
within the State where the gun show is held, FFLs from other States, 
and private individuals.
    Question. Has the Justice Department and ATF implemented the 
mayors' recommendation to enhance gun show enforcement? Does it have 
any plans to do so?
    Answer. ATF's responses to the mayors' recommendations are listed 
below:
  --Recommendation 10.--When tracing guns, ATF National Tracing Center 
        (NTC) personnel should be trained to routinely ask the FFL who 
        sold the gun whether the recovered gun was purchased at a gun 
        show and the location of that gun show, and then use the data 
        to identify problematic gun shows. The NTC began requesting 
        information regarding the location where the sale of a firearm 
        took place (specifically whether the sale occurred at a gun 
        show and if so, the location thereof) from FFLs in June 2008. 
        Our ability to retrieve this information in an automated manner 
        will be improved when ATF's firearms systems are fully 
        upgraded, a process which is estimated to be completed 
        approximately 2 years from now.
  --Recommendation 11.--ATF field agents should have the discretion to 
        conduct criminal enforcement operations at gun shows when trace 
        data, prosecutions, and witness statements suggest a particular 
        show is a source of crime guns. ATF field divisions currently 
        have the necessary latitude to conduct criminal enforcement 
        investigations at gun shows given the set of facts outlined by 
        the mayors.
  --Recommendation 12.--ATF should increase enforcement activities to 
        deter sales to prohibited purchasers by unlicensed gun sellers. 
        ATF currently uses all available information and intelligence 
        to target unlicensed sellers at gun shows who are engaging in 
        illegal activities. ATF recognizes that gun shows are often 
        used by illegal firearms sellers and buyers, and targets these 
        illegal activities as an investigative priority. Through ATF's 
        coordinated investigative and outreach activity, ATF seeks to 
        deter sales to prohibited persons by licensed and unlicensed 
        sellers. ATF Industry Operations Investigators (IOIs) 
        complement ATF's criminal enforcement endeavors at gun shows by 
        taking a proactive approach to educate attendees and prevent 
        diversion of firearms. ATF IOIs have held pre-gun show seminars 
        for sellers to educate them on Gun Control Act (GCA) 
        requirements and assist them in detecting and preventing straw 
        sales. ATF IOIs have also staffed booths at numerous gun shows 
        to provide information and assist with questions from sellers 
        and purchasers. In addition, ATF IOIs have displayed posters 
        and distributed flyers to gun show attendees on the ``Don't Lie 
        for the Other Guy'' program. These flyers explain the legal 
        requirements applicable to gun show participants, which vary as 
        among FFLs from within the State where the gun show is held, 
        FFLs from other States, and private individuals.
  --Recommendation 13.--ATF should investigate private sellers at gun 
        shows who appear to be engaged in the business without a 
        license. ATF currently performs such investigations as part of 
        its firearms trafficking strategy. ATF investigates private 
        sellers who appear to be engaged in the business of dealing 
        firearms without a license. Some individuals may do so without 
        criminal intent and in ignorance of the law. Others engage in 
        firearms trafficking purposefully and with full knowledge of 
        the law. In both cases, ATF seeks to identify such persons, 
        whether they operate out of gun shows or other venues, and 
        deter this activity.
  --Recommendation 14.--At gun shows known for criminal activity, 
        agents should have discretion to compare purchasers' addresses 
        reported on Form 4473 to their State driving records. At gun 
        shows, as with sales at other locations, FFLs are required to 
        confirm a buyer's residence address by comparing the address 
        documented by the purchaser on the ATF Form 4473 with the 
        purchaser's identification document. The information provided 
        by purchasers is particularly important because it is used to 
        initiate the background check process required by the GCA. 
        Confirmation of residence addresses through residence checks 
        has proven to be an important tool to ensure the lawfulness of 
        firearms transactions and to prevent straw purchases. However, 
        Federal laws do not require firearm buyers to submit to any 
        background checks from private non-licensed dealers.

                             ATF RESOURCES

    Question. The stated goal of ATF is to inspect Federal licensed 
firearms dealers once every 3 years--an important practice for ensuring 
dealer compliance with Federal laws and regulations. Yet in 2007, ATF 
inspected only 9.3 percent of FFLs--an average rate of one inspection 
every 11 years.
    Do you believe DOJ, and specifically ATF, currently receive 
adequate funding and resources to conduct firearms compliance 
inspections of dealers every 3 years?
    Answer. ATF currently has approximately 640 industry operation 
investigators (IOIs) conducting firearms compliance inspections on a 6-
year cycle. This amounts to 11,000 firearms compliance inspections 
conducted a year. The primary objectives of these inspections are to 
educate the industry concerning regulatory requirements, and to promote 
compliance and additional internal controls to prevent and detect 
diversion. Although ATF believes a 3-year inspection cycle would be 
optimal, its current ``risk-based'' approach directs existing resources 
to Federal firearms licensees (FFLs) with a history of noncompliance. 
Additionally, with the added resources provided in recent years to 
address firearms violence along the Southwest border ATF has increased 
the number of IOIs on-board and has been able to conduct 3-year 
inspection cycles in this high priority geographic area.
    Question. In addition, when do you expect the President to announce 
a nominee for the Director of the ATF?
    Answer. The administration recognizes the importance of the ATF 
Director position, and we expect that the President will announce a 
nominee for Director of ATF as soon as possible.

                SOUTHWEST BORDER PROSECUTION INITIATIVE

    Question. In April, I wrote a letter to the subcommittee with 
Senators Boxer, Cornyn, Hutchison, Bingaman and Udall asking that 
funding for Southwest Border Prosecution Initiative (SWBPI) be restored 
in fiscal year 2011. The SWBPI program reimburses State, county, 
parish, tribal, and municipal governments for costs associated with the 
prosecution and pre-trial detention of Federal-initiated criminal cases 
declined by local offices of the United States Attorneys. This 
important funding provides local law enforcement agencies with the 
means to prosecute drug trafficking and violent crime cases that have 
been initiated federally but referred to local jurisdictions along the 
southwest border.
    If this funding is not restored, will U.S. Attorneys continue to 
refer cases to State and local jurisdictions for prosecution? If not, 
do the U.S. Attorneys in the Southwest border States have sufficient 
resources to deal with the increased caseload?
    Answer. Local, State, and tribal prosecution offices are important 
partners with the five Southwest border Districts in prosecuting 
criminal offenses that originate along the border between the United 
States and Mexico. Without this partnership, thousands of criminal 
cases, namely narcotic offenses, would not be prosecuted.
    Although the U.S. Attorney's Offices have been allocated additional 
Assistant U.S. Attorney (AUSA) positions to devote to the investigation 
and prosecution of Southwest border type offenses and criminal 
immigration offenses, they still require the assistance of the State, 
local and tribal prosecution offices to prosecute lower level drug 
trafficking crimes, simple possession drug offenses and certain 
juvenile offenses. Since 2008, the Department has allocated an 
additional 111 new AUSA positions to the 5 SWB Districts. Due to the 
additional attorney resources, each of the five SWB Districts saw a 
dramatic increase in its felony caseload from fiscal year 2007 to 
fiscal year 2009. Arizona increased its felony caseload by 1,153 cases; 
southern California increased its felony caseload by 1,567 cases; New 
Mexico increased its felony caseload by 1,155 cases; southern Texas 
increased its felony caseload by 2,674 cases and western Texas 
increased its felony caseload by 2,118 cases. The additional resources 
that the State, local and tribal courts can employ to address and 
combat criminal offenses along the Southwest border increases the total 
number of criminal offenders that can be successfully prosecuted.

                            THOMSON FACILITY

    Question. The fiscal year 2011 Bureau of Prisons (BOP) budget 
request for the Thomson prison is $236.9 million, including funds to 
purchase ($155 million), renovate ($15 million), and staff ($66.9 
million) the facility. The prison will add 1,600 high security beds to 
the Federal system. Some have argued, I believe incorrectly, that 
moving these detainees creates a new terrorist target ``in the 
heartland of America''.
    Can you describe the modifications that will be made to the 
facility to ensure that it will be able to house high-risk Federal 
inmates and former Guantanamo detainees?
    Answer. Additional modifications would be needed to meet BOP's 
security standards to house high security inmates. Below is a list of 
the major modifications needed, together with examples of the necessary 
security enhancements: New stun-lethal fence and new razor ribbon to 
meet BOP guidelines; new fence alarm system; new rear gate and 
sallyport gates; construction of facilities building and storage area; 
and security upgrades, such as: Door locks, hardening of recreation 
cages behind units, adding security fencing within compound, installing 
additional cameras tied to the monitoring system, installing radio 
system base and portables, adding additional security lighting within 
compound, installing anti-crash bollards in front of institution and 
rear, and constructing holding cells in receiving and discharge area.
    Acquisition and activation of the Thomson facility will reduce the 
BOP's shortage of high security, maximum custody cell space. If it is 
determined that a portion of the facility is required for detainee 
management purposes, then the BOP would operate the Thomson facility as 
a high-security administrative maximum prison with Federal inmates and 
make a portion available to the Department of Defense (DOD) to house a 
limited number of detainees. DOD would also be solely responsible for 
the detainees housed in its separate portion of the facility and DOD 
would be responsible for any additional security upgrades to the 
institution that it deemed necessary. However, the facility would be 
owned by the BOP, and the Department would intend to pay the 
acquisition costs.
    Question. How different will this facility be from the Supermax 
facility in Florence, Colorado?
    Answer. The Thomson facility was built for the State of Illinois as 
a maximum security prison and was completed in 2001. It could be used 
fairly quickly after some modifications, which would reduce costs and 
save several years of construction time, as compared to constructing a 
new facility. Moreover the Thomson facility would enable the Bureau of 
Prisons (BOP) to move the most disruptive and violent inmates out of 
existing general population U.S. Penitentiaries (USPs) to a newer, more 
modern facility better suited to the controls required to manage the 
Special Management Unit (SMU) and Administrative Maximum (ADX) type 
population.
    Once modified, Thomson would be similar to ADX Florence in security 
standards and daily operations. Acquiring Thomson would not replace ADX 
Florence, but rather help alleviate inmate crowding levels and provide 
safer conditions for staff and inmates. The number of supermax beds 
available in BOP facilities has not increased since ADX Florence was 
activated in 1994. ADX type and SMU inmates require specific higher 
security standards. Individual cells are required for ADX type inmates 
and, therefore, require more space to operate. The Thomson facility is 
not only larger than the ADX, but by acquiring Thomson, the BOP would 
gain a fairly new high security facility with ample bed space to house 
ADX type and SMU inmates, at a lower cost and within a shorter 
timeframe, than building a new facility from the ground up.
    As it stands now, its size, age, and existing security features 
make it the best, and possibly, only, candidate to be retrofitted to 
meet Federal maximum security requirements.

                              VOCA FUNDING

    Question. On June 24, 2009, Senator Leahy introduced the Crime 
Victims Fund Preservation Act of 2009, of which I am a cosponsor. The 
bill would establish minimum funding levels for the Crime Victims Fund 
for fiscal years 2010 through 2014. The amount made available to the 
fund would be increased by 23 percent each year from $705 million in 
fiscal year 2010 to $1.6 billion in fiscal year 2014.
    Does the Justice Department have a position on this bill and are 
the funding levels proposed in the bill sufficient?
    Answer. The administration remains strongly committed to preserving 
the integrity of the Crime Victims Fund and to supporting all victims 
of crime. The Crime Victims Fund also provides support for programs 
targeting women who are victims of crime and provides resources for 
victim service providers. Like the Crime Victims Preservation Act, the 
fiscal year 2011 President's budget contemplates an increase in the cap 
for the Crime Victims Fund. For fiscal year 2011, the administration 
has proposed a $95 million (13.5 percent) increase to the Crime Victims 
Fund cap for a total of $800 million. Of the total amount requested, 
$100 million is set-aside to support programs to combat violence 
against women. For a given year, the cap for the Crime Victims Fund is 
determined as part of the budget development process for that year. 
Therefore, at this time, the Department has no position on the 
appropriate level for the cap in future years.

                         CRIME VICTIMS CLINICS

    Question. In 2004, Senator Kyl and I successfully enacted 
legislation, the Crime Victims' Rights Act, to provide the victims of 
violent crimes a set of procedural rights under Federal law, and to 
ensure that they have a standing to assert their rights before a court.
    The act also authorized Federal funding for victims' clinics for 
pro bono legal counsel and support services. With the assistance 
provided through these clinics, victims understand their rights, learn 
how to actively engage in the case against their offender, and ensure 
that they are not treated by the justice system as only a ``witness 
to'' or ``piece of evidence in'' the case.
    These clinics are essential to victims' understanding of their 
rights and their subsequent ability to request the enforcement of these 
rights at court. The Office for Victims of Crime has been helpful in 
providing startup funds for clinics in some States, but this funding is 
almost exhausted. In order to fully implement and validate the Crime 
Victims' Rights Act, we believe that the clinics require a constant 
stream of funding.
    Will you work with us to locate a dedicated funding stream for 
these victim clinics?
    Answer. OVC formally communicated to State Victims of Crime Act 
(VOCA) Victim Assistance Administrators in June 2010 that they were 
authorized to use formula VOCA funding to support legal clinics that 
offer legal services to crime victims. This clarification was a pivotal 
step in support for the legal clinics, as previously most States 
believed that the existing VOCA Guidelines prohibited them from 
supporting legal clinics with VOCA funding. To ensure continued 
progress, the Department's Office for Victims of Crime (OVC) supports 
the institutionalization and expansion of the crime victims' rights 
enforcement programs authorized for funding by subsections 103(A) and 
(b)(4) of the CVRA. OVC is in the process of revising existing 
guidelines for VOCA victim assistance funding and developing 
regulations that will further clarify and articulate the policy that it 
is appropriate and allowable to use this funding to support legal 
assistance to crime victims for issues related to their criminal 
victimization, including legal representation during criminal 
proceedings.
                                 ______
                                 
           Questions Submitted by Senator Frank R. Lautenberg

    Question. My understanding is that a legally purchased firearm was 
recovered in the Times Square bombing suspect Faisal Shazad's car at 
JFK Airport. As you know, NICS background check records for firearm 
purchases are destroyed in 24 hours after a purchase is approved.
    Do you think that destroying NICS background check records that 
were used in approving a gun purchase in just 24 hours is a good idea?
    Answer. National Instant Criminal Background Check System (NICS) 
background check records for ``proceeded'' transactions (i.e., 
background checks that reveal no prohibiting information about the 
purchaser) are contained in the NICS Audit Log. Information in the NICS 
Audit Log concerning proceeded transactions is required by law to be 
destroyed within 24 hours. NICS has been complying with that 
requirement since July 21, 2004, without incident. Regardless of the 
length of retention, moreover, information in the NICS Audit Log 
concerning proceeded transactions may only be used for limited 
purposes, which do not include routine law enforcement functions. As a 
result, changing the retention period for NICS Audit Log information 
would not necessarily make that information more available as an 
investigative tool.
    Question. In the absence of the requirement to destroy the NICS 
background check record of Faisal Shahzad in 24 hours, do you believe 
that the FBI would have known right away by reviewing his background 
check record that the suspect had purchased a firearm and could be 
armed with it?
    Answer. If Mr. Shahzad attempted to purchase a firearm from a 
Federal firearm licensee, a NICS background check record would have 
been created. Even assuming that this record was maintained in the NICS 
Audit Log beyond 24 hours, however, it would not reveal whether the 
firearm was actually transferred. Moreover, as noted above, the FBI's 
ability to use that record for law enforcement purposes is constrained 
by law.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby

                             NIST FORENSICS

    Question. Attorney General Holder, The National Academy Forensics 
Study made 13 recommendations to shore up deficiencies identified by 
their investigation. The areas requiring attention are standards, 
practices, protocols, research, ethics, education, training, 
accreditation, certification, proficiency testing, report writing and 
testimony. Included in the recommendations is the creation of a 
national institute of forensic science.
    What is your opinion on this report and its recommendations?
    Answer. The Department welcomed the report of the National Research 
Council of the National Academies of Science (NAS) entitled, 
Strengthening Forensic Science in the United States: A Path Forward 
(the NAS report). The report is an important contribution to the public 
discourse on the state of the forensic science community, and it 
recommends many useful steps to strengthen the community and enable it 
to continue to support an effective criminal justice system. In fact, 
many of these steps are familiar to those in the forensic science 
community, including DOJ, and have been discussed among practitioners 
for some time.
    Question. What is your Department doing to address these 
recommendations? Is there a timeline for action?
    Answer. The Department of Justice is participating in the inter-
agency Subcommittee on Forensic Science (SOFS) of the National Science 
and Technology Council, organized by the White House's Office of 
Science and Technology Policy. The SOFS is currently preparing 
recommendations for coordinated, comprehensive executive branch action 
to advance the goals of the NAS report.
    Question. The report cites the need for increased scientific 
research in the forensic disciplines, how is the administration going 
to address this recommendation? Are you working with science agencies 
like NIST, NSF, and OSTP?
    Answer. The Department of Justice is participating in the inter-
agency Subcommittee on Forensic Science (SOFS) of the National Science 
and Technology Council, organized by the White House's Office of 
Science and Technology Policy. DOJ and NIST are the co-chairs of the 
SOFS, and NSF is an active participant. The SOFS is working on 
coordinated, comprehensive executive branch action to advance the goals 
of the NAS report, including increased scientific research. For 
example, on a recommendation from the SOFS, in September 2010 NSF 
sponsored a symposium on cognitive bias and forensic science. This 
recommendation from the SOFS responds directly to issues raised in 
chapter 4 of the NAS report.
    In addition, the Department's National Institute of Justice (NIJ) 
has several projects in place that address the need for more funding of 
forensic science research:
  --NIJ awarded $7.9 million in fiscal year 2009 and $7.2 million in 
        fiscal year 2010 under a solicitation entitled, ``Fundamental 
        Research to Improve Understanding of the Accuracy, Reliability, 
        and Measurement Validity of Forensic Science Disciplines.''
  --NIJ recently issued its first-ever grant solicitation focused on 
        research and development for medicolegal death investigations 
        and in June 2010, NIJ held its first symposium for medical 
        examiners and coroners in an effort to identify their research 
        needs.
  --NIJ's Office on Investigative and Forensic Sciences recently 
        initiated an NIJ-Forensic Sciences Foundation grant program 
        which provides research grants to students in FEPAC accredited 
        colleges and universities.
    Question. In my opinion, the solution to the issues raised by the 
NAS is going to involve more than just the Department's assets. While I 
don't think the creation of a separate and independent National 
Institute of Forensic Science is realistic, I do think that some type 
of partnership between Justice, NIST, and NSF will be required. Would 
you be supportive of this type of arrangement?
    Answer. As noted above, the Department already works closely with 
NIST and NSF through the SOFS and supports continued close cooperation 
to jointly improve forensic science.

                        ADAM WALSH ACT RESOURCES

    Question. There are an estimated 135,000 non-compliant sex 
offenders in the United States and the Marshals Service estimates they 
need a dedicated force of 500 deputies working on these cases to fully 
implement the Adam Walsh Act.
    In March 2010, President Obama appeared on ``America's Most 
Wanted'' with John Walsh and made a pledge to increase funding and 
personnel for enforcement of the Adam Walsh Act. The President 
highlighted that ``it is very important for us to build up U.S. 
Marshals' capacity. That is something we want to do in the Federal 
budget . . . my expectation is that we will get support, bipartisan 
support, from Congress on this issue because it is so important to 
every family across America.''
    If fully funding the Adam Walsh Act is a priority for the 
President, why didn't DOJ request additional resources for the Marshals 
Service in the fiscal year 2011 budget request?
    Answer. The Adam Walsh Child Protection and Safety Act is a 
significant and landmark piece of legislation that considerably 
enhances the ability of the Department to respond to crimes against 
children and vulnerable adults and prevent sex offenders who have been 
released back into the community from victimizing other people. In 
fiscal year 2011, the administration is requesting $336 million for 
Adam Walsh Act related activities, an increase of $20 million (6.3 
percent) to support implementation of the provisions of the Act.
    Question. Can Congress expect to receive an amended fiscal year 
2011 request adding resources for Adam Walsh Act enforcement?
    Answer. The Department is not aware of any pending supplemental 
requests or budget amendments that would direct additional resources to 
the Department specifically to enforce the Adam Walsh Act. However, 
most of the activities authorized by the act are already performed as 
part of the Justice Department's traditional mission. In most 
instances, for programs where the act authorized specific funding 
levels, the Department is spending at or above those levels.

            DANGER PAY FOR USMS AND ATF PERSONNEL IN MEXICO

    Question. While the DEA and FBI receive danger pay for their 
personnel in Mexico due to prior authorizations passed in 1990 and 
2002, the Marshals Service and ATF do not have this same authorization 
language. USMS and ATF personnel face the same risks as their DEA and 
FBI counterparts in Mexico and should be equally compensated.
    Due to recent killings of consulate workers in Juarez, the State 
Department added danger pay for all U.S. Government employees working 
in six Mexican cities (Juarez, Matamoros, Monterrey, Nogales, Nuevo 
Laredo, and Tijuana). State's guidelines are limited to where personnel 
are ``posted''; therefore, USMS and ATF personnel who are officially 
posted in Mexico City (not on State's list of six Mexican cities) will 
not receive danger pay.
    How is this administration working to rectify this danger pay 
disparity among DOJ law enforcement personnel working in Mexico?
    Answer. This subject is complicated by the random nature of the 
violence that could put our employees in harm's way, and the diversity 
of operational requirements between FBI, DEA, USMS, and ATF. We have 
made great strides in the last year to better understand this issue and 
other steps besides danger pay are promotions for those who serve in 
Mexico.
    Within the last year, the Department of State has authorized danger 
pay for five cities in Mexico. In addition, during recent discussions 
with State, we have been made aware that a 5 percent Hardship Allowance 
based upon ``danger'' factors at a post has been authorized for four 
additional cities in Mexico, including Mexico City.
    Currently Danger Pay is authorized for the following cities in 
Mexico: Ciudad Juarez at 15 percent; Matamoros at 15 percent; Monterrey 
at 15 percent; Nogales at 15 percent; and Tijuana at 15 percent.
    Danger factors within the Hardship Differential provide 5 percent 
additional at the following posts: Guadalajara is at 5 percent but 
would be at zero otherwise; Hermosillo is at 15 percent but would be at 
10 percent otherwise; Merida is at 15 percent but would be at 10 
percent otherwise; and Mexico City is at 15 percent but would be at 10 
percent otherwise.
    The Department of State has assured us that they are regularly 
monitoring the situation in Mexico.
    Question. Why was danger pay for USMS and ATF not included as a 
legislative need in the fiscal year 2011 budget request?
    Answer. The administration is currently addressing this issue; 
therefore, a legislative proposal at this time would be premature.
    Question. When can Congress expect to see a proposed legislative 
solution to this issue?
    Answer. DOJ and the Department of State are working collaboratively 
on the issue of Danger Pay in Mexico and have made great strides within 
the last year, as noted in response to your previous question. We are 
actively engaged in discussions on a legislative package that would 
bring parity between our agencies, though the timing of such 
legislation has not been decided. We are committed to ensuring the 
safety of our employees stationed abroad and appreciate the level of 
interest and support you have provided us on this issue.

              DHS-DOJ DISPARITY ALONG THE SOUTHWEST BORDER

    Question. On April 19, Senators McCain and Kyl released a 10-point 
plan to increase Southwest border security. The plan proposes adding 
resources to DHS, particularly Border Patrol, but not for DOJ's 
components. Many Southwest border districts are already operating at 
capacity, particularly the Marshals Service and Office of Detention 
Trustee, in terms of space to hold detainees. Adding more resources 
without balancing the request to include DOJ agencies could lead 
Southwest border districts to the breaking point.
    Does the administration believe there is parity between DHS and DOJ 
along the Southwest border?
    Answer. The administration is working to facilitate parity between 
DHS and DOJ on the Southwest border. Any increase in Department of 
Homeland Security (DHS) enforcement activity has a ``downstream'' 
impact on workload and resource requirements that affect the rest of 
the criminal justice system, including both DOJ and the Judiciary. A 
principal area of concern along the Southwest border is the existing 
capacity of the prosecutorial, judicial, detention and incarceration 
components to respond to increased efforts by law enforcement. 
Currently, the annual number of apprehensions outpace prosecutorial 
capacity for criminal cases involving illegal immigration, drug 
trafficking, border violence and gangs; litigation and adjudication 
capacity for immigration cases moving through the Federal courts; 
detention capacity for the criminally accused as they move through the 
criminal justice system; and incarceration capacity for the criminally 
convicted after they are sentenced.
    Additional funding directed at certain critical chokepoints could 
make matters worse if it is provided without considering the entire 
scope of Southwest border requirements. These chokepoints include: 
limits in human capital, training and facilities for new personnel 
(both operational and administrative); and infrastructure and other 
physical capital constraints along the Southwest border, particularly 
USMS cellblock/courthouse space, detention/incarceration beds, and 
tactical support resources. Outside of the DOJ, the limited number of 
courtrooms, judges, magistrates, and other members of the judiciary 
further restrict the Federal Government's ability to increase 
prosecutorial caseload and process larger numbers of offenders in the 
justice system.
    Question. If the McCain-Kyl plan makes its way to legislation, what 
resources would DOJ agencies need to maintain parity with DHS?
    Answer. Funding provided in the 2010 Emergency Border Security 
Supplemental Appropriations bill will allow the Department of Justice 
to expand our investigations and prosecutions. With the $196 million 
provided, the Department will be able to surge Federal law enforcement 
officers to high crime areas in the Southwest border region by funding 
more than 400 new positions and temporarily deploying up to 220 
personnel. Specifically, Justice funding would increase the presence of 
Federal law enforcement in the Southwest border districts by adding 
seven ATF Gunrunner Teams, five FBI Hybrid Task Forces, additional DEA 
agents and Deputy U.S. Marshals, equipment, operational support, and 
additional attorneys and immigration judges and to support additional 
detention and incarceration costs for criminal aliens in coordination 
with Department of Homeland Security enforcement activities. The 
supplemental would also provide funding to support Mexican law 
enforcement operations with ballistic analysis, DNA analysis, 
information sharing, technical capabilities, and technical assistance. 
However, some of these funds were required for Justice to prosecute the 
current level of Operation Streamline prosecutions. Any significant 
increase in resources of the Border Patrol will have a significant 
downstream impact on the Department of Justice and the Administrative 
Office of the Courts.
    Question. How would DOJ component agencies--the Marshals Service, 
Office of Detention Trustee, U.S. Attorneys Office--be affected if 
Operation Streamline is expanded to all districts along the Southwest 
border?
    Answer. The capacity of the criminal justice system in the 
Southwest border region presents a very real impediment that needs to 
be addressed before Operation Streamline can be expanded beyond its 
present scope. These impediments include the physical constraints of 
courthouses along the border, including the number of defendants that 
can be housed and processed in a given day; the number of judges, 
magistrates, and other judicial personnel; and the number of detention 
beds where defendants can be housed in reasonable proximity to a given 
courthouse. Presently, courthouse structures in the region are 
inadequate to process large numbers of additional defendants. Moreover, 
the U.S. Marshals Service and U.S. Attorneys would have to modify or 
waive a number of their internal requirements in order to process an 
increase in defendants. Even increasing the daily shift of operations 
within the courthouses, particularly in Tucson, Arizona and San Diego, 
California, would be insufficient to process the increase in defendants 
likely to arise from expanding Operation Streamline.
    Increased Department of Homeland Security (DHS) enforcement 
activity in the Southwest border region would have a ``downstream 
impact'' on workload and resource requirements--affecting the rest of 
the criminal justice system, including the Justice Department and the 
Administrative Office of the U.S. Courts (AOUSC). For example, felony 
drug arrests and subsequent additional investigations would likely 
increase, resulting in the need for additional Drug Enforcement 
Administration agents and support staff, and the need for additional 
attorney and intelligence analyst personnel deployed as part of the 
Organized Crime Drug Enforcement Task Forces Program. Further, 
additional Alcohol, Tobacco, Firearms and Explosives personnel would be 
needed to address gun trafficking arrests and investigations. In 
addition, Operation Streamline would increase the fugitive warrant 
workload, which in turn further impacts the USMS. The workload of other 
parts of the system, including the Executive Office for Immigration 
Review and the Civil Division's Office of Immigration Litigation, would 
also increase. As stated previously, AOUSC would likely require 
additional courthouse space, judges, magistrates, and other judicial 
personnel to accommodate pressures resulting from the increased DOJ 
investigative and prosecutorial workload.
    Question. Can DOJ provide this subcommittee with a detailed report 
about the resources needed if Operation Streamline was expanded to all 
Southwest border districts?
    Answer. Operation Streamline has been viewed as a consequence-based 
prosecution initiative in which many U.S. Customs and Border Protection 
(CBP) apprehensions are criminally prosecuted. Operation Streamline is 
currently in place in some form in several sectors in the Southwest 
border region. However, even in those sectors where Operation 
Streamline is in place, many of the programs have a ``daily cap'' in 
terms of prosecutions based on resource limitations of Department 
components and Federal courts. For example, although CBP arrests 
several hundred individuals each day in the Tucson, Arizona Sector, 
only 70 cases per day are prosecuted under the auspices of Operation 
Streamline. This number is capped at 70 cases due to resource 
limitations of the U.S. Marshals Service cellblock and personnel, 
courtroom space, availability of court personnel, and detention bed 
space.
    In order to implement Operation Streamline across the entire 
Southwest border region in a true zero-tolerance form, Department 
components and the Federal court system would need additional 
resources, such as:
  --Additional personnel would be needed by the U.S. Marshals Service, 
        the U.S. Attorneys Offices, and the courts.
  --Additional resources for the Federal Prisoner Detention Fund would 
        also be required.
  --Additional construction funding would be needed to exponentially 
        enlarge cellblock space in all Southwest border U.S. 
        Courthouses.
    At this time, the Department cannot provide a detailed report about 
the resources needed Government-wide if Operation Streamline was 
expanded to all Southwest border districts. Many of the Department cost 
inputs fluctuate. For example, detention costs are dependent on both 
detainee population levels and per diem jail rates. These levels and 
the average per diem jail rate would fluctuate as the immigration 
workload shifted to other border zones with less stringent immigration 
enforcement policies. Other factors impacting costs, also unknown, 
include time in detention (which is at the discretion of the courts; 
average sentence terms from Operation Streamline cases have not been 
uniform across Operation Streamline locations) availability of bed 
space, as well as courthouse and cellblock space limitations.
    Funding provided in the 2010 Emergency Border Security Supplemental 
Appropriations bill will allow us to expand our investigations and 
prosecutions. With the $196 million provided, the Department will be 
able to increase the presence of Federal law enforcement in the 
Southwest border districts by adding seven ATF Gunrunner Teams, five 
FBI Hybrid Task Forces, additional DEA agents and Deputy U.S. Marshals, 
equipment, operational support, and additional attorneys and 
immigration judges and to support additional detention and 
incarceration costs for criminal aliens in coordination with DHS 
enforcement activities.

                              DEA-EPIC-ICE

    Question. Mr. Attorney General, I understand that there is 
considerable confusion about providing support to the law enforcement 
community in the interdiction of bulk currency and that at least two 
centers--the El Paso Intelligence Center or EPIC and the Bulk Currency 
Smuggling Center operated by ICE--are competing with one another to 
provide similar services to law enforcement.
    Are you aware of this and what can you tell us about plans to 
assure that tax dollars are not being wasted?
    Answer. DEA and the Department of Justice are aware of the ICE Bulk 
Currency Smuggling Center (BCSC). The Department is aware that there 
may be duplication of effort and confusion over the bulk currency 
activities of the BCSC and DEA's El Paso Intelligence Center (EPIC). 
Several meetings between DEA--representing EPIC--and ICE--representing 
the BCSC--have recently been held to address this matter and to assure 
the effective and efficient expenditure of appropriated funds. There 
has been some progress in these discussions but the matter has not yet 
been conclusively resolved. Since 1974, EPIC has operated as an 
interagency intelligence center providing tactical support to law 
enforcement organizations dealing with illegal aliens, weapons, 
contraband drugs and, by extension, the currency that represents the 
proceeds of these illegal activities. As a multi-agency tactical 
intelligence center with representatives from 20 Federal agencies, 
including ICE, and liaisons assigned from Colombia and Mexico. EPIC has 
been responsible for tactical cueing and providing intelligence and de-
confliction for law enforcement agencies from across the country for 
more than three decades.

             BUREAU OF PRISONS/THOMPSON CORRECTIONAL CENTER

    Question. The fiscal year 2011 budget requests a total of $237 
million--$170 million for purchase and renovation and $67 million for 
equipping and staffing--the Thompson Correctional Center. The Thompson 
Correctional Center is an Illinois State Prison that would be converted 
into a high security U.S. Penitentiary. It is also the site that the 
administration has identified for relocating terrorists who are 
currently housed at GITMO.
    Mr. Attorney General, was the $237 million for Thompson 
Correctional Center part of the Department of Justice fiscal year 2011 
budget request to OMB? Or was this funding added to the Department's 
request by the administration?
    Answer. Regarding budget deliberations, the nature and amounts of 
the President's decisions and the underlying materials are 
confidential. As described in the fiscal year 2011 Congressional 
Justification, the Thomson facility provides an opportunity to 
alleviate prison overcrowding in a cost effective manner. As of August 
12, 2010, BOP institutions are crowded 37 percent over rated capacity, 
causing triple bunking in low and medium security institutions, and 
double bunking in high security institutions. Crowding is 53 percent 
over capacity in high security facilities. Capacity must be expanded to 
promote safe prison operations for both staff and inmates.

                   NATIONAL DRUG INTELLIGENCE CENTER

    Question. The Department is requesting $45 million for the National 
Drug Intelligence Center.
    Mr. Attorney General, was the $45 million for the National Drug 
Intelligence Center part of the Department of Justice fiscal year 2011 
budget request to OMB? Or was this funding added to the Department's 
request by the administration?
    Answer. The Department of Justice fully supports the $45 million 
included in the fiscal year 2011 President's budget request for NDIC. 
The funding represents the ongoing cost to maintain NDIC operations and 
does not reflect an enhancement of NDIC's programs. Deliberations that 
led to the President's budget decisions are confidential to the 
executive branch, and congressional justification materials describe 
requests made in the fiscal year 2011 President's budget.

                        DRUG INTELLIGENCE CENTER

    Question. The subcommittee understands that OMB suggested shutting 
down all but the Document and Media Exploitation activities of the 
National Drug Intelligence Center since OMB believed the drug analysis 
functions are duplicated in other Federal drug intelligence centers. 
OMB believed such an action would save $22 million in fiscal year 
2011--$22 million that could be used for combating terrorism and other 
high priorities that I believe OMB has not funded at the appropriate 
levels.
    Mr. Attorney General, do you believe there is merit to the OMB 
suggestion? Is the analytical function of the National Drug 
Intelligence Center duplicative of other centers?
    Answer. The National Drug Intelligence Center (NDIC) provides 
beneficial intelligence products to the Department as well as other 
drug law enforcement stakeholders. Deliberations on the future of NDIC 
that led to the President's budget decisions are confidential to the 
executive branch, and congressional justification materials describe 
requests made in the fiscal year 2011 President's budget.
    Question. Mr. Attorney General, you are requesting $42 million to 
expand the DEA's El Paso Intelligence Center. Would it make sense to 
consolidate the drug analysis work at the National Drug Intelligence 
Center into DEA's El Paso Intelligence Center?
    Answer. The funds being requested to expand EPIC are to accommodate 
an anticipated growth in the number of U.S. and international partners 
that are now collaborating to advance our interests in securing the SWB 
and confronting transnational criminal organizations.
    Deliberations that led to the President's budget request are 
confidential to the executive branch, and congressional justification 
materials describe requests made in the fiscal year 2011 President's 
budget.

                      ADMINISTRATION ``EARMARKS''

    Question. Congress is often chastised by the administration for 
funding projects and programs--derisively called ``earmarks''--that 
were not proposed in the President's budget. What the administration 
does not willingly identify are the ``earmarks'' that they add to an 
agency's budget for their initiatives. So, Madame Chairwoman, I'd like 
to bring some transparency to the process--just as we are required to 
declare and itemize our requests, so should the administration.
    Mr. Attorney General, for the record, would you provide a list of 
the projects and programs and associated funding that was added to your 
fiscal year 2011 budget request by the administration and which were 
not included in your original budget request to the OMB.
    Answer. Regarding budget deliberations, the nature and amounts of 
the President's decisions and the underlying materials are 
confidential. Information describing the President's request can be 
found in congressional justifications.

                        PEER REVIEW COSTS AT DOJ

    Question. Previously at OJP, there had been questionable peer 
review problems, in particular at the National Institute of Justice, 
where peer reviewers were actually reviewing contracts that their 
lobbyist were competing for.
    What is the average cost of reviewing an application within the 
Office of Justice Programs?
    Answer. Office of Justice Programs (OJP) peer review cost averages, 
as well as a breakdown of the costs for each of the OJP bureaus and 
program offices from fiscal year 2006 through fiscal year 2009, are 
detailed on the attached spreadsheet. See Attachment 2.

                                                SUMMARY OF OFFICE OF JUSTICE PROGRAMS PEER REVIEW COST DATA FISCAL YEAR 2006 TO FISCAL YEAR 2009
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                            Fiscal Year  Fiscal Year                Fiscal Year  Fiscal Year                Fiscal Year                                 Fiscal Year  Fiscal Year
                              Fiscal Year   2006 Total       2006     Fiscal Year   2007 Total       2007     Fiscal Year   2008 Total     Fiscal Year    Fiscal Year   2009 Total       2009
                               2006 Total    Number of     Average     2007 Total    Number of     Average     2008 Total    Number of     2008 Average    2009 Total    Number of     Average
       Program Office         Peer Review  Applications  Peer Review  Peer Review  Applications  Peer Review  Peer Review  Applications    Peer Review    Peer Review  Applications  Peer Review
                                  Cost         Peer        Cost per       Cost         Peer        Cost per       Cost         Peer          Cost per         Cost         Peer        Cost per
                                             Reviewed    Application                 Reviewed    Application                 Reviewed    Application \1\                 Reviewed    Application
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
BJA.........................     $280,000           789         $355   $1,061,058         2,486         $427   $1,381,184         2,046           $675     $3,959,506         7,215         $549
BJS \2\.....................      ( \3\ )       ( \3\ )      ( \3\ )      ( \3\ )       ( \3\ )      ( \3\ )      ( \3\ )       ( \3\ )        ( \3\ )        $49,082           156         $315
CCDO........................      $22,050            63         $350      $20,950            55         $381      $23,891            56           $427        $53,222            91         $585
NIJ \4\.....................   $1,176,233         2,019         $583   $1,282,720         2,383         $538   $1,572,875         1,609           $978     $1,536,148         1,679         $915
OJJDP.......................     $296,021           663         $446     $509,815         1,164         $438     $747,979           949           $788     $2,601,590         4,421         $588
OVC.........................      $60,448           135         $448      $83,862           116         $723     $136,051           102         $1,334       $400,316           452         $886
SMART \5\...................      ( \3\ )       ( \3\ )      ( \3\ )      ( \3\ )       ( \3\ )      ( \3\ )     $102,832           110           $935        $85,349            90         $948
                             -------------------------------------------------------------------------------------------------------------------------------------------------------------------
      Total Amount \6\......   $1,834,752         3,669  ...........   $2,958,405         6,204  ...........   $3,964,812         4,872  ...............   $8,685,213        14,104
      Average Amount........  ...........  ............         $436  ...........  ............         $501  ...........  ............           $856    ...........  ............         $684
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Fiscal year 2008 costs included the development and implementation of an OJP peer reviewer database that is used by all OJP bureaus and offices.
\2\ BJS did not implement the OJP peer review process until fiscal year 2009. Prior to fiscal year 2009, BJS conducted their peer review entirely in-house and did not use OJP's Grants
  Management System (GMS).
\3\ N/A.
\4\ Concept papers are included in NIJ's total number of applications, and did not have in-person peer review. The number of concept papers were fiscal year 2006: 967; fiscal year 2007: 1,159;
  fiscal year 2008: 636; fiscal year 2009: 180.
\5\ SMART did not start administering and peer reviewing their own grants until fiscal year 2008.
\6\ Fiscal year 2009 cost and application data includes American Reinvestment and Recovery Act of 2009 (ARRA) funding applications. The peer review contract cost in fiscal year 2009 decreased
  due to the volume of ARRA applications, many of which were reviewed internally.

    Question. What has OJP done to ensure this hasn't happened again?
    Answer. Within 48 hours of OJP assigning applications to a peer 
reviewer, the peer reviewer is required to disclose any conflict of 
interest on the OJP Disclosure of Conflict of Interest form. This form 
is retained in OJP's Grants Management System (GMS). If a peer reviewer 
discloses a conflict of interest with any applicant, OJP's Bureau or 
Program Office, in consultation with the Office of the General Counsel 
(OGC), will review the Disclosure of Conflict of Interest form and 
determine if the peer reviewer needs to be removed from the peer review 
of the application(s). If the peer reviewer is removed from the peer 
review process, the reviewer's access to the application(s) is 
eliminated.
    To prevent conflicts of interest during the application review 
process, NIJ issued, in June 2010, internal guidance entitled National 
Institute of Justice Guidelines on the Administration and Management of 
NIJ Grant Programs (the ``Guidelines''), for the administration and 
management of all NIJ grant programs to ensure that key aspects of the 
pre-award and award process for grants and cooperative agreements are 
documented. Beginning with fiscal year 2010 awards, all NIJ staff 
involved in the pre-award evaluation process are required to complete a 
Disclosure of Conflict of Interest form, which is reviewed by the 
immediate supervisor, certifying that they have reviewed the OJP OGC 
Guidance on Conflicts of Interest and indicate if they perceive that 
they have a conflict with any of the applications they have been 
assigned to review. If the memorandum cites a possible conflict, the 
supervisor will review the signed memorandum, consider the conflict, 
review the subject employee's Confidential Financial Disclosure Report, 
and make a determination about whether or not a conflict exists. The 
supervisor may work with NIJ's Office of Operations staff to consult 
with OGC when input is deemed necessary. If the supervisor determines a 
conflict exists, he or she must recuse the staff member from dealing 
with a specific grant application or from an entire solicitation. 
Similar procedures to avoid conflicts of interest exist throughout OJP.
    Additionally, NIJ staff attended mandatory ethics training in 
November 2009 conducted by OJP's OGC.
    Question. There will be differences in costs between bureaus in 
OJP. Why is there such a difference?
    Answer. OJP bureaus and program offices conduct one or more of the 
following three types of peer review: standard review, internal review, 
and in-person review. The type of peer review determines, in large 
part, the cost.
    A standard peer review process includes, but is not limited to: 
creating standard forms for solicitations; three peer reviewers 
reviewing approximately 15 applications each; a $125 per application 
stipend for each peer reviewer; technical assistance for the peer 
review process and OJP's Grants Management System (GMS); a conference 
call or a webinar with the peer reviewers to discuss the initial peer 
review scores within a defined variance; and post review activities 
such as developing the funding tables and drafting the non-funded 
letters. External reviewers are used in this process, but are not 
brought to a central location for discussion and consensus review.
    An internal review process includes the same activities as the 
standard review process, but DOJ employees are used as reviewers. 
Unlike outside reviewers, Federal employees do not receive a stipend 
for reviewing applications. Finally, an in-person review also includes 
costs such as travel, hotel, and per diem, for bringing the reviewers 
to a central location.
    The following chart details estimated fiscal year 2010 costs based 
on the type of peer review process utilized by the respective bureau or 
program office.

------------------------------------------------------------------------
                                    Estimated
                                   Fiscal Year
    Bureau or Program Office      2010 Cost Per     Elected Processes
                                   Application
------------------------------------------------------------------------
Bureau of Justice Assistance               $800  Standard Peer Review
 (BJA).                                           Process.
Bureau of Justice Statistics               $500  Internal and External
 (BJS).                                           Reviewers.
Community Capacity Development   ..............  CCDO cancelled
 Office (CCDO).                                   competitive
                                                  solicitations in
                                                  fiscal year 2010.
National Institute of Justice              $925  Standard Process with 4
 (NIJ).                                      or   (versus 3) reviewers.
                                                  The additional peer
                                                  reviewer increases the
                                                  cost by $125 per
                                                  application.
                                         $1,250  In-Person Meeting.
Office of Juvenile Justice and             $800  Standard Peer Review
 Delinquency Prevention (OJJDP).                  Process.
Office for Victims of Crime                $860  Standard Peer Review
 (OVC).                                           Process.
Sex Offender Sentencing,                   $860  Standard Peer Review
 Monitoring, Apprehending,                        Process.
 Registering, and Tracking
 Office (SMART)
------------------------------------------------------------------------

  --BJS costs are lower because BJS conducts mostly internal (DOJ 
        employee) peer reviews. An internal peer review process 
        eliminates the $125 stipend that is paid to non-Federal 
        employee peer reviewers. Also, the contractor does not need to 
        provide technical assistance on how to use OJP's Grants 
        Management System.
  --NIJ, as an independent scientific research agency, has higher costs 
        because of the complexity of its research methodological 
        issues, and its need to conduct both standard and in-person 
        peer reviews. In-person peer reviews allow for the effective 
        exchange of scientific information and provide a forum for peer 
        reviewers to discuss and debate various approaches to 
        conducting criminological experiments. The in-person costs are 
        higher because they include travel costs (airfare, hotel, meals 
        and expenses) for the peer reviewer. Also, NIJ costs are higher 
        for standard peer reviews because NIJ often uses four or more 
        peer reviewers instead of three peer reviewers. An additional 
        peer reviewer increases the cost of a standard peer review by 
        $125 per application. For both standard and in-person peer 
        reviews, additional activity is undertaken to develop the NIJ 
        specific funding tables (in lieu of the more standardized 
        scoring/tier reports prepared for other agencies/offices, and 
        to identify each application's principal investigator for 
        inclusion in the funding table and application summary).
  --OVC and SMART generally conduct standard peer reviews, but the 
        costs are slightly higher because a reduced number of 
        applications are assigned per panel, thereby increasing the 
        number of reviewers and panels. In addition, all or most 
        applications are discussed during consensus reviews, which 
        increase the duration of the reviews.
    Question. Please list the costs from fiscal year 2006 to fiscal 
year 2009 and explain if there is a significant difference in costs.
    Answer. Please see the attached chart that lists, for each year 
from fiscal year 2006 to fiscal year 2009, the total peer review cost, 
the number of applications peer reviewed, and the cost per application 
for each fiscal year for each OJP bureau and program office.
    The current OJP peer review contract supported the fiscal year 2008 
and fiscal year 2009 peer review process. The overall cost of peer 
review increased from approximately $4 million in fiscal year 2008 to 
$8.7 million in fiscal year 2009 because the number of applications 
peer reviewed increased from 4,872 to 14,104. The increase in the 
number of applications OJP received and peer reviewed in fiscal year 
2009 was largely due to funding appropriated pursuant to the American 
Reinvestment and Recovery Act (Recovery Act) of 2009. It is important 
to note that per application peer review costs were less in 2009 than 
in 2008 due to the fact that program offices had to assume many of the 
peer review tasks themselves in order to handle the unanticipated 
volume of Recovery Act applications.
    In fiscal years 2006 and 2007, the peer review services for each of 
the OJP bureau and program offices were covered under individual 
contracts in each of the program offices. In fiscal year 2007, OJP 
awarded a new consolidated peer review contract. The consolidated peer 
review contract did not start providing peer review support for the OJP 
bureaus and program offices until fiscal year 2008. The consolidated 
peer review contract supported a standard peer review process across 
OJP. This included additional tasks and a standard fee of $125 per 
application for the peer reviewers. It also included the development 
and maintenance of an OJP Peer Review Database. Development of the 
database was a necessary, but added peer review cost. The OJP Peer 
Review Database currently has over 4,000 peer reviewers registered. The 
OJP bureaus and program offices must select peer reviewers from the 
Peer Review Database.
    Comparing application costs across fiscal years is difficult for 
two primary reasons: (1) Different contractors were used in 2006 and 
2007 than in 2008 and 2009, and (2) the number and complexity of the 
tasks were different in each of the fiscal years. Comparing different 
tasks between fiscal years and among program offices is made more 
difficult by several variables that determine the per application 
costs. Among those variables that account for varying costs are:
  --The number of tasks conducted by the contractor (Program offices 
        request different levels of support, so costs are not standard 
        across program offices in OJP.)
  --The number of peer reviewers on each panel (Some program offices 
        require four peer reviewers instead of the standard three 
        reviewers per panel.)
  --Whether reviews are conducted onsite or via telephone (The costs of 
        transporting peer reviewers in to a central location is 
        exponentially more expensive, but is often necessary.)
  --The specialization and qualifications of the peer reviewers 
        (Program offices, such as the National Institute of Justice, 
        require professionals with specific qualifications, such as 
        doctoral degrees, or professional expertise in an unusual 
        subject.)
  --Whether the contract costs include mailing non-funding letters with 
        edited panel comments (Some program offices prepare and mail 
        their own non-funding letters.)
  --The manner in which consensus is reached (in person vs. via 
        telephone) and whether or not consensus is required (Again, 
        this relates to the transportation costs for bringing together 
        panel members for a consensus review. Larger awards may require 
        onsite consensus review.)
    Accordingly, it is difficult to make an absolute comparison among 
fiscal years because contractors, tasks, practices, and scenarios 
differed during this time span. While many efficiencies have been 
introduced over the past 3 years, OJP also has placed new and 
additional requirements on the contractor in order to ensure that there 
is transparency in the award process and that fair and open competition 
can be properly documented.
    See Attachment 2.
    Question. If the application costs increased under the current 
contract for peer review services over the last 3-4 years, what is this 
attributable to?
    Answer. The current OJP peer review contract supported the fiscal 
year 2008 and fiscal year 2009 peer review process. The overall cost of 
peer review increased from approximately $4 million in fiscal year 2008 
to $8.7 million in fiscal year 2009 because the number of applications 
peer reviewed increased from 4,872 to 14,104. The increase in the 
number of applications OJP received and peer reviewed in fiscal year 
2009 was largely due to funding appropriated pursuant to the American 
Reinvestment and Recovery Act of 2009.
    Question. Finally, what cost containment strategies are 
contemplated?
    Answer. In an effort to streamline the process and reduce costs, 
OJP released a Request For Quotation (RFQ) in July 2010 for peer review 
activities in fiscal year 2011-fiscal year 2015. In addition, the OJP 
bureau and program offices perform continuous reviews to reduce costs 
and, whenever appropriate, choose to complete peer review tasks in-
house and/or conduct a standard peer review instead of a higher-cost 
in-person peer review.
    Question. Please have OJP's OCFO task OAAM (Office of Audit 
Assessment and Management) to prepare these cost work ups, and the 
bureaus and program offices confirm the figures for accuracy before 
submitted.
    Answer. See attached chart, also provided in response to Senator 
Shelby's Questions 20 and 23. See Attachment 2.

                        FORENSICS COST ANALYSIS

    Question. As you know I am opposed to NIJ's efforts of bailing out 
their friends with taxpayer dollars to cheapen the quality of evidence 
by outsourcing DNA work to private contractors, as I believe we need to 
build our crime labs up and increase their capacity so that they can 
respond to the ongoing increase of cases that come that way. I find it 
unfortunate that many politicians have put unrealistic mandates on the 
crime labs yet they have not provided them the tools to meet those 
mandates and as a result they are forced to outsource. I am very 
concerned with your agencies clear leaning toward private contractors 
on this matter, particularly NIJ. Your office continues to put together 
panels with handpicked agencies so that you can present outcomes that 
support your position.
    Please provide me a clear cost analysis of doing business with a 
private lab and include in that the cost to work the case from 
reception; including detection of stains on all items, identification 
of those stains, isolating and examining portions of those stains, and 
testifying in court.
    Answer. NIJ provides Forensic DNA Backlog Reduction grants directly 
to State and local government laboratories for the purpose of reducing 
their backlogs. Backlog reduction activities may include the provision 
of overtime to DNA analysts, the purchase of supplies required for the 
DNA analysis of samples, and/or the outsourcing of samples to 
accredited fee-for-service laboratories for DNA analysis. NIJ also 
provides funding to State and local government laboratories to purchase 
equipment and hire/train DNA analysts so they can build their capacity 
to the point where they will not have to rely on assistance from 
private labs.
    NIJ's primary backlog reduction program, the Forensic DNA Backlog 
Reduction Program, provides funding to States and units of local 
government through grants. Recipients of these grants may choose to 
send casework evidence samples to accredited fee-for-service 
laboratories for DNA analysis if they do not have the capacity to 
conduct the analysis themselves. Because NIJ does not establish or 
manage casework contracts with private laboratories, it is difficult to 
assess the total cost of doing business with the private laboratories. 
Some private laboratories post their fee schedules publicly (e.g. 
http://www.bodetech.com/solutions/dna-identification-services/forensic-
casework-price-list), and based on the examination of selected budgets 
submitted with requests for funding in fiscal year 2009, the estimated 
cost of outsourcing casework can range from $200 to $2,500 per case, 
with an approximate average of $994 per case; however, this is not a 
full analysis of all costs involved and may be influenced by other 
variables such as the number of samples tested per case, the extent of 
forensic testing (i.e., identification of stains or screening for 
biological fluids), differing types of DNA analysis methods (e.g., STR, 
Y-STR, mtDNA), or variations in the number of samples requested per 
month. Additionally, NIJ does not allow Forensic DNA Backlog Reduction 
Program grant funds to be used for expert witness testimony, and as 
such, does not collect information regarding the costs associated with 
court testimony.
    NIJ's other Forensic DNA backlog reduction program, the Convicted 
Offender and/or Arrestee DNA Backlog Reduction Program, provides 
funding through grants to State laboratories that perform forensic DNA 
analysis for upload to the Offender Index of the Combined DNA Index 
System (CODIS). Through the grant program, a State may request up to 
$35 per sample to perform DNA analysis in its own CODIS laboratory, or 
it may contract up to $35 per sample to a qualifying private fee-for-
service laboratory to perform the DNA analysis. Qualifying laboratories 
are those that are accredited, have obtained a National Environment 
Policy Act Finding of No Significant Impact from OJP, receive mandatory 
annual DNA audits, and as such, are on the list of approved vendors. 
The current list of qualifying laboratories consists of five private 
laboratories; however, any accredited laboratory can become a 
qualifying laboratory by contacting NIJ and meeting and completing all 
requirements.
    If a State has samples that were collected from convicted offenders 
and/or arrestees and are pending DNA analysis for upload to CODIS, and 
the State does not wish to establish or manage a contract with a 
private laboratory, that State can request that NIJ contract directly 
with the private laboratory for the DNA analysis of the backlogged 
convicted offender and/or arrestee samples. Because NIJ allows States 
that receive grants from the Convicted Offender and/or Arrestee DNA 
Backlog Reduction program to use granted funds to send backlogged 
samples to private laboratories, contracts between OJP and private 
laboratories are established only at a State's request. These contracts 
are established and managed by OJP's Acquisitions Management Division. 
In fiscal year 2009, the contracted cost per sample ranged from $22.90 
to $32.00. Similar costs are anticipated for fiscal year 2010.

                   NATIONAL ACADEMY OF SCIENCE STUDY

    Question. Does the Department of Justice have or is it developing a 
position on any of the issues of forensic reform as noted in the 
National Academy of Science report? Please include accreditation of 
laboratories and other forensic service providers, certification of 
those individuals who provide testimony in court regarding their 
findings, initiating research to determine what has yet to be done to 
improve the various examinations conducted, what support can be given 
to help laboratories to develop the capacity to handle casework 
received in an acceptable timeframe, and what support can be given to 
encourage students to pursue careers in forensic science and forensic 
pathology?
    Answer. The Department of Justice has not itself taken a position 
on the specific recommendations of the NAS report, but rather has 
participated in the inter-agency Subcommittee on Forensic Science 
(SOFS) of the National Science and Technology Council, organized by the 
White House's Office of Science and Technology Policy. The SOFS is 
currently preparing recommendations for coordinated, comprehensive 
executive branch action to advance the goals of the NAS report.

                                  FBI

    Question. In an effort to fully understand this change in FBI 
Laboratory policy and what prompted this sudden policy change, I'm 
submitting the same questions I mailed to Director Mueller in a letter, 
to the Department of Justice so we can have these answers on record. I 
request that you provide the answers to the following questions and 
produce all documents and information requested for the record.
    The FBI laboratory is one of the few executive board members of 
American Society of Crime Lab Directors (ASCLD), who issued the 
aforementioned position statement in support of the status quo and 
restricting access to NDIS to public labs. Explain why the FBI 
Laboratory, who has representation on this body's executive board, 
contradicts the position so soon after ASCLD's release of its position 
statement. Did undue pressure change the FBI position?
    Answer. The FBI Laboratory's position regarding private laboratory 
access to the National DNA Index System (NDIS) does not contradict that 
of the American Society of Crime Lab Directors (ASCLD). The FBI's March 
23, 2010 press release clearly states, ``The administration and 
operation of the National DNA database is an inherently governmental 
function that supports criminal investigations conducted by our 
Federal, State, local, and tribal law enforcement partners. Therefore, 
the FBI's assessment does not include re-evaluating access to NDIS.'' 
Both the ASCLD position statement and the FBI's press release reaffirm 
support for the status quo that private laboratories should not have 
access to the NDIS. Both statements also support looking for ways to 
enhance the NDIS process so that DNA profiles can optimally assist in 
fighting crime.
    Several members of the forensic community, including ASCLD, have 
been interested in improving the process of analyzing, reviewing, and 
entering DNA profiles into NDIS. The President of ASCLD requested the 
FBI's ex-officio (non-voting) member of the Board of Directors to 
communicate with the ASCLD Advocacy Committee. The extent of those 
communications was to understand the problems perceived by State and 
local crime laboratory directors and to advise of potential efforts the 
FBI Laboratory may consider to help all NDIS laboratories. However, 
there was no pressure whatsoever put upon the FBI's ex-officio member 
for the FBI to change its policy on private laboratory access to NDIS 
or other related policies that would benefit private DNA laboratories.
    Question. The FBI's Scientific Working Group on DNA Analysis 
Methods (SWGDAM), CODIS State Administrators, and ASCLD have all issued 
positions strongly supporting the status quo and restricting access to 
NDIS. With these and other subject matter experts supporting the 
current FBI procedures and national standards, who specifically at the 
FBI decided to move toward loosening these standards and made the 
decision to change this policy?
    Answer. As previously noted, the FBI's March 23, 2010 press release 
clearly states, ``The administration and operation of the National DNA 
database is an inherently governmental function that supports criminal 
investigations conducted by our Federal, State, local, and tribal law 
enforcement partners. Therefore, the FBI's assessment does not include 
re-evaluating access to NDIS.'' The scope of the current review is 
limited to a re-evaluation of NDIS procedures to determine whether 
time/backlog efficiency improvements would be possible, with no 
diminution in the current level of NDIS integrity. Again, the FBI 
Laboratory is not considering any changes to NDIS access, which is 
currently limited to Federal, State and local criminal justice 
agencies.
    Question. Provide the names, dates, and attendees of any meetings 
held between the FBI Laboratory Director or his representative, and 
representatives of vendor DNA laboratories prior to this press release.
    Answer. The FBI Laboratory Director has had the following relative 
interactions with vendor laboratory representatives prior to the 
release of the March 23, 2010, press release:
  --Brief courtesy discussions with vendor participants at professional 
        meetings, such as the International Association of Chiefs of 
        Police (IACP), American Academy of Forensic Sciences, ASCLD, 
        CODIS Conference, etc. At no time at any of these events did he 
        discuss FBI Laboratory requirements or vendor capabilities.
  --On October 23, 2009, at the request of the IACP, the FBI Laboratory 
        Director and the Executive Assistant Director of the FBI's 
        Science and Technology Branch, Louis Grever, met with IACP 
        deputy executive director Jim McMahon and IACP member Howard 
        Safir (former NYPD Police Commissioner, IACP president, and 
        current CEO of Bode Technology). Mr. McMahon's and Mr. Safir's 
        stated purpose was to represent the opinions of senior law 
        enforcement officials regarding the value of DNA and the need 
        for faster turnaround times. All present were cognizant of Mr. 
        Safir's current position with Bode Technology, and the 
        conversation was never allowed to stray into discussion of 
        Bode's capabilities or FBI requirements relative to contracted 
        DNA analysis. It is noted that Bode Technology is currently 
        under contract to the FBI for providing DNA support to 
        Metropolitan Police Department (MPD) casework and laboratory 
        workspace for MPD laboratory staff.
  --On November 2, 2009 Jeff Boschwitz of Orchid Cellmark approached 
        the FBI Laboratory Director on the exhibitor floor of the CODIS 
        Conference and requested a meeting to discuss various issues of 
        interest to Orchid Cellmark. The FBI Laboratory Director 
        expressed that this meeting would be inappropriate per the 
        Federal Acquisition Rules and FBI Ethics procedures. Subsequent 
        e-mail attempts by Mr. Boschwitz to engage the Laboratory 
        Director were unanswered. The FBI Laboratory Director has had 
        no other communications of any kind with Mr. Boschwitz or 
        Orchid Cellmark.
    Prior to issuing the press release, representatives of the FBI 
Laboratory engaged in conversations with the ASCLD, SWGDAM, CODIS State 
Administrators, the Police Executive Research Forum (PERF), the IACP, 
and other Federal, State, local, and tribal agencies, including the Los 
Angeles Police Department (LAPD), to determine if a re-evaluation was 
necessary. The FBI did not engage with lobbyists or industry 
representatives on this issue.
    Question. Did the FBI issue this press release because of pressure 
from Congress, lobbyists, or industry representatives?
    Answer. No, the FBI did not issue the March 23, 2010 press release 
because of pressure from Congress, lobbyists, or industry 
representatives. Rather, the decision by the FBI to re-evaluate current 
policies, standards, and protocols was informed and influenced by 
inquiries to the FBI Laboratory by members in the law enforcement and 
forensic community.
    The issue of DNA backlogs and the technical review process has 
drawn significant attention from Congress, and the FBI has been 
contacted by Members of Congress and/or their staffs by letter and 
phone. FBI representatives have had meetings and conversations with 
Members of Congress and/or their staff regarding the DNA backlog, 
technical review, and other related issues. For example, 
representatives of the FBI Laboratory met with staff from the Senate 
Judiciary Committee on March 2, 2010 to discuss potential efficiencies 
that could be gained by this re-evaluation of policies, standards, and 
protocols. Members of Congress and/or their staffs have expressed their 
interest in legislating on the issue of DNA backlogs. While the FBI is 
aware that Congress has the authority to legislate this issue, the FBI 
is more concerned with the accuracy, the backlogs, and the long 
turnaround times for casework, which decreases the utility of NDIS to 
solve crime.
    Prior to the press release, the FBI Laboratory engaged in 
conversations with the LAPD, ASCLD, SWGDAM, CODIS State Administrators, 
PERF, the IACP, and other Federal, State, local, and tribal agencies to 
determine if a re-evaluation was necessary.
    The FBI Laboratory is aware of activity by lobbyists and industry 
representatives who seek either private laboratory access to CODIS and/
or a repeal of the 100 percent technical review requirement. The FBI 
has not interacted with individuals representing either of these 
groups.
    Question. Was the FBI told by Congress, lobbyists, or industry 
representatives that if the FBI does not move in this direction, 
changes will be legislated? If so, who?
    Answer. While Members of Congress and/or their staffs have 
expressed interest in legislating these issues, the FBI was not 
expressly told by Congress, lobbyists, or industry representatives that 
changes would be legislated in the absence of action by the FBI. While 
the FBI is aware that Congress has the authority to legislate this 
issue, the FBI is more concerned with the accuracy, the backlogs and 
the long turnaround times for casework, which decreases the utility of 
NDIS to solve crimes. The FBI Laboratory is obligated to ensure the 
quality and integrity of the data in NDIS, as well as ensure 
operational efficiency. The re-evaluation described in the March 23, 
2010 press release is a responsible measure to fulfill these 
obligations.
    Question. Has the FBI attended any meetings with the National 
Institute of Justice (NIJ) and discussed vendor laboratories? If so, 
please provide details and all documentation of the items discussed.
    Answer. The FBI has not attended any meetings with the National 
Institute of Justice (NIJ) to discuss vendor laboratories since 2006.
    Question. Provide specific details of the FBI's past experience 
with vendor DNA laboratories, to include the name of the vendor 
laboratory and the results of any lab errors that were detected by the 
FBI after the vendor review was conducted.
    Answer. Since 2003, the FBI Laboratory has participated in four 
outsourcing contracts. These contracts are as follows:
  --Outsourcing to Orchid Cellmark of nuclear DNA casework for serology 
        and Short Tandem Repeat (STR) analysis. Contract amount was 
        $1,100,000. Period of performance was from September 2003 
        through July 2007.
  --Outsourcing to Orchid Cellmark of nuclear DNA casework for 
        retesting purposes. Contract amount was $113,000. Period of 
        performance was from September 2003 through September 2005.
  --Outsourcing to The Bode Technology Group of Federal Convicted 
        Offender database samples for STR analysis. Contract amount was 
        $1,000,000. Period of performance was from February 2004 
        through December 2006.
  --Outsourcing to The Bode Technology Group of Metropolitan Police 
        Department (MPD) backlog cases for serology and STR analysis, 
        as well as space for the operation of the MPD DNA Laboratory, 
        has totaled $2,100,000 to date. The period of performance has 
        spanned September 2008 to present.
    During the FBI's technical review of the outsourced Federal 
Convicted Offender data, several errors were identified with the vendor 
(The Bode Technology Group) laboratory data. These errors can be 
classified into the following categories: administrative, clerical, 
quality, and incorrect profiles. Administrative and clerical errors 
included items such as missing or incomplete paperwork and 
typographical errors. Quality issues occurred when the vendor 
laboratory reported data that did not meet the FBI's interpretation 
guidelines. These samples had to be reanalyzed by the vendor 
laboratory. Finally, there were instances in which the reported profile 
was determined to be incorrect during the FBI technical review of the 
data. In these instances, the samples had to be reanalyzed by the 
vendor laboratory. Any errors that were identified during the FBI's 
technical review of data submitted by the vendor laboratory were 
subsequently corrected and ultimately accepted by the FBI.
    Administrative, clerical, and quality issues were also observed 
with the outsourced serology and STR analyses conducted by the vendor 
laboratory (Orchid Cellmark) on both contracts initiated in September 
2003. Most significantly, the vendor laboratory notified the FBI 
Laboratory of the improper testing and reporting of laboratory results 
by an Orchid Cellmark examiner on submitted FBI Laboratory casework. In 
these instances the samples were reanalyzed by the vendor laboratory, 
and further reviewed by the FBI Laboratory, prior to ultimate 
acceptance.
    Question. Provide specific details on the architecture and scope of 
what the FBI plans to do after this press release. What will the 
process entail? How long will this evaluation last?
    Answer. The FBI's ``Initiative to Enhance NDIS Efficiency'' began 
with a kick-off meeting on April 26, 2010 during which the objectives 
of this re-evaluation were established. The participants invited to 
this meeting included representatives from the IACP, SWGDAM, the Police 
Executive Research Forum, ASCLD, the American Society of Crime 
Laboratory Directors/Laboratory Accreditation Board (ASCLD/LAB), 
Forensic Quality Services-International, the National Institute of 
Standards and Technology (NIST), the National Institute of Justice 
(NIJ), and the New Scotland Yard Metropolitan Police Service (United 
Kingdom). Representatives from these agencies attended the meeting, 
with the exception of the IACP and the New Scotland Yard Metropolitan 
Police Service.
    At this meeting, the FBI presented a strawman proposal for the re-
evaluation of NDIS policies, standards, and procedures and began 
discussions with these groups on the process under which the NDIS re-
evaluation is to be conducted. The FBI Laboratory has reached out to 
additional stakeholder groups most likely to be affected by any change 
in NDIS processes and practices for their comments. The FBI then 
presented this strawman proposal to additional stakeholders, such as 
the NDIS Board, CODIS State Administrators, SWGDAM Executive Board, and 
ASCLD Board. The groups were requested to provide feedback and 
suggestions. The FBI is looking at all proffered proposals and comments 
to determine the best course of action.
    The FBI expects to maintain communication with these various groups 
as their comments and information is gathered. The FBI will continue to 
seek their input on the acceptability and feasibility of any proposed 
changes to the operation of the National DNA Index. Additionally, the 
FBI hopes to collect data and suggestions from jurisdictions that have 
been successful in reducing their DNA backlogs. Once the FBI has all 
the relevant information, it will evaluate the data and determine a 
timeline, as well as if a pilot project is needed. Based on the 
stakeholder input, the changes will be discussed with SWGDAM, who, if 
necessary and in agreement, will recommend changes to the Quality 
Assurance Standards to the FBI Director.
    Question. Once the evaluation is completed, who at the FBI will 
decide whether any procedures should be changed?
    Answer. Once the FBI's re-evaluation of all NDIS policies, 
standards, and procedures is complete, FBI Laboratory management will 
propose recommended changes (if any) to the FBI Director. When the FBI 
Director approves changes to the Quality Assurance Standards, the NDIS 
Procedures Board will make changes to the operational procedures of 
NDIS. The NDIS Procedures Board is composed of 12 individuals 
representing the FBI, SWGDAM, CODIS State Administrators, and State and 
local labs providing the highest volume of criminal and offender 
casework to NDIS. The NDIS Procedures Board approves changes to NDIS 
Procedures based upon a majority vote for which a quorum of members is 
present. Any proposed changes will be compliant with current 
legislation governing the operation of CODIS.
    Question. If any changes are recommended, will the FBI require the 
CODIS State Administrators to unanimously endorse the proposed changes 
as it is the individual States who are affected most by a reduction in 
the review of vendor DNA data? If not, why is the FBI ignoring the 
opinions and concerns of these experts?
    Answer. The FBI recognizes that the States, and the DNA records 
that they contribute, are responsible for the success of the NDIS. The 
FBI's practice has always been to seek out the views and opinions of 
the CODIS State Administrators, the NDIS Procedures Board, and the 
SWGDAM, with respect to any fundamental changes in the operation of 
NDIS. This is generally done at either the semi-annual CODIS State 
Administrators meetings or at NDIS Procedures Board and SWGDAM 
meetings. For situations requiring a more immediate response, the FBI 
solicits comments or input via e-mail requests. The FBI encourages 
CODIS State Administrators to make their views known during such 
meetings or through written communications. All of their views/comments 
are reviewed and carefully considered by the FBI before any new 
procedure or change is implemented. In those instances in which a 
substantial change to existing procedures is contemplated, the FBI 
often institutes such a change on a pilot basis to further evaluate the 
need for the change and the impact, if any, on the CODIS community. The 
FBI understands the importance of the CODIS community in the continued 
success of the CODIS and NDIS Programs.
    With regard to this particular re-evaluation of NDIS policies, 
standards, and procedures, the FBI conducted an initial meeting with 
the CODIS State Administrators May 11-12, 2010, and plans to meet with 
them again in November 2010 to discuss potential revisions to NDIS 
procedures. FBI will solicit the opinions of these individuals at every 
step in the re-evaluation process. The FBI has also established an e-
mail address for distribution of regular updates on the NDIS procedural 
re-evaluation, as well as for ease of solicitation of feedback from all 
interested in the re-evaluation process.
    Question. Federal law directs SWGDAM to oversee changes to the 
FBI's quality assurance standards. Newly revised standards were just 
completed last year. At that time, did the Office of General Counsel of 
the FBI review the new standards and indicate that the FBI should 
loosen the standard of review for vendor labs? Will the FBI require a 
unanimous endorsement from SWGDAM on any proposed changes? If not, why 
not?
    Answer. The DNA Identification Act of 1994 specifies that the FBI 
Director's Quality Assurance Standards shall be developed, and if 
appropriate, revised by the DNA Advisory Board (DAB), an entity 
established by the act and tasked with these responsibilities. The act 
also defined the Board's tenure to not exceed 5 years. The first 
meeting of the DAB occurred in May 1995 and the last in December 2000. 
The DNA Advisory Board recognized the Quality Assurance Standards would 
require direction and management beyond their 5 year tenure, and 
identified TWGDAM (Technical Working Group for DNA Analysis Methods), 
later re-named SWGDAM (Scientific Working Group for DNA Analysis 
Methods) as an appropriate body to provide such support. When the DNA 
Advisory Board was dissolved in December 2000, it was their 
recommendation that future revisions to the Quality Assurance Standards 
be performed by SWGDAM.
    As an advisory authority, and not derived from a statutory role, 
the FBI's SWGDAM accepted the DNA Advisory Board's recommendation for 
maintaining and providing recommendations to the FBI Director for the 
Quality Assurance Standards. SWGDAM revised the Quality Assurance 
Standards in 2007 and 2008. These revisions were vetted not only by 
accrediting agencies, specifically the American Society of Crime 
Laboratory Directors/Laboratory Accreditation Board (ASCLD/LAB) and 
Forensic Quality Services (FQS), but also by the governmental 
laboratories and the public. All comments received by the deadline were 
considered by SWGDAM. After the public review, the proposed revisions 
were forwarded to the FBI's Office of General Counsel (OGC) for review. 
The FBI's OGC requested minor revisions to language in the standards, 
but did not presume to offer counsel on any technical issues, including 
the technical review requirement. The recommended revisions to the 
Quality Assurance Standards were approved by the FBI Director and went 
into effect July 1, 2009.
    The FBI is fully engaging SWGDAM on any proposed changes regarding 
the NDIS enhancement proposals, especially with regard to the FBI 
Director's Quality Assurance Standards. The SWGDAM by-laws specify that 
the affirmative vote of the majority of a quorum of SWGDAM members 
shall be an act of SWGDAM. Therefore, a unanimous endorsement by SWGDAM 
of any proposed changes to the Quality Assurance Standards is not 
required under SWGDAM's current by-laws.
    Question. The FBI's CODIS Unit reports that the current framework 
has aided approximately 100,000 investigations and to date, has never 
incorrectly identified an offender to law enforcement. The FBI is now 
implementing the new Federal law where a DNA sample will be collected 
from Federal arrestees. By the FBI's own estimate, it will receive more 
than a million additional DNA samples a year. Provide the justification 
on why the FBI is considering loosening the quality standards when the 
number of samples the FBI will be putting into the database is going to 
increase dramatically.
    Answer. The FBI continues to endorse the highest quality standards 
possible for DNA analyses as an active member of many groups which 
espouse quality in forensic science, to include SWGDAM, ASCLD, and 
ASCLD/LAB. Having managed NDIS for 12 years, the FBI has a thorough 
understanding of the effect of data quality on the ability of the 
National DNA Database to aid investigations and solve crimes. The re-
evaluation of policies, standards, and procedures being performed must 
ensure that quality and integrity of data are priorities, and under no 
circumstances will the FBI make changes to procedures that will 
endanger the effective operation of NDIS. The FBI has no intention of 
lessening quality standards, but rather has the goal of making the 
operation of NDIS more efficient for all who use information derived 
from this system.
    Question. Do you plan to outsource any of the testing related to 
the increase in Federal DNA collections, and if so, why?
    Answer. The FBI does not currently plan to outsource any of its 
Federal DNA Database Program testing. The FBI does use the services of 
contractor staff working within the FBI Laboratory to process DNA 
samples submitted under the Federal Convicted Offenders Program (FCOP). 
The FBI continues to build its capacity to be able to analyze 90,000 
samples per month and is on track to eliminate its offender backlog 
later this year. When the backlog is eliminated, the FBI Laboratory 
envisions achieving a 30-day turnaround on samples submitted under 
current legislation.
    Question. The FBI is proposing that they perform site visits and 
audits to screen private labs to participate as an ``AOL'' associated 
outsourcing laboratory. Do they know how many private labs they will 
accommodate? Will they use existing resources to do this or ask for 
more money or positions to handle this workload?
    Answer. The FBI Laboratory offered a ``strawman'' proposal to its 
stakeholders to stimulate discussions on if, and how, the operation of 
the National DNA Index System could be enhanced to better serve the law 
enforcement and CODIS communities. Input and comments from its 
stakeholders revealed that the ``strawman'' proposal was not a 
direction that a majority of its CODIS community was comfortable in 
pursuing at this time. As a result, the initial proposal is no longer 
under consideration. Instead, the FBI is reviewing proposals that would 
necessitate minor changes to the FBI Director's Quality Assurance 
Standards (QAS) for Forensic DNA and DNA Databasing Laboratories to 
provide States with additional flexibility in data review and their 
database and searching operations.
    While the associated outsourcing laboratory proposal is no longer 
under consideration, it has been suggested that the FBI's performance 
of site visits, if acceptable under the QAS, would provide some 
additional flexibility to the States for accepting ownership of 
outsourced DNA records. The FBI will be reviewing this proposal with 
all of its stakeholders to determine if additional personnel or 
resources would be necessary to perform on-site visits of private 
laboratories.
    Question. Does the FBI plan to propose this process for offender 
samples and move the process to ease work samples after a pilot 
project?
    Answer. At this time, only minor changes to Quality Assurance 
Standards for both Forensic DNA and DNA Databasing Labs are being 
considered. These changes will give the States options for performing 
the 100 percent technical review, to include the use of contractors or 
assistance from other NDIS-participating laboratories. At this time, 
there are no immediate plans to conduct a pilot project.
    Question. The FBI apparently supports dropping the quality 
assurance practice of public labs technically reviewing data produced 
by private labs prior to upload to CODIS. The American Society of Crime 
Lab Directors (ASCLD) and CODIS technical administrators cite a number 
of concerns with quality of data from private labs that raise the 
concern. If public labs must own the data after it is tested by the 
outsourced private lab, why does the FBI feel that a review of that 
data is no longer warranted as an important quality assurance measure? 
(Note: ASCLD is concerned about taking ownership of data that has not 
been reviewed by public labs only prior to upload. Developing a profile 
and acquiring a hit in the database only generates an investigative 
lead in many cases. Additional work and court testimony often has to be 
performed as follow up.)
    Answer. The ``strawman'' proposal offered to the law enforcement 
community included the concept of transferring the responsibility of 
data quality to the private laboratory. The feedback provided by ASCLD 
and the CODIS State Administrators indicated that this was not a 
favorable option and strongly opposed the removal of the 100 percent 
technical review requirement. Alternative suggestions, which will give 
States additional flexibility on review of outsourced data, are being 
considered.
    Question. Does the FBI plan to make a path for private labs to 
eventually have the capability to upload samples to NDIS to some 
extent? ASCLD opposes any access by private entities, approved by the 
FBI or otherwise, to have access to confidential public information. 
Why does the FBI appear to lean toward developing data to support some 
level of access by private labs to NDIS?
    Answer. As mentioned in our March 2010 press release announcing the 
review of the National DNA Index System, the FBI believes that 
participation in NDIS is an inherently governmental function that is 
properly limited to criminal justice agencies for law enforcement 
identification purposes. The FBI does not support permitting private 
organizations or entities direct access to NDIS, and the FBI has no 
plans to collect data to support any efforts for private entities to 
obtain access to NDIS.
    Question. The FBI stated that private labs have assisted with 
testing one-half of the current offender profiles that public labs have 
uploaded to the database (not casework samples). They appear to site 
this statistic as some sort of justification or entitlement for working 
with private labs. What is their view on the importance of citing the 
number of cases that public labs have been forced to outsource due to a 
lack of capacity in their own labs?
    Answer. In describing the success of the National DNA Index System 
in generating investigative leads for criminal investigations, the FBI 
acknowledges the contributions of Federal, State, local and private 
laboratories that have generated the DNA records contained in NDIS. The 
number of investigations aided by NDIS is attributable to the number of 
DNA records stored at the national level. Through the NDIS review 
process, the FBI is working together with our stakeholders to provide 
the flexibility to the States to operate their DNA databases in the 
most efficient manner appropriate to their individual needs, whether 
the data is generated in-house or outsourced.
    Question. The FBI recently surveyed all NDIS labs in an effort to 
assess the current DNA backlog. The majority of the DNA review problems 
for offenders and cases is limited to only a few labs, and including 
the FBI as one of the worst. The FBI is not in favor of making the raw 
survey results public and are proposing an elaborate plan before even 
looking at the data to even see what the problem is.
    Answer. No response required.
                                  bop
    Question. OMB's Capital Programming Guide (OMB Circular No. A-11, 
Part 7) provides very specific direction regarding the analysis 
required to justify capital investments. Please describe the step-by-
step process the Bureau of Prisons and the Department undertook to 
justify the purchase of the Thompson Correctional Center (TCC). In 
particular, please share with us the results of your cost-benefit and 
risk analyses? What viable alternatives were examined and what were the 
decisive factors that favored Thompson?
    Answer. BOP Capacity Planning Committee has explored various 
possibilities to increase higher security bed space. In considering the 
Thomson Correctional Center, BOP's capacity planning and analysis 
followed the guidance set forth by OMB Circular A-11, Part 7. 
Continuing increases in the Federal inmate population pose a 
substantial and ongoing challenge for BOP--particularly at the medium 
and high security levels. BOP must increase its capacity, and can do so 
by acquiring and renovating existing structures, expanding existing 
facilities (where infrastructure permits), and constructing new 
prisons. The fiscal year 2011 activation of the Thomson facility would 
reduce the crowding rate in BOP high security institutions from 53 
percent to 46 percent over rated capacity. Without this acquisition, 
crowding in BOP high security institutions is expected to reach 57 
percent over rated capacity.
    BOP representatives visited the Thomson facility in 2009 and 2010 
and determined that the institution was suitable, with modifications, 
to meet BOP's specific needs for special administrative high security 
bed space. After the State of Illinois indicated its interest in a 
sale, BOP researched the State's construction costs, met and spoke with 
facilities staff at Thomson, and developed preliminary estimates for 
maintenance and retrofit requirements. As part of the President's 
budget request, the OMB Exhibit 300s are posted on the Department's Web 
site and is available at: http://www.justice.gov/jmd/2011justification/
exhibit300/.
    The Thomson facility is uniquely different than other properties 
the BOP has considered. The Thomson facility is modern, was never fully 
utilized, and was built specifically to house maximum security inmates. 
Based on other ongoing construction projects, BOP estimates that it 
would cost between $200 million and $300 million to construct an 
equivalent high security facility in the current market, and it would 
take approximately 3 to 4 years to complete the Environmental 
Assessment process, proceed through the procurement process, and 
complete construction. The costs and time to activate the Thomson 
facility are expected to be significantly less; given security criteria 
for Administrative Maximum (ADX) and Special Management Unit (SMU) 
inmates, BOP determined the Thomson acquisition would be the best 
value.
    Question. Because of the proximity of the TCC to the Mississippi 
River, environmental concerns were raised about the prison that faded 
when the decision was made not to open the prison. What were those 
concerns? Have you conducted an Environmental Assessment/Environmental 
Impact Statement to support purchase of the TCC? If not, how did you 
by-pass National Environmental Policy Act requirements?
    Answer. The Bureau of Prisons (BOP) has not received information 
regarding specific environmental concerns leading to the decision by 
the State of Illinois to construct the Thomson facility. However, BOP 
intends to conduct an Environmental Assessment pursuant to the National 
Environmental Policy Act; it is anticipated that environmental impacts 
to the Mississippi River will become part of the overall analysis. As 
with any Environmental Assessment, if significant environmental impacts 
would result from the acquisition and activation of the Thomson 
facility that cannot appropriately be mitigated, BOP would conduct an 
Environmental Impact Statement.
    Question. The TCC was completed in 2001 and has remained empty, 
save a 200-bed minimum security unit, since then. The facility appears 
to fit the classic definition of a ``white elephant.'' What happened in 
Illinois that led them to abandon the prison the minute it was 
completed a decade ago? What, specifically, has the State of Illinois 
done and spent to prevent the empty facility from deteriorating over 
the last decade? Have Federal engineers inspected the TCC and reported 
on its material condition? If so, what were the results of their 
inspection? If not, when will such an inspection be conducted?
    Answer. According to the State of Illinois, although the high 
security portion of the Thomson facility was never fully operational, 
the State has been operating a 200-bed minimum security camp adjacent 
to the secure facility. According to State officials, the high security 
portion of the facility was never opened because of statewide fiscal 
concerns. In terms of upkeep, BOP officials have visited the facility 
on multiple occasions and inspected the institution thoroughly. The 
institution has been well-maintained and is suitable, with 
modification, to meet the needs of the Federal Prison System.
    Question. BOP is on record, repeatedly so, opposing the purchase of 
low- or medium-security privately-funded and built prisons, because of 
inherent design flaws that were operationally unacceptable and too 
expensive to fix. How does the TCC compare to BOP design and 
construction standards for the ``Supermax'' or other ultra-secure 
Federal facilities? Presuming much of this was done prior to making 
Thompson known and in anticipation of using it as a replacement for 
Guantanamo Bay's Detention Facility, have military officers responsible 
for the detention of terrorists at Guantanamo Bay inspected the TCC and 
provided an analysis of the security and safety of the facility? If 
not, will such an inspection be conducted?
    Answer. Throughout BOP's history, the agency has acquired former 
military installations, college campuses, and a seminary to convert 
them for Federal prison use. Several of these locations included 
existing buildings that required renovations and security enhancements 
to provide suitable housing for low and minimum security inmates. BOP 
also acquired the U.S. Disciplinary Barracks in Lompoc, California in 
1959, which was modified and converted into U.S. Penitentiary Lompoc, 
now a medium security institution.
    BOP's interest in acquiring Thomson is consistent with its earlier 
position. In contrast to earlier acquisitions, the Thomson facility has 
already been built to modern, high security correctional facility 
specifications rather than having to be converted to prison use. In 
earlier years, most prisons offered to BOP for purchase were old, 
obsolete facilities that were no longer desired by States moving to 
newly constructed, modern prisons.
    Question. The ``Presidential Memorandum--Closure of Detention 
Facilities at the Guantanamo Bay Naval Base,'' issued December 15, 2009 
must have reflected the summation of considerable analysis by the 
Departments of Defense and Justice regarding the incarceration of 
terrorists on U.S. soil. What bodies were convened to conduct this 
analysis, who was involved, and where are the results of their labors?
    Answer. The Justice, Homeland Security, and Defense Departments 
collaborated to assess potential U.S. facilities for the Guantanamo Bay 
detainees, including several interagency meetings and site visits to 
the facility in Thomson. This work was part of a broader effort by the 
Detention Policy Task Force, created pursuant to Executive order 13493, 
to evaluate options for the apprehension, detention, trial, transfer, 
release, or other lawful disposition of individuals captured or 
apprehended in connection with armed conflicts or counterterrorism 
operations. The preliminary evaluation process also included 
discussions with Illinois stakeholders once the administration 
identified the Thomson facility as a likely candidate, such as: the 
Director of the Illinois State Police, the Director of the Illinois 
Department of Corrections, the Director of the Illinois Emergency 
Management Agency, and multiple regional, county, and local law 
enforcement officials.

                             THOMSON PRISON

    Question. How did BOP determine that Thomson met the ADX/high bed 
space need?
    Answer. BOP staff made multiple site visits to tour the Thomson 
facility and compare its security features with BOP administrative 
maximum, special management and general population high security 
bedspace. BOP staff determined that the institution was suitable to 
meet BOP's special administrative high security bedspace needs and 
could become fully operational fairly quickly after acquisition, 
modification and hiring and training staff.
    Question. What were the construction costs to the State of 
Illinois?
    Answer. BOP's understanding is that the cost to the State of 
Illinois has been reported at $140 million.
    Question. What were estimates for maintenance and retrofit 
requirements?
    Answer. As requested in the fiscal year 2011 President's budget, 
the BOP estimates $15 million is required for security and 
infrastructure upgrades.
    Question. Why don't we offer a fire sale price, and no more, for 
this white elephant to ensure costs to acquire, retrofit, and activate 
the facility are ``significantly less'' than new construction?
    Answer. Federal law requires the amount paid for the negotiated 
purchase of real property to be just compensation which is not less 
than the fair market value determined by an appraisal completed in 
accord with 42 U.S.C. Sec. 4651, 49 CFR part 24, and the Uniform 
Appraisal Standards for Federal Land Acquisitions. Further, the 
Department of Justice believes the costs and benefits of acquiring 
(within 1 year) and modifying a never opened, solidly built, 1,600-
cell, high security facility in Thomson, Illinois, for approximately 
$170 million outweighs the cost (up to $300 million in the current 
market) and time for constructing (approximately 3 to 4 years) a new 
high security facility.
    Question. When is the formal appraisal going to be completed?
    Answer. The formal appraisal is expected to be completed in Fall 
2010.
    Question. What are all of the applicable rules and regulations for 
purchasing Thomson that BOP must fully comply with?
    Answer. BOP must comply with the following Federal rules and 
regulations:
  --The National Environmental Policy Act of 1969 and its implementing 
        regulations;
  --The Uniform Relocation Assistance and Real Property Acquisition 
        Policies Act of 1970 and its implementing regulations;
  --A Procedural Guide for the Acquisition of Real Property by 
        Governmental Agencies Title Standards 2001;
  --18 U.S.C. Chapters 301 and 303; and
  --Any other relevant authorization and/or appropriations laws.
    In addition, Illinois State rules and regulations may impact the 
BOP and are unknown at this time.
    Question. Please break down the OMB Circular No. A-11, part 7 into 
its individual steps and provide the documentation required by the 
circular where appropriate.
    Answer. As part of the President's budget request, and in 
accordance with guidelines set forth by OMB Circular A-11, part 7, the 
OMB Exhibit 300s are posted each year at the following Web site: http:/
/www.justice.gov/jmd/2011justification/exhibit300/.
    Question. When does BOP intend to conduct an Environmental 
Assessment pursuant to the National Environmental Policy Act?
    Answer. The Environmental Assessment began in June 2010. BOP 
anticipates the Environmental Assessment will be completed in Fall 
2010.
    Question. Provide an engineer's report on material condition and 
needed modifications.
    Answer. BOP does not produce an ``engineer's report''; however, the 
Bureau's assessment, according to Correctional Programs and Facilities 
experts, concluded that additional modifications would be needed to 
meet BOP's security standards to house high security inmates. The 
following lists the major modifications needed and provides examples of 
the necessary security enhancements: New stun lethal fence and new 
razor ribbon to meet BOP guidelines; new fence alarm system; new rear 
gate and sallyport gates; construct facilities building and storage 
area; and security upgrades, such as door locks, hardened recreation 
cages behind units, addition of security fencing within compound, 
installation of additional cameras and tie to monitoring system, 
installation of radio system base and portables, additional security 
lighting within compound, installation of anti-crash bollards in front 
of institution and rear, and construction of holding cells in receiving 
and discharge area.
    The number of administrative maximum (ADX or ``super max'') beds 
available in the Federal prison system has not increased since ADX 
Florence was activated in 1994. Acquisition of the Thomson facility, 
which is significantly larger than ADX Florence, will expand BOP's 
capacity to confine ADX and Special Management Unit (SMU) inmates at a 
lower cost and within a shorter timeframe than building a new facility.
    The Thomson facility is unique in that it is modern, was never 
fully utilized, and was built specifically to house maximum security 
inmates. Completed in 2001, the Thomson facility could be used fairly 
quickly after some modifications were completed. It could be acquired 
and readied for use, at today's lower costs, more rapidly than 
constructing a new facility, saving several years. The Thomson facility 
would enable BOP to move the most disruptive and violent inmates out of 
existing general populations U.S. Penitentiaries to a newer, more 
modern facility better suited to the controls required to manage the 
ADX- and SMU-type populations. Some features of the Thomson facility 
that compare extremely well with other administrative high units are: 
The amount of bedspace available (1,600 cells); flat land geography 
that allows unobstructed line of sight; good infrastructure with plenty 
of sewer and water capacity; and a central layout for program space, 
hospital, food service, education.
    Question. Provide information on CCA medium-security facilities 
previously negotiated or discussed.
    Answer. BOP currently contracts to house low security criminal 
aliens, BOP is not aware of any Corrections Corporation of America 
facilities offered for sale to BOP.
    Question. Please provide the Defense Department inspection 
findings.
    Answer. The Department of Justice does not have a copy of the 
Defense Department's inspection findings.
    Question. Please provide the December 15 letter from Secretary 
Gates and AG Holder detailing some of the security enhancements 
envisioned for the Thomson facility.
    Answer. Attached is the requested letter to Governor Quinn of 
Illinois, which was signed by Attorney General Holder (Justice), 
Secretary Clinton (State), Secretary Gates (Defense), Secretary 
Napolitano (Homeland Security) and then Director Blair (National 
Intelligence). See Attachment 3.

                                                 December 15, 2009.
The Honorable Pat Quinn,
Governor of Illinois,
Chicago, Illinois 60601.
    Dear Governor Quinn: On January 22, 2009, President Obama issued 
Executive order 13492, directing the closure of the detention center at 
Guantanamo. A key purpose of this Order was to protect our national 
security and help our troops by removing a deadly recruiting tool from 
the hands of al-Qa'ida. This should not be a political or partisan 
issue. This action is by the Nation's highest military and civilian 
leaders who prosecuted the war against al-Qa'ida under the previous' 
and continue to do so today. It is also supported by five previous 
Secretaries of State who in both Democratic and Republican 
administrations, including those of Presidents Nixon, Ford, George H.W. 
Bush, Clinton, and George W. Bush.
    On November 12, 2009, you wrote to Defense Secretary Robert Gates 
and Attorney General Eric Holder proposing that the Federal Government 
work with the State of Illinois to acquire the Thomson Correctional 
Center to house Federal inmates and a limited number of detainees from 
Guantanamo Bay, Cuba. We appreciate the leadership and assistance you 
and Senator Dick Durbin have provided during our evaluation of this 
proposal. We also would like to thank Thomson Village President Jerry 
``Duke'' Hebeler and the people of Thomson and the surrounding region 
for their support and hospitality.
    We write to inform you that the President has directed, with our 
unanimous support, that the Federal Government proceed with the 
acquisition of the facility in Thomson. Not only will this help address 
the urgent overcrowding problem at our Nation's Federal prisons, but it 
will also help achieve our goal of closing the detention center at 
Guantanamo in a timely, secure, and lawful manner.
    Executive order 13492 directed us to close the detention facility 
at Bay and to conduct a review of the most secure and efficient way to 
adjudicate each of the Guantanamo detainee cases. This is part of the 
President's aggressive posture in the fight against al-Qa'ida that uses 
all instruments of our national power, including: keeping the pressure 
on al-Qa'ida and its leadership globally; strengthening homeland 
security and increasing cooperation and intelligence sharing among 
Federal agencies and between the Federal Government and State and local 
authorities; recognizing our values as a critical piece of our battle 
against our enemies; prosecuting detainees in Federal courts, which 
have safely and securely prosecuted terrorists for many years; trying 
detainees for violations of the law of war in military commissions. 
which were reformed by bipartisan legislation signed by the President 
in October; and transferring detainees to their home countries or third 
countries that agree to accept them, when consistent with our national 
security interests and humane treatment policies.
    As the President has made clear, we will need to continue to detain 
some individuals currently held at the Guantanamo Bay detention 
facility. To securely house these detainees, Federal agencies plan to 
work with you and other State officials to acquire the nearly vacant 
maximum security facility in Thomson, Illinois. This facility will 
serve dual purposes. First, the Department of Justice will acquire this 
facility primarily to house Federal inmates. The Bureau of Prisons has 
a pressing need for more bed space in light of current crowded 
conditions. Second, the Defense Department will operate part of the 
facility to house a limited number of detainees from Guantanamo. The 
two parts of the facility will be managed separately, and Federal 
inmates will have no opportunity to interact with Guantanamo detainees.
    The security of the facility and the surrounding region is our 
paramount concern. The facility was built in 2001 to maximum security 
specifications, and after acquisition it will be enhanced to exceed 
perimeter security standards at the Nation's only ``supermax'' prison 
in Florence, Colorado, where there has never been an escape or external 
attack. Federal departments and agencies, including the Departments of 
Homeland Security. Justice, and Defense, will work closely with State 
and local law enforcement authorities to identify and mitigate any 
risks, including sharing information through the State's ``fusion 
center'' and working with the Federal Joint Terrorism Task Force.
    The President has no intention of releasing any detainees in the 
United States. Currant law effectively bars the release of the 
Guantanamo detainees on U.S. soil, and the Federal Government has broad 
authority under current law to detain individuals during removal 
proceedings and pending the execution of final removal orders.
    Federal officials also have consulted with local, county, and State 
law enforcement authorities to begin the process of identifying 
additional resources they may require to handle the increased 
population of Federal inmates and detainees. We are pleased that 
Illinois law enforcement authorities endorsed this plan in a letter to 
the Secretary of Defense and the Attorney General dated December 2, 
2009. We also note that more than 30 villages, towns, cities, counties, 
chambers of commerce, and other community and business organizations 
have sent letters, approved resolutions, or otherwise expressed their 
support for this plan. We are greatly encouraged by this support, and 
we commit to working with local authorities closely as this process 
moves forward.
    There are many steps still to be taken and many requirements still 
to be met, but we look forward to working with you to complete the 
Federal acquisition of the facility in Thomson.
            Sincerely,
                                           Hillary Clinton,
                                                Secretary of State.
                                           Robert M. Gates,
                                              Secretary of Defense.
                                        Eric H Holder, Jr.,
                                                  Attorney General.
                                          Janet Napolitano,
                                    Secretary of Homeland Security.
                                           Dennis C. Blair,
                                 Director of National Intelligence.

    Question. Provide more details and work products in response to the 
original question: What bodies were convened to conduct this analysis 
resulting in the December 15 letter referenced above, who was involved, 
and where are the results of their labors? Any other pertinent info you 
can offer would be appreciated as well.
    Answer. Department of Justice officials have participated in a 
number of interagency meetings, work activities, and site visits of the 
Thomson facility. Visits and discussions have served as opportunities 
to engage local community members and law enforcement representatives; 
inform congressional, Office of Management and Budget, Department of 
Defense staff, and Illinois State legislators; assess compatibility 
with the operational and security needs of the Federal prison system; 
and educate surrounding communities of employment opportunities.
    In addition, the Director of BOP has testified at hearings before 
the Illinois State Legislative Commission on Government Forecasting and 
Accountability and congressional appropriations committees on plans to 
purchase Thomson. The Department has also participated in a several 
congressional briefings with the Senate and House appropriations 
committee staff regarding the acquisition, renovation, and activation 
of the Thomson facility.
                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell

    Question. Currently, Federal correctional officers from Bureau of 
Prisons facilities in Kentucky, USP McCreary and FCI Manchester, have 
advised that they are not authorized to carry Oleoresin Capsicum (OC) 
spray as a means of defense from personal attacks from inmates who are 
often armed with improvised weapons. In light of the fact that the 
safety device is standard-issue in State prisons and local detention 
facilities across the United States, is the Bureau of Prisons 
considering the use of OC spray as standard-issued equipment to aid in 
increasing officer safety while on duty?
    Answer. The Bureau of Prisons' (BOP) inmate management philosophy 
focuses on constructive and frequent interaction and communication 
between staff and inmates. In accordance with this approach, BOP does 
not issue less lethal devices to staff for everyday interaction with 
inmates and everyday performance of their duties and responsibilities. 
Implementing this policy promotes a less confrontational environment 
between staff and inmates. Further, it does so without providing the 
temptation or opportunity for inmates to obtain such devices through 
aggressive behavior. In all secure institutions (low, medium, and high-
security), staff are authorized to use an array of less lethal 
munitions and devices (e.g., chemical agents and pepper ball launchers, 
etc.), but only during emergency situations. To further enhance safety 
and security, certain less lethal munitions have been placed in 
strategic areas for prompt access. Securely storing devices inside the 
institution with clearly established management controls, rather than 
in the outside armory only, ensures easier access and quicker response 
times to emergency situations.
    BOP's inmate management philosophy, with its focus on the 
utilization of confrontation avoidance techniques, has worked well for 
the vast majority of inmates. BOP continues to review other aspects of 
institution operations and BOP policies and procedures to determine 
what else might be done to enhance safety and security and address 
staff concerns, consistent with the mission of the agency.
    Question. In 2008, Bureau of Prisons Director Harley Lappin enacted 
a policy change to provide correctional officers with stab-resistant 
vests. The policy made the decision to wear a stab-resistant vest 
voluntary for each individual officer. However, the policy also 
dictates that if an officer chooses to wear a vest, he or she must do 
so at all times regardless of an officer's posting, duties, or 
proximity to inmates, thus creating a deterrent to officers opting to 
wear vests. Has the BOP considered whether such a restrictive policy 
discourages officers from wearing these protective vests and has it 
conducted any research to determine the impact of its policy to date?
    Answer. BOP reached an agreement with the Union regarding the vest 
implementation plan. All staff members who request a stab resistant 
vest are required to wear the vest while on duty except (1) during 
Annual Training, (2) when assigned to phone monitoring outside the 
secure confines of the facility, and (3) when assigned to the control 
center. Under the vest Implementation plan, each staff member who 
receives a fitted stab resistant vest is given a 6 month phase-in 
period. At any time during that initial 6 month period, the staff 
member may turn in the vest if he/she no longer desires one.
    Question. In 2004, Congress passed the Law Enforcement Officers' 
Safety Act. This law allows law enforcement officers, including Bureau 
of Prisons correctional officers, to carry firearms when off-duty to 
defend themselves and their families. However, BOP has never reached an 
agreement allowing for storage of officers' personal weapons at BOP 
facilities. Has BOP considered providing storage for staff's personal 
weapons, or in the alternative, allowing staff to equip their vehicles 
with in-car gun safes?
    Answer. The storage of personally owned firearms at Federal 
correctional and detention facilities would reduce the safety and 
security of the environment for staff, inmates, and the community. For 
instance, the storage of personal firearms on BOP property would 
provide opportunities for inadvertent mishaps regarding lost, stolen, 
or misplaced weapons and/or ammunition. In addition, the accidental 
discharge or misplacement of a personal weapon or ammunition could pose 
a significant threat to staff, inmates, and the general public.
                                 ______
                                 
           Questions Submitted by Senator George V. Voinovich

                          OPERATION STREAMLINE

    Question. Operation Streamline is a program where illegal 
immigrants are prosecuted and face jail time for crossing the border. 
This program has contributed to a 49.5 percent reduction in 
apprehensions by the Border Patrol along the Southwest border. It has 
also demonstrated the great cooperation between the U.S. Department of 
Homeland Security, the Department of Justice, and the Judiciary. 
Unfortunately, Operation Streamline, as successful as it is, is not 
fully utilized in all areas of the Southwest border. In the Tucson 
Sector, there is an artificial cap of 70 prosecutions per day in the 
face of hundreds of daily apprehensions. Does the Department of Justice 
support maximizing the use of Operation Streamline in all sectors along 
the Southwest border?
    Answer. Border security and immigration policy continue to be a 
priority for the Department of Justice (the Department or DOJ). With 
regard to the Southwest border, the Department's efforts are focused on 
combating large and sophisticated criminal organizations, and the 
Department has devoted unprecedented resources to that effort. The 
Department generally supports consequence-based enforcement programs 
such as Operation Streamline as one of various tools that assist law 
enforcement in controlling illegal immigration and related violence. 
Operation Streamline programs are in place in four of the five 
Southwest border districts. It is, however, implemented differently in 
each of the districts, as a result of varying local conditions.
    Operation Streamline has an enormous impact on the Department, as 
would any fast track immigration enforcement initiative. For example, 
capacity and infrastructure constraints (e.g. courthouse, cell block 
space, and ventilation systems) restrict the number of detainees or 
cases that can be processed by the Federal courts.
    Funding provided in the 2010 Emergency Border Security Supplemental 
Appropriations bill will allow the Department to expand investigation 
and prosecution efforts along the Southwest border. With the $196 
million provided, the Department will be able to surge Federal law 
enforcement officers to high crime areas in the Southwest border region 
by funding more than 400 new positions and temporarily deploying up to 
220 personnel. Justice funding will also increase the amount of 
equipment, operational support, and attorneys and immigration judges in 
order to support additional detention and incarceration costs for 
criminal aliens in coordination with Department of Homeland Security 
(DHS) enforcement activities.
    Question. In fiscal year 2009, there were 39,183 apprehensions 
accepted for prosecution under Operation Streamline across the entire 
Southwest border. Of those 15,550 were in one sector Tucson. But, these 
15,550 prosecutions represent only a fraction of the 241,673 
apprehensions made in the Tucson Sector in fiscal year 2009. It would 
appear that much more can be done.
    Please identify what additional resources are in the fiscal year 
2011 President's request to expand Operation Streamline.
    Answer. As stated previously, the Department of Justice is a 
committed partner in the Operation Streamline initiative. While the 
fiscal year 2011 President's budget does not break out separately all 
funds related only to Operation Streamline, in total, the fiscal year 
2011 budget requests $3.49 billion for the Department of Justice's 
Immigration and Southwest border related activities. This represents an 
increase of $228 million (7 percent) from the fiscal year 2010 enacted 
level. Additionally, funding provided in the 2010 Emergency Border 
Security Supplemental Appropriations bill will allow the Department to 
expand investigation and prosecution efforts along the Southwest border 
into fiscal year 2011. With the $196 million provided, the Department 
will be able to surge Federal law enforcement officers to high crime 
areas in the Southwest border region by funding more than 400 new 
positions and temporarily deploying up to 220 personnel. Justice 
funding will also increase the amount of equipment, operational 
support, and attorneys and immigration judges in order to support 
additional detention and incarceration costs for criminal aliens in 
coordination with DHS enforcement activities.
    Question. What funding and additional personnel would be required 
for the Department of Justice to support doubling the number of 
Operation Streamline prosecutions in the Tucson Sector in fiscal year 
2011? Please provide a table that displays costs and personnel for each 
component within the Department of Justice and the recurring costs for 
fiscal years 2012 through 2016 needed to do this.
    Answer. Many of the Department's cost inputs along the Southwest 
border are unpredictable. For example, detention costs are dependent on 
both detainee population levels and per diem jail rates. These levels 
and the average per diem jail rate fluctuate depending on a number of 
factors, including sector in which the program operates. In fiscal year 
2009, the highest per diem rate paid was in the San Diego border 
sector. The detention costs range from as little as $41 to as high as 
$111.45 per detainee per day. Other factors impacting costs include 
time in detention and availability of bed space, as well as courthouse 
and cellblock space limitations. Length of sentence is one variable 
that is at the discretion of the courts and sentence terms from 
Operation Streamline cases.
    The differences in how each border sector operates Operation 
Streamline and unpredictable cost inputs make accurately estimating the 
full cost of implementation (however that is defined) difficult. To 
address these complexities, the National Academy of Sciences is 
currently studying the downstream effects of DHS immigration-related 
programs on the Department of Justice. Specifically, the purpose of the 
study is to develop, test, and select a budget model that accurately 
captures fiscal linkages between the two Departments and leverage the 
linkages into an estimate of the Department's immigration-related 
costs. Congress mandated the study in the Commerce, Justice, Science 
and Related Agencies Appropriations Act for 2009. The study started in 
January 2010 and is expected to be completed and provided to Congress 
in June 2011.
    Question. What funding and additional personnel would be required 
for the Department of Justice to support tripling the number of 
Operation Streamline prosecutions in the Tucson Sector in fiscal year 
2011? Please provide a table that displays costs for each component 
within the Department of Justice and the recurring costs for fiscal 
years 2012 through 2016 needed to do this.
    Answer. Many of the Department's cost inputs along the Southwest 
border are unpredictable. For example, detention costs are dependent on 
both detainee population levels and per diem jail rates. These levels 
and the average per diem jail rate fluctuate depending on a number of 
factors, including sector in which the program operates. In fiscal year 
2009, the highest per diem rate paid was in the San Diego border 
sector. The detention costs range from as little as $41 to as high as 
$111.45 per detainee per day. Other factors impacting costs include 
time in detention and availability of bed space, as well as courthouse 
and cellblock space limitations. Length of sentence is one variable 
that is at the discretion of the courts and sentence terms from 
Operation Streamline cases.
    The differences in how each border sector operates Operation 
Streamline and unpredictable cost inputs make accurately estimating the 
full cost of implementation (however that is defined) difficult. To 
address these complexities, the National Academy of Sciences is 
currently studying the downstream effects of DHS immigration-related 
programs on the Department of Justice. Specifically, the purpose of the 
study is to develop, test, and select a budget model that accurately 
captures fiscal linkages between the two Departments and leverage the 
linkages into an estimate of the Department's immigration-related 
costs. Congress mandated the study in the Commerce, Justice, Science 
and Related Agencies Appropriations Act for 2009. The study started in 
January 2010 and is expected to be completed and provided to Congress 
in June 2011.
    Question. Are there any factors that would prohibit the expansion 
of Operation Streamline in the Tucson Sector?
    Answer. In total, the fiscal year 2011 budget requests $3.49 
billion for the Department of Justice's Immigration and Southwest 
border related activities. This represents an increase of $228 million 
(7 percent) from the fiscal year 2010 enacted level. A significant 
expansion of Operation Streamline would require additional appropriate 
enforcement and detention capacity, which could require a redirection 
of resources from other priority mission areas.
    There are a number of factors that would inhibit the expansion of 
Operation Streamline. Capacity and infrastructure constraints (e.g., 
courthouse, cell block space, and ventilation systems) restrict the 
number of detainees or cases that can be processed.
    Question. The Department of Homeland Security Appropriations Act, 
2010, requires the Department of Homeland Security, in consultation 
with the Department of Justice and the Administrative Office of the 
United States Courts, to submit a report to the Committees on 
Appropriations and the Committees on the Judiciary on resources needed 
by the Department of Homeland Security, the Department of Justice, and 
The Judiciary to increase the effectiveness of Operation Streamline 
programs and the resources needed to utilize this program in additional 
sectors. This report was due in December 2009 and is now several months 
overdue. Has the Department of Justice completed its portion of the 
report and submitted that information to the Department of Homeland 
Security and the Office of Management and Budget? If not, when will it 
do so?
    Answer. The Department provided its information to the Department 
of Homeland Security (DHS). DHS has reported that the Operation 
Streamline report was sent to the Hill on August 16, 2010.

                         CONCLUSION OF HEARINGS

    Senator Mikulski. So the subcommittee will stand in recess, 
subject to the call of the Chair in cooperation with the 
ranking member.
    We are in recess.
    [Whereupon, at 11:52 a.m., Thursday, May 6, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2011

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--At the direction of the subcommittee 
chairman, the following statements received by the subcommittee 
are made part of the hearing record on the Fiscal Year 2011 
Commerce, Justice, Science, and Related Agencies Appropriations 
Act.]

 Prepared Statement of the Regional Information Sharing Systems (RISS) 
                                Program

    For more than 30 years, the Regional Information Sharing Systems 
(RISS) Program has been a leader in providing the necessary tools and 
critical services for law enforcement as well as other criminal justice 
and public sector entities. RISS consists of six regional centers that 
support and serve the unique needs of their individual regions while 
working together on national-scope issues. RISS is a premier 
information sharing program, offering secure communications, access to 
intelligence databases, and investigative resources and services. The 
RISS Program respectfully requests that Congress appropriate $65 
million for fiscal year 2011.
    As the economy continues to struggle, criminal justice agencies are 
tightening budgets, decreasing resources, and limiting efforts. RISS 
serves as a force multiplier, offering a one-stop shop to effectively 
and efficiently aid agencies in tackling crime problems. Through RISS 
services, criminal justice agencies are provided secure information 
sharing capabilities and investigative support services that, in many 
cases, they would not otherwise receive.
    The RISS Centers provide investigative support services to more 
than 96,000 officers from more than 8,500 criminal justice agencies at 
the local, State, Federal, and tribal levels. RISS operates in all 50 
States, the District of Columbia, U.S. territories, Australia, Canada, 
and England. RISS links thousands of criminal justice agencies through 
secure communications and provides information sharing resources and 
investigative support to combat multijurisdictional crimes. RISS 
strives to enhance the ability of criminal justice agencies to 
identify, target, and remove criminal conspiracies and activities while 
promoting officer safety.
    The support provided by RISS has enabled law enforcement and public 
safety agencies to increase their success exponentially. Because of 
these successes, as well as the many remaining needs throughout the 
criminal justice community, RISS continues to experience an increased 
demand for its services. Continued and additional funding is needed in 
order to meet this demand and continue to build upon the Nation's 
information sharing environment. In addition to continuing its current 
services, RISS will utilize requested funds for the initiatives listed 
below.
  --Expand and continue to deploy the RISS Officer Safety Event 
        Deconfliction System (RISSafe) throughout the six RISS regions.
  --Enhance the RISSGang Program, develop gang training and 
        publications, and connect gang intelligence systems.
  --Enhance the RISS Secure Intranet (RISSNET) to improve 
        functionality, security, and resources and to expand agency 
        connectivity and officer/agency access.
  --Support border initiatives by developing training and providing 
        secure information sharing.
  --Continue to develop and enhance the Combat Meth Project.
  --Expand the RISS Automated Trusted Information Exchange (RISS ATIX) 
        by enhancing communications and developing an off-line 
        notification and alert capability.
  --Expand the Pawnshop Database nationwide.
  --Continue to participate in the Nationwide Suspicious Activity 
        Reporting Initiative (NSI).
  --Continue to support and expand fusion center partnerships and 
        connectivity.
    RISS is Federal funded but locally managed by its member agencies. 
The Bureau of Justice Assistance (BJA), Office of Justice Programs, 
U.S. Department of Justice, administers the RISS Program. The RISS 
Centers operate under the BJA Funding and Administration Guidelines of 
the RISS Program and the Criminal Intelligence Systems Operating 
Policies (28 Code of Federal Regulations [CFR] part 23). Each of the 
six RISS Centers has developed operating policies and procedures that 
comply with the Federal guidelines and regulations. The RISS Centers 
have adopted a privacy policy that fully complies with 28 CFR part 23.
    RISS developed and continues to operate RISSNET, which offers 
state-of-the-art technology to support law enforcement demand for rapid 
communications and information sharing nationwide. Through RISSNET, 
member agencies can securely exchange information and electronically 
access RISSNET resources, including the RISS Criminal Intelligence 
Databases (RISSIntel), RISSafe, the RISSGang Program, RISS ATIX, the 
RISS Investigative Leads Bulletin Board (RISSLeads), a data-
visualization and link-analysis tool (RISSLinks), the RISS Search 
Engine (RISSearch), the RISS Center Web sites, and secure e-mail.
    In fiscal year 2009, more than 3.4 million records were available 
in RISSIntel and more than 3.1 million inquiries were made to the 
system. RISSIntel has proved a successful tool to securely share 
criminal intelligence and connect law enforcement officers. In 
addition, member agencies have access to various State, regional, 
Federal, and specialized criminal justice intelligence systems 
connected to RISSNET. By connecting systems to RISSNET, rather than 
funding the build-out of infrastructure for new stand-alone information 
systems, hundreds of millions of dollars can be saved and millions of 
data records can be easily and quickly accessed by law enforcement. 
Currently, almost 100 agency systems are connected or pending 
connection to RISSNET, including 32 High Intensity Drug Trafficking 
Areas, 36 State agency systems, and 28 Federal and other systems. 
RISSNET offers the ability to select one or all connected systems and 
conduct a federated search.
    As part of the continued commitment to promote and enhance officer 
safety, RISS deployed RISSafe. RISSafe stores and maintains data on 
planned law enforcement events, with the goal of identifying and 
alerting affected agencies and officers of potential conflicts 
impacting law enforcement efforts. As of January 22, 2010, 152,265 
events were entered into RISSafe, resulting in 52,469 identified 
conflicts. Without this resource, law enforcement agencies might have 
interfered with each other's cases and officers might have been injured 
or killed.
    The RISSGang Program is a comprehensive investigative tool 
consisting of a criminal intelligence database, a Web site, 
informational resources, and secure communications to aid and support 
gang-related investigations. RISS ATIX is available to thousands of law 
enforcement and public safety agencies. RISS ATIX Participants include 
local, county, State, and tribal levels of emergency management, law 
enforcement, and government, as well as public and private utilities, 
transportation, chemical manufacturing, environmental protection, 
banking, and hospitality industries. RISS ATIX resources include Web 
pages that contain general and community-specific information, links to 
restricted and public Web sites, and other sources of terrorism and 
disaster-related information. The RISS ATIX Bulletin Board provides 
secure online conferences for users to collaborate and post 
information. The Document Library provides informational and 
educational materials. ATIX secure e-mail enables the distribution of 
alerts and sensitive but unclassified (SBU)/controlled unclassified 
information (CUI).
    Some law enforcement agencies do not have the personnel, training, 
or support to tackle complex multijurisdictional crimes. RISS not only 
provides secure communications and access to intelligence databases but 
also provides services to enhance and improve the ability to detect, 
apprehend, and successfully prosecute criminals. The following 
summarizes RISS's information and investigative support services.
  --Information Sharing.--Operation of RISSNET and its applications and 
        tools.
  --Analysis.--RISS analysts developed 35,655 products in fiscal year 
        2009 for investigators and prosecutors to help increase their 
        ability to identify, detect, and apprehend suspects as well as 
        enhance prosecutorial success. Products include flowcharts, 
        link-analysis charts, crime scene diagrams, telephone toll 
        analysis and financial analysis reports, digital forensics 
        analysis, and audiovisual enhancement services.
  --Investigative Support.--RISS intelligence research staff responded 
        to 96,293 requests in fiscal year 2009 to conduct database 
        searches and research numerous resources.
  --Equipment Loans.--Pools of highly specialized investigative and 
        surveillance equipment are available for loan to member 
        agencies for use in multijurisdictional investigations. In 
        fiscal year 2009, 5,669 pieces of equipment were borrowed.
  --Confidential Funds.--RISS provides funds to purchase contraband, 
        stolen property, and other items of an evidentiary nature or to 
        provide for other investigative expenses. RISS provided 
        $664,785 in confidential funds in fiscal year 2009.
  --Training.--RISS Centers sponsor or cosponsor training classes, 
        meetings, and conferences that build investigative expertise 
        for member agency personnel. In fiscal year 2009, 78,852 
        criminal justice professionals received RISS training.
  --Publications.--Each center develops and distributes publications, 
        bulletins, and reports focusing on local and national issues. 
        In fiscal year 2009, the centers distributed 255,798 copies of 
        documents to law enforcement personnel.
  --Field Services Support.--The integration of field services is 
        unique to RISS, whereby individuals regularly contact law 
        enforcement and public safety agencies to ensure that RISS is 
        meeting their needs. RISS field staff conducted 25,242 on-site 
        visits in fiscal year 2009 to train, support, and help 
        integrate RISS services. This one-on-one support has resulted 
        in trusted relationships and a program prized among its 
        members.
    Through the services and support provided by RISS, member agencies 
made 4,975 arrests in fiscal year 2009. In addition, seizures or 
recoveries of more than $27 million in narcotics, property, and 
currency resulted from member agency cases in which RISS services were 
used.
    RISS continues pursuing and refining partnerships and programs in 
order to leverage proven technology and expand information sharing. 
Some of these include connecting fusion centers to RISSNET, supporting 
NSI, partnering with the National Gang Intelligence Center, 
participating in the National Virtual Pointer System, enhancing gang 
investigators' ability to share intelligence data, and expanding the 
capabilities and resources of RISS ATIX.
    The National Criminal Intelligence Sharing Plan (NCISP) and the Law 
Enforcement Information Sharing Program (LEISP) Strategy were developed 
to focus on national parameters for information and intelligence 
sharing. RISS is noted in both documents as a mechanism to facilitate 
secure information sharing.
    There is a critical need to provide a seamless SBU/CUI solution. 
Local law enforcement officers/analysts need one single sign-on and 
access to an interoperable SBU/CUI environment, regardless of 
ownership. To accomplish this, interoperability requirements must be 
defined. RISSNET--along with the U.S. Department of Homeland Security's 
Homeland Security Information Network, FBI LEO, and the Intelligence 
Community's Intelink--have been identified by the Interagency Policy 
Committee (IPC) formed within the jurisdiction of the executive office 
of the President as the four SBU/CUI networks necessary to be involved 
in the interoperability initiative to ensure timely and effective 
information sharing among local, State, Federal, and tribal agencies. 
RISS will play a major role in this development process. RISS has made 
strides in this area, through the LEISP initiatives, to connect users 
via Federated Identity to the Federal Joint Automated Booking System 
(JABS). Currently, 89 RISSNET users are accessing JABS via Federated 
Identity, and 1,756 non-RISSNET users are accessing RISS resources via 
Federated Identity.
    In addition, each RISS Center has developed partnerships and 
programs to meet the needs of its unique region. Some examples include 
the Project Safe Neighborhoods Mapping and Analysis Program, the 
National Identity Crimes Law Enforcement Network, the Cold Case Locator 
System, the Metals Theft Initiative, the Master Telephone Index, the 
Pawnshop Database, the Combat Meth Project, and the Cold Hit Outcome 
Project.
    RISS is supported and endorsed by numerous groups, including the 
International Association of Chiefs of Police, the National Sheriffs' 
Association, the National Narcotic Officers' Associations' Coalition, 
and the National Alliance of Gang Investigators Associations.
    Without continued funding and support for RISS, law enforcement and 
public safety efforts will be severely hampered. Specifically, RISS and 
its users will experience the following:
  --Reduced expansion of RISSafe
  --Inability to effectively support RISS ATIX and RISSGang
  --Limited expansion of RISSNET and redundancy of system applications
  --Minimal enhancement of the RISSNET Portal
  --Limited support for border initiatives
  --No expansion of the Pawnshop Database
  --Decreased support services, limited analytical support, and fewer 
        training opportunities
  --Delayed and/or a lack of new connectivity among agencies and users
  --Limited support for information sharing initiatives
    It is respectfully requested that Congress appropriate $65 million 
for fiscal year 2011 to continue RISS's efforts. Local and State law 
enforcement depend on RISS for information sharing, investigative 
support, and technical assistance. It would be counterproductive to 
require local and State RISS members to self-fund match requirements, 
as well as to reduce the amount of BJA discretionary funding. Local and 
State agencies require more, not less, funding to fight the Nation's 
crime problem. RISS is unable to make up the decrease in funding that a 
match would cause, and it has no revenue source of its own. Cutting the 
RISS appropriation by requiring a match should not be imposed on the 
program.
    RISS operates one of the most important law enforcement information 
sharing programs in the Nation. RISS plays a part in ensuring that law 
enforcement and public safety have the information and resources 
necessary to secure our country. For additional information, please 
visit www.riss.net. RISS appreciates the support this subcommittee has 
continuously provided to the RISS Program and is grateful to provide 
this testimony.
                                 ______
                                 
Prepared Statement of the National Federation of Community Broadcasters

    Thank you for the opportunity to submit testimony to this 
subcommittee in support of $44 million in funding for the Commerce 
Department's Public Telecommunications Facilities Program (PTFP) in 
fiscal year 2011. As the president and CEO of the National Federation 
of Community Broadcasters (NFCB), I speak on behalf of 250 community 
radio stations and related individuals and organizations across the 
country including many Low Power FM stations. NFCB is the sole national 
organization representing this group of stations, which provide 
independent local service in the smallest communities and the largest 
metropolitan areas of this country. Nearly one-half of NFCB's members 
are rural stations, and one-half are controlled by people of color.
    In summary, the points we wish to make to this subcommittee are:
  --PTFP funding is unique. It is the only funding source available to 
        help get new stations on the air and ensure that public 
        broadcasting is available everywhere in the United States.
  --In the current budget, a loss of PTFP will mean an irreplaceable 
        loss in new community radio stations because of an 
        unprecedented number of new licensees in the pipeline flowing 
        from a large number of radio stations granted new construction 
        permits by the Federal Communications Commission. This new 
        licensing opportunity will not come again.
  --PTFP is a targeted program carefully managed to replace necessary 
        equipment by leveraging public with private funds.
  --PTFP will help public and community radio stations prepare to 
        provide emergency information during natural or man-made 
        disasters.
  --PTFP will help fund for conversion of public radio to digital 
        broadcasting, which has only recently begun.
    PTFP is poised to fund new stations that have recently been granted 
construction permits by the Federal Communications Commission. PTFP is 
the only program available that supports new station construction. No 
alternate funding exists--the Corporation for Public Broadcasting does 
not support stations until they have been on the air for 1 year. The 
solid funding levels for CPB will not translate into production of new 
stations. The opportunity in this budget year is unique because of its 
timing. In 2007, the Federal Communications Commission opened up a new 
licensing window for new noncommercial radio stations. This was the 
first opportunity to apply for new radio stations in a decade. Because 
of the scarcity of radio spectrum, this is the last significant 
licensing windows for new public radio stations unless new spectrum is 
allocated to radio broadcasting. Community radio has put an immense 
effort into recruiting new and diverse applicants who are just now 
receiving their construction permits from the FCC and are able to apply 
for PTFP funding. With adequate funding and support, the new group of 
applicants has the potential to fund construction of 45 new community 
radio stations authorized by the FCC in its most recent licensing 
window and double the number of Native American radio stations in this 
country. Federal funding is particularly critical to stations 
broadcasting to rural and underserved audiences which have limited 
potential for fundraising due to sparse populations, limited number of 
local businesses, and low income levels. In addition, PTFP often funds 
translator stations to expand the geographic coverage of an existing 
station.
    PTFP is a targeted program carefully managed to replace necessary 
equipment by leveraging public with private funds. Funding from PTFP 
has been essential to keep public radio stations on the air by funding 
the replacement of equipment, often items that have been in use for 20 
or more years. The program is administered carefully to be certain that 
stations are acquiring the most appropriate type of equipment. They 
also determine that equipment is being properly maintained and will not 
fund the replacement of equipment before an appropriate period of time 
in use. Even so, PTFP funding is a matching program, so Federal money 
is leveraged with a local commitment of funds. This program is a strong 
motivating factor in raising the significant money necessary to 
replace, upgrade and purchase expensive broadcast equipment.
    PTFP will help public and community radio stations prepare to 
provide emergency information during natural or man-made disasters. As 
we saw during the severe storms and devastating hurricanes of the last 
few years, radio is the most effective medium for informing a community 
of weather forecasts, traffic issues, services available, evacuations, 
and other emergency conditions. Since everyone has access to a radio 
and they are portable and battery operated, a radio is the first source 
for this critical information. Radio stations therefore must have 
emergency power at both their studios and their transmitter in order to 
provide this service.
    We support $44 million in funding to ensure that both the ongoing 
program will be continued, and hope that that there will be additional 
financial resources available to help cover the cost of improving the 
emergency infrastructure of public broadcasting stations. This 
additional funding is considered an urgent need if community stations 
are to withstand and continue broadcasting through extreme weather or 
other emergency situations. At a time when local service is being 
abandoned by commercial radio, PTFP aids communities developing their 
own stations which provide local information and emergency 
notifications.
    The National Federation of Community Broadcasters supports PTFP 
funding to help public radio to convert to digital to provide more 
public service and keep up with the market. While television's digital 
conversion was completed last year, radio is also converting to 
digital. Commercial radio stations are converting to digital 
transmission, and public radio should not be left behind. The digital 
standard for radio has been approved by the Federal Communications 
Commission, and over 400 public radio transmitters have been converted. 
Public digital radio signals will provide more public service. Most 
exciting to public radio is that stations can broadcast two or more 
high quality signals, even while they continue to provide the analog 
signal. Additional digital audio channels will potentially more than 
double the service that public radio can provide, particularly to 
unserved and underserved communities. For example, public radio will be 
able to add services in languages other than English, or will be able 
to add distinctive cultural, music, or news programming.
    In sum, community radio supports $44 million in funding for the 
Public Telecommunications Facilities Program in fiscal year 2011. PTFP 
funding is unique. It is the only funding source available to help get 
new stations on the air and ensure that public broadcasting is 
available everywhere in the United States. Federal funding distributed 
through the PTFP is essential to continuing and expanding the public 
broadcasting service throughout the United States. PTFP funding is 
critical to ensuring public radio's readiness to provide life-saving 
information to communities in the event of local disasters, as we have 
seen during weather emergencies in the past few years. With the advent 
of digital broadcasting, PTFP funding is helping with the conversion to 
this new technology. It is particularly critical for rural stations and 
those serving low income communities. PTFP funds new stations, 
expanding the reach of public broadcasting to rural areas and to 
audiences that are not served by existing stations. Finally, it 
replaces obsolete and worn out equipment so that existing public 
stations can continue to broadcast high quality programming in a 
carefully targeted, fiscally responsible manner.
    Public radio is the most vibrant part of the radio dial, bringing a 
diverse spectrum of news, information and entertainment to millions of 
listeners every day. PTFP will give us an unprecedented opportunity to 
be sure that radio is providing local news and journalism, enhancing 
local culture, and bringing new communities into the information age.
    Thank you for your consideration of our testimony.
                                 ______
                                 
   Prepared Statement of the Institute of Makers of Explosives (IME)

    Dear Madam Chairman: On behalf of the Institute of Makers of 
Explosives (IME), I am submitting a statement for inclusion in the 
subcommittee's hearing record regarding the proposed fiscal year 2011 
budget for the Bureau of Alcohol, Tobacco, Firearms and Explosives 
(ATF) Arson and Explosives (A&E) program.

                          INTEREST OF THE IME

    The IME is the safety and security association of the commercial 
explosives industry. The production, distribution, storage and use of 
explosives are highly regulated. ATF is one of the agencies that play a 
primary role in assuring that explosives are identified, tracked, and 
stored only by authorized persons. The ability to manufacture, 
distribute and use these products safely and securely is critical to 
this industry. We have carefully reviewed the administration's fiscal 
year 2011 budget request for ATF, and have the following comments about 
its impact on the commercial explosives industry.

                  ATF'S EXPLOSIVES REGULATORY PROGRAM

    The administration's fiscal year 2011 budget request proposes to 
support ATF's regulation and oversight of explosives industries at a 
level that will sustain current services. In fiscal year 2010, this 
program was increased by 9 FTE to 383 FTE.
    The Bureau's Explosives Industry Programs Branch has embraced the 
Obama administration's pledge to be more transparent and accountable. 
To help us do our job better, data about theft and diversion of 
commercial explosives is being shared on an annual basis. ATF is 
continuing efforts to enhance data capabilities. These efforts should 
be supported.
    We are pleased to report that the $200,000 set-aside provided the 
Bureau in fiscal year 2009 to begin addressing its pending regulatory 
backlog has borne fruit. In January, ATF finalized its rule on the 
storage of shock tube with detonators.\1\ By statute, ATF is supposed 
to ``take into consideration . . . the standards of safety and security 
recognized in the explosives industry'' when issuing rules and 
requirements.\2\ We believe ATF followed this directive in issuing the 
shock tube final rule. Four other rulemakings of importance to IME are 
still pending; the oldest dating to 2001. We hope to continue to see 
progress in this area. We are grateful to Congress for its oversight of 
this issue.
---------------------------------------------------------------------------
    \1\ 75 FR 3160 (January 20, 2010).
    \2\ 18 U.S.C. 842(j).
---------------------------------------------------------------------------
    In the absence of rulemaking that is capable of keeping up with new 
developments and practices, industry must rely on interpretive guidance 
and variances from rules to conduct business. While we appreciate the 
Bureau's accommodations, these stop-gap measures do not afford the 
protections that rulemaking would provide the regulated community, nor 
allow the oversight necessary to ensure that all parties are being held 
to the same standard of compliance. These regulatory tasks are critical 
to the lawful conduct of the commercial enterprises that the bureau 
controls.

                           INDUSTRY STANDARDS

    We take seriously the statutory obligation that ATF take into 
account industry's standards of safety when issuing rules and 
requirements. We have endeavored to fulfill this obligation through the 
development of industry best practices for safety and security, 
participation in relevant standard-setting organizations, and forums 
for training. We have offered ATF recommendations that we believe will 
enhance safety and security through participation in the rulemaking 
process, in the Bureau's research efforts, and in other standard 
setting activities.
    In this regard, IME has spent years developing and validating a 
credible alternative to strict interpretation of quantity-distance 
tables used to determine safe setback distances from explosives. IME 
collaborated with the Department of Defense Explosives Safety Board and 
Canadian and U.S. regulatory agencies, including ATF. The result is a 
windows-based computer model for assessing the risk from a variety of 
commercial explosives activities called IMESAFR.\3\ Not only can 
IMESAFR determine the amount of risk presented, but it can also 
determine what factors drive the overall risk and what actions would 
lower risk, if necessary. The probability of events for the activities 
were based on the last 20 years experience in the United States and 
Canada and can be adjusted to account for different explosive 
sensitivities, additional security threats, and other factors that 
increase or decrease the base value. Following this effort, ATF is 
starting to recognize this powerful assessment tool as a potential 
alternative for the regulated community to meet quantity-distance 
limitations. ATF has taken advantage of opportunities to partner with 
IME and is deliberating whether to accept this or any other risk-based 
approach to explosives safety. ATF should be encouraged to recognize 
the benefits of risk-based modeling and develop policy that would allow 
the use of such models to meet regulatory mandates.
---------------------------------------------------------------------------
    \3\ IMESAFR was built on the DDESB's software model, SAFER. The 
DDESB currently uses SAFER and table-of-distance methods to approve or 
disapprove Department of Defense explosives activities.
---------------------------------------------------------------------------
                    PERFORMANCE MEASURE IMPROVEMENTS

    We have expressed concern at the drop in the performance of the 
Bureau's A&E programs as measured by the Program Assessment Rating Tool 
(PART).\4\ During assessment year 2004, the A&E program was rated 
``moderately effective.'' By 2008, the rating of the A&E program had 
fallen to ``adequate.'' The program's scores fell in all categories:
---------------------------------------------------------------------------
    \4\ http://www.whitehouse.gov/omb/expectmore/detail/
10002202.2008.html. PART was developed by OMB to assess and improve 
program performance of the Federal Government. ATF's A&E programs are 
measured together because A&E investigators are cross trained and only 
32 percent of the ATF A&E budget goes to explosives regulatory 
activities.

------------------------------------------------------------------------
                                            Score--2004     Score--2008
                 Section                     (percent)       (percent)
------------------------------------------------------------------------
Program Purpose & Design................             100              80
Strategic Planning......................              88              75
Program Management......................             100              43
Program Results/Accountability..........              67              40
------------------------------------------------------------------------

    As a result, ATF developed improvement plans to be implemented in 
the arson and explosives program: \5\
---------------------------------------------------------------------------
    \5\ Fiscal Year 2011 ATF Budget Submission, page 63.
---------------------------------------------------------------------------
  --ATF will continue to work with the FBI to implement the provisions 
        of a Memorandum of Understanding between the two agencies.
  --ATF will establish a performance measure based on in-depth 
        evaluation of the application of select training it provides.
    While these are worthy goals, we question whether they are 
sufficient to address all programmatic shortfalls. For a number of 
years, IME has expressed concern about the lack of appropriate measures 
to assess the ATF's performance as a regulator of the commercial 
explosives industry.\6\ Instead of adding such performance indicators, 
however, ATF has discontinued all prior performance measures and 
outcomes and replaced them with three metrics, of which only one 
applies to the Bureau's explosives regulatory program.\7\ The ``outcome 
measure'' for the explosives regulatory program is ``improve public 
safety by increasing compliance with Federal laws and regulations by 
explosives industry members.'' \8\ While a laudable objective, the 
Bureau provides no metrics to assess whether this objective has been 
achieved.\9\ Absent information of this type, it is unclear how 
Congress can effectively oversee ATF's handling of its responsibilities 
toward the regulated community or determine the adequacy of its budget 
request.
---------------------------------------------------------------------------
    \6\ IME has requested performance measures such as the percent of 
perfected explosives applications acted on within 90 days; the number 
of background checks that ATF has performed, within what average 
timeframe, and of those, how many individuals failed to receive 
clearance, and of those, how many appealed the Bureau's findings; the 
number of rulemakings outstanding and their priority; and turnover 
rates among agents and inspectors.
    \7\ Fiscal Year 2011 ATF Budget Submission, pages 57-61.
    \8\ Fiscal Year 2011 ATF Budget Submission, pages 58 and 60.
    \9\ Other Federal Government agencies have such metrics. For 
example, see the fiscal year 2011 budget submission for the U.S. 
Department of Transportation's Pipeline and Hazardous Materials 
program.
---------------------------------------------------------------------------
    ATF states that in fiscal year 2009, it received a ``clean audit 
opinion.'' \10\ However, the measures or scores used in the audit are 
not disclosed so there is no way to determine where progress has been 
made relative to the PART assessments. Anecdotally, we believe that 
ATF's arson and explosives program is more responsive. However, we 
would welcome an independent audit of the program to corroborate that 
the Bureau has reversed the trend reflected in the last two PART 
reviews with regard to its ``resource utilization, strategic planning, 
program management, and program results.'' \11\ We believe that the 
timing for such an audit is consistent with the administration's pledge 
of transparency and accountability.
---------------------------------------------------------------------------
    \10\ Fiscal Year 2011 ATF Budget Submission, page 63.
    \11\ Fiscal Year 2011 ATF Budget Submission, page 63.
---------------------------------------------------------------------------
                               LEADERSHIP

    The resolution of these issues may have to wait the appointment of 
a new director. The ATF has been without a director since August 2006. 
We hope that an appointment will soon be announced. The Bureau has been 
too long without permanent leadership.

                               CONCLUSION

    The manufacture and distribution of explosives is accomplished with 
a remarkable degree of safety and security. We recognize the important 
role played by ATF in helping our industry achieve and maintain safe 
and secure workplaces. Industry and the public trust that ATF has the 
resources to fulfill its regulatory responsibilities. It is up to 
Congress and, in particular, this subcommittee to ensure that ATF has 
the resources it needs. We strongly recommend full funding for ATF's 
explosives program.
                                 ______
                                 
         Prepared Statement of the Coastal States Organization

    The Coastal States Organization (CSO) is a nonpartisan, nonprofit 
organization that represents the interests of the Governors of the 35 
coastal States, territories and commonwealths in Washington, DC. 
Established in 1970, CSO focuses on legislative and policy issues 
relating to the sound management of coastal, Great Lakes, and ocean 
resources and is recognized as the trusted representative of the 
collective interests of the coastal States on coastal and ocean 
management. For fiscal year 2011, CSO supports the following coastal 
programs and funding levels within the National Oceanic and Atmospheric 
Administration (NOAA):
    Coastal Zone Management Program (Sec. Sec. 306/306A/309)--$88 
million
    Coastal and Estuarine Land Conservation Program--$60 million
    CZM and Stewardship $12.5--million
    Every American, regardless of where he or she lives, is 
fundamentally connected to our coasts, oceans, and Great Lakes. These 
valuable resources are a critical framework for commerce, recreation, 
energy, environment, and quality of life. The U.S. economy is an ocean 
and coastal economy: though Federal investment does not reflect it, the 
oceans and coasts provide an irreplaceable contribution to our Nation's 
economy and quality of life. With sectors including marine 
transportation, tourism, marine construction, aquaculture, ship and 
boat building, mineral extraction, and living marine resources, the 
U.S. ocean-based sector alone provides $138 billion to U.S. GDP and 
over 2.3 million jobs to our citizens. In addition, the annual 
contribution of coastal counties is in the trillions of dollars, from 
ports and fishing to recreation and tourism. In 2007, our Nation's 
coastal counties provided $5.7 trillion to the economy and were home to 
108.3 million people on only 18 percent of the U.S. land area. If these 
counties were their own country, they would have the world's second 
largest economy. Coasts and oceans also add to the quality of life of 
nearly one-half of all Americans who visit the seashore each year; the 
non-market value of recreation alone is estimated at over $100 billion.
    Today, our Nation's coasts are as vital for our future as they are 
vulnerable. As a result of their increasing draw and economic vitality, 
we are exerting more pressure on our coastal and ocean resources. This 
demand, combined with an increase in natural hazards such as sea level 
rise, hurricanes and other flooding events, can be proven to show that 
the country is in danger of losing these invaluable assets. Despite the 
difficult budgetary times, we need to provide more funding and support 
for the key programs that are on the front lines of this daily battle, 
the programs utilizing the advances in coastal and ocean science, 
research, and technology to manage our coastal and ocean resources for 
future generations.
    Programs that are engaged in these important efforts and working to 
balance the protection of coastal and ocean resources with the need for 
sustainable development include the Coastal Zone Management Program and 
the Coastal and Estuarine Land Protection Program. These programs 
reside within the National Oceanic and Atmospheric Administration 
(NOAA) and provide direct funding or services to the States and 
territories, which account for a small portion of the total NOAA 
Federal budget. The funding for these programs is very cost-effective, 
as these grants are matched by the States and are used to leverage 
significantly more private and local investment in our Nation's coasts. 
Increased funding for these programs that provide on-the-ground 
services to our local communities and citizens is well worth the 
investment.

        COASTAL ZONE MANAGEMENT PROGRAM (SEC. SEC. 306/306A/309)

    CSO requests that these grants be funded at a level of $88 million, 
an amount that will be shared among the 34 States and territories that 
have approved coastal zone management programs. Pursuant to the Coastal 
Zone Management Act (CZMA), NOAA and the States partner to implement 
coastal zone management programs designed to balance protection of 
coastal and ocean resources with the need for sustainable development 
of coastal communities. States have the flexibility to develop 
programs, policies and strategies that are targeted to their State 
priorities while advancing national goals. Under the CZMA program, the 
States receive grants from NOAA that are matched by the States and are 
used to leverage significantly more private and local investment in our 
Nation's coastal areas. These grants have been used to reduce 
environmental impacts of coastal development, resolve conflicts between 
competing coastal uses, and provide critical assistance to local 
communities in coastal planning and resource protection.
    The CZMA State grants have essentially remained level-funded for 9 
years, resulting in a decreased capacity in the State coastal zone 
management programs and less funding being granted out to local 
communities. An increase in funding to $88 million provides an 
additional $300,000-$800,000 for each State and territory based on a 
Federal formula that takes into account coastal population and 
shoreline mileage. With the additional funding, States and territories 
could focus on near-term activities that would prepare their coastal 
communities to adapt to climate change, develop renewable energy 
sources, and conserve and restore habitat and working waterfronts. The 
following is a representative list of activities that the States and 
territories could pursue with the increased funding:
  --Acquire high resolution topography and bathymetry mapping data (for 
        example, LIDAR, shallow water-penetrating LIDAR) and/or 
        integrate these and existing datasets for consistent statewide 
        coverage and public dissemination;
  --Invest in research, mapping and modeling to enable decisionmaking 
        for renewable energy development;
  --Host workshops to assist local officials to assess resources and 
        identify strategies to integrate climate change adaptation 
        measures into local policies, regulations and programs;
  --Conserve and restore coastal habitat for storm protection, water-
        filtering benefits, fish nurseries, and recreation and preserve 
        waterfront property for businesses dependant on access to the 
        water to flourish;
  --Foster coordinated permitting review and siting guidance among 
        State and Federal agencies for offshore renewable energy 
        development;
  --Work to implement new or modify existing State and local policies, 
        regulations and programs to address climate change impacts, 
        including those related to building design and construction, 
        wetland conservation and restoration, stormwater systems and 
        roadways, shore protection, and general public infrastructure; 
        and
  --Support outreach and extension activities related to science and 
        public education with partners such as the National Estuarine 
        Research Reserves and Sea Grant College Programs.
    Under the current level of funding, most States and territories 
receive between $850,000 and $2 million to carry out their coastal 
management programs based on a formula accounting for shoreline miles 
and coastal population. Appropriate at the time, a cap of $2 million 
was instituted years ago to allow for funding to spread more evenly 
across the States and territories, so as to prevent most of the funding 
from going entirely to the larger, more heavily populated States. But, 
now, over one-half of the States have met the cap and no longer receive 
an increase in funding, despite increased overall funding for CZMA 
State grants. Therefore, CSO requests that language be included in the 
appropriations bill declaring that each State will receive no less than 
1 percent and no more than 5 percent of the additional funds over and 
above previous appropriations. As was provided for in fiscal year 2010, 
CSO requests that language be included in the appropriations bill that 
directs NOAA to refrain from charging administrative costs to these 
grants. This is to prevent any undue administrative fees from NOAA from 
being levied on grants intended for States.

            COASTAL AND ESTUARINE LAND CONSERVATION PROGRAM

    CSO requests $60 million for the Coastal and Estuarine Land 
Conservation Program (CELCP). Authorized by Congress in 2002, CELCP 
protects ``those coastal and estuarine areas with significant 
conservation, recreation, ecological, historical, or aesthetic values, 
or that are threatened by conversion from their natural or recreation 
states to other uses.'' To date, Congress has appropriated nearly $260 
million for CELCP. This funding has allowed for the completion of over 
125 conservation projects, with more in progress. CELCP projects in 27 
of the Nation's 35 coastal States have already helped preserve 
approximately 45,000 acres of the Nation's coastal treasures. All 
Federal funding has been leveraged by at least an equal amount of 
State, local, and private investments, demonstrating the broad support 
of the program, the importance of coastal protection throughout the 
Nation, and the critical role of Federal funding to its success.
    The preservation of coastal and estuarine areas is critical to both 
humans and the environment. These areas shield us from storms, protect 
us from the effects of sea-level rise, filter pollutants to maintain 
water quality, provide shelter, nesting and nursery grounds for fish 
and wildlife, protect rare and endangered species and provide access to 
beaches and waterfront areas. CELCP is the only program entirely 
dedicated to the conservation of these vital coastal areas.
    The demand for CELCP funding far outstrips what has been available 
in recent years. In the last 3 years, NOAA, in partnership with the 
States, has identified over $270 million of vetted and ranked projects. 
As demand for CELCP funding has grown, the funding has not kept pace. 
Adequate funding is needed to meet the demand of the increasingly high-
quality projects developed by the States and submitted to NOAA.
    This March, the CELCP program was formally authorized as part of 
H.R. 146, the Omnibus Public Lands Management Act of 2009, once again 
showing the broad, bi-partisan support for coastal and estuarine land 
conservation. In recognition of the significant demand for CELCP 
projects, H.R. 146 authorized the program at $60 million annually.

                          CZM AND STEWARDSHIP

    CSO requests $12.5 million for CZM and Stewardship under NOAA's 
Office of Ocean and Coastal Resources Management (OCRM). OCRM provides 
support to the States and territories by providing program liaisons, 
and processing grants and program changes for the Coastal Zone 
Management Program, as well as leading the development of NOAA's 
Coastal Strategy. It also administers the Coastal and Estuarine Land 
Conservation Program (CELCP), leads coral reef conservation activities, 
and manages the development of a National System of Marine Protected 
Areas. With all of these vested responsibilities, and to administer all 
of its programs adequately, OCRM needs this funding to be the best 
possible partner to the States and territories.
    CSO greatly appreciates the support the subcommittee has provided 
in the past. Its support has assisted these programs in working 
together to protect our coasts and sustain our local communities. Thank 
you for taking our requests into consideration as you move forward in 
the fiscal year 2011 appropriations process.
                                 ______
                                 
    Prepared Statement of the Great Lakes Indian Fish and Wildlife 
                               Commission

    Summary of GLIFWC's Fiscal Year 2011 Testimony.--GLIFWC supports 
the administration's fiscal year 2011 proposal to increase tribal COPS 
funding to $67 million but not the $15 million reduction in the Tribal 
Resources Grant Program (TRGP). The administration's proposal to set 
aside tribal funding within the Universal Hiring Program (UHP) is 
timely given the great need in Indian country. However, the proposed 
decrease of $15 million for the Tribal Resources Grant Program (TRGP) 
is an unwise trade-off that will undercut the effectiveness of tribal 
law enforcement. Not only must new officers be trained and equipped, 
something which cannot be done with UHP funding, but fully-staffed 
agencies still need the logistical support that the TRGP provides. The 
TRGP has enabled GLIFWC to solidify its communications, training, and 
equipment requirements, essential elements that help ensure the safety 
of GLIFWC officers and their role in the proper functioning of 
interjurisdictional emergency mutual assistance networks in the treaty 
ceded territories.
    Ceded Territory Treaty Rights and GLIFWC's Role.--GLIFWC was 
established in 1984 as a ``tribal organization'' within the meaning of 
the Indian Self-Determination Act (Public Law 93-638). It exercises 
authority delegated by its member tribes to implement Federal court 
orders and various interjurisdictional agreements related to their 
treaty rights. GLIFWC assists its member tribes in:
  --Securing and implementing treaty guaranteed rights to hunt, fish, 
        and gather in Chippewa treaty ceded territories; and
  --Cooperatively managing and protecting ceded territory natural 
        resources and their habitats.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    For over 25 years, Congress and various administrations have funded 
GLIFWC through the BIA, Department of Justice and other agencies to 
meet specific Federal obligations under: (a) a number of U.S./Chippewa 
treaties; (b) the Federal trust responsibility; (c) the Indian Self-
Determination Act, the Clean Water Act, and other legislation; and (d) 
various court decisions, including a 1999 U.S. Supreme Court case, 
affirming the treaty rights of GLIFWC's member tribes. GLIFWC serves as 
a cost efficient agency to conserve natural resources, to effectively 
regulate harvests of natural resources shared among treaty signatory 
tribes, to develop cooperative partnerships with other Government 
agencies, educational institutions, and non-governmental organizations, 
and to work with its member tribes to protect and conserve ceded 
territory natural resources.
    Under the direction of its member tribes, GLIFWC operates a ceded 
territory hunting, fishing, and gathering rights protection/
implementation program through its staff of biologists, scientists, 
technicians, conservation enforcement officers, and public information 
specialists.
    Community-based Policing.--GLIFWC's officers carry out their duties 
through a community-based policing program. The underlying premise is 
that effective detection and deterrence of illegal activities, as well 
as education of the regulated constituents, are best accomplished if 
the officers work within tribal communities that they primarily serve. 
The officers are based in reservation communities of the following 
member tribes: in Wisconsin--Bad River, Lac Courte Oreilles, Lac du 
Flambeau, Red Cliff, Sokaogon Chippewa (Mole Lake) and St. Croix; in 
Minnesota--Mille Lacs; and in Michigan--Bay Mills, Keweenaw Bay and Lac 
Vieux Desert. To develop mutual trust between GLIFWC officers and 
tribal communities, officers provide outdoor skills workshops and 
safety classes (hunter, boater, snowmobile, ATV) to 300 tribal youth in 
grades 4-8 annually. Recently GLIFWC officers worked to support drug 
and alcohol prevention efforts in the Lac du Flambeau school system by 
sponsoring a snowshoe making workshop for tribal youth.
    Interaction With Law Enforcement Agencies.--GLIFWC's officers are 
integral members of regional emergency services networks in Minnesota, 
Michigan and Wisconsin. They not only enforce the tribes' conservation 
codes, but are fully certified officers who work cooperatively with 
surrounding authorities when they detect violations of State or Federal 
criminal and conservation laws. These partnerships evolved from the 
inter-governmental cooperation required to combat the violence 
experienced during the early implementation of treaty rights in 
Wisconsin. As time passed, GLIFWC's professional officers continued to 
provide a bridge between local law enforcement and many rural Indian 
communities.
    GLIFWC remains at this forefront, using DOJ funding to develop 
interjurisdictional legal training attended by GLIFWC officers, tribal 
police and conservation officers, tribal judges, tribal and county 
prosecutors, and State and Federal agency law enforcement staff. DOJ 
funding has also enabled GLIFWC to certify its officers as medical 
emergency first responders trained in the use of defibrillators, and to 
train them in search and rescue, particularly in cold water rescue 
techniques. When a crime is in progress or emergencies occur, local, 
State, and Federal law enforcement agencies look to GLIFWC's officers 
as part of the mutual assistance networks of the ceded territories. In 
fact, the role of GLIFWC's officers in these networks was further 
legitimized in 2007 by the passage of Wisconsin Act 27. This law 
affords GLIFWC wardens the same statutory safeguards and protections 
that are afforded to their DNR counterparts. GLIFWC wardens will now 
have access to the criminal history database and other information to 
identify whom they are encountering in the field so that they can 
determine whether they are about to face a fugitive or some other 
dangerous individual.
    DOJ has acknowledged that, ``[t]he officer-to-population ratio 
still remains lower on Indian reservations than in other jurisdictions 
across the country . . . tribal law enforcement has a unique challenge 
of patrolling large areas of sparsely populated land'' (DOJ 2011 budget 
summary). GLIFWC's participation in mutual assistance networks located 
throughout a 60,000 square mile region directly addresses this problem 
in an effective and cost efficient manner.
    GLIFWC Programs Funded by DOJ.--GLIFWC recognizes that adequate 
communications, training, and equipment are essential both for the 
safety of its officers and for the role that GLIFWC's officers play in 
the proper functioning of interjurisdictional emergency mutual 
assistance networks in the ceded territories. GLIFWC's COPS grants have 
provided a critical foundation for achieving these goals. Significant 
accomplishments with Tribal Resources Grant Program funds include:
  --Increased Versatility and Homeland Security.--In 2007, GLIFWC used 
        COPS funding to obtain a 22-foot boat to expand patrol 
        capabilities and coverage on Lake Superior. This boat also 
        provides greater versatility than GLIFWC's larger patrol boat 
        to access bays and harbors in the Lake. In 2008, GLIFWC used 
        COPS funding to purchase an incident command center trailer 
        that will be used to provide a base for enforcement activities 
        and to improve response to incidents that trigger joint law 
        enforcement actions.
  --Emergency Response Equipment and Training.--Each GLIFWC officer has 
        completed and maintains certification as a First Responder and 
        in the use of life saving portable defibrillators. Since 2003, 
        GLIFWC officers have carried First Responder kits and portable 
        defibrillators during their patrol of around 275,000 miles per 
        year throughout the ceded territories. In remote, rural areas 
        the ability of GLIFWC officers to respond to emergencies 
        provides critical support of mutual aid agreements with 
        Federal, State, and local law enforcement agencies.
  --Ice Rescue Capabilities.--Each GLIFWC officer maintains 
        certification in ice rescue techniques and was provided a Coast 
        Guard approved ice rescue suit. In addition, each of the patrol 
        areas was provided a snowmobile and an ice rescue sled to 
        participate in interagency ice rescue operations with county 
        sheriffs departments and local fire departments.
  --Wilderness Search and Rescue Capabilities.--Each GLIFWC officer has 
        completed Wilderness Search and Rescue training. The COPS 
        Tribal Resources Grant Program also enabled GLIFWC to replace a 
        number of vehicles that were purchased over a decade ago, 
        including 10 ATV's and 16 patrol boats and the GPS navigation 
        system on its 31-foot Lake Superior Patrol Boat. These vehicles 
        are used for field patrol, cooperative law enforcement 
        activities, and emergency response in the 1836, 1837 and 1842 
        ceded territories. GLIFWC officers also utilize these vehicles 
        for boater, ATV, and snowmobile safety classes taught on 
        reservations as part of the Commission's Community Policing 
        Strategy, providing critical outreach to tribal youth.
    Consistent with numerous other Federal court rulings on the 
Chippewa treaties, the United States Supreme Court re-affirmed the 
existence of the Chippewa's treaty-guaranteed usufructuary rights in 
Minnesota v. Mille Lacs Band, 526 U.S. 172 (1999). As tribes have re-
affirmed rights to harvest resources in the 1837 ceded territory of 
Minnesota, workloads have increased. In addition, a consent decree 
signed in 2007 will govern the exercise of treaty rights in inland 
portions of the 1836 ceded territory in Michigan, where one of GLIFWC's 
member tribes exercises treaty rights.
    But for GLIFWC's COPS grants, this expanded workload, combined with 
staff shortages would have limited GLIFWC's effective participation in 
regional emergency services networks in Minnesota, Michigan and 
Wisconsin. The effectiveness of these mutual assistance networks is 
more critical than ever given: (1) national homeland security concerns; 
(2) State and local governmental fiscal shortfalls; (3) staffing 
shortages experienced by local police, fire, and ambulance departments 
due to the call up of National Guard and military reserve units; and 
(4) the need to cooperatively combat the spread of methamphetamine 
production in rural areas patrolled by GLIFWC conservation officers. 
Examples of the types of assistance provided by GLIFWC officers follow:
  --As trained first responders, GLIFWC officers routinely respond to, 
        and often are the first to arrive at, snowmobile accidents, 
        heart attacks, hunting accidents, and automobile accidents 
        (throughout the ceded territories) and provide sheriffs' 
        departments valuable assistance with natural disasters (e.g. 
        floods in Ashland County and a tornado in Siren, Wisconsin).
  --Search and rescue for lost hunters, fishermen, hikers, children, 
        and the elderly (Sawyer, Ashland, Bayfield, Burnett, and Forest 
        Counties in Wisconsin and Baraga, Chippewa, and Gogebic 
        Counties in Michigan).
  --Being among the first to arrive on the scene where officers from 
        other agencies have been shot (Bayfield, Burnett, and Polk 
        Counties in Wisconsin) and responding to weapons incidents 
        (Ashland, Bayfield, Burnett, Sawyer, and Vilas Counties in 
        Wisconsin).
  --Use of a thermal imaging camera (purchased through the TRGP) to 
        track an individual fleeing the scene of an accident (Sawyer 
        County, Wisconsin).
  --Completing snowmobile death investigations in cooperation with 
        other agencies using skills learned through investigation 
        training funded through the TRGP program (Vilas County),
  --Organizing and participating in search and rescues of ice fishermen 
        on Lake Superior (Ashland and Bayfield Counties in Wisconsin), 
        Lake Superior boats (Baraga County in Michigan and with the 
        U.S. Coast Guard in other parts of western Lake Superior), and 
        kayakers (Bayfield County in Wisconsin).
    In 2010, GLIFWC proposes to utilize DOJ TRGP funding to provide: 
(1) training to maintain law enforcement, first aid, and emergency 
rescue certifications; (2) specialized training in human tracking to 
support cooperative efforts with newly stationed Lake Superior border 
patrol agents and other agencies; (3) the capability to issue 
electronic tickets (e-tickets); and (4) equipment necessary to maintain 
officer safety and efficiency. TRGP resources will allow GLIFWC 
conservation officers to conduct essential cooperative conservation, 
law enforcement, and emergency response activities. We ask Congress to 
support a restoration of the DOJ COPS TRGP program to its fiscal year 
2010 level.
                                 ______
                                 
              Prepared Statement of the Innocence Project

    On behalf of the Innocence Project, thank you for allowing me to 
submit testimony to the Senate Committee on Appropriations Subcommittee 
on Commerce, Justice, Science, and Related Agencies as it considers 
budget requests for fiscal year 2011. I write to request the continued 
funding of the following programs at the following levels:
  --Paul Coverdell Forensic Science Improvement Grant Program (the 
        ``Coverdell Program'') at $35 million through the National 
        Institute of Justice (the ``NIJ'');
  --Kirk Bloodsworth Postconviction DNA Testing Program (the 
        ``Bloodsworth Program'') at $5 million through the NIJ;
  --The Capital Litigation Improvement Grant Program at its current 
        level of $5.5 million, so that the Wrongful Conviction Review 
        Program may continue to be funded at its current level, $3.0 
        million, through the Bureau of Justice Assistance (the 
        ``BJA''); and
  --The National Institute for Standards and Technology Preservation of 
        Evidence Working Group (the ``NIST Preservation Working 
        Group'') at $350,000 through the NIJ.
    Further, I will discuss a concern with regard to block-granting 
these important programs.
    As you may know, the Innocence Project represents convicted persons 
who seek to prove their innocence through post-conviction DNA testing. 
To date, 252 men and women have been exonerated by such testing 
nationwide. The mission of the Innocence Project is to free innocent 
people and prevent wrongful convictions through reform. Yet it is very 
important to note that this work has tremendous benefit for the publics 
safety. There are two aspects to this. First, every time DNA identifies 
a wrongful conviction, it enables the identification of the real 
perpetrator of those crimes. Indeed, the true perpetrators have been 
identified in 106 of the DNA exoneration cases. What's more, the 
reforms that can prevent wrongful convictions are simply measures to 
enhance the accuracy of criminal investigations and prosecutions, and 
thus have the effect of enhancing criminal investigations and 
strengthening criminal prosecutions.
    We recognize, through our work with Congress, that these dual 
benefits are well recognized by this body, and it has been our great 
pleasure to work closely with many of you on the very programs we're 
supporting in this testimony. I am writing to underscore the value of 
these programs to both safety and justice, and to request the continued 
funding of each of these critical programs in fiscal year 2011.

                           COVERDELL PROGRAM

    Recognizing the need for independent Government investigations in 
the wake of forensic scandals, Congress created the forensic oversight 
provisions of the Coverdell Program, which provides State and local 
crime laboratories and other forensic facilities with much needed 
Federal funds.
    The Innocence Project views the Congressional mandate under the 
Coverdell Program as a crucial step toward ensuring the integrity of 
forensic evidence. Unfortunately, however, because of administration 
problems at its outset, the Coverdell Program is only now beginning to 
reach its potential as a rigorous oversight mechanism. And now, more 
than ever, as forensic science budgets find themselves on the chopping 
block in State legislatures all over the country, their very survival 
may be dependent upon these Federal funds. With such import and 
capacity for positive change, we ask that you continue to fund the 
Coverdell Program at, in the very least, its current level of $35 
million.

                          BLOODSWORTH PROGRAM

    The Bloodsworth Program provides hope to inmates who might 
otherwise have none by helping States more actively pursue post-
conviction DNA testing for those who claim innocence. Tied to funding 
are those ``innocence incentive'' requirements discussed above. As we 
have testified to the House and Senate Judiciary Committees in the 
past, under President Bush, the NIJ moved very slowly and hesitantly on 
implementation of the Bloodsworth Program. Despite its authorization 
for 5 years, these monies were only disbursed in two of those years. 
The good news is that once these program funds began flowing, they had 
a solidly positive impact that led to even more success in the 
subsequent offering. Many organizational members of the national 
Innocence Network partnered with State agencies that have received 
Bloodsworth funding.\1\ According to the Innocence Network's President, 
Keith Findley, the Bloodsworth Program will dramatically improve the 
ability of Innocence Network members to meet the tremendous need for 
post-conviction DNA testing. Many of the projects funded under the 
Bloodsworth Program will enable projects in various States to 
proactively search for and identify forcible rape, murder and non-
negligent manslaughter cases in which DNA testing can prove guilt or 
innocence, but which are otherwise overlooked or hidden.\2\
---------------------------------------------------------------------------
    \1\ The Innocence Network is an affiliation of organizations 
dedicated to providing pro bono legal and investigative services to 
individuals seeking to prove innocence of crimes for which they have 
been convicted and working to redress the causes of wrongful 
convictions.
    \2\ Strengthening Our Criminal Justice System: Extending the 
Innocence Protection Act. 111th Cong., 1st Sess., 10 (2009) (testimony 
of Keith Findley, President of the Innocence Network).
---------------------------------------------------------------------------
    It is worth noting that the Bloodsworth Program does not fund the 
work of Innocence Projects directly. In fact, the Office of Justice 
Programs has encouraged State applicants to draft proposals that fund a 
range of entities involved in settling innocence claims, from law 
enforcement agencies to crime laboratories. Additionally, the 
Bloodsworth Program has fostered the cooperation of innocence projects 
and State agencies. For example, with the $1,386,699 that Arizona was 
awarded for fiscal year 2008, the Arizona Justice Project, in 
conjunction with the Arizona Attorney General's Office, began the Post-
Conviction DNA Testing Project. Together, they have canvassed the 
Arizona inmate population, reviewed cases, worked to locate evidence 
and filed joint requests with the court to have evidence released for 
DNA testing. In addition to identifying the innocent, Arizona Attorney 
General Terry Goddard has noted that the ``grant enables [his] office 
to support local prosecutors and ensure that those who have committed 
violent crimes are identified and behind bars.'' \3\ Such joint efforts 
have followed in Connecticut, Louisiana, Minnesota, North Carolina and 
Wisconsin.
---------------------------------------------------------------------------
    \3\ Arizona receives Federal DNA grant, http://
community.law.asu.edu/news/19167/Arizona-receives-federal-DNA-grant.htm 
(last visited Mar. 17, 2010).
---------------------------------------------------------------------------
    The Bloodsworth Program will continue to be vital to States' work 
in providing meaningful post-conviction review of innocence claims. As 
such, we ask that you continue to fund the Bloodsworth Program at its 
current funding level of $5 million.

                   WRONGFUL CONVICTION REVIEW PROGRAM

    Particularly when DNA isn't available, or when it alone isn't 
enough to prove innocence, those innocents languishing behind bars 
require expert representation to help navigate the complex issues that 
invariably arise in their bids for post-conviction relief. And the need 
for such representation is enormous when only a small fraction of cases 
involve evidence that could be subjected to DNA testing (for example, 
it is estimated that even among murders, only 10 percent of cases have 
the kind of evidence that could be DNA tested). Realizing the 
imperative presented by such cases, the BJA carved-out of its Capital 
Case Litigation Initiative funding to create the Wrongful Prosecution 
Review (now the Wrongful Conviction Review) discretionary grant 
program.\4\ The program provides applicants--non-profits and public 
defender offices dedicated to exonerating the innocent--with funds 
geared toward providing high quality and efficient representation for 
potentially wrongfully convicted defendants in post-conviction claims 
of innocence. Eleven offices in 10 States received a total of 
$2,475,285 for fiscal year 2009.
---------------------------------------------------------------------------
    \4\ Reauthorization of the Innocence Protection Act. 111th Cong., 
1st Sess., 8 (2009) (testimony of Lynn Overmann, Senior Advisor, Office 
of Justice Programs).
---------------------------------------------------------------------------
    The program's goals, in addition to exonerating the innocent, are 
significant: to alleviate burdens placed on the criminal justice system 
through costly and prolonged post-conviction litigation and to 
identify, whenever possible, the actual perpetrator of the crime. Above 
all, though, this program forms a considerable piece of the 
comprehensive Federal package of innocence protection measures created 
in recent years; without it, a great deal of innocence claims might 
otherwise fall through the cracks. Accordingly, we urge you to re-
appropriate the Capital Litigation Improvement Grant Program at its 
current level of $5.5 million, so that the Wrongful Conviction Review 
Program may continue to be funded at its current level through the BJA.

                    NIST PRESERVATION WORKING GROUP

    The need for the NIST Preservation Working Group is particularly 
pressing as outdated policies and practices still fail to consider the 
power of DNA in biological evidence. And, while many State legislators 
have expressed a desire to more effectively and efficiently preserve 
evidence to harness the probative power of DNA, they find themselves 
unable to secure the information necessary to do so. Failures in 
preservation practice can frustrate even the most aggressive efforts to 
solve active cases and cold cases or the quests of the wrongfully 
convicted to prove their innocence.
    With funds recently disbursed by the NIJ, the NIST Preservation 
Working Group is currently being formed. Its first meeting is 
tentatively scheduled for June 2010, when the group will gather to 
begin its critical work toward identifying and recommending best 
practices for the preservation of biological evidence. According to Sue 
Ballou of NIST, generally, $60,000 covers a meeting of 25 attendees. 
The $250,000 will cover labor costs as well as travel, per diem and 
other costs for all invitees to the year's meetings, which will number 
at least three. However, Ms. Ballou estimates that $350,000 would 
enable the group to more quickly and thoroughly complete its critically 
important mandate of educating the States on the proper preservation of 
evidence. As such, we ask that Congress provide funding to the NIJ 
sufficient for the disbursement of $350,000 for fiscal year 2011 so 
that the NIST Preservation Working Group may carry on with its work--so 
that ``the discovery of preserved biological evidence--to protect the 
innocent and the public at large--will no longer have to rely on 
serendipity and happenstance.'' \5\
---------------------------------------------------------------------------
    \5\ Reauthorization and Improvement of DNA Initiatives of the 
Justice for All Act of 2004. 110th Cong., 2d Sess., 27 (2008) 
(testimony of Peter Neufeld, Esq.).
---------------------------------------------------------------------------
an additional note on the department of justice's requested budget for 
                            fiscal year 2011
    The Department of Justice's fiscal year 2011 budget request appears 
to do away with many of the above programs as separate programs; 
instead, it seems to advocate providing a blanket $150 million for what 
is termed ``DNA Initiative.'' \6\
---------------------------------------------------------------------------
    \6\ U.S. Department of Justice, fiscal year 2011 Budget Request 
Factsheet, pp. 13, 15. http://www.justice.gov/jmd/2011factsheets/pdf/
law-enforcement.pdf.
---------------------------------------------------------------------------
    We are particularly concerned about the impact that block-granting 
the above programs will have on the requirement incentives that the 
Bloodsworth Program and the Wrongful Conviction Review Program 
currently provide for States to prevent wrongful convictions and 
otherwise ensure the integrity of evidence.\7\ These incentives have 
proven significant for the advancement of State policies to prevent 
wrongful convictions.
---------------------------------------------------------------------------
    \7\ We have previously advocated for the reauthorization and 
appropriation of all programs originally intended to be tied to the 
post-conviction DNA testing access and preservation of evidence 
requirements under section 413 of the JFAA. Congress, in doing so, will 
only add to the incentives discussed above.
---------------------------------------------------------------------------
    To the extent these incentives would no longer exist, or be 
diminished, if delivered in block grant form, the Innocence Project 
would recommend that they not be so delivered and that Congress 
maintain and fund the individual programs in order to preserve their 
important incentive and performance requirements. Doing away with these 
requirements would thwart the original intent of the JFAA, which was to 
provide funding only to States that demonstrate a commitment to 
preventing wrongful convictions in those areas. Should these innocence 
protection requirements of the above programs remain in full force and 
in all instances despite a change to block grants, however, this 
specific issue will no longer be of concern.

                               CONCLUSION

    Thank you for your time and consideration of these important 
programs, and the opportunity to submit testimony. We look forward to 
working with the subcommittee this year.
                                 ______
                                 
    Prepared Statement of the National Fish and Wildlife Foundation

    Madam Chairman and members of the subcommittee: Thank you for the 
opportunity to submit testimony regarding fiscal year 2011 funding for 
the National Fish and Wildlife Foundation (Foundation). The 
Foundation's fiscal year 2011 funding request is fully authorized and 
each Federal dollar appropriated will be matched by a minimum of one 
non-Federal dollar. We respectfully request your approval of funding 
through the National Oceanic and Atmospheric Administration (NOAA) at 
the following levels:
  --Three million dollars to help fishing communities in the transition 
        to catch share programs--National Marine Fisheries Service's 
        (NMFS) Operations, Research and Facilities appropriation; and
  --Two million dollars to foster coordination between NOAA, State, 
        tribal, and local partners in comprehensive marine spatial 
        planning--National Ocean Service's (NOS) Ocean and Coastal 
        Management appropriation.
    Since its inception, the Foundation has leveraged $500 million in 
Federal funds into more than $1.6 billion in on-the-ground and in-the-
water conservation with less than 5 percent aggregate overhead to the 
Federal Government and fewer than 90 staff nationwide.
    The Foundation was established by Congress in 1984 to foster 
public-private partnerships to conserve fish, wildlife and their 
habitats. The Foundation is required by law to match each Federal-
appropriated dollar with a minimum of one non-Federal dollar. We 
consistently exceed this requirement by leveraging Federal funds at a 
3:1 average ratio while building consensus and emphasizing 
accountability, measurable results, and sustainable conservation 
outcomes. fiscal year 2011 funds will allow the Foundation to uphold 
our mission and expand our successful partnership with NOAA.

                 SUSTAINABLE FISHERIES AND CATCH SHARES

    This $3 million NOAA-NMFS request will support the Foundation's 
Fisheries Innovation Fund which is a grant program to assist fishing 
communities in the design and implementation of catch shares. This new 
initiative is a priority for the Foundation in fiscal year 2011 and 
closely aligned with NOAA's budget priorities. The purpose of the Fund 
is to partner with NOAA, private partners, and local communities to 
catalyze the development and implementation of limited access privilege 
programs (``LAPPs''), or catch shares, for the Nation's marine 
fisheries. The Foundation will build on our successful grant-making 
partnerships in gear modification/exchange, bycatch reduction, and 
marine debris prevention to implement this grant-making and technical 
assistance program. Private partners have already committed to support 
the Fund and leverage Federal funds with their own matching 
contributions.
    It is notable that the administration's fiscal year 2011 request 
includes $54 million to initiate a National Catch Share Program. This 
is an important step and the Foundation is committed to helping NOAA 
implement this program consistent with the Federal Catch Share Policy. 
As a neutral consensus builder with a proven track record of success, 
the Foundation has a unique role to play as a non-regulatory partner in 
NOAA's efforts to implement catch share programs.
    The Draft Catch Share Policy states that NOAA will ``encourage 
public-private partnerships and facilitate collaboration with State and 
local governments, regional economic development districts, public and 
private nonprofit organizations, and tribal entities to help 
communities address problems associated with long-term fishery and 
community sustainability.'' The Foundation is well-positioned to help 
NOAA implement this particular aspect of the policy by serving as a 
conduit to members of the fishing community in the design of catch 
share programs. The Foundation's role will be to build trust and 
effective partnerships within local communities and, among other 
things, provide grants to improve their capacity to participate in the 
catch share design process.
    As an example, we have recently made an investment in the State of 
Maryland to build a sustainable blue crab fishery in the Chesapeake Bay 
through development of catch shares. Our role was to help build trust 
between the regulators and the fishermen by promoting fishermen-to-
fishermen learning opportunities about catch shares.
    In the Gulf of Mexico, we have provided grants to enable fishermen 
to meet regulatory requirements to convert their fishing gear, free of 
charge, to avoid bycatch. We operated similar gear conversion programs 
for New England lobsterman. The Fishing for Energy Program, established 
in 2008 with NOAA, Covanta Energy, and Schnitzer Steel allows fishermen 
to dispose of derelict gear, free of charge, that Covanta converts to 
create energy. This successful partnership has benefited fishermen 
through collection and disposal of over 250 tons of derelict fishing 
gear from 18 ports in the United States.
    The Foundation looks forward to working with NOAA as a funding 
partner in fiscal year 2011 to develop catch share programs that are 
well-designed and thoughtfully prepared to foster healthy, profitable 
fisheries that are sustainable and beneficial to coastal communities.

           MARINE SPATIAL PLANNING AND MARINE PROTECTED AREAS

    This $2 million NOAA-NOS request will support the Foundation's 
Marine Protected Areas (MPAs) Fund which is a grant program focused on 
the implementation of marine spatial planning conservation priorities. 
The Fund was established in 2009 in partnership with NOAA's MPA Center 
to provide grants that will foster collaboration at all levels of 
government to work together at regional, national and international 
levels to strengthen the management, protection, and conservation of 
MPAs.
    MPA's play a critical role in the conservation of marine and 
coastal resources and span a range of habitats including open ocean, 
estuaries and inter-tidal zones. There are a variety of MPA programs at 
the Federal, State, tribal and local level that make up the new 
National System of MPAs. The Interagency Ocean Policy Task Force 
Framework for Effective Coastal and Marine Spatial Planning identifies 
MPAs as a primary tool for conservation of the marine environment. The 
Foundation's MPA Fund can deliver tangible results that contribute to 
the marine spatial planning conservation goals of the Interagency Ocean 
Policy Task Force by enhancing coordination of Federal, State, tribal, 
and local MPAs.
    With fiscal year 2011 funding, the Foundation will continue grant-
making to support effective management, including strengthening of 
technical, scientific and enforcement capacity, and facilitating 
participation of stakeholders in planning efforts needed to ensure the 
success of the National System of MPAs. Further, the Fund will help to: 
(1) enhance the protection of U.S. marine resources by providing new 
opportunities for regional and national cooperation; (2) support the 
national economy by helping to sustain fisheries and maintain healthy 
marine ecosystems for tourism and recreation businesses; and (3) 
promote public participation in MPA decisionmaking by improving access 
to public policy information.
    The administration's fiscal year 2011 budget request recognizes the 
need and importance of marine spatial planning and ocean governance. To 
that end, we respectfully ask for your support of the Foundation's MPAs 
Fund in fiscal year 2011.

                               CONCLUSION

    As the congressionally-chartered Foundation for NOAA, the 
Foundation is uniquely positioned to help the agency implement priority 
programs and leverage Federal investments to support our shared 
conservation objectives. Direct appropriations through NOAA in fiscal 
year 2011 will accelerate our collective efforts to fully implement the 
Fisheries Innovation Fund and the Marine Protected Areas Fund. NOAA 
appropriations of $5 million in fiscal year 2011 would be matched at a 
minimum by an additional $5 million from non-Federal sources. As a 
trusted, neutral consensus builder, the Foundation stands ready to 
assist NOAA with implementation of these Federal programs by catalyzing 
effective local partnerships to protect marine and coastal resources 
while ensuring continued economic benefits for local communities.
    Madam Chairman, we greatly appreciate your continued support and 
hope the subcommittee will approve funding for the Foundation in fiscal 
year 2011.
                                 ______
                                 
    Prepared Statement of the ASME Technical Communities' National 
        Institute of Standards and Technology (NIST) Task Force

    The ASME Technical Communities' National Institute of Standards and 
Technology (NIST) Task Force is pleased to have this opportunity to 
provide comments on the fiscal year 2011 budget request for NIST. The 
NIST Task Force and ASME Standards & Certification have a long-standing 
relationship with NIST and thus recognize NIST as a key Government 
agency that contributes significantly to the development and 
application of technology.
    In the President's fiscal year 2011 budget request, the Task Force 
supports the proposed increases for NIST programs, which are consistent 
with the doubling path by fiscal year 2017 identified by the 
administration as a goal for NIST.

              INTRODUCTION TO ASME AND THE NIST TASK FORCE

    Founded in 1880 as the American Society of Mechanical Engineers, 
ASME is a worldwide engineering society of over 127,000 members focused 
on technical, educational and research issues. ASME conducts one of the 
world's largest technical publishing operations, holds approximately 30 
technical conferences and 200 professional development courses each 
year, and sets many industry and manufacturing standards.
    Mechanical engineers play a key role in the research, technology 
development, and innovation that influence the economic well being of 
the Nation. ASME has supported the mission of NIST since it was founded 
in 1901, as the National Bureau of Standards. In fact, ASME was 
instrumental in establishing the Department of Commerce, NIST's parent 
agency. The technical programs of NIST are unique in that they foster 
Government and industry cooperation through cost-sharing partnerships 
that create long-term investments based on engineering and technology. 
These programs are aimed at providing the technical support so vital to 
our Nation's future economic health.

           OVERVIEW OF NIST'S FISCAL YEAR 2011 BUDGET REQUEST

    The administration's budget request for NIST in fiscal year 2011 is 
$918.9 million. This represents a $62.3 million increase over the 
fiscal year 2010 appropriated amount and is on target to reach the 
doubling goal by fiscal year 2017, as identified by the administration 
for this agency.
    This budget includes $584.6 million for the Scientific and 
Technical Research and Services (STRS), NIST laboratory research and 
$9.9 million for the Baldrige National Quality Program. A large portion 
of the NIST budget is devoted to the Industrial Technology Services 
programs, which consist of the Technology Innovation Program (TIP) as 
well as the Hollings Manufacturing Extension Partnership (MEP). This 
budget requests $79.9 million for TIP, a $10 million increase over the 
fiscal year 2010 appropriated amount. Additionally, it requests $129.7 
million for the Hollings Manufacturing Extension Partnership (MEP), a 
$4.6 million increase over the fiscal year 2010 appropriated amount.
    The NIST laboratories are critical to the economic health and 
national security of the United States as outlined in the President's 
Innovation Agenda, inspired, in part, by the bipartisan ``America 
COMPETES Act of 2007'' (Public Law 110-69), which authorizes the 
doubling of funding at key Federal agencies, including NIST. Therefore, 
the NIST Task Force will be very anxious to learn more about NIST 
Director Dr. Gallagher's proposal for reconfiguring the NIST 
laboratories to better reflect technological innovations in 
manufacturing and product development. Additionally, the important work 
of NIST in the area of standards, including serving as the U.S. inquiry 
point for the World Trade Organization (WTO) Technical Barriers to 
Trade (TBT) Agreement, is vital to ensuring that U.S. technology and 
products are not unduly handicapped in the global market.

                        NIST'S STANDARDS MISSION

    Part of the mission of NIST is to promote the use of American codes 
and standards in countries and industries around the world as a means 
of enhancing U.S. competitiveness. Standards provide technical 
definitions and guidelines for design and manufacturing. They serve as 
a common global language, define quality and establish safety criteria. 
In the United States, standards are developed by private-sector 
organizations such as ASME in close collaboration with representatives 
from industry, Government and academia. These standards are used by 
industry and are frequently adopted by Government agencies as a means 
of establishing regulatory requirements. They are vital to the economic 
health of many industries, and--more important--they help to ensure the 
health and safety of the American people and of citizens in countless 
nations around the world.
    The Department of Commerce and NIST have an indispensable role in 
ensuring acceptance by other nations of U.S.-developed standards that 
incorporate technological advances and that meet changing industry, 
regulatory, and public safety needs. Congress should be aware that, 
unlike in the United States where standards development is largely the 
province of private sector organizations, standards development in many 
other countries is undertaken with strong government support. The 
governments of many of our key trading partners invest significant 
resources--in the millions of dollars--to promote acceptance of 
competing standards (developed by organizations in those countries) in 
the global marketplace. It is therefore essential that the U.S. 
Government, in partnership with private sector standards development 
organizations, strengthen its commitment to ensuring adequate 
representation of U.S. interests in international standards 
negotiations.
    Enabling U.S. manufacturers to design and build to one standard or 
set of standards increases their competitiveness in the world market. 
The ability of NIST to assist U.S. domiciled standards developers in 
their negotiations with international and national standards 
organizations is important to the U.S. business community. The United 
States must be a full participant in global standards development if 
our industries are to compete effectively in a world market. Decisions 
made in standards bodies outside the United States have a profound 
impact on the ability of U.S. companies to compete in foreign markets.

                          TASK FORCE POSITION

    In the President's fiscal year 2011 budget request, the Task Force 
supports the increases for TIP and MEP. The Task Force is tentatively 
supportive, pending a detailed plan from the NIST Director, of the 
recent announcement to undertake a restructuring of the NIST 
laboratories. These laboratories conduct critical research in areas 
like high-technology manufacturing and nanotechnology which have the 
potential to establish new industries and keep the U.S. manufacturing 
base strong.
    The erosion of U.S. manufacturing jobs has become a key issue for 
the MEP to develop sustainable practices for the industry. The MEP 
incorporates competitive business practices and technologies into 
small- to medium-sized enterprises--companies that create a significant 
number of jobs. The administrations request of $129.7 million reflects 
the importance of NIST as a part of the administration's goals for 
innovation, as well as harkens to the bipartisan ``America COMPETES 
Act.''
    The Task Force is pleased by the robust funding increase requested 
for the TIP. The TIP provides cost-shared funding to industry for high-
risk research and development projects with potentially broad-based 
economic benefits for the United States. One key difference between the 
TIP program, versus its predecessor the Advanced Technology Program 
(ATP) is the inclusion of universities to draw upon the technical 
talents housed in these institutions for breakthroughs in ``high risk, 
high reward'' research for manufacturing. The Task Force supports the 
funding request for TIP to serve as an initial down payment to 
investing in high-risk research and development.
    The Task Force firmly believes that TIP and the MEP are critical to 
the Nation's future economic well-being and the health of the U.S. 
science, engineering, and technology base. These programs hold the 
potential to improve the transfer of new discoveries and developments 
in science and engineering to innovative technologies, global quality 
practice, and profitable manufacturing capabilities on the shop floor. 
The NIST Task Force has long supported MEP and TIP as a catalyst of 
technological innovation and is pleased to see the administration's 
support for these two critical programs as NIST seeks to facilitate the 
development of new industries that will catalyze manufacturing and 
industrial practices in the United States.
    The Task Force is in full support of the $584.6 million proposed 
funding for the Scientific and Technical Research and Services (STRS) 
directorate in the fiscal year 2011 budget. This funding will help 
support building and fire research, information technology, and 
manufacturing engineering laboratories.

                               CONCLUSION

    Despite the proposed freeze on discretionary funding for the next 
three fiscal years, the administration has demonstrated a willingness 
to support increases for key NIST initiatives for fiscal year 2011. 
Accordingly, the Task Force remains strongly supportive of these 
initiatives as well as the underlying goals of NIST as it related to 
advanced manufacturing and technological innovation.
                                 ______
                                 
        Prepared Statement of The American Physiological Society

                  NATIONAL SCIENCE FOUNDATION AND NASA

    The American Physiological Society (APS) thanks the subcommittee 
for its sustained support of science at the National Science Foundation 
(NSF) and NASA. The scientific research and technology development 
programs supported by these two agencies are critical to the future 
technological excellence and economic stability of the United States. 
In this testimony, the APS offers its recommendations for the fiscal 
year 2011 budgets for the NSF and NASA.
  --The APS recommends that Congress fund the fiscal year 2011 NSF 
        budget at a level of $7.68 billion.
  --The APS urges Congress to restore cuts to NASA's life sciences 
        research budgets and make every effort to fully fund the 
        proposed 42 percent increase in the Human Research Program.
    The APS is a professional society dedicated to fostering research 
and education as well as the dissemination of scientific knowledge 
concerning how the organs and systems of the body work. The Society was 
founded in 1887 and now has nearly 10,000 members who do research and 
teach at public and private research institutions across the country, 
including colleges, universities, medical and veterinary schools. Many 
of our members conduct physiology research that is supported by funds 
allocated through the NSF and NASA.

           MOMENTUM FROM ARRA SHOULD BE MAINTAINED AT THE NSF

    With passage of the America COMPETES Act of 2007, Congress 
authorized a doubling of the agency's budget over several years. 
Unfortunately, the NSF budget failed to grow at the authorized levels 
in subsequent years and fell behind the doubling goal significantly. 
Congress remedied this in the American Recovery and Reinvestment Act of 
2009 (ARRA), which provided an additional $3 billion in fiscal year 
2009 and 2010. This additional funding has allowed the NSF to 
significantly expand its efforts to fund cutting edge research and 
support the scientific enterprise. To date, the ARRA investment has 
provided funding for 4,599 competitive awards, supporting more than 
6,700 investigators, including 2,352 new investigators.\1\ In order to 
maintain the momentum generated by the ARRA investment and sustain the 
agency's research capacity, the APS recommends that Congress fund the 
fiscal year 2011 NSF budget at a level of $7.68 billion.
---------------------------------------------------------------------------
    \1\ NSF fiscal year 2011 Budget Request to Congress http://
www.nsf.gov/about/budget/fy2011/pdf/01-Overview_fy2011.pdf.
---------------------------------------------------------------------------
    The basic science initiatives funded by the NSF are driven by the 
most fundamental principles of scientific inquiry. The agency provides 
support for approximately 20 percent of Federal funded basic science 
and is the major source of support (68 percent) for non-medical biology 
research, including integrative, comparative, and evolutionary biology, 
as well as interdisciplinary biological research. It has been shown 
time and again that the knowledge gained through basic biological 
research is the foundation for more applied studies that lead to 
improvements in the lives of humans, animals and ecosystems.
    The majority of the funding NSF provides is awarded through 
competitive, merit-based peer review, which ensures that the best 
possible projects are supported. NSF has an excellent record of 
accomplishment in terms of funding research endeavors that have 
produced results with far-reaching potential. Listed below are just a 
few recent advances in biological research that were supported by the 
NSF.
  --Using three-dimensional computational models, researchers 
        investigating the design and functionality of stents used to 
        open blocked blood vessels showed that appropriate sizing of 
        stents is necessary to prevent disturbances in blood flow and 
        mechanical stress on the blood vessel wall. These processes 
        contribute to blood vessels becoming re-blocked over time, 
        leading to the need for additional treatment.\2\
---------------------------------------------------------------------------
    \2\ H. Y. Chen et al., J Appl Physiol 106, 1686-91 (May, 2009).
---------------------------------------------------------------------------
  --Researchers studying how inhaled particles, such as nanoparticles, 
        pass from the lung into the rest of the body compared how well 
        natural barriers blocked such particles in developing versus 
        adult lungs. They found that developing lungs were more 
        susceptible to allowing the passage of particles than adult 
        lungs.\3\
---------------------------------------------------------------------------
    \3\ R. Dickie, M. Cormack, M. Semmler-Behnke, W. G. Kreyling, A 
Tsuda, J Appl Physiol 107, 859-63 (Sep, 2009).
---------------------------------------------------------------------------
  --Researchers studying factors contributing to birth weight 
        demonstrated that at high altitudes, babies born to mothers of 
        Andean descent had higher birth weights than those born to 
        mothers of European descent. They hypothesize that genetic 
        factors in the Andean mothers contributed to increased blood 
        flow and oxygen delivery to the developing fetus, resulting in 
        more rapid growth late in pregnancy.\4\
---------------------------------------------------------------------------
    \4\ C. G. Julian et al., Am J Physiol Regul Integr Comp Physio, 
296, R1564-75 (May, 2009).
---------------------------------------------------------------------------
    In addition to funding innovative research in labs around the 
country, the NSF also fosters the next generation of scientists through 
education programs. The APS is proud to have partnered with NSF in this 
program to provide training opportunities and career development 
activities to enhance the participation of underrepresented minorities 
in science. The APS was recognized for these efforts in 2003 with a 
Presidential Award for Excellence in Science, Mathematics and 
Engineering Mentoring (PAESMEM), funding for which was provided by NSF 
and was reinvested in our education programs. We believe that NSF is 
uniquely suited to administer science education programs of the highest 
quality, and we recommend that Congress continue to provide Federal 
funds for science education through the NSF.
    The America COMPETES Act and the ARRA demonstrate the strong 
support of Congress for the NSF because of its highly-regarded research 
and education programs. The APS thanks Congress for these votes of 
confidence in the NSF and joins the Federation of American Societies 
for Experimental Biology to recommend that the agency be funded at a 
level of $7.68 billion in fiscal year 2011.

   SUPPORT FOR LIFE SCIENCES RESEARCH AND THE HUMAN RESEARCH PROGRAM 
                      SHOULD BE INCREASED AT NASA

    NASA sponsors research across a broad range of the basic and 
applied life sciences, including gravitational biology, biomedical 
research and the Human Research Program (HRP). The gravitational 
biology and biomedical research programs explore fundamental scientific 
questions through research carried out both on Earth and aboard the 
space shuttle and International Space Station, environments that offer 
the unique ability to conduct experiments in the space environment. The 
HRP at NASA conducts research and develops countermeasures with the 
goal of enabling safe and productive human space exploration.
    During prolonged space flight, the physiological changes that occur 
due to microgravity, increased exposure to radiation, confined living 
quarters, and alterations in eating and sleeping patterns can lead to 
health problems and reduced ability to perform tasks. APS scientists 
are actively engaged in research that explores the physiological basis 
of these problems with the goal of contributing to the development of 
countermeasures. The knowledge gained from this research is not only 
relevant to humans traveling in space, but is also directly applicable 
to human health on Earth. For example, some of the muscle and bone 
changes observed in astronauts after prolonged space flight are similar 
to those seen in patients confined to bed rest. Some recent advances 
made by NASA funded physiologists are below.
  --Scientists studying the effects of exercise on astronauts who spent 
        6 months aboard the International Space Station found that 
        despite regular exercise, they still experienced a decrease in 
        muscle mass. This indicates the need to determine how to 
        improve the effectiveness of such exercise programs.\5\
---------------------------------------------------------------------------
    \5\ S. Trappe et al., J Appl Physiol 106, 1159-68 (Apr, 2009).
---------------------------------------------------------------------------
  --Researchers investigating how breathing changes during space flight 
        showed that during certain stages of sleep, astronauts showed 
        differences in their breathing patterns.\6\
---------------------------------------------------------------------------
    \6\ R. C. Sa, G. K. Prisk, M. Paiva, J Appl Physiol 107, 1406-12 
(Nov, 2009).
---------------------------------------------------------------------------
    NASA is the only agency whose mission addresses the biomedical 
challenges of manned space exploration. Recently the amount of money 
available for conducting this kind of research at NASA has dwindled. 
The overall number of projects and investigators supported by NASA 
through the HRP, National Space Biomedical Research Institute and 
Exploration and Technology Development program has decreased markedly 
over the last 5 years, falling from more than 900 projects funded in 
fiscal year 2005 to only 336 in fiscal year 2009.\7\ In the past, 
appropriations legislation specified funding levels for biomedical 
research and gravitational biology, but recent internal reorganizations 
at NASA have made it difficult to understand how much money is being 
spent on these programs from year to year. The APS recommends that 
funding streams for these important fundamental research programs be 
clearly identified and tracked within the NASA budget.
---------------------------------------------------------------------------
    \7\ Advanced Capabilities Division Research and Technology Task 
Book http://peer1.nasaprs.com.
---------------------------------------------------------------------------
    The fiscal year 2011 budget request to Congress includes a planned 
42 percent increase in the HRP budget. We applaud this proposal and 
urge Congress to make every effort to fully fund that request. The APS 
also calls on Congress and NASA to restore cuts to peer-reviewed life 
sciences research.
    As highlighted above, investment in the basic sciences is critical 
to our Nation's technological and economic future. The APS urges you to 
make every effort to provide these agencies with increased funding for 
fiscal year 2011.
                                 ______
                                 
      Prepared Statement of the American Public Power Association

    The American Public Power Association (APPA) is the national 
service organization representing the interests of over 2,000 municipal 
and other State and locally owned utilities in 49 States (all but 
Hawaii). Collectively, public power utilities deliver electricity to 1 
of every 7 electric consumers (approximately 45 million people), 
serving some of the Nation's largest cities. However, the vast majority 
of APPA's members serve communities with populations of 10,000 people 
or less.
    The Department of Justice's (DOJ) Antitrust Division and the 
Federal Trade Commission (FTC) play critical roles in monitoring and 
enforcing antitrust laws affecting the electric utility industry. With 
the repeal of the Public Utility Holding Company Act (PUHCA) included 
in the Energy Policy Act of 2005, the electric utility industry has 
experienced an increase in mergers that could result in increased 
market power in certain regions. This development, coupled with the 
volatility and uncertainty continuing to occur in wholesale electricity 
markets run by regional transmission organizations, makes the oversight 
provided by DOJ and the FTC more critical than ever.
    APPA supports adequate funding for staffing antitrust enforcement 
and oversight at the FTC and DOJ. For the FTC's fiscal year 2011 
budget, we support the President's budget request of $314 million. We 
were pleased with the fiscal year 2011 funding level of $167 million 
for the DOJ Antitrust Division, which is a slight increase from the 
previous year.
    We appreciate the opportunity to submit this statement outlining 
our fiscal year 2011 funding priorities within the Commerce, Justice 
and Science Subcommittee's jurisdiction.
                                 ______
                                 
            Prepared Statement of the Pew Environment Group

    The Pew Environment Group (PEG) appreciates the opportunity to 
provide testimony on the National Oceanic and Atmospheric 
Administration's (NOAA) fiscal year 2011 budget request. Specifically, 
we would like to comment on the fisheries data collection and analysis 
request of the National Marine Fisheries Service (NMFS). In order to 
meet critical new fisheries management requirements, we request a total 
of $380.9 million for data collection and analysis, which is an 
increase of $58.4 million over the President's fiscal year 2011 budget 
request.
    In 2006, Congress reauthorized and amended the Magnuson-Stevens 
Fishery Conservation and Management Act to finally put an end to 
overfishing, i.e., taking fish from the ocean faster than they can 
reproduce. To achieve that objective, Congress required Federal fishery 
managers to establish science-based annual catch limits (ACLs) that do 
not allow overfishing for all U.S. ocean fisheries. As these ACLs are 
developed, it is imperative that Congress appropriate the funding 
necessary to continue providing and improving the scientific 
information fisheries managers need to guide decisions that will 
sustain our fisheries. ACLs must be based on science, not politics, to 
ending overfishing and rebuild depleted fisheries.
    Improvements in data collection and analysis will enable fishery 
managers to better achieve the goal of the 2006 amendments, ending 
overfishing. The following core data collection and monitoring programs 
should be increased by a total of $58.4 million over the President's 
fiscal year 2011 budget request. This represents an increase of $35.5 
million over fiscal year 2010 enacted funding levels, for a total of 
$380.9 million. This increase is broken down into specific budget 
categories below.
    Fisheries Research and Management Programs: +$11.4 Million Over the 
President's Request, for a Total of $190.9 Million, an Amount Equal to 
the Fiscal Year 2010 Enacted Level.--Fisheries research and management 
programs provide accurate and timely information and analysis on the 
biology and population status of managed fish as well as the 
socioeconomics of the fisheries that depend on those populations. Such 
information is critical for the development of fisheries management 
measures to ensure that they end overfishing. In NOAA's fiscal year 
2011 budget request, $11.4 million is transferred from the Fisheries 
Research and Management Programs line item into the National Catch 
Share Program line item. We believe that any increases for catch share 
programs should be made with new money, not transferred from existing 
general research programs that should be available for all fisheries. 
Because of their vital role in ending overfishing, Fisheries Research 
and Management Programs should be funded at no less than the fiscal 
year 2010 enacted level of $190.9 million. Additionally, no funds from 
the line item should be transferred to the National Catch Share 
Program, because those funds would become permanently unavailable to 
fund research and management programs for the vast majority of Federal 
managed fisheries that are not currently in a catch share program, and 
may not be included in one in the future.
    Expand Annual Stock Assessments: +$10 Million Over the President's 
Request, for a Total of $61.7 Million, an Increase of $10.7 Million 
Over the Fiscal Year 2010 Enacted Level.--Stock assessments are the 
basic scientific tool that scientists use to determine the health of 
fisheries. A stock assessment provides estimates of population size and 
the amount of fishing that the population can sustainably support. The 
President's budget request of $51.7 million would only provide the 
capability to assess 57 percent of the 230 commercially and 
recreationally important fish stocks managed by the Federal 
Government.\1\ However, NMFS's goal is to assess all major fish stocks 
and conduct annual baseline monitoring for all Federal-managed fish 
species.\2\ Using funds appropriated under this budget line, NMFS plans 
to update fish stock assessments, support the implementation of ACLs, 
support fishery independent surveys, expand fishery dependent sampling, 
and improve ACL forecasting through enhanced modeling. Increased 
funding for data collection and monitoring will increase certainty in 
determining fish population sizes and the amount of fishing these 
populations can sustain, thus enabling managers to increase fishing 
opportunities.
---------------------------------------------------------------------------
    \1\ National Oceanic and Atmospheric Administration, Budget 
Estimate for fiscal year 2010, Exhibit 13, p. 217.
    \2\ National Oceanic and Atmospheric Administration, ``NOAA's 
National Marine Fisheries Service Requirements for Improved and 
Integrated Conservation of Fisheries, Protected Resources and 
Habitat,'' January 2003.
---------------------------------------------------------------------------
    Cooperative Research: +$10 Million Over the President's Request, 
for a Total of $17.1 Million, a Decrease of $500,000 Below the Fiscal 
Year 2010 Enacted Level.--Cooperative research programs pay fishermen, 
operating under the direction of Federal scientists, to collect 
fisheries data, and test new more sustainable fishing gear and 
practices. In addition to the information collected, cooperative 
research programs build partnerships among scientists and fishermen. 
They are also an effective way to provide financial relief for 
struggling fishermen, while also creating a more transparent process 
and providing a cost-effective way to improve the data upon which 
fisheries management decisions are made.
    In 2003, NMFS estimated that it would need $25.5 million for 
cooperative research by fiscal year 2009.\3\ The President's fiscal 
year 2011 budget request transfers $6 million out of the cooperative 
research line item and into the National Catch Share Program line item. 
Although NMFS asserts that the $6 million will be used for cooperative 
research in catch share fisheries, there is no guarantee that it will 
continue to be used for cooperative research in the future. In 
addition, taking funds from general cooperative research, where it 
would be available for all fisheries, and restricting it to only catch 
share fisheries, short changes the vast majority of fisheries that are 
not catch share fisheries. Moreover, the President's budget request 
decreases funding for cooperative research an additional $4.565 
million. Therefore, NMFS proposes to cut the cooperative research 
funding available to all fisheries by $10.5 million, in other words a 
60 percent decrease in funding available to all fisheries from fiscal 
year 2010 enacted levels. We request an increase of $10 million, for 
general cooperative research funding available to all fisheries, for a 
total of $17.1 million, close to fiscal year 2010 enacted levels.
---------------------------------------------------------------------------
    \3\ Id. NMFS 2003 5 year assessment estimated the need for 
cooperative research to be $22.75 million above fiscal year 2003 levels 
by fiscal year 2009, for a total of $25.50 million.
---------------------------------------------------------------------------
    Survey and Monitoring Projects: +$6 Million Over the President's 
Request, for a Total of $30 Million, an Increase of $6.2 Million Over 
the Fiscal Year 2010 Enacted Level.--NOAA has stated that ``many 
fisheries lack adequate and timely monitoring of catch and fishing 
effort.'' \4\ Survey and monitoring projects provide critical support 
for implementation of the new ACL requirement. Increased funding will 
improve that accuracy of ACLs and will increase the percentage of 
stocks with assessments. Two of the most important needs overall are 
research vessel surveys to collect fishery independent information on 
abundance and distribution of fish populations.\5\ Additional funding 
for fishery-independent surveys, monitoring, and research will improve 
estimates of ecosystem change, fishing mortality, and population size.
---------------------------------------------------------------------------
    \4\ Id. at 166.
    \5\ Marine Fisheries Stock Assessment Improvement Plan: Report of 
the National Marine Fisheries Service National Task Force for Improving 
Fish Stock Assessments. October 2001. NOAA Technical Memorandum NMFS-F/
SPO-56.
---------------------------------------------------------------------------
    Fisheries Statistics: +$11 Million Over the President's Request, 
for a Total of $32.4 Million, an Increase of $11.3 Million Over the 
Fiscal Year 2010 Enacted Level.--Given the fact that there are great 
data collection needs in the south Atlantic, and Gulf of Mexico 
recreational fisheries, PEG recommends that the entire $11 million 
increase go toward the Marine Recreational Information Program (MRIP), 
a new saltwater recreational fishing data collection program that is 
partially included in the Fisheries Statistics line. MRIP funding 
should total $20 million, an increase of $11 million over the fiscal 
year 2010 enacted level of $9 million. Increased funding will improve 
data on recreational fishing catch (both landed and released fish) and 
participation. One promising new technology is electronic reporting, 
which could improve the timeliness and accuracy of recreational data. 
Additional resources could be used to develop and deploy such new 
systems. Better quality data on marine recreational fishing, which 
contributes roughly $80 billion annually to the U.S. economy,\6\ will 
allow scientists to better estimate fishing mortality and set ACLs more 
accurately, thus reducing the risk of overfishing. In addition, 
improving the timeliness of recreational data will allow managers to 
take action before an ACL is exceeded. This will lead to less 
restrictive management decisions and more fishing opportunities.
---------------------------------------------------------------------------
    \6\ NOAA, Saltwater Recreational Fishing Factsheet, 2009. Available 
at http://www.nmfs.noaa.gov/sfa/PartnershipsCommunications/
rec_fishing_facts.pdf.
---------------------------------------------------------------------------
    Observers/Training: +$10 million over the President's Request, for 
a Total of $48.8 million, an Increase of $7.7 Million Over the Fiscal 
Year 2010 Enacted Level.--NMFS has been required by law to establish a 
standardized bycatch (incidental catch of non-target ocean wildlife) 
reporting system since 1996. Fishery observers (trained biologists who 
go to sea on commercial fishing vessels) collect close to real-time 
commercial fishing catch and bycatch data and important information on 
fishing practices, gear use, where and when fishing occurs, compliance, 
and biological samples not available from dockside sampling. Observer 
programs are ``often the best means to gather current information on 
fisheries status'' and enable effective management, even though 
currently only 40 fisheries have observer programs.\7\ Additional 
funding for observer coverage will improve the quality and quantity of 
fisheries data, especially estimates of bycatch mortality, information 
that is critical to estimating populations size and sustainable fishing 
levels.
---------------------------------------------------------------------------
    \7\ National Oceanic and Atmospheric Administration, Budget 
Estimate for fiscal year 2011, p. 191.
---------------------------------------------------------------------------
    In 2003, NMFS recommended that the National Observer Program be 
funded at $104 million by fiscal year 2009. The increased funding would 
have been used for research and development into innovative fishing 
gear to reduce bycatch, implementation of bycatch reduction strategies, 
and implementation of statistically valid observer coverage in all 
fisheries. Unfortunately, in the President's fiscal year 2011 budget 
request, Observers/Training suffers more than $3 million in 
terminations, resulting in a request of $38.8 million. Increasing that 
request to $48.8 million would be a down payment on fully funding the 
observer program.

                               CONCLUSION

    NMFS data indicates that 37 of the 190 assessed commercially and 
recreationally important fish stocks (about 20 percent) are subject to 
overfishing. It is essential to increase funding to support research, 
data collection and assessment activities necessary to put an end to 
this overfishing. Congress established the legal tool to accomplish 
this in 2006 by requiring the implementation of science-based ACLs that 
end and prevent overfishing for U.S. fisheries. Now it must provide the 
funding to collect and analyze the information necessary to continue 
meeting that requirement and sustaining healthy fisheries. Increasing 
funding for data collection and analysis will significantly improve the 
Federal Government's efforts to maintain viable fisheries and healthy 
marine ecosystems.
                                 ______
                                 
 Prepared Statement of the American Indian Higher Education Consortium
    On behalf of this Nation's 36 Tribal Colleges and Universities 
(TCUs), which compose the American Indian Higher Education Consortium 
(AIHEC), thank you for the opportunity to express our views and 
recommendations regarding the National Science Foundation's Tribal 
Colleges and Universities Program (NSF-TCUP) for fiscal year 2011.

                           SUMMARY OF REQUEST

    National Science Foundation (NSF)--Education and Human Resources 
Directorate (EHR).--Since fiscal year 2001, a TCU initiative has been 
funded and administered under the NSF-EHR. This competitive grants 
program enables Tribal Colleges and Universities to enhance the quality 
of their science, technology, engineering and mathematics (STEM) 
instructional and outreach programs. TCUs that have been awarded an 
NSF-TCUP grant have done comprehensive institutional needs analysis and 
developed plans for how to address their institutional and NSF goals, 
with primary institutional goals being significant and sustainable 
expansion and improvements to STEM programs. We strongly urge the 
subcommittee to reject the recommendation included in the President's 
fiscal year 2011 budget proposal to combine the NSF minority serving 
institutions programs into a consolidated minority undergraduates in 
STEM program. If all funds are competed as a single program there is no 
recognition of the uniqueness of these various communities or an 
assurance that these communities will be served equitably. We further 
request that the subcommittee support funding the separate TCU Program, 
at a minimum of $15.5 million.

                               BACKGROUND

    Tribal Colleges and Universities are accredited by independent, 
regional accreditation agencies and like all U.S. institutions of 
higher education, must undergo stringent performance reviews on a 
periodic basis to retain their accreditation status. TCUs fulfill 
additional roles within their respective reservation communities 
functioning as community centers, libraries, tribal archives, career 
and business centers, economic development centers, public meeting 
places, and child and elder care centers. Each TCU is committed to 
improving the lives of its students through higher education and to 
moving American Indians toward self-sufficiency.
    TCUs have advanced American Indian higher education significantly 
since we first began four decades ago, but many challenges remain. 
Tribal Colleges and Universities are poor institutions. In fact, TCUs 
are the most poorly funded institutions of higher education in the 
country.
    First, while Tribal Colleges and Universities are public they are 
not State institutions. Consequently, our institutions receive little 
or no State funding. In fact, very few States provide operating support 
to our institutions for the non-Indian students attending TCUs, which 
account for about 21 percent of our enrollments. However, if these 
students attended a State institution, the State would be required to 
provide the institution with operational support for them. This is 
something we are trying to rectify through education and public policy 
change at both the State and local levels.
    Second, the tribal governments that have chartered TCUs are not 
among the handful of wealthy gaming tribes located near major urban 
areas. Rather, they are some of the poorest governments in the Nation. 
In fact, 3 of the 10 poorest counties in America are home to Tribal 
Colleges.
    Finally, the Federal Government, despite its trust responsibility 
and treaty obligations, has never fully funded our primary 
institutional operations source, the Tribally Controlled Colleges & 
Universities Assistance Act of 1978. Today, TCUs are appropriated 
$5,784 per full-time Indian student, which is still considerably less 
than the authorized level of $8,000 per Indian student. In fact, if you 
factor in inflation, the buying power of the current appropriation is 
$965 less per Indian student than it was when it was initially funded 
almost 30 years ago, when the appropriation was $2,831 per Indian 
student.
    TCUs effectively blend traditional teachings with conventional 
postsecondary curricula. They have developed innovative ways to address 
the needs of tribal populations and are overcoming long-standing 
barriers to success in higher education for American Indians. Since the 
first TCU was established on the Navajo Nation in 1968, these vital 
institutions have come to represent the most significant development in 
the history of American Indian higher education, providing access to, 
and promoting achievement among, students who may otherwise never have 
known postsecondary education success.

                             JUSTIFICATIONS

National Science Foundation/Education and Human Resources Directorate
    American Indian students have the highest high school drop-out 
rates in the country. On average, more than 75 percent of all TCU 
students must take at least one developmental course, most often 
precollege mathematics. Of these students, our data indicates that many 
do not successfully complete the course in 1 year. Without question, a 
tremendous amount of the TCUs' already limited resources are spent 
addressing the failings of K-12 education systems.
    To help address this, our institutions have developed strong 
partnerships with our K-12 feeder schools and are vigorously working, 
often through NSF-TCU programs, to actively and consistently engage 
young students in community and culturally relevant science and math 
programs.
    Beginning in fiscal year 2001, NSF-TCUP made essential capacity 
building assistance and resources available to TCUs, either through 
direct funding or by leveraging funding from other sources. In the less 
than 10 years since the program began, NSF-TCUP has become the primary 
Federal program for building STEM capacity at the Nation's TCUs. NSF-
TCUP has served as a catalyst for capacity building and positive change 
at TCUs and the program can be credited with many success stories. 
American Indians are more aware of the importance of STEM to their 
long-term survival, particularly in areas such as climate change. 
Partnerships between TCUs and major research institutions are emerging 
in areas of education and research, including pre-engineering.
    A goal stated in the President's fiscal year 2011 budget proposal 
with regard to NSF-EHR is ``increasing participation of students from 
groups traditionally underrepresented in STEM.'' Though consolidating 
the various minority serving institutions' (MSIs) undergraduate 
programs in the NSF Undergraduate/Graduate Student Support budget line 
may seem like a step toward streamlining funding and administration of 
duplicative Federal programs and enhancing participation of minority 
students in STEM, the result will likely be quite the opposite, for the 
following reasons:
  --Each of the MSI specific programs is designed to address the unique 
        challenges and issues facing the communities served by the 
        respective groups of MSIs, including Historically Black 
        Colleges and Universities (HBCUs), Hispanic Serving 
        Institutions (HSIs), and TCUs; and perhaps of the greatest 
        significance, TCUs are extensions of the Federal recognized 
        tribes that charter them and as such are subject to the unique 
        government-to-government relationship. Consolidating TCU 
        programs with other programs simply because they too target a 
        minority population disregards tribal sovereignty.
  --MSIs are not able to compete for funding at the same level not to 
        mention the majority institutions that would now be eligible. 
        Those institutions that are able to employ a professional grant 
        writing staff will be successful in competing for the proposed 
        universal pool of limited funding. Therefore, the consolidation 
        of MSI-STEM programs may bolster participation of some minority 
        student groups, but it will come at the expense of others.
  --The President's budget proposal would: (1) consolidate three 
        currently active undergraduate programs, and (2) add to the 
        pool of eligible applicants at least 226 HSIs, heretofore not 
        funded under Undergraduate/Graduate Student Support budget line 
        as well as majority institutions that produce underrepresented 
        STEM graduates. The proposed increase of $13 million to the new 
        program is undoubtedly inadequate to accommodate the vastly 
        enlarged pool of eligible applicants.
    The NSF-TCU program, administered by the Education and Human 
Resources Directorate, is a competitive grants program that enables 
TCUs to develop and expand critically needed science and math education 
and research programs relevant to their respective communities. Through 
this program, Tribal Colleges and Universities that have been awarded 
an NSF-TCUP grant have been able to enhance their STEM instructional 
offerings, workforce development, and outreach programs. At Navajo 
Technical College (NTC), for example, STEM enrollment has increased by 
32.5 percent over just the past year and a total of 52.6 percent over 
the past 6 years. Outreach programs at NTC include the Internet to the 
Hogan project, which has increased the college's high performance 
computing capacity and brought heretofore nonexistent broadband access 
to the surrounding community. Unfortunately, not all of the TCUs have 
been able to benefit from this program; yet, funding for this vital 
program has been static, and the percentage of proposals funded has 
declined each year since 2004. We strongly urge the subcommittee to 
resist the recommendation to combine programs for minority institutions 
and to recognize tribal sovereignty and support retaining the separate 
NSF-TCU program at a minimum of $15.5 million, to help ensure that much 
needed undergraduate programs and community services are expanded and 
continued in the communities served by the Nation's Tribal Colleges and 
Universities.

                  PRESIDENT'S FISCAL YEAR 2011 BUDGET

    The President's fiscal year 2011 budget proposal proposes merging 
separate programs that serve unique minority constituencies into a 
consolidated program for minority undergraduates in STEM fields. We 
request that the subcommittee reject the budget recommendation and 
continue to support separate funding for each of the affected programs, 
namely: Tribal Colleges and Universities Program (TCUP); Historically 
Black Colleges and Universities Undergraduate (HBCUUP); Louis Stokes 
Alliances of Minority Participation (LSAMP); and the new program 
Hispanic Serving Institutions.

                               CONCLUSION

    We respectfully request that in fiscal year 2011, Congress 
recognize the unique nature of each of the minority communities and the 
capacity of the various minority serving institutions and their 
contributions to their respective communities and retain the following 
separate programs: NSF TCU program; HBCUU program; and LSAMP program; 
and fund the newly established Hispanic Serving Institutions program. 
Thank you for your continued support of TCUs and for your consideration 
of our fiscal year 2011 Commerce, Justice, Science and Related Agencies 
(NSF) appropriations request.
                                 ______
                                 
    Prepared Statement of the American Shore and Beach Preservation 
                          Association (ASBPA)

    Dear Chairman Mikulski and Ranking Member Shelby: I am writing on 
behalf of the American Shore and Beach Preservation Association, a 
group dedicated to preserving, protecting and enhancing the beaches, 
shores and other coastal resources of America. It is impossible to deny 
the financial, social and environmental benefits of maintaining and 
protecting our valuable coastal resources. There are many agencies 
involved in this important work; however I would like to highlight some 
programs and services administered by the National Oceanic and 
Atmospheric Administration (NOAA). The work being done by NOAA is 
critical to the protection of these important national treasures, 
however the current level of funding to support these programs and 
services is severely lacking. Without an increase in Federal funding, 
these programs will not be able to function properly, if at all. 
Increased financial support for NOAA is needed to strengthen the 
scientific research that underlies management and policy decisions, 
such as fisheries management, and to improve ocean and coastal 
stewardship. Specifically, we request your support for the following 
programs in the fiscal year 2011 Commerce, Justice and Science 
appropriations bill. These programs will continue to strengthen and 
support our economy.
    Integrated Ocean Observing System (IOOS).--Enacted in 2009, the 
IOOS is a valuable tool in data distribution through a partnership 
between the Federal and local government. This data is used 
consistently by local officials to support their decisionmaking process 
in policy formation as it related to marine issues. Not only is this 
information used to promote efficiency and safety of day to day marine 
operations, it also is used to sustain and protect healthy ecosystems, 
strengthen the predications of potential coastal hazards and to 
stimulate local and national economic development.
    We are asking for an investment of $53 million in funding for 
fiscal year 2011, to include $33 million for regional IOOS programs. 
This funding would be used to provide new observing, modeling, and 
visualization technologies, support observing platforms for deploying 
sensors, and establish regional data information centers. NOAA will use 
a competitive process to allocate funding to regional associations, 
thereby ensuring that the American public receives the greatest return 
for its investment in the form of a nationally consistent system for 
critical ocean information, forecasts and timely warnings.
    National Sea Grant Program.--The National Sea Grant Program is a 
partnership between NOAA and 32 university-based programs that 
addresses national, regional, and local coastal, ocean, and Great Lakes 
issues. The result of this critical partnership is a further 
understanding and better stewardship and management of ocean, coastal 
and Great Lakes resources.
    Additionally, the program supports local communities and industries 
with sound data to be used in decisionmaking as well as to support the 
connection of the two often competing interests. We request $79.5 
million for the National Sea Grant Program in fiscal year 2011, the 
amount authorized in the National Sea Grant College Program Amendments 
Act of 2008.
    Coastal Zone Management Program (CZMP).--Coastal regions are vital 
to the national economy, to include tourism, industry and 
transportation of goods. Though our coastal region is 17 percent of the 
land area of the United States, it is home to more than one-half of its 
population. The Coastal Zone Management Program (CZMP) is used to 
safeguard against common threats to coastal areas, to include poorly 
designed and planned development, hurricanes and flooding, as well as 
threats that we are still trying to understand, such as sea level rise.
    This Federal-State partnership designed to balance the protection 
of our coastal and ocean resources with the need for sustainable 
development of coastal communities. The program helps reduce 
environmental impacts of coastal development, resolve conflicts between 
competing coastal uses, and provide critical assistance to local 
communities in coastal planning and resource protection. Without an 
increase in funding of CZMP grants, States and territories are unable 
to keep up with the increasing complex coastal challenges. We request 
$112.4 million for the CZMP in fiscal year 2011.
    We recognize and understand the fiscal constraints facing the 
subcommittee in crafting the fiscal year 2011 Commerce, Justice, 
Science, and Related Agencies appropriations bill. However, we feel 
that these are valuable investments in our oceans and coasts, and we 
feel that these would benefit not only these areas, but our Nation as a 
whole. Thank you for your consideration and please feel free to contact 
me with any questions.
                                 ______
                                 
 Prepared Statement of the American Society of Agronomy, Crop Science 
      Society of America, and the Soil Science Society of America

     FISCAL YEAR 2011 APPROPRIATIONS--SUPPORT FOR NATIONAL SCIENCE 
                               FOUNDATION

    Dear Chairman Mikulski, Ranking Member Shelby, and members of the 
subcommittee: The American Society of Agronomy, Crop Science Society of 
America, and Soil Science Society of America (ASA, CSSA, and SSSA) are 
pleased to submit the following funding recommendations for the 
National Science Foundation (NSF) for fiscal year 2011. ASA, CSSA, and 
SSSA understand the challenges the Senate Commerce, Justice, Science, 
and Related Agencies Appropriations Subcommittee faces with the tight 
science budget for fiscal year 2011. We also recognize that the 
Commerce, Justice, and Science Appropriations bill has many valuable 
and necessary components, and we applaud the efforts of the 
subcommittee to fund critical research through the National Science 
Foundation (NSF). ASA, CSSA, and SSSA recommend that the Subcommittee 
on Commerce, Justice, Science, and Related Agencies increase the fiscal 
year 2011 funding level for NSF to $7.424 billion, the level requested 
by the administration. This strong level of funding will enable NSF to 
continue to fund worthy projects that promote transformational and 
multidisciplinary research, provide needed scientific infrastructure, 
and contribute to preparing a globally engaged science, technology, 
engineering, and mathematics workforce.
    With more than 25,000 members and practicing professionals, ASA, 
CSSA, and SSSA are the largest life science professional societies in 
the United States dedicated to the agronomic, crop and soil sciences. 
ASA, CSSA, and SSSA play a major role in promoting progress in these 
sciences through the publication of quality journals and books, 
convening meetings and workshops, developing educational, training, and 
public information programs, providing scientific advice to inform 
public policy, and promoting ethical conduct among practitioners of 
agronomy and crop and soil sciences.

                    BIOLOGICAL SCIENCES DIRECTORATE

Molecular and Cellular Biosciences (MCB)
    The Molecular and Cellular Biosciences division of the NSF Biology 
Directorate provides funding for critical research that contributes to 
the fundamental understanding of life processes at the molecular, 
subcellular, and cellular levels. Programs such as the Microbial 
Observatories and Microbial Interactions and Processes program increase 
the understanding of microbial distribution in a variety of 
ecosystems--a primary step in evaluating microbial impact on ecosystem 
function. Furthermore, while we agree that considerable advances 
investigating interactions between microbial communities and plants 
have been made, critical gaps remain requiring additional study to 
understand the complex, dynamic relationships existing between plant 
and microbial communities.

Biological Infrastructure (DBI)
    The emergence of a bioeconomy requires greater reliance on plants 
and crops, further expanding their use into the energy sector. To meet 
the increased demands and develop more robust crops, additional 
fundamental understanding regarding the basic biology of these crops is 
needed. The Plant Genome Research Program (PGRP) accomplishes these 
objectives by supporting key NSF projects. The Developing Country 
Collaborations in Plant Genome Research program links U.S. researchers 
with partners from developing countries to solve problems of mutual 
interest in agriculture and energy and the environment. Additionally, 
in collaboration with the U.S. Department of Energy and the U.S. 
Department of Agriculture, the Plant Genome Research Program has 
financed the Maize Genome Sequencing Project--a sequencing project for 
one of the most important crops grown globally. Finally, the 
International Rice Genome Sequencing Project published in 2005 the 
finished DNA blueprint for rice, a crop fundamental to populations 
worldwide. To continue the discovery of new innovative ways to enhance 
crop production for a growing population, sustained funding is needed 
for similar projects. Finally the PGRP and the Bill and Melinda Gates 
Foundation co-fund the Basic Research to Enable Agricultural 
Development (BREAD) program. This program supports basic research to 
allow academic and industrial researchers to expand the breeders' 
toolkit and exploit the diversity of agronomically useful traits in 
wild and domesticated crop plants and to accelerate the development of 
new plant varieties through marker-assisted breeding specifically to 
accommodate the needs of developing countries. ASA, CSSA, and SSSA are 
very supportive of this program.

                    GEOLOGICAL SCIENCES DIRECTORATE

Atmospheric Sciences (ATM)
    Changes in terrestrial systems will have great impact on 
biogeochemical cycling rates. The Atmospheric Sciences Division funds 
critical programs, such as Atmospheric Chemistry, that increase 
understanding of biogeochemical cycles. Soils and plants make up one of 
the largest sinks and sources for several environmentally important 
elements.

Earth Sciences (EAR)
    The Earth Sciences Division supports research emphasizing improved 
understanding of the structure, composition, and evolution of the 
Earth, the life it supports, and the processes that govern the 
formation behavior of the Earth's materials. EAR supports theoretical 
research, including the biological and geosciences, the hydrologic 
sciences, and the study of natural hazards. An important program funded 
within this division is the Critical Zone Observatories which focuses 
on watershed scale studies that advance understanding of the 
integration and coupling of Earth surface processes as mediated by the 
presence and flux of fresh water.
    We also support the premise that was laid out in the BIO/GEO Dear 
Colleague Letter: ``Update: Emerging Topics in Biogeochemical Cycles 
(ETBC)''. The letter encourages advancement in quantitative and/or 
mechanistic understanding of biogeochemical cycles, including the water 
cycle and suggests that interdisciplinary proposals are put forth that 
address biogeochemical processes and dynamics within and/or across 
terrasphere, hydrosphere, or atmosphere. We find that these types of 
interdisciplinary endeavors are critical to solving many of the 
pressing issues that we, as a society, face today. We also support 
efforts made in collaboration with the Directorate for Social, 
Behavioral, and Economic Sciences (SBE) to encourage productive 
interdisciplinary collaborations between the geosciences and the 
social, behavioral, and economic sciences.

                        ENGINEERING DIRECTORATE

Chemical, Bioengineering, Environmental and Transport Systems (CBET)
    The Environmental Engineering and Sustainability program and its 
Energy for Sustainability sub-program support fundamental research and 
education in energy production, conversion, and storage and is focused 
on energy sources that are environmentally friendly and renewable. Most 
world energy needs are currently met through the combustion of fossil 
fuels. With projected increases in global energy needs, more 
sustainable methods for energy production will need to be developed, 
and production of greenhouse gases will need to be reduced.

             DIRECTORATE FOR EDUCATION AND HUMAN RESOURCES

Division of Graduate Education
    ASA, CSSA, and SSSA are dedicated to the enhancement of education, 
and concerned about recent declines in enrollment for many sciences. To 
remain competitive, scientific fields need to find new, innovative ways 
to reach students. The programs offered in the Education and Human 
Resource Directorate accomplish this goal. The Graduate Teaching 
Fellows in K-12 Education program offers graduate students interested 
in teaching an opportunity to get into the classroom and teach 
utilizing new innovative methods. Graduate students are the next crop 
of scientists, therefore opportunities for study must be increased with 
the ever-increasing demands of science. Global problems rely on 
scientific discovery for their amelioration; it is critical that the 
U.S. continue to be a leader in graduate education. ASA, CSSA, and SSSA 
recommend strong support for the Integrative Graduate Education and 
Research Traineeships (IGERT) program.
    Because education is the key for our future competitiveness, it is 
essential that sustainable, long-term support for these and other 
educational programs be made.

Division of Undergraduate Education
    Advanced Technological Education (ATE) program focuses on the 
education of technicians for the high-technology fields that drive our 
Nation's economy. We support continued, strong funding for this 
program. The program involves partnerships between academic 
institutions and employers to promote improvement in the education of 
science and engineering technicians at the undergraduate and secondary 
school levels.

                           NSF WIDE PROGRAMS

Cyberlearning Transforming Education (CTE)
    ASA, CSSA, and SSSA fully support the cross-cutting program in NSF 
on cyberlearning for transforming education. The program will establish 
a new multidisciplinary research which will fully capture the 
transformative potential of advanced learning technologies across the 
education enterprise. We are excited about the opportunities that CTE 
holds to better communicate and transfer information about basic 
science performed by our members. Recruiting the next generation of 
high quality scientists is one of the main focuses of our membership 
and new information on how we can communicate and train these students 
using technologies available through cyberlearning will help propel our 
sciences into the future. In addition to the educational benefits, 
cyberlearning may also help us better understand how to coordinate and 
communicate science even within our community of researchers.

National Nanotechnology Initiative (NNI)
    Regarding the Environmental, Health and Safety program under the 
NNI, we find that the President's request of $33.01 million, to be well 
justified in order to support a rapidly growing field of science that 
presents both new opportunities for human health, the environment, 
agricultural science, but also unprecedented risks if not well 
researched and reviewed to identify appropriate safety measures. We are 
excited that the Environmental Protection Agency (EPA), the U.S. 
Department of Agriculture (USDA), and the European Union (EU) will 
collaborate on implementation of a joint solicitation for nano 
environmental health and safety protocol.

Science, Engineering, and Education for Sustainability
    To create a more sustainable future, ASA, CSSA, and SSSA strongly 
believe that more students must be trained as scientists to bring new 
and revolutionary approaches to environmental and agroecosystem 
science. Economic incentives and misconceptions steer students in the 
basic sciences away from careers in the agronomic, crop, and soil 
sciences. If current trends continue, our workforce will lack the 
highly trained agronomists, soil scientists, plant breeders, 
pathologists, entomologists and weed scientists necessary to make the 
technical advances essential to meet future production and 
sustainability challenges, let alone control new, emerging invasive 
weed and insect species and pathogens that will continue to threaten 
agricultural systems. Thus, we applaud the efforts put forth by the 
administration to make investments in this area.

U.S. Global Change Research Program
    The U.S. Global Change Research Program (USGCRP) seeks to better 
understand how the interplay between natural factors and human 
activities affects the climate system. The USGCRP engages 13 U.S. 
agencies in a concerted interagency program of basic research, 
comprehensive observations, integrative modeling, and development of 
products for decisionmakers. NSF provides support for a broad range of 
fundamental research activities that provide a sound scientific basis 
for climate-related policy and decisions. ASA, CSSA, and SSSA support 
an appropriation for the U.S. Global Change Research Program at $370 
million as the President requests in the fiscal year 2011 budget.
    Biological systems are critical to mitigating the impacts and 
effects of climate change. Additional research is needed to examine 
potential crop systems, plant traits, wetland properties, and other 
ecosystem adaptations to help manage climate change. The basic sciences 
of agroecosystems, plant improvement, soils, and riparian and wetland 
ecology need support as well.
    As you lead the Senate in deliberation on funding levels for the 
National Science Foundation, please consider American Society of 
Agronomy, Crop Science Society of America, Soil Science Society of 
America as supportive resources. We hope you will call on our 
membership and scientific expertise whenever the need arises.
    Thank you for your thoughtful consideration of our requests.
                                 ______
                                 
      Prepared Statement of the American Museum of Natural History

                                OVERVIEW

    Recognizing its potential to support NASA in its goals to pioneer 
the future in space exploration, scientific discovery, and aeronautics 
research; to develop a balanced overall program of science, 
exploration, and aeronautics; and to establish new and innovative 
programs to enhance understanding of our Earth, other planets, 
asteroids, and comets in our solar system, as well as the search for 
life around other stars, the American Museum of Natural History (AMNH) 
seeks $3.5 million to contribute its unique science, education, and 
technological capacity to helping the agency to meet these goals.

              ABOUT THE AMERICAN MUSEUM OF NATURAL HISTORY

    The American Museum of Natural History (AMNH) is one of the 
Nation's preeminent institutions for scientific research and public 
education. Since its founding in 1869, the Museum has pursued its joint 
mission of science and public education. It is renowned for its 
exhibitions and collections of more than 32 million natural specimens 
and cultural artifacts. With some 4 million annual on-site visitors--
approximately one-half of them children--it is one of the largest and 
most diverse museums in the country. Museum scientists conduct 
groundbreaking research in fields ranging from all branches of zoology, 
comparative genomics, and informatics to Earth science, biodiversity 
conservation, and astrophysics. Their work forms the basis for all the 
Museum's activities that seek to explain complex issues and help people 
to understand the events and processes that created and continue to 
shape the Earth, life and civilization on this planet, and the universe 
beyond.

           COMMON GOALS AND ACCOMPLISHMENTS OF AMNH AND NASA

    For many years, NASA and AMNH have shared a joint commitment to 
advancing scientific research and to integrating that research into 
unique educational tools and resources. Over the years, the Museum has 
successfully pursued a number of competitive opportunities, has 
cultivated rich relationships with NASA divisions such as the Science 
Mission Directorate's Heliophysics division and the Informal Education 
program, and has worked with the agency to develop innovative 
technologies and resources that reach audiences of millions in New 
York, across the country, and around the world.
    The Museum's educational mission is fueled by and reflects cutting-
edge science, including the work of our scientists in collaboration 
with NASA centers and researchers. In keeping with that mission, the 
Museum has built a set of singular national resources that bring 
current science and integrated NASA content to total audiences of more 
than 16 million in New York City, across the country, and around the 
world. One such resource, Science Bulletins--immersive multimedia 
science encounters, presenting science news and discoveries in various, 
flexible formats--is already on view in nearly 40 locations across the 
country (including eight NASA visitor centers), with more being added. 
In the New York area alone, the Museum reaches nearly 4 million annual 
on-site visitors, including more than 450,000 children in school 
groups, with millions more visiting online.
    In fiscal year 2011, AMNH seeks to build on the sustained successes 
of these collaborations by reaching even larger audiences with a 
program to communicate current science content--about NASA science and 
missions in particular--to diverse national audiences. The program 
encompasses:

     PRESENTING CURRENT SCIENCE IN PUBLIC SPACES--SCIENCE BULLETINS

    Science Bulletins is a nationally distributed, multi-media science 
exhibition program designed to address the need of informal science 
institutions to communicate and interpret current science by informing 
the public about ongoing scientific exploration and recent discoveries. 
Presenting the latest science news in a variety of high-definition 
formats--including laboratory and field footage, 3-D animation, and 
data visualization, all co-developed and vetted for scientific rigor by 
PhD scientists--the Bulletins program is at the leading edge of 
research and education. We propose the following activities:
  --Increasing Science Bulletins Dissemination.--In addition to AMNH, 
        Bulletins are currently on view at 38 subscribing venues across 
        the country (including 8 NASA visitor centers), with annual 
        audiences of more than 13 million. To increase the program's 
        reach and impact, and to make the it more accessible to a wider 
        variety of institutions and audiences, AMNH will undertake a 
        graphical redesign and technical innovation of the program that 
        will increase the Bulletins' flexibility for use in a variety 
        of live, auto-run, and interactive programs. These innovations, 
        which will make the program more user-friendly, customizable, 
        and affordable, will enable AMNH to extend the reach of 
        Bulletins to new and diverse audiences.
  --R&D and Program Delivery.--AMNH will develop new visualization 
        methods to advance the communication of current science, and 
        will utilize them in developing and distributing the Bulletins 
        program. AMNH will release approximately 26 bi-weekly updates, 
        create 6 new feature documentaries, and increase Web site 
        visits in the Bulletins focused on the earth, space, and 
        biosphere. Science Bulletins DVDs will also be distributed in 
        New York City schools.
  --Science Bulletins on the Web.--AMNH will continue to promote the 
        Bulletins Web site as a resource for formal education and 
        educators, providing materials online to facilitate classroom 
        use.

Visualizing and Disseminating Current Science Data
    Visualization of real, large scale datasets into digital 
planetarium shows marks one of the Museum's signature achievements in 
the new era of digital dome technologies. AMNH proposes to draw on its 
unique expertise and capacity in visualizing astrophysics data from 
NASA and other sources to create a new digital space show that will 
engage children, families, and general audiences worldwide.
    The Museum has very successfully leveraged past NASA investments 
with funds from other Government and private sources, and will support 
the present project with funds from non-Federal as well as Federal 
sources. The Museum looks forward to continuing to contribute its 
unique resources and capacity to helping the agency meet its goals.
                                 ______
                                 
     Prepared Statement of the Society for Industrial and Applied 
                           Mathematics (SIAM)

    Summary.--This written testimony is submitted on behalf of the 
Society for Industrial and Applied Mathematics (SIAM) to ask you to 
continue your support of the National Science Foundation (NSF) in 
fiscal year 2011 by providing NSF with $7.424 billion, a 7.2 percent 
increase over NSF's fiscal year 2010 appropriated level. In particular, 
we urge you to provide at least the request level for key applied 
mathematics and computational science programs in the Division of 
Mathematical Sciences and the Office of Cyberinfrastructure.

                           WRITTEN TESTIMONY

    My name is Douglas Arnold, and I am the President of the Society 
for Industrial and Applied Mathematics (SIAM). I am submitting this 
written testimony for the record to the Subcommittee on Commerce, 
Justice, Science, and Related Agencies of the Committee on 
Appropriations of the U.S. Senate.
    SIAM has approximately 13,000 members, including applied and 
computational mathematicians, computer scientists, numerical analysts, 
engineers, statisticians, and mathematics educators. They work in 
industrial and service organizations, universities, colleges, and 
government agencies and laboratories all over the world. In addition, 
SIAM has over 400 institutional members--colleges, universities, 
corporations, and research organizations.
    First, I would like to emphasize how much SIAM appreciates your 
subcommittee's continued leadership on and recognition of the critical 
role of the National Science Foundation (NSF) and its support for 
mathematics, science, and engineering in enabling a strong U.S. 
economy, workforce, and society. In particular, we thank you and your 
colleagues for the significant increases in funding provided for NSF in 
the fiscal year 2010 Consolidated Appropriations bill.
    Today, I submit this testimony to ask you to continue your support 
of NSF in fiscal year 2011 and beyond. In particular, we request that 
you provide NSF with $7.424 billion, the level requested by the 
President for this agency in his fiscal year 2011 budget. This 
represents a 7.2 percent increase over NSF's fiscal year 2010 
appropriated level and would continue the effort to double funding at 
NSF, as endorsed by Congress in the America COMPETES Act and by the 
President in his fiscal year 2011 budget request.
    As we are reminded every day, our Nation's economic strength, 
national security, and public health and welfare are being challenged 
in profound and unprecedented ways. Addressing these challenges 
requires that we confront fundamental scientific questions. 
Computational and applied mathematical sciences, the scientific 
disciplines that occupy SIAM members, are particularly critical to 
addressing U.S. competitiveness and security challenges across a broad 
array of fields: medicine, engineering, technology, biology, computer 
science, and others.
    Other countries have observed the success of the U.S. model and are 
investing in research and education. Without sufficiently increasing 
support for science, engineering, and mathematics, the U.S. pre-
eminence in innovation will be compromised.

                      NATIONAL SCIENCE FOUNDATION

    The National Science Foundation (NSF) provides essential Federal 
support of applied mathematics and computational science, including 
more than 60 percent of all Federal support for basic academic research 
in the mathematical sciences. Of particular importance to SIAM, NSF 
funding supports the development of new mathematical models and 
computational algorithms, which are critical to making substantial 
advances in such fields as climate modeling, energy technologies, 
genomics, analysis and control of risk, and nanotechnology. In 
addition, new techniques developed in mathematics and computing 
research often have direct application in industry. NSF also supports 
mathematics education at all levels, ensuring that the next generation 
of the U.S. workforce is appropriately trained to participate in 
cutting-edge technological sectors and that students are attracted to 
careers in mathematics and computing.
    I will now briefly highlight the main budgetary and programmatic 
components at NSF that support applied mathematics and computational 
science.

                 NSF DIVISION OF MATHEMATICAL SCIENCES

    The NSF's Division of Mathematical Sciences (DMS) provides the core 
support for all mathematical sciences, including areas such as 
analysis, applied mathematics, combinatorics, computational 
mathematics, probability, and statistics. In addition, DMS supports 
national mathematical science research institutes; infrastructure, 
including workshops, conferences, and equipment; and postdoctoral, 
graduate, and undergraduate training opportunities.
    The activities supported by DMS and performed by SIAM members, such 
as modeling, analysis, algorithms, and simulation, provide new ways of 
obtaining insight into the nature of complex phenomena, such as the 
power grid, global climate change, software for military applications, 
the human body, and energy efficient building systems. SIAM strongly 
urges you to provide DMS with at least the budget request level of 
$253.46 million to enable sustained investment by NSF in critical 
mathematical research and related mathematical education and workforce 
development programs.
    In particular, investment in DMS is critical because of the 
foundational and cross-cutting role that mathematics and computational 
science play in sustaining the Nation's economic competitiveness and 
national security, and in making substantial advances on societal 
challenges such as energy, the environment, and public health. DMS has 
traditionally played a central role in cross-NSF interdisciplinary 
efforts that bear on these challenges, with programs supporting the 
interface of mathematics with a variety of other fields.
    SIAM deeply appreciates DMS's role in enabling interdisciplinary 
work and supports the expansion of this work in fiscal year 2011. In 
particular, the proposed increase within DMS for the NSF-wide Science, 
Engineering, and Education for Sustainability initiative would support 
the development of potentially transformative mathematical, 
statistical, and computational methods needed for analysis and 
simulation of climate models and increase DMS investment in an existing 
program on solar energy. In addition, the proposed establishment of a 
new Life Sciences Interface initiative involving DMS and other NSF 
units is particularly timely in light of the challenges outlined in the 
recent National Research Council report on ``A New Biology for the 21st 
Century,'' which emphasizes the need for development of new information 
sciences and new education programs in order to create a quantitative 
approach in biological sciences to tackle key challenges in food, 
environment, energy, and health.

                   NSF OFFICE OF CYBERINFRASTRUCTURE

    Work in applied mathematics and computational science is critical 
to enabling effective use of the rapid advances in information 
technology and cyberinfrastructure. Programs in the NSF Office of 
Cyberinfrastructure (OCI) focus on providing research communities 
access to advanced computing capabilities to convert data to knowledge 
and increase our understanding through computational simulation and 
prediction.
    SIAM strongly urges you to provide OCI with at least the budget 
request level of $228.1 million to invest in the computational 
resources and science needed to solve complex science and engineering 
problems. In addition, SIAM strongly endorses OCI's efforts to take on 
the role of steward for computational science across NSF, strengthening 
NSF support for relevant activities and driving universities to improve 
their research and education programs in this interdisciplinary area.
    The programs in OCI that support work on software and applications 
for the next generation of supercomputers and other cyberinfrastructure 
systems are very important to enable effective use of advances in 
hardware, to facilitate applications that tackle key scientific 
questions, and to better understand increasingly complex software 
systems. SIAM strongly supports the proposed fiscal year 2011 increase 
in funding for OCI software activities, particularly the proposed new 
Software Institutes program, aimed at supporting a community of 
partnerships among academia, government laboratories, and industry for 
the development and stewardship (expansion, hardening, and maintenance) 
of sustainable end-to-end software systems. SIAM also supports the 
proposed increase in OCI data activities. The explosion in data 
available to scientists from advances in experimental equipment, 
simulation techniques, and computer power is well known, and applied 
mathematics has an important role to play in developing the methods and 
tools to translate this shower of numbers into new knowledge.

        SUPPORTING THE PIPELINE OF MATHEMATICIANS AND SCIENTISTS

    Investing in the education and development of young scientists and 
engineers is a critical role of NSF and a major step that the Federal 
Government can take to ensure the future prosperity and welfare of the 
United States. Currently, the economic situation is negatively 
affecting the job opportunities for young mathematicians--at 
universities, companies, and other research organizations. It is not 
only the young mathematicians who are not being hired who will suffer 
from these cutbacks. The research community at large will suffer from 
the loss of ideas and energy that these graduate students, postdoctoral 
fellows, and early career researchers bring to the field, and the 
country will suffer from the lost innovation.
    In light of this situation, SIAM strongly supports NSF's proposed 
fiscal year 2011 increases in the Graduate Research Fellowship (GRF) 
program and the Faculty Early Career Development (CAREER) program. We 
also strongly endorses OCI's participation in these programs as part of 
efforts to create opportunities in the interdisciplinary area of 
computational science and engineering and nurture the development of 
young researchers in this emerging field.

         MATHEMATICS AND INTERNATIONAL SCIENCE AND ENGINEERING

    Science knows no borders, and nowhere is this more true than in 
mathematics. Mathematical research typically advances through the close 
collaboration of small groups of researchers, without the need for 
expensive equipment and using universal mathematical notation to 
minimize language obstacles. In addition, mathematics, as an enabling 
discipline for all of science and technology, and as a foundation for 
science education, plays a key role in addressing many of the most 
challenging problems that the world faces, such as climate change, 
infectious disease, and sustainable energy generation. International 
scientific cooperation is not just good science; it can also aid in 
promoting United States international policy goals by building 
relationships and trust with other countries, enhancing the global 
image of America, and spurring global development.
    SIAM believes strongly in the Federal Government's support of 
international science and technology initiatives, including cooperative 
research programs that further scientific knowledge applicable to major 
societal challenges, promote development of research and education 
capabilities abroad, and introduce U.S. students to global issues and 
collaborative relationships.

                               CONCLUSION

    SIAM is aware of the significant fiscal constraints facing the 
administration and Congress this year, but we note that, in the face of 
economic peril, Federal investments in mathematics, science, and 
engineering create and preserve good jobs; stimulate economic activity; 
and help to maintain U.S. pre-eminence in innovation, upon which our 
economy depends.
    I would like to conclude by thanking you again for your ongoing 
support of NSF and actions you have already taken to enable NSF and the 
research and education communities it supports, including thousands of 
SIAM members, to undertake the activities that contribute to the 
health, security, and economic strength of the U.S. NSF needs sustained 
annual funding to maintain our competitive edge in science and 
technology, and therefore we respectfully ask that you continue your 
robust support of these critical programs into the future, starting 
with providing $7.424 billion for NSF for fiscal year 2011.
    I appreciate the opportunity to provide testimony to the 
subcommittee on behalf of SIAM and look forward to providing any 
additional information or assistance you may ask of us during the 
fiscal year 2011 appropriations process.
                                 ______
                                 
  Prepared Statement of the National Council of EEOC Locals, No. 216, 
                              AFGE/AFL-CIO

    Chairwoman Mikulski, Ranking Member Shelby, and members of the 
subcommittee, my name is Gabrielle Martin and I am the president of the 
National Council of EEOC Locals, No. 216, AFGE/AFL-CIO. The Council is 
the exclusive representative of the bargaining unit employees at the 
Equal Employment Opportunity Commission (EEOC), including 
investigators, attorneys, administrative judges, mediators, paralegals, 
and support staff located in offices in 53 cities around the country. I 
want to thank you for the opportunity to submit testimony on the 
proposed fiscal year 2011 budget for the EEOC. Our number one ``ask'' 
is that this subcommittee support the fiscal year 2011 budget request 
to increase EEOC's funding from $367 million to $385 million. The 
request is in line with the amount that this subcommittee included in 
its fiscal year 2008 report language, which was passed by the Senate. 
We understand that you will receive testimony from many well deserving 
programs. Nevertheless, the Council can confirm from the perspective of 
EEOC's frontline workers that the increase is absolutely necessary and 
justified. Moreover, the budget request should be considered a 
restoration of funds after several years of frozen budgets. Service 
today at the EEOC is still impacted by the loss of 25 percent of EEOC's 
frontline staff since fiscal year 2001. To ensure that EEOC can 
effectively enforce workplace discrimination laws that help Americans 
get and keep jobs, the Council urges the inclusion of bill and report 
language which: (1) adopts the fiscal year 2011 budget request for 
EEOC, increasing funding to $385 million; (2) raises the staffing to 
3,000 FTEs, i.e., the same level as 1994, the last time that EEOC's 
charge receipts were close to the record high levels of recent years; 
(3) maintains oversight of headquarters and field restructuring, 
including the Office of Federal Operations; and (4) directs EEOC to 
implement the Full-service Intake Plan to provide real help to the 
public and reduce the backlog.
    Introduction.--The EEOC's mission is to enforce this Nation's laws, 
which protect against discrimination in employment based on race, 
color, religion, sex, national origin, age, and disability. As of 2009, 
EEOC is also responsible for enforcing the Americans with Disabilities 
Act Amendments Act (ADAAA), the Genetics Information Nondiscrimination 
Act (GINA), and the Lilly Ledbetter Act. The fiscal year 2011 budget 
request is needed so that EEOC's dedicated employees have the resources 
to keep discrimination out of the workplace so Americans can stay on 
the job.
    Thank you to This Subcommittee for Fiscal Year 2010 Funding and to 
Senator Mikulski for Statements at the Recent Help Hearing Regarding 
Backlog and Need for Confirmation of EEOC Nominees.--The Council first 
wishes to thank this subcommittee supporting the fiscal year 2010 
budget request increasing EEOC's funding to $367 million. Also, the 
fiscal year 2010 Omnibus conference report language called for 
oversight of agency staffing and Federal sector changes. It also 
directed EEOC that its workload projections account for a Federal 
Arbitrator's decision regarding the agency's illegal overtime 
practices.\1\ Finally, the Omnibus Act bill language retained 
oversight, which prevents EEOC from taking any action to restructure 
without first coming to the subcommittee. The Council also wishes to 
extend a special thank you to Chairwoman Mikulski for her continued 
advocacy for EEOC. Most recently at the March 11, 2010 HELP Hearing on 
Pay Equity, Senator Mikulski raised the critical issue of EEOC backlog 
and pressed for confirmation of permanent leadership. The Council is 
grateful for your efforts and looks forward to working with EEOC's new 
leadership.
---------------------------------------------------------------------------
    \1\ The damages phase of the case remains ongoing unless a 
settlement can be reached.
---------------------------------------------------------------------------
    Adopt the Fiscal Year 2011 Budget Request to Increase EEOC's Budget 
From $367 Million to $385 Million.--While this subcommittee has 
increased EEOC's budget, EEOC is still playing catch-up from 5 years of 
level funding. EEOC's workload has never been higher, even as staffing 
levels remain inadequate. The chart included with this testimony 
illustrates EEOC's troubling customer service trends from fiscal year 
2001 through fiscal year 2010. If EEOC is to break these trends, so 
that it more effectively can enforce the laws on the books, it needs to 
be funded at no less than the fiscal year 2011 budget request.
    More Frontline Staff is Needed to Offer Timely Assistance and 
Tackle a Giant Backlog.--After losing 25 percent of its staff since 
fiscal year 2001, EEOC took steps to ``rebuild'' in fiscal year 2009, 
but the gains barely kept pace with attrition.\2\ The EEOC ended fiscal 
year 2009 with 2,192 FTEs, a minimal increase from fiscal year 2008's 
2,174 FTEs.
---------------------------------------------------------------------------
    \2\ ``EEOC will have 42 percent of its employees eligible for 
retirement between fiscal years 2007 and 2012, which includes 46 
percent of its investigators and 24 percent of its attorneys.'' OIG 
Semiannual Report, 10/30/07. Additional attrition has occurred in the 
ranks of the hearing officers (administrative judges), who are often 
selected for higher paid administrative law judges at Social Security, 
where they have the subpoena power and support staff that they are 
lacking at EEOC. According to the GAO, the EEOC has 13 percent fewer 
administrative judges than it did in fiscal year 2005.
---------------------------------------------------------------------------
    The inevitable result when EEOC's slashed workforce cannot keep up 
with the increased workload is that the backlog goes from bad to worse. 
According to EEOC's budget justification, the backlog is anticipated to 
rise to 96,865 cases in fiscal year 2010 and 105,203 cases in fiscal 
year 2011.\3\ Thus, roughly an entire year's incoming inventory is 
getting shelved in order to process the previous year's complaints. 
Moreover, since fiscal year 2006, charge filings at EEOC have exceeded 
resolutions, with the trend expected to continue at least through 
fiscal year 2013. (See chart and Budget Justification).
---------------------------------------------------------------------------
    \3\ The White House fiscal year 2011 budget request projected that 
the backlog would grow even higher, i.e., 104,450 in fiscal year 2010 
and 122,452 in fiscal year 2011. The EEOC fiscal year 2011 budget 
justification that followed contained these slightly lower figures.
---------------------------------------------------------------------------
    These unreasonably high workloads of 250 cases do not allow 
investigators to do an effective and timely job of interviewing 
witness, reviewing documents, attempting conciliation, etc. Quick 
resolutions could mean saving the jobs of the applicants and workers 
who file these charges. But, landing in EEOC's backlog puts off 
assistance for 294 days, i.e., over 9 months. Justice delayed is 
justice denied for these workers.
    In order to effectively enforce its mission and reduce the backlog, 
the Council requests that Congress raise EEOC's staffing to 3,000 FTEs, 
i.e., the same level as 1994, the last time that EEOC's charge receipts 
were close to the current record high numbers. The Council supports 
maintaining report language directing EEOC to submit ``quarterly 
reports on projected and actual agency staffing levels so that the 
subcommittee can better monitor EEOC's personnel resources.'' However, 
to ensure hiring keeps up with attrition, it is suggested that the 
report language also include benchmarks for where actual frontline 
staffing should be at the end of each quarter.\4\ Finally, report 
language should be maintained directing that workload projections 
account for a Federal Arbitrator's decision regarding the agency's 
willful and illegal overtime practices, because unreasonably high 
investigator caseloads demonstrate EEOC has not hired enough staff.
---------------------------------------------------------------------------
    \4\ The Council understands that as of fiscal year 2011, agency 
budget projections are to concentrate on actual staffing, rather than 
ceilings. This makes oversight even more critical so that EEOC ends 
fiscal year 2011 with no less than the 2,577 FTE actual staffing 
reflected in the fiscal year 2011 justification.
---------------------------------------------------------------------------
    For the Current Fiscal Year 2010, Oversight Is Needed To Ensure 
Hiring Is Prioritized.--Historically, EEOC ends each year with ``hollow 
FTEs,'' i.e., about 200 positions below the authorized ceiling. 
Therefore, for the current fiscal year 2010, the Council urges this 
subcommittee to exercise its oversight, including monitoring the 
quarterly staffing submissions, to ensure that EEOC does in fact hire 
up to the 2,556 FTEs authorized. If this year's staffing is not 
achieved, then fiscal year 2011's projections for staffing, 
resolutions, and backlog will all be undermined. Most importantly, the 
public needs frontline EEOC employees immediately available to help 
them get jobs and keep jobs.
    Bill Language Should Retain Oversight of EEOC Restructuring.--On 
January 1, 2006, as part of a nationwide field restructuring, EEOC 
downsized a dozen offices. The restructuring added bureaucratic layers, 
but no frontline staff. EEOC should now revisit the restructuring to 
fix its worst inefficiencies, such as States that were split between 
two districts. The EEOC should also keep its promise to reduce top-
heavy offices to a 1:10 supervisor to employee ratio. Redeployed 
supervisors can help the frontline without added cost.
    The final phase of EEOC's repositioning is the delayed 
restructuring of headquarters. Also, recent internal plans to 
reorganize the EEOC's Office of Federal Operations (OFO) have proposed 
adding additional layers of high levels of management at the expense of 
frontline administrative judges. The Council urges the subcommittee to 
retain bill language regarding oversight of this restructuring. 
Additionally, Congress should assure a transparent process for public 
and internal stakeholders to have an opportunity to provide feedback of 
a draft plan.
    Direct EEOC To Implement the Full-Service Intake Plan To Provide 
the Public Real Help and Reduce the Backlog.--EEOC's current backlogs 
and poor customer service can be attributed to its stubborn insistence 
on continuing to use a failed call center model. Though the House and 
Senate CJS subcommittees in fiscal year 2008 defunded an outsourced 
call center, EEOC currently uses an in-house center mirroring that 
failed model.
    Council 216 submitted a comprehensive plan for a national Full-
Service Intake Plan 6 months ago, which EEOC's leadership is reviewing 
at a snail's pace. The plan calls for staffing each field office with a 
compliment of positions and grades able to advance the intake process 
from pre-charge counseling through charge filing, handling the flood of 
downloadable intake questionnaires and responding to over 5,000 
unanswered e-mails.\5\ The plan should help EEOC avoid the high rates 
of turnover. The plan satisfies the interest of Congress to ``provide 
more substantive assistance to callers and resolve a greater number of 
calls at the first point of contact.'' (H.R. 110-919). The plan also 
produces cost savings. It also implements part of EEOC's backlog 
reduction plan, which according to EEOC's OIG should include a renewed 
emphasis on pre-charge counseling. In turn, investigative staff, who 
would be relieved from many of these intake responsibilities, could 
focus on investigating cases to reduce the backlog.
---------------------------------------------------------------------------
    \5\ The units would be comprised of some new staff and current 
staff, including converting in-house call center operators to 
investigator supporter assistants.
---------------------------------------------------------------------------
    The Council supports maintaining report language directing EEOC 
``to develop and implement a multiyear plan to increase EEOC staffing 
to the levels necessary to achieve backlog reduction in a timely 
manner.'' The Council would respectfully request the language be 
expanded to include a direction that the Full Service Intake Plan be 
incorporated into the backlog reduction plan.
    ``Fast Track'' for Feds Requires Stakeholder Input and Oversight 
Before Implementation.--For several years, EEOC has been internally 
debating controversial changes to the hearing process, called ``fast 
track,'' which would direct administrative judges (AJs) to cut off 
discovery and deny hearings for many Federal employees. In these fast-
tracked cases, the EEOC AJ is forced to accept the investigative record 
submitted by the Federal agency alleged to have committed 
discrimination. A more straightforward way to reduce Federal backlog 
and processing times is to replenish AJs, down 13 percent since fiscal 
year 2005, and provide them support staff.
    The Council represents AJs, who oppose mandatory tracking, because 
it re-writes the regulations to remove judicial independence to manage 
cases and interferes with fair hearings. Outside stakeholders must also 
be given an opportunity to weigh in on the current plan. Therefore, the 
Council supports maintaining current report language requiring 
oversight before implementation.

                               CONCLUSION

    In closing, I want to again thank the chairwoman, ranking member 
and the subcommittee for allowing me to provide testimony. I hope my 
statement will give you insight into the difficult challenges facing 
EEOC.

                                                                          EEOC'S TROUBLING CUSTOMER SERVICE TRENDS \1\
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year
                                                                    2001         2002         2003         2004         2005         2006         2007         2008         2009         2010
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Full Time Employees...........................................        2,924        2,787        2,617        2,462        2,349        2,250        2,137        2,174        2,192        2,470
Backlog.......................................................       32,481       29,041       29,368       29,966       33,562       39,946       54,970       73,941       85,768       96,685
Charge Receipts Filed.........................................       80,840       84,442       81,293       79,432       75,428       75,768       82,792       95,402       93,277      101,653
Resolutions...................................................       90,106       95,222       87,755       85,259       77,352       74,308       72,442       81,081       85,980       93,284
Avg. Charge Processing........................................          182          171          160          165          171          193          199          229          294      ( \2\ )
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ National Academy of Public Administration report, 2/2/03; EEOC Budget Requests; www.eeoc.gov.
\2\ Not available.

                                 ______
                                 
  Prepared Statement of the Association of Science-Technology Centers

    Chairwoman Mikulski, Ranking Member Shelby, and members of the 
subcommittee--my name is Bud Rock and I am the chief executive officer 
of the Association of Science-Technology Centers (ASTC).
    ASTC is a nonprofit organization of science centers and museums 
dedicated to furthering public engagement with science among 
increasingly diverse audiences. Science centers are sites for informal 
learning and are places to discover, explore, and test ideas about 
science, technology, engineering, and mathematics. They feature 
interactive exhibits, hands-on science experiences for children, 
professional development opportunities for teachers, and educational 
programs for adults. In science centers, visitors of all ages become 
adventurous explorers who together discover answers to the myriad 
questions of how the world works--and why. ASTC has nearly 600 members, 
including 445 operating or developing science centers and museums in 44 
countries, who engage over 80 million people annually in intriguing 
educational science activities and explorations of scientific 
phenomena. The recently released Science and Engineering Indicators 
2010 says that 59 percent of our fellow citizens visited an informal 
science venue in the past year. Science centers vary widely in scale, 
from institutions like the Maryland Science Center in Baltimore's Inner 
Harbor and the McWane Center in Birmingham, Alabama, to the ECHO Lake 
Aquarium and Science Center in Burlington, Vermont and the SEE Science 
Center in Manchester, New Hampshire.
    ASTC works with science centers and museums like these to address 
critical societal issues, locally and globally, where understanding of 
and engagement with science are essential. As liaisons between the 
science community and the public, science centers are ideally 
positioned to heighten awareness of critical issues including energy 
and environmental issues; infectious diseases; the space program; 
increase understanding of important new technologies; and promote 
meaningful informed debate between citizens, scientists, policymakers, 
and the local community.

    THE IMPORTANT CONTRIBUTION OF SCIENCE CENTERS TO IMPROVING STEM 
                               EDUCATION

    Science centers offer places where science and citizens can meet. 
Many centers have scientists on staff and some feature research 
facilities on-site. Through exhibits and programming, such as lecture 
series and science cafes, science centers help to bring current 
research findings to the public and encourage discussion and debate of 
current science issues. Science centers also encourage the public to 
become involved in research projects themselves.
    Science centers reach a wide audience. Most have membership 
programs, including family memberships. Many offer programs designed 
for senior citizens. Some train students to serve as docents and 
``expert explainers''. In addition to the hands-on, experiential 
exhibits and programs that are the hallmark of science centers, many 
have large-format theaters, planetariums, and outdoor science parks. 
Through outreach programs, science centers also extend their work well 
beyond their buildings.
    School groups make up a significant percentage of science center 
and museum attendance--an estimated 17.7 million student visits 
worldwide in 2009 (12 million in the United States). But school field 
trips are just the beginning: most science centers offer demonstrations 
and workshops, school outreach programs, professional development for 
teachers, curriculum materials, science camps, overnight camp-in 
programs, and resources for home schoolers. Many also offer after-
school and youth employment programs.
    Last year the Congress--led by this subcommittee--appropriated 
about $1.4 billion for science, technology, engineering and mathematics 
(STEM) education through the National Science Foundation (NSF), the 
National Oceanic and Atmospheric Administration (NOAA), and the 
National Aeronautics and Space Administration (NASA).
    This subcommittee is singularly responsible for nearly 40 percent 
of all the Federal support for STEM education.
    There is a strong consensus that improving science, technology, 
engineering, and mathematics education is critical to the Nation's 
economic strength and global competitiveness in the 21st century. 
Reports have emphasized the need to attract and educate the next 
generation of American scientists and innovators. For example, the 
National Academies' 2005 report, Rising Above the Gathering Storm, 
recommends that the Nation increase its talent pool by vastly improving 
K-12 science and mathematics education. In order to improve STEM 
education, we must draw on a full range of learning opportunities and 
experiences, including those in informal, non-school settings. Informal 
science education can take place in a variety of places and through a 
wide variety of media such as science centers and museums, film and 
broadcast media, aquariums, zoos, nature centers, botanical gardens, 
and after-school programs. Informal learning can happen in everyday 
environments and through everyday activities as well.
    The Committee on Learning Science in Informal Environments was 
established by the National Research Council (NRC) of the National 
Academies to undertake a study of the status of, and potential for 
science learning in informal environments. In January 2009, the 
National Academies Committee released a report entitled Learning 
Science in Informal Environments: People Places, and Pursuits, which 
stated, ``Beyond the schoolhouse door, opportunities for science 
learning abound . . .'' The Academy found, among other things, that 
there is ample evidence to suggest that science learning takes place 
throughout the life span and across venues in non-school settings. 
Another key issue highlighted in the report is the role of informal 
STEM education in promoting diversity and broadening participation. The 
Academy found that informal environments can have a significant impact 
on STEM learning outcomes in historically underrepresented groups, and 
informal learning environments may be uniquely positioned to make STEM 
education accessible to all.

 VITAL FEDERAL SUPPORT FOR INFORMAL STEM EDUCATION IS PROVIDED BY NSF, 
                             NOAA AND NASA

    National Science Foundation.--Scientific discoveries and 
technological innovations have profound impact on individuals and 
societies. STEM education shapes our everyday lives and holds the 
potential to produce solutions to daunting problems facing the Nation. 
This prospect calls for unprecedented energy and innovative efforts to 
promote public understanding of--and engagement with--STEM, its 
processes, and implications. Informal learning settings offer learners 
of all ages enjoyable opportunities to become interested in STEM and 
more knowledgeable about the world around them. Such learning 
experiences foster a better informed citizenry and inspire young people 
to consider STEM careers in which they may help address societal 
challenges. NSF's Informal Science Education (ISE) program supports 
projects that promote lifelong learning of science, technology, 
engineering, and mathematics by the public through voluntary, self-
directed engagement in STEM-rich informal learning environments and 
experiences. The ISE program invests in projects that:
  --Advance knowledge through research and evaluation about STEM 
        learning in informal environments;
  --Design, implement, and study models, resources, and programs for 
        STEM learning in informal environments; and/or
  --Expand the capacity of professionals engaged in the work of 
        informal STEM education programs.
    The fiscal year 2011 budget for NSF's ISE program is $64.4 
million--2.4 percent below the fiscal year 2010 level. In fact, NSF 
support for ISE has been frozen in recent years at about $65 million 
since at least fiscal year 2007.
    National Oceanic and Atmospheric Administration.--Since 2005, 
NOAA's Office of Education has promoted the improvement of public 
environmental literacy through competitive education grants, also known 
as Environmental Literacy Grants. The recipients of Environmental 
Literacy Grants have consistently demonstrated: (1) alignment with 
NOAA's goals and NOAA's Education Strategic Plan; (2) a robust project 
evaluation plan; (3) partnership with NOAA offices and programs to 
leverage NOAA scientific, educational and human resources; and (4) the 
promotion of ocean and/or climate literacy--the components of 
environmental literacy closely tied to NOAA's mission. Additionally, 
NOAA strives to fund projects that complement other grant programs and 
educational efforts offered by other offices within NOAA, and by other 
Federal agencies, such as the U.S. Environmental Protection Agency, 
NASA and NSF.
    Successful NOAA projects catalyze change in K-12 and informal 
education through development of new partnerships, programs, and 
materials that not only increase knowledge of scientific phenomena, but 
also provide opportunities for the application of that knowledge to 
societal issues. To date 59 competitive awards have been made 
supporting a wide range of projects from teacher training, to 
experiential learning for youth and families, to the development of 
media products, and public opinion research.
    In the face of this progress, the administration's budget would 
reduce NOAA's education programs by over 28 percent.
    National Aeronautics and Space Administration.--NASA's Education 
program works to: foster a science, technology, engineering, and math 
workforce in fields that support NASA's strategic goals; attract 
students to the disciplines through a progression of education 
opportunities; and build strategic partnerships between formal and 
informal education providers. NASA's education programs have been 
evaluated as part of the administration's program assessment process 
with the following findings: NASA has taken several steps to improve 
the Education program's potential to strengthen and measure its 
performance. For instance, the agency developed a new education 
framework and implementation plan as well as new metrics by which to 
evaluate the program's achievement of intended outcomes; the program 
has made considerable progress in focusing the program's plans on 
achieving meaningful outcomes. The program has established baseline 
performance standards and has begun to collect and report some 
performance data against its new metrics; and the program has developed 
a solid plan and set aside resources to conduct independent evaluations 
of the portfolio's effectiveness and efficiency; now the program must 
implement that plan.
    Despite these improvements, the administration's budget for fiscal 
year 2011, NASA's education programs would decline by nearly 21 
percent.

                      ASTC AND EDUCATE TO INNOVATE

    As mentioned previously, the administration has recently released 
its latest edition of the biennial Science and Engineering Indicators 
report. This report says that the state of U.S. science and engineering 
is strong, but that U.S. dominance of world science and engineering has 
eroded significantly in recent years, primarily because of rapidly 
increasing capabilities among East Asian nations, particularly China. 
On the heels of that report, the administration announced a new set of 
public-private partnerships in the ``Educate to Innovate'' campaign 
committing more than $250 million in private resources to attract, 
develop, reward, and retain science, technology, engineering, and 
mathematics teachers. This initiative is responsive to data, presented 
in Indicators, showing that American 15-year-olds are losing ground in 
science and math achievement compared to their peers around the world.
    ASTC applauds the President's Educate to Innovate initiative and 
ASTC members are active participants in this campaign. ASTC also 
applauds the efforts of the private sector to commit more than $250 
million in resources to attract and retain K-12 STEM teachers. At the 
same time, we believe that any effective campaign to improve the 
quality and effectiveness of the STEM education provided to our 
students and teachers is grounded in a deeper appreciation by the 
public--and decisionmakers--in the importance of STEM education for the 
long term health and well-being of our Nation.
    It is for this very reason that on January 28, ASTC leadership met 
with officials of the Office of Science and Technology Policy to put 
forth a new ``Youth Inspired'' initiative that is comprised of two 
parts:
    ``Two Million Hours to the Future,'' capitalizes on the fact that 
science centers and science museums are key partners for supporting the 
Nation's youth in becoming the innovative and creative thinkers needed 
for the 21st century workforce. We propose that 300 science centers and 
science museums, representing each of the 50 States, could engage 
approximately 30 students per year through either afterschool or youth 
employment programs. With at least 1 hour of in-person contact per week 
per student, the initiative would cumulatively reach 2 million hours of 
science and personal development at the end of 3 years.
    ``Two Million Teachers to Inspire,'' is a national initiative that 
takes advantage of the important role that science centers play in 
developing and supporting STEM teachers in America's schools. Through 
the initiative--which will be supported in part by private and 
corporate funding and substantial in-kind institutional investment--
ASTC will collect, catalog, and share best practices in teacher 
professional development, providing a valuable resource for the 2 
million teachers our members impact every year.

                               CONCLUSION

    The reductions proposed by the administration for valuable informal 
STEM education programs at NSF, NOAA and NASA are counterproductive 
given all the concern expressed by public and private thought leaders 
regarding the importance of STEM education for the long term health and 
well being of the Nation. Informal STEM education programs reach over 
80 million people a year--children, parents, teachers, and even adult 
learners--with irreplaceable hands-on experiences that stimulate 
creativity and foster a valuable appreciation for the role of science 
and technology in the world around us--both today and tomorrow.
    To that end, ASTC urges the Congress--understanding the bounds of 
fiscal constraints--to continue to recognize the value of informal STEM 
education. ASTC respectfully requests the subcommittee to reverse the 
reductions proposed by the administration. In fact, to the maximum 
extent possible, ASTC suggests that given the fact these programs have 
remained relatively level since at least fiscal year 2008; they should 
be re-vitalized at a rate commensurate with the administration's intent 
to double the NSF over the next 10 years.
    Thank you for the opportunity to present these views. I would be 
happy to respond to any questions or provide additional information 
should it be needed by the subcommittee.
                                 ______
                                 
     Prepared Statement of the American Society of Plant Biologists

    On behalf of the American Society of Plant Biologists (ASPB) we 
submit this testimony for the official record to support the requested 
level of $7.424 billion for the National Science Foundation (NSF) for 
fiscal year 2011. The testimony also highlights the importance of 
biology, particularly plant biology, as the Nation seeks to address 
vital issues including climate change and energy security. ASPB would 
also like to thank the subcommittee for its consideration of this 
testimony and for its strong support for the basic research mission of 
the National Science Foundation.
    Our testimony will discuss:
  --Plant biology research as a foundation for addressing food, fuel, 
        climate change, and health concerns;
  --The rationale for robust funding for the National Science 
        Foundation while maintaining a well proportioned science 
        portfolio with support for all core science disciplines, 
        including biology; and
  --The rationale for continued support for NSF education and workforce 
        development programs that provide support for the future 
        science and technical expertise critical to America's 
        competitiveness.
    The American Society of Plant Biologists is an organization of more 
than 5,000 professional plant biologists, educators, graduate students, 
and postdoctoral scientists with members in all 50 States and 
throughout the world. A strong voice for the global plant science 
community, our mission--achieved through work in the realms of 
research, education, and public policy--is to promote the growth and 
development of plant biology, to encourage and communicate research in 
plant biology, and to promote the interests and growth of plant 
scientists in general.

  FOOD, FUEL, CLIMATE CHANGE, AND HEALTH--PLANT BIOLOGY RESEARCH AND 
                            AMERICA'S FUTURE

    Plants are vital to our very existence. They harvest sunlight, 
converting it to chemical energy for food and feed; they take up carbon 
dioxide and produce oxygen; and they are almost always the primary 
producers in ecosystems. Indeed, basic plant biology research is making 
many fundamental contributions in the areas of fuel security and 
environmental stewardship; the continued and sustainable development of 
better foods, fabrics, and building materials; and in the understanding 
of basic biological principles that underpin improvements in the health 
and nutrition of all Americans. To go further, plant biology research 
can both help the Nation predict and prepare for the impacts of climate 
change on American agriculture, and make major contributions to our 
Nation's efforts to combat a warming climate.
    In particular, plant biology is at the interface of numerous 
scientific breakthroughs. For example, the interface between plant 
biology and engineering is a critical frontier in biofuels research. 
Similarly, the interface between plant biology and chemistry 
contributes to biofuel production, as well as the identification of 
novel, bioactive compounds for medical use. With the increase in plant 
genome sequencing and functional genomics, the interface of plant 
biology and computer science is essential to our understanding of 
complex biological systems ranging from single cells to entire 
ecosystems.
    Despite the fact that basic plant biology research--the kind of 
research funded by the NSF--underpins so many vital practical 
considerations, the amount invested in understanding the basic function 
and mechanisms of plants is relatively small when compared with the 
impact it has on multibillion dollar sectors like energy and 
agriculture.

           ROBUST FUNDING FOR THE NATIONAL SCIENCE FOUNDATION

    The American Society of Plant Biologists encourages the 
subcommittee to fund the National Science Foundation at robust levels 
that would keep the Foundation's budget on a doubling path over the 
next several years.
    The fiscal year 2011 NSF budget request would fund the NSF at 
$7.424 billion in fiscal year 2011, keeping the Foundation budget on a 
path for doubling. ASPB enthusiastically supports this request and 
encourages proportional funding increases across all of the science 
disciplines funded by the NSF.
    As scientific research becomes increasingly interdisciplinary with 
permeable boundaries, a diverse portfolio at the NSF is needed to 
maintain cutting-edge research and innovation. The most pressing 
problems of the 21st century will not be solved by one science or 
method, but by numerous innovations across the research spectrum. This 
funding enables the scientific community to address challenging and 
basic cross-cutting research questions regarding climate change, 
sustainable food supply, energy, and health, all of which are impacted 
by or involve basic research in plant biology supported by the NSF. 
This idea is reflected in the National Research Council's report ``A 
New Biology for the 21st Century: Ensuring the United States Leads the 
Coming Biology Revolution.''
    The NSF Directorate for Biological Sciences (BIO) is a critical 
source of funding for nonbiomedical research, supporting innovative 
research ranging from the molecular and cellular levels to the 
ecosystem and even biosphere levels. Much of this funding has been 
provided to individual investigators; however, the NSF has also 
supported major research programs over the longer term. These 
investments continue to have significant pay offs, both in terms of the 
knowledge directly generated and in deepening collaborations and 
fostering innovation among communities of scientists.
    The BIO Plant Genome Research Program (PGRP) is an excellent 
example of a high impact program, which has laid a strong basic 
research foundation for understanding plant genomics as it relates to 
energy (biofuels), health (nutrition and functional foods), agriculture 
(impact of climate change on agronomic ecosystems), and the environment 
(plants' roles as primary producers in ecosystems). The American 
Society of Plant Biologists asks that the PGRP continue to be a 
separate funding line within the NSF budget, as in years past, and that 
the PGRP continues sustained funding growth over multiple years to 
address 21st century biology issues. For fiscal year 2011 ASPB asks 
that PGRP be funded at the highest possible level.
    Without significant and increased support for BIO and the NSF as a 
whole, promising fundamental research discoveries will be delayed and 
vital collaborations around the edges of the disciplines will be 
postponed, thus limiting the ability to respond to the pressing 
scientific problems that exist today. Increased funding for the NSF 
with proportional increases throughout the Foundation will also serve 
as a catalyst to encourage young people to pursue a career in science. 
Low funding rates throughout the NSF can be discouraging to early 
career scientists and dissuade them from pursuing a career in 
scientific research.
 continued support for nsf education and workforce development programs
    The National Science Foundation is a major source of funding for 
the education and training of the American scientific workforce. The 
NSF's education portfolio impacts students at all levels, including K-
12, undergraduate, graduate, and postgraduate. Importantly, the 
Foundation also offers programs focused on outreach to and engagement 
of underrepresented groups.
    The Integrative Graduate Education and Research Traineeship (IGERT) 
program is just one example of NSF's commitment to education. IGERT is 
successful in fostering the development of novel programs that provide 
multidisciplinary graduate training. As discussed above, it is at the 
intersections of traditional disciplines that the greatest 
opportunities for scientific advancement can be found. The American 
Society of Plant Biologists encourages expansion of the IGERT program 
in order to foster the development of a greater number of innovative 
science leaders for the future.
    Furthermore, ASPB urges the subcommittee to revitalize and expand 
NSF's fellowship programs--such as the Postdoctoral Research 
Fellowships in Biology, the Graduate Research Fellowship (GRF) and the 
Faculty Early Career Development (CAREER) programs--and, thereby, to 
provide continuity in funding opportunities for the country's most 
promising early career scientists. Additionally, such continuity and 
the broader availability of prestigious and well-supported fellowships 
may help retain underrepresented groups in the science, technology, 
engineering, and mathematics (STEM) fields. ASPB further encourages the 
NSF to develop ``transition'' awards that will support the most 
promising scientists in their transition from postdoctoral research to 
full-time, independent, tenure-track positions in America's 
universities. The NSF might model such awards after those offered by 
the NIH and initially championed by private philanthropies, such as the 
Burroughs Wellcome Fund and the Howard Hughes Medical Institute.
    ASPB urges the NSF to further develop programs aimed at increasing 
the diversity of the scientific workforce by leveraging professional 
scientific societies' commitment to provide a professional home for 
scientists throughout their education and careers to help promote and 
sustain broad participation in the sciences. ASPB is also concerned 
over the proposed change to consolidate the Historically Black Colleges 
and Universities Undergraduate Program, the Louis Stokes Alliances for 
Minority Participation program, and the Tribal Colleges and 
Universities Program into the Comprehensive Broadening Participation of 
Undergraduates in STEM program. Discreet focused training and 
infrastructure support programs for Hispanic Serving Institutions, 
Historically Black Colleges and Universities, and Tribal Colleges and 
Universities remain vitally important. These institutions are key 
producers of members of the STEM workforce, therefore ASPB recommends 
that distinct funding amounts be specified for Hispanic Serving 
Institutions, Historically Black Colleges and Universities, and Tribal 
Colleges and Universities within the proposed Comprehensive Broadening 
Participation of Undergraduates in STEM program.
    Finally, as this subcommittee oversees the White House Office of 
Science and Technology Policy (OSTP) appropriations, ASPB asks that the 
subcommittee direct OSTP to coordinate interagency development and 
implementation of a strategy to address the recommendations made in the 
National Research Council's (NRC) report ``A New Biology for the 21st 
Century: Ensuring the United States Leads the Coming Biology 
Revolution.'' The report accurately lays out the current status, 
potential and challenges for ``New Biology'' and how increased efforts 
in these areas can address major societal and environmental challenges. 
The National Science Foundation has a critical role to play in an 
interagency strategy and initiative in this area, as do other agencies 
such as the Department of Energy, the U.S. Department of Agriculture, 
and the National Institutes of Health.
    Thank you for your consideration of our testimony on behalf of the 
American Society of Plant Biologists. Please do not hesitate to contact 
the American Society of Plant Biologists if we can be of any assistance 
in the future.
                                 ______
                                 
                      Prepared Statement of Oceana

    Dear Chairwoman Mikulski, Ranking Member Shelby and members of the 
subcommittee, on behalf of more than 320,000 members of Oceana, the 
world's largest international organization focused solely on ocean 
conservation, I submit the following testimony on the fiscal year 2011 
budget for the National Oceanic and Atmospheric Administration (NOAA) 
within the Department of Commerce. I request that this testimony be 
submitted for the official record.
    NOAA's responsibilities are wide-ranging and essential to healthy 
oceans, public safety, and a vital economy. The agency provides 
fisheries management, coastal and marine conservation, weather 
forecasting, climate monitoring, and many other vital services. Despite 
the indispensable products and services that NOAA provides, the agency 
has been chronically underfunded. At first glance, the President's 
budget for fiscal year 2011 appears to buck this trend by increasing 
NOAA's funding to $5.5 billion, but the vast majority of that increase 
is directed toward Procurement, Acquisition, and Construction (PAC) 
account while Operations, Research, and Facilities (ORF) account 
remains relatively flat-funded.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    As evidenced above, the seemingly sharp increase in NOAA funding is 
primarily directed toward the PAC account. The vast amount of the 
increase in the PAC account is directed to satellites. While the 
satellite program is important and in need of increased funding, this 
increase must not come at the expense of NOAA's programmatic work, 
which operates under the ORF account. Funding for ORF has essentially 
idled since 2004, which, when accounting for inflation, has resulted in 
less money for ocean conservation and management.
    Oceana strongly encourages the subcommittee to provide $8 billion 
for NOAA in the fiscal year 2011 Commerce, Justice, Science 
appropriations bill. NOAA provides crucial services which are 
fundamental to the health of our oceans, coastal communities, and 
economy. While we are pleased that the President's request calls for 
increased funding for NOAA, many programs in the ORF account remain 
severely underfunded, and we ask that resources are directed toward 
marine research, management, and conservation programs including the 
following:

                NATIONAL MARINE FISHERIES SERVICE (NMFS)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The President's fiscal year 2011 budget requests for the National 
Marine Fisheries Service, NMFS, is less than the previous year's 
enacted level. This decrease is disappointing, as many NMFS programs 
remain underfunded, while the President himself has cited challenges 
facing our oceans, including, ``habitat loss, fishing impacts, invasive 
species, [and] disease.'' Increased funding is needed to address these 
problems and to strengthen the following programs:

Fishery Observer Programs--$50.9 Million (Fiscal Year 2010 Enacted--
        $41.1 Million)
    Fishery observers are independent scientists who collect data 
aboard working fishing vessels, and record the entire composition of 
what is brought aboard the boat. This is a more complete record than 
landings data which only record what is brought to port, failing to 
account for bycatch, the incidental catch of non-target fish species or 
marine wildlife. This bycatch is thrown overboard, often dead or dying. 
According to NMFS, 85 fisheries require observer coverage and only 42 
of those have any amount of coverage. Of those 42, less than one-half 
have adequate levels of coverage. Observer coverage needs to increase 
to provide accurate and precise estimates of bycatch in commercial 
fisheries to allow for better fishery management.

Stock Assessments--$60.0 Million (Fiscal Year 2010 Enacted--$51.0 
        Million)
    Fishery management must be supported by adequate data and science. 
Quantitative stock assessments provide the scientific basis for setting 
catch limits that allow for the maximum fishing effort while preventing 
overfishing. Strong science leads to healthy fisheries and a healthy 
economy. According to NOAA, only 128 of 230 major U.S. fish stocks were 
considered to have inadequate stock assessments in 2007. Based on an 
estimated cost of approximately $1 million per stock assessment, NOAA 
would require an additional $100 million above last year's funding in 
order to develop adequate stock assessments for all 230 major stocks, 
so by comparison, the increase sought is modest.

Enforcement--$75.0 Million (Fiscal Year 2010 Enacted--$65.7 Million)
    Fisheries laws are ineffectual without adequate enforcement. 
Successful implementation of new legal requirements for annual catch 
limits (ACLs) and accountability measures in all U.S. fisheries will 
demand increased funding. Additional resources are needed to establish 
a program for enforcement and surveillance of Illegal, Unregulated and 
Unreported (IUU) fishing within the existing NMFS fisheries enforcement 
program. IUU fishing is a major threat to fisheries sustainability and 
value, marine habitat, and the livelihoods of fishermen and local 
communities. Increased funding would be used to identify and take 
action against vessels engaged in IUU fishing.

Deep Sea Coral Conservation--$7.0 Million (Fiscal Year 2010 Enacted--
        $2.5 Million)
    The Magnuson Stevens Fishery Conservation and Management 
Reauthorization Act of 2006 (MSRA) directed NOAA to establish a Deep 
Sea Coral Research and Technology Program, to map coral habitats and 
help scientists understand deep sea coral biology and ecology. These 
delicate, slow-growing corals often serve as nurseries for commercially 
and ecologically important fish and a variety of marine wildlife. These 
corals are extremely vulnerable to destructive fishing gear, and 
increased funding is necessary to map the location of, and minimize 
gear impacts on deep sea coral habitat.

Sea Turtle Research and Conservation--$26.4 Million (Fiscal Year 2010 
        Enacted--$14.6 Million)
    Oceana urges the subcommittee to reject the administration's 
funding cut to marine turtle programs, and instead, expand upon 
existing funding. Sea turtles have been swimming the oceans for more 
than 100 million years, yet today, all six species of sea turtles in 
U.S. waters are listed as either endangered or threatened under the 
Endangered Species Act (ESA). Commercial fisheries alone are authorized 
to kill 10,000 and injure an additional 334,000 turtles each year. This 
mortality is compounded by other challenges such as marine debris, 
pollution, coastal development, vessel strikes, and climate change. 
Additional funding is needed to research the cumulative impact of these 
threats, and to ensure the recovery of imperiled sea turtle 
populations.

Marine Mammal Protection--$82.0 Million (Fiscal Year 2010 Enacted--
        $49.7 Million)
    Oceana requests that funding be restored to fiscal year 2005 
enacted level of $82 million. There are 13 domestic species of marine 
mammal that are currently protected under the ESA, all marine mammals 
are protected under the Marine Mammal Protection Act, and NMFS is the 
agency primarily responsible for their management. Increased funding is 
needed for updated stock assessments and research cruises, bycatch 
monitoring and reporting, research on avoidance and bycatch reduction 
techniques, the formation of take reduction teams, and implementation 
and enforcement of conservation measures for marine mammals.

                         NATIONAL OCEAN SERVICE

Oil Spill Response and Restoration--$29.2 Million (Fiscal Year 2010 
        Enacted--$10.8 Million)
    NOAA's office of Response and Restoration (OR&R) is the lead 
trustee for the public's coastal natural resources and the scientific 
leader for oil spill response, assessment, and restoration. OR&R's 
mission is to respond to, protect and restore habitats, communities and 
economies injured by oil spills, hazardous waste sites, and vessel 
groundings. Renewed interest in oil drilling in the ocean threatens 
marine life and ocean ecosystems. Starting in fiscal year 2004 OR&R saw 
a steady decrease in its funding levels calling into question its 
ability to respond to two major events simultaneously. Increased 
funding levels are essential if OR&R is to return to its historic 
funding levels and for OR&R to complete its designated mandates.

Integrated Ocean Acidification Initiative--$15.0 Million (New Program 
        in Fiscal Year 2011)
    Our oceans absorb approximately 30 percent of anthropogenic carbon 
dioxide emissions, amounting to more than 460 billion tons since the 
Industrial Revolution. Once the carbon dioxide is absorbed, it reacts 
with seawater to form carbonic acid. Among other things, the increased 
acidity prevents marine organism, such as pterepods, mussels, oysters, 
lobsters, and corals, from forming their calcified shells or skeletons. 
The acidity of our oceans' surface water has already increased by 
approximately 30 percent, and while the chemistry of this process is 
well understood, the breadth of the impact that it will have on marine 
ecosystems remains unknown. In 2009, Congress passed the Federal Ocean 
Acidification Research and Monitoring Act which authorized 
appropriations for ocean acidification research divided amongst NOAA 
and NSF. This money will support new technologies, monitoring systems, 
improved modeling, and dedicated research programs.
    New Programs in NOAA this year include a new Climate Service and 
work on Coastal and Marine Spatial Planning, as well as participation 
in the Ocean Policy Task Force, as directed by President Obama. New 
funding will be required to fulfill these new directives:
    National Climate Service.--Will bring together all the agency's 
climate science and products and make them available in one location, 
which will allow for improved communication and coordination within the 
agency, and will enhance accessibility to decisionmakers and the 
general public. The Climate Service will build upon current climate 
research, observations, modeling, predictions and assessments, but 
aggregate the information in one place.
    National Ocean Policy.--An Interagency Ocean Policy Task Force was 
established on June 12, 2009 by President Obama. The Task Force was 
charged with developing recommendations for a comprehensive national 
policy for the protection, maintenance and restoration of our oceans, 
coasts and Great Lakes; a structure to coordinate and implement the 
policy throughout the Federal Government; and a framework for coastal 
and marine spatial planning (CMSP). At the onset of President Obama's 
administration, he said, ``We have a stewardship responsibility to 
maintain healthy, resilient, and sustainable oceans, coasts, and Great 
Lakes resources for the benefit of this and future generations.'' Now, 
NOAA must be provided the resources to follow through.
    Coastal and Marine Spatial Planning.--Is a tool to implement the 
National Ocean Policy throughout U.S. waters and address the ever-
growing demands on our oceans such as renewable energy development, 
commercial and recreational fisheries, protecting marine wildlife, 
habitat protection, marine shipping, aquaculture, recreation, and many 
other activities. An initial investment in MSP will allow the United 
States to take a comprehensive approach to managing our coasts and 
oceans, rather than relying on sector-by-sector management. MSP will 
allow for improved planning with an emphasis on science-based 
decisionmaking.
    Thank you for your consideration of these recommendations.
    Note.--Oceana received no funding from a Federal grant (or subgrant 
thereof) or contract (or subcontract thereof) in the current fiscal 
year or either of the two previous fiscal years.
                                 ______
                                 
  Prepared Statement of the National Association of State Alcohol and 
                       Drug Abuse Directors, Inc.

    Chairwoman Mikulski, Ranking Member Shelby, members of the 
subcommittee, thank you for your leadership on issues related to 
addiction. I serve as executive director of the National Association of 
State Alcohol and Drug Abuse Directors or NASADAD, which includes our 
component groups the National Prevention Network (NPN) and National 
Treatment Network (NTN). Our members are responsible and accountable 
for planning, managing and improving each State's substance abuse 
prevention, treatment and recovery system.
    State Substance Abuse Agency-supported Services to Criminal Justice 
Populations.--In a NASADAD inquiry of the membership released in 
February 2009, State substance abuse directors were asked to estimate 
the percentage of cases referred to them from the criminal justice 
system. NASADAD found that 13 States estimated between 31 and 40 
percent; 12 States estimated between 41 and 50 percent; 10 States 
estimated between 51 and 60 percent; and 3 States estimated between 61 
and 70 percent of referrals came from the criminal justice system.
    The principle source of funding for NASADAD members is SAMHSA's 
Substance Abuse Prevention and Treatment (SAPT) Block Grant, which 
represents 40 percent of State substance abuse agency expenditures. Yet 
funding for the SAPT Block Grant has been stagnant over the past few 
years. While we certainly appreciate the increase of $20 million for 
the program in fiscal year 2010, it is estimated that an additional 
$403.7 million was needed just to maintain services at fiscal year 2004 
levels.
    As a result, DOJ-supported programs represent an extremely critical 
resource for State substance abuse agencies as they provide services to 
such a large percentage of criminal justice populations. A critical 
component of this work is the promotion of policies that require strong 
and direct linkages between Federal programs pertaining to addiction 
and State substance abuse agency directors. This direct linkage helps 
promote clinically appropriate standards of care; accurate performance 
and outcome data; and effective, efficient and coordinated service 
delivery.
    Fiscal Year 2011 Recommendations.--We respectfully ask for your 
support of the following recommendations as you consider fiscal year 
2011 appropriations for DOJ programs:
  --Residential Substance Abuse Treatment (RSAT)--$45 million.--NASADAD 
        supports $45 million, an increase of $15 million compared to 
        fiscal year 2010, for the Residential Substance Abuse Treatment 
        (RSAT) program. RSAT benefits all 50 States by awarding grants 
        for the establishment of drug treatment programs within State 
        and local correctional facilities. These grants call for 
        collaboration between the criminal justice administrators and 
        State substance abuse agencies to help ensure that evidence-
        based practices and qualified personnel are available to assist 
        offenders address their substance abuse problems. With an 
        estimated 80 percent of all offenders in the criminal justice 
        system having some level of substance abuse problem, programs 
        like RSAT that offer treatment during incarceration, matched 
        with aftercare services, are vital to any successful reentry 
        strategy.
  --Enforcing Underage Drinking Laws (EUDL)--$25 million.--NASADAD is 
        extremely concerned with the administration's proposal to 
        consolidate all title V programs within the Office of Juvenile 
        Justice and Delinquency Prevention (OJJDP) into one funding 
        stream. This proposal would have the effect of eliminating the 
        EUDL program which is housed within title V.
    The EUDL program is allocated as a block grant to every State and 
the District of Columbia in order to help reduce underage drinking and 
improve public safety through the enforcement of laws, policies and 
sanctions. The EUDL program also includes discretionary grant portfolio 
to help local jurisdictions initiate and maintain underage drinking 
laws programs. Overall, EUDL encourages collaboration between State 
agencies, which is critical when establishing a comprehensive Statewide 
underage drinking strategy. In addition to alcohol compliance checks, 
States use the funds to help local coalitions, schools and communities 
expand their substance abuse prevention efforts and their work with law 
enforcement. EUDL is a critical tool that helps law enforcement and the 
prevention and treatment field work together to reduce the negative 
effects of underage drinking.
    The proposal to eliminate EUDL funding arrives during a time when 
substance abuse prevention resources are dwindling. In fiscal year 
2010, the Department of Education's Safe and Drug Free Schools and 
Communities (SDFSC)--State Grants program was eliminated--representing 
a loss of approximately $300 million. In fiscal year 2011, the 
administration is proposing a $9 million decrease in the Substance 
Abuse and Mental Health Services Administration's (SAMHSA) Drug Free 
Communities (DFC) grant program. The loss of EUDL funds would represent 
another devastating loss for State substance abuse prevention systems. 
NASADAD requests level funding, or $25 million, for the EUDL program.
    Second Chance Act Programs.--NASADAD is supportive of funding for 
Second Chance Act programs. The statute itself notes the importance of 
State substance abuse agencies, noting ``successful reentry programs 
require close interaction and collaboration with each State's Single 
State Authority for Substance Abuse as the program is planned, 
implemented and evaluated.'' While NASADAD supports finding for all 
Second Chance Act programs, we offer specific recommendations for the 
following:
  --Adult and Juvenile Offender State and Local Reentry Demonstration 
        Projects--$50 million.--The Adult and Juvenile Offender State 
        and Local Reentry Demonstration Projects provide grants to 
        State and local governments to coordinate reentry efforts and 
        establish best practices. Allowable uses of the funds include 
        substance abuse treatment, employment services, housing, mental 
        health treatment, mentoring, among other things. The 
        authorization also requires a strong linkage with the State 
        substance abuse agency. NASADAD believes that the projects are 
        vital in helping offenders successfully reenter society and 
        requests $50 million in fiscal year 2011, an increase of $13 
        million compared to fiscal year 2010.
  --State, Tribal and Local Reentry Courts--$15 million.--The State, 
        Tribal and Local Reentry Courts program authorizes the Attorney 
        General to make competitive grants to States, local 
        governments, and Indian tribes that improve drug treatment in 
        prisons, jails, juvenile facilities; develop and implement 
        programs for ``long-term substance abusers'' through 
        assessment, treatment and case management; provide recovery 
        support services; and establish pharmacological treatment 
        services as part of drug treatment programs. Each eligible 
        applicant must certify that the program has been developed in 
        consultation with the State substance abuse agency. NASADAD 
        requests $15 million for the reentry courts in fiscal year 
        2011, representing an increase of $5 million compared to fiscal 
        year 2010.
  --Grants for Family-Based Substance Abuse Treatment--$12.5 million.--
        The Second Chance Act authorized grants to States, local 
        governments and Indian tribes to develop and implement 
        comprehensive family-based substance abuse treatment programs. 
        The program must ensure coordination and consultation with the 
        State substance abuse agency. NASADAD requests $12.5 million 
        for this program in fiscal year 2011, representing an increase 
        of $5 million compared to fiscal year 2010.
  --Offender Reentry Substance Abuse and Criminal Justice Collaboration 
        Program--$15 million.--The Second Chance Act authorized 
        competitive grants to States, local governments, and Indian 
        tribes for the purpose of improving drug treatment programs in 
        prisons, jails, juvenile facilities and reducing drug and 
        alcohol use by ``long-term substance abusers.'' Grants may 
        support assessments, treatment, case management services, 
        recovery support, and pharmacological drug treatment services 
        as part of any drug treatment program. Each eligible applicant 
        must certify that the program has been developed in 
        consultation with the State substance abuse agency and certify 
        the program is clinically appropriate and provides 
        comprehensive treatment. NASADAD requests $15 million for this 
        program in fiscal year 2011, for an increase of $2 million 
        compared to fiscal year 2010.
    Drug Courts--$65 million.--DOJ's Bureau of Justice Assistance (BJA) 
reports that all 50 States and the District of Columbia, several Native 
American Tribal courts, two territories and two Federal courts operate 
drug courts. Drug courts work to address the high level of drug use and 
abuse found within the non-violent offender population by linking them 
to substance abuse treatment programs. Reports have shown drug courts 
to improve retention rates--a significant factor in recovery--and 
reduce recidivism. The Association also encourages strong linkages with 
State substance abuse agencies in the planning and implementation of 
the Drug Court Program. This partnership will ensure that drug courts 
use clinical treatment standards set by the State substance abuse 
agency, discourage system fragmentation, promote sustainability and 
encourage the use of common client level performance and outcomes data.
    NASADAD opposes the administration's fiscal year 2011 proposal to 
consolidate the Drug Court and Mentally Ill Offender Treatment and 
Crime Reduction Act (MIOTCRA) programs into a Problem Solving Court 
Program. The Association recommends stakeholder dialogue and consensus 
before any such changes are proposed. NASADAD recommends implementing 
$65 million for the Drug Court Program in fiscal year 2011, 
representing an increase of $20 million compared to fiscal year 2010.
    Mentally Ill Offender Act Program--$15 million.--The Mentally Ill 
Offender Treatment and Crime Reduction Act (MIOTCRA) is an authorized 
program aimed at preventing the mentally ill and those with co-
occurring mental health and substance use disorders from revolving in 
and out of the criminal justice system without appropriate treatment. 
Again, the Association remains concerned about the proposal to 
consolidate the MIOTCRA program with the Drug Court Program. While one 
aspect of the MIOTCRA program focuses on mental health courts, a large 
piece of the program seeks to foster collaboration between the criminal 
justice, mental health and substance abuse agencies to ensure that 
mentally ill offenders receive the appropriate treatment services they 
need. We hope that Congress will provide $15 million for the MIOTCRA 
program in fiscal year 2011, representing an increase of $3 million 
compared to fiscal year 2010.
    Byrne/Justice Assistance Grants (JAG)--$1.1 billion.--The Edward 
Byrne Memorial Justice Assistance Grant (JAG) program is the primary 
provider of Federal funding for criminal justice activities to State 
and local jurisdictions. This program supports a broad range of 
activities including education, prevention and treatment for substance 
use. Specifically, the 2007 application notes that a core purpose area 
is drug treatment programming. NASADAD encourages strong linkages with 
State substance abuse agencies in the planning and implementation of 
Byrne/JAG. NASADAD joins our criminal justice coalition partners in 
calling for the authorized funding level of $1.1 billion in fiscal year 
2011.
    Appreciation DOJ-SAMHSA Partnership.--NASADAD recognizes the work 
of DOJ and SAMHSA as they partner on issues pertaining to addiction and 
crime. This work has moved forward under the leadership of Ms. Laurie 
Robinson, Assistant Attorney General, Office of Justice Programs (OJP); 
Ms. Pam Hyde, SAMHSA Administrator; Dr. Eric Broderick, SAMHSA's Deputy 
Administrator; Dr. H. Westley Clark, Director of the Center for 
Substance Abuse Treatment (CSAT); and others.
    Thank you for the opportunity to provide input. We look forward to 
working with the subcommittee on these important issues.
                                 ______
                                 
     Prepared Statement of the Natural Science Collections Alliance

    The Natural Science Collections Alliance (NSC Alliance) appreciates 
the opportunity to provide testimony about the President's fiscal year 
2011 budget request for the National Science Foundation (NSF). We 
encourage Congress to appropriate the President's requested $7.424 
billion for NSF.
    NSC Alliance is a nonprofit association that supports natural 
science collections, their human resources, the institutions that house 
them, and their research activities for the benefit of science and 
society. We are comprised of over 100 institutions who are part of an 
international community of museums, botanical gardens, herbariums, 
universities and other institutions that house natural science 
collections and utilize them in research, exhibitions, academic and 
informal science education, and outreach activities.
    The NSF drives scientific and general economic innovation and 
supports job creation through research grant awards to scientists and 
research institutions, supporting the acquisition of research 
instruments and investments in research infrastructure, and supporting 
the education and training of undergraduate and graduate students. 
These and other NSF programs underpin the Nation's research enterprise. 
Research funded by NSF generates knowledge and ideas that spur economic 
growth, stimulate innovation, and improve our understanding of the 
world in which we live.
    The President's budget request for fiscal year 2011 would invest 
$6.019 billion in the Research and Related Activities (R&RA) 
programmatic accounts. Through R&RA, the agency supports innovative 
research that advances the frontiers of our natural, physical and 
social science disciplines. Included within this request is $767.81 
million for the Biological Sciences Directorate (BIO), a 7.5 percent 
increase over the fiscal year 2010 enacted.
    The President's budget would provide the Geosciences Directorate 
(GEO) with $955.3 million in fiscal year 2011, a 7.4 percent increase.
    As the primary Federal funder of basic biological research, BIO 
serves a vital role in ensuring our Nation's global leadership in the 
biological sciences. BIO provides 68 percent of Federal grant support 
for fundamental biological research conducted at our Nation's 
universities and other nonprofit research centers, such as natural 
history museums. The Directorate supports transformative research that 
has improved our understanding of complex living systems and is helping 
to address major new challenges--mitigating and adapting to climate 
change, understanding and conserving biodiversity, and developing new 
bio-inspired technologies.
    NSF provides essential support for our Nation's natural science 
collections. These research centers enable scientists and students to 
study the data of life for the history of the planet, conduct modern 
biological, geological, cultural, and environmental research, and 
provide undergraduate and graduate students with the opportunity to 
learn directly from nature.
    The President's budget request for NSF includes important funding 
for natural science collections. Ten million dollars is allocated to 
continue efforts to digitize and network U.S. specimen-based research 
collections. This funding is desperately needed to increase access to 
the data and specimens in our Nation's scientific collections. 
Collections play a central role in many fields of biological research, 
including disease ecology and predicting outbreaks of disease, 
biodiversity, and climate change. They also provide critical 
information about existing gaps in our knowledge of life on Earth.
    The importance of scientific collections to our Nation's research 
infrastructure was recognized by the Federal Interagency Working Group 
on Scientific Collections, which reported that: ``. . . scientific 
collections are essential to supporting agency missions and are thus 
vital to supporting the global research enterprise.''
    The fiscal year 2011 budget request includes important funding to 
continue efforts to better understand biodiversity. Funding is included 
for cross-disciplinary research to define the impacts of biodiversity 
on ecosystem services and human well-being. Additionally, the Science, 
Engineering, and Education for Sustainability (SEES) program would 
continue to study the scope and role of biodiversity in climate 
adaptation and ecosystem sustainability.
    Within the R&RA program, GEO provides some support for research and 
student training opportunities at natural science collections. GEO 
supports cross disciplinary research on the interactions between 
Earth's living and non-living systems--research that has important 
implications for our understanding of climate change, water and natural 
resource management, and biodiversity.
    The President's budget provides important funding for the Informal 
Science Education program within the Education and Human Resources 
division. This program works to advance our understanding of informal 
science, technology, engineering, and mathematics (STEM) learning. This 
program supports projects that create tools and resources for STEM 
educators working in science museums and outside of traditional 
classrooms. The Informal Science Education program builds professional 
capacity for research, development, and practice in the field. The 
administration's fiscal year 2011 budget would decrease funding for the 
program by $1.6 million from fiscal year 2010 enacted. This program is 
too important to the future of our Nation to have its budget cut. We 
encourage Congress to restore the proposed cut and to provide important 
new funding for the Informal Science Education program.
    A sustained Federal investment in NSF is prudent. Public 
investments in biological sciences research have been shown to generate 
a $2 to $10 return on each dollar invested. The President's budget 
request for NSF will help spur economic growth and innovation and 
continue to build scientific capacity at a time when our Nation is at 
risk of being outpaced by our global competitors. Please support an 
investment of $7.424 billion in NSF for fiscal year 2011.
    Thank you for your consideration of this request.
                                 ______
                                 
       Prepared Statement of the Marine Fish Conservation Network

    On behalf of the nearly 200 environmental organizations, fishing 
associations, aquariums, and marine science groups dedicated to 
conserving marine fish and achieving sustainable fisheries, the Marine 
Fish Conservation Network submits the following testimony for the 
record on the fiscal year 2010 budget for National Marine Fisheries 
Service (NMFS) within the National Oceanic and Atmospheric 
Administration (NOAA). For fiscal year 2011, the Network is asking the 
subcommittee to increase funding for core fisheries conservation and 
management programs $69.2 million above the President's fiscal year 
2011 budget request, in the following program areas:

                               NMFS FISHERIES RESEARCH AND MANAGEMENT BUDGET LINES
                                          [In millions of dollars \1\]
----------------------------------------------------------------------------------------------------------------
                                                                                    Fiscal Year
                                                                    Fiscal Year        2011         Fisal Year
                                                                   2010 Enacted     President's      2011 MFCN
                                                                      Budget          Budget          Request
----------------------------------------------------------------------------------------------------------------
Expand annual stock assessments.................................            50.9            51.7            61.7
Survey and monitoring...........................................            23.7            24.1            30.0
Fisheries statistics............................................            21.0            21.4            32.4
Observer program................................................            41.0            38.8            60.0
Cooperative research............................................            17.5             7.1            17.1
Reducing bycatch................................................             3.4             3.4            10.0
Reduce fishery impacts to EFH...................................             0.5             0.5             5.0
----------------------------------------------------------------------------------------------------------------
\1\ Numbers rounded to nearest $100,000.

    NOAA and NMFS are responsible for the management and conservation 
of fisheries resources that are the economic lifeblood of many coastal 
communities, but NOAA Fisheries has long been underfunded and needs 
additional resources to meet its conservation mandates for 
fisheries.\1\
---------------------------------------------------------------------------
    \1\ See, for instance, USCOP (2004), pp. 274-304, and NOAA/NMFS, 
Requirements for Improved and Integrated Conservation of Fisheries, 
Protected Resources and Habitat, January 2003.
---------------------------------------------------------------------------
    Recent budget increases supported by this subcommittee have enabled 
NMFS to expand its data collection and stock assessment capabilities, 
but significantly more support is needed to address the needs of our 
Nation's fisheries. For instance, NOAA's own analysis indicates that 
current funding levels for expanded stock assessments provide the 
capability to assess less than 60 percent of the 230 major fish stocks 
that comprise the Fish Stock Sustainability Index (FSSI).\2\ Without 
increased funding for improved data collection and expanded stock 
assessments, many fishery annual catch limits (ACLs) will be determined 
without assessments or using assessments that are infrequently updated. 
In such cases, fishery managers are compelled to set ACLs lower to 
account for the higher uncertainty and risk of overfishing. Funding to 
improve stock assessments decreases uncertainty and therefore may allow 
increased fishing opportunities.
---------------------------------------------------------------------------
    \2\ See President's fiscal year 2010 budget request, Congressional 
Submission, Exhibit 13, pp. 215-217.
---------------------------------------------------------------------------
    Additional resources are also needed to support improved data 
collection and management of our recreational fisheries. Despite their 
often sizeable economic importance to coastal communities, much less 
data is collected from recreational fisheries than commercial 
fisheries.\3\ The lack of timely recreational fisheries data has 
created situations in which recreational fisheries must be managed 
using Marine Recreational Fisheries Statistics Survey (MRFSS) data that 
are not designed for the purpose of preventing fisheries from exceeding 
ACLs. We urge the subcommittee to address this shortcoming and provide 
funding for a recreational fishery data collection system that 
prioritizes the timely collection and analysis of recreational catch 
data.
---------------------------------------------------------------------------
    \3\ USCOP (2004), p. 281.
---------------------------------------------------------------------------
    Therefore, we request increases in the following NMFS Fisheries 
Management and Research programs for activities related to the 
collection of baseline data collection supporting the implementation of 
the new mandates and requirements of the MSRA aimed at ending 
overfishing and achieving sustainable, productive fisheries:
    Expand Stock Assessments: +$10 Million Over the President's Request 
for a Total of $61.7 Million.--The Omnibus Appropriations Act of 2010 
funds this program at NOAA's requested fiscal year 2010 level of $50.9 
million. While we welcome and support the increase in funding, it is 
not sufficient to achieve the agency's goal of developing stock 
assessments for all 230 major stocks in the Fish Stock Sustainability 
Index (FSSI). Fishery managers have substantially greater confidence 
that catch limits will prevent overfishing when the ACLs are based on 
an assessment. The requested funding level we request in fiscal year 
2011 is needed to ramp up the capability to provide stock assessments 
for all major fisheries. Timely, updated stock assessments will reduce 
the scientific uncertainty and may enable fishery managers to set 
higher ACLs while still preventing overfishing and rebuilding 
overfished stocks.
    Survey and Monitoring Projects: +$6 Million Over the President's 
Request for a Total of $30 Million.--The enacted fiscal year 2010 
budget restores funding for this program to the level sought by NOAA in 
the fiscal year 2009 budget request in recognition of the fact that 
this activity provides essential baseline data needed for developing 
and updating stock assessments. Nevertheless, many regions will 
continue to experience chronic underfunding of basic resource surveys 
and data collection (both fishery-independent resource surveys and 
fishery catch sampling and monitoring) required to support stock 
assessment development and scientific recommendations for catch limits. 
We request that fiscal year 2011 funding for this program be increased 
to at least $30 million in order to support expanded resource surveys 
and improved stock assessments in all regions, for both commercial and 
recreational fisheries. Additional funding will improve scientific 
estimates of stock size and reduce uncertainty, improving the ability 
of fishery managers to set ACLs that prevent overfishing while 
increasing fishing opportunities.
    Fisheries Statistics: +$11 Million Over the President's Request for 
a Total of $32.4 Million.--The 2006 amendments to the Magnuson Stevens 
Act required NMFS to improve the quality and accuracy of marine 
recreational fishery data with a goal of achieving acceptable accuracy 
and utility for each fishery within 2 years. The Omnibus Appropriations 
Act of 2010 includes $9 million in total funding for the Marine 
Recreational Information Program (MRIP), less than one-half of the $20 
million per year that is needed to fully implement the MRIP and expand 
the National Registry to State and Federal waters. We recommend a 
funding level of $32.4 million for fiscal year 2011, reflecting an 
increase of $11 million over the President's fiscal year 2011 request 
to the MRIP to provide more timely data needed to manage recreational 
fishery catch limits and avoid overages that can result in reduced 
fishing opportunities in future years.
    Fisheries Observers/Training: +$21.2 Million Over the President's 
Request for a Total of $60 Million.--The President's fiscal year 2011 
budget request would cut observer program funding from $41 million in 
fiscal year 2010 to $38.8 million. Current funding levels support at-
sea observer programs in about 40 fisheries nationwide, only 23 of 
which were considered by NMFS to have adequate levels of observer 
coverage in 2009.\4\ Nearly three-quarters of U.S. fisheries assessed 
for observer coverage have very little or no coverage, based on a 2004 
national bycatch assessment \5\ and updated information in 2009.\6\ 
Additional funding for observers will provide improved fisheries catch 
and bycatch data that is essential to produce stock assessments, reduce 
bycatch, monitor fishery compliance with catch limits, and increase 
industry confidence in scientific information used to set catch limits.
---------------------------------------------------------------------------
    \4\ See President's fiscal year 2010 budget request, Congressional 
Submission, Exhibit 13, p. 245. The full list of fisheries prioritized 
for observer coverage in 2004 can be found in: U.S. Dep. of Commerce/
NOAA/NMFS, Evaluating Bycatch: A National Approach to Standardized 
Bycatch Monitoring Programs, NOAA Technical Memorandum NMFS-F/SPO-66, 
October 2004. 108 p.
    \5\ The full list of fisheries assessed for observer coverage in 
2004 can be found in: U.S. Dep. of Commerce/NOAA/NMFS, Evaluating 
Bycatch: A National Approach to Standardized Bycatch Monitoring 
Programs, NOAA Technical Memorandum NMFS-F/SPO-66, October 2004. 108 p.
    \6\ See President's fiscal year 2010 budget request, Congressional 
Submission, Exhibit 13, p. 245.
---------------------------------------------------------------------------
    Cooperative Research: +$10 Million Over the President's Request for 
a Total of $17.1 Million.--The President's fiscal year 2011 budget 
proposes to cut $4.56 million from this budget line and transfer 
another $6 million to cooperative research under the Catch Shares 
budget line. Funding for this budget line supports research in 
partnership with fishermen to help improve the quality of fish 
assessments and assessment of non-target bycatch mortality, among other 
things. In addition to contributing to more assessment information, 
cooperative research funds partnerships between key stakeholders and 
NMFS, increasing stakeholder confidence in the data and creating a more 
transparent process. The amount requested for this budget line is 
intended to restore the funding that the President's budget proposes to 
remove, in order to provide additional opportunities for cooperative 
research in fisheries that are not part of catch share programs.
    Bycatch Monitoring and Reduction: +$6.6 Million Over the 
President's Request for a Total of $10 Million.--The President's fiscal 
year 2011 request $3.4 million maintains stable funding for this 
program, but current funding is woefully inadequate to address the 
scope of the problem. Greater funding is needed to develop and test 
bycatch reduction technologies, to support cooperative research 
opportunities with fishermen, and to collect and process reliable 
fisheries bycatch information for use in stock assessments and 
management decisionmaking. The Network recommends that Congress provide 
at least $10 million in fiscal year 2011 for the Bycatch Reduction 
Initiative as part of a plan to ramp up program funding toward the $30 
million per year level recommended by the U.S. Commission on Ocean 
Policy.\7\
---------------------------------------------------------------------------
    \7\ See USCOP 2004: Table 30.1; Appendix G.
---------------------------------------------------------------------------
    Reduce Fishing Impacts on Essential Fish Habitat (EFH): +$4.5 
Million Over the President's Request for a Total of $5.0 Million.--The 
President's fiscal year 2011 request of $0.53 million would keep this 
program on life support, and the low level of funding for this budget 
line item speaks to the low priority given to protection of vulnerable 
EFH. The Magnuson-Stevens Act of 1996 gave fishery managers a clear 
mandate to identify and protect EFH. Healthy fish habitat is an 
essential precondition for rebuilding overfished stocks and sustaining 
fisheries over the long-term. Program funding should reflect that 
importance. The Network recommends that Congress provide no less than 
$5 million in fiscal year 2011 for EFH conservation as part of a plan 
to ramp up program funding toward the $15 million per year level 
recommended by the U.S. Commission on Ocean Policy.\8\
---------------------------------------------------------------------------
    \8\ USCOP 2004: Table 30.1; Appendix G.
---------------------------------------------------------------------------
    Increased investments in these fisheries programs will improve 
efforts to set sustainable catch limits and monitor compliance, 
facilitate the rebuilding of fisheries to meet their full economic and 
biological potential, and increase fishing industry confidence in the 
science being used to make management decisions.
                                 ______
                                 
              Prepared Statement of National Public Radio

    Chairwoman Mikulski and Ranking Member Shelby, this statement 
asking for an increase in funding for the fiscal year 2011 Public 
Telecommunications Facilities Program (PTFP) is submitted on behalf of 
the public radio system including NPR and the roughly 800 public radio 
stations that serve communities large and small throughout the United 
States. While everyone recognizes that these are extraordinarily 
challenging times, PTFP has been significantly underfunded for the past 
several years. Each year of underfunding brings the consequence of 
reduced public radio service. Public broadcasting's request of $44 
million for PTFP will begin to address the long list of pressing needs 
within the public broadcasting station community. This level of funding 
will ensure that public radio stations can improve and expand their 
valued public service offerings to local communities nationwide. As the 
chairwoman and Senator Shelby well know, PTFP is the only Federal 
funding program that assists stations with replacement of equipment 
that has been damaged or simply worn out.
    NPR and its more than 850 public radio station partners operate as 
an independent, nonprofit media organizations nationally acclaimed for 
news, information, music and entertainment programming. Today, more 
Americans than ever--over 33 million people--are tuning into public 
radio programming and listening to NPR and public radio stations on a 
weekly basis. Our audience has grown 66 percent in the past 10 years, 
bucking a precipitous decline in other media and a general overall 
decline in radio listening. Public radio stations independently select 
and produce community appropriate programming that best serves their 
listening areas.
    Since 1962, public radio stations have utilized PTFP grants for 
replacement, maintenance and necessary upgrades of audio production and 
broadcast transmission equipment. PTFP is a competitive matching grant 
program to help public broadcasters, State and local governments, and 
Native American tribes construct facilities to bring educational and 
cultural programs to the public. Run by the National Telecommunications 
and Information Administration (NTIA) under the Department of Commerce, 
this program provides financial assistance to stations for capital 
projects such as replacing outdated hardware, purchasing new equipment 
to expand service to underserved and un-served areas, and converting to 
digital technology.
    This essential capital grant program is available to public 
broadcasters, many of whom are constrained in their ability to finance 
capital expenditures. Stations cannot pass their costs on to their 
listeners, and most cannot take out loans for such projects, especially 
in this challenging economic climate and those in rural areas. The 
matching-grant structure of PTFP allows public radio stations to 
leverage funding from local government and private entities while 
providing the money needed to help defray the high costs of capital 
projects.
    Fiscal year 2011 brings an important opportunity for public radio 
broadcasters. In 2007, the Federal Communications Commission (FCC) 
opened a filing window for non-commercial educational radio stations, 
the first such frequency filing opportunity in more than 7 years. The 
response from public radio stations has been enormous, with several 
hundred applications filed for new frequencies to improve or provide 
first service for communities across America. Each of these new 
frequencies, once approved by the FCC, will require a station build-
out, adding to the vitally important matching grant financing provided 
by PTFP.
    The subcommittee should also be made aware that 35 new stations 
serving tribal communities are waiting to be built. The tribal 
participation in the FCC's 2007 new frequency window indicates that 
Native Americans are highly interested in securing terrestrial radio 
stations for their communities. Radio still works in Indian Country 
where broadband penetration is less than 10 percent, where 911 services 
are sparse and where roads remain to be paved. These stations are 
anchor institutions, engaging tribal members in the information stream 
about health, public safety, education, and electoral processes.
    The demand for PTFP funding far exceeds the amount of funds 
available. In fiscal year 2009, there were over 220 applications 
requesting more than $48 million in funding through PTFP, yet only $20 
million was made available. Unfortunately, budget constraints have 
limited the amount of funds available for PTFP grants. Annual 
appropriations for the program in fiscal year 2004 were cut by 50 
percent (from $43.2 million in fiscal year 2003 to $21.8 million). 
Funding levels for the past 7 years have remained at that level or 
lower. Increasing PTFP this year to its pre-2004 level of $44 million 
will help to meet the demand for this small, but important program, to 
help them to expand coverage to underserved and un-served areas.
    In this era of local public radio stations utilizing digital 
technology to expand their public service reach, computer systems rely 
on software which needs constant updating and replacement. PTFP funding 
will be essential to stations that need to maintain reliable digital 
equipment and service that meets the needs of their communities. PTFP 
funding is the primary funding source for station equipment and 
technology needs.
    In fiscal year 2009, PTFP approved 63 radio awards totaling $6.422 
million. The largest radio grant went to construct a new public radio 
station on 90.5 MHz in Shiprock, New Mexico, that will provide first 
and local origination service to 31,883 people and additional service 
to 11,166 people on the Navajo Indian Reservation and the Four Corners 
area of Colorado, New Mexico, Arizona, and Utah.
    Thirty-five radio grants were awarded to extend new public radio 
service to over 400,000 people and provide additional service to almost 
2 million people. Two of the projects will fund booster stations to 
improve service to portions of New York City where coverage is shadowed 
by Manhattan skyscrapers. Communities that will receive first or 
expanded public radio service are: Bella Vista, Burney and Susanville, 
CA; Boulder, Dove Creek, Montrose, Salida and Wiley CO; Milledgeville 
and Young Harris, GA; Caldwell, ID; Manhattan, KS; Frederick, MD; 
Cloquet, Hinkley, Nett Lake and Redwood Falls, MN; Greenville, MS; Box 
Elder (Rocky Boy Indian Reservation), MT; Okracoke, NC; Fort Totten, 
ND; Des Moines, Shiprock (Navajo Indian Reservation) and Tucumcari, NM; 
Acra, Mt. Beacon and New York City, NY; Bend and Brightwood, OR; 
Spearfish/Belle Fourche, SD; Gloucester Point, Gloucester Courthouse 
and Lexington, VA; Medical Lake, Mount Vernon and Port Townsend, WA; 
and Fort Washakie (Wind River Indian Reservation), WY.
    A grant will permit KPBX-FM, Spokane, WA, to distribute additional 
program streams for broadcast on five digital repeater stations in 
Omak, Oroville, Twisp, and Brewster, WA; and Kellogg, ID. Also, NPR was 
awarded a planning grant to determine the feasibility of digital 
conversion of radio reading services for the blind and low vision 
community.
    Maintaining service is also one of PTFP's main priorities. PTFP is 
the only source of funds for local public radio stations to replace 
equipment damaged or destroyed by disasters such as hurricanes, 
tornados, floods, wildfires, earthquakes and ice storms. In fiscal year 
2009, the program awarded 26 projects to replace urgently needed 
equipment at public radio stations. PTFP priorities when issuing grants 
include expansion of public broadcasting to underserved and un-served 
areas of the country. For more than 46 years, the program has played a 
major role in the development and expansion of public radio throughout 
the country. Today, more than 93 percent of the American public can 
listen to a public radio station in their community.
    On behalf of public radio stations all across America, NPR urges 
the subcommittee to approve $44 million for PTFP.
                                 ______
                                 
        Prepared Statement of the American Geological Institute

    To the chairwoman and members of the subcommittee: The American 
Geological Institute (AGI) supports fundamental Earth science research 
sustained by the National Science Foundation (NSF), the National 
Oceanic and Atmospheric Administration (NOAA), the National Institute 
of Standards and Technology (NIST) and the National Aeronautics and 
Space Administration (NASA). Frontier research on Earth, energy and the 
environment has fueled economic growth, mitigated losses and sustained 
our quality of life. The subcommittee's leadership in expanding the 
Federal investment in basic research is even more critical as our 
Nation competes with rapidly developing countries, such as China and 
India, for energy, mineral, air and water resources. Our Nation needs 
skilled geoscientists to help explore, assess and develop Earth's 
resources in a strategic, sustainable and environmentally-sound manner 
and to help understand, evaluate and reduce our risks to hazards. AGI 
supports a total budget of $7.424 billion for NSF; $919 million for 
NIST, $5.554 billion for NOAA, and $1.802 billion for Earth Science at 
NASA.
    AGI is a nonprofit federation of 46 geoscientific and professional 
societies representing more than 120,000 geologists, geophysicists, and 
other Earth scientists. Founded in 1948, AGI provides information 
services to geoscientists, serves as a voice for shared interests in 
our profession, plays a major role in strengthening geoscience 
education, and strives to increase public awareness of the vital role 
the geosciences play in society's use of resources and interaction with 
the environment.
    NSF.--AGI applauds the President's request for an overall budget of 
$7.424 billion for NSF and the administration's commitment to science. 
AGI greatly appreciates Congress's support for science and technology 
in recent appropriations and through the America COMPETES Act of 2007 
as well as the American Recovery and Reinvestment Act of 2009. The 
forward-looking investments in NSF are fiscally responsible and will 
pay important dividends in future development and innovation that 
drives economic growth, especially in critical areas of sustainable and 
economic natural resources and reduced risks from natural hazards. The 
investments will save jobs, create new jobs, support students and 
provide training for a 21st century workforce.
    NSF Geosciences Directorate.--The Geosciences Directorate (GEO) is 
the principal source of Federal support for academic Earth scientists 
and their students who are seeking to understand the processes that 
ultimately sustain and transform life on this planet. About 63 percent 
of support for university-based geosciences research comes from this 
directorate.
    The President's request for fiscal year 2011 asks for $281 million 
for Atmospheric Sciences, $199 million for Earth Sciences, $378 million 
for Ocean Sciences and $98 million for Innovative and Collaborative 
Education and Research (ICER) within GEO. Much of the geosciences 
research budget is for understanding that which is critical for current 
national needs, such as climate change, water and mineral resources, 
energy resources, environmental issues and mitigation of natural 
hazards. AGI asks the subcommittee to strongly support these essential 
investments.
    GEO supports infrastructure and operation and maintenance costs for 
cutting edge facilities that are essential for basic and applied 
research. Ultimately the observations and data provide information and 
understanding that is used by researchers and managers in the public, 
government and private sector. Among the major facilities, the Academic 
Research Fleet would receive $77 million, EarthScope Operation would 
receive $26 million, Incorporated Research Institutions for Seismology 
(IRIS) would receive $12.73 million, Ocean Drilling Activities would 
receive $46 million, and the National Center for Atmospheric Research 
would receive $108 million. AGI strongly supports robust and steady 
funding for infrastructure and operation and maintenance of these major 
facilities.
    Now is the time to boost geosciences research and education to fill 
the draining pipeline of skilled geoscientists and geo-engineers 
working in the energy and mining industries; the construction industry; 
the environmental industry; the academic community; K-12 education; and 
in Government, such as the United States Geological Survey as well as 
State and local government natural resource and emergency management 
agencies.
    NSF Support for Earth Science Education.--Congress can improve the 
Nation's scientific literacy by supporting the full integration of 
Earth science information into mainstream science education at the K-12 
and college levels. AGI supports the Math and Science Partnership (MSP) 
program, a competitive peer-reviewed grant program that funds only the 
highest quality proposals at NSF. The NSF's MSP program focuses on 
modeling, testing and identification of high-quality math and science 
activities whereas the Department of Education MSP program does not. 
The NSF and Department of Education MSP programs are complementary and 
are both necessary to continue to reach the common goal of providing 
world-class science and mathematics education to elementary and 
secondary school students.
    Improving geoscience education to levels of recognition similar to 
other scientific disciplines is important because:
  --Geoscience offers students subject matter that has direct 
        application to their lives and the world around them, including 
        energy, minerals, water and environmental stewardship. All 
        students should be required to take a geoscience course.
  --Geoscience exposes students to a range of interrelated scientific 
        disciplines. It is an excellent vehicle for integrating the 
        theories and methods of chemistry, physics, biology, and 
        mathematics. A robust geoscience course would make an excellent 
        capstone for applying lessons learned from earlier class work.
  --Geoscience awareness is a key element in reducing the impact of 
        natural hazards on citizens--hazards that include earthquakes, 
        volcanic eruptions, hurricanes, tornadoes, and floods. Informal 
        geoscience education that leads to reducing risks and preparing 
        for natural events should be a life-long goal.
  --Geoscience provides the foundation for tomorrow's leaders in 
        research, education, utilization and policy making for Earth's 
        resources and our Nation's strategic, economic, sustainable and 
        environmentally-sound natural resources development. There are 
        not enough U.S.-trained geoscientists to meet current demand 
        and the gap is growing. Support for geoscience research and 
        education is necessary to stay competitive and to wisely manage 
        our natural resources.
    NOAA.--AGI supports the President's request for increased funding 
for NOAA for a total budget of $5.554 billion. AGI supports the 
requested increases for the National Weather Service for analysis, 
modeling and upgrading of observing systems; for the Oceanic and 
Atmospheric Research program; and for the National Environment 
Satellite, Data and Information Service. All three programs are 
critical for understanding and mitigating natural and human-induced 
hazards in the Earth system while sustaining our natural resources. AGI 
continues to support the implementation of the U.S. Ocean Action Plan 
of 2004 and believes the funding requests are consistent with the 
recommendations of the plan.
    NIST.--We applaud the President's request for an increase in 
research and related funding for NIST in fiscal 2011 for a total budget 
of $919 million. Basic research at NIST is conducted by Earth 
scientists and geotechnical engineers and used by Earth scientists, 
geotechnical engineers and many others on a daily basis. The research 
conducted and the information gained is essential for understanding 
climate change and natural hazards in order to build resilient 
communities and stimulate economic growth with reduced impact from 
risk.
    In particular, we strongly support increases for Measurements and 
Standards for the Climate Change Science Program, Disaster Resilient 
Structures and Communities and the National Earthquake Hazards 
Reduction Program (NEHRP). The climate change research will improve the 
accuracy of climate change measurements, may reduce satellite costs and 
may help to guide climate change policy. The hazards research will help 
to reduce the estimated average of $52 billion in annual losses caused 
by floods, fires and earthquakes. NIST is the lead agency for NEHRP, 
but has received only a small portion of authorized and essential 
funding in the past. AGI strongly supports a doubling of the NIST 
budget over 5 to 7 years as authorized in the America COMPETES Act of 
2007, so that core research functions at NIST are maintained, while 
needed funding for climate change and hazards are provided.
    NASA.--AGI supports the vital Earth observing programs within NASA. 
AGI strongly supports the requested budget of $1.8002 billion for Earth 
Science programs within the Science Mission Directorate at NASA. The 
investments are needed to implement the priorities of the National 
Academies Earth Science and Applications from Space Decadal Survey. 
NASA needs to maintain its current fleet of Earth-observing satellites, 
launch the next tier and accelerate development of the subsequent tier 
of missions. The observations and understanding about our dynamic Earth 
gained from these missions is critical and needed as soon as possible. 
In addition some satellites need to be launched at a particular time 
and in a particular sequence to meet mission objectives. The requested 
increase for fiscal 2011 and proposed increases for future years are 
wise and well-planned investments and AGI requests the support of the 
subcommittee for this budget outline.
    I appreciate this opportunity to provide testimony to the 
subcommittee and would be pleased to answer any questions or to provide 
additional information for the record.
                                 ______
                                 
   Prepared Statement of SEARCH, The National Consortium for Justice 
                       Information and Statistics

                              INTRODUCTION

    I am Ron Hawley, executive director of SEARCH. Thank you, 
chairwomen and members of the subcommittee for the opportunity to speak 
to you today and for your past support. The efforts of your outstanding 
subcommittee staff are also greatly appreciated. SEARCH has requested a 
$500,000 earmark from the Department of Justice, Byrne Discretionary 
Grant Program in the Commerce, Justice, Science, and Related Agencies 
appropriation bill for the SEARCH Justice Information Sharing Technical 
Assistance Program.
    SEARCH is a State criminal justice support organization comprised 
of Governors' appointees from each State. Each State pays dues 
annually. SEARCH's mission is to promote the effective use of 
information and identification technology by criminal justice agencies 
nationwide.

                          PAST SEARCH PROGRAMS

    SEARCH has a well-earned record for providing on-site technical 
assistance and training to State and local criminal justice agencies in 
the planning, development, implementation and management of information 
sharing activities for over 40 years. This record and our 
qualifications were recognized by the U.S. House of Representatives in 
Resolution 851 passed on November 17, 2009. Because of these 
qualifications, SEARCH has been a key partner with the U.S. Department 
of Justice and member of the Global Information Sharing Initiative 
(Global) working to develop the tools and resources needed by these 
agencies. This participation uniquely positions SEARCH with expert 
knowledge of the design, use and implementation of these resources.
    For more than 20 years, SEARCH operated the highly regarded 
National Technical Assistance and Training Program, the only no-cost 
service for small- and medium-sized criminal justice agencies to assist 
them in: (1) enhancing and upgrading their information systems; (2) 
building integrated information systems that all criminal justice 
agencies need; (3) promoting compatibility between local systems and 
State, regional and national systems; (4) developing and delivering 
high-tech anti-crime training; and (5) providing computer forensic 
technical assistance support.
    However, in recognition of the rapid advancements in information 
sharing technology, SEARCH has updated and improved our program 
offerings and proposes to implement a new program, the SEARCH Justice 
Information Sharing Technical Assistance Program.

  THE SEARCH JUSTICE INFORMATION SHARING TECHNICAL ASSISTANCE PROGRAM

    The SEARCH Justice Information Sharing Technical Assistance Program 
would support Congress and the administration's goals in reducing crime 
and recidivism. SEARCH proposes to use the funding to provide direct 
assistance to State and local criminal justice agencies in the 
Sacramento area and throughout California where those activities can 
influence and assist in the effective implementation of information 
sharing systems by law enforcement, courts, correctional agencies and 
other State and local criminal justice agencies throughout the Nation. 
The technical assistance will help agencies plan for and implement the 
standards, tools and resources developed by the U.S. Department of 
Justice in partnership with Global to support standardized information 
sharing across the country. The program will contribute to the overall 
safety of our communities by making sure decisions made by our law 
enforcement, courts, correctional agencies and others are based on 
access to timely, secure and accurate information. Through the program, 
SEARCH will provide needed expertise to allow these agencies to 
leverage scarce resources in these economically challenging times. All 
of this will be done with a fundamental focus on safeguarding privacy 
and civil liberties.
    Over the past several years, the U.S. Department of Justice has 
effectively developed numerous standards, templates, policies and tools 
to facilitate information sharing. While these tools represent great 
strides in facilitating consistent information systems and practices 
across agencies nationwide, they are complicated to understand and 
implement. Thus, many State and local agencies require expert 
assistance to adopt them, and they typically do not have the staff 
expertise or funding to support such assistance.
    Congress and the administration have focused renewed attention on 
solving prevailing problems in the justice arena: youth and gang 
violence; jail and prison crowding; successful reentry and second 
chance act programs; evidence-based policing; and tracking potential 
terrorists, arsonists and bombers, to name a few. While there are many 
policy and operational considerations in dealing with these issues, one 
that cannot be overlooked is the information sharing that is critical 
to the effectiveness of these programs. Without State and local 
automated information sharing capabilities, these programs will be 
greatly hampered in meeting their goals and objectives. If information 
sharing is improved effectively, it often creates opportunities to hire 
or deploy more line officers through resource efficiencies.
    Because SEARCH works nationally, we will be able to replicate 
successful implementation strategies in California and from one State 
or locality and disseminate and transfer those strategies to other 
States and localities. This unique program not only helps State and 
local agencies work more efficiently and effectively through the 
deployment of advanced information sharing techniques, but it also 
creates a foundation for a national information infrastructure for 
interoperable justice systems.

                  SEARCH TECHNICAL ASSISTANCE EXAMPLES

    During the past year, SEARCH has provided on-site and in-house 
technical assistance to California agencies that has helped improve 
information sharing, reduce administrative costs, enhance operational 
efficiencies and better protect data that is shared.
    SEARCH is helping Marin County, California, develop a secure 
solution for law enforcement and fire safety personnel to share 
critical event information instantly and accurately. SEARCH is 
examining the network security in a multi-disciplinary public safety 
environment to ensure law enforcement has access to criminal justice 
information while protecting the information from unauthorized users.
    SEARCH is helping the California Department of Justice meet 
national standards for information sharing. The Department requested 
SEARCH help assure the system--as designed--complied with the National 
Information Exchange Model (NIEM) developed by the U.S. Department of 
Justice (DOJ) and the Global Justice Information Sharing Initiative. 
Compliance with NIEM is a requirement under several DOJ grant programs 
and is designed so that systems developed around the country will 
adhere to standards that will enable them to share information.
    SEARCH is helping Napa County, California, replace several major 
justice agency systems with a new system. The goals of the effort are 
to improve public safety decisionmaking effectiveness, county 
administrative efficiency, and reduce overall costs in implementing new 
information sharing systems. SEARCH is assisting Napa with all phases 
of its process, including planning, comprehensive definition of needs, 
development of technical architecture and adherence to procurement best 
practices.
    SEARCH develops resources for the rest of the country through the 
work it does in California. For example, SEARCH visited Los Angeles 
County, California, to do a thorough assessment and case study of its 
intelligence sharing processes. In a detailed publication that was 
developed as a result of this analysis, other States, large counties 
and regional consortia will be able to understand how Los Angeles has 
set up its intelligence sharing solution and what lessons learned can 
be transferred to their own environment.

              INTENDED USE OF FUNDING FOR FISCAL YEAR 2011

    For fiscal year 2011, SEARCH is requesting $500,000 for the SEARCH 
Justice Information Sharing Technical Assistance Program. This request 
reflects continuing high demand for technical assistance from State and 
local criminal justice agencies in California and throughout the 
Nation.
    If SEARCH is provided with the requested funding, SEARCH intends to 
utilize the funds to address goals in its information sharing work. 
Specifically, SEARCH intends to: (1) support through technical 
assistance the adoption of national law enforcement and public safety 
information technology standards; (3) contribute to the development of 
new and emerging law enforcement and public safety standards; (4) 
develop specific information sharing requirements for the re-entry of 
prisoners into society following incarceration; and (5) improve 
agencies' ability to measure and manage their information sharing 
initiatives.

    THE PRESIDENT'S FISCAL YEAR 2011 BUDGET AND BYRNE GRANT PROGRAMS

    I would also like to take this opportunity to address the 
President's fiscal year 2011 budget. The budget provides no funds for 
the Byrne Discretionary Grant Program. This approach has been used by 
the President in the budget proposals for many years, but fortunately 
Congress has recognized the inappropriateness of the approach and 
restored it to acceptable levels. Hopefully Congress will again 
recognize that the needs met in the past by this funding continue today 
and will again restore it to an adequate level.
    I would also ask for enhanced funding for the Byrne Competitive 
Grant Program. The fiscal year 2008 Omnibus Appropriations Act 
established the competitive grant process for programs of national 
significance to prevent crime, improve the administration of justice, 
and assist victims of crime. The process is administered by the Office 
of Justice Programs (OJP) and national program organizations have been 
selected according to congressional objectives. However, the total 
amount of grant funding provided to all of the competing national 
programs has never exceeded $40 million nor been able to fund even one-
half of the worthy proposals received in response to the grant 
solicitation. The President's fiscal year 2011 budget provides $30 
million for this program. However, we believe that funding in the range 
of at least $65 million is the minimum necessary to permit a workable 
and effective competitive grant program on a national scale. Otherwise, 
the under-funded program greatly reduces its chance for success.
    Finally, I want to call your attention to a new program for State 
and local law enforcement assistance. This program, ``Justice 
Information Sharing and Technology,'' is intended to support critical 
information sharing activities of the Department of Justice and its 
Global partners. SEARCH is encouraged to see the recognition for this 
program need and encourages its funding at the proposed level of $15 
million. SEARCH believes the program will be extremely valuable to 
justice information sharing nationwide.

                               CONCLUSION

    Congressional support for the SEARCH Justice Information Sharing 
Technical Assistance Program is vital. The Federal investment of 
$500,000 can be leveraged many times over by contributing to the 
ability of State and local criminal justice agencies to provide timely, 
accurate and compatible information throughout the Nation. On behalf of 
SEARCH, its Governors' appointees, and the thousands of criminal 
justice officials who participate in the SEARCH network and who benefit 
from SEARCH's efforts, I thank you for your consideration.
                                 ______
                                 
           Prepared Statement of the Animal Welfare Institute

    The Animal Welfare Institute welcomes this opportunity to submit 
testimony as you consider fiscal year 2011 funding priorities under the 
Commerce, Justice, Science and Related Agencies Appropriations bill. 
Our testimony will address activities under the Department of Justice 
(DOJ), including the FBI, and the International Whaling Commission, and 
requests $720,000 for the National Animal Cruelty and Fighting 
Initiative under DOJ's Office of Justice Programs' (OJP) competitive 
Byrne Grant program.

                         DEPARTMENT OF JUSTICE

    We wish to commend the DOJ's OJP for awarding, through its Bureau 
of Justice Assistance, a grant to the Association of Prosecuting 
Attorneys (APA) for its new program of training, technical support, and 
other assistance for prosecutors, members of the law enforcement 
community, and other involved parties to enhance the prosecution of 
animal abuse and animal fighting crimes. This is a very exciting 
development and we are proud to support APA in this new effort and to 
have been their partner for the first national training conference upon 
which the new program is built. We respectfully urge the subcommittee 
to provide $720,000 to the BJA's National Animal Cruelty and Fighting 
Initiative and to encourage its continued interest in addressing 
animal-related crimes.
    The connection between animal abuse and other forms of violence has 
been firmly established through experience and through scientific 
studies. For example, dog fighting is prevalent among gang members. 
Also--as evidence of one of the most well-documented relationships--up 
to 71 percent of victims entering domestic violence shelters have 
reported that their abusers threatened, injured, or killed the family 
pet; batterers do this to control, intimidate, and retaliate against 
their victims. In 1997, the Massachusetts Society for the Prevention of 
Cruelty to Animals (MSPCA) released the results of a review of animal 
cruelty cases it had prosecuted between 1975 and 1996. Seventy percent 
of the individuals involved in those cases had been involved in other 
crimes, and animal abusers were five times more likely to commit a 
violent offense against other people.
    Animal abuse is, however, more than a ``gateway'' behavior. It is 
also a crime in its own right. It is a crime everywhere in the United 
States, and certain egregious acts are felonies in 46 States and the 
District of Columbia. But not all laws are created equal; a felony in 
one State may still be a misdemeanor in another. In some States, 
cruelty rises to a felony only upon a second or third offense, or only 
if the animal dies; if he survives, no matter how severe his injuries, 
it is still a misdemeanor.
    The key to offering animals the most protection possible, however 
weak or strong the statute, lies in vigorous enforcement of the law and 
prosecution of violators. While there are many in law enforcement and 
the courts who recognize animal abuse for the violent crime that it is 
and act accordingly, there are those who do not take it seriously, 
treating it as no more urgent than a parking infraction. Others 
genuinely want to act decisively but may lack the necessary resources, 
support, or expertise. Moreover, enforcement can be complicated by the 
laws themselves--weak laws are bad enough, but additional problems may 
arise from confusion over jurisdiction or limitations in coverage--or 
by pressure to dispose of cases quickly.
    This is where the Association of Prosecuting Attorneys' animal 
cruelty/animal fighting program comes in. APA recognizes that animal 
cruelty and animal fighting crimes not only victimize some of the most 
innocent and vulnerable members of society, but they also create a 
culture of violence--and a cadre of violent offenders--that affects 
children, families in general, and society at large. Therefore, 
preventing and prosecuting these crimes will benefit not only the 
animals, but the entire community by reducing the overall level of 
violence.
    In order to support and enhance the effectiveness of prosecutors in 
their efforts to achieve this goal, APA, thanks to BJA's support, is 
implementing a program to provide the following: training conferences 
and webinars; publications; technical assistance; and online resources, 
including a library of briefs, motions, search warrants, legal memos, 
and state-by-state case law. It has assembled an advisory council 
composed of prosecutors, investigators, law enforcement, veterinarians, 
psychologists, members of the animal protection and domestic violence 
communities, and others, to identify issues, resource needs, and 
strategies. It brings these same professionals together to provide its 
multidisciplinary training, and also calls on them individually for 
topic-specific web-based training and materials.
    All of this is directed toward two audiences: those who still need 
to be convinced of the importance of preventing and punishing animal-
related crimes, for the sake both of the animals and of the larger 
community; and those who are dedicated to bringing strong and effective 
cases against animal abusers but may need assistance to do so.
    OJP/BJA showed great vision in recognizing that by identifying 
precursor crimes, such as animal cruelty and animal fighting, and 
ensuring adequate adjudication of such cases, our criminal justice 
system can reduce the incidence of family and community violence and 
change the path of potential future violent offenders. Its support of 
the APA program sends a very strong message to prosecutors and law 
enforcement that crimes involving animals are to be taken seriously and 
pursued vigorously.

                    FEDERAL BUREAU OF INVESTIGATION

    BJA's recognition not only of the relationship between animal 
cruelty and other forms of violence, but also of the value of 
addressing animal cruelty crimes as part of an overall strategy for 
creating safer communities, raises the issue of tracking such crimes. 
Specifically, for many years the animal protection community has urged 
the FBI to include animal cruelty in its Uniform Crime Reporting/
National Incident-Based Reporting System (UCR) program. As noted above, 
animal abuse is a crime, and in some cases a felony. It is part of the 
cycle of violence in communities, including domestic abuse and gang 
activity. Having data about animal-related crimes would enable law 
enforcement agencies and researchers to track these offenses; to 
understand better the factors associated with animal abuse and the 
characteristics of the perpetrators; and to identify when and where 
such crimes occur, thus facilitating more effective interventions.
    Yet, for purposes of the UCR, statistics related to animal abuse 
are recorded under the category of ``other,'' making them inaccessible 
for retrieval and analysis. In a report compiled in response to a 
Congressional request, even the FBI acknowledged substantial benefits 
to be achieved through the inclusion of animal cruelty data in its UCR: 
It would ``enrich the NIBRS database'' and ``be advantageous to law 
enforcement, social scientists, and others studying the topic to have 
comprehensive data about these offenses.'' Most tellingly, the report 
noted that ``because felony convictions for cruelty to animals are a 
disqualifier for prospective volunteers under the Prosecutorial 
Remedies and Other Tools to End the Exploitation of Children Today Act 
of 2003 (PROTECT Act), Public law 108-21, data about these offenses are 
vital to law enforcement.''
    Despite the recognized value of this information, however, the FBI 
has not made any move to capture and report it in a usable form in its 
crime database. The FBI's failure in this regard is especially ironic 
since it was among the first to identify the link between animal 
cruelty and other crimes, identifying it as a behavior common among 
serial killers.
    A new proposal is being prepared for presentation to the FBI that 
is simpler than previous proposals and would meet the dual need of 
gaining important information about animal cruelty crimes while 
minimizing cost and disruption for the FBI. This proposal would not 
involve creating a separate reporting category for animal cruelty 
crimes; rather it suggests adding ``animal'' to the victim segment of 
the 52 existing data elements. (Currently, the victim segment includes 
such victim details as age, gender, race, relationship to offender, and 
type of injury.) No new data elements would be created and no segments 
of the data elements would be expanded.
    We respectfully ask the subcommittee to direct the FBI to give 
serious consideration to this proposal and to work with interested 
Members of Congress and representatives of the animal protection 
community to include animal cruelty crimes in the Nation's crime report 
in order to achieve the benefits of such inclusion as outlined above 
and recognized by the FBI.

                         DEPARTMENT OF COMMERCE

    While we enthusiastically support funding worthwhile programs such 
as those of the BJA, we cannot support funding for programs whose 
outputs conflict with the interests of the American public. Sadly, that 
is the case with the current situation with respect to commercial 
whaling, which the National Oceanic and Atmospheric Administration 
seems intent on helping to revive. Indeed, the United States stands on 
the brink of dismantling one of the cornerstone measures of American 
conservation leadership--the moratorium on commercial whaling--and with 
it, sealing the fate of many of the world's whales whom we once thought 
we had saved.
    Years of bipartisan leadership saw the commercial whaling 
moratorium adopted during the Reagan administration, while the Clinton 
administration saw the establishment of the Southern Ocean Whale 
Sanctuary. Despite these massive initiatives and assurances by the 
current administration for sound science, transparency, and that ``the 
commercial whaling moratorium is a necessary conservation measure,'' it 
now appears that U.S. influence is being used to broker an ad-hoc 
``deal'' at the International Whaling Commission (IWC). This so-called 
deal would: (1) overturn the intent behind the moratorium, allowing for 
a resumption of commercial whaling at a time when whales are still 
recovering from years of overexploitation and are facing ever 
increasing anthropogenic threats, and (2) legitimize the commercial 
whaling undertaken by Japan as a way of flouting the moratorium by 
conducting it under the guise of scientific research. Further, the deal 
will permit the continuation and potential expansion of the 
international trade in whale products and discontinue annual meetings 
of the IWC--the very body established to conserve and manage the 
world's great whales.
    The justification for this remarkable deal is to placate three 
nations--Japan, Norway and Iceland--that persist in whaling for 
commercial gain despite the rest of the world having agreed decades ago 
that the great whales are worth more alive than dead--as key components 
of our oceans' ecosystems and as global species enjoyed by millions of 
people through whale-watching. Moreover, despite repeated international 
efforts, supported by the majority of IWC member nations, asking these 
three countries to cease their whaling practices, they have ignored 
such requests and have actually expanded their whaling operations.
    Not only will the deal undermine decades of conservation gains for 
whales, but the process used to produce it also lacked any of the 
transparency that the Obama administration purports to promote. Not 
only were the negotiations that led to the deal held behind closed 
doors, but the U.S. delegation to the IWC, led by Ms. Monica Medina, 
NOAA's Principal Deputy Under Secretary for Oceans and Atmosphere and 
U.S. Commissioner to the IWC, also failed to engage U.S. non-
governmental organizations in a meaningful or substantive dialogue 
about U.S. negotiating positions at the meetings. Furthermore, AWI 
believes it is entirely disingenuous to claim that the U.S. position on 
the deal has yet to be determined, considering that the United States 
both initiated the process to develop a deal and was the leading 
proponent of finding a compromise that would ostensibly satisfy all. 
This deal is not acceptable to AWI or, we suspect, to the vast majority 
of American citizens, your constituents, who strongly oppose killing 
whales for commercial gain.
    Unfortunately, time is short--the principles of the deal were 
already presented at an IWC meeting held in early March, and it is now 
being finalized for discussion and a vote at the full Commission in 
June. We urge the subcommittee to demand that the United States' 
position on whales, whaling, the IWC, and most importantly, on the 
current ``deal,'' be provided forthwith and that any future funding of 
NOAA's IWC program be contingent on its providing complete and 
satisfactory answers as well as maintaining the historic U.S. 
leadership role in protecting whales and opposing commercial whaling.
                                 ______
                                 
      Prepared Statement of The Council on Undergraduate Research

    The Council on Undergraduate Research (CUR) is an organization 
dedicated to the promotion of undergraduate research as a means by 
which students of mathematics, technology, the natural, physical and 
social sciences, as well the arts and humanities may participate in the 
intellectual life of our society. To this end, CUR encourages faculty 
and their students to collaborate as partners in their explorations of 
uncharted intellectual terrain.
    The symbiosis established between the faculty member and the 
undergraduate collaborator energizes and informs the faculty member's 
teaching and research while simultaneously introducing the student to 
the joys of discovery, as well as to lessons in persistence, problem-
solving, and critical thinking. Faculty conducting research with 
undergraduates benefit enormously by having undergraduate collaborators 
invested in the research enterprise help to advance the faculty 
research program. Undergraduate students benefit from the opportunity 
both to learn the breadth and depth of their chosen fields of inquiry 
as well as to contribute meaningfully to the expansion of knowledge.
    Presently, individual and institutional members representing nearly 
600 colleges and universities from across the United States support the 
educational and research initiatives established by CUR to ensure that 
research partnerships between faculty and their students are encouraged 
and nurtured. A primary concern for CUR is that these partnerships 
facilitate the attainment of professional productivity and intellectual 
integrity at the standards of excellence consonant with those 
recognized by professional scholarly and research societies.
    Research and research infrastructure funding provided by the 
National Science Foundation has been critical for the support of 
original, significant research that involves undergraduates, not only 
personally, but for the entire membership represented by CUR. 
Additionally, funding and legislative acknowledgment of the benefits of 
undergraduate research can help to reduce or minimize the barriers to 
undergraduate research, while promoting innovation in postsecondary 
education.
    Accordingly, CUR strongly urges the subcommittee to increase 
funding for dedicated funding streams that support undergraduate 
research at the National Science Foundation and requests that the 
subcommittee include the below report language in the fiscal year 2011 
Commerce, Justice, Science and Related Agencies bill:

    ``Undergraduate research programs are flourishing at various types 
of institutions of higher education around the country and funding 
should be used to expand or improve these programs or help develop new 
programs at emerging research institutions. The subcommittee 
acknowledges that studies show that participation in undergraduate 
academic research programs improves college persistence rates among 
students, particularly among minority, low income, and first generation 
college students. Reviews of existing undergraduate research programs 
have also shown that these programs can boost undergraduate students' 
interest in entering STEM fields and other high-demand career paths.''

    To provide a clear understanding of the importance of support for 
undergraduate research and the value of funding research on the Federal 
level, below are examples from CUR members on the impact of 
undergraduate programs funded by the National Aeronautics Science 
Administration, National Institute of Standards and Technology, and the 
National Science Foundation.
  roger s. rowlett, professor of chemistry at colgate university (ny)
    The NSF-MRI (Major Research Instrumentation) program and its 
predecessors provided essential research instrumentation at Colgate, 
which is a predominantly undergraduate institution, and has allowed 
faculty to learn state-of-the-art research techniques. NSF funds have 
allowed Colgate to have access to modern high-field NMR and protein and 
small-molecule X-ray crystallography. Colgate is the only undergraduate 
institution in the Nation to have a dual-beam X-ray diffractometer, and 
our students use the NSF-funded equipment in their research routinely.
    Undergraduate access to modern research instrumentation is critical 
to training the next generation of scientists, and is a powerful 
enticement for recruiting a highly motivated and diverse pool of 
students into science careers. Over 90 percent of research students who 
have conducted research in my laboratory in the last decade have 
pursued postgraduate studies or careers in the sciences. The NSF-RUI 
(Research in Undergraduate Institutions) program has been a stalwart at 
providing the necessary support for individual faculty to conduct high-
quality, publishable research with undergraduates at predominantly 
undergraduate institutions.
    Historically, the NSF-REU (Research Experiences for Undergraduates) 
program has also helped establish our well-recognized summer 
undergraduate research program. The Department of Chemistry at Colgate 
held several consecutive REU grants in the 1990s which allowed Colgate 
to offer full-time summer research opportunities to not only our own 
students but also students from other institutions, some of which do 
not offer research opportunities to their undergraduates. The legacy of 
NSF-REU funding at Colgate is a self-sustaining and well-organized 
summer research program that supports 80 or more students in the 
natural sciences each year.
    Support of high-quality research at undergraduate institutions is 
critical to the national science enterprise, and is a wise investment. 
Not only does research at predominantly undergraduate institutions 
result in original discoveries that are published in the scientific 
literature, it also sustains excellent teaching by keeping faculty at 
these institutions intimately embedded in their scholarly communities 
and current in their fields of study. Undergraduates who have research 
experiences are more likely to consider post-graduate studies in the 
sciences or pursue science careers, if my personal experience is any 
guide.
    In addition to re-affirming its commitment to undergraduate 
research embodied in current programs which have been highly successful 
in improving undergraduate research and education, perhaps NSF should 
consider establishing new (``starter'') faculty research grant 
opportunities.

CHRIS HUGHES, ASSOCIATE PROFESSOR OF PHYSICS, JAMES MADISON UNIVERSITY 
                                  (VA)

    The Physics and Astronomy Division of CUR (CUR-P&A) has recently 
worked with all of the major national physics organizations to develop 
a statement which says ``We call upon this Nation's physics and 
astronomy departments to provide, as an element of best practice, all 
undergraduate physics and astronomy majors a significant research 
experience.'' Additionally, the American Astronomical Society (AAS), 
Society of Physics Students (SPS), American Physical Society Committee 
on Education (APS-CoE), and the American Association of Physics 
Teachers (AAPT) have adopted this or similar statements in agreement 
with CUR-P&A
    These statements are a significant signal that the academic 
physicists in the United States believe that an undergraduate education 
in physics or astronomy is incomplete without the experiential learning 
that comes from a research experience. Research is the utmost form of 
inquiry in the sciences and data shows that physics and astronomy 
majors who participate in research programs see improvement in their 
classroom performance and increased retention to graduation. Already, 
surveys of the approximately 6,000 graduates in P&A each year show that 
around 70 percent participate in some form of undergraduate research. 
This is an impressive figure, but it also means that there is an 
immediate need for opportunities for around 1,800 students each year.
    One of the primary programs for funding undergraduate research has 
traditionally been NSF's REU. We would like to see these programs 
augmented to support even more students. Another program that will be 
critical to meeting this need is the NSF CCLI (Course, Curriculum and 
Laboratory Improvement) since this addresses the issue of building the 
infrastructure needed to support experiential learning at many 
institutions where this is not currently available.

  DIANE HUSIC, PROFESSOR OF BIOLOGICAL SCIENCES, MORAVIAN COLLEGE (PA)

    In 2004, I had just moved to Moravian College to chair and help 
revitalize the biology department. The college didn't have a strong 
track record of grant writing, but had hired several new faculty who 
were interested in both teaching and scholarship. As I took the new 
position, I also had just become a co-PI on an NSF Undergraduate 
Research Center pilot grant. The goal of our proposed project was to 
develop a consortium of faculty and students at seven institutions to 
promote greater interest amongst students in plant science. Living near 
the Palmerton Superfund site, we tapped into contacts at the Lehigh Gap 
Nature Center and Wildlife Refuge (LGNC) that had purchased 750 acres 
of the site and was beginning a restoration project using warm season 
native grasses. Our initial visit and subsequent summer research 
``field trip'' prompted by the NSF-URC grant has subsequently led to 
wonderful partnerships and collaborative research that has transformed 
not only a mountainside, but also an academic department. Over the past 
few years, we have had 10 students and 2 faculty engaged in research 
there, the results of which have been presented at regional and 
national meetings. We are in the process of writing an ecological 
assessment report to be used by the LGNC, the EPA and other State and 
Federal agencies in developing the adaptive management plan for the 
site. Our department has taken the lead in organizing a consortium of 
researchers at 12 other partner colleges and universities and a number 
of State and Federal agencies who are involved in some aspect of the 
revitalization of the Lehigh Gap. State and Federal funds are 
supporting much of these efforts, and the site recently received 
funding from the Audubon/Toyota Together Green program--a project that 
brings together the local Audubon chapter and community and college 
volunteers.
    The Department of Biological Sciences at Moravian College now 
routinely brings classes to the refuge/Superfund site for field trips 
and class-based research projects. Not only are biology and 
environmental studies majors benefitting from this unique outdoor 
laboratory, but also students in science courses that are required as 
part of the liberal studies curriculum. We have developed a new 
Conservation Biology and Ecological Restoration course in partnership 
with the Lehigh Gap Nature Center, and students in the premiere 
offering of course participated in the experimental design for the 
Together Green projects of habitat enhancement and deer exclosure 
studies which are now being implemented. Faculty are involved with K-12 
teacher workshops in conjunction with the Lehigh Gap Nature Center and, 
along with some of the research students, serve as mentors to a youth 
naturalists group, the members of which are also involved in authentic 
research at the site. These youth were recently recognized by the 
National Audubon Society. This exhilarating partnership between citizen 
scientists, an academic department, other campuses, State and Federal 
agencies and the local community was prompted by a mere $50,000 NSF 
grant!
    Despite the examples of success stories noted above, there are many 
campuses where the teaching and research facilities and other 
infrastructure lag sorely behind and can't provide up-to-date inquiry-
based learning opportunities for students, much less support faculty-
student research. Economic difficulties threaten many, if not all, of 
our campuses and our collective efforts to enhance undergraduate 
scholarship and to be innovative in our research and curriculum. These 
threats come at a time when there is unprecedented evidence of the 
value of undergraduate scholarship for students in terms of engagement, 
learning, and retention. They also come at a time when President Obama 
and Congress have expressed deep concerns about the slipping status of 
U.S. competitiveness internationally.
    Essential to the innovation that will be needed to meet these 
challenges is the development of a research-rich curriculum, high-
quality undergraduate research experiences, first-rate faculty scholars 
and research mentors, modern outfitted facilities for teaching, 
learning and research and funds to support the actual research 
projects. Federal support, including grant funding from the National 
Science Foundation, is essential to enabling this innovation which can 
and does happen at undergraduate institutions and as a result of 
collaborative research between faculty and undergraduates.
                                 ______
                                 
               Prepared Statement of The Wildlife Society

    The Wildlife Society (TWS) appreciates the opportunity to submit 
testimony concerning the fiscal year 2011 budget for the National 
Science Foundation (NSF). TWS requests that the subcommittee work to 
provide the National Science Foundation (NSF) with the $7.424 billion 
requested by the President for fiscal year 2011, allowing NSF to fund 
its many important programs, including the Biological Sciences 
directorate (BIO) at $767.81 million.
    The Wildlife Society was founded in 1937 and is a non-profit 
scientific and educational association representing over 9,100 
professional wildlife biologists and managers, dedicated to excellence 
in wildlife stewardship through science and education. Our mission is 
to represent and serve wildlife professionals--the scientists, 
technicians, and practitioners actively working to study, manage, and 
conserve native and desired non-native wildlife and their habitats 
worldwide.
    As stated in its mission, NSF exists to promote the progress of 
science; to advance the national health, prosperity, and welfare; and 
to secure the national defense. The budget for fiscal year 2010, along 
with the much-needed funding provided by the American Recovery and 
Reinvestment Act, were essential in enabling NSF to carry out its 
mission. However, this budget needs to be sustained in coming years if 
we are to benefit from the true potential of our Nation's scientific 
enterprise. Because of the issues posed to our national safety, 
infrastructure, and environment by a changing climate and a high 
jobless rate, TWS urges strong support for NSF in fiscal year 2011 to 
tackle these issues.
    The basic, fundamental research performed with funding from NSF at 
our universities and research centers fuels innovation and drives 
economies around the Nation. NSF was the second largest provider of 
Federal R&D funding in 2008 (the latest year in which data is 
available), providing an excess of $3.8 billion across numerous 
academic fields. These funds employ the scientists and personnel that 
conduct research and maintain equipment, they support graduate student 
salaries and undergraduate training opportunities, and they provide 
early career scientists with the support that enables them to develop 
successful lifelong research programs. In short, NSF provides the 
sturdy foundation upon which our Nation's impressive scientific legacy 
has been built.
    This scientific legacy has not only allowed the United States to 
lead the world in scientific, engineering, and medical breakthroughs, 
but it also provides us with a means for continuing to lead the world 
through the pressing social issues of today. Our world needs science 
more than ever to research and develop practices that will enable us to 
adapt to climate change, conserve natural resources, and mitigate 
environmental degradation. NSF will play a major role in this as the 
largest single-agency funder of academic R&D in the environmental and 
basic non-medical biological sciences, having spent over $1.057 billion 
in these two areas in 2008 alone.
    The mission of the BIO directorate is to enable discoveries for the 
understanding of life, and its mission is particularly critical to the 
wildlife scientists represented by TWS. The basic biological and 
environmental science being performed by NSF scientists within the BIO 
directorate helps us determine the best strategies for fire prevention, 
illuminates effects of nitrogen on wildlife habitats, and helps us 
predict how air pollution affects organisms in glacial lakes. This sort 
of research provides us with resources for monitoring ecosystems and 
adapting to change. For example, a recent NSF-funded modeling study 
showed that diverting sediment-rich water from the Mississippi River 
through cuts in the levees below New Orleans could generate new land in 
the river's delta in the next century, equaling almost one-half the 
land that is expected to disappear in the same amount of time due to 
sea-level rise, storms, and erosion. Studies such as this will be 
invaluable for adapting New Orleans and other large centers of human 
population for the inevitable environmental changes of the coming 
centuries.
    NSF also plays a major role in understanding how human, wildlife, 
and environmental health are closely intertwined. An example of this is 
a joint NSF and National Institutes of Health program on the ecology of 
infectious diseases that supports research into the underlying 
ecological and biological mechanisms behind environmental changes and 
the emergence of these diseases. Projects funded through programs such 
as this allow scientists to study how large-scale environmental 
changes, such as habitat destruction, invasive species, and pollution 
enable emergence of viral, parasitic and bacterial diseases in humans, 
domestic animals, and wildlife. This sort of research not only allows 
us to understand how disease is transmitted, but also helps scientists 
determine the unintended consequences of development projects and gives 
them the capacity to forecast disease outbreaks.
    Moreover, NSF adds value to the lives of Americans by playing a 
role in conserving of our valuable natural resources, such as iconic 
species like the American Bison, and treasured landscapes like the 
Sonoran desert. These natural resources are managed and monitored by 
legions of natural resource professionals, including wildlife and 
fisheries biologists, conservation scientists, foresters, ecologists, 
range managers, wildlife veterinarians, and marine biologists, among 
others. In 2008, the Bureau of Labor Statistics estimated that there 
were approximately 30,000 conservation scientists employed in the 
United States; add to this number all of the other professionals who 
work on ecological and natural resource issues, and many hundreds of 
thousands of individuals are employed in jobs that support our 
environment. NSF plays a key role in training these professionals to 
safeguard America's environment: during the course of their educational 
and research careers, most wildlife and ecological scientists receive 
training or mentoring made possible by NSF.
    We ask you to keep NSF's vital role in mind as you continue through 
the fiscal year 2011 appropriations process, and fully fund NSF with 
the $7.424 billion as requested by the President. This will allow NSF 
to provide $767.81 million to the BIO directorate to continue to 
support the biological and environmental sciences that play an integral 
role in our national health, environment, and security.
    We thank you for considering the views of wildlife professionals.
                                 ______
                                 
           Prepared Statement of The Florida State University

    Summary of Request.--Florida State University is requesting $3.5 
million from the National Oceanic and Atmospheric Administration (NOAA) 
Air Research Laboratory (ARL) Account to fund the Consortium for the 
Study of Mercury in the Atmosphere.
    Mr. Chairman, I would like to thank you and the members of the 
subcommittee for this opportunity to present testimony before this 
subcommittee. I would like to take a moment to briefly acquaint you 
with Florida State University.
    Located in Tallahassee, Florida's capitol, FSU is a comprehensive 
Research university with a rapidly growing research base. The 
University serves as a center for advanced graduate and professional 
studies, exemplary research, and top-quality undergraduate programs. 
Faculty members at FSU maintain a strong commitment to quality in 
teaching, to performance of research and creative activities, and have 
a strong commitment to public service. Among the current or former 
faculty are numerous recipients of national and international honors 
including Nobel laureates, Pulitzer Prize winners, and several members 
of the National Academy of Sciences. Our scientists and engineers do 
excellent research, have strong interdisciplinary interests, and often 
work closely with industrial partners in the commercialization of the 
results of their research. Florida State University had over $200 
million this past year in sponsored research awards.
    Florida State University attracts students from every State in the 
Nation and more than 100 foreign countries. The University is committed 
to high admission standards that ensure quality in its student body, 
which currently includes National Merit and National Achievement 
Scholars, Rhodes and Goldwater Scholars, as well as students with 
superior creative talent. Since 2005, FSU students have won more than 
30 nationally competitive scholarships and fellowships including 3 
Rhodes Scholarships, 2 Truman Scholarships, Goldwater, and 18 Fulbright 
Fellowships.
    At Florida State University, we are very proud of our successes as 
well as our emerging reputation as one of the Nation's top public 
research universities. Our new President, Dr. Eric Barron, will lead 
FSU to new heights during his tenure.
    Mr. Chairman, let me summarize our primary interest today. It is 
known that the atmosphere dominates mercury transport pathways, yet the 
fraction of mercury entering lakes and rivers that is natural vs. man-
made, or global vs. local, is unknown. Most U.S. mercury emissions 
occur in the Northeast yet most mercury falls on Florida and the 
northern gulf coast. The sources of mercury falling on Florida are 
increasingly thought to be global rather than regional. Regional and 
global distributions of gaseous elemental mercury are unknown even 
though vapor mercury is the largest source of mercury to the 
atmosphere. These gaps in scientific knowledge undermine public policy 
initiatives to protect human health and natural environments and to 
find safe energy solutions to our power and transportation needs. 
Because of the critical impacts of mercury emissions on ecosystem and 
human health and the reliance of America's electric power grid on coal, 
a focused effort on the atmospheric mercury cycle is required to 
predict and regulate the dominant man-made sources.
    The Southeastern Mercury Consortium, a partnership between NOAA's 
Air Resources Lab (ARL), Florida State University, Georgia Tech, the 
University of Miami, and the University of Tennessee Space Institute 
(UTSI) will study the large-scale sources and fates of atmospheric 
mercury. ARL's mercury research group pioneered ground and airborne 
measurements and models of atmospheric mercury. FSU's Oceanography and 
Isotope Geochemistry Programs in the National High Magnetic Field Lab 
excel in ultra-trace element chemistry and isotopes of mercury in 
global atmospheric and aquatic environments. GaTech's Schools of Earth 
and Atmospheric Sciences and Civil and Environmental Engineering have 
extensive regional and global programs in urban photochemistry, 
``tailpipe'' and ``smoke stack'' gases, and global mapping of reactive 
trace gases and aerosols from research airplanes and satellites. UM's 
Rosenstiel School has advanced new technologies to detect atmospheric 
mercury speciation. UTSI is pioneering sampling capabilities needed for 
next generation atmospheric mercury analyses with their existing 
research airplanes. Our efforts to map gaseous elemental mercury and 
reactive gaseous mercury in the air over the southeastern United States 
will fill the gap between ground-based time series observations in the 
coastal zones by adding synoptic flight level measurements. We are 
requesting $3.5 million for this initiative.
    Additionally, Mr. Chairman, I want to briefly address a 
reprogramming request that you have pending from the National 
Oceanographic and Atmospheric Administration (NOAA) related to the 
creation of NOAA Climate Service line office. The reorganization is an 
extremely important addition to NOAA and our Nation to bring together 
the agency's strong climate science and service delivery capabilities. 
This approach has been in discussion within the scientific community 
for some time, and the time has come for such an important action to be 
implemented. I join with many others representing that community in 
respectfully requesting this subcommittee approve NOAA's reprogramming 
request to create a Climate Service office.
    With respect to the National Science Foundation (NSF), the 
President's request for fiscal year 2011 has requested $6,018,830 for 
the Research and Related Activities appropriations account. Florida 
State University strongly supports that request and encourages the 
subcommittee to make every effort to find funds to reach that requested 
level. The NSF provides over one-third of all Federal funding received 
by FSU, the largest amount provided by any Federal agency to FSU. With 
NSF's traditional support for peer-reviewed competitive research 
projects, their strong support for the scientists and engineers at FSU 
is indispensable for our students, faculty, and for our Nation as well. 
Yet with all the fine work and programs at NSF, there is a glaring 
programmatic gap in the way NSF funds some research instrumentation. 
They have programs for smaller instrumentation (<$5 million with MRI) 
and for large instruments and facilities (>$100 million with MREFC), 
but no program for those instruments in the ``mid-range'' between these 
two programs. We encourage the subcommittee to review this programmatic 
gap at NSF and consider appropriate actions to redress this issue.
    Mr. Chairman, this project and these issues are very important and 
I appreciate your consideration.
                                 ______
                                 
      Prepared Statement of the American Society for Microbiology

    The American Society for Microbiology (ASM) is pleased to submit 
the following testimony on the fiscal year 2011 appropriation for the 
National Science Foundation (NSF). The ASM is the largest single life 
science organization in the world with approximately 40,000 members. 
The ASM mission is to enhance the science of microbiology, to gain a 
better understanding of life processes, and to promote the application 
of this knowledge for improved health and environmental well being.
    The ASM strongly supports the administration's fiscal year 2011 
budget proposal for the NSF of $7.4 billion, an 8 percent increase over 
the fiscal year 2010 appropriation.
    The NSF is the only Federal agency dedicated to the support of 
basic research and education across all fields of science and 
engineering. Since 1950, the NSF has stimulated advances in multiple 
disciplines, through competitive grant awards. Seventy-four percent of 
the NSF's annual budget funds academic institutions, in support of 
approximately 241,000 scientists, students and teachers in all 50 
States, the District of Columbia and Puerto Rico. NSF funding has 
supported 187 Nobel laureates, including 21 in the last 5 years alone. 
The ASM commends Congress for increasing NSF funding over the past 2 
years, helping to reverse the erosion of Federal support for basic and 
applied research which declined from 64 percent to 60 percent between 
2005 and 2008.
    The American Recovery and Reinvestment Act (ARRA) provided 
additional funding that has helped NSF build on the Nation's past 
investment in research. In fiscal year 2009, the NSF evaluated over 
45,000 grant proposals and made roughly 14,700 new awards, of which 
about 4,700 were ARRA funded. The ARRA grants are supporting more than 
6,700 investigators, including 2,350 who had not previously received 
NSF funding.
    Increased funding for the NSF in fiscal year 2011 will stimulate 
future discoveries by NSF supported researchers at nearly 2,000 U.S. 
institutions. The latest NSF report on science and engineering 
indicators, indicates that U.S. global R&D competitiveness is at risk. 
The United States accounts for about one-third of the $1.1 trillion in 
annual global R&D expenditures. However, U.S. growth in R&D funding 
averaged 5 to 6 percent annually between 1996 and 2007, while 
comparable growth rates in Asia were 10 to 20 percent. In the same 
period, U.S. technology export shares fell by about one-third, while 
China's share more than tripled. The NSF is critical to increasing 
public and private investment in R&D and encouraging technology and 
business innovation in the United States.

               DIRECTORATE FOR BIOLOGICAL SCIENCES (BIO)

    The ASM urges congress to fund BIO with $767 million in fiscal year 
2011, a 7.5 percent increase. BIO provides about 68 percent of Federal 
funding for nonmedical, academic basic research in the life sciences, 
including the environmental biology research needed to answer questions 
related to climate change. In addition, BIO researchers work to find 
solutions to create national energy independence, as well as the 
development of new biologically based materials for diverse 
applications and better management of the environment.
    Researchers supported by NSF grants regularly make compelling 
discoveries that impact human health and well-being. Recent discoveries 
supported by the NSF include: (1) the isolation of one of the smallest 
known microbes found more than 3 km deep in an ice core and estimated 
to be more than 120,000 years old. This organism will help scientists 
to understand and study the limits of life and will also provide 
important information on the functionality of biomolecules in cold 
temperatures. (2) Research involving a representative legume, a group 
of plants that collectively feed one-third of the world's population. 
This has revealed a crucial control of the symbiosis through which a 
certain bacteria fixes nitrogen from the atmosphere in a form useful 
for plants. This research may lead to significant improvements in 
agricultural production and reduced dependence on fertilizers that 
require fossil fuels for production. (3) Researchers have used the 
growth responses of a common bacterium in stressful conditions as the 
basis for developing mathematical models to illuminate the complex 
decisionmaking behavior of humans. The responses of some microbes 
provide valuable insights about the kinds of processes that humans use 
in a range of activities from politics to economics.
    The BIO funding portfolio reflects the ongoing evolution of biology 
from once distinct disciplines into multi faceted interdisciplinary 
programs comprising diverse institutions, research specialties, and 
mission priorities. For example, BIO is a key contributor to the U.S. 
Global Change Research Program involving 13 U.S. agencies, and a 
partner in the NSF Centers program supporting over 100 centers in 7 
interdisciplinary program areas. These large collaborative programs 
tackle complex problems requiring significant investments in equipment, 
facilities, personnel and other crucial resources.
    BIO also leverages multidisciplinary expertise in its own focus 
areas, including its Emerging Frontiers (EF) Division, which is 
designed as an incubator for 21st century biology. Programs include 
``Assembling the Tree of Life'' (ATOL), an effort to assemble 
phylogenetic data for all major lineages of life, and ``Ecology of 
Infectious Diseases'' (EID), which includes goals to develop better 
predictive models of disease transmission. Recently awarded EID grants 
include spatial modeling of onchocerciasis in Africa by remote sensing, 
epidemiology of leptospirosis in Latin America, the role of environment 
and direct transmission in chronic wasting disease, and incidence 
gradients in Lyme disease in the eastern United States.
    BIO has also developed a major new multidisciplinary initiative, 
``Dimensions in Biodiversity'' that is intended to dramatically 
transform what we know and how we perceive Earth's living systems.
    The ASM supports the administration's funding level of $20 million 
for the National Ecological Observatory Network (NEON) in fiscal year 
2011. NEON is an EF initiative and the first observatory of its kind. 
Designed to detect and enable forecasting of ecological changes, NEON 
will use cutting edge technology to collect data on climate change at 
62 sites across the United States. It also will incorporate data from 
airborne observations, land use studies, invasive species studies and 
on-site experiments. The proposed $20 million for NEON represents the 
1st year of a 5 year project, with construction scheduled to begin this 
fiscal year and completion expected in fiscal year 2016. The data 
collected will be available to all users, serving a diverse 
constituency, and will help scientists forecast change at continental 
scales over multiple decades.

  DIRECTORATES OF GEOSCIENCES, ENGINEERING, MATHEMATICAL AND PHYSICAL 
                                SCIENCES

    The ASM urges congress to fund the Geosciences Directorate (GEO) 
the Engineering Directorate (ENG), and the Mathematical and Physical 
Sciences Directorate (MPS), with the administration's proposed 
increases of 7.4 percent, 11 percent, and 4.3 percent, respectively.
    The Geosciences Directorate encompasses wide ranging research 
activities that study living systems within the changing physical 
environment. For example, GEO supports the new Water Sustainability and 
Climate initiative that will understand and predict interactions among 
water quality and climate change, land use, present day water systems 
and services, and ecosystem characteristics. Within GEO, the Division 
of Earth Sciences (EAR) supports research that examines the shifting 
relationships between living and non living systems. The ongoing 
Continental Dynamics Program, for example, is identifying links between 
the geosphere, hydrosphere, atmosphere, and biosphere, funding large 
projects drawing from multiple disciplines. EAR funded research 
recently resulted in a discovery by geomicrobiologists that microbes 
living as biofilms in dark, oxygen free caves produce energy through 
previously unknown mechanisms that are still being studied. In an 
exploration of deep-sea venting systems, other researchers have shown 
that rare members of microbial communities can become dominant members; 
this result has broad implications for understanding the importance of 
microbial biodiversity in terrestrial and aquatic ecosystems.
    NSF funding accounts for 39 percent of academic basic research in 
all engineering fields and is a significant contributor to the 
knowledge base and workforce development essential for U.S. economic 
vitality. Through advances in innovative biosensors, biomaterials, 
bioimaging, waste and water treatment, food engineering and more, the 
Engineering Directorate's Chemical, Bioengineering, Environmental and 
Transport Systems Division (CBET) funds research that affects industry, 
including those producing pharmaceuticals, food, and medical devices. 
This year, CBET is soliciting new grant proposals for its Biosensing 
Program, targeting identification and detection of existing or emerging 
pathogenic microorganisms and toxins, as well as smart field deployable 
molecular sentinels for monitoring food, water, and air quality.
    Support of the Mathematical and Physical Sciences Directorate is 
critical to all scientific disciplines, as innovation increasingly 
depends on state of the art cybertools and computational techniques. 
NSF underwrites 65 percent of basic academic research in mathematics, 
47 percent in physical sciences and 82 percent in computer sciences. 
Efforts in molecular biology, genomics and metagenomics, predictive 
infectious disease modeling, high volume drug discovery, and other 
fields now require collection and evaluation of massive amounts of 
data. MPS supports the development of new and innovative mathematical 
and statistical methods to better evaluate DNA sequence data. For 
example, MPS recently requested that researchers work to find new and 
improved mathematical and statistical methods to better evaluate an 
exponential increase in DNA sequence information for biological 
threats.
    In addition, MPS funding for fiscal year 2011 will boost the 
directorate's broad impact programs. Including the Science and 
Engineering Beyond Moore's Law (SEBML) initiative to overcome current 
limits in communications and computation capability. MPS will also 
contribute to a new NSF wide priority investment, Science and 
Engineering Education for Sustainable Well Being (SEES), designed to 
integrate NSF's existing efforts in climate and energy research with 
new education and cyber based activities.

                   WORKFORCE DEVELOPMENT AND TRAINING

    The ASM supports increased funding allocated to strengthen the 
NSF's own workforce, which is responsible for administering programs of 
impressive scope and complexity. For example, NSF staff facilitated 
nearly 239,000 proposal reviews in fiscal year 2009, involving almost 
46,000 external reviewers.
    NSF supports the Nation's goal of advanced training and education 
in science and engineering through its extensive system of fellowships, 
training grants, and investigator grants that benefit both graduate and 
undergraduate students. Training tomorrow's technical workforce is 
vital to sustaining and enhancing the Nation's scientific and economic 
competitiveness. To promote greater STEM training, NSF's fiscal year 
2011 funding opportunities include: Interdisciplinary Training for 
Undergraduates in Biological and Mathematical Sciences (a joint BIO/MPS 
program); Cyberinfrastructure Training, Education, Advancement, and 
Mentoring for Our 21st Century Workforce (CI-TEAM); and a new program, 
Comprehensive Broadening Participation of Undergraduates in STEM. The 
success of these programs relies on adequate, consistent and long term 
funding in fiscal year 2011 and beyond.

                               CONCLUSION

    The National Science Foundation supports multiple research 
disciplines and its far-sighted approaches to research at the frontiers 
of discovery have pushed the Nation toward ever greater scientific 
achievements. The ASM urges Congress to provide an 8 percent increase 
for the NSF to ensure that basic and applied research in the United 
States is sustained in fiscal year 2011 and beyond.
    The ASM appreciates the opportunity to provide written testimony 
and would be pleased to assist the subcommittee as it considers the 
fiscal year 2011 appropriation for the National Science Foundation.


       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page

American Geological Institute, Prepared Statement of the.........   405
American Indian Higher Education Consortium, Prepared Statement 
  of the.........................................................   373
American Museum of Natural History, Prepared Statement of the....   379
American Public Power Association, Prepared Statement of the.....   370
American Shore and Beach Preservation Association (ASBPA), 
  Prepared Statement of the......................................   375
American Society for Microbiology, Prepared Statement of the.....   417
American Society of Agronomy, Prepared Statement of the..........
American Society of Plant Biologists, Prepared Statement of the..   391
Animal Welfare Institute, Prepared Statement of the..............   409
ASME Technical Communities' National Institute of Standards and 
  Technology (NIST) Task Force, Prepared Statement of the........   366
Association of Science-Technology Centers, Prepared Statement of 
  the............................................................   388

Bennett, Senator Robert F., U.S. Senator From Utah:
    Prepared Statement of........................................   145
    Questions Submitted by.......................................   207
    Statement of.................................................   145
Bolden, Hon. Charles F., Jr., Administrator, National Aeronautics 
  and Space Administration.......................................   105
    Prepared Statement of........................................   125
    Questions Submitted to.......................................   170
    Statement of.................................................   122
Boyd, April, Assistant Secretary for Legislative and 
  Intergovernmental Affairs, Secretary of Commerce, Department of 
  Commerce.......................................................     1
Byrd, Senator Robert C., U.S. Senator From West Virginia, 
  Questions Submitted by.........................................    50

Coastal States Organization, Prepared Statement of the...........   356
Cochran, Senator Thad, U.S. Senator From Mississippi, Questions 
  Submitted by.................................................225, 231
Crop Science Society of America, Prepared Statement of the.......   376

Feinstein, Senator Dianne, U.S. Senator From California, 
  Questions Submitted by...................................48, 198, 315
Fine, Hon. Glenn A., Inspector General, Department of Justice....   265
    Prepared Statement of........................................   267
Frost, John C., Council Member, Aerospace Safety Advisory Panel, 
  National Aeronautics and Space Administration..................   162
    Prepared Statement of........................................   164
    Questions Submitted to.......................................   228

Garn, Hon. Jake, Former Senator From Utah, Prepared Statement of.   116
Great Lakes Indian Fish and Wildlife Commission, Prepared 
  Statement of the...............................................   358

Hatch, Senator Orrin G., U.S. Senator From Utah:
    Prepared Statement of........................................   112
    Statement of.................................................   111
Holder, Hon. Eric H., Jr., Attorney General, Department of 
  Justice........................................................   233
    Prepared Statement of........................................   243
    Questions Submitted to.......................................   281
    Statement of.................................................   241
Hutchison, Senator Kay Bailey, U.S. Senator From Texas, Questions 
  Submitted by.................................................203, 228

Innocence Project, Prepared Statement of the.....................   361
Institute of Makers of Explosives (IME), Prepared Statement of 
  the............................................................   354

Lautenberg, Senator Frank R., U.S. Senator From New Jersey, 
  Questions Submitted by........................................94, 323
Leahy, Senator Patrick J., U.S. Senator From Vermont, Questions 
  Submitted by...................................................   309
Locke, Hon. Gary F., Secretary, Secretary of Commerce, Department 
  of Commerce....................................................     1
    Prepared Statement of........................................     9
    Statement of.................................................     7

Marine Fish Conservation Network, Prepared Statement of the......   401
McConnell, Senator Mitch, U.S. Senator From Kentucky, Questions 
  Submitted by...................................................   345
Mikulski, Senator Barbara A., U.S. Senator From Maryland:
    Opening Statements of...............................1, 51, 105, 233
    Prepared Statement of........................................   239
    Questions Submitted by.............................46, 76, 170, 281
Mueller, Hon. Robert S. III, Director, Federal Bureau of 
  Investigation, Department of Justice...........................    51
    Prepared Statement of........................................    58
    Statement of.................................................    56

National Association of State Alcohol and Drug Abuse Directors, 
  Inc., Prepared Statement of the................................   397
National Council of EEOC Locals, No. 216, AFGE/AFL-CIO, Prepared 
  Statement of the...............................................   383
National Federation of Community Broadcasters, Prepared Statement 
  of the.........................................................   352
National Fish and Wildlife Foundation, Prepared Statement of the.   364
National Public Radio, Prepared Statement of.....................   403
Natural Science Collections Alliance, Prepared Statement of the..   400

Oceana, Prepared Statement of....................................   393

Pew Environment Group, Prepared Statement of the.................   370

Regional Information Sharing Systems (RISS) Program, Prepared 
  Statement of the...............................................   349

SEARCH, The National Consortium for Justice Information and 
  Statistics, Prepared Statement of..............................   407
Shelby, Senator Richard C., U.S. Senator From Alabama:
    Opening Statements of....................................4, 54, 108
    Prepared Statement of........................................   233
    Questions Submitted by......................................95, 324
Society for Industrial and Applied Mathematics (SIAM), Prepared 
  Statement of the...............................................   380
Soil Science Society of America, Prepared Statement of the.......   376

The American Physiological Society, Prepared Statement of........   368
The Council on Undergraduate Research, Prepared Statement of.....   412
The Florida State University, Prepared Statement of..............   416
The Wildlife Society, Prepared Statement of......................   414

Voinovich, Senator George V., U.S. Senator From Ohio, Questions 
  Submitted by..................................................99, 346

Zinser, Hon. Todd J., Inspector General, Department of Commerce..    28
    Prepared Statement of........................................    29


                             SUBJECT INDEX

                              ----------                              

                         DEPARTMENT OF COMMERCE

                         Secretary of Commerce

                                                                   Page

Additional Committee Questions...................................    45
Address Canvassing Cost Overruns.................................    26
Administrative Staff Vacancies...................................    12
Advanced Imaging Sounder in Geostationary Orbit..................    47
American Recovery and Reinvestment Act--Meeting the Recovery Act 
  Challenges of Accountability and Transparency With Effective 
  Oversight of Program Performance, Compliance, Spending, and 
  Reporting......................................................    33
Broadband:
    Grants.......................................................    20
    Technology Opportunities Program.............................    49
Commerce's Role in the President's National Export Initiative....    23
Cybersecurity....................................................    40
Decennial Census--Census Needs to Ensure Accuracy and Contain 
  2010 Decennial Costs While Addressing Future Census Challenges.    29
Department-level Oversight Board for Acquisitions................    40
Emergency Steel Guaranteed Loan Program..........................    50
Information Technology (IT) Security--Commerce Must Continue 
  Enhancing the Department's Ability to Defend its Systems and 
  Data Against Increasing Cyber Security Threats.................    31
International Trade Administration Funding.......................    13
Internet Security/Cybersecurity..................................    41
National:
    Export Initiative............................................    18
    Marine Fisheries Service.....................................    48
National Oceanic and Atmospheric Administration (NOAA):
    Environmental Satellites--NOAA Must Effectively Manage 
      Technical, Budgetary, and GOvernance Issues Surrounding the 
      Acquisition of two Environmental Satellite Systems.........    32
    Funding......................................................    23
    Red Snapper Update...........................................    17
    Satellite Program............................................    40
    Satellites...................................................    24
NIST's Role in the Area of Forensic Science......................    17
Nonresponse Followup Operation...................................    44
Office of Inspector General Funding..............................    45
Other Challenges Facing the Department of Commerce...............    37
Public Telecommunications Facilities--Planning and Construction..    22
Red Snapper Stock Data Flaws.....................................    15
Refined Assumptions for the 2010 Census..........................    27
Regional Innovation Clusters.....................................    21
Satellites.......................................................    19
Stimulus Funding.................................................    23
Timeframe for Nonresponse Followup...............................    44
Trade With China.................................................    46
2010 Census......................................................26, 43
    Data Availability............................................    27
United States Patent and Trademark Office (USPTO):
    Backlog......................................................    14
    Funding......................................................    14
    Must Address its Resource and Process Issues.................    36

                         DEPARTMENT OF JUSTICE

                            Attorney General

Adam Walsh Act Resources.........................................   325
Additional Committee Questions...................................   281
Administration ``earmarks''......................................   329
Advancing the Rule of Law........................................   296
Afghanistan--Fighting Narco-Terrorism--DEA.......................   298
Aggressive Pursuit of Financial Fraud............................   244
Assist State, Local and Tribal Law Enforcement...................   245
ATF Resources....................................................   321
BOP..............................................................   340
BP Oil Spill.....................................................   250
Bureau of Prisons/Thompson Correctional Center...................   328
Combat International Organized Crime.............................   245
COPS Program.....................................................   248
Counterterrorism.................................................   267
Courthouse Security..............................................   291
Crime Victims Clinics............................................   323
Criminal Investigations and Prosecutions.........................   294
Curbing Lavish Spending..........................................   301
Cybersecurity....................................................   260
Danger Pay for USMS and ATF Personnel in Mexico..................   325
DEA-EPIC-ICE.....................................................   328
Department of Justice Funding....................................   316
Detention and Incarceration......................................   275
DHS-DOJ Disparity Along the Southwest Border...................297, 326
Drug Intelligence Center.........................................   329
El Paso Intelligence Center (EPIC)...............................   317
Enforce Immigration Laws.........................................   246
Ensure Public Safety in Tribal Communities.......................   246
FBI..............................................................   335
    Surveillance Resources.......................................   316
Financial:
    Crimes, Violent Crime and Cyber Crime........................   271
    Fraud--Predatory Lending.....................................   281
    Management...................................................   276
Firearm Background Checks........................................   253
Forensics Cost Analysis..........................................   333
Funding for Terrorist Trials.....................................   290
Grant Disbursement...............................................   278
Gun Shows........................................................   319
Health Care Fraud................................................   282
Information Technology Systems Planning, Implementation, and 
  Security Upgrades and Security.................................   273
Intellectual Property Enforcement................................   311
Juvenile Mentoring...............................................   253
Legal Analysis:
    Applicable to the Scope of the Injunction Under Section 11(b)   314
    Relevant to Liability Under Section 11(b) of the Voting 
      Rights Act.................................................   312
Maintain Prisons, Detention, Parole and Judicial and Courthouse 
  Security.......................................................   245
May 2010 Times Square Plot.......................................   315
Mentally Ill Offenders...........................................   311
Miranda Rights...................................................   257
Narco-Terrorism..................................................   318
Narcotics Control................................................   255
National:
    Academy of Science Study.....................................   334
    Drug Intelligence Center.....................................   328
New Black Panther Party Voter Intimidation Investigation.........   311
9th Circuit Vacancy..............................................   253
NIST Forensics...................................................   324
Operation Streamline.............................................   346
Peer Review Costs at DOJ.........................................   329
Post Conviction DNA Testing......................................   310
Prisons:
    Overcrowding.................................................   302
    Thomson Prison Facility......................................   302
    Understaffing................................................   303
Protect Civil Rights.............................................   245
Protecting Civil Rights and Civil Liberties......................   269
Rachael Wilson...................................................   264
    Case--Public Safety Officers' Benefits.......................   299
Recovery Act Funding and Grant Management........................   272
Reduce Violent Crime and Drug Trafficking........................   244
Restoring Confidence in the Department...........................   270
RISS Program Funding.............................................   309
Second Chance Act................................................   288
Shahzad:
    Arrest Alternatives..........................................   315
    Interrogation................................................   258
Southwest Border:
    Prosecution Initiative.......................................   321
    Violence--DEA................................................   292
Stopping Child Predators.........................................   287
Strengthen National Security.....................................   244
Task Forces--State and Local Law Enforcement.....................   287
Thomson:
    Facility.....................................................   322
    Prison.......................................................   342
Times Square:
    Bomber.......................................................   252
        Arrest...................................................   262
    Bombing......................................................   249
        Attempt..................................................   289
Training and Oversight...........................................   279
VOCA Funding.....................................................   322
Watch List Reform................................................   277

                    Federal Bureau of Investigation

Additional Committee Questions...................................    76
Child Predators..................................................    73
Christmas Day Bombing Attempt....................................    77
Cybersecurity Initiative.........................................    76
DNA Policy.......................................................69, 98
Drug Interdiction Metrics........................................    71
FBI:
    Academy......................................................    81
    Long Term Planning...........................................    94
Health Care Fraud................................................    84
Innocent Images..................................................74, 98
Intellectual Property Enforcement Prioritization.................    99
Legat Offices....................................................    82
Major Crime Problems and Threats.................................    60
Medicare and Medicaid Fraud......................................    73
Mexican Border...................................................    70
Mortgage Fraud:
    Predatory Lending............................................    83
    White Collar Crime...........................................    65
National Security:
    Letters......................................................    91
    Threats......................................................    59
Overseas Contingency Operations..................................79, 97
Relationship Between Intellectual Property Theft and Crime/
  Terrorism......................................................   101
Render Safe Mission..............................................    79
Sentinel.........................................................66, 89
Serial Murders and Rapes.........................................    97
State and Local Law Enforcement--Fighting:
    Terrorism....................................................    88
    Violent Crime................................................    87
Stopping Internet Child Predators................................    86
Technology.......................................................    66
Terrorist:
    Explosive Device Analytical Center [TEDAC]...................    68
        1........................................................    95
        3........................................................    96
        2........................................................    95
    Watchlist....................................................    92
The National Intellectual Property Rights Coordination Center....   101

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

A ``Devastating'' Plan--Obama Doesn't get it; Space is Last 
  Frontier.......................................................   151
Access to Space..................................................   153
Additional Committee Questions...................................   170
Aeronautics Research.............................................   129
Ares I Versus Falcon 9...........................................   153
ASAP Charter.....................................................   230
Budget Process...................................................   207
Closing Remarks to NASA..........................................   161
Commercial:
    Capability...................................................   159
    Orbital Transportation System (COTS).........................   110
        And Resupplying the International Space Station With 
          Cargo and Crew.........................................   211
    Space Flight...............................................154, 170
        Initiative and ISS Access and Safety.....................   203
Constellation..................................................106, 215
    Costs........................................................   208
    Mission......................................................   160
    Program....................................................124, 151
Construction and Environmental Compliance and Restoration........   139
Continuous U.S. Human Spaceflight Capability--Compliance With the 
  Law............................................................   207
Contract Termination...........................................107, 144
    Follow-up....................................................   176
Cost of Constellation............................................   174
Crew Return Vehicle..............................................   159
Cross-Agency Support.............................................   138
Cyber Security...................................................   187
Demonstrated Safety Record.......................................   153
Earth Science....................................................   180
Education........................................................   138
Exploration......................................................   132
    Timelines....................................................   201
Financial Management.............................................   188
Fiscal Year 2011 Budget Request..................................   123
Future of:
    Constellation................................................   223
    Solid Rockets and Ares Technology............................   225
Glenn Research Center--Plumbrook Facility........................   156
Heavy Lift Vehicle...............................................   226
Highlights of the Fiscal Year 2011 Budget Request................   126
Human:
    Rating Requirements--Commercial and Soyuz....................   229
    Space Flight.................................................   106
Industrial Base................................................147, 149
International Space Station....................................157, 158
    Survival.....................................................   161
Introduction of Administrator Bolden.............................   122
NASA:
    And Commercial Companies.....................................   156
    Sponsored Conferences........................................   197
NASA's Goals.....................................................   224
Preservation of Strategic Solid Rocket Capacity..................   199
President's April 15 Speech in Florida...........................   219
Private Sector Competition.......................................   156
Protecting the:
    Law........................................................148, 149
    Money......................................................147, 149
Robust Testing Program...........................................   155
Rocket Testing Complex...........................................   225
Safety...............................................107, 109, 143, 198
    And Mission Assurance Technical Authority....................   227
    Program......................................................   154
Satellite:
    Acquisition..................................................   179
    Servicing....................................................   178
Science..............................................127, 147, 148, 158
    Budget.......................................................   106
Solid Rocket Motors and the Industrial Base......................   217
Space:
    Operations...................................................   135
    Program....................................................150, 158
    Shuttle Retirement...........................................   173
    Station Safety and Sustainability............................   228
    Technology...................................................   133
Sustainability of International Space Station....................   204
Sustainable Exploration Program..................................   157
Testing of Commercial Launch Vehicles............................   226
The Need for a Destination.......................................   107
Workforce Transition.............................................   173

                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
